<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 107-696]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 107-696, Pt. 7
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 7

                               STRATEGIC

                               ----------                              

                  MARCH 7, 13, 20; APRIL 10, 11, 2002


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                        2003--Part 7  STRATEGIC

                                                 S. Hrg. 107-696, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 7

                               STRATEGIC

                               __________

                  MARCH 7, 13, 20; APRIL 10, 11, 2002


         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
81-928 PDF                 WASHINGTON DC:  2003
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman
EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia,
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky
                     David S. Lyles, Staff Director
              Judith A. Ansley, Republican Staff Director
                                 ------                                

                       Subcommittee on Strategic

                   JACK REED, Rhode Island, Chairman
ROBERT C. BYRD, West Virginia        WAYNE ALLARD, Colorado
DANIEL K. AKAKA, Hawaii              STROM THURMOND, South Carolina
BILL NELSON, Florida                 BOB SMITH, New Hampshire,
E. BENJAMIN NELSON, Nebraska         JAMES M. INHOFE, Oklahoma
JEFF BINGAMAN, New Mexico            JEFF SESSIONS, Alabama

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
              Ballistic Missile Defense Program and Budget
                             march 7, 2002

                                                                   Page

Aldridge, Hon. E.C. ``Pete'', Under Secretary of Defense for 
  Acquisition, Technology, and Logistics.........................     9
Kadish, Lt. Gen. Ronald T., USAF, Director, Missile Defense 
  Agency.........................................................    10

       Ballistic Missile Defense Acquisition Policy and Oversight
                             march 13, 2002

Aldridge, Hon. E.C. ``Pete'', Under Secretary of Defense for 
  Acquisition, Technology, and Logistics.........................    72
Christie, Hon. Thomas P., Director, Operational Test and 
  Evaluation, Department of Defense..............................    76
Kadish, Lt. Gen. Ronald T., USAF, Director, Missile Defense 
  Agency.........................................................    78

  National Security Space Programs and Strategic Programs and Systems
                             march 20, 2002

Eberhart, Gen. Ralph E., USAF, Commander in Chief, United States 
  Space Command..................................................   137
Teets, Hon. Peter B., Under Secretary of the Air Force and 
  Director, National Reconnaissance Office.......................   142
Ellis, Adm. James O., Jr., USN, Commander in Chief, United States 
  Strategic Command..............................................   165

    Department of Energy's Environmental Management Program and the 
 National Nuclear Security Administration's Defense Program and Other 
                           Weapons Activities
                             april 10, 2002

Roberson, Hon. Jessie Hill, Assistant Secretary of Energy for 
  Environmental Management.......................................   253
Beckner, Everet H., Ph.D., Deputy Administrator for Defense 
  Programs, National Nuclear Security Administration.............   280
Erickson, Ralph E., Associate Administrator for Facilities and 
  Operations, National Nuclear Security Administration...........   291

        Intelligence, Surveillance, and Reconnaissance Programs
                             april 11, 2002

Stenbit, Hon. John P., Assistant Secretary of Defense for 
  Command, Control, Communications, and Intelligence.............   330
Newbold, Lt. Gen. Gregory S., USMC, Director of Operations, J3, 
  the Joint Staff................................................   334
Szemborski, Rear Adm. Stanley R., USN, Deputy Director for 
  Resources and Requirements, J8, the Joint Staff................   334

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                        THURSDAY, MARCH 7, 2002

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.

              BALLISTIC MISSILE DEFENSE PROGRAM AND BUDGET

    The subcommittee met, pursuant to notice, at 2:57 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed, Byrd, Bill 
Nelson, Inhofe, and Allard.
    Committee staff member present: David S. Lyles, staff 
director.
    Professional staff members present: Kenneth M. Crosswait 
and Richard W. Fieldhouse.
    Minority staff members present: L. David Cherington, 
minority counsel; Brian R. Green, professional staff member; 
and William C. Greenwalt, professional staff member.
    Staff assistants present: Dara R. Alpert and Thomas C. 
Moore.
    Committee members' assistants present: Erik Raven, 
assistant to Senator Byrd; Elizabeth King, assistant to Senator 
Reed; Peter A. Contostavlos, assistant to Senator Bill Nelson; 
J. Mark Powers and John A. Bonsell, assistants to Senator 
Inhofe; Douglas Flanders, assistant to Senator Allard; Arch 
Galloway II, assistant to Senator Sessions; and Kristine 
Fauser, assistant to Senator Collins.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Let me begin the hearing. Senator Allard, our 
ranking member, is on his way, and I believe others may be 
joining us, but I want to welcome General Kadish and Secretary 
Aldridge. Thank you for appearing this afternoon. I will give 
my opening statement and when Senator Allard arrives, recognize 
him for his opening statement as well as other Senators. At the 
conclusion of our statements, we would ask General Kadish and 
Secretary Aldridge to make their opening statements.
    Mr. Secretary, I am told you did not submit a statement for 
the record.
    Secretary Aldridge. No, sir. I have one for next week when 
we talk about the management issues. I just have a very short 
verbal presentation.
    Senator Reed. Thank you very much.
    The Strategic Subcommittee meets this afternoon to receive 
testimony on the Department of Defense Ballistic Missile 
Defense (BMD) program and budget. Our two witnesses today are 
the Honorable E.C. Pete Aldridge, Under Secretary of Defense 
for Acquisition, Technology, and Logistics, and Lt. Gen. Ronald 
T. Kadish, Director of the newly organized Missile Defense 
Agency (MDA).
    Secretary Aldridge is in charge of all major defense 
acquisition programs for the Department, including missile 
defense programs. I want to thank him for being here today to 
help us put the missile defense budget in the context of the 
overall acquisition budget. General Kadish is, of course, well-
known to members of this subcommittee. I welcome you here once 
more, General.
    This is the first of two scheduled hearings this 
subcommittee will have on the subject of missile defense. This 
hearing will focus on how the Defense Department plans to spend 
the $7.5 billion it has proposed for ballistic missile defense 
in fiscal year 2003, as well as how it intends to spend over 
$40 billion it has planned for fiscal years 2003 through 2007.
    The second hearing, scheduled for next week, will focus on 
the changes in oversight and acquisition policy the Department 
is implementing for ballistic missile defenses. I have 
substantial concerns with the large scope of these changes in 
oversight and policy, and I believe a number of my colleagues 
have similar concerns. However, I would urge my colleagues to 
save oversight-related questions until next week's hearing. We 
have plenty on our plate today in establishing a fair 
understanding of this large and complex missile defense budget 
proposal.
    It is, indeed, critically important to understand the 
budget that has been proposed for missile defense, and to make 
sure we are spending our money wisely and efficiently in this 
area. The theater ballistic missile threat to our deployed 
forces exists today, and it has existed for over a decade. A 
ballistic missile threat to our homeland could materialize as 
well, although the likelihood and timing of such a threat, and 
its magnitude, are subjects for debate.
    The administration has proposed spending a prodigious sum 
of money on missile defense in fiscal year 2003, as it did for 
the current fiscal year, but spending vast amounts of money 
does not guarantee anything but expensive operations of 
government contracts. Unless that money is spent wisely, this 
country will not proceed expeditiously on a course to either 
effective theater missile defenses for our troops or an 
effective national missile defense (NMD) for our homeland.
    Increases in funding do not guarantee success for programs 
as complex and difficult as missile defense, and unfortunately 
an example of this is the much-touted PAC-3 missile defense 
program. It had a string of notable test successes which led to 
the administration's proposing a $300 million increase in the 
program for fiscal year 2002, mostly to buy missiles. Congress 
enthusiastically added $82 million more to the administration's 
request, but the $382 million in additional funds did not 
prevent a PAC-3 system from missing two out of three targets 
during its last flight test on February 16.
    This is not an indictment of PAC-3, but it should awaken us 
all to the fact that funding itself does not ensure success, 
and nothing can replace realistic flight tests to determine the 
operational effectiveness of a missile defense system. That is 
why I am encouraged by the administration's new focus on 
ballistic missile defense testing.
    We must keep in mind that every billion dollars spent on 
missile defense is a billion not spent on counterterrorism 
efforts, on increased protection for our ports and borders, on 
biowarfare defenses, on vaccines for our citizen soldiers, on 
cooperative programs to reduce the threat of nuclear weapons 
and other weapons of mass destruction, on transformation of the 
Army into a more mobile, lethal, and relevant force, on our 
much-needed Navy ships, and on a host of other crucial 
programs.
    Last year, the administration's missile defense program was 
long on funding but short on details. Despite numerous hearings 
on missile defense and a very long briefing that General Kadish 
was gracious enough to provide members of this subcommittee, we 
were left with a number of important unanswered questions, such 
as: What is the administration's overall plan for missile 
defense? What does it mean to say that the administration has a 
goal of employing a ballistic missile defense system that 
layers defenses to, ``defend the U.S., deployed forces, allies, 
and friends?'' When might such a vast defensive network be 
deployed? What would it look like? How much would it cost?
    As I mentioned before, our troops overseas are facing the 
threat of hundreds of short- to medium-range theater ballistic 
missiles right now. When will effective theater defenses, such 
as Theater High Altitude Area Defense (THAAD), Navy Theater-
Wide, and the Navy Area-Wide be deployed? How many such systems 
will be bought?
    As for national missile defense, why does the 
administration plan appear to be at odds with its rhetoric? In 
testimony before the full committee last year, Deputy Secretary 
of Defense Paul D. Wolfowitz sounded positively alarmed about 
the prospect of imminent ballistic missile attacks from North 
Korea. He said, ``in 1998, North Korea surprised the world with 
its launch of a Taepo Dong missile over Japan with a previously 
unknown and unanticipated third stage. If we do not build 
defenses against these weapons now, hostile powers will soon 
have or may have already the ability to strike the United 
States and allied cities with a nuclear, chemical, or 
biological weapon.'' But the administration is not building 
missile defenses now.
    Under President Clinton's national missile defense plan, 
construction of an extant radar in Alaska would have been done 
this spring. The construction of this radar, coupled with 
continued flight tests and the eventual production of 
interceptor missiles, would have provided the best defense 
against North Korean missiles. Yet last year, the 
administration requested no funding for such a radar. It will 
not be built this year.
    With the huge amount of funding it received last year for 
missile defense, why didn't the administration begin to build 
the best national missile defense we know how to build? Now 
that the ABM Treaty issue is decided, for better or worse, does 
the administration intend to start building our best available 
defensive systems next year? Is it funded in the fiscal year 
2003 request? It appears that the answer to these questions is 
no.
    Other questions on national missile defense that remain 
unanswered include the following: How much might the 
administration's national missile defense plan cost? The 
Congressional Budget Office recently estimated that a layered 
national missile defense system could easily exceed $150 
billion. How effective will the administration's national 
missile defense be? How will it be tested, and how realistic 
will the tests be? Will realistic countermeasures be used, and 
will our system be able to overcome them?
    One reason the administration gave last year as to why they 
could not answer these questions was that their approach to 
missile defense was evolving, with no plan yet in place. How 
much do we want to spend just on evolution? The administration 
has now been in office for over a year, and is well into 
spending the nearly $8 billion for missile defense Congress 
provided in fiscal year 2002.
    Secretary Aldridge and General Kadish, I hope you will 
provide better and more complete answers to these types of 
questions this year than we were provided last year.
    I should add that our staff will coordinate closely with 
the Senate Appropriations Committee staff this year, as we did 
last year, so the answers you provide to our questions will 
also help the appropriators do their job. I would note not only 
the presence of my colleague, the ranking member, Mr. Allard, 
but also the Chairman of the Senate Appropriations Committee, 
Senator Byrd.
    I strongly support rapid deployment of theater ballistic 
missile defenses for our troops as soon as we can prove these 
defenses will work. I also continue to support research and 
development of a national missile defense for our homeland, but 
I also want that system to be proven to work before we deploy 
it.
    Finally, I believe ballistic missile defense funding should 
be balanced with other pressing national security needs. The 
events of September 11 have changed attitudes on our security 
and missile defense. The American people, both Service members 
and citizens, want and deserve protection from the most likely 
and dangerous potential threats. It is up to both the 
administration and Congress to be smart about how to best 
protect them.
    Now, before we turn to our witnesses, let me recognize the 
ranking member, my colleague, Senator Allard, and then Senator 
Byrd.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman. I want to welcome 
our witnesses today. Secretary Aldridge, it is a pleasure to 
have you here today, and General Kadish, it is good to see you 
again. We appreciate your willingness to take time out of your 
busy schedules and your efforts to assure that all Americans 
are protected from weapons against which we do not yet have an 
effective defense, ballistic missiles.
    How, and even whether, we should develop and deploy such 
defenses has been a matter of serious controversy for nearly 20 
years. In many ways, the debate on missile defense represents a 
fundamental difference in approach to national security. One 
relied on arms control and special bilateral arms control 
agreements between the Soviet Union and the United States as 
the central aspect of our defense. From this perspective, the 
ABM Treaty was consistently described as ``the cornerstone of 
strategic stability.''
    The other view is that the United States needs to provide 
for its own defense and cannot afford to rely exclusively on 
agreements with adversaries to limit the threats it has to 
face. From this perspective, arms control agreements such as 
the ABM Treaty are less significant, and the development of 
military capabilities needed to meet threats, including the 
ballistic missile threat, is paramount.
    I believe that the end of the Cold War has strengthened the 
argument that bilateral arms control with the Soviet Union no 
longer addresses our central security concerns. Ballistic 
missiles and weapons of mass destruction have proliferated, 
posing significant and increasing threats to the United States, 
its allies, friends, and deployed troops. An arms control 
agreement that prevented the development of effective defenses 
seems to me to be increasingly out of touch with our security 
needs. It was in this context that President Bush last December 
13 made the courageous decision to withdraw from the ABM 
Treaty.
    Some will no doubt continue to believe that this decision 
was mistaken, but the decision has been made. Russia and our 
allies have accepted the decision, and predictions of Russian 
withdrawal from other arms control agreements and an 
unconstrained arms race appear to have been inaccurate, and the 
means and the nature of the BMD debate have changed.
    This is not a philosophical argument any more. The passions 
generated by a commitment, well-meaning and honestly held, to 
an arms control framework at the center of which stood the ABM 
Treaty must be replaced by rational consideration of how to 
achieve effective ballistic missile defense capabilities as 
efficiently and promptly as possible.
    I fear, however, that the emotion of the past debates 
continues to play a large role in the shaping of the 
subcommittee agenda. The chairman has decided that we will have 
two hearings on the Missile Defense Agency and its budget of 
about $6.7 billion.
    As important as the ballistic missile defense program is, I 
must note that the subcommittee's jurisdiction is broad, and 
includes many difficult issues that we need to address, some of 
which we will now in all likelihood give insufficient 
attention. Indeed, I had hoped for a separate hearing on space 
programs and management, since a number of space programs have 
run into technical, schedule, and cost challenges, and the 
management and oversight processes for space programs are going 
through a period of substantial reform. Instead, all space and 
strategic programs, with a combined budget of about $40 
billion, will be covered in one hearing.
    I am pleased, Mr. Chairman, that we have reached an 
agreement to schedule time to deal with issues related to the 
Department of Energy environmental management (EM) programs. 
The EM budget request for fiscal year 2003 is $6.7 billion, 
almost exactly the same as MDA's request, and includes a major 
reform initiative that promises to speed the cleanup of former 
nuclear weapons facilities by decades. This initiative is 
important not only to the Department of Energy but to all 
Americans who live near these sites, and it deserves our 
attention.
    I look forward to working closely with you to find a time 
convenient not only to you and me but all our interested 
subcommittee members, Mr. Chairman. While I am still not 
satisfied that the subcommittee is pursuing a more balanced 
approach to the broad and complicated issues over which we 
exercise our authority, I respect the majority's right to have 
the hearings they want to have. I do not question in any way 
their motives, and I understand that they have serious concerns 
about the missile defense program.
    Thus, we will hear over the next two subcommittee hearings 
many criticisms from some of our colleagues about the priority 
accorded to missile defense, the efficacy of missile defense 
programs, and the approach taken to the development of missile 
defense capabilities. I believe that most of these criticisms 
are baseless. For example, critics of missile defense often 
maintain that ballistic missiles pose the least likely threat 
that the Nation must face. This is simply false. Ballistic 
missiles pose the most likely threat we must face. Indeed, we 
face it today.
    Missiles and weapons of mass destruction are meant to 
deter. I know my colleagues on the other side of the aisle 
believe this. They have often argued that our own nuclear force 
levels are too high, and that effective deterrence does not 
require that many nuclear weapons. According to the latest 
national intelligence estimate (NIE), our Nation faces a likely 
ICBM threat from Iran and North Korea, and a possible threat 
from Iraq. Dozens of nations have short- and medium-range 
ballistic missiles already in the field that threaten U.S. 
interests, military forces, and allies.
    The clear trend in ballistic missile technology is toward 
longer range and greater sophistication. Once deployed, these 
missiles threaten the United States, its allies and friends, 
and its deployed troops. No one has to fire them to be 
effective. I want to repeat that. No one has to fire them to be 
effective. They are effective by their mere presence.
    The NIE does conclude that other forms of attack are more 
likely than missile attack, but it also concludes that nations 
hostile to U.S. interests are developing these capabilities 
precisely to deter the United States, and that the likelihood 
that a missile with a weapon of mass destruction would be used 
against U.S. forces or interests is higher today than during 
most of the Cold War, and will continue to grow as the 
capabilities of potential adversaries mature.
    The NIE simply reinforces the conclusion presented by our 
committee chairman last May when he said, ``the question is not 
whether there is or will be a threat to the United States from 
ballistic missiles. There is, or probably will be soon, from 
North Korea.'' Still, some critics may continue to argue that 
such nations would never dare attack, knowing that our vastly 
superior forces could destroy them. Again, I disagree. We 
already know that our adversaries believe that we can be 
deterred from pursuing our interests.
    A week ago, the Emerging Threats and Capabilities 
Subcommittee received some remarkable testimony from Mr. 
Charles Duelfer. In his capacity as the Deputy Executive 
Chairman of the U.N. Special Commission on Iraq, known as 
UNSCOM, he had the opportunity to interview senior Iraqi 
ministers on Saddam Hussein's perceptions of the Persian Gulf 
War.
    Now, many of us are aware the United States threatened Iraq 
with extraordinary, regime-ending consequences should that 
nation use chemical or biological weapons against coalition 
forces during the conflict. The use of this threat has been 
seen as triumph of deterrence, but according to Mr. Duelfer, 
Iraq loaded chemical and biological warheads on ballistic 
missiles, and authority to launch those missiles was delegated 
to local commanders with no further intervention or control by 
higher Iraqi authorities, with orders to launch if the U.S. 
moved to Baghdad, and we never attacked Baghdad. The Iraqi 
regime survived, and survives to this day, and they would 
attribute that survival to the deterrent effect of missiles and 
weapons of mass destruction.
    The argument that missiles pose the least likely threat, or 
that we can deter all of our adversaries, is a precursor to the 
contention that Missile Defense Agency funding could better be 
spent on other defense programs. This, too, I think is 
incorrect. How should we compare it? We have only very limited 
capability to defend against ballistic missiles, and the 
current BMD program is attempting something that we have never 
done before: an effective missile defense system that 
integrates the capabilities of dozens of projects.
    We propose to spend $6.7 billion this year to do this, less 
than requested last year by about $300 million. We have 
substantial legacy capabilities in every other mission area, 
yet the budget request proposed to spend over $35 billion to 
counter the terrorist threat. We will spend $11.3 billion on 
three tactical aircraft programs in 2003, and probably about 
$350 billion over the lifetime of these programs. We will spend 
about $20 billion on space programs in 2003.
    I do not argue that funding other systems is unjustified. 
Indeed, I support robust programs in all of these areas. I 
argue that spending on missile defense is not out of line, 
given the magnitude of the challenge and the severity of the 
threat. I confess that the logic of the argument that we are 
short of ships and airplanes so we do not need missile defense 
escapes me.
    Again, to quote our committee chairman, Senator Levin, 
speaking specifically about our national missile defense 
system, ``I do not believe that cost will be a major 
impediment,'' but that raises another point of the critics that 
we may hear today, that the focus within the missile defense 
program is wrong. Thus, we need to spend less on national 
missile defense and focus more on theater missile defense that 
would protect our allies, friends, and deployed troops.
    Of course, last year, our colleagues sought to cut $1.3 
billion from missile defense, about half of which could be 
reasonably defined as theater missile defense, but 
fundamentally we have to recognize that there is no clear 
dividing line between national missile defense and theater 
missile defense. A system like THAAD, the theater system for 
the United States, might be the German national missile 
defense, or perhaps THAAD will contribute to the U.S. national 
missile defense mission by protecting U.S. territories, or if 
the system is upgraded, protecting the U.S. from long-range 
missiles.
    What we used to call the ground-based national missile 
defense system could, depending on where it could be based, 
defend Northern Europe from intermediate-range missile threats 
from the Middle East. Some boost-phase systems could shoot down 
missiles at any range. The whole notion behind the proposed 
ballistic missile defense program is to develop a single 
integrated missile defense system that can deal with threats of 
all ranges, and an architecture that is determined by threat 
assessments and technical maturity, and we need to move beyond 
terms that have largely lost their meaning.
    There is no doubt that we will hear from many members 
concerns about specific programs. No doubt the missile defense 
program will have its share of failures, as well as successes. 
I would remind my colleagues that very few programs are 
strengthened by deep funding reductions. While the challenge of 
producing effective missile defense is daunting, I would also 
remind my colleagues of the statement by our committee 
chairman, ``do I believe we can achieve an operationally 
effective national missile defense system?'' and his answer 
was, ``I do.''
    Finally, I understand that the chairman's intent is to 
focus this week's hearing on Missile Defense Agency budget and 
programs, and next week's hearing on MDA organization and 
management processes. Mr. Chairman, I will try to abide by your 
desires. Nevertheless, as MDA management processes are 
reflected in its programmatic request, we will quite possibly 
hear criticisms of these processes today as well. I am afraid 
these criticisms will devolve into a fundamental disagreement 
that some of our friends on the other side of the aisle may 
have with the direction of the entire Department of Defense.
    The Department is embracing capabilities-based spiral 
development as a means of putting militarily useful capability 
into the hands of the warfighter faster than we have in the 
past. This is an approach based on commercial best practices, 
and it is endorsed by GAO in studies solicited by this 
committee.
    My colleagues who take issue with capabilities-based spiral 
development may find themselves in the awkward position of 
endorsing the old Pentagon acquisition system, complete with a 
rigid, demanding requirements process that leads to concurrent 
development of systems and technology, high technical risk, 
schedule delays, cost increases, and weapons-systems cycle 
times measured in decades--a system that for years this 
committee has sought to improve.
    The capabilities-based spiral development approach, as I 
understand it, is intended to be an incremental, disciplined, 
and realistic approach to the development and deployment of 
weapons systems. As it pertains to the Missile Defense Agency, 
the process is not devoid of oversight by the Office of the 
Secretary of Defense, and will not deny Congress insight into 
missile defense project activity, but these are not issues 
unique to the missile defense program.
    I am grateful that we have Secretary Aldridge with us 
today, and next week as well, to deal with these Department of 
Defense acquisition issues. I know I have taken more time than 
usual for my statement, Mr. Chairman. I thank you and the 
members of the subcommittee for their patience. Again, welcome 
to the witnesses, and I look forward to hearing your testimony.
    Senator Reed. Thank you, Senator Allard.
    As Senator Allard indicated, we are trying to concentrate 
in this hearing on the budget applications and in the next 
hearing on management. With that, Senator Byrd, do you have a 
statement?
    Senator Byrd. I do not have a statement, Mr. Chairman. I 
have some questions. Shall I wait?
    Senator Bill Nelson. Mr. Chairman, I have a 25-minute 
opening statement. [Laughter.]
    Senator Reed. Senator Nelson, forgive me. Go ahead.
    Senator Allard. Mr. Chairman, I do not know the nature of 
Senator Byrd's questions, but I wonder if maybe we should not 
hear the testimony from the witnesses first.
    Senator Reed. I understand that. I thought the Senator 
might have questions that he would make in lieu of the 
statements. Obviously, we will wait until after the statements.
    General Kadish, your testimony, or Secretary Aldridge. Who 
prefers to go first?

 STATEMENT OF HON. E.C. ``PETE'' ALDRIDGE, UNDER SECRETARY OF 
       DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Secretary Aldridge. Mr. Chairman, I will go first if you do 
not mind.
    Mr. Chairman, Ranking Member Allard, members of the 
subcommittee, Senator Byrd, Senator Nelson, it is an honor to 
have the opportunity to appear before this subcommittee to 
discuss the President's fiscal year 2003 defense budget request 
as it pertains to ballistic missile defense. I am most 
fortunate to be here today with Lieutenant General Kadish, 
Director of the Missile Defense Agency and, consistent with his 
newly defined authority, I will defer questions on program and 
budget to him. I have read his written testimony and fully 
endorse it.
    Because the hearing on acquisition policy and oversight 
will be held next week, I will be pleased to provide written 
testimony on those topics at that time. I have a very short 
opening oral statement today, sir.
    Last year, the President announced our intention to 
withdraw from the Antiballistic Missile (ABM) Treaty. He 
observed the self-evident fact that our greatest threats no 
longer come from Russia but from terrorists who strike without 
warning, or rogue states who seek weapons of mass destruction. 
He also said that these new enemies actively seek the ability 
to deliver death and destruction to our doorstep via a missile.
    The four priorities of our missile defense program speak to 
these dangers. They are: (1) to defend the United States, 
deployed forces, allies, and friends from ballistic missile 
attack; (2) to employ a ballistic missile system that layers 
defenses to intercept missiles in all phases of their flight, 
i.e., boost, midcourse, and terminal, and against all ranges of 
threats; (3) to enable the military departments to field 
elements of the other ballistic missile defense systems as soon 
as practicable; and (4) to develop and test technologies, use 
prototypes, and test assets to provide early capability, if 
necessary, and improve the effectiveness of deployed capability 
by inserting new technologies as they become available, or when 
the threat warrants an accelerated capability.
    These objectives are challenging, but by no means 
impossible. We have experienced significant and meaningful 
successes in hit-to-kill technologies, the latest generation 
Patriot missile, and the Airborne Laser (ABL) program. We have 
also had some problems, as should be expected in any effort to 
develop new kinds of technology to counter new kinds of 
threats.
    As for my role as the defense acquisition executive, let me 
just say that the starting point for further testing and 
implementation successes is this fiscal year 2003 budget. I 
have every confidence that it will advance our efforts as we 
work to solve these technical challenges and to mitigate these 
very real threats.
    I would like to turn the floor over to General Kadish, and 
if you desire, we can respond to questions after his testimony.
    Senator Reed. Thank you, Mr. Secretary.
    General Kadish.

STATEMENT OF LT. GEN. RONALD T. KADISH, USAF, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    General Kadish. Mr. Chairman, it is a pleasure to be here 
today to explain our fiscal year 2003 missile defense budget. 
To allow more time for questions, I would like my prepared 
statement entered into the record. We have made considerable 
progress in our programs since I last testified, and we spent 
the past year testing key technologies and their integration, 
and restructuring our program to better address the challenges 
we face.
    Since I will be here next week to address some of the 
changes in our restructured program, I will confine my remarks 
this afternoon to testing. I would like to provide a quick 
video report card, as awkward as it is in this forum, on the 
moneys that were spent last year and this fiscal year on our 
test results. I would also like to discuss the objectives of 
the missile defense program. Those objectives that Secretary 
Aldridge has outlined have not changed.
    Our goal is to develop a single integrated ballistic 
missile defense system to defend the populations and forces of 
the United States, its allies, and friends against all types 
and ranges of missiles. Based on the results of last year's 
missile defense review, the Department has moved away from an 
independently managed element-centric approach and established 
a single program to develop an integrated system.
    This system will consist of elements configured in layered 
defenses for integrated and autonomous operations and mutual 
support. This will give us multiple engagement opportunities, 
along the threat missile's flight path in boost, midcourse, and 
terminal phases. Our testing program is currently focused on 
individual elements, their performance within the proposed BMD 
System, and their testing is certainly gaining momentum. We 
conduct many kinds and levels of tests during the development 
of this technology, including models and simulations, ground 
testing, risk reduction flights, intercept flights, and system-
wide tests and exercises. We have done almost a test a month 
since I was here last summer, and we expect to stay at least on 
that pace this year, testing in a very aggressive way.
    Now, with your indulgence, I would like to show a 
relatively short film, a little over 8 minutes long on our test 
results last year.
    [The information referred to follows:]

    [Copy retained in committee files.]

    It will include some ground testing of the Airborne Laser, 
as well as some flight testing of all the different activities 
that we have. It will also show some of our failures this past 
year.
    What you will see here in the beginning is a description of 
the types of threat missiles we face, and the time span is from 
January 2001 through January 2002. You can see the layered 
defenses and the way the threat missiles are constructed. I 
would like to just point out right now you have boost phase, 
when it is boosting, midcourse, when it is coasting to the 
target, and terminal, when it is actually attacking the target, 
and you get long-range, medium-range, and short-range threats. 
No one system as we currently understand it can attack in each 
one of those phases.
    The first test is a ground test of the Airborne Laser, 
which is in the boost phase of the attack, and we had something 
called first light, and what you are going to see here is not 
very spectacular, but it is to an engineer. It is the actual 
heating up of the surfaces of the different lenses of the 
laser, and we got significant performance out of that laser the 
first time we lit it up, so that is on track.
    We had a Patriot test, and this was very complex. We shot 
two Patriot 3s and one Patriot 2 at incoming missiles, and you 
can see the Patriots, both the 3 and 2, actually doing the 
intercepts.
    Now, we have had some failures in Patriot, as was noted in 
your opening remarks, Senator Reed, but I believe that those 
are at the edge of the envelope, and we will be able to 
structure those tests in the future to be effective.
    I also include Arrow here, because we spent a considerable 
amount of investment in the Arrow system, and we did a test of 
the Arrow, which is a system in the terminal phase against 
shorter-range missiles. The target was launched from an F-15 
off the coast of Israel, and you will see the Arrow rising to 
the intercept point.
    This is a blast fragmentation warhead, but is almost 
accurate enough to be hit-to-kill. The crosshairs are on the 
Arrow interceptor rising to meet the target, and you can see 
the target there, and it was destroyed, so the investment in 
Arrow was and continues to be fairly effective.
    Now I would like to talk about a non-intercept test against 
long-range missiles in the midcourse, where we are developing 
the booster to actually boost to kill vehicles. We have done 
two tests of this technology, one last August and one in 
December. This is the August test, and this is basically the 
booster, the rocket stack, if you will. It was successful. We 
did not have any intercept tied to it, but that encouraged us.
    As you might recall, we were behind in this development, 
and this test was pretty effective. However, in December of 
this past year we did another test just of the booster without 
an interceptor attached to increase our confidence, and to our 
chagrin we were not successful in this test. I would like to 
show you what an unsuccessful booster test looks like.
    This is about 13 seconds into flight. As you can see, it 
will self-destruct, basically, in the process, and then tumble 
to Earth. We believe we know what caused that. That is why we 
do testing, and we will fix it in the process.
    Now I would like to talk about the two ground-based tests 
we have done. They are identical. We are three-for-five in 
these types of tests. The last two were successful. This was 
the one done in July last year. You can see the interceptor 
rising to meet the target that was launched from Vandenberg Air 
Force Base, about 4,800 miles away, and the intercept occurred 
about 140 miles into space, and this is a view that we have not 
shown you before of the actual interceptor video as it came in 
and hit the target.
    This is another view from a different sensor, and the radar 
track on the right confirmed the actual intercept.
    The test we did after that was in December. We are starting 
to build a track record on this. It was identical to the one we 
did in July to confirm our confidence in the hit-to-kill 
technology. I will note that we have the next one scheduled for 
March 15 of this year and right now we are just a few days away 
from that intercept test.
    Again, the target launched from Vandenberg and the 
interceptor from the South Pacific, and it rose to meet the 
target, and you can see the things the seeker saw. This is the 
way it approached the actual target at 7\1/2\ kilometers per 
second. That is the last thing you saw before it hit, and we 
confirmed the actual intercept through other sensors, and you 
can see that here.
    Now, I am pleased to show the first sea-based intercept by 
a standard missile. This is in the midcourse against medium or 
intermediate-range missiles. It is done from an Aegis cruiser. 
We did this test twice, once last year, and we did not have an 
intercept attempt, it basically flew by the target to gather 
data, and that is what this shows right here. This is a fly-by. 
We were going to do it again this January, a year later, but we 
were able to get the missile in such a position that it 
actually intercepted the missile that you will see here in a 
minute, although that was not the primary objective of the 
test.
    The target was launched out of Kawai in the Hawaiian 
Islands, an intermediate-range target. The Aegis cruiser with a 
standard missile was about 450 kilometers away. You can see the 
launch of the standard missile to rise and meet that missile in 
outer space, a very exciting launch from that standpoint. This 
is what the kill vehicle actually saw as it was coming in for 
the intercept, so you can see how accurate we are getting in 
the overall approach that we are using.
    So that video report card shows how we have been spending 
the money Congress has allocated to us over the past year to 
year-and-a-half, and you can see, our tests were some obvious 
successes and some failures, but from a testing point of view 
we learn a lot from our failures as well.
    Both the pace and complexity of our testing are going to 
pick up, and we will have 12 more flight tests scheduled for 
the remainder of this fiscal year, together with 14 ground 
tests and 13 system-wide tests.
    Now, just a brief word about the budget. As you pointed 
out, the fiscal year 2003 budget is substantial, but it 
continues in the same range as last year to provide us the 
stability we need in this aggressive development program, and 
in so doing it supports our program objectives. We have asked 
for a total of $6.7 billion for fiscal year 2003, which is 
slightly less than last year. This amount reflects the decision 
by the Department to transfer to the Army all the funding for 
fiscal years 2003 to 2007 for Patriot 3 and the other program 
called MEADS.
    We plan to continue PAC-3 operational testing in our 
development of THAAD and ground and sea-based midcourse defense 
as well as the Airborne Laser. I expect that experimental work, 
especially in the area of boost-phase defense, will continue 
aggressively, and our 2003 funding will help us reach our goal 
for initial test bed capability for the ground-based system by 
calendar year 2004.
    In the interest of time, Mr. Chairman, I will conclude my 
remarks. The details of our program have been provided to you 
and the rest of the members and staff. Over the past year, we 
have made some significant strides in our development, as some 
of our major test events have shown, yet we also have some 
significant challenges ahead to ensure our missile defenses 
will become effective as soon as possible, and will remain so 
throughout their life. With your continued support and that of 
the American people, I have every confidence we can do it.
    Thank you, Mr. Chairman.
    [The prepared statement of General Kadish follows:]

         Prepared Statement by Lt. Gen. Ronald T. Kadish, USAF

    Good morning. It is a pleasure to appear before you today to 
present the Department of Defense's fiscal year 2003 missile defense 
program and budget.
    The Department of Defense is developing effective missile defenses 
for the territories and deployed forces of the United States, allies, 
and friends. Ballistic missiles already pose a threat to the United 
States and to U.S. interests, forces, allies, and friends. The missiles 
possessed by potential adversaries are growing in range, reliability, 
and accuracy. The proliferation of ballistic missile technologies, 
materials, and expertise can also occur in unexpected ways, enabling 
potential adversaries to accelerate missile development or quickly 
acquire new capabilities. Missiles carrying nuclear, biological, or 
chemical weapons could inflict damage that far surpasses what we 
experienced last September 11. The events of that day underscored the 
vulnerability of our homeland, even to assault from distant regions.
    Defensive capabilities to counter this threat cannot be deployed 
overnight. We also recognize that the threat is continually changing. 
So we are taking an approach to build missile defenses that will allow 
us to put capabilities ``in play'' as soon as practicable to provide 
the best defenses possible against the projected threat, based on 
technological progress and success in testing. After nearly a decade of 
steady developmental progress, we are deploying the first Patriot 
Advanced Capability-3, or PAC-3, missiles to give our forces protection 
against short-range threats. In the coming years we plan to introduce 
new capabilities to defeat medium- and even longer-range ballistic 
missiles.
    Over the past year, we have made considerable progress in 
demonstrating key missile defense technologies and integration 
concepts. This past January we took a significant step forward and 
broke new ground with the successful midcourse intercept of a medium-
range ballistic missile target using a sea-based interceptor. Following 
successful intercepts of long-range targets in July and December of 
last year, we gained further confidence in our Ground-based Midcourse 
Defense (GMD) design and capability. With the Airborne Laser, or ABL, 
we are making steady progress in the development of directed energy 
technologies by achieving record power levels in the last two tests and 
successfully completing the final lasing test for Laser Module-1.
    Some of our tests showed we need more work to achieve our design 
objectives. The third test late last year of the boost vehicle under 
development for the GMD element failed to launch as planned. Because a 
faster ground-based interceptor will increase significantly our 
engagement envelope, we are focusing intently to resolve the associated 
development problems. Recently, PAC-3 began a series of operational 
tests. In mid-February, PAC-3 teamed up with PAC-2 in a multiple 
simultaneous engagement test to intercept three air-breathing targets, 
but intercepted just one. Despite some setbacks, we continue to make 
remarkable strides, Mr. Chairman, and we grow increasingly confident in 
our ability to deliver effective missile defense capabilities over the 
next few years. Yet, we should all recognize that there remains a long 
road ahead.

                      APPROACH TO MISSILE DEFENSE

    The Missile Defense Agency (MDA) will develop incrementally a 
Ballistic Missile Defense (BMD) System that layers defenses to 
intercept ballistic missiles of all ranges in all phases of flight--
boost, midcourse, and terminal.\1\ These increments will be transferred 
to the Services for production and deployment as soon as practicable. 
We are working with the warfighters, the CINCs, and the Services 
throughout this process.
---------------------------------------------------------------------------
    \1\ On January 2, 2002, the Secretary of Defense established the 
Missile Defense Agency to manage the development of effective missile 
defenses.
---------------------------------------------------------------------------
    Based on the results of last year's rigorous missile defense 
review, the Department has moved away from an independently managed, 
element-centric approach and established a single program to develop an 
integrated BMD System. The BMD System will consist of elements 
configured into layered defenses to provide autonomous and mutual 
support, including multiple engagement opportunities, along a threat 
missile's flight path. The missile defense program supports numerous 
risk reduction activities, including flight tests, ground simulations, 
and hardware-in-the-loop demonstrations.
    Engineering complexities and operational realities associated with 
missile defense require operational and system integration as well as 
an ability to operate elements autonomously. Therefore, a key tenet of 
the missile defense program is robust, realistic testing within the BMD 
System Test Bed. This Test Bed is an integrated set of components that 
are widely dispersed among operationally realistic locations primarily 
throughout the Pacific and continental United States. While its 
specific components have independent utility, the Test Bed is designed 
to support development of missile defense elements and demonstrate an 
integrated, layered missile defense system. We will use the Test Bed 
over the next few years to validate the midcourse, boost, and terminal 
elements, including supporting sensors, and the necessary BM/C\2\ and 
communications components. This Test Bed was most recently used to test 
the Standard Missile-3 interceptor for Sea-based Midcourse Defense 
(SMD) and in fiscal year 2002 it will host additional GMD and SMD 
intercept flight tests and a major System Integration Test.
    The BMD System Test Bed includes prototypes and surrogates of the 
System elements as well as supporting test infrastructure to provide 
trajectory, sensing, interception, and BM/C\2\ and communication 
scenarios that resemble conditions under which the system might be 
expected to operate. It will enable testing against faster, longer-
range target missiles than we are using today, and it will allow us to 
test using different geometric, operational, and element 
configurations.
    As they become available, we could use prototypes and test assets 
to provide early capability, if so directed. A decision to employ test 
assets would depend upon the success of testing, the appropriate 
positioning of Test Bed components, the availability of test 
interceptors and other assets, and the international security 
environment. Our test infrastructure, in other words, will have an 
inherent, though rudimentary, operational capability.
    Our program is now entering a new phase, moving from technology 
development to system engineering, and we face a very significant 
challenge of integrating many diverse elements into one system. We 
employ thousands of individuals throughout the United States. We are 
also collaborating extensively with all of the Military Departments and 
the Joint Staff as we investigate different basing modes and deal with 
associated operational and planning challenges. Our approach to 
managing resources is clearly an important element of our approach to 
missile defense. This committee's support for the President's Freedom 
to Manage Initiative will reduce statutory requirements that can 
restrict management flexibility, allowing us to more efficiently and 
effectively execute the Missile Defense program.

                          ACQUISITION STRATEGY

    The BMD System is highly complex, so we are using an acquisition 
approach that capitalizes on advances in missile defense technology and 
continually adjusts to changes in external factors (e.g., threat, 
policy, and priorities) as appropriate. We are following an aggressive 
research, development, test, and evaluation (RDT&E) acquisition 
strategy that allows us to respond to changes in the threat, manages 
changes in system technologies, and ensures progress in development and 
testing.
    The BMD System architecture will take shape based on periodic 
decisions and assessments within the MDA and the Department's Senior 
Executive Council (SEC). Annual assessments will include evaluations of 
element test performance, system architecture, technological and basing 
alternatives, and the threat. The initial goal is to provide limited 
protection against long-range threats for the United States and 
potentially our allies within the 2004-2008 timeframe, while delivering 
more advanced capabilities against shorter-range threats.
    The traditional requirements process has not worked well for 
missile defense. Missile defense is a cutting-edge development effort 
and an area where we have very little operational experience. The 
requirements definition process typically leverages operational 
experience to set system specifications many years before actual 
deployment, a process that can lead to a less than optimum deployed 
capability that does not take advantage of the most advanced 
technologies.
    Let me illustrate what I mean. The B-52 bomber that first flew in 
1952 is hardly the same aircraft that dropped bombs over Afghanistan in 
the war against terrorism. The original B-52 design, which gave us an 
early intercontinental bombardment capability, was enhanced over time 
through hardware and software improvements to meet evolving operational 
challenges. It may look the same, but today's B-52 is a very different 
aircraft.
    Similarly, we enhanced over many years the Patriot batteries we saw 
in the 1991 Gulf War. Although its capability to defend small areas was 
improved during Operation Desert Shield, performance against Iraqi 
Scuds was not impressive. As a result, the Department initiated a 
follow-on enhancement program and replaced the original missile with a 
completely new interceptor.
    These examples illustrate that in today's dynamic security 
environment, a requirement written in a system's development phase can 
quickly become irrelevant or a one-way street that leads developers 
into a technological cul-de-sac. Five years ago, nobody could have 
written a requirement for today's Internet and gotten it exactly right.
    We, therefore, have modified our acquisition approach. In line with 
the Secretary's decision to cancel the current Operational Requirements 
Documents (ORDs) related to missile defense, we are using the ORDs as 
reference documents, but not as the final measures of development 
progress. Instead of developing a system in response to a clearly 
defined threat from a known adversary, we are looking at missile 
capabilities that any adversary could have in a given timeframe. We 
also continually assess missile defense technology options and 
availability. Using a capability-based approach to ensure that a 
militarily useful BMD System can be deployed as soon as practicable, we 
are setting initial capability standards and engaging the CINCs, 
Services, and industry. This acquisition approach supports the 
effective engineering and integration of the BMD System and ensures a 
transition of effective, threat-relevant system capabilities to the 
Services for production, deployment, and operations.
    While we are moving away from some of the rigidities associated 
with the traditional acquisition process, we are not abandoning 
discipline in development. Capability-based acquisition requires 
continual assessment of technical and operational alternatives at the 
element and BMD System levels. We will build what we can 
technologically, and improve it as rapidly as possible. Configuration 
management and risk management will continue to guide the engineering 
processes.
    In a capability-based approach that pursues parallel development 
paths, a risk management program is essential. To execute BMDS level 
risk management, we are identifying risk issues and an analytical basis 
for modifications and enhancements. This disciplined risk management 
process supports the annual review and assessment of the BMD System and 
accommodates significant user participation at the appropriate times 
during development.
    The missile defense acquisition strategy engineers and tests the 
system using a 2-year capability ``block'' approach, with the initial 
introduction of elements into the expanded Test Bed starting as early 
as fiscal year 2004. The initial BMD System capability (Block 2004) 
will evolve as technologies mature and are demonstrated satisfactorily 
in the BMD System Test Bed. This capability will be increased 
incrementally in future blocks through the introduction of new sensor 
and weapon components, and by augmenting or upgrading existing 
capabilities.
    Each BMD System Block is comprised of selected element 
configurations integrated into the overall System BM/C\2\. There will 
be annual decision points at which time assessments will be made on the 
basis of: effectiveness and synergy within the system; technical risk; 
deployment schedule; cost; and threat. This assessment of progress will 
determine whether a given developmental activity will be accelerated, 
modified, or terminated. Implementing changes expeditiously and 
prudently maximizes value from our investments and allow more rapid 
program adjustments based on threat projections and technological 
progress.
    Each subsequent block will build on and be integrated into the 
capabilities provided by predecessor blocks that make up the BMD 
System. This evolutionary strategy allows us to put the high 
performance technologies ``in play'' sooner than would otherwise be 
possible. Once they have been demonstrated, elements or their 
components will be available for emergency use, if directed, or for 
transfer to the Military Departments for production as part of a 
standard acquisition program.

                          PROGRAM DESCRIPTION

    Our approach to developing missile defenses builds on the 
technological, engineering, and integration progress we have made to 
date. We are currently pursuing parallel development efforts in order 
to reduce risk in the individual RDT&E efforts and aggressively 
demonstrating technologies for integration on land, sea, air, and 
space-based elements. When a capability is sufficiently validated, that 
element or component will be ready for a decision regarding transition 
to production.
    We are also exploring new concepts and experiments for the 
development of advanced sensor suites and kinetic and directed energy 
kill mechanisms for potential sea, ground, air, and space deployment. 
In line with our disciplined walk-before-you-run, learn-as-you-go 
approach to testing, we are incorporating more realistic scenarios and 
countermeasures into the missile defense development test program. The 
Test Bed will be expanded to accommodate this aggressive and robust 
testing approach.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Missile Defense Program allocates resources required for the 
BMD System, including the integration of individual elements into a 
single, synergistic system to defend the territories and deployed 
forces of the United States, allies, and friends. The BMD System 
segment comprises System Engineering and Integration (SE&I), BM/C\2\, 
communications, targets and countermeasures, test and evaluation, 
producibility and manufacturing technology, and program operations 
(which includes Management Headquarters and the Pentagon Reservation). 
Funding in this segment provides resources to define, select, test, 
integrate, and demonstrate the elements in the Terminal Defense, 
Midcourse Defense, Boost Defense, and Sensor segments. The tasks 
included in this segment are those that will benefit the entire BMD 
System, not just a particular element or program. This segment also 
includes management efforts to ensure architectural consistency and 
integration of missile defense elements within the overarching missile 
defense mission.
    The President's budget requests $1.1 billion in fiscal year 2003 
for RDT&E in the BMD Segment, an increase of $255 million over the 
fiscal year 2002 enacted funding level. RDT&E and military construction 
funding in this segment across the fiscal years 2003-2007 FYDP is about 
$6.0 billion.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    As the central engineering component within MDA, the Systems 
Engineering and Integration activity provides the overall system 
engineering development and integration of the BMD System. SE&I 
activities will define and manage the layered BMD System 
collaboratively by providing detailed systems engineering and 
integration across the entire spectrum of system capabilities. 
Capability-based acquisition requires continual assessment of technical 
and operational alternatives at the component, element, and system 
levels. The systems engineering process involves setting BMD System 
Technical Objectives and Goals; addressing existing, emerging, and 
postulated adversary capabilities; assessing and determining system 
design and element contributions; synthesizing system blocks; 
introducing new technologies and operational concepts; conducting 
system risk analyses; and considering impacts of potential foreign 
contributions to BMD System capabilities.
    The BM/C\2\ activity will develop and integrate the BM/C\2\ and 
communications functions for the BMD System. To provide maximum 
flexibility to the warfighter, this activity includes the development 
of specifications needed to ensure Terminal Defense, Midcourse Defense, 
Boost Defense, and Sensor segments are properly integrated and 
interoperable with external systems, to include those of allies. 
Communications funding consolidates and refines BMD System-wide 
communication links to allow components of the BMD System to exchange 
data and to permit command and control orders to be transmitted to 
weapons and sensors.
    The Targets and Countermeasures program provides capability-based 
ballistic missile targets, countermeasures, and other payloads to 
support system-testing as well as element testing across the segments. 
Standard interfaces are being defined between payloads and boosters, so 
that we can introduce different targets into BMD System flight test 
scenarios with greater efficiency. Beginning in fiscal year 2002, we 
are establishing an inventory of target modules (boosters, reentry-
vehicles, countermeasures, and instrumentation) to shorten the build-
cycle and support more frequent flight tests.
    The Test and Evaluation program includes the test and evaluation 
infrastructure, tools for program-wide use, and execution of system-
level testing. Individual BMD System elements will conduct risk 
reduction, developmental, and operational testing. System level tests 
go beyond these, testing synergy, interoperability, BM/C\2\ and 
communication links across the elements. Also resourced are those tests 
conducted for the purpose of making critical measurements required 
across the missile defense regime, for example, measurements of 
adversary missile characteristics such as plume signatures, lethality 
measurements, and characterization of potential countermeasures. Such 
data collection becomes an important input to the design and 
development of effective defenses.
    Supporting robust, realistic testing requires a significant 
investment in the development and maintenance of the requisite test 
infrastructure, analytical tools, and computational capabilities. 
Because this supports both the system and all of its elements, it is 
resourced centrally at the system level. The BMD System test 
infrastructure includes a number of critical, specialized ground test 
facilities, test range facilities, launch capabilities, and 
instrumentation, such as several airborne sensor platforms and other 
mobile capabilities unique to missile defense testing. Core models and 
simulations, both for engineering and integration purposes, are also 
developed, validated, and maintained. These range from detailed 
phenomenology and lethality codes used by all the system elements to 
large-scale wargaming simulations required for BM/C\2\ and operational 
concept of operations development. A number of computational 
facilities, data libraries, and simulation facilities are also 
resourced at the System level.

Terminal Defense Segment (TDS)
    The Terminal Defense Segment involves development and upgrades of 
missile defense capabilities that engage short- to medium-range 
ballistic missiles in the terminal phase of their trajectory. The 
missile or warhead enters the terminal phase when it reenters the 
atmosphere. This is a short phase, lasting less than a minute. Elements 
in this defense segment include Theater High Altitude Area Defense 
(THAAD), PATRIOT Advanced Capability Level 3 (PAC-3), Medium Extended 
Air Defense System (MEADS), and a sea-based terminal concept definition 
element (successor to the Navy Area activities). Additionally, other 
elements funded by the MDA are the Israeli Arrow Deployability Program, 
which includes the Israeli Test Bed (ITB), Arrow System Improvement 
Program, and studies via the Israeli Systems Architecture and 
Integration effort.
    The MDA budget allocation for TDS activities in fiscal year 2003 is 
$1.1 billion, which includes funds for RDT&E and military construction. 
The MDA budget includes about $5.8 billion in fiscal year 2003-2007 for 
the terminal defense segment. These figures reflect a decision by the 
Department to transfer to the Army all funding for PAC-3 and MEADS from 
fiscal year 2003 to fiscal year 2007.
    Congress returned PAC-3 and MEADS to MDA for fiscal year 2002 
pending the fulfillment of congressionally mandated requirements. Upon 
satisfaction of all congressional directives, we will transfer the PAC-
3 to the Army.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    TDS Elements
    THAAD is designed to defend against short- to medium-range 
ballistic missiles at endo- and exo-atmospheric altitudes, which can 
make effective countermeasures against THAAD difficult to employ. It 
also allows multiple intercept opportunities, and can significantly 
mitigate the effects of weapons of mass destruction. THAAD will protect 
forward-deployed U.S. and allied armed forces, broadly dispersed 
assets, and population centers against missile attacks.
    In fiscal year 2003, we will complete missile and launcher designs 
and initiate manufacturing of missile ground test units, continue 
fabrication of the first and second radars, and continue to fabricate 
and test the BM/C\2\ hardware and software. We will support robust 
ground-testing and flight-hardware testing in preparation for missile 
flights in fiscal year 2004 at the White Sands Missile Range. The 
element development phase will refine and mature the THAAD design to 
ensure component and element performance, producibility, and 
supportability. There are five major THAAD components: missiles, 
launchers, radars, BM/C\2\, and THAAD-specific support equipment.
    PAC-3 provides terminal missile defense capability to protect U.S. 
forward-deployed forces, allies, and friends. PAC-3 can counter enemy 
short-range ballistic missiles, anti-radiation missiles, and aircraft 
employing advanced countermeasures and a low radar cross-section. PAC-3 
successfully completed development testing last year, during which 
there were three intercepts of ballistic missiles, two cruise missile 
intercepts, and four multiple simultaneous engagements of ballistic and 
cruise missiles. The start of PAC-3 operational testing in February 
2002 shows that we still have work to do. In fiscal year 2003, we will 
execute activity to develop, integrate, and test evolutionary block 
upgrades. Plans include transitioning PAC-3 to full rate production to 
build up PAC-3 missile inventory and field additional PAC-3 
capabilities.
    The Department decided in December 2001 to cancel the Navy Area 
program after a Nunn-McCurdy breach. Nonetheless, the need for timely 
development and deployment of a sea-based terminal ballistic missile 
defense capability remains. We have initiated the sea-based terminal 
study directed by the Department, which we expect to conclude this 
spring.
    MEADS is a cooperative effort between the U.S., Germany, and Italy. 
MEADS will provide robust, 360-degree protection for maneuver forces 
and other critical forward-deployed assets against short- and medium-
range missiles and air-breathing threats, such as cruise missiles and 
aircraft. In fiscal year 2001, the trilateral MEADS activity embarked 
on a 3-year risk reduction effort. In fiscal year 2003, MEADS will 
continue design and development activities for key system components, 
which includes efforts to integrate the PAC-3 missile with MEADS.
    The Arrow Weapon System (AWS), developed jointly by the United 
States and Israel, provides Israel a capability to defend against 
short- to medium-range ballistic missiles. The Arrow Deployability 
Program allows for Israel's acquisition of a third Arrow battery and 
Arrow's interoperability with U.S. systems. The Arrow System 
Improvement Program will include both technical cooperation to improve 
the performance of the AWS and a cooperative test and evaluation 
program to validate the improved AWS performance. We will support 
additional flight testing and supply of components for additional 
missiles to be built in Israel. Continued U.S. cooperation with Israel 
will provide insight to Israeli technologies, which may be used to 
enhance U.S. ballistic missile defenses.

Midcourse Defense Segment (MDS)
    Midcourse Defense Segment elements engage threat ballistic missiles 
in the exo-atmosphere after booster burnout and before the warhead re-
enters the Earth's atmosphere. The Ground-based Midcourse Defense and 
Sea-Based Midcourse Defense elements of the MDS are the successors to 
the National Missile Defense and Navy Theater Wide programs, 
respectively. The Sea-based Midcourse activity includes a cooperative 
missile technology development effort with Japan. Our budget for this 
segment in fiscal year 2003 (RDT&E and military construction) is almost 
$3.2 billion, or $570 million less than the funding enacted for fiscal 
year 2002. MDS funding is about $14.8 billion across the FYDP.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    MDS Elements
    The Ground-based Midcourse Defense (GMD) will engage threat 
missiles primarily during the descent phase of midcourse flight. Our 
GMD development activity has three main objectives: (1) demonstrate 
hit-to-kill; (2) develop and demonstrate an integrated system capable 
of countering known and expected long-range threats; and (3) develop 
infrastructure and assets for the initial GMD components of the BMD 
System Test Bed to conduct realistic tests using operationally 
representative hardware and software and produce reliable data for GMD 
and BMD System development.
    During fiscal year 2002, the GMD element will build upon the 
successful intercept tests of July and December 2001 by further 
demonstrating hit-to-kill and discrimination capabilities using 
increasingly complex and realistic test scenarios. Development of the 
2004 BMD System Test Bed continues with an upgraded Cobra-Dane radar in 
Alaska as a temporary surrogate for Upgraded Early Warning Radars 
(UEWRs); an accelerated version of the In-Flight Interceptor 
Communications System (IFICS) and Battle Management, Command, Control 
and Communications (BMC3) capability; five ``common'' silos with 
sparing; Command Launch Equipment (CLE); and software upgrades.
    In fiscal year 2003 five Ground-Based Interceptors using a 
precursor of the objective booster and an operationally representative 
kill vehicle will be developed for installation and testing in fiscal 
year 2004. MDA will continue to develop the objective booster and 
continue with the complementary EKV activity. This objective may allow 
for a common EKV for Ground and Sea-based Midcourse Defenses. BM/C\2\ 
and communications incremental prototypes will be integrated and 
demonstrated at multiple locations and assessed with user 
participation. The Prototype Manufacturing Rate Facility will continue 
in fiscal year 2003 to support a wide range of interceptor needs for 
the increased rate of flight tests. Research and development efforts 
for Block 2004 and subsequent blocks will support the development of 
the initial GMD parts of the Block 2004 BMD System Test Bed. This 
facility will also support continued development and testing of more-
capable interceptors, sensors, and targets.
    Sea-based Midcourse Defense will develop a ship-based capability to 
intercept threat missiles early in the ascent phase of midcourse 
flight. SMD continues to build upon the existing Aegis Weapons System 
and Aegis Light-weight Exo-Atmospheric Projectile (LEAP) Intercept 
(ALI) activities while pursuing alternative kinetic warhead 
technologies.
    In January 2002, we conducted the first of many flight tests for 
the Standard Missile 3 (SM-3) in order to demonstrate kill vehicle 
guidance, navigation, and control against a live ballistic missile 
target. The SM-3 launched from the U.S.S. Lake Erie, which was 
positioned in the BMD System Test Bed more than 500 kilometers away 
from the Pacific Missile Range Facility, and successfully collided with 
its target missile in space using infrared sensors. This was the first 
intercept for the hit-to-kill SMD element.
    Funding in fiscal year 2003 continues for concept definition, risk 
reduction, and testing to further the development of a capability to 
defeat medium- to intermediate-range threats. The SMD project has three 
primary objectives in fiscal year 2003: (1) continue testing and 
complete ALI Flight Demonstration Project; (2) design and develop a 
contingency ship-based ascent and midcourse ballistic missile intercept 
capability based on ALI and associated technologies; and (3) continue 
an effort initiated in fiscal year 2002 to provide a ship-based missile 
defense system designed to provide an ascent midcourse phase ``hit-to-
kill'' technology in the fiscal years 2008-2010 timeframe.
    The United States and Japan, under a 1999 Memorandum of 
Understanding, are conducting a cooperative systems engineering project 
to design advanced missile components for possible integration into the 
SMD element. This project leverages the established and demonstrated 
industrial and engineering strengths of Japan and allows a significant 
degree of cost sharing.
Boost Defense Segment (BDS)
    The Boost Defense Segment addresses both directed energy and 
kinetic energy (KE) boost phase intercept (BPI) missile defense 
capabilities to create a defense layer near the hostile missile's 
launch point. To engage ballistic missiles in this phase, quick 
reaction times, high confidence decision-making, and multiple 
engagement capabilities are desired. The development of high-power 
lasers and faster interceptor capabilities are required to engineer 
kinetic and directed energy capabilities to provide options for 
multiple shot opportunities and basing modes in different geographic 
environments. MDA RDT&E funding in the Boost Defense Segment is $797 
million in fiscal year 2003, an increase of $197 million over fiscal 
year 2002 enacted funding, and is approximately $7.5 billion from 
fiscal year 2003 to fiscal year 2007.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The BDS employs multiple development paths. Information derived 
from this approach will help evaluate the most promising BPI projects 
to provide a basis for an architecture decision. The BDS will 
demonstrate the ABL for the Block 2004 Test Bed. It will define and 
evolve space-based and sea-based kinetic energy BPI concepts. Also, we 
will evaluate Space-Based Laser technologies. At the appropriate time, 
based on mature system concepts and technologies, we will initiate a 
focused demonstration of this concept in the Test Bed.
    BDS Elements
    ABL will acquire, track, and kill ballistic missiles in their boost 
phase of flight. Management and funding responsibility for ABL has 
officially transferred from the Air Force to the Missile Defense 
Agency. ABL integrates three major subsystems (laser; beam control; and 
battle management, command, control, communications, computers, and 
intelligence (BM/C\4\I)) into a modified commercial Boeing 747-400F 
aircraft. ABL-specific ground support equipment also will be developed.
    Building on successful sub-system testing and the modification of 
aircraft structures, in fiscal year 2003 we will commence major 
subsystem integration and testing activities. The ABL Block 2004 phase 
culminates in a lethality demonstration (missile shoot-down) against 
boosting ballistic missile threat-representative targets and delivers 
one aircraft for integration and testing. If directed, this aircraft 
could also provide an emergency defensive capability. We plan to 
develop a second test aircraft, which will further develop this new 
technology.
    The Kinetic Energy Boost defense activity reduces the technical and 
programmatic risks of fielding a boost phase intercept capability. The 
KE Boost strategy is to define and assess militarily useful boost phase 
concepts, invest in focused risk reduction activities, and execute 
critical experiments. We will tap the brightest minds in the public and 
private sectors to define the most effective approach to killing 
ballistic missiles as they boost. We identified several lucrative 
technology candidates for immediate investment, including fast burn and 
flexible axial propulsion technologies, agile kill vehicles, early 
detection and track sensors, quick-reaction BM/C\2\, and affordable 
weapons platforms. We will assess these component technologies through 
rigorous ground and flight tests.
    We will evaluate prototype component and element configurations 
under realistic operational conditions. We will experiment using 
emerging component technologies and test infrastructure to resolve 
tough technical challenges, such as predicting the point of intercept 
and finding the missile tank in the presence of hot exhaust. When 
possible, we will exploit targets of opportunity by tracking space 
launch vehicles and test missions launched out of Vandenberg, Air Force 
Base. The test data we collect from our risk reduction work and 
critical experiments will help guide decisions concerning focused 
demonstrations in fiscal year 2005.
    We are evaluating options for continuing SBL activity. The SBL 
project involves technology development and risk reduction activities 
in the key areas of laser output, beam control, and beam director 
design to demonstrate feasibility of boost phase intercept by a high-
energy laser in space. These efforts leverage work started under 
previous SBL-funded technology development programs.
Sensor Segment
    Sensors developed in this segment will have multi-mission 
capabilities intended to enhance detection of and provide critical 
tracking information about ballistic missiles in all phases of flight. 
The fiscal year 2003 budget request for RDT&E in this segment is $373 
million, which represents an increase of $38 million over fiscal year 
2002 funding. The MDA budget provides $3.9 billion for the sensor 
segment during fiscal year 2003 to fiscal year 2007.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Space Based Infrared System-Low (SBIRS-Low) element will 
incorporate new technologies to enhance detection; improve reporting on 
ballistic missile launches regardless of range or launch point; and 
provide critical mid-course tracking and discrimination data for the 
BMDS. When SBIRS-Low is integrated with other space-based infrared, 
interceptor, and surface-based radar sensors, the BMD System will have 
a capability to counter a broad array of midcourse countermeasures. 
Moreover, SBIRS-Low will not carry many of the risks associated with 
forward deployed ground-based sensors, which can be vulnerable to 
attack and for which foreign basing rights must be negotiated.
    Per direction in the Fiscal Year 2002 National Defense 
Appropriations Conference Report, plans for Satellite Sensor 
Technology, including SBIRS-Low, will be provided to congressional 
defense committees by May 15, 2002. The restructured SBIRS-Low activity 
will support numerous risk reduction activities, including technology 
maturation, ground simulations, and hardware-in-the-loop 
demonstrations. Based on cost, schedule, capability, and threat 
assessments, decisions will be made regarding production of a 
demonstrated SBIRS-Low capability.
    The international component of the Sensor Segment is the Russian-
American Observation Satellite (RAMOS) project. We are cooperating with 
the Russian Federation in the area of early warning missile defense 
technologies. RAMOS is an innovative U.S.-Russian space-based remote 
sensor research and development initiative that engages Russian early 
warning satellite developers in the joint definition and execution of 
aircraft and space experiments.
    The Russians continue to review the agreement to execute the RAMOS 
project presented last July by the United States. Assuming agreement is 
reached this summer, in fiscal year 2003 we will complete detailed 
designs of the satellites and sensor payloads, begin fabrication and 
assembly of U.S. sensors and ground support equipment, and continue 
sensor software and modeling and simulation development. Launches of 
the first and second RAMOS satellites are projected to occur in fiscal 
year 2006.
Technology
    The Technology effort will develop components, subsystems, and new 
concepts based on high-risk, high-payoff approaches. The primary focus 
of this effort is the development of sensors and weapons for future 
improved missile defense platforms. Investments maintain a balance 
between providing block upgrades to current acquisition programs and 
developing the enabling technologies for radically new concepts.
    Our budget for the Technology segment in fiscal year 2003 is $122 
million (RDT&E), a reduction of $18 million from fiscal year 2002 
enacted level. Funding from fiscal year 2003 to fiscal year 2007 is 
projected to be about $697 million.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    To enable the BMD System to pace the threat, the Advanced 
Technology Development (ATD) effort is focused in four primary areas: 
(1) Terminal Missile Defense, (2) Midcourse Counter-Countermeasures, 
(3) Boost Phase Intercept, and (4) Global Defense. In addition to these 
tasks, investments are made in a strong technology base to move beyond 
the state-of-the-art in radars, infrared sensors, lasers, optics, 
propulsion, wide-band-gap materials, photonic devices, and other 
innovative concepts. The ATD office also works with the Systems 
Engineer and other segments to ensure seamless transition of proven 
advanced technology products into the BMD System.

                                SUMMARY

    The BMD System will counter the full spectrum of ballistic missile 
threats, capitalize on existing technologies and capabilities, and 
foster innovation. It will incrementally incorporate capabilities 
needed to detect, track, intercept, and destroy ballistic missiles in 
all phases of flight using kinetic and directed energy kill mechanisms 
and various deployment approaches. We have implemented a disciplined 
and flexible acquisition strategy to provide a timely, capable system. 
This approach protects against uncertainty by ensuring that the United 
States will have the ability to defend itself, its deployed forces, 
allies, and friends from a ballistic missile attack should the need 
arise.
    I believe the approach I have outlined here toward developing and 
deploying missile defenses can meet the growing threat and provide for 
the earliest possible fielding of effective defensive capabilities.
    Thank you, Mr. Chairman. I would be happy to answer any questions.

    Senator Reed. Thank you, General Kadish. Thank you, 
Secretary Aldridge. We will have 6-minute rounds of questions 
and if necessary conduct second and third rounds.
    In your statement, General Kadish, you state that, instead 
of developing a system in response to a clearly defined threat 
from a known adversary, we are looking at missile capabilities 
that any adversary could have in a given timeframe. Would that 
include the potential to defeat a missile with several warheads 
and with sophisticated countermeasures, such as the Russians 
might have?
    General Kadish. The basic thrust of this development 
approach is not against those kinds of threats per se. It is 
against what we have been referring to as rogue states, or 
states of concern, but against the proliferation of missile 
attack, and the accidental launch issue of the Russian and 
Chinese arsenals is embedded in there, but the primary thrust 
is against the proliferating states.
    Senator Reed. I think this is stated rather broadly, any 
adversary could have any capability at any given timeframe, and 
we have at least the potential for much more sophisticated 
missiles that you are preparing our counterdefense for, is that 
correct?
    General Kadish. That is correct.
    Senator Reed. There is some issue about this capability 
analysis in my mind. Basically, you define the threat, and you 
are trying to design a system against that threat, and it is 
not the comprehensive threat of any missile, it is the threat 
of rogue nations. Isn't that fair?
    General Kadish. Well, Senator, it is hard to distinguish. 
At some point the basic missile technology is the same, and 
whether it is sophisticated, with integrated countermeasures 
and finely honed, machined warheads, or whether it is basically 
crude missile construction presents us all sorts of different 
problems, so eventually you have to assume that whoever the 
adversary might be, they are going to have sophisticated 
missiles.
    Senator Reed. So you are designing a system today that will 
counter the very sophisticated threats we know are possible to 
deploy?
    General Kadish. We are designing a system that will be 
increasingly capable over time to handle threats that come up. 
That does not mean we have a grand design against all threats 
right out of the package, and that is the very essence of 
capability-based approaches, that we can build what we can 
against a reasonable threat projection and then build on it as 
rapidly as possible.
    Senator Reed. Let us turn now just to both you and 
Secretary Aldridge. In the general outline of the budget last 
year and the first year of the Bush administration, there was a 
57 percent increase, almost $8 billion was provided, total, for 
missile defense. This is a significant increase, and it raises 
questions about how one can effectively spend that amount of 
money in a short period of time. Again, in this budget you are 
requesting about the same level of funding, and in following 
budgets it looks like the same level. This could be an odd 
funding profile for a major system that usually requires 
different levels of funding as the system matures, and the 
system tests out.
    Secretary Aldridge, what can you accomplish at this level 
of funding for the next several years?
    Secretary Aldridge. First of all, this funding does not 
include any deployment. The decision is made that this is an 
R&D effort, that if the decision is made to deploy something, 
to begin the production of some piece of equipment that would 
be fielded, it would be moved to the appropriate Service who 
would have that responsibility, just as we have done for PAC-3, 
that is give it to the Army. You see the funds transferred 
basically to the Army, even though General Kadish shows it as a 
line item, because it was transferred.
    So a normal acquisition program that, as it phases through 
development and starts into production, you expect the budget 
to increase, but because this is basically an R&D effort which 
has been laid out for a variety of technologies for a variety 
of missile ranges, level funding is not unexpected in the first 
few years, as we put this program together, so it does not 
follow the same characteristics as you would see under a normal 
acquisition, where production is included in the cost 
estimates.
    Senator Reed. General Kadish, do you have a comment?
    General Kadish. That is exactly right, and I would use an 
analogy to show how we would spend within that $8 billion 
allocation, and that would be, if you took an analogy of an 
airplane, you have hydraulics, you have the landing gear, you 
have avionics, wings, and the cost of those things varies over 
time based on the development and maturity of the parts, and 
that is how we are actually managing the program.
    Senator Reed. Secretary Aldridge, you anticipated my next 
question. There is no deployment money in this profile for the 
next several years, and General Kadish in his statement was 
talking about deploying a system over the next few years. Your 
prepared statement is optimistic about our ability to deliver 
effective missile defense capabilities over the next few years. 
That raises a question of whether or not, within the 5-year 
defense plan, you are considering whether you transfer to the 
Services the cost of a deployed system, how much it might cost, 
and where does the money come from?
    Secretary Aldridge. You are correct, there are no 
deployment dollars included in the Future Years Defense Program 
(FYDP). The reason is, we do not know what we are going to buy. 
We do not know where to put the money, and whether it is going 
to be an Army budget, an Air Force budget, or a Navy budget. 
When we get to the point of making a decision to deploy, which 
we will get into next week in looking at the management 
structure, there is a board of directors that oversees the 
activities of the Missile Defense Agency.
    When a decision to deploy is made we will have to determine 
where the funds come from for that deployment based upon what 
it is we are going to deploy, but it really is impossible to 
provide you with a realistic estimate at this point as to what 
kind of money it would be, whether it is a ground-based, long-
range interceptor, a national system, whether it is an Aegis 
sea-based, or whether we want to do more PAC-3s, or THAAD.
    We have no estimate because we have not made that decision 
yet, so we cannot tell you what something will cost if it 
cannot be defined. When it is defined, we will have to come 
forth and tell you what the budget will be for that purpose.
    Senator Reed. My time has expired in this round.
    Senator Allard.
    Senator Allard. General Kadish, I thought your illustration 
on the video was pretty remarkable. It looks to me as though 
you have made some significant progress in this last year. 
Based on your assessment of the BMD technology and your 
understanding of current intelligence, how confident are you 
that you can deliver a timely warfighting capability based upon 
what you think are the possible threats out there? I do not 
expect you to get into intelligence, but just based on what you 
know.
    General Kadish. I think the first substantiation of that is 
our recommendation to procure the initial quantities of Patriot 
3 that we started asking for last fiscal year and will continue 
to ask for. We have enough confidence right now that for 
deployed forces in whatever area, which we could actually 
protect with a PAC-3, that we will have an effective defense 
for theater ballistic missiles. That is the first step.
    Then as we look at the various elements of the BMD System 
that we hope to test and have confidence in, we will be 
increasingly more capable over time against all ranges of 
threats. At this point in time we have a situation where the 
hit-to-kill technology I think is reaching the point where we 
can judge it reliable enough to be effective. We then have to 
judge the countermeasure systems that might be used against it 
and put in counter-countermeasures to handle that. As we then 
go over time I believe we can have an effective missile defense 
against ranges of threats that we are concerned about, but 
there are still many challenges ahead on that.
    Senator Allard. Various critics, like the Union of 
Concerned Scientists, have maintained that relatively 
inexpensive countermeasures easily acquired or developed by 
rogue nations can defeat the BMD Systems you are trying to 
field. You refer to that in the latter part of your comments. 
Would you please describe the efforts you put into place to 
judge likely countermeasures, assess their effectiveness, and 
develop possible countermeasures against that, and who heads 
this effort?
    General Kadish. We have spent a great deal of time talking 
internally about and deciding how to manage this countermeasure 
issue. I guess the best way to describe it is that we have a 
group of people that retired Gen. Larry Welch is heading up for 
us whom we call the red, white, and blue team, for lack of a 
better term, where the red team conjures up countermeasures, 
the blue team responds with the potential counter-
countermeasures, and the white team referees any testing that 
we do along those lines.
    Now, we have not fully implemented all the different facets 
of that approach, but we are well on our way. In fact, we have 
some money in the budget allocated for that effort this year, 
so given the threat documents that we have, the intelligence 
that we have, and the effort by this group and internal to the 
agency itself with our contractors, I believe we will have a 
very good handle on the countermeasures problem, but again, you 
are never certain about something like that. This is a game 
that is played in every military system, but I believe that we 
will not be in a situation, especially with layered defenses, 
where we will be easily defeated by simple countermeasures.
    Senator Allard. Secretary Aldridge, I have no doubt some 
missile defense technology efforts will run into unexpected 
challenges on occasion, and it seems apparent to me that you 
intend to exercise close scrutiny over the MDA program elements 
and technology development. You have been a stern judge of some 
of these efforts already, including the Navy Area defense and 
SBIRS-Low. Yet some of our colleagues express a continuing 
concern that the various offices of acquisitions, technology, 
and logistics will be cut out of MDA program oversight, and I 
have a couple of questions in that regard. Can you assure us 
that the MDA efforts will get sufficient independent review 
from your offices?
    Secretary Aldridge. Absolutely. As we will discuss in great 
detail next week, we have a process in place to continue to 
provide that oversight responsibility both to the Office of 
Secretary of Defense, through the Senior Executive Council, 
which will be the board of directors, as well as independent 
advice to General Kadish that will provide him the viewpoints 
of the various offices within OSD.
    You can be assured that I have a personal stake in this 
matter. General Kadish can attest to the fact that I get 
heavily involved in two major programs, both Navy Area and 
SBIRS-Low, which you have mentioned. I do not think there is 
any doubt in their mind that OSD has sufficient oversight of 
those programs.
    Senator Allard. What formal mechanisms do you have in place 
to find out about program problems after a decision has been 
made to move a project to a Service for procurement?
    Secretary Aldridge. When it goes into the normal 
procurement process, it will go into our normal defense 
acquisition system. There will be a Defense Acquisition Board 
(DAB). Once a decision is passed for deployment, which we would 
call milestone C, the normal process will occur, just like it 
does in any other weapons system. When it transitions from R&D, 
which General Kadish will perform in his Missile Defense 
Agency, if the decision is made to deploy, we will select the 
Service.
    There will be a transition period in which the Service will 
become involved, but then it will be in the normal process.
    Senator Allard. Mr. Chairman, I see my time has expired.
    Senator Reed. Thank you, Senator Allard. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    General Kadish and Secretary Aldridge, on February 16, 
2002, The Washington Post carried an article titled: ``Rumsfeld 
Pares Oversight of Mission Defense Agency.'' Are you familiar 
with that article, Mr. Secretary?
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Aldridge. Yes, sir. I have heard about it.
    Senator Byrd. The gist of the article was that the Pentagon 
will not hold national missile defense programs to the same 
reporting and oversight standards as other major weapons 
systems. Secretary Aldridge, what is so important about 
national missile defense technology that exempts it from the 
same kind of rigorous review that is expected of other weapons 
systems?
    Secretary Aldridge. Yes, sir, Senator Byrd. That article is 
wrong. We have a process in place through which the OSD will 
provide oversight. Again, we are getting into next week's 
issues, but let me go ahead. There is a Senior Executive 
Council that is chaired by the Secretary of Defense, the Deputy 
Secretary of Defense, the three Service Secretaries, and 
myself. They will act as a board of directors for any decision 
that is made regarding deployment and the stopping or starting 
of any program within missile defense.
    In addition to that, we created a Missile Defense Support 
Group (MDSG), which consists of all the OSD offices that have 
any degree of oversight over the Missile Defense Agency or its 
budget. It is also supported by a Missile Defense Working 
Group, which has the key technical analysis of all the 
organizations, including the Services, out of which the MDSG 
reports directly to me. It has a function to supply input into 
the Missile Defense Agency to General Kadish. It is also the 
body which will provide input to the Senior Executive Council 
when they make decisions regarding the deployment of missile 
defense.
    Once the R&D program is over, any program in missile 
defense that goes to a Service will go into the normal 
acquisition system, as any other weapons system in the 
Department of Defense. It will act the same way, so there is no 
credibility to the article that we are losing oversight to the 
Missile Defense Agency.
    Senator Byrd. Will Congress continue to receive cost 
estimates, testing goals, and other important information about 
missile defense programs with respect to national missile 
defense technology?
    Secretary Aldridge. Yes, sir.
    Senator Byrd. Last year, the Defense Authorization Act 
included a provision that requires the Department of Defense to 
report to Congress on annual program goals for national missile 
defense research. It may be that this information is buried in 
the thousands of pages in budget documentation that the 
Pentagon has given to Congress, but I do not know of any clear, 
concise report of that information.
    Mr. Secretary, has the Department complied with the 
provisions of law that require the Department to give this 
information to Congress?
    Secretary Aldridge. Yes, sir. I will let General Kadish 
answer that question.
    General Kadish. Senator Byrd, we believe we have and will 
continue to. We have submitted many hundreds and thousands of 
pages of support documentation, and I have gone through, I 
think, 25 or more hours of briefings of the personal and 
professional staff members, and I am hoping through that 
process we have answered not only the intent but the letter of 
the request of Congress last year. If that is not the case, 
then we need to go back and make sure that we do.
    Senator Byrd. Do you plan to give Congress briefings or 
supply a clear report of the annual program goals for missile 
defense programs?
    Secretary Aldridge. Yes, sir.
    Senator Byrd. Secretary Aldridge, you just said that 
missile defense programs will receive rigorous independent 
review. My concern is that Congress has access to this critical 
information in a timely manner. Can this information be 
supplied, and will it be supplied, to Congress so that it can 
act in a timely manner?
    Secretary Aldridge. Yes, sir.
    Senator Byrd. Last year, you canceled the Navy Area 
program, but for months the Pentagon claimed that this program 
was a success. Why did it take so long to tell Congress that 
you were wrong, and that the program was a failure? Is this the 
sort of independent review we can expect?
    Secretary Aldridge. No, sir. We did notify Congress--the 
Nunn-McCurdy Act has a requirement that we live by. We did 
notify Congress of a cost breach of over 25 percent. I think it 
was at the normal time when we have to notify Congress.
    There is a period of time which elapses for us to have to 
recertify the continuation of that program. In the process of 
working through to get the details of the recertification 
process, we found that the costs were increasing beyond the 25 
percent threshold that we were required to notify Congress of 
ahead of time. That deadline for certification ran out on 
December 13, 2001.
    The Secretary of Defense has delegated to me the 
authorization to recertify if we believe the program should 
continue. At that point I have to make certification on four 
criteria. First, is this program in the Nation's interest. 
Second, there is no other alternative to the program. Third, 
that the costs are under control. Fourth, the management system 
is in place to keep the costs under control.
    From the time we notified Congress of the time when I had 
to make the certification, the cost estimates had grown from 
roughly 25 percent to over 70 percent. I could not sign a 
letter that said I believe these costs were under control, and 
by law the funding must terminate. That is an indication of the 
kind of oversight we will continue to have for missile defense, 
but it was clear that we could not continue the program under 
the conditions that the law has dictated to us.
    Senator Byrd. So Congress is and will be apprised of the 
results as stage to stage is reached, and the final result, 
what the money is for.
    Secretary Aldridge. Yes, sir. The process we have in place 
will clearly provide Congress with the information they need to 
carry out your duties.
    Senator Byrd. Mr. Chairman, I think my time has expired. 
May I ask another question?
    Senator Reed. Yes, Senator, please.
    Senator Byrd. Thank you, Mr. Chairman. Thank you, Mr. 
Allard.
    Mr. Secretary, do you believe that providing this 
information to Congress constitutes an incumbrance, or 
constitutes an excessive burden on the Missile Defense Agency?
    Secretary Aldridge. No, sir.
    Senator Byrd. Categorically, are you saying no?
    Secretary Aldridge. No, sir.
    Senator Byrd. Thank you, Mr. Chairman.
    Senator Reed. Senator Nelson.
    Senator Bill Nelson. Senator Byrd, would you like my time? 
I would yield to Senator Byrd.
    Senator Byrd. I thank the Senator. That is very kind of 
you. I am quite willing to stay and take my turn again.
    Senator Bill Nelson. Go ahead.
    Senator Byrd. In the past, the GAO has had trouble getting 
documents about missile defense programs in a timely manner--
and excuse my voice. I do not have the voice I had when I was 
21.
    Senator Bill Nelson. But you have a lot more power than 
when you were 21. [Laughter.]
    Senator Byrd. Which was a long time ago.
    The GAO has reported that it took as long as 4 months for 
the Department of Defense to fulfill some of the document 
requests. These delays hinder efforts to expose the inner 
workings of the Pentagon to even a small bit of daylight. 
General Kadish, what measures have been taken to make sure that 
the General Accounting Office has access to the information it 
needs to complete its reports?
    General Kadish. Senator, we have a process that we use for 
all kinds of information exchange, either with the GAO or any 
agency, and we try to do it as expeditiously as possible. That 
process is a continuing effort, and we make, in my view, a good 
faith effort to get those documents out.
    The bureaucracy, however, does turn at its own rate, and we 
try to expedite it as much as possible. There are many people 
who get involved in that type of delivery mechanism throughout 
the Department of Defense.
    Senator Byrd. The General Accounting Office is an arm of 
Congress. You recognize that?
    General Kadish. Yes, Senator.
    Senator Byrd. So when the GAO requests information, it is 
Congress that is requesting the information. That is 
understood, is it not?
    General Kadish. Yes, sir, and we have long-established 
procedures for dealing with that, and we follow them as 
religiously as possible.
    Senator Byrd. But my question is, does the Department 
recognize that the General Accounting Office is an arm of 
Congress, and when the Comptroller General asks for information 
that is helpful to Congress in its conduct of the oversight of 
these programs and the appropriations therefore, is it not 
recognized that this request from GAO is in essence a request 
from Congress?
    Secretary Aldridge. Senator, let me answer that for the 
Department of Defense. The answer is, absolutely. We have a 
very good relationship with David Walker and GAO. I was with 
him all morning on a panel that we both sit on, and it is clear 
that the GAO is an arm of Congress and provides information to 
you just like any other agency would.
    Senator Byrd. Very well. I have one more question.
    General Kadish and Mr. Secretary, would you provide the GAO 
with the information it needs in a timely and complete manner?
    Secretary Aldridge. Yes, sir.
    General Kadish. Yes, sir.
    Senator Byrd. Thank you, Mr. Secretary. Thank you, General. 
Thank you, Mr. Chairman.
    Senator Bill Nelson. Mr. Chairman, do I have any of my 6 
minutes left?
    Senator Reed. You have 1 minute.
    Senator Bill Nelson. In that 1 minute, could you explain to 
us what happened to the old space-based system? Mr. Secretary, 
we were going to develop a space-based missile defense system. 
Whatever happened to that, and how does that compare with this?
    Secretary Aldridge. The program that General Kadish has 
outlined has a part of it called the boost-phase intercept, and 
parts of the technology he is looking at are space-based 
elements either kinetic kill vehicles or Space-Based Lasers and 
things of that nature. That is a little further out in time, 
but it is an element of his program.
    Senator Bill Nelson. But that was not what you were testing 
here?
    General Kadish. That is correct. The tests that I showed 
you here were ground-based and sea-based intercept attempts. As 
we get further down in our program execution, starting 
basically in 2003 and out, we will be doing increasingly more 
experiments in the space arena.
    Secretary Aldridge. But the hit-to-kill technology, even 
though it is on an interceptor going up, is not very much 
different than an interceptor coming down. It is the same 
technology, and the progress that is being made in hit-to-kill 
technology has a wide application across boost, midcourse, and 
terminal phases.
    Senator Reed. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. Senator Byrd had 
expressed his interest in the Navy Area defense, and I want to 
express my interest in SBIRS-Low, both of which I mentioned 
earlier. I want to pose this question to both General Kadish 
and Secretary Aldridge.
    SBIRS-Low ran into some heavy political opposition in 
Congress last year, and some opponents questioned both the 
technology and the requirements of the program.
    First of all, I would like to know whether you are both 
supporting SBIRS-Low or not, and what are the continuing needs 
for the capability that would be provided by SBIRS-Low?
    Secretary Aldridge. First, Senator, I clearly support 
SBIRS-Low. It is quite disappointing that we had to take the 
action that we did take on the program. It is going to be an 
essential part of the future missile defense capability, and 
unfortunately it ran into some problems such that I could not 
come forth and tell you honestly that we could deliver the 
weapon or the spacecraft on the schedule that was provided at 
the cost that we were given.
    Again, that is what I am paid the big bucks for, to make a 
decision on these kinds of programs. It was clear that program 
was unexecutable with the cost and schedule that was being 
developed, and therefore I had to make a decision that we were 
going to restructure the program so that when we do come back 
to Congress with a program for SBIRS-Low, it is one that I can 
tell you honestly we can deliver on schedule, with the 
performance, on the cost that we tell you it is. I could not do 
that with the SBIRS-Low program that was being developed.
    The money that was provided for in fiscal year 2002 was 
reduced in conference, and we are using those dollars to 
restructure the program. General Kadish has been requested to 
come back to me with a restructured program, I think in a month 
or so, so that we can determine where we go at this point in 
time and what kind of program is going to be viable, but we 
have to have something like this program to make our missile 
defense program viable.
    Senator Allard. General Kadish?
    General Kadish. I would endorse exactly what Secretary 
Aldridge said in terms of the support of SBIRS-Low. I think we 
need a space sensor in order to bring along the effectiveness 
of all the missile defense elements, and we are attempting now 
to restructure the SBIRS-Low program to meet those requirements 
as best we know how and to orient it to a capabilities-based 
approach.
    One major debate that will go on, I think, for some time is 
whether we need a space-based sensor, or can we do it with 
radars alone on the ground or at sea. I think at this point the 
evidence and the studies that I have seen are not compelling 
enough to make such a stark choice, certainly at this time, and 
the belief I have currently is that we are going to need to 
have both radar and space-based sensors to do this job 
effectively, we still have a lot of work to do, but in the 
meantime, SBIRS-Low is a critical space-based element of our 
sensor suite.
    Senator Allard. General Kadish, you mentioned other systems 
that may provide some of the capability we have in SBIRS-Low, 
but are we moving ahead with those systems, or are we pretty 
much focusing on SBIRS-Low?
    General Kadish. We are moving ahead with both. The problem 
we have with terrestrial-based sensors is geography. They have 
to be in the right spot. The advantage of space is that we have 
the ability to have a wide-ranging view of our threats base.
    Senator Allard. The thought is that it is probably not to 
our advantage to have those kinds of facilities where you would 
have to ask permission in other foreign countries for those 
facilities.
    General Kadish. The unfortunate part of ground-based 
systems is you cannot base them on U.S. territory and be 
totally effective in missile defense.
    Senator Allard. So you have a problem there, using it on 
foreign soil?
    General Kadish. Correct.
    Senator Allard. Secretary Aldridge and General Kadish, you 
are both probably aware that the Congressional Budget Office 
(CBO) was recently asked by Senators Levin, Conrad, and Daschle 
to estimate the cost of several of the BMD Systems that could 
protect the U.S. homeland from long-range ballistic missiles. 
The Senators who requested this study estimated the cost of a 
modest defense to our homeland at $150 billion. Can you comment 
on the relevance of the CBO study and the specific systems it 
analyzed?
    General Kadish. Sir, if I might take that question, the CBO 
study was well done for the assumptions that it made. The 
problem is, the assumptions on which it was based could 
potentially give an inaccurate picture of what any of these 
systems might cost. The definition of life cycle, the 
definition of the systems that were actually in that report at 
this point in time, do not bear a resemblance to anything we 
are working on in detail, so the art of cost estimating could 
get a little bit out of whack from that standpoint.
    It is useful information for illustrative purposes, but we 
do not have a force structure defined well enough to tell you, 
as Secretary Aldridge pointed out earlier, exactly what these 
things are going to cost at this point in time. As we define 
our production and deployment efforts, we will have those cost 
estimates, and at that time I think we should have that debate.
    Senator Allard. So valid assumptions are important and, 
based upon that, you do not believe the $150 billion estimate 
is valid?
    General Kadish. There are a lot of problems with that 
estimate, and we are not building those configurations, so I do 
not think it is valid.
    Senator Allard. Thank you.
    Senator Reed. Thank you, Senator Allard. Senator Nelson.
    Senator Bill Nelson. As I understand both of you, you 
subscribe to the doctrine that you cannot deploy something that 
has not been developed, and as I understand both of you, you 
are saying that the matter of deployment is something that you 
will come to Congress to get the appropriations for?
    Secretary Aldridge. Yes, sir, that is correct.
    Senator Bill Nelson. What is it, then, about the R&D 
program that in your mind caused a violation of the ABM Treaty 
that thus required a withdrawal from the treaty?
    Secretary Aldridge. Let me start, and General Kadish can 
maybe come in on this.
    When the President asked us, General Kadish and the 
Department, to develop a missile defense program, it was under 
the assumption that program would proceed without the 
constraint of an ABM Treaty. We were heading toward developing 
the most effective missile defense system we could build with 
the resources made available to us.
    As that program was proceeding, we were running into 
constraints of the treaty that were prohibiting us from making 
progress in the R&D phase, such as, we were trying to use the 
Aegis radar to track some targets and some interceptors, which 
was clearly a violation of the ABM Treaty. We were trying to 
get data, data that would help us in looking for midcourse 
capabilities, for radar technology that would help us in the 
future. In fact, we did, we eliminated certain aspects of those 
tests because we were living under the ABM Treaty, and the 
decision was made to do so, but as you continue to proceed 
developing a wider range of testing, more capability, it was 
clear we were losing ground relative to getting more and more 
data that would give us the confidence to proceed because of 
the ABM Treaty.
    In addition to that, if there was a need to deploy for some 
emergency reasons, which we are looking for, like the 2004 
timeframe, it was relatively clear that if we started to deploy 
a national system there would be arguments that that was a 
violation of the ABM Treaty, so we were restricting the 
President's options. I think the combination of restricting his 
options and prohibiting us to do a thorough testing program, a 
judgment call was made that the strategic situation has changed 
sufficiently that missile defense is the right way to go, given 
the other strategic conditions, such as nuclear warheads and so 
forth, that the President made the decision to withdraw from 
the treaty. We are still living by the treaty up until June 13, 
and we are still having to restrict the number of tests.
    Senator Bill Nelson. So there is not a part of your testing 
right now that you consider a violation of the treaty?
    Secretary Aldridge. No, sir, we are not violating the 
treaty.
    Senator Bill Nelson. You mentioned the Aegis system. Is 
testing on that in the future going to violate the treaty?
    Secretary Aldridge. If you use the Aegis radar as a ship-
based missile defense system for national purposes, that was a 
violation of the ABM Treaty, and I do not remember the article. 
I think it is Article VII which says you cannot test mobile ABM 
systems.
    Senator Bill Nelson. Now, given the delicacy of the 
situation with the Russians, there is a joint program that you 
requested money for, RAMOS. Have the Russians given any 
indication that they intend to continue the program since your 
announcement to withdraw from the ABM Treaty?
    Secretary Aldridge. I have not talked with them. Maybe 
General Kadish can answer that.
    General Kadish. We have been in discussions with the 
Russians over the RAMOS program activity, as well as other 
cooperative efforts, to some degree, and at this point in time 
I cannot tell you what their final decision is going to be in 
terms of participating. We have been at this I think almost 7 
years, trying to get this particular effort off the ground with 
the Russians. At some point here in the next 6 to 8 months, I 
would expect we are going to have to make some major decisions 
on that program, but right now we are still in discussions, and 
things are proceeding and we are waiting for a final go-ahead 
from the Russian Government.
    Senator Bill Nelson. That is a program of small satellites, 
so that you have a canopy up there that would detect through 
infrared any kind of missile launches?
    General Kadish. It is an experimental set of satellites to 
do what you describe, so it is not a constellation. It is two 
satellites to experiment in technically interesting 
wavelengths.
    Senator Bill Nelson. Would we go it alone, without the 
Russians, if they pull out?
    General Kadish. My recommendation to the Secretary would be 
no.
    Senator Bill Nelson. Why is that?
    General Kadish. We have some mutual benefit out of the 
program, but when I look at the scheme of things there are 
other ways we could accomplish that if we had a unilateral 
approach.
    Senator Bill Nelson. As I understand it you are going to 
have a hearing on this next week.
    Senator Reed. I am, Senator.
    Senator Bill Nelson. A continuation of this?
    Senator Reed. A continuation, but more a focus on program 
management.
    Senator Bill Nelson. I have to run to a meeting with 
Senator Graham right now, and I will save questions for next 
week. I would like to get into it. I happen to think Secretary 
Aldridge is about one of the best appointments in this 
administration, and I think that he has a great deal of wisdom 
and experience, and I want to poke and probe it a little 
further.
    Secretary Aldridge. As you have done many times before.
    Senator Reed. Thank you, Senator Nelson. Also, thank you 
for your graciousness in yielding to Senator Byrd.
    Secretary Aldridge, just for the sake of clarification, I 
know we are going to get into program management in the next 
hearing, but in a dialogue between Senator Byrd and yourself, 
you pointed out that Navy Area was canceled as a result of 
Nunn-McCurdy. Would Nunn-McCurdy apply to this new review by 
the Senior Executive Council? Would you feel compelled to apply 
that there?
    Secretary Aldridge. The Nunn-McCurdy applies to programs, 
and we would like, if we got into SBIRS-Low, for example, as 
part of the missile defense program, Nunn-McCurdy would apply 
to that. If it is just an R&D program without development, or 
deployment, I think it would not apply. I would have to go back 
and look at the language, but I think it only gets into 
programs when we have procurement.
    Senator Reed. As you stated today, everything you proposed 
in this $8 billion budget is RDT&E, it is not deployment, so 
effectively with regard to Nunn-McCurdy, which has proven 
useful at least in one circumstance, if not several, you are 
not only forcing a decision but also making a tough decision 
about a program that would no longer be operative.
    Secretary Aldridge. I think that is true, but again, I do 
not know. I cannot recall the details of Nunn-McCurdy in this 
particular instance with the Navy Area, which we had, in fact, 
started into a deployment mode. It did apply, but I do not know 
exactly what the degree of threshold would be for R&D.
    Senator Reed. We will give you an opportunity in the next 
hearing.
    Secretary Aldridge. I will check into that beforehand.
    Senator Reed. Let me raise another question along the lines 
of deployment and RDT&E. General Kadish, you have spoken a 
number of times about a possible contingency deployment at Fort 
Greeley, Alaska, of five prototype test missiles in conjunction 
with the Cobra-Dane intelligence radar. In your view, is that 
an RDT&E which you could do now if sufficient resources were 
appropriated this year?
    General Kadish. That is a part of the test bed that we 
talked about during last year's hearings and discussions as 
well as this year. The primary use of those assets would be a 
part of this test bed, which would be both ground-based test 
activity and used in flight tests, depending on how we actually 
do it. The contingency capability that I have talked about is a 
decision yet to be made, whether or not we would activate that 
capability.
    Senator Reed. But you would put in place five missiles at 
Fort Greeley?
    General Kadish. That is correct.
    Senator Reed. Is the Cobra-Dane radar a pilot test bed?
    General Kadish. Plus many other things.
    Senator Reed. Is it a part of research and development? 
Would you at some point say, is it now contingently 
operational?
    General Kadish. If it is judged effective enough for what 
we think it could be used for, and the Secretary judges it to 
be so.
    Senator Reed. I understand that, and please correct me if I 
am wrong, you cannot actually launch the missiles from Fort 
Greely, since the debris from the missiles could fall on 
populated areas.
    General Kadish. Initially, we have not specified that we 
would launch from Fort Greely. We have environmental 
regulations and rules that we have to evaluate before we would 
make such a decision. I would not, however, rule out that 
capability. In fact, it would be very desirable we do that type 
of thing now, even in the continental United States, at the 
White Sands Missile Range, where we could actually move people 
off of the endangered area of the range to do the missile test. 
We have some environmental restrictions, and we will go through 
those in a very disciplined way to make those types of 
decisions should we decide it is in our best interest to do 
that.
    Senator Reed. But you have already decided, I presume, to 
put the Test Bed up at Fort Greely, even though there is a 
question whether or not the missiles can be fired?
    General Kadish. That is correct, because the value of the 
Test Bed should not be underestimated from the physical 
location of those assets where we might be using them in an 
operational mode. We have taken some heavy criticism about not 
being operationally representative in the phasing of our 
testing, not just flight testing, i.e., having the actual 
infrastructure hooked up with the communications links, the 
computer systems, and those types of things. Just as we build 
prototype F-15s and ships and tanks, we want to do the same for 
missile defense.
    Senator Reed. One other question with respect to Fort 
Greely. I also understand that because of geometric 
considerations you will not have an ICBM-class target with 
which to test the Fort Greely missiles and Cobra-Dane radar, 
even if you could launch from Fort Greely.
    General Kadish. We are still looking at the target 
situation. We have a long-range, air-launched target under 
development. We have not fully defined what that requirement is 
going to be. It would certainly not be in place for the 2004 
timeframe, but we have some decisions to make for the outyears 
as we go into further testing.
    Senator Reed. But just to conclude, there is a possibility 
that you could declare a contingent deployment by 2004, even 
though there is a question whether the missiles can actually be 
fired from that location, and you have not yet defined a target 
missile to test against and are unlikely to do so before 2004.
    General Kadish. I think embedded in that statement are a 
number of incorrect assumptions. First of all, we will continue 
our testing out of Kwajalein and Vandenberg and other areas 
aggressively over the next few years. That gives us confidence 
that no matter where we launch the interceptor from, it will be 
effective against the target that we are aiming at, and 
therefore, having the missiles in the Test Bed, should we judge 
them effective enough through that other testing, it does not 
matter whether we have fired them out of that location, 
although we would like to.
    I will point out that our strategic missile offensive force 
has not, to the best of my knowledge, been fired out of the 
locations they have been deployed at in the United States. It 
is the same issue.
    Senator Reed. Let me reserve some additional questions for 
a third round. I recognize Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. First of all, I 
apologize, Mr. Chairman, for not being here for the entire 
hearing. We had two amendments on the floor that we were busy 
with.
    I do not know what has been asked, but I have worked with 
both of you before and, quite frankly, it is a relief that we 
are where we are today, and where I think we should have been 
several years ago. I am sure you have discussed the options of 
sea-based and land-based missile defense.
    Most of us who have been pushing for this for a long time 
have come to the conclusion that we need to do something with 
the Aegis investment we have right now, given the high tier 
capability, in terms of the flexibility, and also capitalizing 
on an investment that has already been made with the Aegis 
system.
    Where are you on that particular system right now? What are 
your thoughts for the future?
    General Kadish. Senator Inhofe, I was very pleased to have 
in my opening statement a video showing our first intercept of 
the Aegis Leap Intercept (ALI) program, and that was a very 
exciting event for a lot of us who have been laboring in this 
program for sometime. I expect that we will have our challenges 
technically with that, but it is a key part of our program 
because of the mobility that Aegis provides, as well as the 
capability.
    Senator Inhofe. About how many ships would you be wanting 
to get to become capable with this?
    General Kadish. Senator, I am unable to answer that 
question now because we will have to make some judgments when 
the testing gets a little further along and how effective is it 
versus the threats we are going after, and then provide 
recommendations to the Secretary as to the force structure.
    Senator Inhofe. When you think about the changing threat 
that is out there, last time we had a meeting like this we 
would never have thought that we would be in Afghanistan today, 
and when you think about the flexibility and the places that it 
can be put, that is something that I think is the most flexible 
for these threats that we cannot anticipate.
    Now, it is my understanding that in terms of the ABM Treaty 
we are going to be able to go ahead and not worry about that 
after about July or August. What is the timeframe?
    Secretary Aldridge. I believe it is June 13.
    Senator Inhofe. There are several of us who have felt for 
quite a number of years that this is something, a step that 
should have been taken a long time ago, and it is interesting 
because even the architect of the ABM Treaty of 1972, Henry 
Kissinger, has said that it is insane to make a virtue out of 
your vulnerability, which is exactly what we have done.
    Secretary Aldridge. Senator, I was part of the negotiating 
team 32 years ago.
    Senator Inhofe. I knew that you were. Let me ask you this, 
then. Do you agree?
    Secretary Aldridge. It sounded like a good idea at the 
time. [Laughter.]
    Senator Inhofe. I hate to tell you this, Mr. Secretary, I 
did not think it was a good idea at the time, but certainly 
with two superpowers, and with the environment we were in 
there, it was certainly a good argument. Are you pretty much in 
agreement now with Henry Kissinger and his new view?
    Secretary Aldridge. Sir, I support the President very 
strongly on this one.
    Senator Inhofe. There are a lot of others that came forth, 
Condoleezza Rice and others, who were very forceful in thinking 
sooner or later we are going to have to put that relic to bed 
and start defending America.
    One of the problems I have had over the last few years is 
how bad our intelligence has been in determining when countries 
are going to have this capability. I remember the August 1998 
inquiry we made. We asked General Shelton, Chairman of the 
Joint Chiefs of Staff, how long it would be until North Korea 
would be able to accomplish a multiple-stage rocket, and the 
response we received was, it is going to be somewhere between 5 
and 10 years, and then 7 days later, one was fired from North 
Korea.
    Then I recall the NIE of 1995, when they said how many 
years it was going to be, but then they put the word indigenous 
in, and I always felt that does not make any difference. If 
Iraq has the capability of a missile that will reach the United 
States of America, whether it is indigenous or not does not 
make any difference to me. It still does the same damage. Are 
you satisfied that since we have progressed to the point where 
we are now, that you are going to be able to move forward, and 
that there are not any other obstacles, major obstacles in the 
way, as the ABM Treaty was, for quite a while?
    Secretary Aldridge. Yes, sir. Well, obviously we still have 
to live with the treaty through June 13. There are certain 
things we cannot do during the testing process, but at that 
point in time I do not anticipate we will have any difficulty 
doing the tests we need to do to prove the system.
    Senator Inhofe. I am very proud of all of you who had the 
fortitude to stay with it. I am satisfied with where we are 
today. Thank you very much.
    One other question on the budget, and I think that is what 
we should be talking about today. Are you having serious 
problems in getting the budget that is necessary to reach our 
deployment when we want to?
    Secretary Aldridge. So far we have not heard of any major 
cuts in the request that the President has made. That does not 
preclude that happening as we go down through these hearings, 
but so far I guess I have not heard of anything at this point.
    Senator Inhofe. Thank you very much, Mr. Chairman.
    Senator Reed. Thank you, Senator Inhofe.
    General Kadish and Secretary Aldridge, Senator Byrd raised 
questions of compliance with informational requirements to 
Congress, and in the Defense Authorization Act for Fiscal Year 
2002, one of the important requirements was the one to include 
total life cycle cost for each missile defense program that 
enters the engineering and manufacturing development (EMD) 
phase. This is section 232 of the act.
    I understand the THAAD missile defense program is in the 
EMD phase, yet its life cycle cost estimate was not provided to 
Congress. Can you explain why those costs were not given to us?
    General Kadish. Senator, I would like to take that for the 
record.
    [The information referred to follows:]

    The life cycle reporting requirement of Sec. 232(d)(2)(A) calls for 
life-cost information on Missile Defense programs that enter EMD or the 
equivalent phase. Under the new acquisition management strategy for 
Ballistic Missile Defense System elements, life cycle costs will be 
developed to support the decision process to move a block configuration 
of an element into production and operations. The old EMD phase for 
THAAD was cancelled. Life cycle costs for a block configuration of 
THAAD will be developed at the appropriate time as part of the decision 
to procure a quantity of that configuration and these costs wil be 
provided to Congress accordingly.

    General Kadish. There are some technicalities here. We 
certainly want to follow the letter as well as the spirit of 
the law, but right now the way the program is constructed we 
have nothing technically in engineering and manufacturing 
development. It is all in R&D, so THAAD is no different in 
technical terms from SBIRS-Low or Aegis Leap Intercept. 
However, that may be a distinction without a difference for the 
intent of the question, so I would like to make sure we go back 
and answer what we really can do along those lines.
    However, I will say this. No matter what answer we give you 
from an overall perspective, the force structure that we will 
buy as a basis for that life cycle cost estimate is not 
settled. We originally had an inventory objective of 1,200 
missiles. As Secretary Aldridge pointed out, that may or may 
not be the right quantity based upon where we think we are 
going to go with that particular element of the program, so 
since life cycle costs are inherently based on things like the 
quantities you are going to buy, how many of them, where you 
are going to put them and so forth, we may have a situation 
where we cannot accurately give you those costs at this point 
in time.
    Senator Reed. Is it your contention that THAAD is not in 
any part in the EMD phase?
    General Kadish. Again, that may be a distinction without a 
difference. It is certainly in the development phase, and what 
we would like to do is supply you the cost numbers that will 
get at the spirit as well as the intent of the question, but we 
have severe limitations in telling you what the life cycle cost 
is over 20 years, when we do not have a basically agreed-to 
force structure like how many missiles we are going to buy, and 
so that is going to be a problem. We could probably tell you 
what the first missile is going to cost.
    Senator Reed. Secretary Aldridge, you have done a lot of 
research and development and bringing products to the field. Is 
it difficult to calculate life cycle costs for a system, even 
though you might not know how many F-22s you are going to buy, 
or how many of anything you are going to buy?
    Secretary Aldridge. Normally when we enter what used to be 
called EMD, which is now called system development and 
demonstration (SDD), we have a program that is usually laid 
out, as we have for Joint Strike Fighters. When we entered the 
SDD just last October, we have an inventory objective set up 
and we can tell you, we have a schedule, we have a production 
schedule, we know how many we are going to build, and we can 
tell you what the life cycle cost is going to be.
    There has been no decision, a Milestone B Decision, to 
enter SDD for THAAD. We have not made a decision on that. We 
have not made an inventory, so I cannot tell you what the life 
cycle cost is going to be without an inventory objective. As 
soon as we get there, we will. There is no attempt to try to 
not comply with Congress on this, but we have no objective in 
mind.
    We do have an inventory objective for PAC-3. We have an 
inventory objective of 2,200 missiles. We can lay out a life 
cycle cost for that, but I think THAAD is in this gray area and 
we have not made a decision on how many we are going to build, 
when we are going to build it and so forth, so it is hard to do 
that. But when we do, when we get to that point, there is no 
doubt that we can give you a life cycle cost.
    Senator Reed. Let me raise another question about the 
overall budget, and that is, you have proposed to fund the BMD 
System element at over $1 billion for this year, fiscal year 
2003, and this element provides integration of the individual 
ballistic missile defense elements, but the design and 
architecture of these individual ballistic missile defense 
elements is not yet known. I think the testimony this afternoon 
reflects that. In response to practically every question we 
have raised you said we just do not know yet, we do not know 
what it is going to look like, and yet you are asking for $1 
billion to integrate elements which you have not committed to 
do yet, roughly one-seventh of the total request. What is your 
rationale?
    General Kadish. The rationale is quite simple. We have to 
fund the infrastructure to do that thinking and development 
effort to give ourselves those answers, so those particular 
funds buy an awful lot of the infrastructure that underlies our 
elements, including the integration engineering that answers 
the very questions you are posing.
    Senator Reed. But $1 billion? We are not talking about 
infrastructure in terms of the hardware, the missiles 
necessarily.
    General Kadish. No, but we are talking about test 
infrastructure that is common for a lot of our elements. We are 
talking about system-wide tests that we get data for that are 
applicable to our elements. We are talking about the 
engineering required for us to develop the specifications for 
the integration and interoperability, and so there was an awful 
lot of work that underlies the other element activities if we 
are going to achieve the vision of a BMD System against all 
threats.
    Senator Reed. When you talk about what the common Test Beds 
for the elements are, one would presume you know what your 
elements are, not perhaps fully defined, but to integrate 
something I think you have to have something to begin with, and 
a lot of your responses today are, we have not decided yet. We 
do not know. It could look like this.
    General Kadish. Again, I think the assumption you are 
making that we do not know what we have so we cannot integrate 
it, or we do not know what we should integrate if we do not 
have it, is incorrect because it is a multifaceted problem. We 
have a situation where we will specify integration requirements 
that elements have to adhere to as well as taking where they 
are and integrating them with the basic specifications they are 
already working under, and so it is a mixed bag of things that 
have to be done, and we need the best talent we can find to do 
that, because it is very complicated.
    Senator Reed. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Based on the Chairman's excitement over this program, I 
think I have to ask this question. If Congress were to give you 
more dollars, could you spend them?
    General Kadish. Yes, sir, I could.
    Senator Allard. I guess the bottom line in missile defense 
is do you have some unfunded requests?
    General Kadish. We have tried to strike a balance to do all 
the things that we think we need to do to bring this 
development program in. There will always be unfunded 
requirements of different parts of the structure because time 
passes and we learn more about it, and we may have missed the 
mark on certain levels of funding for certain things. It is a 
continuous process of adjustment, so I do not think you would 
find the answers different from any program brought before you. 
If you asked, are there unfunded requirements, the answer would 
be yes, but we think we have the priorities set correctly.
    Senator Allard. Can you provide me at least with some of 
those unfunded requests, prioritized?
    General Kadish. Certainly, Senator. We can do that.
    [The information referred to follows:]

    We have tried to strike a balance to do all the things that we 
think we really need to do to bring this program in and we think we 
have the priorities set correctly. However, in balancing what we can 
do, invariably there are activities where we could use additional 
resources. In addition, conditions change as time passes and we find 
that there are opportunities we were not fully aware of at the time of 
the President's budget request that could use budget-year resources. 
Based on our current view of potential unfunded requirements, we show 
potential funding shortfalls in SBIRS-Low for $50 million.

    Secretary Aldridge. Can I just make one point here? There 
is a funding profile that is laid into the budget, and as we 
have talked about the various boost phase, midcourse, terminal 
phase, and the ranges of missiles we have to defend against, 
there are multiple technologies that are associated with each 
of those elements, and some of those technologies are going to 
work, and some are not.
    When we got the Navy Area, there was some funding that was 
reduced. We reallocated some of that funding back to other 
priorities. That will happen in the budget as we go forth, and 
then it may be we get to the point of deployment, one of the 
technologies is not working, there are funds available to maybe 
reallocate to the deployment from the missile defense budget. 
It may not have all of it, but I think we have to anticipate, 
as we go over with time, these funding profiles will change as 
programs succeed and some fail.
    The way we have laid out the program, we should expect some 
of those to happen. We should expect some failures, we should 
expect some high successes, and when we do, we reallocate that 
funding, and so to say that there is a program profile that 
starts in fiscal year 2003 and goes to fiscal year 2007, and 
that is exactly what you are going to do, may not be the case. 
It may be that something changes as time goes on, and we should 
expect that.
    Senator Allard. I appreciate candid remarks on that from 
both of you, because I think that adds credibility as far as 
your request before Congress.
    Now, one thing I did want to clarify for the record, there 
is the THAAD request. I understand that includes a request for 
10 additional missiles, and for the record I just wanted to 
clarify that these are test missiles, is that correct?
    General Kadish. That is correct, Senator. We have a little 
bit of confusion in this terminology between contingency and 
test. The request is for test missiles for test purposes.
    You will also see in the documentation that, even though 
that is the primary use, we may use them all up in tests, but 
if an emergency arises, a theme throughout the entire program 
is that we may use our test assets for operational use, but 
primarily they are test assets, and bought for that purpose.
    Senator Allard. I want to move to a couple more questions, 
and I think we will just wrap it up on my side, Mr. Chairman. 
The ABL, I believe personally that the ABL is still a very 
important effort, is that working out on the scheduling for 
ABL?
    General Kadish. Senator, we basically have gotten the 
responsibility for ABL because it is so important to missile 
defense purposes. In that process, as with any development 
program, we took a hard look at what the schedule was, what 
risks were involved, and we have adjusted the schedule with the 
moneys required to handle that adjustment.
    I think it is absolutely remarkable the progress that 
program has made, with its very revolutionary technology, but 
we have those struggles in the development program, and they 
are complex, but I am very confident at this point we know as 
much as we can know about the reasonableness of that schedule. 
I have good confidence in our ability to estimate that.
    Now, as time goes on, whether that schedule will actually 
come to fruition is the trick in this business. I cannot 
guarantee we are going to meet it, but we have the best handle 
on it that we can have on it today. I have confidence we are on 
track to meet it.
    Senator Allard. So the plane is pretty close to flying, or 
is it flying yet?
    General Kadish. There are two parts of that flying 
equation. The first part is the first flight of the aircraft 
without the mission equipment operational. I think that will 
occur hopefully in June, probably in July of this year, and 
then the first shootdown, which would occur in the fall of 
2004, if not earlier, should we have some successes in the 
early testing, so that is what we are working on right now.
    Senator Allard. On the Space-Based Laser (SBL), obviously I 
was pleased, I mentioned earlier, with your demonstration, but 
can you comment a little bit on the next generation as far as 
the SBL? I know Senator Inhofe asked that question. Is there 
further comment you want to make on that particular program?
    General Kadish. We took a funding reduction in last year's 
appropriation for the SBL experiment that we had ongoing in 
2012, and that reduction was significant enough for us not to 
be able to make that experiment work, so what we have done in 
this budget is bring the SBL activities back down to 
technologies that we are trying to put together to support 
that, and we will be looking for the way ahead with the actual 
experimentation here over the next year or so with Secretary 
Aldridge, but no decisions have been made how to recover that 
experiment yet.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Reed. Thank you. Let me just pursue a few final 
questions following up on Senator Allard's questions about the 
Airborne Laser. You now hope, I believe, to test in 2005 a 
laser on a prototype aircraft, is that correct?
    General Kadish. No, that is not correct. I think we are 
heading towards testing in calendar year 2004, the fall of 
calendar year 2004, with a half-power laser, that is correct.
    Senator Reed. When do you expect to have a full-power laser 
capable of testing and deployment?
    General Kadish. As soon as we can do it, Senator, but I 
cannot give you a date right now. A lot will depend upon how 
successful we are marching to that 2004 date with the half-
power laser. The achievement which that represents is rather 
significant. Whether it is half-power or full-power is an issue 
with the operational capability of the airplane, but the very 
fact that we could achieve a shootdown of any magnitude with 
that particular power laser is a major technical 
accomplishment.
    Senator Reed. With respect to Navy Theater-Wide, General 
Kadish, there has been the need to develop radar for the 
theater-wide system, and there has been a debate about the X-
Band radar and alternative radars. Are you committed to 
developing an X-Band radar for the Navy theater-wide radar, or 
now the sea-based midcourse system?
    General Kadish. I do not believe I am committed to do 
anything in terms of the selection of those radars at this 
point in time. I think one of the things you have to understand 
as we begin to look at the environment outside the treaty 
constraints, is that one of the things we are looking very hard 
at is the value of having autonomous radars, integrated into a 
shooting system, if you will, and relying only on those radars. 
The treaty will allow us to look at off-board cuing and 
different types of configurations of sensors, so it throws a 
different light on the selection that we might have with any 
particular technology.
    However, I will say this. We have had ongoing for many 
years a development program with what we call S-Band radar 
which is already on the Aegis cruiser, and then the X-Band, 
that gives us better discrimination capability for missile 
defense efforts, and we have to decide what to do about that.
    We have funded the programs, I believe, in the 2003 budget 
for continuation, but we have some big decisions. We would 
recommend to Secretary Aldridge, probably in the next 6 to 8 
months, in the 2004 deliberations on exactly which way we are 
going to go.
    Senator Reed. Last month, the Navy announced a contract 
worth $420 million to develop an S-Band radar component for 
sea-based midcourse defense. Why would the Navy be initiating 
this contract rather than the Missile Defense Agency?
    General Kadish. We still have components of our program 
being managed by the different Services. What has changed in 
the Missile Defense Agency management structure is that now we 
have direct control of the programs through the Services, as 
before they were reporting through different chains to the 
Services using our dollars allocated by Congress.
    So it is a different management structure, but you can 
expect that the Services, where they are doing that work on our 
behalf, will be letting the contracts. Some will be let out of 
the Missile Defense Agency direct. Some will be done by the 
Services.
    Senator Reed. A final question. We have talked before about 
countermeasures, and General Welch is leading your efforts on 
the countermeasures. How much are you requesting this year in 
terms of funding for research on countermeasures?
    General Kadish. I would like to take that for the record, 
but when you say research on countermeasures there are 
different ways we can answer that question, and we will try to 
do it for the record. If you are talking about dollars spent on 
actually developing the countermeasures themselves to test 
against, that is one number. If you are talking about the 
additional dollars that we are spending to develop our systems 
to deal with those countermeasures, that is a different number, 
and a lot harder to segregate, because we do that altogether in 
our development program, but it is a major part of our 
development effort to deal with countermeasures.
    [The information referred to follows:]

    In the fiscal year 2003 President's budget, the Missile Defense 
Agency's planned spending for countermeasure/counter-countermeasure 
research and development is $219.967 million. The planned allocation of 
the requested funds is:

          $72.013 million--PE 0603880C BMD Systems, 1050 Advanced 
        Concepts
          $60.279 million--PE 0603175C BMD Technology, 6010 Advanced 
        Technology Development
          $30.000 million--PE 0603882C Midcourse Defense Segment, 3050 
        Common SE&I
          $26.475 million--PE 0603880C BMD Systems, 1030 Targets and 
        Countermeasures
          $30.000 million--PE 0603880C BMD Systems, 1060 Test and 
        Evaluation
          $1.200 million--PE 0603880C BMD Systems, 1050 Intelligence

    Secretary Aldridge. Just a comment. The concept that we 
have applied for missile defense, which is looking for boost 
phase, midcourse, and terminal phase by itself is a 
countermeasure program, because it is very difficult for any 
adversary to build countermeasures to deal with each one of 
those phases. In the boost phase you do not have to worry about 
warheads or decoys. You try to go after the booster. There is 
very little they can do for countermeasures. During midcourse 
phase there is a different set of circumstances. Terminal is 
another set of circumstances.
    So by the way we are designing the program--and of course 
we are employing spiral development of the capability with 
time--it has a natural countermeasure sense to the program that 
I think is important for us to realize.
    Senator Reed. Senator Allard, do you have any more 
questions?
    Senator Allard. No, thank you, Mr. Chairman.
    Senator Reed. If there are no further questions, we will 
recess the hearing. Thank you.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

                     NEED FOR FOREIGN-BASED RADARS

    1. Senator Reed. General Kadish, during the hearing you stated that 
foreign radars were necessary to provide for adequate missile defense 
coverage if SBIRS-Low was not deployed. I understand, however, that a 
recent Pentagon study showed that a combination of new and existing 
radars, all based CONUS, would provide adequate coverage for a national 
missile defense system. Could you please clarify why you asserted at 
the hearing that foreign radars were necessary, given the results of 
the recent study?
    General Kadish. If the Space Based Infrared System (SBIRS)-Low is 
not deployed, a Ballistic Missile Defense (BMD) system consisting of 
non-U.S.-based radars is necessary to provide adequate coverage.
    The referenced study is the Missile Defense Agency's (MDA) SBIRS 
study directed by the Program Decision Memorandum (PDM). The study 
states that a Ground-Based Midcourse (GMD) missile defense system is 
effective against the less sophisticated threats that rogue nations 
could pose in the near term. The study also states that in addition to 
CONUS-based radars, non-U.S.-based radars would be needed to handle 
more challenging threats.
    Ground-based radar is inherently limited to line-of-sight, 
restricting range and delaying acquisition of the threat target until 
it rises above the radar horizon. The more time the BMDS has to 
evaluate the target, the better discrimination and targeting will be. 
Radars based overseas extend the horizon and the time available for 
defenses to mitigate the impact of evolving adversary countermeasures. 
An effective defense requires that threat missile complexes be observed 
soon after the last rocket stage burns out. In the absence of SBIRS-
Low, only radars based beyond CONUS borders can do this.

                   PRESIDENTIAL ALLOCATION OF FUNDING

    2. Senator Reed. Secretary Aldridge, the Fiscal Year 2002 National 
Defense Authorization Act reduced the administration's 2002 ballistic 
missile defense request by $1.3 billion, and then made that amount 
available for combating terrorism or ballistic missile defense. The act 
required the President to determine how to use the $1.3 billion, based 
on the national security interests of the United States, and required 
the Secretary of Defense to submit to Congress a report describing the 
Secretary's plan for use of the funds. Has the $1.3 billion been 
allocated by the President, and if so, what is the status of the report 
to Congress?
    Secretary Aldridge. Congress chose not to appropriate funds in a 
manner that would have required the allocation contemplated by Section 
1010 of the Fiscal Year 2002 National Defense Authorization Act. 
Therefore, the authorization has not been allocated.

                    PROCUREMENT OF MISSILE DEFENSES

    3. Senator Reed. General Kadish, how early could we begin procuring 
missile defense systems for deployment, and which systems might we buy?
    General Kadish. This budget request contains funds for the Patriot 
Advanced Capability (PAC-3) production, so we have already begun the 
process. We have not, however, completed our Block 2004 and 2006 
definition and configuration that will provide the basis for any future 
production decisions.
    Based on continued testing success and capability assessments, we 
could procure small quantities of the Theater High Altitude Area 
Defense (THAAD), as well as a rudimentary ground- or sea-based 
midcourse capability in 2005-2006.
    The GMD test assets we are acquiring for use in the BMDS Test Bed 
are just that, for testing, with the potential for contingency 
employment. They are not operational systems for deployment.

                       FISCAL YEAR 2002 FYDP DATA

    4. Senator Reed. Secretary Aldridge, one of the principal ways we 
use to understand a new budget is to compare it to the old one. For 
programs such as missile defense with long development times, it is 
critical to understand the budget for the outyears as well as for the 
next year. To help our understanding, the Department of Defense 
invariably presents last year's 5-year budget plan, or Future Years 
Defense Program (FYDP), as it is called, along with this year's FYDP, 
so comparisons can be made. I understand that this was, in fact, done 
this year for virtually all defense programs except for MDA programs. 
Could you please provide last year's FYDP for all MDA programs and 
projects to help us complete our review of the fiscal year 2003 budget 
submission?
    Secretary Aldridge. The Fiscal Year 2002 Ballistic Missile Defense 
Organization (BMDO) budget was originally prepared and submitted by the 
previous administration for $4.5 billion. The current administration 
revised the fiscal year 2002 ballistic missile defense budget and 
program significantly during last summer. That revised fiscal year 2002 
budget request was $7 billion and was submitted during June 2002. The 
Department did not issue fiscal guidance for fiscal years 2003-2007 
until August 2002, so no official out-year fiscal information was 
available to support the amended request.
    Other DOD programs may have been able to provide approximate out-
year detail for the amended budget, but this data is unofficial and 
would closely match current planning figures only because those 
programs were not substantially revamped last summer. However, at the 
time the amended budget was submitted, BMDO was still exploring, with 
the Department, alternative BMD programs plans, strategies, and funding 
levels for fiscal years 2003-2007. Refinement of these strategies and 
plans continued until submission of the fiscal year 2003 budget 
request.

     OBLIGATIONS AND EXPENDITURES DATA FOR MISSILE DEFENSE PROGRAMS

    5. Senator Reed. General Kadish, reporting of obligations and 
expenditures data for current and previous years is one way to gauge 
the top-level health and progress of a program. Such obligations and 
expenditures data are typically provided to Congress as part of routine 
staff briefings by DOD program managers. However, they were not 
presented this year for MDA programs. Could you please provide 
obligations and expenditures data and projections for each budget 
project in the MDA for fiscal years 2001 and 2002?
    General Kadish. See attached charts.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                          NMD COUNTERMEASURES

    6. Senator Reed. General Kadish, there are a number of simple 
countermeasures discussed by organizations and individuals such as the 
Pentagon's Director of Operational Test and Evaluation, the Independent 
Review Team previously led by General Welch, and others. The most 
notable of these include tumbling re-entry vehicles with tumbling 
conical balloon decoys, and re-entry vehicles disguised by simple 
balloons. Are you aware of these?
    General Kadish. Yes.

    7. Senator Reed. General Kadish, how do you intend to defeat such 
countermeasures with a midcourse system and do you intend to flight 
test against all of these countermeasure types, and if so, when?
    General Kadish. MDA, with special focus on its GMD activity, has 
implemented countermeasure and counter-countermeasure processes to 
ensure the BMD System can negate not just simple threat 
countermeasures, but will continue to develop the BMD System to counter 
more complex threat countermeasures as they evolve.
    The approach the Department has taken towards missile defense is to 
have redundant capabilities by deploying different elements. The BMD 
System will consist of elements configured into layered defenses to 
provide autonomous and mutual support, including multiple engagement 
opportunities, along a threat missile's flight path. Common sense tells 
us that the more shots we can take, the better will be our overall 
chance of success. It will also make it more difficult for the enemy to 
use countermeasures against us, because he will have to design 
countermeasures for the midcourse stage of flight, as well as the boost 
and terminal stages of flight.
    The capability-based, block delivery approach to development of the 
BMD System has been formulated to take the greatest advantage of 
available countermeasure and counter-countermeasure technology. The MDA 
Targets and Countermeasures project funds targets and countermeasures 
in support of BMD programs, including the GMD element. Major efforts 
include maintaining a required inventory of major target components 
such as boosters, reentry vehicles countermeasures, and developing and 
incorporating countermeasures into targets for testing against BMD 
elements and components.
    The MDA countermeasure/counter-countermeasure effort identifies and 
prioritizes solutions to credible countermeasures and incorporates 
robust testing against a broad range of threats. Results of the testing 
program help develop additional algorithms to mitigate these threats. 
Threat estimates are being changed from point-designs to capability-
based. Solutions with potential counter-countermeasures effectiveness 
will be evaluated through the MDA Red-White-Blue team process for 
incorporation by block upgrades into the midcourse segment (both ground 
and sea).
    A key element of our counter-countermeasures program is Project 
Hercules. This is a national effort to develop a broad range of robust, 
adaptive, physics-based algorithms designed to defeat nominal and off-
nominal deployments of reentry vehicles and associated countermeasures. 
The initial focus of Project Hercules has been midcourse discrimination 
for the GMD element. In fiscal year 2002, Project Hercules expanded its 
scope to include all phases of missile flight. In cases where credible 
countermeasures discussed by outside reviewers in the unclassified 
community were not already under investigation by Project Hercules, the 
Project has focused resources on mitigations strategies.
    For the midcourse BMD elements, in fiscal year 2002, MDA initiated 
advanced development of discriminating seeker components including 
multicolor focal plane arrays and laser radars, as well as beginning 
advanced development of transportable discriminating radar and 
miniature kill vehicle concepts. These efforts will continue in fiscal 
year 2003. Additionally, interactive discrimination concepts are being 
pursued.
    MDA plans to test all BMD elements and BMDS blocks against a 
variety of increasingly complex countermeasures. While definitive 
flight testing dates have not been set, this testing will evolve as the 
initial GMD parts of the BMDS Test Bed are developed and constructed.

    8. Senator Reed. General Kadish, how much funding are you proposing 
in fiscal year 2003 to develop counter-countermeasures to these simple 
types of countermeasures?
    General Kadish. The BMDS budget for fiscal year 2003 includes $153 
million to fund efforts related to the development of counter-
countermeasures. The GMD portion of that is $30 million.

                          ABL COUNTERMEASURES

    9. Senator Reed. General Kadish, the ABL is a revolutionary 
technology that could give this country a powerful defense against both 
theater and possibly long-range ballistic missiles. However, as with 
all technologies, there are countermeasures that could be used by an 
adversary. For the ABL, some of these potential countermeasures are 
quite simple, such as reflective paints. The National Defense 
Authorization Act for Fiscal Year 2000 required the Department to set 
up a countermeasures test and evaluation effort for the ABL. What is 
the current status of that program, and how much funding does that 
program have this year and how much funding do you propose for this 
program for fiscal year 2003?
    General Kadish. The Directed Energy Countermeasures Assessment Team 
(DECAT), set up while the ABL program was under Air Force management, 
continues to be the only countermeasures effort for ABL. With the 
transition of ABL to the MDA, the ABL program will continue the DECAT 
effort and will also rely on the MDA Targets and Countermeasures and 
MDA Test and Assessment offices for internal countermeasure analysis. 
MDA did not fund any independent analysis of countermeasure for ABL in 
fiscal year 2002 or fiscal year 2003.

    10. Senator Reed. General Kadish, what products are planned for 
this effort in fiscal year 2002 and fiscal year 2003?
    General Kadish. We would be glad to address this effort in a 
classified briefing at your convenience.

    11. Senator Reed. General Kadish, in 1998, the Department set up a 
DECAT to evaluate potential ABL countermeasures. Does this team still 
exist, are its members the same, and how have the results of the DECAT 
been folded into ABL designs or operations?
    General Kadish. The DECAT continues to function and its membership 
is unchanged. How the results of the DECAT have been folded into ABL 
design will be answered in a classified briefing at your convenience.

                          ABL FUNDING INCREASE

    12. Senator Reed. General Kadish, both the fiscal year 2002 and the 
proposed fiscal year 2003 budgets for the ABL have had $200 million 
increases from the previous year. The fiscal year 2003 budget also 
indicates that the first test of the ABL has slipped by a year, to 
fiscal year 2005. What specific technical challenges have caused the 
program to slip and why do you need another large funding increase for 
the program?
    General Kadish. The technical challenges that caused program 
slippage include additional time and effort to incorporate lessons 
learned from the January 2002 Laser Module 1 test that produced 118 
percent of expected power. Furthermore, the original vendors supporting 
coatings in beam control optics turned to commercial markets, and 
additional time was needed to find and qualify new competent vendors. 
Finally, the test schedule, cramped because of these delays, had to be 
restructured to allow sufficient time both for the conduct of each test 
and analysis between tests.
    Funding increases reflect this program stretch out, as well as 
added work to structure the program into block increments of increased 
capability for integration into the BMDS.
    In addition, the fiscal year 2003 budget request reflects the 
incorporation of a more robust advanced technology development effort 
to include a system integration laboratory (SIL) at Edwards AFB. The 
SIL will be used to prove out and mature technologies as well as 
troubleshoot any issues on the Block 2004 system and subsequent blocks 
to reduce risk, provide phased build-up of the Iron Bird, and address 
lethality.
    Both the fiscal year 2002 and fiscal year 2003 budgets fund 
additional spares for the optical and laser systems to reduce schedule 
serialism and risk of excessive schedule delays during integration and 
testing.

        -  Beam control efforts include critical beam transfer assembly 
        flight spares, duplicate flight processor diagnostic system, 
        flight processors, and spare flight turret ball assembly 
        components.
        -  Laser efforts include additional plumbing, integrating 
        support structure, optical hardware, electronics and actuators, 
        fluid products, turbopump, gain generator subsystem, singlet 
        oxygen generator, pressure recovery subsystem, and mechanical 
        hardware.
        -  Test and Integration funds provide for hardware and software 
        for secure communications system throughout the ABL test 
        facilities.

    13. Senator Reed. General Kadish, how much of this funding is 
needed specifically to work on the technical challenges that need to be 
solved in order to get the first test aircraft to actually work, how 
much is for other activities, and what are those activities (e.g., 
design and purchase of a second aircraft)?
    General Kadish. For fiscal year 2003, total ABL funding request is 
$598 million; $338 million is for the first aircraft, Block 2004.

        <bullet> $280 million will be used for the Block 2004 contract 
        efforts
        <bullet> $58 million in government costs associated with Block 
        2004 test operations at Edwards AFB, modeling, simulation, and 
        analysis, target purchases for the Block 2004 aircraft, and 
        program office operations
        <bullet> $105 million is budgeted for the Block 2008 efforts to 
        include completing a system requirements review and preparation 
        of the preliminary design
        <bullet> $50 million for the systems integration laboratory
        <bullet> $20 million for advanced technology development
        <bullet> $55 million for long lead components for Block 2008
        <bullet> $30 million for the initial payment on the Block 2008 
        aircraft

                              ABL TARGETS

    14. Senator Reed. General Kadish, according to your budget 
documents, a total of 18 target missiles are to be bought for the ABL 
between fiscal year 2002 and fiscal year 2003. Please identify for 
which test each of these targets is being bought, state the purpose of 
the test, and the currently planned date for the test.
    General Kadish. The MDA reduces risk inherent in this unprecedented 
and revolutionary development effort by incrementally building and 
testing segments until the ABL weapon system is completely integrated 
and tested. Using this approach, we will ``build a little, test a 
little.'' The target set ABL will use has been developed in order to 
meet the requirements for verification of element performance. Each 
series of tests has a unique set of technical verifications for the 
specific segment being tested.
Missile Targets
    15 Lance missiles will be used in a number of tests:

    1. Battle Management Command, Control, Communications, Computers 
and Intelligence (BMC\4\I) to verify the proper operation of the active 
Ranging System (ARS) and Infrared Search and Track (IRST) systems by 
tracking the Lance upon boost and comparing data to range tracking 
data.
    2. Beam Control/Fire Control (BC/FC) to ensure ABL fine tracking 
capability (tracking illuminator laser (TILL)) and adaptive optics loop 
closure (beacon illuminator laser (BILL)) on a boosting missile target.
    3. Full-Up system to ensure full system engagement against a 
boosting missile. No target data is collected. Tests ensure ABL runs 
the entire timeline through High Energy Laser (HEL) laze (HEL flash) 
with a boosting missile target (no destruction of target).

    Three Terrier Lynx will also be used in multiple tests:

    1. BC/FC to ensure ABL fine tracking capability (TILL) and adaptive 
optics loop closure (BILL) on a boosting missile target.
    2. A Full-Up system to ensure full system engagement against a 
boosting missile. Tests ensure ABL runs the entire timeline through HEL 
engagement.
    Together, the Lance and the Terrier Lynx bound Foreign Military 
Asset performance provide a full system demonstration against a 
realistic missile target threat. The progressive testing schedule is 
not yet firm. Currently the BMC\4\I testing is scheduled for 1QFY03. 
All other testing is scheduled for 4QF04-1QFY05 timeframe.

                  NAVY THEATER-WIDE RADAR DEVELOPMENT

    15. Senator Reed. General Kadish, your budget documentation for 
last year indicated you planned to spend $67 million in fiscal year 
2002 on X-Band radar development for Sea-based Midcourse. Do you still 
plan to spend that amount in fiscal year 2002 on X-Band development for 
this program and if not, what amount do you now plan on spending in 
fiscal year 2002?
    General Kadish. Congress made an unspecified $100 million reduction 
in the fiscal year 2002 budget for the Sea-based Midcourse Program 
Element. MDA spread the $100 million reduction across the program 
element, which resulted in X-Band radar development funding being 
reduced from $67 million to $12 million.

    16. Senator Reed. General Kadish, how much do you propose to spend 
for X-Band development for Sea-based Midcourse in fiscal year 2003 and 
what is the basis for this amount?
    General Kadish. The fiscal year 2003 President's budget is $15 
million for the fiscal year 2003 X-Band solid-state radar development. 
This figure is based on funding availability, as other elements require 
funding earlier in our program's development process.

            ATTACKING BALLISTIC MISSILES BEFORE THEY LAUNCH

    17. Senator Reed. Secretary Aldridge, our experience with Unmanned 
Air Vehicles (UAVs) such as the Predator in Afghanistan has proven that 
we now have the capability to destroy moving targets, such as trucks 
and SUVs, with a high level of confidence. This experience indicates 
that were Operation Desert Storm to occur today, we would have much 
better success attacking Scud launchers than we did then. The benefit 
of getting the launcher is that there are far fewer launchers than 
missiles. How much funding is devoted to maximizing our ability to hit 
missile launchers before or after the launch of a missile, and who is 
in charge of developing the plans and technology for this? How is this 
effort coordinated with our missile defense efforts?
    Secretary Aldridge. We do have more capability now to destroy 
moving targets than we did during Operation Desert Storm; however, 
there are no single-point solutions to attacking such time-sensitive 
and mobile targets. The solution to the problem rests in an across-the-
board increase in capability associated with intelligence operations, 
battle management, and attack execution to shorten the joint targeting 
cycle. The presence of persistent intelligence, surveillance, and 
reconnaissance (ISR) sensors and immediately available attack weapons 
are an important cornerstone to this capability. Although it is 
difficult to determine an exact funding amount across the entire 
spectrum of platforms and programs related to this capability, one can 
highlight a few programs related to this mission. For example, in the 
President's budget submission there is $230 million allocated across 
the FYDP for accelerated Unmanned Aerial Combat Vehicle programs and, 
as indicated in Program Decision Memorandum IV, there is significant 
funding allocated for Global Hawk and space-based radar across the 
FYDP. These programs will help to attain the persistent ISR required to 
detect and prosecute targets such as SCUD launchers. There is also 
funding allocated to increase the accuracy of our weapons by 
modernizing GPS ($727 million across FYDP) and fund Advance Concept 
Technical Demonstrations (ACTDs) that would, for example, arm the next 
generation of Predator with new capability.
    All of the Services and unified commands, in coordination with the 
Joint Requirements Oversight Council (JROC), Defense agencies, and OSD 
(AT&L) are working to develop the plans and technology for our future 
capability. The Joint Theater and Missile Defense Organization is a key 
stakeholder in this process and plays a vital role in the DOD 
coordination of these issues.

                      FUNDING FOR NEW TECHNOLOGIES

    18. Senator Reed. General Kadish, besides the two new boost phase 
programs you started last year, how much of the requested fiscal year 
2003 funding is being applied to new technologies that weren't 
previously being pursued under the previous administration and what is 
the basis for your technology program element funding level?
    General Kadish. The program includes $12.3 million for new projects 
that were not pursued under the previous administration, and $34.7 
million in additional intensified funding for projects, consistent with 
the changes in focus between the prior and current administrations, 
with the following breakout.
    In fiscal year 2002, MDA realigned its technology program under 
Program Element 0603175C. This continues with the fiscal year 2003 
request. The technology program is aligned to the BMD System's boost, 
midcourse, and terminal layers, with particular emphasis on boost-phase 
intercept and midcourse counter-countermeasures. In addition the 
program has been reoriented to conduct high-risk, high-payoff work 
intended to achieve breakthrough results, whereas previous efforts 
focused on nearer-term technology insertion for theater ballistic 
missile defense programs.
    The fiscal year 2003 technology program includes $8.3 million for 
Boost-Phase Intercept, $2.0 million for interactive discrimination, and 
$2.0 million for long-range atmospheric (terminal) defense. The 
previous administration did not pursue these. The boost phase work 
includes $3.6 million for early launch detection and tracking; the 
balance of $4.7 million is for high-energy laser weapons work.
    The fiscal year 2003 technology program also includes $12.0 million 
for Miniature Kill Vehicles, an increase of $11.0 million relative to 
the previous administration, and $14.2 million for Global Defense, an 
increase of $4.7 million that covers a $3.5 million active laser 
tracking project and $1.2 million for smaller efforts. Finally, the 
$19.0 million discriminating seeker program has been significantly 
reoriented towards technology insertion for midcourse defense against 
long-range threats.
    The MDA Technology Program Element funding level is $121.8 million 
for fiscal year 2003. MDA deems this sufficient in view of the high-
risk, high-payoff nature of this work and because a significant 
fraction of the MDA overall budget of $7.6 billion pays for technology 
work that is done under other Program Elements.

                     NAVY AREA PROGRAM TERMINATION

    19. Senator Reed. General Kadish, Navy Area was our only ballistic 
missile defense system to employ an explosive warhead to kill the 
target missile, rather than employing so-called ``hit-to-kill'' 
technology. Hit-to-kill technology requires extremely accurate aiming, 
which is difficult at best, and may not work against excessively 
maneuvering missiles, some of which we saw during Operation Desert 
Storm. What is your new plan to replace Navy Area, and do you plan on 
continuing the explosive warhead approach?
    General Kadish. When the Navy Area program was canceled, the Under 
Secretary of Defense for Acquisition, Technology, and Logistics, USD 
(AT&L) tasked the Missile Defense Agency, in close consultation with 
the Navy, to address sea-based terminal ballistic missile defense 
capability as part of the integrated BMDS. We have completed an in-
depth review of potential options for development and fielding of a 
sea-based ballistic missile defense capability. We assessed both 
explosive warhead and hit-to-kill options during this review and will 
provide you with detailed plans of the new effort upon departmental 
approval of the way.

                    FUNDING FOR EXTRA THAAD MISSILES

    20. Senator Reed. General Kadish, how much of the fiscal year 2003 
funding request for THAAD is for production of extra missiles, or even 
radars, or other components that are not essential for the currently 
planned Block 04 flight test program of five flight tests, but will 
likely be available assets after the currently planned block 2004 
flight test program ends in fiscal year 2006?
    General Kadish. There is $40 million in fiscal year 2003 funding 
associated with the THAAD element allocated to acquiring 10 additional 
test configuration missiles for the BMDS Test Bed. These test missiles 
will include telemetry/safety instrumentation, which was originally 
planned to be acquired later in the baseline approach. Fiscal year 2003 
funding is needed to meet a delivery schedule in fiscal year 2006 
versus fiscal year 2008, as defined in the current baseline approach. 
There is no fiscal year 2003 funding for extra radars or other non-
missile components that are not essential for the currently planned 
Block 04 flight test program of five flight tests.

                    SEA-BASED MIDCOURSE FLIGHT TESTS

    21. Senator Reed. General Kadish, your current budget documents 
indicate that three Sea-based Midcourse flight tests are planned for 
2002. What is the total cost of the three flight tests planned for 
2002?
    General Kadish. The cost for each SMD flight test is as follows:

                        [In millions of dollars]
  Target...........................          9    (includes indirect
                                                   target costs)
  Test Conduct.....................          6    (test planning,
                                                   execution, and
                                                   analysis)
  SM-3 Missile.....................         20    (recurring
                                                   manufacturing)
                                    -------------
    Total..........................         35


    The total cost for three flight tests is $105 million.

                       ALTERNATE BOOSTER PROGRAM

    22. Senator Reed. General Kadish, you have announced the award of a 
contract worth $425 million for development of an alternate booster for 
the Ground-based Midcourse program. How much funding are you proposing 
for this effort in fiscal year 2003 and when do you expect the 
alternate booster will be available?
    General Kadish. We have asked for $216.3 million in fiscal year 
2003 for Prime Contractor dual booster development.
    Test Bed versions of the boosters will each be tested in two non-
intercept tests beginning in 2003. Additionally, MDA plans to fly these 
vehicles against targets in Integrated Flight Test IFT-14 and IFT-15, 
planned for fiscal year 2004, respectively.

    23. Senator Reed. General Kadish, when do you expect the objective 
(vice the alternate) ground-based Midcourse booster to become 
available?
    General Kadish. Test Bed versions of the dual objective boosters 
will be used for Integrated Flight Test (IFT) -14, -15, -16, and -17. 
The full objective boosters are planned for flight scheduled no earlier 
than late 2004.

    24. Senator Reed. General Kadish, are we also considering use of 
existing assets such as the Peacekeeper as an alternate booster and if 
so, when might they become available?
    General Kadish. No. Missile stacks using various stages of the 
Peacekeeper combined with other stages were considered during the 
alternate booster competition by the bidders. They were eliminated from 
consideration because of performance, size, and system cost 
considerations.
    Neither the Orbital Sciences nor Lockheed Martin configurations use 
Peacekeeper assets. Boeing has selected Orbital Sciences Corporation 
and Lockheed Martin Missiles and Space as its subcontractors for the 
GMD dual booster strategy. Orbital will build and integrate a second 
source booster vehicle using existing or slightly modified versions of 
existing Orbital boost vehicles. Boeing intends to have Lockheed Martin 
build and integrate a high performance boost vehicle (HPBV) 
configuration.

       ACQUISITION AND TESTING OF ACTUAL FOREIGN COUNTERMEASURES

    25. Senator Reed. General Kadish, I understand that the BMDO used 
to fund a modest program to acquire and test actual foreign missile 
defense countermeasures. This program was known as QP. Is this program 
still being funded by the MDA and if so, how much funding is being 
provided in fiscal year 2002, and how much is proposed for fiscal year 
2003? Alternately, if not, why not?
    General Kadish. To date, there have been no fiscal year 2002 funds 
obligated toward QP. MDA representatives met with the Space and Missile 
Defense Command and the QP contractor on March 12, 2002. MDA is 
currently evaluating QP proposals and gathering internal information 
establish requirements for the remainder of fiscal year 2002 and fiscal 
year 2003.

                       PROGRAM MANAGEMENT FUNDING

    26. Senator Reed. General Kadish, your budget proposal for fiscal 
year 2003 funds program management-related activities such as systems 
engineering and integration, support, and program operations. What 
specific products are expected to be contracted for with this funding? 
Could you please provide a breakdown of the specific products, and each 
product's expected 2003 cost?
    General Kadish. The fiscal year 2003 MDA Systems Engineering and 
Integration (SE&I) budget of $371.149 million funds Systems Engineering 
and Architecture (SE&A), Threat Systems Engineering (TSE), Advanced 
Concept, Intelligence System Threat, Joint Warfighter Support, Joint 
National Integration Center, Cooperative Programs and Allied Support, 
and BMD Information Management efforts. The funding and products for 
each of these areas is as follows:

        <bullet> $192.307 Million Systems Engineering and Architecture/
        Threat Systems Engineering

                <bullet> Update the Ballistic Missile Defense System 
                Technical Objectives and Goals and System Capability 
                Specification.
                <bullet> Continue to define and develop the BMDS System 
                Evolution Plans.
                <bullet> Continue to develop new/alternative concepts 
                and conduct trade studies to support system evolution 
                and risk mitigation.
                <bullet> Update standards and orchestrate activities 
                across all BMDS elements to ensure system integration.
                <bullet> Continue the establishment of BMDS level 
                criteria, metrics, and Technical Performance 
                Measurement and assess progress, identify risks, 
                support selection of alternatives, establish capability 
                increments, and ensure system integration.
                <bullet> Maintain risk mitigation activities.
                <bullet> Continue to execute the Corporate Lethality 
                program to support effective intercepts and establish 
                collateral effects.
                <bullet> Conduct force-on-force level and detailed 
                element level analyses to assess system effectiveness, 
                ensure robust performance, and establish expected 
                capabilities to incorporate in future blocks.
                <bullet> Support analysis of system alternatives 
                involving potential coalition partners that explore 
                interoperability concepts, Battle Management/Command 
                and Control (BM/C\2\) alternatives, and associated 
                engineering requirements.
                <bullet> Continue to establish requirements for and 
                provide engineering support to System verification and 
                testing.
                <bullet> Provide for the development and analysis of 
                the BMD System architecture with multiple layers 
                including boost, mid-course, and terminal intercept 
                capabilities and employing multiple sensors integrated 
                by BM/C\2\ and Communications segments.
                <bullet> Conduct the Corporate Countermeasures/Counter-
                Countermeasures (i.e. Red-White-Blue) program.
                <bullet> Maintain an Adversary Capability Document 
                definition necessary to support BMD System design, 
                development, and testing.
                <bullet> Maintain a number of reference scenarios 
                illustrative of the threat space, for use in assessment 
                of BMDS capabilities.
                <bullet> Perform threat modeling and simulation to 
                characterize the threat, providing digital data to 
                support BMDS analyses.
                <bullet> Update modeling and simulation capability and 
                provide threat media to support analyses.
                <bullet> Produce quick reaction assessments for the 
                Director of potential impacts to BMDS capabilities.
                <bullet> Support focused BMD efforts such as Project 
                Hercules and targets and countermeasures.

        <bullet> $79.501 Million Advanced Concepts

                <bullet> Develop, evaluate, and promote integration of 
                Advanced Concepts and Technologies into the BMDS.
                <bullet> Mature advanced concepts to assess their 
                viability for BMDS.
                <bullet> Develop advanced technologies for missile 
                defense.
                <bullet> Maintain cognizance in leading edge concepts 
                that could contribute to revolutionary BMD capability 
                enhancements.
                <bullet> Develop and improve decision and 
                discrimination algorithms supporting the BMDS.
                <bullet> Develop decision architecture for implementing 
                the next generation BMDS BM/C\2\.
                <bullet> Define and lead the BMDS Battlefield Learning 
                and Adaptation to respond to unexpected battlefield 
                events.
                <bullet> Lead Advanced Concept Studies as directed by 
                MDA/D, DD, DT.

        <bullet> $12.615 Million Intelligence Systems Threat

                <bullet> Foreign missile characteristics and 
                performance analysis.
                <bullet> Foreign missile booster analysis.
                <bullet> Foreign missile payload analysis.
                <bullet> Foreign missile countermeasures analysis.
                <bullet> Foreign missile signatures analysis.
                <bullet> Foreign missile lethality analysis.
                <bullet> Foreign missile proliferation analysis.
                <bullet> Adversary Capability Document (ACD) support.
                <bullet> Threat Description Document (supports the 
                ACD).
                <bullet> Capabilities-based Scenarios.
                <bullet> Intelligence-based Scenarios.
                <bullet> Scenario Modeling Software Updates/
                Maintenance.
                <bullet> Intelligence assessments work.
                <bullet> Scenario support.

        <bullet> $16.407 Million Joint Warfighter Support

                <bullet> Joint Warfighter Support Program provides BMD 
                expertise to the Commanders in Chiefs (CINCs), brings 
                Joint/Combined/Coalition lessons learned to the 
                developer, coordinates block contingency deployment 
                plans, engages CINCs in C\2\ development, facilitates 
                intra/inter theater CONOPS developments, facilitates 
                program transition to Services, maintains interaction 
                with the transitioned programs, and supports CINC BMD 
                exercises, wargames, and tabletops. This will be done 
                in fiscal year 2003 by funding the BMD portion of the 
                following seven Theater CINC exercises:

                        <bullet> Roving Sands 03 (JFCOM),
                        <bullet> Reception, Staging, Onward Movement 
                        and Integration/Foal Eagle 03 and Ulchi Focus 
                        Lens 03 (USFK),
                        <bullet> Juniper Cobra (EUCOM) for 2 years (03 
                        and 04),
                        <bullet> Terminal Fury (PACOM), and
                        <bullet> Lucky Sentinel and Eagle Resolve 03 
                        (CENTCOM).

        <bullet> $47.937 Million Joint National Integration Center

                <bullet> Operations of the Joint National Integration 
                Center.
                <bullet> Environment, Information Management, and 
                Facility Modernization.
                <bullet> BM/C\2\ Development and Integration.
                <bullet> Exercise Support.
                <bullet> Support to Wargames and Wargames 2000.
                <bullet> Ground-based Midcourse Defense 
                Interoperability, Multi-Mission Integration Cell, 
                Theater Missile Defense Interoperability, Special 
                Programs Center.

        <bullet> $1.435 Million cooperative program and allied support

                <bullet> Develop and evaluate non-U.S. operational 
                concepts created in conjunction with supported country.
                <bullet> Examinations of U.S. and foreign assets in 
                extended air defense scenarios.
                <bullet> Develop potential foreign military sales 
                opportunities.

        <bullet> $20.947 Million information management systems

                <bullet> Wide area network management activities such 
                as network security and continuity of Operations.
                <bullet> Contract support for Enterprise Information 
                Architecture.
                <bullet> Enterprise information applications: email, 
                collaboration tools, and enterprise portal.
                <bullet> BMD Data Center activities: Data storage, 
                archival, retrieval.
                <bullet> BMD Information Resource Center.
                <bullet> Information Assurance Operations Center 
                Definition and Testbed.
                <bullet> BMD Information Management/Information 
                Technology Plans, Policies, and Analysis.

                          PROCUREMENT FUNDING

    27. Senator Reed. General Kadish, the MDA acquisition plans 
envision ``transitioning'' missile defense programs to the Services 
when they are ready. Once this happens, how will procurement funding 
across the FYDP be provided and will the Services be asked to fund the 
procurement of the missile defense system out of their top-line budget 
or will funding be transferred from the MDA budget to the Services?
    General Kadish. In his Missile Defense Program Direction memorandum 
of January 2, 2002, the Secretary of Defense prescribes that the MDA is 
responsible for planning and budgeting for missile defense RDT&E 
activities and that the Services are responsible for budgeting for 
missile defense procurement and operations. MDA will share the 
responsibility for planning and budgeting during the Transition Phase 
with the appropriate Service. We will work with the Department to 
develop specific procurement alternatives for BMDS elements as part of 
our fiscal years 2004-2009 Program Objective Memorandum.

    [Whereupon, at 4:53 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                       WEDNESDAY, MARCH 13, 2002

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.

       BALLISTIC MISSILE DEFENSE ACQUISITION POLICY AND OVERSIGHT

    The subcommittee met, pursuant to notice, at 2:31 p.m., in 
room SR-222, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Levin, Reed, Ben 
Nelson, Warner, Smith, Inhofe, Allard, and Sessions.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Kenneth M. Crosswait, professional staff member; and 
Richard W. Fieldhouse, professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; L. David Cherington, minority 
counsel; Brian R. Green, professional staff member; William C. 
Greenwalt, professional staff member; Mary Alice A. Hayward, 
professional staff member; and Thomas L. MacKenzie, 
professional staff member.
    Staff assistants present: Leah C. Brewer and Thomas C. 
Moore.
    Committee members' assistants present: Elizabeth King, 
assistant to Senator Reed; Richard Kessler, assistant to 
Senator Akaka; Peter A. Contostavlos, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; J. Mark 
Powers, assistant to Senator Inhofe; Douglas Flanders, 
assistant to Senator Allard; and Arch Galloway II, assistant to 
Senator Sessions.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Let me call the hearing to order. We will be 
joined shortly by Senator Allard, and I thank Senator Inhofe 
for joining us.
    I want to welcome back Secretary Aldridge, Under Secretary 
of Defense for Acquisition, Technology, and Logistics (AT&L), 
and Lieutenant General Kadish, Director of the newly organized 
Missile Defense Agency (MDA). I would also like to extend a 
warm welcome to the Honorable Thomas P. Christie, Director of 
Operational Test and Evaluation (OT&E) for the Department of 
Defense.
    Mr. Christie, you have a very important statutory role. You 
provide Congress and the American people the assurance that our 
military systems are well tested and that they are 
operationally effective before they are fielded to our fighting 
forces.
    Last week, we had the opportunity to examine the 
significant budget request for missile defense. This is the 
second year in a row that there have been significant requests 
for missile defense budgets.
    This week we focus on the sweeping changes in ballistic 
missile defense management and oversight that the Defense 
Department has begun to implement. These changes raise 
questions about whether there will be appropriate checks and 
balances for the Department's missile defense programs to help 
ensure both program success and the wise use of defense 
resources.
    The most fundamental question is, are these changes 
necessary to produce effective ballistic missile defense as 
soon as practicable?
    Every day we see the technological superiority of our 
Nation's fighting forces, the accuracy of our long-range 
weapons, the ability to provide incredibly detailed videos from 
above the battlefield in real time to command centers thousands 
of miles away, and the ability to fight nearly as well at night 
as we do in the day. All of these capabilities put us decades 
ahead of all of our nearest potential rivals and all of these 
capabilities were developed using our existing disciplined and 
proven policies for acquisition and oversight.
    The second major question is, are the proposed changes 
consistent with maintaining meaningful congressional oversight 
over missile defense programs?
    Congress by itself does not have the resources to oversee 
every individual military program in detail. That is why 
Congress codified in statute the roles and responsibilities of 
positions such as the one which Mr. Christie now fills and many 
others. It is clear that under the new rules for missile 
defense, these organizations will not be performing their 
traditional roles. One of the areas we will explore today is 
what roles, if any, these oversight organizations and others 
will play in the new Missile Defense Agency.
    Before recognizing our witnesses, I would ask if Senator 
Inhofe or Senator Smith has an opening statement.
    Senator Inhofe. Mr. Chairman, I do not have an opening 
statement. I am ready to go to the witnesses.
    Senator Reed. Thank you very much.
    Senator Smith
    Senator Smith. I do not have one either. Let us go. 
[Laughter.]
    Senator Reed. Thank you, Senator Smith and Senator Inhofe.
    Before we proceed to our witnesses, and without objection, 
I would like to place in the record at this point Secretary 
Rumsfeld's January 2, 2002, memorandum establishing the Missile 
Defense Agency, as well as Secretary Aldridge's two memoranda 
of February 13, 2002, providing plans and implementation 
guidance for the new agency. I do so because this information 
will, I think, be a significant part of the discussion at our 
hearing today and well in the future.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Reed. Secretary Aldridge, welcome.

 STATEMENT OF HON. E.C. ``PETE'' ALDRIDGE, UNDER SECRETARY OF 
       DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Secretary Aldridge. Good morning, Mr. Chairman and members 
of the subcommittee. I again thank you for the opportunity to 
appear before you today to discuss the management and oversight 
of the Department of Defense's missile defense program.
    On January 2 of this year, Secretary Rumsfeld issued his 
direction to the Department for the missile defense program. 
His stated objectives included the establishment of a single 
program to develop an integrated Ballistic Missile Defense 
System (BMDS) under the authority of a single organization, the 
Missile Defense Agency.
    Mr. Chairman, I have a written statement I would submit for 
the record, and I will briefly summarize it today.
    Senator Reed. Without objection.
    Secretary Aldridge. Redesignation of the Ballistic Missile 
Defense Organization as the Missile Defense Agency provides 
greater authority to Lieutenant General Kadish and his staff to 
manage the rigorous and complex technical challenges associated 
with developing missile defenses.
    Ballistic missile defense requires scientific and 
engineering breakthroughs on many different fronts at once, 
launches from both land and sea, space-based, ground-based, and 
vehicle-based sensors, warning satellites, lasers, hit-to-kill 
systems, decoy discrimination, and guidance and targeting 
systems that have to be accurate within inches at closing 
speeds of 20,000 miles per hour impacting their targets 
thousands of miles from where they were launched. We have to 
integrate all these systems into one system requiring 
extraordinary computing power and communications capabilities 
that must themselves be safe from interference and attack.
    The Secretary of Defense directed the use of a streamlined 
oversight process for the BMDS, and he has indicated his 
intention to look to the Department of Defense Senior Executive 
Council (SEC) for oversight and recommendations for decision 
making in this area. The SEC is chaired by Deputy Secretary 
Wolfowitz and includes the Service Secretaries and myself.
    In turn, I recently issued implementation guidance based on 
Secretary Rumsfeld's direction. I tasked the Director of the 
Missile Defense Agency, who reports to me, to plan and execute 
a single missile defense program, structured to integrate work 
and enable capability trades across different elements of the 
Ballistic Missile Defense System and to facilitate decisive 
action in response to program events.
    To advise the Director of MDA on management of the missile 
defense program, and to aid the SEC in executive decision 
making on missile defense, I have formed a Missile Defense 
Support Group (MDSG) which consists of 13 designated senior 
experts from selected staffs within the Department. They will 
be supported by a working group of individuals from their 
support staffs. The Chairman of the Missile Defense Support 
Group is the Director of Strategic and Tactical Systems, Office 
of the Under Secretary of Defense, AT&L. He will report 
directly to me on all Missile Defense Support Group matters. A 
list of the MDSG principals and working group members can be 
found in my written statement.
    Finally, MDA will manage these programs during the research 
and development phase only. They will be transitioned to the 
military departments for deployment, at which time the normal 
acquisition process will take effect.
    The objectives of this reorganization of our ballistic 
missile defense efforts are to integrate programs, centralize 
their management, elevate the authority, responsibility, and 
flexibility of that management, and to provide a more 
streamlined oversight process. It will be characterized by 
extensive OSD oversight and congressional visibility. I contend 
that it will advance ballistic missile defense toward its 
intended role as one of the greatest peacekeeping technologies 
ever created.
    Thank you, Mr. Chairman. I will be happy to answer 
questions of members of the subcommittee at the appropriate 
time.
    [The prepared statement of Secretary Aldridge follows:]

           Prepared Statement by Hon. E.C. ``Pete'' Aldridge

    Good morning, Mr. Chairman, members of the subcommittee. Thank you 
for the opportunity to appear before you today to discuss the fiscal 
year 2003 Department of Defense missile defense program and budget. It 
is my goal to address the new management structure of the missile 
defense program and discuss the new, more flexible oversight process 
which is being adopted by the Department.
    On January 2, of this year, Secretary Rumsfeld issued his direction 
to the Department for the missile defense program. His stated 
objectives included the establishment of a single program to develop an 
integrated Ballistic Missile Defense System under the authority of a 
single organization, the Missile Defense Agency (MDA). He directed that 
a capability-based requirements process be adopted and that streamlined 
oversight be incorporated to facilitate the earliest possible 
deployment of missile defense capabilities to the Services.
    Redesignation of the Ballistic Missile Defense Organization as the 
Missile Defense Agency provides greater authority to Lieutenant General 
Kadish and his staff to manage the rigorous technical challenges 
associated with developing missile defenses. The additional authorities 
are necessary due to the magnitude of the program, and the high 
priority placed on this effort by the President. It is for these same 
reasons that the Secretary directed the use of a streamlined oversight 
process. The Secretary has indicated his intention to look to the DOD 
Senior Executive Council (SEC) for oversight and recommendations for 
decision-making in this area. The SEC is chaired by Deputy Secretary 
Wolfowitz and includes the Service Secretaries and myself.
    In that regard, I recently issued implementation guidance based on 
Secretary Rumsfeld's direction. In this guidance, I directed the 
Director of the MDA to plan and execute a single missile defense 
program, structured to integrate work and enable capability trades 
across different elements of the BMDS and to facilitate decisive action 
in response to program events. This single program has the same 
reporting requirements to OSD and Congress that all other programs 
have. The Director of the MDA has been given full authority to execute 
a capability-based acquisition approach that will produce missile 
defenses at the earliest feasible date. He will have the authority and 
responsibility to develop all associated technologies and conduct 
developmental testing. He will interface with the warfighter community 
to determine desired operational features and to develop strategies for 
introducing developed capabilities into the fighting forces. He will 
have the authority to manage the acquisition strategy, make program 
commitments, award contracts, make affordability tradeoffs, and 
exercise milestone decision authority up to, but not including, 
Milestone C (the beginning of the production and deployment phase).
    The unique management and oversight processes described above apply 
only to the development phase, when the configurations of missile 
defense systems are still being defined and production and deployment 
considerations are unknown. At the point where an individual element of 
the BMDS progresses to the point of demonstrating useful capability, 
the Director of the MDA will recommend that the SEC consider it for 
transition to production and deployment. Transition to procurement will 
create an acquisition program in its own right and activate the 
management, oversight, and reporting processes used for traditional 
defense acquisition programs. I will establish the necessary product 
teams and processes needed to support a Milestone C production decision 
by the Defense Acquisition Board (DAB). Following the Milestone C 
decision, the designated Military Department will manage the program 
following standard acquisition processes and reporting.
    To advise the Director of the MDA on management of the Ballistic 
Missile Defense program and to aid the SEC in executive decision-making 
on missile defense, I have formed a Missile Defense Support Group 
(MDSG) of designated senior experts from 13 selected staffs within the 
Department. The Chairman of the MDSG is the Director of Strategic and 
Tactical Systems. He will report directly to me on all MDSG matters. 
The MDSG consists of senior and experienced individuals who will be 
able to provide useful insights and recommendations on policy, 
operations, acquisition, and resource matters that affect the BMDS. 
Members of the MDSG will be supported by a Working Group of individuals 
from their support staffs. They will promote the success of the BMDS by 
providing informed constructive advice on the program and keeping their 
principals advised of program progress and developments. They will 
perform independent reviews and studies of the ballistic missile 
defense program where needed. A list of the MDSG principals and working 
group members is as follows:

                MISSILE DEFENSE SUPPORT GROUP MEMBERSHIP
------------------------------------------------------------------------
          Organization                   MDSG              MDSG (WG)
------------------------------------------------------------------------
OUSD(AT&L)S&TS..................  Dr. Spiros Pallas.  CAPT Michael
                                  Dr. Kent G.          Cregge
                                   Stansberry.        LTC(P) Stephen
                                                       Kreider
Secretary of Army...............  BG(P) John Urias..  COL Jeff Horne
Secretary of Navy...............  Mr. David M.        Ms. Denise Del
                                   Altwegg.            Camp
Secretary of Air Force..........  MG(S) John Corley.  COL Bo Reese
                                                      COL(S) Rex Kiziah
USD(P)..........................  Mr. David           Dr. Peppi DeBiaso
                                   Trachtenberg.      Dr. Rob Soofer
USD(C)..........................  Mr. Ron Garant....  Mr. Tom Kerr
VCJCS...........................  Brig Gen Rick       Dr. Barry Fridling
                                   Lewis.             CAPT Roger Easton
ASD(C\3\I)......................  Mr. John Landon...  Mr. Jim Martin
                                                      COL Brian Robinson
DOD(GC).........................  Mr. Doug Larsen...  Ms. Shauna Russell
                                                      Mr. Charles
                                                       Bidwell
DOT&E...........................  Mr. Larry Miller..  Mr. Mario Lucchese
                                                      CDR Barry Haynie
D, MDA..........................  Dr. Glenn Lamartin  Mr. Robert Brown
D, (PA&E).......................  Dr. Michael         Dr. James Brooks
                                   Ioffredo.          Dr. Dennis Evans
C, (CAIG).......................  Dr. David McNicol.  Dr. Richard Burke
                                                      Mr. Steve Miller
------------------------------------------------------------------------

    The first task of the MDSG will be to review the MDA plan to 
implement Secretary Rumsfeld's January 2, 2002, missile defense program 
direction, and the implementation guidance issued by me. That plan will 
address matters of great importance to the success of the BMDS, 
including the program structure and funding allocations, the management 
structure, acquisition strategy, program documentation, and interfaces 
with the Services. The first combined MDSG and MDSG Working Group 
meeting occurred on Friday, March 8, to start the process of oversight 
and review. They will meet as required and will have access to the 
information they require to perform their responsibility.
    The Department is making these changes in response to the high 
priority for missile defense articulated by President Bush. We believe 
that integrating several programs into one, centralizing their 
management within a single defense agency with greater authority, 
responsibility, and flexibility, and providing a more streamlined 
oversight process will cause missile defenses to be developed and 
deployed in a much more efficient manner than would be possible under 
the former structure. The SEC has already conducted six meetings to 
discuss the MDA, which is significantly more high-level oversight than 
other programs that normally only see this level of oversight at a DAB 
once every few years.
    Congress will have the same visibility into the Ballistic Missile 
Defense System program that it has with other programs. In this 
context, some of the classical metrics of progress are affected by the 
adoption of an RDT&E-only approach to the development phase. To ensure 
that Congress has a full understanding of the program, we are committed 
to provide necessary details of how the program will be structured and 
managed.
    The Department provided four information briefings to the defense 
authorization and appropriations committees staff, plus one to the 
House Government Reform Committee staff. During these first five 
briefings, which occurred shortly before the Secretary issued his 
direction on missile defense, we committed to provide details on how we 
planned to implement the Secretary's direction prior to issuing 
implementation guidance. On February 11 and 12, 2002, we provided four 
more briefings to each of the defense authorization and appropriations 
committees staff, presenting the implementation plans. The MDA has 
already conducted over 25 hours of briefings on the Ballistic Missile 
Defense System to members of the congressional staff. Those briefings 
provided specifics on the planned development activities for each 
element of the system this year. MDA will continue to provide Congress 
with detailed information to satisfy its oversight responsibilities. 
The annual Selected Acquisition Report (SAR) to Congress will be 
submitted on the BMDS with a separate SAR for the PAC-3 program, 
because procurement activity for PAC-3 has begun. Providing separate 
SARs will ensure full visibility into the transition of the program to 
the the Military Departments after a deployment decision, just as it 
will be done for the Army's PAC-3.
    Thank you, Mr. Chairman. I would be happy to answer any questions 
you and the members of the subcommittee might have.

    Senator Reed. Thank you, Mr. Secretary. Mr. Christie, do 
you have a statement?

  STATEMENT OF HON. THOMAS P. CHRISTIE, DIRECTOR, OPERATIONAL 
           TEST AND EVALUATION, DEPARTMENT OF DEFENSE

    Mr. Christie. Yes, I do, a very short one.
    Good afternoon, Mr. Chairman and members of the 
subcommittee. I also thank you for the opportunity to appear 
before you and discuss our role, the role of the Office of the 
Director of Operational Test and Evaluation (DOT&E), in 
overseeing the planning and execution of a robust test and 
evaluation strategy for the various components that comprise 
our ballistic missile defense program.
    As we have heard, the Missile Defense Agency is embarking 
on a new and aggressive approach to the development and 
acquisition of missile defense capabilities. The traditional 
paradigm of developing and producing weapon systems based on a 
set of user and technical system-level requirements is being 
transformed. This new approach is evolving to provide for the 
successful development of capabilities that are responsive to 
imminent threats and can be readily deployed while, at the same 
time, maintaining essential operational effectiveness and 
suitability standards for equipment that is fielded with our 
operational forces. As this MDA acquisition and oversight 
process evolves, DOT&E, my office, is adjusting the way we will 
execute our responsibilities to accommodate this new approach.
    I use the word ``evolving'' in my references to this new 
process because I view that evolution as not yet complete. My 
staff and I have been given access to the MDA's initial plans, 
which are still in the early stages of implementation. My staff 
has been working with their MDA counterparts for some time now 
to assure that DOT&E will have access to MDA's plans and 
programs, and that that access will be adequate to accomplish 
our oversight mission. We have agreed at this point to an 
oversight approach where we are broadly involved at the MDA and 
element levels during the early research, development, test, 
and evaluation (RDT&E) phases.
    Our level of involvement will increase appropriately as the 
programs mature and progress through to the transition and 
procurement phases. We plan to monitor significant testing and 
technology interchange activities at the project level 
throughout all the phases of these programs. We will provide 
the results of our evaluations directly to the MDA, General 
Kadish, and to the senior leadership of the Department through 
the Missile Defense Support Group and its Working Group, both 
of which, as Secretary Aldridge stated, include members of my 
staff.
    As the programs move through the transition phase, we will 
increase our involvement in test planning and execution 
activities, especially as appropriate to support both live-fire 
test and evaluation and operational test and evaluation. We 
plan to provide an independent operational assessment that 
addresses the operational effectiveness and suitability for 
each capability at each of its major decision points.
    DOT&E will also prepare an annual report for the Department 
and for Congress on each of the MDA programs. As required by 
congressional language, this report will provide our assessment 
of the adequacy and sufficiency of MDA's testing program over 
the previous year.
    In addition to missile defense program redirection, MDA is 
redefining the ballistic missile defense architecture to 
provide a system-of-systems approach to a layered missile 
defense. The new approach integrates the old national and 
theater ballistic missile defense initiatives into an 
integrated layered approach now called the missile defense 
system. We will closely monitor testing of the individual 
elements within the missile defense system, as well as the 
testing of the integrated elements, including the battle 
management, command, control, communications, and intelligence 
(BMC\3\I), which will tie all the individual elements together 
to provide a robust, integrated, layered missile defense system 
capability.
    A key aspect of the development and testing of the new 
missile defense system is establishing the missile defense 
system testbed and its supporting infrastructure. This 
integration of both existing and new facilities and equipment 
is planned to support the execution of more operationally 
realistic ground and flight testing. The testbed, as we know 
it, should mitigate many of the existing test limitations that 
have prevented operationally realistic flight testing of the 
old national missile defense system. As a result of phasing in 
new launch and tracking facilities, future ground-based 
midcourse system flight testing can gradually increase in 
realism and complexity at a pace consistent with disciplined 
engineering practice and fiscal responsibility. I strongly 
concur with the funding and development of this vital testing 
asset.
    I intend to work very closely with both Under Secretary 
Aldridge and General Kadish to support the development and 
adequate testing of a capability that will secure the defense 
of our Nation and its fighting forces while, at the same time, 
maintaining our responsibility for acquisition oversight.
    Mr. Chairman and Senators, I would be pleased to answer any 
questions that you have.
    [The prepared statement of Mr. Christie follows:]

             Prepared Statement by Hon. Thomas P. Christie

    Good afternoon, Mr. Chairman, members of the subcommittee. I thank 
you for the opportunity to appear before you to discuss the role of the 
office of the Director of Operational Testing and Evaluation (DOT&E) in 
overseeing the planning and execution of a robust test and evaluation 
strategy for the various components that comprise our ballistic missile 
defense (BMD) program.
    The Missile Defense Agency (MDA) is embarking on a new and 
aggressive approach to the development and acquisition of missile 
defense capabilities. The traditional paradigm of developing and 
producing weapon systems based on a set of user and technical system-
level requirements is being transformed. The new approach is evolving 
to provide for the successful development of capabilities that are 
responsive to imminent threats and can be readily deployed, while at 
the same time maintaining essential operational effectiveness and 
suitability standards for equipment that is fielded with our 
operational forces. As this MDA acquisition and oversight process 
evolves, DOT&E is adjusting the way we execute our responsibilities to 
accommodate this new acquisition approach.
    I use the word ``evolving'' in my references to this new process 
because I view that evolution as not yet complete. My staff and I have 
been given access to the MDA's initial plans, which are still in the 
early stages of implementation. My staff has been working with their 
MDA counterparts to assure that DOT&E access to MDA's plans and 
programs is adequate for us to accomplish our oversight mission. We 
have agreed to an oversight approach where we are broadly involved at 
the MDA and element levels during the early RDT&E phases.
    Our level of involvement will increase appropriately as the 
programs mature and progress into and through the transition and 
procurement phases. We plan to monitor significant testing and 
technology interchange activities at the project level throughout all 
the phases. We will provide the results of our evaluations directly to 
the MDA and to the senior leadership of the Department through the 
Missile Defense Support Group (MDSG) and its Working Group, both of 
which include members of my staff. As the programs move through the 
transition phase, we will increase our involvement in test planning and 
execution activities, especially as appropriate to support both live 
fire test and evaluation and operational test and evaluation. We plan 
to provide an independent operational assessment that addresses the 
operational effectiveness and suitability for each capability at each 
of its major decision points. DOT&E will also prepare an annual report 
for the Department and Congress on each of the MDA programs. As 
required by congressional language, this report will provide our 
assessment of the ``adequacy and sufficiency'' of MDA's testing program 
over the previous year.
    In addition to missile defense program redirection, MDA is 
redefining the ballistic missile defense architecture to provide a 
system-of-systems approach to a layered missile defense. The new 
approach replaces the old national and theater ballistic missile 
defense initiatives with an integrated, layered approach, now called 
the missile defense system. We will closely monitor testing of the 
individual elements within the missile defense system, as well as the 
testing of the integrated elements, including the battle management, 
command, control, communications, and intelligence (BMC\3\I), which 
will tie the individual elements together to provide a robust, 
integrated, layered missile defense system capability.
    A key aspect of the development and testing of the new missile 
defense system is establishing the missile defense system testbed and 
its supporting infrastructure. This integration of both existing and 
new facilities and equipment is planned to support the execution of 
operationally realistic ground and flight-testing. The test bed should 
mitigate many of the existing test limitations that prevented 
operationally realistic flight-testing of the old national missile 
defense system. As a result of phasing in new launch and tracking 
facilities, future Ground-based Midcourse System flight-testing can 
gradually increase in realism and complexity at a pace consistent with 
disciplined engineering practice and fiscal responsibility. I strongly 
concur with the funding and development of this vital testing asset.
    I intend to work very closely with both Under Secretary Aldridge 
and General Kadish to support the development and adequate testing of a 
capability that will secure the defense of our Nation and its fighting 
forces, while maintaining our responsibility for acquisition oversight.
    Mr. Chairman, I would be pleased to answer any questions you may 
have.

    Senator Reed. Thank you very much, Mr. Christie.
    General Kadish.
    General Kadish. I have submitted a statement, I would like 
it included in the record, and I have some opening remarks.
    Senator Reed. General Kadish, you are recognized.

STATEMENT OF LT. GEN. RONALD T. KADISH, USAF, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    General Kadish. Good afternoon, Mr. Chairman and members of 
the subcommittee.
    We have modified our approach to the acquisition of missile 
defenses to reflect the reality of change and surprise in our 
world today. September 11 brought home this reality very 
forcefully to all of us in the Missile Defense Agency. The 
Department has restructured the missile defense program as a 
national priority with focused management attention so that we 
can reduce our decision cycle time during development to handle 
a very complex set of challenges.
    I believe we can meet those challenges if we do two things. 
First, make sure our technologies are mature enough to begin 
development and testing, and second, take an evolutionary or 
phased approach to development, production, and deployment.
    To support this approach, on January 2, of this year, as 
Secretary Aldridge alluded to, the Secretary of Defense 
redesignated the Ballistic Missile Defense Organization as the 
Missile Defense Agency and changed the responsibilities and 
authorities of the Director. While some of these authorities 
given to the Director are new, all of them are within the 
Secretary's existing statutory powers. Moreover, our activities 
will be just as apparent, I believe, and our accountability to 
you and the American people just as assured as they have been 
in the past.
    The Secretary has set up a formal oversight process for the 
missile defense program, as described by Secretary Aldridge. As 
Director, I will continue to report to the Under Secretary, and 
the SEC, chaired by the Deputy Secretary, which will provide 
executive oversight of the program. The SEC provides guidance 
regarding policy, planning, and programming, and makes 
decisions on whether to stop, start, slow, or accelerate 
activities, and approves recommendations on the fielding of 
system elements. SEC members demand high standards of 
accountability, as was made clear with the Department's 
decisions to cancel the Navy area program and restructure the 
space-based infrared radar system (SBIRS)-Low program. I have 
briefed the SEC six times since last August on the status of 
our plans.
    There is also a standing Missile Defense Support Group, as 
described by Secretary Aldridge. Its chairman reports directly 
to the Under Secretary, and all members are senior and 
experienced in missile defense.
    In my view, there are two major reasons for these changes. 
The first is to provide more focused executive oversight and 
reduce decision cycle time throughout the development process. 
Program reviews in the traditional world of acquisition are 
episodic and subject to individual program events or 
milestones, which may be separated by months and years. Our new 
procedures provide for more frequent and comprehensive 
departmental oversight and will allow us to better respond to 
changing conditions and emerging events throughout the program.
    The second reason we have changed our processes is that the 
existing departmental procedures were designed for a single 
service acquisition. When we are dealing with very complex 
programs, such as the F-22, the DDG-21, or the Comanche attack 
helicopter, ultimately we are looking at one service to operate 
and deploy the system.
    Missile defense is very different. We have three military 
departments, the Joint Staff, and the regional commanders in 
chief all deeply involved. System integration requires that we 
cross Service boundaries at the outset of development, as well 
as many technical boundaries. Even at the mission execution 
level, no one Service will operate this system as a total 
system. The Missile Defense Agency, I believe, was established 
to pull these strands together and make an effective system.
    Now let me turn to the subject of congressional oversight 
very briefly. We will continue to provide Congress annual 
budget justification materials supporting the President's 
budget submission. Detailed budget and schedule summaries for 
all major budget projects within the system will be part of 
this submission, and will include our extensive engineering and 
rigorous testing activities as well as infrastructure plans for 
such development activities as THAAD and the Ground-based 
Midcourse system.
    In addition to the annual schedule of program hearings, we 
have provided extensive briefings and numerous briefing 
opportunities. So far, during January and February of this year 
alone, we have concluded 25 hours of briefings to congressional 
professional and personal staffs, and these briefings will 
continue as you desire.
    In order to deal with threat uncertainty, we are looking at 
a broader range of capabilities an adversary might have in a 
given time frame, and then developing defensive capabilities 
incrementally and in blocks. In simple terms, capability-based 
development means looking at the threats we face and building 
and deploying what we can in the shortest possible time. We 
accept that the capability we put in the field initially will 
be imperfect, but we can advance it and enhance it over time.
    This requires that the user and the developer work closely 
together in a disciplined way throughout the developmental 
process. It requires rigorous testing to see what works best 
and to see what might help improve the deployed system. In 
short, it allows requirements to be flexible by putting the 
user and the developer on the same page in understanding how to 
develop a product like missile defense using unprecedented and 
very complex technology. This is the best way I can think of to 
build a complex missile defense system.
    This approach is not really new. Our Nation has used it 
successfully in the past to develop the Polaris submarine-
launched ballistic missile and the SR-71 reconnaissance 
aircraft. We are certainly familiar with upgrading systems over 
time. The B-52s that flew over Afghanistan last fall were far 
different aircraft than those that first rolled off the 
production lines 5 decades ago.
    The authorities that the Secretary has given me are 
important to our success in my opinion. Reporting on the 
missile defense program will continue, and we will continue to 
pass to Congress and this subcommittee the information it needs 
to do its job.
    Clearly, our ability to react rapidly to the swift-moving 
international security environment, while at the same time 
reforming how we do business within the Department, is a 
central challenge for us all. This committee's support for the 
President's Freedom to Manage Initiative will reduce statutory 
requirements that restrict management flexibility, allowing us 
to more effectively and efficiently execute the missile defense 
program with which we have been entrusted.
    At the end of the day, however, it is very important that 
whatever we deliver actually improves our security. With your 
support, I am committed to making sure that happens, Mr. 
Chairman.
    That concludes my statement.
    [The prepared statement of Lieutenant General Kadish 
follows:]

         Prepared Statement by Lt. Gen. Ronald T. Kadish, USAF

    Good afternoon, Mr. Chairman, members of the subcommittee. It is a 
pleasure to appear before you today to testify on the recent 
establishment of the Missile Defense Agency and reorganization of the 
missile defense program. I welcome this opportunity to describe our 
reorganization.
    On January 2, of this year, the Secretary of Defense redesignated 
the Ballistic Missile Defense Organization as the Missile Defense 
Agency and changed the responsibilities and authorities of the 
Director. Your staff is familiar with the Secretary's directive.
    The Secretary gave the Agency--and me as Director--new priorities 
and direction, and expanded responsibilities and authority to execute 
the missile defense program. Some of these new authorities differ from 
traditional departmental processes, but all of them are within the 
Secretary's existing statutory powers. Our activities will be just as 
apparent, and our accountability to you and the American people just as 
assured, as they have been in the past. We are developing a detailed 
plan by April to implement the Secretary's guidance. We believe that 
the changes we are instituting will provide for a better structure to 
manage and execute the missile defense program and will enhance our 
performance as responsible stewards of the resources entrusted to us.

                           PROGRAM DIRECTION

    The Secretary spelled out four top priorities for missile defense. 
They are:

        <bullet> First, to defend the United States against limited 
        missile attack, as well as to defend U.S. deployed forces, 
        allies, and friends;
        <bullet> Second, to employ a Ballistic Missile Defense (BMD) 
        System that layers defenses to intercept missiles in all phases 
        of their flight against all ranges of threat;
        <bullet> Third, to enable the Services to field elements of the 
        overall BMD System as soon as practicable; and
        <bullet> Fourth, to develop and test technologies, to use 
        prototypes, and to test assets to provide early capability, if 
        necessary, and to improve the effectiveness of deployed 
        capability by inserting new technologies as they become 
        available or when the threat warrants an accelerated 
        capability.

    The Secretary also provided specific objectives for the program to:

        <bullet> Establish a single program to develop an integrated 
        system under a newly titled Missile Defense Agency (MDA);
        <bullet> Assign the best and brightest people to this work;
        <bullet> Apply a capability-based requirements process for 
        missile defense; and
        <bullet> Direct the MDA to develop the missile defense system 
        and baseline the capability and configuration of its elements 
        and the Military Departments to procure and provide for 
        operation and support.

                  THE BALLISTIC MISSILE DEFENSE SYSTEM

    We are developing a single integrated BMD System to counter all 
ranges of ballistic missiles.
    Let me clarify some of the terms we use. When we speak of one BMD 
System, we refer to the operational integration of all missile defense 
elements, including sensors, weapons, and battle management/command and 
control capabilities, regardless of which Service operates them. We 
speak in terms of three defense segments that categorize the 
capabilities to intercept a hostile missile during each phase of its 
flight: a Terminal Defense Segment, a Midcourse Defense Segment, and a 
Boost Defense Segment. We group sensors under a fourth segment.
    Some of the terminology has changed. For example, the Ground-based 
Midcourse Defense, or GMD, replaces the former National Missile Defense 
designation as a better descriptor of what it is--a capability to 
destroy missiles in the midcourse phase of flight using a ground-based 
interceptor.
    Each defense segment is made up of elements, which correspond 
roughly to the old Major Defense Acquisition Programs (MDAPs). Within 
the Midcourse Defense Segment, for example, GMD is an element, and 
within the Terminal Defense Segment, THAAD is an element. Below the 
element level, we have components--THAAD is an element, while its 
radar, for example, is a component.
    In programmatic terms, we no longer speak of national or theater 
missile defense. Operationally, the terms can take on different 
meanings depending on where you live. The distinction between them made 
sense a decade ago, when we faced the stark difference between a Soviet 
ICBM threat and an Iraqi Scud. Now it no longer does. The same North 
Korean missile aimed at Japan could be a national threat to our ally, 
but a theater threat to us--unless it were retargeted toward the United 
States, in which case it would become national again. Furthermore, at 
some point in time, a short-range missile could threaten our homeland 
just as well as an ICBM could, if, say, it were launched from the sea 
off our coast.
    Especially after September 11, from my point of view, we want to 
make sure that we are effective against all ranges of threats. It is a 
national decision as to where and when we deploy our capabilities. We 
face the complex task of integrating many elements, because the flight 
physics of the variety of missile speeds, trajectories, and the 
environments through which missiles travel preclude our having one 
defensive technology that can do it all.

                         DEPARTMENTAL OVERSIGHT

    The Secretary has set up a formal oversight process for the missile 
defense program. As Director, I continue to report directly to the 
Under Secretary of Defense (Acquisition, Technology, and Logistics). 
The Senior Executive Council, or SEC, chaired by the Deputy Secretary, 
provides executive oversight of the program. Permanent members are the 
Service Secretaries and the Under Secretary (AT&L). Other Department 
officials will be included as needed, depending on the subject at hand.
    This Council conducts periodic formal and informal reviews of the 
program. I have already met with the SEC six times since last summer, 
including several to provide formal briefings of our status and plans. 
Planned reviews include such topics as program plans, management 
approaches, test performance, system architecture, technological 
alternatives, basing options, and the threat. The SEC provides guidance 
regarding policy, planning, and programming; makes the decisions as to 
whether to stop, start, slow, or accelerate efforts; and approves 
recommendations on fielding elements of the system. This group demands 
high standards of accountability. You have seen some of this recently 
regarding Department decisions to cancel the Navy area program and 
restructure SBIRS-Low.
    Additionally, the Department has created a new, standing Missile 
Defense Support Group, the Chairman of which reports directly to the 
Under Secretary. This Support Group provides advice both to the Under 
Secretary and to me, as well as input to the SEC. It performs 
independent assessments, and is supported in turn by a working group. 
The members of the Support Group are all senior and all experienced in 
missile defense.
    Why these changes? There are two major reasons. The first is to 
provide more direct and focused executive oversight and reporting. We 
need to reduce decision-making cycle time, and we are looking for real-
time involvement. If we went through the normal departmental processes, 
the reviews would be episodic, subject to individual program events or 
milestones, and there could be years between these events. Our new 
procedures provide for more frequent and more comprehensive oversight 
of the missile defense program than we currently have and can better 
respond to changing conditions and emerging events. They provide for 
more internal accountability at a more rapid pace than we have had in 
the past.
    The second reason we have changed our processes is that existing 
departmental procedures were designed to satisfy the needs of single 
Service acquisition. Even when the Department deals with very complex 
programs, such as the F-22, the DDG-21, or the Comanche attack 
helicopter, ultimately we are looking at one Service to operate the 
deployed system. Our acquisition procedures have been designed over 
time to provide oversight for that one Service. Very seldom have 
Service boundaries been crossed.
    Missile defense is different. In missile defense, we have three 
Military Departments, the Joint Staff, and the warfighting commanders 
in chief, all deeply involved in providing the kind of layered defenses 
we need. Service boundaries are crossed from the start to provide for 
integration within the BMD System. Even at the operational level, no 
one Service will operate missile defenses. That is why the Missile 
Defense Agency was created in the first place, to pull all these 
strands together, regardless of whether the basing mode of any single 
element was on the ground, at sea, in the air, or in space. Oversight 
for the missile defense program under these circumstances requires a 
new approach. I can assure you the work on this approach has already 
been rigorous.
    Let me describe some other features of the restructured program and 
processes, and then I will come back to the important issue of 
congressional oversight.

                      CAPABILITY-BASED ACQUISITION

    There appears to be confusion about what capability-based 
acquisition is. Some have interpreted this as doing away with 
requirements. That is not the case. We are not doing away with 
requirements. We are, however, changing how we derive, define, and deal 
with them.
    Instead of developing systems to respond to a narrowly defined 
threat from a known adversary, we find we cannot know with confidence 
what specific adversary might pose what specific missile threat and 
when. Hence, as a starting point, we are looking at the broader range 
of capabilities an adversary might have in a given time frame and then 
developing defensive capabilities based on technological maturity in 
blocks that will evolve over time.
    The traditional development process started with specific military 
requirements generated by the user and became formalized in the 
Operational Requirements Document, or ORD. This traditional ORD 
approach has generally served us well, especially in procurements 
involving well-known technologies, proven systems, sizeable production 
runs, and established operational experience. None of these yet exist 
in missile defense.
    For us, the strengths of the traditional requirements generation 
process can also be its weaknesses. It is rigorous, but that very rigor 
translates into a lack of the flexibility needed to deal with 
unprecedented technology development. Requirements defined in ORDs are 
typically set many years before actual system deployment, and can often 
lead to less than optimum capability against a threat that exceeds the 
description specified earlier.
    Furthermore, at the moment, we do not yet know all the technical 
approaches that will work best. Five years ago, we could not have 
foreseen, let alone written down, all the uses that define today's 
Internet. It would not be prudent to lock in our development path now 
and find out some years down the road that we have weakness in the 
system. This could come about because of an unexpected technical 
obstacle, because of some new development in the threat, or because we 
failed to exploit some practical technical innovation that we might 
otherwise have captured with our incremental acquisition approach.
    Yet we always face the risk of being surprised by changes in the 
threat. Missile defense has perhaps more uncertainties in this regard 
than many other mission areas. We do not want to alter our baseline 
every time we recognize a change in the threat. Such changes could 
ripple through the program and likely cause significant delay and cost. 
So instead of a point threat, we are setting a wider range of 
boundaries for adversarial capabilities over time in defining our own 
needed capabilities. The baseline we set must be able to deal with 
surprises and changes in the threat. A capability-based approach allows 
us to adjust to those changes in ways that the traditional requirement-
based approach does not.
    These capability definitions act as formal requirements, with one 
key difference--they can be changed as necessary during the 
developmental stages to reflect changes in the threat or to take 
advantage of technical or engineering breakthroughs. Since they evolve 
in parallel with capabilities, they allow us to reduce cycle time, 
schedule risk, and cost risk.
    While we are moving away from some of the rigidities of the past, 
we are not abandoning rigor in development. In my opinion, far from it. 
A capability-based approach provides for significant discipline. It is 
just guided by different mileposts. Instead of the traditional process 
where users define the requirement in great detail, then, subsequently, 
developers translate the requirements into specifications, we intend to 
do both at the same time. In so doing, we can accrue the same 
advantages that the commercial world enjoys.
    We are bringing together users and developers under our Agency's 
lead--the warfighters, the Services, and industry. Together, all of 
them will have a continuous and constructive role in establishing the 
mission requirements for missile defenses, unlike that under the older 
process. The warfighters will not disengage after setting the 
requirements at the outset, and industry will not be brought in at the 
last moment--they will both be present from the start. This partnership 
will be continuous and remain vital throughout the whole development 
process. This focused, unbroken interaction will allow us to make more 
timely capability trades, explore a broader range of options, and 
upgrade our capabilities to keep them current.
    The developmental goals drawn up by this interaction are 
periodically reassessed until a decision is made to capture them and 
fix the characteristics of each 2-year block increment of capability. 
That is our plan--to be able to field, when directed, an effective 
capability, proven through rigorous testing, in 2-year blocks and to 
upgrade it incrementally and continually as the need arises. This 
aspect is called evolutionary acquisition.
    In sum, capability-based acquisition is a flexible approach to the 
acquisition of complex systems, incorporating advanced technologies, 
that permits the early deployment of a limited but effective capability 
that can be progressively enhanced over time as needed. It provides for 
continuous warfighter involvement and disciplined development aimed at 
reducing cycle time. It stays relevant to the threat and remains 
technologically current. That is our vision for the capability-based 
approach and also how we intend to execute it.
    This approach is not really new. Our Nation has used it 
successfully in undertaking previously unprecedented technological 
endeavors. Among other programs, we used this approach for making the 
trade-offs and accelerating the schedule to develop the Polaris 
submarine-launched ballistic missile and the SR-71 reconnaissance 
aircraft. We are certainly familiar with upgrading systems over time. 
The B-52s that flew over Afghanistan last fall were far different 
aircraft than those that first rolled off the production lines five 
decades ago.

                           PROGRAM MANAGEMENT

    As we changed our approach to development, we found we also had to 
change our approach to management. The program is moving from being 
element-centric to system-centric, and the transitions during the 
acquisition cycle are more complex, especially in the hand-off from 
development to production. Our program has entered a new phase, having 
moved from technology development to systems engineering and the very 
significant challenge of integrating many diverse elements, including 
battle management, into one BMD System. This management challenge is at 
least equal to our technical ones, and it is no less urgent.
    This challenge of systems engineering is unprecedented because not 
only do we have thousands of individuals involved in hundreds of 
efforts at dozens of locations, but we also are dealing with cutting-
edge technologies at varying levels of maturity, involving all Services 
and their doctrines, investigating four different basing modes, and 
making it all work together. The systems engineering task for the BMD 
System involves, among other aspects, developing interface 
requirements, element design requirements, verification methodologies, 
and assessments needed for recommendations on system progress.
    Our revised approach to acquisition now specifies three broad 
phases: Development, Transition, and Procurement. As Director of the 
MDA, I have oversight and responsibility for managing the first two 
phases, Development and Transition. The SEC, upon my recommendation, 
approves progression between the two.
    During the Transition phase, the Services take on increasing 
responsibilities, as elements move closer to production and possible 
deployment. At the start of the third phase, Procurement, the Services 
pick up responsibility for managing the production, fielding, training, 
and support of the elements of the BMD System and their components. 
Budgeting during this phase is divided. The MDA will budget for RDT&E 
funds, and the Services will budget for procurement, operation, and 
support funds.
    Managing the transition between the Development and Procurement 
phases will be complex, but it can be done efficiently and effectively. 
While MDA retains system oversight, responsibility for each element is 
shared by MDA and the Service that will operate it once deployed. We 
will baseline the capabilities and configurations during transition, 
and the Services will develop capability-based ORDs around performance 
that, by this stage in development, has been characterized for a 
particular element. These ORDs will become effective on transfer of the 
element to the gaining Service.
    MDA has overall responsibility for designing and maintaining the 
integrated Missile Defense System. For this reason, MDA retains 
responsibility for those element specifications that contribute to 
ensuring full element integration into the initial system block and in 
all subsequent blocks.
    When ready, I will make recommendations for the procurement of 
elements or their components. Only the SEC can approve the move to 
production, and the associated budget and force structure objectives.
    This decision point is not exactly equivalent to any milestone in 
the traditional acquisition framework, but is tailored to be a decision 
to transfer to a Service the responsibility for producing a particular 
configuration of an element and operating it in a quantity appropriate 
to the maturity of the system and its military utility. Should the SEC 
approve the move, elements entering the procurement phase would fall 
under the formal purview of the Joint Requirements Oversight Council, 
or JROC, and traditional oversight and reporting mechanisms come into 
play. As is the case now, the Under Secretary (AT&L) will continue to 
oversee Service procurement activity.

                        CONGRESSIONAL OVERSIGHT

    Let me turn to the subject of congressional oversight. In the near 
term, changes to the missile defense structure will lead to changes in 
the information Congress had previously seen, since the former Major 
Defense Acquisition Programs (MDAPs) are now elements within the 
overall BMD System. For example, prior reports included details for the 
PAC-3, THAAD, NMD, Navy Area, ABL, and SBIRS-Low. These now lie within 
the overall missile defense program. Additionally, these former reports 
also included RDT&E, military construction, and procurement 
information. Yet since the missile defense program is now primarily an 
RDT&E program, unit cost information will be available only after 
production decisions have been made. Thus while we have unit costs for 
PAC-3 this year, the unit costs for other elements will come later.
    That underscores the difficulty of estimating system or even 
element costs at this time. RDT&E costs are expected to continue, 
although future levels may vary depending on which elements and 
components are chosen for full development. This parallels our RDT&E 
experience in other systems as well, as we move to upgrade the right 
capabilities in response to changes in the threat and technology. 
Similarly, procurement costs and life cycle costs cannot be estimated 
with precision at this time, because force structure decisions on the 
elements or the components eventually chosen have not been made.
    Nonetheless, we will submit to Congress a Selected Acquisition 
Report (SAR) for the BMD System RDT&E program, to include major program 
schedule objectives and an estimate of the BMD System and RDT&E program 
funding. Without procurement, the report cannot address production unit 
costs, but it will, however, include major prime contractor cost 
performance data. Congress will receive unit costs to support planned 
procurement once the SEC decides to start that procurement.
    Additionally, we will be supplying--as we have this year--Congress 
with annual detailed budget justification materials supporting the 
President's budget submission. For example, this year's R-2 budget 
document describing the details of our request is over 400 pages long. 
The information is consistent with the BMD System work breakdown 
structure, legislated program elements, and special interest items. 
Included are detailed budget and schedule summaries for all major 
budget projects within the system, such as the extensive engineering 
and rigorous testing infrastructure and activities needed for THAAD and 
Ground-based Midcourse Defense development.
    Furthermore, in addition to the annual schedule of program 
hearings, we have provided extensive briefings--and briefing 
opportunities--to both Members of Congress and congressional staff 
members. So far, during January and February of this year alone, we 
have had over 25 hours of briefings on the program to personal and 
professional staff. These briefings will continue as needed.

                          OPERATIONAL TESTING

    During the development phase, MDA will be responsible for 
conducting developmental testing with the purpose of characterizing the 
capability and military utility of the technologies and their 
integration, and for making recommendations for transition. As Director 
of the Ballistic Missile Defense Organization, I was responsible for 
that. As Director of the Missile Defense Agency, I remain so. That has 
not changed. Moreover, the Director, Operational Test and Evaluation, 
is represented on the Missile Defense Support Group and as such will be 
in a position to advise the Under Secretary and me throughout the 
development and transition phases.
    During the transition phase, an operational test agent will be 
designated and focused operational testing will be conducted to 
characterize the operational effectiveness and suitability of the 
element block configuration under consideration. This operational 
testing will be conducted under the oversight of the Director, 
Operational Test and Evaluation and in accordance with a Test and 
Evaluation Master Plan (TEMP) that he and I will jointly approve. Based 
on the results of that operational testing and other inputs, the SEC 
will decide whether to transfer the tested configuration of the element 
to the Service for procurement and operation. All statutory 
requirements relative to operational testing will be met. Our fiscal 
year 2003 budget, presented separately, details our plan to expand the 
BMD System test bed, useful for both developmental and operational 
testing.

                       RELATIONSHIP WITH INDUSTRY

    A final important facet of our restructured program is how we will 
work with our industry partners to develop capability.
    In many ways, our relationship with industry is even more complex 
than with the Services. To help us find the right solution, we looked 
at how other unprecedented programs had been managed in their day, and 
these included such diverse and pioneering efforts as the Manhattan 
Project, the Mercury, Apollo and ICBM program, and the experience with 
the Space Shuttle. In each case, government maintained total program 
responsibility, but what became clear was that the government, too 
often, did not have a detailed enough understanding of either exactly 
what to buy or what industry could offer. The solution lay in forging a 
much closer relationship between government and industry than normal 
practice entails.
    This is the approach we are taking: to bring together as a national 
team the best and the brightest from the government, academia, and 
industry, so as to ensure timely and effective development of missile 
defense capability. This management approach will provide significant 
value to the missile defense program in bringing the best talent, the 
essential capabilities, the right process methodologies, and all of the 
pertinent proprietary information to bear on our solutions. It will 
provide a strong, disciplined approach with incentives for high 
performance and quality output.
    To recap, government has total system responsibility. Industry 
teams are responsible and accountable for block capability design, BMD 
System integration, and the tough challenge of ensuring effective and 
positive battle management, command and control. In addition to the 
standard mechanisms of traditional program oversight, I intend to meet 
regularly with the CEOs of the relevant firms. I have already met with 
them, both singly and together as a group. They are on board.

                                CLOSING

    Mr. Chairman, we have modified our approach to the acquisition of 
missile defenses because of the changes in our world. September 11 
brought home the lesson forcefully. As Secretary Rumsfeld said, ``We're 
at a moment where we no longer have the margin for error [that we] . . 
. had decades ago where our weapons were relatively short range and 
where the warheads were relatively modest.\1\ '' We can expect to be 
surprised again, and the consequences could be grave.
---------------------------------------------------------------------------
    \1\ Interview with [Britain's] The Daily Telegraph, February 25, 
2002.
---------------------------------------------------------------------------
    The Department has restructured the missile defense program so that 
we can reduce our decision cycle time during development to handle a 
very complex set of challenges and to react better and faster to 
changes in the threat. The authorities granted to me as Director are 
limited by checks and balances. They are monitored by a responsive 
oversight process that will ensure accountability and visibility for 
missile defense development both to the administration and to Congress.
    Clearly, our ability to react rapidly to the swift-moving 
international security environment, while at the same time reforming 
how we do business within the Department, is a central challenge for 
all of us. This committee's support for the President's Freedom to 
Manage Initiative will reduce statutory requirements that can restrict 
management flexibility, allowing us to more efficiently and effectively 
execute the missile defense program with which we have been entrusted.
    What is important is that, at the end of the day and with your 
support, what we in the Missile Defense Agency deliver must be of use 
to the warfighter and must improve our Nation's security. I am 
committed to making sure that happens.
    Mr. Chairman, that concludes my statement. I welcome your and the 
subcommittee's questions.

    Senator Reed. Thank you very much. Your statements will all 
be included in the record.
    Let me also state that we are extremely fortunate to have 
gentlemen like yourselves with experience and the dedication 
that you bring to this endeavor. So, thank you.
    Now let me recognize Senator Allard for any comments he 
might have.
    Senator Allard. Mr. Chairman, I have some comments I would 
submit for the record. I would like to get moving ahead with 
the hearing. I ask unanimous consent that my remarks be made a 
part of the record.
    Senator Reed. Without objection.
    [The prepared statement of Senator Allard follows:]

               Prepared Statement by Senator Wayne Allard

    Thank you, Mr. Chairman. I want to welcome our witnesses today. 
Secretary Aldridge, General Kadish, it's good to see you again, and Mr. 
Christie, it's a pleasure to have you here today.
    The Department of Defense is embracing capabilities-based, spiral 
development as a means of putting militarily useful capability into the 
hands of the warfighter faster than we have in the past. This is an 
approach based on commercial and public sector best practices, and 
consistent with recommendations in General Accounting Office (GAO) 
studies solicited by this committee.
    The Missile Defense Agency appears to me to be at the leading edge 
of these broader changes within the Department of Defense. This past 
year was a challenging one in many ways for the missile defense 
community. General Kadish, you had the extraordinarily difficult task 
of trying to manage very demanding programs, even as those programs 
were being reoriented in a series of wrenching policy, organizational, 
and management shifts. The Ballistic Missile Defense Organization was 
transformed into the Missile Defense Agency. You changed the whole 
approach of your BMD program, from one built around stove-piped 
elements to a single integrated BMD System to provide layered defenses 
against missiles of all ranges. You have established a national team to 
provide the expertise and insight to help integrate all the elements of 
this system. You have had to adapt your management processes as 
directed by Secretary Aldridge. You've had to alter program content to 
reflect an acquisition approach that emphasizes technical maturity and 
proven capability prior to deployment. That is a daunting agenda for 1 
year, but one I think you handled well.
    Successful acquisition and technology development organizations, as 
documented by GAO, separate technology development from product 
development and mature technology by using integrated engineering 
prototypes before proceeding with production decisions. Many of these 
approaches are being adopted by DOD. In practice, the spiral technology 
development approach should allow for technology to mature under the 
Missile Defense Agency to the point that it can be incorporated into a 
program run by the Services without many of the problems associated 
with past acquisition programs.
    Will this approach be successful? No one can say. Acquisition 
reform is always difficult. It will depend on good management 
discipline at DOD. DOD's unreformed requirements and budget processes 
will also challenge this new acquisition approach. I expect our 
witnesses will have something to say about how the MDA will define BMD 
requirements and how that will differ from the process as it applies to 
other programs. In addition, the appropriate level of developmental 
testing necessary to mature technology, as well as the level of 
operational testing for each production spiral still needs to be worked 
through. While the information I have seen to date leads me to believe 
that the operational test and evaluation community will get visibility 
and input into MDA programs, I look forward to our witnesses shedding 
some light on how they anticipate this approach will work.
    I know some critics may simply have a fundamental disagreement with 
the direction of the entire Department of Defense acquisition reform 
movement. Yet unless someone proposes a better alternative than this 
new approach, we all may find ourselves in the awkward position of 
having to live with the old Pentagon acquisition system, a system that 
led to concurrent development of systems and technology, high technical 
risk, schedule delays, cost increases, and weapons system cycle times 
measured in decades--a system that for years this committee has sought 
to improve. Personally, I don't believe that such a result would be 
desirable.
    Mr. Chairman, I thank you again for your patience today. I look 
forward to working with you in the future in what I hope will be common 
cause to improve the defense acquisition system and assure that 
effective missile defenses are deployed as soon as practicable. I look 
forward to the testimony of our witnesses.

    Senator Reed. I presume there is no other member who wants 
to make an opening statement.
    Senator Smith. I have one for the record, Mr. Chairman.
    Senator Reed. Without objection, it will be included in the 
record.
    [The prepared statement of Senator Smith follows:]

                Prepared Statement by Senator Bob Smith

    Thank you, Mr. Chairman, and thank you gentlemen, for taking time 
out of your busy schedules to appear in front of this subcommittee. I 
have long been a staunch and vocal proponent of missile defense. I want 
to congratulate the administration for its total ``reinvention'' of the 
missile defense program. I think it is exactly the right thing to do to 
view ballistic missile defense from a single, integrated, layered 
approach, and the elevation and renaming of the Ballistic Missile 
Defense Organization to the Missile Defense Agency is a positive step.
    I believe this approach best enables the MDA to drive toward its 
priorities of defending the United States homeland, our deployed 
forces, allies, and friends; providing layered defenses in the boost, 
midcourse, and terminal phases of flight against all ranges of threats; 
enabling the Services to field elements of the system as soon as 
practicable; and to develop and deploy prototypes should the threat 
warrant.
    I applaud the progress that has been made. I also applaud the 
innovative acquisition and programmatic review structure that has been 
defined to assist this program through its development. I believe the 
evolutionary spiral development process acknowledges that early in the 
development phase it is impossible to define the end state of an 
operational system, to be developed and fielded in an incremental 
fashion which allows ``small steps'' to be taken first and lessons 
drawn from them before requiring the system to ``run.''
    Mr. Chairman, far too often the Services, with the best interests 
in mind, develop Operational Requirements Documents much too early in 
development and then spend money trying to drive to those requirements 
with blinders on before seeing that the development path should be 
driving towards alternative requirements.
    This has been especially the case in space programs. The 
evolutionary spiral development process will enable a prudent, 
thoughtful approach to instituting increased requirements in the 
program versus the traditional ``requirements creep.'' I believe the 
programmmatic and acquisition review structure you have instituted is 
very well thought out and is the right structure for an ambitious 
missile defense program. There have been criticisms levied against the 
program that somehow the program will have less oversight and will be 
in the hands of a small group that will run rampant. Those arguments 
are unfounded.
    The review and oversight of the missile defense program, in fact, 
will be far more robust than that on traditional programs. The program 
will be reviewed by the DOD's Senior Executive Council at least 
annually, where other programs are reviewed only at major milestones or 
events. Both the Missile Defense Support and the Working Group, 
consisting of membership form the Services, the Joint Chiefs of Staff, 
operational test and evaluation, and other offices that normally are 
represented on Defense Acquisition Boards, will review the program at 
far greater intervals than normal programs. Congress will also be 
affored many opportunities to review the program.
    Again, I applaud you gentlemen, and the administration, for showing 
the courage to revamp the missile defense program into one that has the 
highest probability for success. I look forward to working closely with 
you to help make it happen.

    Senator Reed. We will conduct 6-minute rounds of questions. 
Let me begin, and we will take as many rounds as necessary to 
answer all of our questions.
    Gentlemen, section 232 of the National Defense 
Authorization Act for Fiscal Year 2002 states the following: 
``Officials and elements of the Department of Defense specified 
shall, on an ongoing basis, review the development of missile 
defense goals and the annual missile defense program plan and 
provide to the Secretary of Defense and the Director of the 
Ballistic Missile Defense Organization, now the Missile Defense 
Agency, any comments on such matters as considered 
appropriate.''
    Included among that group of designated agencies is your 
agency, Mr. Christie. Did you have an opportunity, prior to the 
submission of the program plan and defense goals to Congress, 
to provide any comments on the development of the goals and 
program plan in accordance with section 232?
    Mr. Christie. To be brutally frank, I did not have that 
opportunity this year. I will have that opportunity in the 
future. I think the plans were put together toward the end of 
the year, and I had made arrangements with General Kadish to 
begin our process of oversight and interaction with his staff 
once the process of restructuring the MDA programs and 
organization was completed. Unfortunately, we did not have the 
opportunity to look at the budget preparation before it was 
submitted to the Hill.
    Senator Reed. Thank you, Mr. Christie.
    General Kadish, did you provide your goals and program plan 
to all of the organizations, stipulated in section 232, prior 
to submitting them to Congress?
    General Kadish. We made the normal budget submission 
through the departmental process. I would have to go back and 
check to make sure of all the areas in that section. I am not 
familiar with them at this point. But we went through the 
normal process within the Department in a very expedited manner 
because of the time lines we were facing.
    Senator Reed. Could you, for the record, indicate whether 
or not you provided those goals and plans?
    General Kadish. I would be happy to, Senator.
    Senator Reed. Thank you, General.
    [The information referred to follows:]

    The National Defense Authorization Act for Fiscal Year 2002 was 
signed into law on December 28, 2001. By that date, the Missile Defense 
Agency's fiscal year 2003 budget estimate had already been prepared by 
the agency and forwarded through Department of Defense channels to the 
Office of Management and Budget. Consistent with Department processes 
in effect prior to the Fiscal Year 2002 Defense Authorization Act, the 
budget estimate and the accompanying goals and program plan were 
reviewed by the Under Secretary of Defense for Acquisition, Technology, 
and Logistics and the Director of Program Analysis and Evaluation, but 
not by the other three offices identified in Section 232(e).
    Processes for the fiscal year 2004 budget estimate will include the 
five offices identified in Section 232(e). In addition, all are members 
of the Missile Defense Support Group (MDSG). The Under Secretary of 
Defense for Acquisition, Technology, and Logistics established this 
group in February 2002 to provide a continuing role in providing 
insights and advice throughout the development of the Ballistics 
Missile Defense System (BMDS). In this role, the MDSG will have regular 
access to BMDS program information on an ongoing basis.

    Senator Reed. Secretary Aldridge, just a follow-up point, 
if those goals and plans were not provided, are you going to 
follow through and ensure that this section of the law has been 
complied with in this budget cycle and in the future?
    Secretary Aldridge. Absolutely. The process last year was 
somewhat rapid and condensed, based upon a lot of reasons, 
starting with September 11. So, a lot of things we would 
probably have done in a normal year were not completed to the 
degree we would like.
    I would just say the program content that has been 
submitted to Congress has gone through the Senior Executive 
Council, which is the Deputy Secretary, myself, and the Service 
Secretaries, along with the management structure. We all 
supported that particular activity.
    Senator Reed. Thank you, Mr. Secretary.
    Mr. Secretary, in your testimony you indicate that the new 
missile defense program has the same reporting requirements to 
Congress that all other programs have. Section 2430 of Title 10 
defines a Major Defense Acquisition Program, or an MDAP, as 
``an acquisition program that is not a highly sensitive 
classified program that is estimated by the Secretary of 
Defense to require an eventual total expenditure for research, 
development, test, and evaluation of more than $300 million.'' 
Virtually all major missile defense programs fall into that 
category, and in fact, as of December 2000, all major missile 
defense programs were MDAPs.
    Section 2413 of Title 10 requires submission each year of 
an MDAP for the development schedule, including estimated 
annual costs until development is completed, the planned 
procurement schedule, including the best estimate of the 
Secretary Defense, and the annual cost and units to be 
produced.
    It is my understanding that this information was not fully 
submitted to Congress. Why not?
    Secretary Aldridge. I think there is a definition problem 
with what a Major Defense Acquisition Program is. In the 
ballistic missile defense program we have laid out, it is 
undefined that any one of the elements is an MDAP until there 
is a decision to proceed with a deployment or some plan to 
proceed with the deployment in some future year. At this point 
in time, it is undefined as to what it is that we are going to 
build, what are the technologies we have in place. Right now, 
we are just working through a research and development program.
    In any event, let me just say that there is no intent to 
deny Congress any information and that the plan is to provide 
all information required by Congress, by whatever provisions 
there are, both in terms of Selected Acquisition Reports, 
detailed budget information, and that type of data.
    So, at this point, I think the question is a definition of 
an MDAP and what is the precise reporting requirement for the 
Department. Whether or not it is an MDAP, the data will be 
provided to Congress, sir.
    Senator Reed. Thank you very much, Mr. Secretary.
    Again, just to clarify my understanding, many of these 
programs in the missile defense area were MDAPs as of December 
2000 and became transformed into something other than an MDAP 
after that. Is that correct?
    Secretary Aldridge. That is correct. We terminated those 
programs as MDAPs because they did not fall into the definition 
of what a Major Defense Acquisition Program would be. But we 
certainly continue the program and keep the contracts, and we 
will report those to Congress whether or not they are MDAPs.
    Senator Reed. Well, you are as experienced as anyone, and 
you understand that this is one of those baseline information 
requirements that is not only helpful to Congress, but helpful 
to the management of the Department of Defense.
    Secretary Aldridge. Yes, sir, I do know that.
    Senator Reed. That raises a second question, which is, is 
it your position that the law is satisfied by your simply 
giving us the information? Or do you feel that you have to give 
this information to us?
    Secretary Aldridge. We have to give the information to you, 
sir.
    Senator Reed. Thank you very much, Mr. Secretary.
    Now I would like to recognize Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Secretary Aldridge, General Kadish, and Mr. Christie, I 
want to welcome you.
    Secretary Aldridge, one of the criticisms that seems to be 
creeping up from time to time in the press--I think following 
the last hearing, maybe we read a little bit about it--is that 
there are those who are suggesting that the way the Missile 
Defense Agency has been reorganized reduces or even negates 
independent oversight of some missile defense programs.
    Would you generally discuss the effectiveness in the past 
of OSD oversight for development and acquisition programs and 
talk about the need to improve or streamline the oversight 
processes?
    Secretary Aldridge. All right, sir. First of all, most of 
the activities in the Department of Defense on acquisition are 
associated with a single program, whether it is an F-22 or a 
Joint Strike Fighter, a ship, a tank, or a combat vehicle, and 
the process that occurs under those is very well-defined in 
milestones of A, B, and C. There are groups inside of the 
Department of Defense called Overarching Integrated Product 
Teams (OIPTs) that consist of individual members of the various 
organizations who look at these programs together and then make 
recommendations as they move through the milestones and through 
the decision process, usually through Defense Acquisition 
Boards (DABs). But those are associated with essentially a 
single type of program in which the individuals involved can 
talk to a program manager. He has a very specific thing to do, 
and the process works, I would say, well. We have done some 
things to improve it--and maybe we will talk about that later 
on--in trying to streamline that process even more.
    In missile defense, it is a different issue. We have a 
program that is highly complex with a series of programs with 
sensors, with interceptors, with the command and control 
system, it is what we define as a system of systems. It is not 
any one program. It is a system of systems, which makes the 
acquisition process very difficult. What we were trying to do 
with this process is to try to keep the focus on getting a 
system deployed, but doing it in a way that takes into account 
that there are multiple systems that have to be reviewed from 
multiple offices.
    We have 13 individuals through the Missile Defense Support 
Group that have equities in missile defense, but we have 
brought them together into a single team so that they have 
access to the same information from the MDA and they all are 
not going to the program individually at different times asking 
for different types of information. It is our view that with 
this Missile Defense Support Group, by having its 13 members 
working together, there is a synergy between individual members 
hearing things, hearing the thoughts of the other people on the 
team that can provide better oversight of what is going on in 
the missile defense program.
    There is one other point, and that is that this is only 
during the research and development phase when this activity 
will be undertaken. When there is a decision to move a 
particular system, as we have done for the Army's PAC-3 system, 
then the acquisition system goes back to the normal process of 
the Defense Acquisition Boards. As these programs come out of 
missile defense and go to production and go to deployment, the 
normal DAB process will continue. So, the oversight 
responsibility we are talking about is that which exists only 
during the research and development phase.
    I think what we have done here is to provide a unique 
ability to monitor this very complex system in a way that is 
going to give General Kadish the responsibility and authority 
to manage his program efficiently and yet still provide the 
Office of the Secretary of Defense and the other Services, 
which are members of this team, including DOT&E, including the 
Joint Staff, the ability to see into the program for the 
purpose of advising me, the Missile Defense Agency, and the 
Senior Executive Council on new things to do.
    Let me just say one short thing about acquisition 
streamlining. We have mandated now that spiral development 
shall be one of the milestones and characteristics of programs 
that we produce. What do we mean by spiral development? That is 
the ability to deploy something that is maybe not the 100 
percent solution, but it is the 80 percent solution with an 
architecture that would allow that capability to be improved 
with time as technology matures. That is a way to get these 
systems in the field sooner with less risk, less cost 
uncertainty, change uncertainty, and it allows us to, in some 
cases, get older systems out of the field quicker or, in the 
case of missile defense, to get the system in the field 
quicker. So, that is one area that we have been focused on to 
streamline the process.
    The other is in the Defense Acquisition Board, where we 
have reduced the size of the Defense Acquisition Board from 16 
members to 10, and we now have included the Service 
Secretaries. So, the DAB is now the decision board of the 
Department for defense acquisition, and because the Service 
Secretaries sit on that board, the process works extremely well 
and much faster because they are the decision makers. We do not 
have to staff decisions after the board meets.
    We are seeing the acquisitions process go much faster. In 
fact, in some cases, we do not have to have DAB meetings 
because the process does work.
    Sir, that is probably a long answer to your short question.
    Senator Allard. You took up all my time. [Laughter.]
    Secretary Aldridge. I am sure you will go around again.
    Senator Allard. We wanted to have a full response and I 
appreciate your full response. When my time allows, I will come 
back with a follow-up question to Mr. Christie as to how he 
views his role.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Allard.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. I too 
appreciate you gentlemen being here today to help enlighten us 
as to the process with respect to budgeting for missile 
defense.
    As you may recall from previous hearings and meetings, one 
of my concerns has been knowing when we are moving from 
research and development to deployment. I asked some of your 
colleagues will we know when we are there, because it was very 
difficult to try to dissect and delineate in the budget what 
was purely research and development and those elements that 
began to blur potential deployment or readiness for deployment.
    We have gone 6 more months since those questions were 
appropriate, so what is the distinction between deployment and 
research and development?
    Obviously, the concern is treaty obligations, but I think 
it is also a matter of budget concern even if we did not run 
the risk of being in violation of a current treaty. I would ask 
you, General Kadish, because we have had this sort of 
conversation previously.
    General Kadish. Senator, the way the program is 
constructed, with the exception of PAC-3, which is in the early 
phases of procurement and deployment, all our efforts are 
oriented to research and development and the test 
infrastructure in order to support to that. We have not 
proposed to Secretary Aldridge or the Department specific 
deployments other than in PAC-3.
    I suspect, however, that as we go forward in the coming 
months and years, we will be proposing those efforts based on 
the success or lack thereof of our research and development 
program.
    I would also say that everything we are doing in terms of 
the application of the budget to fiscal year 2002 is still in 
compliance with the provisions of the ABM Treaty until June 13 
or 14 of this year. We will continually evaluate that.
    But our efforts right now are not to specifically produce 
elements for deployment activities, except for PAC-3.
    Senator Ben Nelson. In that regard, with the suggestion 
that success may or may not be defined as the 100 percent 
solution, has there been any further effort to define what 
might be considered success in terms of testing that might lead 
to a request for deployment? What I am asking for is a 
percentage. Would it be 80 percent, 90 percent, or 50 percent? 
Give me some idea of what we would consider successful in terms 
of moving forward.
    General Kadish. Senator, we are now in the process of 
refining our definitions, our understanding, but basically I 
think they are going to stay pretty much the same in terms of 
what we used to call single-shot probability of kill and the 
different measures we use for effectiveness. Rather than give 
you specific numbers in open testimony, I would rather provide 
them in a classified arrangement at the appropriate time.
    Senator Ben Nelson. That would be fine. But are you working 
on what constitutes sufficient success so as to lead to a 
recommendation to deploy the system?
    General Kadish. That is correct. This gets to be a very 
important part of this evolutionary capability approach that we 
are taking because success definitions will be an important 
part of the decision to move forward. Let me put it this way: 
Right now we have zero probability of intercepting a ballistic 
missile. Some judgment will have to be made as to whether or 
not anything greater than zero is useful, and those things will 
be a part of not only the technical judgments, but the 
operational judgments made by a larger group within the 
Department, in my view.
    Senator Ben Nelson. I appreciate that very much. Obviously, 
I think all of us are hoping that the program can be successful 
and be a part of our national defense, certainly against the 
kind of weapons of mass destruction that may come our way, and 
being able to prevent that from happening is in everybody's 
best interest. I also think, though, given the fact that we are 
stretching dollars to do a lot of different things in the 
military budget, you can appreciate the fact that we are always 
going to be a little bit concerned about how much of our budget 
we put in missile defense. Certainly, research and development 
is one thing, but the standard has to be relatively high for us 
to be able to deploy a system. I appreciate the fact you are 
working on it.
    Thank you.
    Senator Reed. Thank you, Senator Nelson.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, let me echo what the chairman and others 
said. How great it is to have you three people in the positions 
that you are in at this time of great threat to our Nation. I 
appreciate your service very much.
    This hearing is on acquisition and oversight. I would like 
to talk about the oversight portion of that.
    First of all, General Kadish, just for clarification, you 
made reference in your testimony to the contingency 
capabilities of THAAD and the Ground-based Midcourse Defense. 
Now, some of the missile defense opponents out there seem to 
have misunderstood that this contingency capability is 
equivalent to operational deployment capability in these 
systems. I wonder if we could clarify this. My understanding is 
that if you have something that is not yet fully developed, it 
could still be used in the event that we have nothing else to 
use at that time. Would you clarify this?
    General Kadish. Senator, there has been a lot of 
misunderstanding about this contingency capability, and you are 
right to try to clarify it.
    Whether we are talking about missile defense or not, 
whether it is a Global Hawk or any other system, whenever you 
have a testing asset or something that is in testing for 
developmental purposes, you have an inherent capability because 
nothing existed before you built that. The question comes, in 
the way we have constructed our program, at what point in time 
would you be able to use a missile defense asset that is in 
testing to protect ourselves or deployed forces if the need 
arose and we were in some extreme situation? I think that the 
answer to that question is whenever we have a test asset that 
is under testing, if it is in the right position, if it could 
be used in an operational mode, just as we are using the Global 
Hawk today, which is in development, in Afghanistan for 
operational purposes.
    The very fact that a test activity exists could be used for 
operational capability, but it will not be up to what the 
original standards that we were trying to develop a particular 
system for. You would pay a high price in a sense because you 
would not be able to do much more testing with that asset.
    So, the idea of test assets being used in contingency 
operations when there is a wartime need, or in the case of 
missile defense, when there is a peacetime need to have that 
capability as a deterrent or otherwise, will always be there in 
our development process.
    Senator Inhofe. The way I have stated it before is that if 
it is not perfect, it is better than nothing if nothing is what 
we have right now.
    General Kadish. That is exactly right.
    Senator Inhofe. I have gone through 8 or 9 years of being 
really distressed about the continued underestimating of the 
threat that is out there. I began to get concerned about this 
when President Clinton vetoed the National Defense 
Authorization Act for Fiscal Year 1995, and in his veto 
message, he said that the major reason was that there is money 
in there for a missile defense system and there is no threat. 
Of course, the NIE, the National Intelligence Estimate, of 1995 
said that before a rogue nation would have any kind of 
capability, it would be many years. It was way out into the 
future, which we know, now, was not the case.
    Later on we found that they used the word ``indigenous.'' 
Well, to me it makes no difference whether a rogue nation 
develops a missile that can reach Washington, DC, that is 
indigenous or whether they buy it with technology from China or 
somebody else.
    It was music to my ears on July 12, 2001, when Secretary 
Wolfowitz said, ``While we have been debating the existence of 
the threat for nearly a decade, other countries have been 
busily acquiring, developing, and proliferating missile 
technology. We can afford to debate the threat no longer. We 
are in a race against time, and we are starting from behind, 
thanks in no small part to the constraints of the antiquated 
ABM Treaty.''
    Could you share with us your views on the growing 
likelihood of rogue nations having missile capability that 
would be a threat to us?
    General Kadish. I guess the way I would like to start the 
answer to that question is that I review the intelligence data 
every day to make sure that we have consistency with our 
developmental program, and that we can be responsive to what we 
are actually designing against the threat. From a missile 
proliferation standpoint, the threats we see that are 
developing outside of Russia and China, they are significant, 
especially in the short-range and intermediate-range missiles, 
and moving very rapidly in my opinion to long-range missiles. 
So, we have a threat that is somewhat unprecedented for us in 
terms of missile proliferation and weapons of mass destruction.
    Senator Inhofe. Secretary Aldridge, do you have any 
comments on that?
    Secretary Aldridge. Yes, sir. Just to highlight what 
General Kadish says, this is a missile defense program that is 
not just aimed at national missile defense. This is defense of 
our troops in the field, in addition to national missile 
defense. There is no doubt that there are threats of short-
range, medium-range, and long-range. So, the threats that this 
system must deal with are there. They are being tested today in 
a wide variety of ways. So, there is no doubt that there is a 
threat. The threat is here. It is growing and the program we 
have laid out is a way to try to handle that.
    The program is also dealing with intercepts at various 
stages of the missile's trajectory, in the terminal phase, in 
the midcourse phase, and we are working on the boost-phase 
intercept, which makes it very difficult for an adversary to 
design a countermeasure against all types of intercepts that we 
could employ in our system. So, not only must we deal with the 
current threat, we must think about the future threats as they 
evolve. Our program, as it is laid out, is designed exactly for 
that reason.
    Senator Inhofe. My time has expired and I do want to follow 
through with this later. I am glad we are no longer talking 
about a national missile defense system and a theater missile 
defense system as though they are unrelated but we are talking 
about a defense system against a missile.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Inhofe.
    Senator Smith.
    Senator Smith. That is a long time coming. I am glad to 
hear we finally are talking about it that way.
    Gentlemen, the Department has canceled these Operational 
Requirements Documents (ORDs) as they pertain to missile 
defense programs. They defined in some detail, or tried to, 
just what the capabilities of the system would be at the time 
it was developed and deployed. It seems to me that is 
consistent with what you are trying to do in terms of the 
flexibility for a spiral development process.
    Let me ask you first, Mr. Secretary, what is the 
alternative process here to ensure that the architecture of 
missile defense will head us toward an integrated solution? You 
have at least some idea down the road where we are headed. I do 
not think I can think of any particular system, from some 
military requirement or even building a car, for that matter 
where if you do not have some idea of what your end goal is as 
to what its function is, how you can continue to develop it?
    Secretary Aldridge. Sir, I believe we are taking a slightly 
different approach in missile defense, and the approach we are 
taking is called capabilities-based. It is different from an 
ORD that would say to you, you would not deploy a system until 
it achieves a .95 kill probability against 10 rockets or 10 
ballistic missiles within 5 minutes. If General Kadish could 
say I can shoot down 8 of these missiles, it is going to take 
me 6 minutes with a kill probability of .9, it may be 
sufficient that we say that is a capability we believe we need. 
It is adequate for our needs to protect our country at this 
time against that threat.
    Then what we would do is, if we deployed it, because it was 
a capability that we believed we needed, we could improve it 
with time so that pretty soon it could do 10 missiles in 5 
minutes and then maybe 50 missiles in 1 minute. So, the idea of 
a capabilities-based decision to deploy is that it gives us 
what we need at the time, irrespective of whether or not we had 
an operational requirement for certain probabilities.
    This is not serving our needs at this time for this 
program. It serves other programs perfectly fine where there 
may be a more well-defined threat, a certain armor plating 
thickness, and things of that nature. For this system, that is 
not appropriate.
    Senator Smith. General Kadish, with respect to the 
warfighter, how are we going to ensure that he believes that it 
is going to be militarily useful for him?
    General Kadish. The essence of the capability-based 
approach and spiral development is that we have a tight linkage 
with the warfighter and the developer at the same time. 
Traditional ORD documentation gives you a time period where 
warfighters specify a requirement and then give it to the 
developers that write them in the specifications and then we 
give it to a contractor.
    This effort is for us to try to do that together, given the 
fact that we can now make trades among different system 
elements that we did not think about before because we had an 
ORD for a Navy Theater-Wide system and we had an ORD for a 
national missile defense system. Now we can look at sensors and 
missiles, interceptors, and communications systems that bring 
these together, and our hope is that we are going to be able to 
make a better system among those elements doing it without the 
ORD specifications and in a faster time line.
    Senator Smith. I do not think it is arguable that probably 
the most mature BMD System that we have now is the PAC-3. 
Right? I think we would all agree on that.
    Just using that as a yardstick, did the PAC-3 ORD that was 
laid out a few years ago accurately or inaccurately come close 
at all to reflecting the threats that we now expect the PAC-3 
to deal with?
    General Kadish. It put us in the ballpark, but we are 
dealing with threats now that are much different than what PAC-
3 was originally specified to counter. That is part of the 
problem with threat-based, ORD-based requirements because you 
have to deal with an exquisitely defined intelligence threat 
that may or may not be wrong. So, although we have a general 
capability with PAC-3 that is pretty good, we still do not meet 
all the definitions of threats that we had set out to 
accomplish with that particular effort.
    Now, we are going to upgrade it over time. That is the 
whole idea with all our elements, but that is the nature of the 
threat that we have to deal with. If a threat was specified in 
the ORD document to go 1,000 kilometers and we find out it goes 
1,200 kilometers, that is a difference in the requirement.
    Senator Smith. A lot of criticism was thrown out there, 
over the past 12 years that I have been on this committee. The 
term ``redundancy'' has been used a number of times in terms of 
the systems, which I never really believed was the case. But if 
there was some redundancy--and apparently that seems to be the 
conclusion now because of the way we are moving toward 
elimination of some of these systems--was any of that caused 
by, in your opinion, the demarcation that we used with the ABM 
Treaty between theater and national missile defense systems? 
Could we have avoided a lot of wasted money and perhaps gone 
quicker toward the more integrated system if we had not been 
dealing with trying to finesse that ABM Treaty as to what was 
theater, what was not theater, et cetera?
    Secretary Aldridge. That is a hard one.
    Prior to this time, prior to the time that General Kadish 
and the Secretary reorganized the program to include a much 
broader scale of intercept zones, as well as ballistic missile 
ranges that we wanted to detect, the program was designed with 
the ABM Treaty in mind, with its restrictions. Since that time, 
we have designed the program without the ABM Treaty, although 
we are abiding by the provisions of the treaty and we are not 
doing things that we could be doing in the test program that 
would give us additional information that would aid decisions 
for the future. We are not now doing those until we get to June 
13. So, there has been some degradation of the information that 
we would have available because of the ABM Treaty, and I 
believe the President, looking at that and the needs for the 
future--that is the reason he has made the decision to withdraw 
from that treaty because it will, in fact, impede us in the 
future.
    Senator Smith. Thank you. That is a good answer. I 
appreciate it.
    Senator Reed. Thank you, Senator Smith.
    Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman. I would like to 
make a brief statement and have my full statement placed in the 
record.
    Senator Reed. Without objection, Senator.
    Senator Akaka. On Monday, I chaired an open session of the 
International Security and Proliferation Subcommittee of the 
Governmental Affairs Committee, at which the Central 
Intelligence Agency's National Intelligence Officer for 
Strategic and Nuclear Program's, Robert Walpole, testified. Mr. 
Walpole made three points in that hearing which are worth 
repeating today.
    First, the immediate threat to American forward-deployed 
forces and allies comes from short- and medium-range ballistic 
missiles and land attack cruise missiles.
    Second, United States territory is more likely to be 
attacked with weapons of mass destruction using non-missile 
means.
    Third, some countries with ballistic missile systems, such 
as Iran and North Korea, are upgrading their capability to 
launch ICBMs, but Iran is not likely to attempt to test launch 
an ICBM until the last half of the decade.
    These conclusions suggest our missile defense program 
should concentrate on the immediate threat while designing and 
testing the capability to address the long-term threat from 
rogue states.
    I thought I would share that in this meeting.
    [The prepared statement of Senator Akaka follows:]

             Prepared Statement by Senator Daniel K. Akaka

    Thank you, Mr. Chairman, for holding this hearing. This is a 
critical issue that deserves all the attention you are giving it.
    On Monday, I chaired an open session of the International Security 
Subcommittee of the Governmental Affairs Committee at which the Central 
Intelligence Agency's National Intelligence Officer for Strategic and 
Nuclear Programs, Robert Walpole, testified.
    Mr. Walpole made three points in that hearing which are worth 
repeating today:
    First, the immediate threat to American forward-deployed forces and 
allies comes from short- and medium-range ballistic missile and land-
attack cruise missiles.
    Second, United States territory is more likely to be attacked with 
weapons of mass destruction using nonmissile means.
    Third, some countries with ballistic missile systems, such as Iran 
and North Korea, are upgrading their capability to launch ICBMs, but 
Iran is not likely to attempt to test launch an ICBM until the last 
half of the decade.
    These conclusions suggest our missile defense program should 
concentrate on the immediate threat while designing and testing the 
capability to address the long term threat from rogue states.
    I am concerned that the new, $7 billion ``capabilities-based'' 
program being proposed by the administration for missile defense does 
not ensure that we will have a missile defense system capable of doing 
anything well. Rather than taking a targeted approach which would 
ensure the development of a missile defense capability, the proposed 
program seems to take a shot-gun approach, scattering our money and 
technical expertise across a range of too many technologies.
    In addition, the budget documents presented to Congress so far seem 
more notional than real. This would not be of concern if the 
administration was presenting us with a hypothetical program, but 
unfortunately these are real dollars which the President wants Congress 
to approve now and commit to in the out-years. Without more specific 
justification and numbers, it is hard to understand how the 
administration has arrived at this $7 billion-plus program.
    Moreover, the administration wants to remove this program from the 
normal checks and balances of a major acquisition program, cancelling 
the Operational Requirements Documents and excluding the Pentagon's 
Director of Operational Test and Evaluation from his usual oversight.
    Instead, the administration is proposing that part of the job of 
overseeing whether or not the program is functioning properly be done 
by the major industry contractors involved in developing the program. 
This is a bit like putting the fox in charge of the henhouse. Enron did 
this with its outside auditors, and we know how well that worked.
    We need a missile defense capability. We need it sooner rather than 
later, but we need it to work against real world enemies. I am not 
certain that the approach being proposed by the administration achieves 
either objective.
    Thank you, and I look forward to the testimony.

    Senator Akaka. Mr. Secretary, according to a memorandum 
from the Secretary of Defense, the Missile Defense Agency will 
no longer rely upon system threat assessment reports developed 
by the Defense Department's intelligence agencies, but will 
develop a unique document called an adversary capabilities 
document.
    My question is, will the preparation of the adversary 
capabilities document require that the Missile Defense Agency 
duplicate functions performed by other parts of the Department 
of Defense?
    Secretary Aldridge. No, sir. The threat capabilities 
document will be based upon the work of multiple defense 
agencies as inputs. It is really the document that the Missile 
Defense Agency needs to have with that type of data so they can 
design missile defense systems against these capabilities, but 
there is no intent to duplicate what is going on in the other 
agencies, certainly in the intelligence agencies.
    General Kadish. If I could add to that, Senator Akaka.
    Senator Akaka. Yes, General.
    General Kadish. Where we have an intelligence estimate that 
defines the threat, it will include automatically that 
intelligence estimate. But what we are trying to do is work 
with the capabilities-based approach, where we define 
parameters larger than that threat estimate, for instance. They 
tend to be point-designed solutions given to us about what the 
threat looks like. We would like to hedge the uncertainty of us 
making a mistake in that area, and go to what we call physics-
based assessments and look at the physical parameters that 
could be around that threat and design, as best we can, for 
those parameters which would include the specific definition by 
the intelligence community. So, it is a much more effective way 
in my view of defining the threat for our purposes.
    Senator Akaka. The Secretary's memorandum directs the Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
to base production decisions on initial performance 
demonstrated through credible testing, availability of system 
alternatives, and threat evolution.
    Would initial performance be based on developmental 
testing, operational testing, or some other form of testing?
    Secretary Aldridge. It will be based on the developmental 
testing to date, but it will continue after that decision to 
ensure that when we get to the point of becoming operational, 
there will be additional tests to be done. That will become 
part of Mr. Christie's office, to look at the operational side 
of things, while he is continuing to oversee the development 
testing as well through our Missile Defense Support Group.
    Senator Akaka. In that memorandum too, the Secretary 
directed the Under Secretary of Defense for Acquisition, 
Technology, and Logistics to plan and execute work such that it 
may be truncated or stopped under certain circumstances.
    What metrics will be used to determine which programs will 
be truncated or stopped?
    Secretary Aldridge. Sir, we have laid out a program for 
missile defense that, in some cases, has multiple or parallel 
technology paths that may or may not work. If at any point we 
see that the technology is not performing at the level that we 
desire, the cost is growing too large, or the schedule is not 
sufficient to meet the architecture we laid out for missile 
defense, we will make a decision as to whether to proceed on 
that program or not.
    There is a process in place by which that is done. Major 
decisions of that kind will be made by the Senior Executive 
Council, which essentially will be the board of directors. They 
will make a recommendation. Of course, the Secretary of 
Defense, the President, and ultimately Congress have to support 
that decision of whether or not to deploy where a capability 
that has been demonstrated is sufficient to meet the needs of 
the Nation at that time. So, it is elevated at a higher level 
and a variety of metrics will be determined.
    We were faced with a problem just recently with the Navy 
Area terminal defense system, which exceeded its cost 
estimates, and we faced up to that decision and decided to 
terminate that program because it was not under control, as it 
was defined, and it violated the Nunn-McCurdy Act. It was given 
to me for the purpose of certification that the program should 
continue, and I could not meet the certification criteria to 
continue the program and I terminated it.
    Senator Akaka. In the January 2, 2002 memorandum, the 
Secretary directed the Missile Defense Agency's director to use 
transactions other than contracts, grants, or cooperative 
agreements to carry out applied and advanced research. So, what 
selection criteria will determine whether the agency uses other 
transactions for a project?
    Secretary Aldridge. I would like to ask General Kadish to 
address that, if I could.
    Senator Akaka. General.
    General Kadish. We intend to use the other transactions 
authority based on the authority being granted in the first 
place for prototyping and rapid acquisition activities. For the 
most part, however, I see us, at least at this point in time, 
using the traditional authorities for our major efforts. But 
where it is appropriate--and it gets to be a judgment call at 
some point in the process--we will use the other transaction 
authority for our beneficial purposes. But as a matter of fact, 
I think that over time we will basically use the contracting 
authority that is in the Federal acquisition regulations, but 
we will look every time at whether other transaction authority 
makes sense.
    Senator Akaka. Thank you very much for your responses.
    Senator Reed. Thank you, Senator Akaka.
    Senator Warner.
    Senator Warner. Mr. Chairman, thank you for allowing a 
former member of this subcommittee to join you today. Senator 
Allard, you do a fine job as ranking member for this 
subcommittee and I commend you and Senator Reed. I have sat in 
both of those seats in years past.
    Mr. Secretary, welcome. You are an old friend and an old 
colleague.
    Senator Smith asked a key question relative to the ABM 
Treaty, and I have propounded that same question I think for 
almost 24 consecutive years to previous panels here. 
Consistently impartial observations by your predecessors, both 
uniformed and civilian, have been that this Nation was going to 
comply with the ABM Treaty, but that we recognized that the 
treaty imposed, in all probability, delays, higher costs, and 
the possibility of, in the end, getting a system which was more 
expensive, took longer to build, and could not be as efficient 
and as effective. Therefore, I commend the President for his 
decision to withdraw from the treaty, and hopefully you will 
reappear before this subcommittee after the withdrawal date and 
we will look at what your new ideas are.
    I would like to ask you about the Arrow program. Congress 
has been supportive of the Arrow program. Mr. Secretary, what 
provisions do we have this year, in terms of funding and 
sharing of technology, for Arrow? General, what is your 
professional view as to the effectiveness of the Arrow system, 
because I think there has been a rather dramatic breakthrough 
in missile defense in Israel.
    Secretary Aldridge. Senator, we certainly have been 
following that program for quite a few years and it has been a 
successful program. We have funding in the budget request to 
continue that. We have also provided co-production for 
producing that missile in our country. I do not recall the 
numbers. General Kadish can address that, but it is certainly 
something that has been supported by previous administrations, 
and this administration, and I will let General Kadish talk 
about where we think we are headed.
    General Kadish. Senator, I think we have close to a billion 
dollars in investment in the Arrow program with the Israelis. 
They declared it operational, I think 8 or 9 months ago. I 
would have to get you the exact date. It is the only blast 
fragmentation, non-nuclear missile defense system deployed in 
the world today.
    It is effective. The flight tests have shown that they can 
reach the parameters that they are going after and they can 
destroy the missiles. As Secretary Aldridge said, we have a 
continuing relationship with the Israelis. I believe the number 
is on the order of $60 million in this budget request. I would 
have to get you the exact number for the record.
    [The information referred to follows:]

    Successful tests of the Arrow Weapons System, particularly the 
September 14, 2000, intercept flight test, prompted the Israel Defense 
Force (IDF) to declare the Arrow operational effective October 17, 
2000.

                        [In millions of dollars]
The fiscal year 2003 funding breakout is as follows:
    Arrow System Improvement Program.......................         55
    Co-manufacturing.......................................          5
    Israeli Test Bed.......................................          3
    Israel System Architecture & Integration...............          2
    Program Support........................................          1
        Total..............................................         66



    Section 8112 of the Fiscal Year 2002 Defense Appropriations Act 
provided additional funds for establishing an Arrow production 
capability in the United States, and MDA has programmed $40 million for 
this purpose. In response to that direction, the U.S.-Israel Arrow Co-
Production Capability Development (ACCD) program will provide for 
establishing in the United States, by the end of fiscal year 2004, the 
capability of U.S. co-produced Missile Technology Control Regime (MTCR) 
Category II and non-MTCR controlled Arrow missile components to assist 
Israel with Israeli co-produced components, assembled by Israel into 
prototype Arrow missiles, and tested in Israel to qualify both nations' 
Arrow missile component co-production lines. The MDA has programmed $45 
million ($40 million in fiscal year 2002 and $5 million in fiscal year 
2003) for the ACCD which includes only pre-production activities.

    Senator Warner. I think that is correct. But their test 
program has been exemplary.
    General Kadish. Yes, it has. They have had their failures 
just like we have, but the record of success has proven the 
adequacy of the program.
    Senator Warner. Is it a system that has the potential to 
augment our own PAC-3 and other defensive measures?
    General Kadish. Yes, Senator, it does. We have done 
numerous interoperability demonstrations with Israel to ensure 
that we can have interoperability and provide a layered-like 
defense using Patriot, and those have been very successful.
    In the future, we are going to be looking harder at this as 
time goes on and as we look at the overall Ballistic Missile 
Defense Systems that we are going to be investigating from a 
technical standpoint. So, it certainly has a large impact and a 
large usefulness for the Israelis, and other uses of it will 
have to be determined in the future, if any.
    Senator Warner. Is another use possibly incorporating it in 
our own inventory of defenses?
    General Kadish. I would not rule that out, but from a 
technical standpoint, there are other issues associated that 
are programmatic, and budgetary, and it would have to go 
through a review. But anything that contributes to our missile 
defense capability is a good thing from my perspective.
    Senator Warner. I think it is worthy of that consideration.
    I thank the chairman and the ranking member.
    Senator Reed. Thank you very much, Senator Warner.
    Mr. Christie, in your statement for today's hearing, you 
said that you wanted to assure that DOT&E's access to Missile 
Defense Agency plans and programs is adequate for us to 
accomplish our oversight mission, which is a sentiment I 
certainly applaud. Can you ensure that proper robust testing is 
planned and executed for the missile defense system if you and 
your staff and support contractors are not involved in test 
planning?
    Mr. Christie. I did not say that we are not involved in the 
test planning.
    Let me back up a little bit to last summer. Shortly after I 
was confirmed, I met with both Secretary Aldridge and General 
Kadish about how we would go about executing our oversight 
responsibilities as General Kadish was restructuring the 
program. By mutual agreement, I backed off until the programs 
were restructured before my staff became more intimately 
involved. Now, we continued to exercise our oversight on PAC-3, 
since that was entering operational testing, but heretofore 
until the first of the year, we had not been intimately 
involved.
    We are involved now, and I have no reason to believe that 
we will not be able to carry out our normal oversight 
responsibilities to include being involved with the MDA in 
their test planning activities, as well as observing the tests, 
evaluating the results, and providing an independent evaluation 
of those results.
    Senator Reed. But at this point, with the exception of PAC-
3, you are not personally, nor is your staff, intimately 
knowledgeable about the details of these programs?
    Mr. Christie. Oh, I would not say that. I am not sure I am 
intimately knowledgeable on all those programs, but I think we 
have had access to all of their documentation since it was 
presented to Congress. So, we are getting into the details of 
all the programs. Accordingly, I would not characterize us as 
not having access.
    Senator Reed. Would you characterize your access as 
unfettered, not just yourself but all of your staff members and 
relevant contractors, anyone that you would want to have 
access?
    Mr. Christie. I cannot answer that in a positive manner at 
this point because we are still evolving in this process. My 
agreements with General Kadish and the work between my staff 
and his show no indication that that is not going to be case. I 
cannot say at this point in time that we have unfettered access 
to what is going on there, but I have no reason to believe that 
we will not as time evolves.
    Senator Reed. Mr. Christie, Secretary Aldridge, and General 
Kadish, as I understand Title 10, the Director is given 
specific statutory authority, access to all records and data in 
the Department of Defense, including the records and data of 
each Military Department that the Director considers necessary 
to review in order to carry out his duties under the section. 
So, it would appear to me, statutorily, that Mr. Christie can 
have access to any data, without agreements, from anyone in the 
Department. Is that your understanding, Secretary Aldridge?
    Secretary Aldridge. That is my understanding.
    Senator Reed. That is, indeed, the policy.
    Secretary Aldridge. Yes.
    Senator Reed. Thank you.
    Let me return to an issue that was raised previously about 
contingency deployments and General Kadish's explanation of the 
confusion. But let me take it from this perspective.
    The administration proposes to buy hardware in 2003 to 
support contingency deployments in 2004 for a number of missile 
defenses, including national missile defense, THAAD, Navy 
Theater Wide, and the Airborne Laser (ABL).
    In the past, for virtually all major defense programs, a 
rigorous set of operational tests has been performed prior to a 
deployment, contingency or otherwise, and it was done for 
obvious reasons, to make sure the systems actually work before 
you raise not only the expectations that they will work among 
the American public, but also the reliance that the military 
will put upon these systems.
    Now, Mr. Christie, you are in charge of operational 
testing. Are there any plans to conduct any operational testing 
on any of these missile defense programs prior to 2004?
    Mr. Christie. The programs you mentioned? I do not think 
so. I think a 2004 decision, if it happens, will be based 
primarily on technical testing, if such a decision to deploy is 
made. My view is at that point in time I will be called upon or 
my office will, in fact, have the responsibility to report to 
General Kadish and to Secretary Aldridge and to the Secretary 
our view, based on the testing to date, of what capability we 
have attained or demonstrated, so to speak, so that the 
decision makers can, in fact, make an informed decision as to 
whether to deploy that capability.
    On the matter of operational testing before deploying for 
contingencies, I think as General Kadish mentioned, over the 
years I can mention several systems that have been deployed 
operationally: JSTARS in the Persian Gulf War, Predator in both 
Bosnia and Kosovo, as well as in Afghanistan, and Global Hawk. 
We have done that in the past. We have done that based on an 
evaluation by the decision makers of the technical testing up 
to that point. There had been no operational testing of those 
systems in their initial deployments.
    I am not advocating that is the way to go. I am just saying 
that is just a fact of life.
    Senator Reed. But those operational tests were not 
performed. I presumed they were being planned, though?
    Mr. Christie. Oh, yes. There are operational tests planned 
with the midcourse system that we are talking about here, which 
could be deployed with a decision in 2004. There are 
operational tests planned. As I recall that data, I do not 
think they will take place before a possible decision in 2004 
is made.
    Senator Reed. With all of the systems you indicated, was 
their deployment driven by a conflict?
    Mr. Christie. Or a perceived need, yes, in a conflict.
    Senator Reed. Here, it seems to me, an arbitrary date has 
been selected of 2004 that will preclude operational testing 
before that date. Is that true?
    Mr. Christie. Well, I do not think in the progress of the 
program that we will have come to the point where we will be 
planning to execute operational testing. I think we are 
planning a series of technical tests, flight tests, as a matter 
of fact, with this system, with an average of four tests a year 
up to that point.
    Senator Reed. Senator Allard, can I ask your indulgence to 
ask General Kadish a question? I will let you respond. But can 
I have an additional minute?
    Senator Allard. Yes, that will be fine.
    General Kadish. You mentioned 2004. That is where we are 
working on the ground-based system against long-range threats 
to have our testbed in place, which would include up to five 
missiles available. We expect that we could make that date for 
the testbed purposes. As we go further in time from now on, 
based on the testing and developmental testing that we intend 
to do, there may be a decision at some point to actually use 
those assets. But the date that we have is for the testbed 
capability to be put into place so we can add it to our test 
requirements.
    Senator Reed. Then we are talking now in terms of national 
missile defense, the old land-based system, if you will.
    General Kadish. It is the land-based system, right.
    Senator Reed. Do you have any operational test plans for 
the land-based system prior to 2004?
    General Kadish. We have plans for developmental testing 
that the operational testers will participate in. They are not 
classified as operational tests. We expect to do operational 
testing in our planning as we transition to procurement, and 
that is usually when it is done in any program.
    Senator Reed. Let me ask a follow-up question just so I 
understand. In one of your previous comments, talking about the 
contingency deployment, you said you suffer a loss because you 
cannot use them as you would a normal test item?
    General Kadish. That is correct.
    Senator Reed. So, we face the possibility of declaring a 
deployment of the land-based system in 2004 without operational 
testing and, as a result of that deployment, not being able to 
fully test those deployed missiles. Is that a possibility?
    General Kadish. When you say fully test, the fact that it 
is actually being used is a test in and of itself. But it would 
not be according to our original test plans, if that is the 
concern that you have.
    But just like anything else, if we use JSTARS, Global Hawk, 
or Predator, the using community and the developing community 
on those systems learn an awful lot that they would not have 
learned in a very sterile test program. So, the operational use 
of those systems in my view leads to a better follow-on 
improvement of the system.
    Senator Reed. Thank you, General.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I want to go back to a question, Mr. Chairman, that you 
asked Mr. Christie. Mr. Christie, you had indicated that you 
had not reviewed the Missile Defense Agency program goals, 
according to a question from the chairman early on, in this 
year's budget as required by section 232 of last year's defense 
authorization bill. I would just like to note for the record 
that our bill was not passed until late December, and was that 
the reason why the required review was not done this year?
    Mr. Christie. Well, that contributed to it, but I think the 
major reason was that they were still in a state of flux in 
getting their budget materials together until the last moment.
    Senator Allard. But you would not go and begin to apply the 
law before it was signed by the President and had become law, 
would you?
    Mr. Christie. That is right.
    Senator Allard. So, then a plausible explanation for that 
is the President's budget process was on the way. When do you 
start the budget process? In the middle of the year, June?
    Mr. Christie. The summer, yes.
    Senator Allard. You need to have it ready by December in 
order for the President to present his budget when we come back 
into session. Is that correct?
    Mr. Christie. Yes.
    Secretary Aldridge. Well, in fact, this year we did not 
even start the budget process until October for lots of 
reasons. One, getting the team. The team for Secretary Rumsfeld 
was not even on board until June.
    Senator Allard. Congress had not passed the defense 
authorization bill providing for the section 203 compliance. 
So, I would suspect that this year you will have an opportunity 
to review it. Correct?
    Mr. Christie. Absolutely.
    Senator Allard. I also wanted to follow up a little bit on 
discussions that I was having earlier with Secretary Aldridge. 
I asked him to give a general overview about the development 
and acquisition programs and whether they needed to be 
streamlined or not, if you will recall.
    Mr. Christie, are you satisfied that you had adequate 
insight and input into missile defense test programs? Will your 
role differ in the Missile Defense Agency technology 
development efforts compared to other technology development 
programs?
    Mr. Christie. Well, in answering the latter question, I 
would answer that we are dealing with what is called a 
capabilities-based process here, and I envision my 
responsibilities at various points, at least annually and 
certainly in response to congressional requirements, to 
evaluate what testing has taken place, what testing is in fact 
planned, and to provide an independent assessment to the 
decision makers as to what capabilities we have, in fact, 
demonstrated in testing, whether it be technical or operational 
at that point, against what threats. We will address what kind 
of capability will we have if we were to, in fact, produce this 
system or deploy it. So, that is how I envision our working in 
this context.
    That is certainly different than the large programs such as 
F-22 or the other standard Major Defense Acquisition Programs 
where we have a statutory responsibility for deciding or 
evaluating the effectiveness and suitability of a system and 
the adequacy of the operational testing that took place before 
a system is, in fact, produced and deployed. So, it is 
different.
    We are evolving. We will evolve in this process. We have 
not been there before.
    Senator Allard. Secretary Aldridge and General Kadish, I am 
looking at a chart here about flight and major ground tests 
which are slated for 2002, 2003, and 2004. This is the Missile 
Defense Agency program overview report issued February 22, of 
this year, by Dr. Lamartin. I am looking at this chart, and it 
looks to me like we have a large number of Midcourse Defense 
segment tests designed from 2002 to 2007. A large number of 
those have a ground-based element in them, and then we even 
have a sea-based element in those also. This is on the flight 
and major ground tests. I would like to make it a part of the 
record and perhaps maybe you would like to comment further on 
these planned flight and major ground tests.
    Secretary Aldridge. I think General Kadish is probably 
better able to answer that question, sir.
    General Kadish. Senator Allard, I think that the schedule 
we have in testing reflects the fact that we took action to 
make our test program much more robust than it has been in 
previous years, and to put the testbed and the infrastructure 
in place to do it. We put a lot of money in the budget to do 
that.
    I might say that we welcome Mr. Christie and his 
organization's involvement in this. In fact, if you go back and 
trace the heritage of that test program that you alluded to, 
that heritage is built on the fact that there was an awful lot 
of input from DOT&E and others inside and outside of the 
Government about the inadequacy of our test plans because of 
budgetary and other limitations. We have addressed that in 
great detail, and frankly, it would surprise me if we had those 
kinds of criticisms again as a result of any review of our test 
program. We are trying very hard to make sure that we can test 
realistically, that we can test frequently, and that we can 
test to our own satisfaction that these systems will work as 
intended. There is no intent on our part--and it is certainly 
reflected in the large amount of dollars allocated in this 
budget for testing and research and development--to avoid any 
kind of accountability in testing.
    Senator Allard. Mr. Chairman, I would like to make that 
chart a part of the record.
    Senator Reed. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Allard. Mr. Chairman, if I might have a little 
indulgence from you.
    Senator Reed. Please.
    Senator Allard. Then I am going to wrap it up here.
    Senator Reed. I have additional questions.
    Senator Allard. The General Accounting Office has put out a 
series of studies at the request of this committee--and I am 
going to address this to you, General Kadish--that detail how 
the defense acquisition system might be improved based on 
commercial and public sector best practices. Some of these 
practices included separating technology development from 
product development, maturing technologies before using them in 
programs, using prototypes to demonstrate design stability, and 
proving through testing that the design is capable.
    General Kadish, are you familiar with these reports? Could 
you describe the areas of consistency between the GAO 
recommendations and the Missile Defense Agency acquisition 
process?
    General Kadish. Senator, I am familiar with the reports, 
and if I could, I would like to take that question for the 
record to be more detailed in answering the question.
    But in general, it is my view that we took an awful lot of 
best practices all the way from the National Reconnaissance 
Office early operational methods to many different ways of 
adopting best practices. I am confident that if we laid out 
those issues pointed out in the GAO reports on improving 
management, we would have a high percentage of those 
recommendations adopted in our approach.
    Senator Allard. I understand that is a complex question. 
Would you submit a written answer in more detail to the 
subcommittee, and then also not only talk about where the 
similarities are but point out some areas where there might be 
some differences, if any?
    General Kadish. Yes, sir.
    [The information referred to follows:]

    The GAO has developed several reports on the topic of ``Best 
Practices.'' The GAO testimony of May 10, 2000, focused on best 
commercial practices for developing new products and provides a summary 
of those practices. The testimony acknowledged that DOD has taken steps 
to reflect best commercial practices in its acquisition policies. MDA 
has also adopted many of those recommendations in its acquisition 
approach.
    The major theme of GAO's assessment is the management of 
technology; specifically separating technology and product development. 
The BMD program is structured to target technologies for production 
only when sufficient maturity is reached. The effort is based on a 
``fly before buy'' strategy. Multiple technologies will be aggressively 
demonstrated and subject to early, robust, and realistic testing. 
Parallel development is used to reduce risk in the RDT&E effort. 
Progress in testing will influence the decision process to stop, slow, 
or accelerate individual projects. Robust testing, modeling, and 
simulation are key tenants of MDA's strategy to increase knowledge and 
reduce risk. Only when a capability is sufficiently verified will that 
element or component be ready for a production decision. MDA's approach 
clearly helps to isolate technology development from production. 
Additionally, procurement decisions will be further assessed on 
performance relative to the overall integrated system construct.
    GAO found that most successful firms limit production timelines 
from 18 months to just over 4 years. This limitation kept companies 
focused on delivering a product. The missile defense evolutionary 
acquisition strategy uses a capability, biannual ``block'' method that 
reflects a similar approach. Under this strategy, blocks of operational 
system capabilities based on demonstrated, mature technology are 
developed, produced, and fielded in increments. This approach keeps the 
program focused on delivering advanced capabilities to the field as 
quickly as possible. BMD biennial blocks also capture pre-production 
capabilities that are available for contingency/emergency fielding. 
Successive increments integrate improved technology to upgrade the 
system and improve existing capabilities.
    According to GAO, matching customer need with proven technology is 
an important success factor. MDA's evolutionary acquisition strategy 
will provide proven mature technology and capabilities. User needs will 
be addressed by an ongoing analysis of potential adversary missile 
characteristics determined by existing evidence and technically-
feasible engineering limits. The assessment to optimize the system 
against the need and match required performance with the capability of 
technology is made in collaboration with research centers, industry, 
and the Services.
    GAO found that making production a concern during development 
forces discipline and trade-offs in design. This environment encourages 
realistic assessments of risks and costs. Production is always a 
concern in the commercial sector because unless a product can be 
produced at a cost that the customer will buy (and make the company a 
profit) it makes no sense to pursue development. While the profit 
motive is not a issue in DOD, production is still a major concern 
because failure to both control production costs and meet performance 
needs puts the project at risk.
    One approach MDA has pursued to manage those two goals is to 
improve communication and cooperation among RDT&E, production, and user 
groups to better focus the development process. In support of that 
concept, MDA has established a collaborative effort, the National Team, 
to better leverage industry (production) talent and innovation at the 
very beginning of the development effort. In addition to defense 
industry leaders, the National Team is bringing together federally 
funded research development centers (FFRDC) and support contractors to 
share information and bring creative solutions to problems early in the 
design process. The National Team adds industry rigor to the 
engineering process by addressing prodution and supportability issues 
while focusing on integrating elements into a cohesive single system. 
This multidisciplinary team also addresses critical issues such as 
system specifications and block configurations. The approach balances 
the ``future focus'' of research groups with the industry focus of 
preventing overreaching and getting a useful product delivered to the 
user.
    Underlying MDA's management approach is a commitment to 
successfully deliver affordable and effective missile defense 
capabilities to the Nation as quickly as possible.
    MDA's management approach reflects the intent behind the best 
commercial practices reported by the GAO. Overall, two factors result 
in some differences between commercial practices and those used by MDA. 
Private sector companies function in a different, more ``closed'' 
environment than Government agencies. Profit--not development--is the 
critical success factor that drives decisions. Multiyear capital 
resources commitments are the norm. Government agencies function in 
more open environments with more diverse ``stakeholder'' interests to 
address. Also, Government capital resources are committed and justified 
on a yearly basis.
    Commercial development is usually an incremental improvement to an 
existing product. There is considerable high-fidelity predecessor in-
house knowledge in all areas of development. While MDA's ``block'' 
strategy will eventually get to the same point, we are not there now. 
In many areas we have to manage more technology risk than we prefer, 
particularly as we develop initial capabilities. That is why robust 
testing, modeling, and simulation are key to our effort.
    The GAO's overarching recommendation is to structure programs to 
support research and development to advance technology and then to 
establish a basis for determining which technologies and subsystems 
meet performance standards for development. MDA's capabilities-based, 
evolutionary acquisition clearly parallels that approach. MDA is 
committed to vigorously investigating and pursuing any practices that 
will improve the outcome of this critical national priority.

    Secretary Aldridge. Senator, if I could just comment. It is 
not often I agree with GAO reports, but in this particular 
case, many of the recommendations there do follow along with 
what we are trying to do in the acquisition business across the 
Department of Defense.
    In fact, this idea of not doing technology until it is 
available is in fact the essence of spiral development. We will 
deploy those technologies which are available and we will wait 
for those technologies to evolve before we try to enter them 
into new equipment in the future.
    Prototyping is clearly something that is on our list. In 
fact, we have increased the funding request for doing advance 
concept technology demonstrators this year from $159 million 
appropriated last year to $200 million. We are going to start 
to do some new things, especially as those apply to 
counterterrorism prototypes.
    Senator Allard. Mr. Chairman, I would like to submit to the 
witnesses maybe one or two questions after the hearing. I think 
it is standard that we can do that.
    Senator Reed. It is standard procedure. The record will 
remain open for additional questions and also for the 
statements of members.
    Senator Allard. Yes, I will submit some more. I have 
wrapped up my questions.
    Senator Reed. Thank you, Senator Allard.
    Chairman Levin.
    Chairman Levin. Thank you very much, Mr. Chairman.
    Let me first start with Secretary Aldridge. When we 
questioned the Service Chiefs at last week's full committee 
hearing, each of the Services said that they had not been 
consulted at all on the level of funding in the missile defense 
budget. Can you tell me why they were not consulted?
    Secretary Aldridge. Sir, we have a process in the 
Department where the Service Secretaries were involved with the 
budgetary process. If they did not share that information with 
their Service Chiefs, that was perhaps something they could 
have done and should have done.
    The Senior Executive Council of the Department has reviewed 
the missile defense program. It has been reviewed in detail by 
the Secretary of Defense. We went over the management 
functions. We went over the budgetary items, the concept of the 
missile defense program, and that was reviewed and approved by 
the Senior Executive Council which results in the budget that 
has been submitted.
    But the Service Secretaries were involved. I was heavily 
involved, the Deputy Secretary and the Secretary, and the 
program of record is the one that we have agreed is the right 
thing for us to proceed with. I do not know why the Service 
Secretaries did not share that information with the Service 
Chiefs.
    Chairman Levin. Is it a little unusual, in your view, that 
the uniformed Service Chiefs were not involved in this 
consideration of the budget on missile defense?
    Secretary Aldridge. I would have thought that the Service 
Secretaries would have shared that information. Since this is a 
separate defense agency that deals with a variety of Services 
and activities, I cannot answer why they did not share that, 
sir.
    Chairman Levin. Secretary Aldridge, the Joint Requirements 
Oversight Council, the JROC, which is headed by the Chairman of 
the Joint Chiefs, is required by law to ``assist the Chairman 
in identifying and assessing the priority of joint military 
requirements to meet the National Military Strategy.'' The JROC 
is also required by law to evaluate ``the cost, schedule, and 
performance criteria of acquisition programs.'' Finally, the 
JROC is required by law to provide oversight information to 
Congress, and thus, like Mr. Christie, is an important avenue 
for Congress to gain independent insight into these defense 
programs.
    One of the most important functions that the JROC provides 
is review and approval of the program's Operational 
Requirements Document, which establishes the performance goals 
that a system has to meet in order to make it useful to our 
military.
    Was the JROC formally asked to provide written comments on 
the memorandum that abolished the Operational Requirements 
Documents, and if so, would you send us those comments?
    Secretary Aldridge. Sir, I would like to answer the 
question. The Chairman of the Joint Chiefs did comment on 
program management for missile defense. The JROC itself did 
not. JROC is chaired by the Vice Chairman, sir, of the Joint 
Chiefs. That is not part of the process by which we are 
undertaking missile defense. The JROC has a very firm 
requirements process of determining what is absolutely 
essential for the military to deploy.
    The approach we are taking on missile defense is a 
capabilities-based approach. General Kadish, as he develops the 
program in its R&D state, if it is in fact ready for production 
and deployment, will advise the Senior Executive Council 
whether that capability is sufficient to proceed.
    At that point, when there is a decision to proceed to a 
production and deployment, it does go into the JROC process. 
The normal deployment process enters into the regular 
acquisition system, but not before that time. Prior to that 
time, the Missile Defense Agency is involved with research and 
development only to develop a capability that is desired by the 
country.
    Part of what the Missile Defense Support Group does, in 
fact, is include the Joint Staff as members of that group, and 
the process by which advice is given both to the Director of 
MDA, as well as to the Senior Executive Council, goes through 
the Missile Defense Support Group, which does include not only 
the Joint Chiefs of Staff but also DOT&E. It also includes the 
Comptroller and Program Analysis and Evaluation (PA&E). All the 
agencies of the Department that have an equity in missile 
defense are included within that support group, which does 
provide the independent advice.
    Chairman Levin. Well, I think our top military leaders 
ought to have a very deep involvement in this assessment. The 
JROC is required by law to evaluate the cost, schedule, and 
performance criteria of acquisition programs. I think that 
there needs to be a much deeper involvement in it, and I think 
this subcommittee and our full committee is going to work to 
assure that that in fact happens.
    I am wondering, Mr. Christie, if you would tell us whether 
or not you and your office are acting in ways, relative to the 
missile defense, differently than your predecessor Mr. Coyle 
acted. Do you know?
    Mr. Christie. I think in earlier discussions I made the 
point that a year ago, or last summer after I was confirmed, I 
discussed our involvement with both of the gentlemen here at 
the table, as I knew they were totally restructuring the set of 
programs in this Missile Defense Agency. By mutual agreement, 
we backed away until all of these programs were properly 
structured and we would have something to begin to look into. I 
stated earlier that PAC-3 was not one of those because that 
program was proceeding into operational testing.
    We have worked over the last couple of months to come up 
with a working arrangement whereby we will be involved in the 
testing that takes place and the planning for tests, and I am 
confident that our involvement will, in fact, probably come 
close to whatever Mr. Coyle was doing before. His office was 
quite heavily involved, I think, in the technical testing that 
was going on because most of the evaluations that he was doing 
were based on technical testing. We will be involved also.
    Chairman Levin. When do you expect the details of that 
arrangement would be worked out?
    Mr. Christie. We have pretty well worked them out now.
    Chairman Levin. Are they in writing?
    Mr. Christie. We have a set of charts that provide that 
detail. My staff is a member of the Missile Defense Support 
Group. However, we do not have a memorandum of understanding or 
anything like that that the two of us have signed.
    Chairman Levin. You think there are written charts.
    Mr. Christie. Yes, we have charts. Yes.
    Chairman Levin. Could you submit them to this subcommittee?
    Mr. Christie. I will do so.
    [The information referred to follows:]

    The information referred to appears in question for the record 
number 9.

    Chairman Levin. Thank you so much. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Chairman Levin.
    I would like to finish up a series of questions.
    Going back to the discussion of the contingency deployment 
for the land-based system, General Kadish, if you declared this 
system contingency deployed, would you be operating the system 
and running it or would it be transferred to a Service?
    General Kadish. That is a great question.
    Senator Reed. Well, you keep asking questions all 
afternoon, and you finally get a great one. [Laughter.]
    General Kadish. The reason I say that is we are dealing 
with trying to understand how that operates now. It is clear, 
at least at this point in time, that any kind of contingency 
operation of any system that we would have in missile defense 
needs to be done by operators who are the warfighting experts. 
However, just as we did, and I hate to go back to other 
analogies, but as I recall, when we deployed JSTARS during the 
Persian Gulf War, we still had contractors operating parts of 
that system because they were not ready for trained airmen to 
actually operate them. So, I would expect that elements of our 
contractor and Missile Defense Agency personnel would be 
involved in the operation, but the actual warfighting decision 
making is done by the proper chains of command.
    Senator Reed. Thank you.
    Secretary Aldridge, you stated last week that all of the 
internal oversight organizations of the Pentagon are to be 
involved in the Missile Defense Support Group. You reaffirmed 
that today.
    But your memorandum of February 13 severely restricts the 
number of personnel from these organizations to be allowed 
access to missile defense program information. I understand 
that the limit is two or three people from each organization, 
and in any case, your memorandum allows you and General Kadish 
to personally approve each person to be allowed access. I also 
understand that prior to this current administration, there 
were dozens of people who on an as-needed basis had access to 
the information.
    With such limited access, how do you expect the Pentagon's 
oversight organizations to operate fully, completely, and, 
indeed, independently if in fact you and General Kadish can 
veto people who might be looking over your shoulders?
    Secretary Aldridge. Well, the intent is that the individual 
offices nominate the people that they want to put on the 
program, and that nomination is for the senior person which is 
the Missile Defense Support Group individual. In addition to 
that individual, we allow two more technical people to 
participate.
    We just did not want hundreds of people who show up at 
meetings to hear data. We think that 13 organizations that can 
have 34 people, essentially full-time, working on this problem 
is probably enough to make sure that all the equities of all 
the offices are sufficient without it getting out of hand. That 
was the rationale.
    The individuals who are nominated are, in fact, approved by 
us because we felt that we wanted to make sure people had the 
experience, that they have an understanding of missile defense, 
they have the expertise to be valuable, and that offices are 
not just nominating people because they are trying to get rid 
of somebody who is not a productive part of their organization. 
So, we want to have some say-so that the 34 people who were, in 
fact, involved were capable individual people who could 
contribute to the job.
    Now, once the Working Group members have access to data, 
what they do with it and how they deal back at their 
organizations, that is up to them. They can bring in other 
people to discuss, seek advice, and things of that nature. But 
we believe that 39 people to provide for the oversight of this 
organization was sufficient to meet the needs of the 
Department, meet the needs of the Missile Defense Agency, and 
meet the needs of the Senior Executive Council, which have to 
make independent judgments. That was the rationale.
    Senator Reed. Well, one could raise the question of a lack 
of confidence in the judgment of people like Mr. Christie to 
appoint people to this group.
    Secretary Aldridge. I think we took Mr. Christie's 
nominations.
    Senator Reed. Well, you could have said no.
    Secretary Aldridge. Yes, if he would have submitted someone 
who we believed in our judgment was not going to contribute to 
this process, yes, sir, we could say no.
    Senator Reed. But I still think the point remains that you 
reserve the right to contradict or veto the decisions, 
including those of the JROC, for example. You essentially take 
who was sent to you, and that might be for many reasons, some 
you alluded to, but there might be other reasons.
    Secretary Aldridge. It could, based on the reasons I 
stated, but we did not.
    Senator Reed. Is there any other program that is managed or 
run in this way in the Department of Defense?
    Secretary Aldridge. The only one that can be identified as 
closest is probably the National Reconnaissance Office, which 
deals with systems of systems, and one coming, which will be 
the Army's Future Combat System. It is going to have similar 
characteristics of multiple pieces of programs that have to be 
highly integrated.
    Senator Reed. Thank you.
    Secretary Aldridge, last week we discussed the application 
of the Nunn-McCurdy Act, which establishes cost control 
mechanisms for major defense programs. There was some ambiguity 
about its application. In support of the annual reviews of 
missile defense programs, one of which is scheduled for this 
fall, what sort of cost control mechanism will be applied and 
what specific data and documentation will be reviewed to 
understand whether the programs are on target if not Nunn-
McCurdy?
    Secretary Aldridge. Yes, sir. I did go back and look at 
Nunn-McCurdy. It does not apply to R&D programs until you get 
to a decision point for actual deployment. So, in the R&D 
effort, Nunn-McCurdy would not apply in this particular case. 
So, we will have to find other mechanisms to ensure that the 
programs remain under cost control.
    As they are going through R&D, it is very difficult to 
identify what the end state is going to be, and so it is not 
until we have a program that can be defined and an end state of 
the R&D program, and if we are successful, this is when we will 
actually enter into full-scale engineering development, and 
this is when we will start production, and then we can lay out 
a cost of a program and check its milestones. Until we make 
that full decision, it is very difficult to track program 
content in the sense of a Nunn-McCurdy certification, but we do 
track the program in terms of what we expect the R&D to cost 
and what it is really costing.
    We ran into one. It was not a Nunn-McCurdy breach, but it 
was the SBIRS-Low program in the missile defense program. It 
was going up in cost at a significant rate, and we decided that 
this was a program that was unexecutable, and we have asked it 
to be restructured. So, the process will continue to look at 
programs in the normal way. It just does not have the Nunn-
McCurdy tool, as one of many tools, of monitoring cost, 
performance, and schedule.
    Senator Reed. But you will be developing documentation and 
data to support reviews?
    Secretary Aldridge. Yes, sir. There will be a Selected 
Acquisition Report (SAR) that will be written in that way. As 
we have done for PAC-3 as it moves out, there will be a 
separate SAR for each of those programs.
    Senator Reed. Congress will have access to that data and 
documentation?
    Secretary Aldridge. Yes, sir.
    Senator Reed. Secretary Aldridge, also in your February 13, 
memorandum to General Kadish, you requested that he send you, 
within 60 days, a program implementation plan to address in 
part the following: program structure with funding allocations; 
the Ballistic Missile Defense System program baseline; 
technical and program management structure; acquisition 
strategy; planned program documentation and reporting to OSD, 
Services, and Joint Staff interfaces; the approach to test and 
evaluation; and a transition plan for transfer of programs to 
Services.
    General Kadish, are you on schedule for delivery of that 
plan?
    General Kadish. We are in the process of putting it 
together right now. Given the complexity of some of the things 
we are doing, I am a little bit worried about the deadline that 
Secretary Aldridge has set. But our intent is to fully 
document, as best we can, and have the Missile Defense Support 
Group review that plan in some detail, and then we would 
respond to that advice out of the MDSG. So, we are underway 
with the implementation plan right now, and I am hoping that it 
will be, if not on time, very close to being on time.
    Senator Reed. When you send it to Secretary Aldridge, may 
we also see it in Congress?
    General Kadish. Yes, sir. I defer on that question to 
Secretary Aldridge.
    Secretary Aldridge. I do not see any reason why you cannot. 
It should be available to you. Once we go through the process 
that we all agree to, the Missile Defense Support Group has 
agreed to it and the SEC agrees this is the plan we are on, I 
do not see why it should not be available to you immediately.
    Senator Reed. It might be interesting to see the plan 
before the MDSG agrees to it. Sometimes the changes are more 
illustrative than the actual substance.
    Secretary Aldridge. We will reserve it for next year's 
testimony, sir. I will tell you how it turned out. [Laughter.]
    Senator Reed. Well, or the next hearing.
    Secretary Aldridge. Yes, sir, the next hearing.
    Senator Reed. Let me conclude with a comment as much as a 
question. We have heard a lot about capabilities-based 
development. Frankly, I have a list of different descriptions 
by General Kadish and yourself, Mr. Secretary, of what 
capabilities-based means. They are not entirely identical.
    Secretary Aldridge. Oh, yes, sir, they have to be.
    Senator Reed. They have to be. [Laughter.]
    Do you want me to read them? All right, here we go.
    In your testimony, General Kadish, you said it meant ``a 
flexible approach to the acquisition of complex systems, 
incorporating advanced technologies that permit deployment of a 
limited but effective capability that can be progressively 
enhanced.'' In today's testimony, you mentioned the word 
``threat,'' which was not part of the previous exposition, at 
least to my recollection.
    In your testimony, Secretary Aldridge, you said it ``would 
procure missile defenses at the earliest possible date.''
    Mr. Christie, you said the new approach ``is evolving to 
provide for the successful development of capabilities that are 
responsive to threats while, at the same time, maintaining 
essential operational effectiveness for equipment that is 
fielded.''
    Page 14 of the Department's Quadrennial Defense Review, 
defined it as ``focusing more on how an adversary might fight 
than who the adversary might be.''
    Then Secretary Rumsfeld, in his testimony before the Senate 
Armed Services Committee last June, said it meant we would 
``work to select, develop, and sustain a portfolio of U.S. 
military capabilities to help us prevail against current 
threats and dissuade potential adversaries from developing 
dangerous new capabilities.''
    My sense is that, at least in terms of the expression, 
there are slightly different views and maybe even significantly 
different definitions. But when we engage on these questions, 
the ultimate answer always seems to be, well, we are doing a 
capabilities-based assessment and it is different and you do 
not understand because it is capabilities-based.
    I am concerned that this is just a new buzz word, new 
jargon, and there is, I think, a consequence, as you, I think, 
would admit, of moving away from the old system. A requirement 
target was set and you pretty much knew if you measured up to 
what the requirement was. Here, that requirement is very 
flexible. It can move around, and I think you would say that 
you have to do it that way. But it also invites the possibility 
that you can dumb-down standards. You can deploy things for 
reasons unrelated to the quality of the system, just because 
you feel compelled to do it. That, I think, takes away from 
some of the rigor that we normally see in defense programs.
    That is a comment. If you would like to rejoin, I would 
invite you to do that, but that is my final comment.
    Secretary Aldridge. I will try to do this with a short 
comment. All those statements you read are not inconsistent.
    Senator Reed. No, but they are not precise, not as precise 
as saying we are going to build a system.
    Secretary Aldridge. Right, but I also notice that in many 
of the statements, you were mixing up spiral development with 
capabilities-based development. What we are talking about in 
terms of capabilities is the future. We may not know who we are 
going to fight, when we are going to fight, or where we are 
going to fight. Therefore, we must design a capability that 
says this is what we want to do in spite of this uncertainty. I 
think that is one approach.
    Once we do define what capability we want, the issue of 
spiral development now enters the picture, what we want to 
improve with time, and that is what spiral development does. It 
allows that initial capability to be improved in time.
    They are related but they are in fact separate. I think we 
have described capabilities, and maybe that is all I should 
say.
    Senator Reed. Well, Mr. Secretary, staff has selected 
descriptions of what was purported to be the capabilities-based 
approach, not the integration of both.
    This leads to a few questions. If you are doing 
capabilities, there are some very simple measures. One is, what 
missiles are you going to defend against and in what time 
frame? When are you going to deploy? Those are the types of 
answers that ultimately we are going to have to come to. At 
this point, I have not heard those answers, and we are spending 
a great deal of money in the process.
    Secretary Aldridge. Yes, sir. We have not made those 
decisions.
    Dumbing down the requirements and perhaps doing some things 
that are less capable than we would like is not the intent of 
any of this. I am an American. I am a taxpayer and want to make 
sure that what we get for our country is the very best we can 
provide at the right cost and schedule and performance. So, the 
issue of trying to institute a process that is going to allow 
perhaps less capability than we would otherwise desire is 
certainly not what we are intending to do here. We are trying 
to do it faster, quicker, and certainly with the oversight of 
the Department of Defense, and we always have to come to 
Congress when it comes to a decision to deploy. We have to get 
the funding to make that happen.
    Senator Reed. Thank you, Secretary Aldridge. Mr. Christie, 
General Kadish, thank you.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                   required congressional information
    1. Senator Reed. Secretary Aldridge, during the hearing you 
committed to sending Congress such information on missile defense as is 
required to be submitted for Major Defense Acquisition Programs. This 
information includes the development schedule, including estimated 
annual cost until development is completed, the planned procurement 
schedule, including the best estimate of the Secretary of Defense of 
the annual cost and units to be produced. Please provide this 
information for all missile defense programs that were previously Major 
Defense Acquisition Programs as soon as possible in order to support 
congressional reviews of the fiscal year 2003 budget request for 
missile defense.
    Secretary Aldridge. The fiscal year 2003 budget estimate 
documentation together with the Selected Acquisition Report (SAR) 
provide the most up-to-date information available regarding cost, 
schedule, and development, including those previously identified as 
Major Defense Acquisition Programs. Specifically, the estimate provides 
funding requirements for the next 6 years, by year; schedule, including 
hardware and software deliveries, to the extent known; and planned 
decision points and test events for all program activities at least 
through completion of planned testing and evaluation of the prototype.
    Developing a single, integrated missile defense system is a vast 
technical challenge that will take time and effort to mature. We are 
working hard toward the important goal set forth for us by the 
Secretary of defending the United States, deployed forces, allies, and 
friends by developing a system that layers defenses to intercept a 
ballistic missile in all phases of flight against all ranges of 
threats. The system will add capability over time. We will deploy 
individual elements and components of the system only once their 
technological maturity and military utility have been clearly 
demonstrated. Until that time, we will not know how many units should 
be produced or their cost. We will deploy those components in an 
architecture that allows our capability to be improved as the 
technology matures.
    We have provided Members and their staffs documentation and 
briefings on our strategy and our progress. We will continue to provide 
that information to Congress as we develop the system and the 
information becomes available.

       STATUS OF DOT&E ACCESS TO MISSILE DEFENSE AGENCY PROGRAMS

    2. Senator Reed. Mr. Christie, during the hearing, Secretary 
Aldridge agreed with me when he said that ``statutorily, Mr. Christie 
can have access to any data without agreements with anyone else in the 
Department.'' Do you, your staff, and your support contractors now have 
unfettered access to all information you and your staff deem necessary 
in order for you to perform your oversight responsibilities for Missile 
Defense Agency (MDA) programs, especially the responsibility you 
committed to at the hearing of independently assessing the capabilities 
of the 2004 ``contingency deployments'' for missile defense?
    Mr. Christie. As of this point in time, DOT&E and our federally-
funded research and development contractor (FFRDC) support staff have 
not gained unfettered access to the MDA programs. The various MDA 
programs are still undergoing the process of restructuring. In the 
meantime, we have obtained for review some reports on the Ground-based 
Midcourse Defense System. Additionally, we have regular access to the 
Patriot PAC-3 program that is currently in operational test and 
evaluation being conducted by the Army. We have also had some insight 
through the Missile Defense Steering Group into the restructure of the 
SIBRS-Low program. We have been awaiting delivery of the MDA 
Implementation Plan to ascertain how they propose the OSD staff 
(including DOT&E) will carry out its oversight of the MDA programs. In 
the meantime, DOT&E has proposed a T&E implementation plan that spells 
out the access we need in order to perform our oversight and 
independent evaluation responsibilities. This proposal includes details 
on the types and level of access needed by ourselves and our FFRDC 
support staff in interacting with the MDA, the various program offices, 
and the system contractors. Our plan identifies the types of 
information, documents, and meetings we need access to in order to 
adequately evaluate the MDA programs and prepare our annual assessment 
reports for the MDA and Congress. This plan has been provided to MDA 
for comments or acceptance. We anticipate that we will have access to 
all requisite information and participation in meetings to perform 
DOT&E's mission.

                         RESTRICTIONS ON ACCESS

    3. Senator Reed. Secretary Aldridge, have you rejected any request 
for a particular individual to be a member of the Missile Defense 
Support Group (MDSG)? If so, which organization was affected and what 
was the basis of the rejection?
    Secretary Aldridge. I accepted the nominations from the Secretaries 
of the Services, the Vice Chairmen of the Joint Chiefs of Staff, and 
the senior members of the other organizations from the Office of the 
Secretary of Defense for their representatives to the Air Force request 
for a second seat on the MDSG. Although I have delegated Milestone 
Decision Authority for Space to the Air Force, I did not feel one 
Service deserved more representation on the MDSG than any other 
Service. The Missile Defense Agency has established a board of 
directors (BOD) with each of the Services, and the Air Force BOD 
ensures both space and other procurement programs are integrated and 
addressed.

                ACCESS OF SUPPORT STAFF AND CONTRACTORS

    4. Senator Reed. Secretary Aldridge, you testified that the rules 
you have established for the MDSG allow at most three people from any 
given independent oversight organization to participate in the MDSG. 
Three people is not a sufficient number for substantial independent 
analysis to be performed by any of these independent organizations. Do 
your rules, therefore, allow for the independent oversight 
organizations' staff and contractor support personnel, who are not 
members of the MDSG, to have access to MDA programmatic information, 
either via the MDSG process of via other means? If not, how do you 
expect meaningful independent analyses to be conducted by these 
organizations?
    Secretary Aldridge. The Missile Defense Support Group and 
associated Working Group comprise a total of 34 individuals. This is an 
efficient size to allow independent analysis and to conduct dialogue 
leading to sufficient advice to the Director of the MDA, the Senior 
Executive Council, and me. Individual members may distribute MDA 
information as they deem necessary within their own organization to do 
their job as long as it is controlled according to its security 
classification (as a minimum For Official Use Only) and is considered 
pre-decisional, and the individuals have a need to know. If an 
organization requires additional people to have access directly with 
MDA to fulfill a specific requirement this is agreed to between the MDA 
and the individual organization. Each MDSG principal has a 
corresponding senior level point of contact within the MDA for 
coordination and interactions on a daily basis.

    5. Senator Reed. Secretary Aldridge, could you please provide, as 
soon as possible, the rules of access for non-members of the MDSG?
    Secretary Aldridge. The MDSG meetings are closed to non-members to 
allow open dialogue and efficient operations dealing with pre-
decisional information. Non-members are allowed access on an 
invitational basis controlled by the chairman for specific activities 
as deemed necessary by the MDSG body as a whole.

                OPERATIONAL TESTING FOR 2004 DEPLOYMENTS

    6. Senator Reed. Mr. Christie, it was established at the hearing 
that no operational tests were planned for any of the missile defense 
systems for which there is a potential 2004 ``contingency deployment.'' 
Although other systems, such as JSTARS and Predator were in fact 
deployed prior to the completion of operational testing, it is my 
understanding that these systems did not pre-plan such ``contingency 
deployments.'' Thus, the pre-planned nature of the proposed missile 
defense contingency deployments, and the fact that we are budgeting 
extra funding for them now, makes them unique. Do you believe that 
preplanning on these contingency deployments for 2004, and buying extra 
hardware now to support such a deployment, is a prudent action without 
plans for any operational tests prior to the deployments and if not, 
why not?
    Mr. Christie. Historically, acquisition programs have not pre-
planned contingency deployments. JSTARS and Predator are two recent 
examples of programs among many others over the years that were taken 
out of an ongoing development and test and evaluation program to 
support an urgent operational need. However, planning for an early 
contingency deployment should not be any different from planning for an 
initial block capability. Plans for developing and acquiring systems 
that address an imminent or volatile threat, where contingency 
deployment is likely, should include a strategy that builds basic 
operational utility testing into the engineering and development 
process. This is precisely what capabilities-based acquisition is 
supposed to accomplish, by involving all stakeholders early in the 
design process and sharing information about the eventual required 
capability. Under this approach, we could deploy at any time in any 
design increment and be assured that our confidence in operational 
capability, while not complete, is balanced with respect to our 
confidence in other critical design factors. Our goal is to assist the 
MDA in developing a strategy that builds basic military utility 
assessments into the engineering, development, and testing processes 
for each of their programs. This will allow DOT&E to provide the best 
possible assessment of capability and provide higher confidence in the 
2004 contingency system. While not as rigorous as a full operational 
test and evaluation plan, this strategy balances confidence in 
operational effectiveness against the risk posed by an emerging and 
evolving threat.

    7. Senator Reed. Mr. Christie, if so, why should other, less 
complex defense programs not also begin to plan, and budget for, such 
contingency deployments with no prior operational testing and what 
should the criteria for pre-planning such contingency deployments be?
    Mr. Christie. In general, all systems should employ a strategy 
where operational test requirements, along with other requirements for 
training, logistics, tactics, etc., are developed early on, such that 
an intermediate decision to deploy could be made at any time. For most 
military systems with a moderate level of complexity, this is a prudent 
approach. The more complex a system is, the higher the risks of using 
this approach in lieu of adequate operational testing. There is an 
important distinction between emergency deployment and planned 
contingency deployment. Planned contingency deployments reflect 
deliberate efforts to exploit capabilities that are demonstrated during 
early system development. This includes the development of associated 
operational concepts and tactics. An emergency deployment is 
characterized by very rapid configuration of a system to address a 
specific need with little planning, confirmation of capability, or 
tactics development.

            BALLISTIC MISSILE DEFENSE GOALS AND ANNUAL PLAN

    8. Senator Reed. General Kadish, the preamble to your fiscal year 
2003 budget estimate documentation states that the ``program goals and 
detailed test and expenditure plans'' required by the National Defense 
Authorization Act for Fiscal Year 2002 are contained in the 
documentation. However, the documentation provides detailed information 
only for fiscal year 2003, and virtually no information on longer-term 
program goals. To assist in congressional review of the fiscal year 
2003 missile defense budget proposal, could you please provide the 
missile defense goals and program plans as soon as possible?
    General Kadish. The fiscal year 2003 budget estimate does provide 
information on long-term program goals. Specifically, the estimate 
provides funding requirements for the next 6 years, by year. It also 
provides schedule, including hardware and software deliveries, to the 
extent known, and planned decision points and test events for all 
program activities at least through completion of the planned element 
or component testing.
    Our overarching goal is to defend the United States, deployed 
forces, allies, and friends by developing a system that layers defenses 
to intercept a missile in all phases of flight against all ranges of 
threats. The system will evolve over time. We will deploy elements or 
individual components of the system when their technological maturity 
and military utility are clearly demonstrated. Additionally, we will 
deploy those components in an architecture that allows our capability 
to be improved as the technology matures.
    We have provided members and their staffs documentation and 
briefings on our strategy and our progress. We will continue to provide 
that information as we develop the system.

                WRITTEN INFORMATION ON OVERSIGHT PROCESS

    9. Senator Reed. Secretary Aldridge, during the hearing, Mr. 
Christie  said that he would submit the charts that document the 
arrangement that has been worked out for how DOT&E will be involved in 
missile defense test planning. Could you please provide, as soon as 
possible, any documents or charts presented to the MDSG which deal with 
how MDA programs will be overseen?
    Secretary Aldridge. The following charts were developed and 
approved by DOT&E and presented to both the MDSG and the MDSG Working 
Group once they were formed. They were also presented to members of 
congressional staff prior to my signing the February 13, 2002, 
Implementation Guidance. Currently DOT&E and MDA are working the 
specifics of the MDA implementation plan concerning DOT&E planning, 
oversight, and responsibilities.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                       DOCUMENTATION ON R&D COSTS

    10. Senator Reed. Secretary Aldridge, during the hearing you stated 
that the Department would ``track [missile defense programs] in terms 
of what we expect the R&D to cost and what it's really costing.'' 
Furthermore, you committed to providing this data to Congress. Could 
you please provide the current estimated costs and original costs for: 
(1) the following prototype items; and (2) the research and development 
costs associated with development of the prototype items: Airborne 
Laser prototype; each SBIRS-Low prototype satellite; THAAD prototype; 
Sea-based Midcourse prototype; and the Space-Based Laser prototype? 
Furthermore, could you please provide this information as soon as 
possible to support congressional review of the fiscal year 2003 
missile defense budget?
    Secretary Aldridge. Prototypes are interim engineering units, which 
by their nature, do not have firm ``production unit'' baselines. 
Technical specifications, purpose, and fidelity of a prototype are 
continually adjusted to match the development need. As a result, 
prototypes are unique to both individual programs and to the stage of 
that program's development. Prototype costs cannot be measured like 
production units, their costs are embedded in the element and program 
development costs. Those costs are estimated in the fiscal year 2003 
budget request.

                     DOCUMENTS USED FOR MANAGEMENT

    11. Senator Reed. General Kadish, given that Operational 
Requirements Documents (ORDs) have been abolished, as well as program 
baselines and production unit cost estimates, it is unclear what 
documentation you are currently using to manage your programs. Could 
you please provide, as soon as possible, a list of the documents you 
are currently using to monitor and manage MDA programs, and a 
description of what each document contains?
    General Kadish. ORDs have been canceled only for missile defense 
elements in development, not for those ready to be transferred to the 
Services. Capability-based ORDs will become operative upon transfer of 
capabilities to the Services.
    Under the Department's traditional acquisition process, development 
started with specific military requirements generated by the user. 
These requirements were formalized in the ORD. Following the ORD, Key 
Performance Parameters (KPP) were established and used to define 
contract requirements and deliverables. Contract performance was 
reported using the Earned Value Management System (EVMS). Department 
and congressional oversight was afforded through the Defense 
Acquisition Executive Summary (DAES) and the SAR, respectively.
    For MDA, the strengths of the traditional requirements generation 
process were also its weaknesses. It is rigorous, but that very rigor 
translated into a lack of the flexibility needed in missile defense 
development to deal with unprecedented technology development, 
uncertain threats, and complex multi-system integration. Requirements 
defined in ORDs are typically set years before actual system 
deployment, and can lead to less than optimum capability against a 
threat that exceeds that description. Furthermore, we do not yet know 
all the technical approaches that will work best.
    MDA's capability-based strategy implements acquisition discipline 
during development from a top-down perspective. This top-down approach 
promotes optimal system performance, maintains developmental 
flexibility, and ensures a high-level system integration. MDA's system 
engineering process begins with the development of System-wide 
Technical Objectives and Goals (TOG) to communicate expectations for 
evolving BMDS capabilities. This document will provide metrics for 
comparing alternatives and high-level strategy for development. Because 
specific threat identification, as previously captured in the System 
Threat Assessment Report, is no longer possible, the Adversary 
Capability Document (ACD) provides the range of capabilities a 
potential adversary might be able to deploy. Subsequently, more 
detailed System Capability Specifications (SCS) will provide capability 
requirements for the overall system, elements, components, and 
interfaces. The TOG and SCS will help define the overall system 
configuration and architecture.
    From the TOG and SCS, MDA will develop capability specifications 
for individual elements and components. These two documents are 
respectively known as the ECS and the CCS. Capability specifications 
will include hardware and software descriptions as well as interface 
design requirements. These detailed specifications will be reflected in 
traditional cost, schedule, and performance metrics used to define 
contract requirements and deliverables. Contract performance will still 
be managed using the traditional Earned Value Management System (EVMS) 
practices. Traditional `control' documents such as Risk Management 
Plans and Cost Analysis Requirements Descriptions (CARDs) remain in use 
for each individual program element. Congressional oversight will still 
be afforded through the SAR. In place of the Defense Acquisition 
Executive Summary (DAES) report, we submit an MDA Quarterly Report that 
contains an overall BMDS status and assessment for use by the Missile 
Defense Support Group. We are also developing a BMDS Integrated Master 
Schedule (IMS) for internal use. The IMS will capture key schedule 
information from the element programs and certain MDA business and 
functional processes for use in preparing a BMDS-level schedule 
assessment that will be included in the MDA Quarterly Report.
    In sum, the key documents MDA uses to management development are: 
the TOG, ACD, SCS, ECS, and CCS, in addition to the MDA Quarterly 
Report and SAR. At the execution level there is no change between 
requirements-based and capability-based acquisition approaches. Using 
capability-based acquisition, baselines will still be in place to 
determine if programs are running on cost and on schedule. Reporting 
requirements will still be available to judge the trade off of 
additional developmental risk for additional performance or additional 
cost. The Department will still be able to determine if a missile 
defense program should be accelerated, decelerated, modified, or 
terminated. After a program completes the development phase and moves 
into the transition phase prior to procurement, the military Services 
will prepare the normal acquisition documentation.

                            PAC-3 TRANSITION

    12. Senator Reed. General Kadish, the PAC-3 system has been 
transitioned to the Army for procurement. Is the system meeting its 
threshold ORD performance and if not, why not?
    General Kadish. The Secretary of Defense has canceled missile 
defense ORDs, including the PAC-3 ORD, thereby removing the former 
threshold ORD performance parameters as go/no-go criteria for the 
purpose of electing to produce and field missile defense systems. This 
provides greater flexibility for the application of military judgment 
in delivering capability to the field. Our testing to date indicates 
PAC-3 is meeting almost all of the former threshold ORD performance 
requirements. Rather than delay fielding this critical warfighter 
capability, we have opted to proceed with limited procurement supported 
by a disciplined program to continue enhancing system performance 
against existing and emerging threats. Once the PAC-3 system completes 
operational testing we will be positioned to evaluate, along with the 
warfighter, the level of performance this system provides and whether 
to proceed with a full-rate production decision.

    13. Senator Reed. General Kadish, is a new ORD being developed for 
PAC-3, and if so, by whom?
    General Kadish. The Army Combat Developer, the U.S. Army Air 
Defense Artillery School (USAADASCH) is presently recasting the 
existing PAC-3 ORD into a capability-based ORD.

    14. Senator Reed. General Kadish, who is in charge of approval of 
any new PAC-3 ORD, and who will have to concur with it?
    General Kadish. The JROC is responsible for approving the 
capability-based ORD. MDA will cooperate in developing the document and 
will provide concurrence before it is submitted for formal review and 
approval by the JROC.

                          ARROW SYSTEM TESTING

    15. Senator Reed. Mr. Christie, the test program for the Arrow 
system was a subject of discussion during the hearing. What is your 
assessment of the Arrow test program?
    Mr. Christie. Since Arrow is not designated a Major Defense 
Acquisition Program, DOT&E has not had visibility into the program to 
date. As directed in the fiscal year 2002 appropriations language, we 
plan to review Arrow program plans, reports, and test activities and to 
provide our assessment of the program in this year's annual report.

                            ORD RESTRICTIONS

    16. Senator Reed. Secretary Aldridge, one reason given for 
abolishing missile defense ORDs is that they are ``too restrictive.'' 
Can you provide some examples of defense programs that have not been 
fielded because their ORDs were too restrictive?
    Secretary Aldridge. We know of no system that has not been fielded.

              CAPABILITY TO DO POST-ENGAGEMENT ASSESSMENTS

    17. Senator Reed. General Kadish, you stated at the hearing that 
one of the benefits of deploying a contingency operational capability 
is that we will learn more than we would have in a ``very sterile test 
program.'' However, one of the areas test programs focus on is data 
gathering--usually much more so than deployed programs. What 
information will not be available in the contingency deployment that 
would be available during an operational test, e.g., do you plan on 
actually flying missiles against targets as part of any of the 
contingency deployments or do you plan on embedding test 
instrumentation into the contingency deployments to get data for post-
engagement assessment?
    General Kadish. Operational testing is typically of short duration 
and, while it is designed to be as realistic as possible, it does not 
substitute for the knowledge gained about using the system after it is 
deployed. Deployment provides opportunities to see how hardware and 
software work in many different situations that could not be fully 
explored during limited operational testing. For example, integration 
of battle management command and control with the existing command 
structure can be much more thoroughly demonstrated, particularly with 
the built-in test capability that the BMDS will have. Even if a 
contingent operational capability is deployed, MDA's capability-based 
acquisition program will continue to evolve the BMDS through spiral 
development to a more capable system. In support of this ongoing RDT&E 
program, a full spectrum of testing and data collection will continue, 
particularly focusing on target intercepts and post-intercept analysis. 
However, we have yet to fully define the details on what data will be 
collected from a BMDS that is contingently deployed and what data will 
be collected during the concurrent RDT&E program. They will depend in 
part on the BMDS Block capability that is deployed. In any event, 
contingency deployment, if it occurs, is expected to supplement and not 
eliminate test information collected on BMDS capabilities.

                     CONSULTATION OF SERVICE CHIEFS

    18. Senator Reed. Secretary Aldridge, during the hearing you stated 
that you did not know why the Service Chiefs were not consulted on the 
missile defense budget, and you did not explain why the JROC was not 
consulted on the memorandum that abolished ORDs for missile defense. 
Could you please now answer these questions, and indicate if you plan 
in the future to obtain the opinions of these groups regarding missile 
defense programs and if you do plan to obtain the opinions of the 
Service Chiefs and the JR0C in the future, could you please explain the 
process by which this will be accomplished?
    Secretary Aldridge. Both the Secretary of Defense January 2, 2002, 
Directive and my February 13, 2002, Implementation Guidance Memorandum 
were coordinated with the Service Secretaries and the Vice Chairman of 
the Joint Chiefs of Staff prior to signature. Since that time these 
organizations have been represented by their nominated principals on 
the Missile Defense Support Group (MDSG). This group will be used to 
provide advice to the Director, Missile Defense Agency, me, and the 
Senior Executive Council that is composed of the Service Secretaries, 
me, and the Deputy Secretary of Defense. In the course of its work, the 
MDSG will review the missile defense budget and other priority issues. 
The Director of the MDA will obtain the advice of the warfigther 
community on desired operational features and approaches to system 
deployment. The Joint Theater Air and Missile Defense Organization 
(JTAMDO) will serve as the voice for the combatant commanders and 
Services to lead the collaborative effort with the combatant commanders 
and Services on operational matters. JTAMDO will also develop 
operational concepts, develop the operational architecture, and assess 
military utility, during Ballistic Missile Defense System (BMDS) 
development and transition. Further, MDA will work closely with JTAMDO 
in developing the joint command and control architecture for the BMDS 
and integrating it into the applicable joint command and control 
architectures for missile defense. Further, the Director of the MDA has 
created a board of directors with each of the three Military Services 
to facilitate interaction and solicit advice to ensure that system 
development activities are closely coordinated with the needs of the 
warfighter.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

 SYSTEM THREAT ASSESSMENT REPORTS AND ADVERSARY CAPABILITIES DOCUMENTS

    19. Senator Akaka. Secretary Aldridge, according to Secretary 
Rumsfeld's memorandum dated January 2, 2002, the MDA will no longer 
rely upon System Threat Assessment Reports developed by the Defense 
Department's intelligence agencies, but will develop a unique document 
called an Adversary Capabilities Document (ACD). Are there specific 
reasons why the Department's intelligence agencies cannot prepare the 
ACD, and will the ACD be coordinated with the Department's intelligence 
agencies?
    Secretary Aldridge. The intelligence agencies are chartered to 
provide intelligence data and assessments that are based on data that 
are collected, processed, and analyzed from a variety of intelligence 
collection assets. These data are evidence-based. The ACD is not 
limited by evidence-based capabilities and assessments. It will be 
based on the limits of technological capabilities and physics, not 
simply the limits of intelligence-projected capabilities. A task such 
as the ACD is outside mission statements and charters for the 
intelligence agencies, as currently defined
    However, intelligence data is also included in the ACD. For each 
parameter in the ACD, intelligence data is always the inner bound or 
starting point in determining the theoretical minimum and maximum 
value. Every effort is being made to coordinate the development of the 
ACD with the intelligence agencies. The Missile and Space Intelligence 
Center, the National Air Intelligence Center, and the Defense 
Intelligence Agency have been represented at every review meeting thus 
far. Their participation is critical to the success of the ACD.

    20. Senator Akaka. Secretary Aldridge, General Kadish said in his 
testimony that the ACD will be ``physics-based and look at the physical 
parameters that could be around the threat.'' Could you detail which 
physics-based parameters will now be included in the ACD and if that 
information will require detailed knowledge of an adversary's missile 
and warhead configuration?
    Secretary Aldridge. The set of parameters emphasizes what is 
possible to observe directly, starting from DIA missile modeling 
parameters. Parameters derived or inferred from these, and missile 
technology and warhead data, are included as warranted. While specific 
instances of adversary information are useful as examples, or as the 
first step in locating certain parameter boundaries, detailed knowledge 
about adversary missiles and warheads is not required and is not the 
focus of the ACD. Additional detail will require a classified setting.

           JANUARY 2, 2002 MISSILE DEFENSE AGENCY MEMORANDUM

    21. Senator Akaka. Secretary Aldridge, in a memorandum dated 
January 2, 2002, Secretary Rumsfeld directed the MDA to create an 
acquisition process separate from the Defense Department's traditional 
acquisition process. Does the MDA intend to seek legislative relief to 
accomplish the goals and direction of the Secretary of Defense and with 
this phased approach to deployment, is there a risk that too many 
programs will enter the pipeline driving up the need for resources 
downstream beyond what can be expected to be available?
    Secretary Aldridge. The Missile Defense Agency and the Department 
of Defense see no need to seek legislative relief to accomplish the 
goals and direction of the Secretary of Defense concerning missile 
defense. The Senior Executive Council will continuously review the 
missile defense program, and revise it to ensure that risk is managed 
within appropriate resources.

    22. Senator Akaka. Secretary Aldridge, in the January 2, 2002 
memorandum, the Secretary directed the MDA's Director to use 
transactions other than contracts, grants, and cooperative agreements 
to carry out basic, applied, and advanced research. You indicate that 
at least some contracts, such as those being awarded to establish 
``National Industry Teams,'' will be awarded outside of the authority 
of the Federal Acquisition Regulation. If so, doesn't this remove a 
significant amount of oversight over contracts worth billions of 
dollars, and could you provide a list and the amounts of contracts 
which to date have been or to which there is an intent to award outside 
the authority of the Federal Acquisition Regulations?
    Secretary Aldridge. There are two types of other transaction 
authorities under 10 U.S.C. 2371. One type is to carry out basic, 
applied, or advanced research and the other, known as Section 845, is 
to carry out prototype projects directly relevant to weapons or weapon 
systems proposed to be acquired or developed by the DOD.
    The authority to use ``other transactions'' (OTs) in accordance 
with Section 845 was delegated to the Directors of all the Defense 
Agencies in December 1996, providing the authority to enter into 
transactions (other than contracts) under prototype projects.
    The Secretary of Defense memorandum dated January 2, 2002, 
encouraged ``flexible acquisition practices,'' and delegated to the 
Director of the MDA, ``authority to use transactions other than 
contracts, grants, and cooperative agreements to carry out basic, 
applied, and advanced research.''
    To date, only two OTs have been awarded by the Missile Defense 
Agency, both using the Section 845 prototype authority. HQ0006-02-9-
0001 was awarded in the amount of $23 million to the Boeing Corporation 
as the lead of the Missile Defense National Team (MDNTS(I)) for Systems 
Engineering and Integration; and HQ0006-02-9-0002 was awarded in the 
amount of $23 million to Lockheed Martin Corporation as the lead of the 
Missile Defense National Team (MDNTB(I)) for Battle Management, 
Command, Control, and Communications. The period of performance for 
both OTs is through June 2002; however, it is anticipated that they 
will both be extended to December 2003, with an estimated increase in 
total value to $141 million and $141 million respectively. It is also 
anticipated that 2-year increments for the block evolution of the BMDS 
may continue through December 2011 for a total potential value of $950 
million per OT.
    In order to ensure that adequate oversight was provided for in 
these agreements, the OTs were awarded using the guidance provided by 
the DOD Other Transaction Guide dated December 2, 2001. The MDA OTs 
include an oversight provision titled ``Comptroller General Access'' 
which provides the Comptroller access to the contractors records Other 
oversight, which is similar to FAR contracts, comes through OT Annual 
reporting to Congress, Defense Contract Audit Agency review of invoices 
and allowable costs, and Defense Contract Management Agency 
Administration and review of accounting systems.

    23. Senator Akaka. Secretary Aldridge, in the January 2, 2002 
memorandum, the Secretary stated that he would decide, with input from 
a Senior Executive Council, to use test assets for emergency or 
contingent capability. The test assets referred to in the memo are 
scheduled to be available in a little more than 2.5 years. What 
criteria will the Secretary use to determine if a test asset should be 
used as a contingent or emergency capability?
    Secretary Aldridge. Neither the Secretary of Defense nor the Senior 
Executive Council have established specific criteria at this time for 
determining if test assets can be used as a contingency capability. It 
will be a case-by-case decision based on operational needs, ballistic 
missile defense element capabilities, test results, and other criteria 
deemed appropriate at the time of the decision.

     OPERATIONAL TESTING AND CONTINGENCY AND EMERGENCY CAPABILITIES

    24. Senator Akaka. Mr. Christie, if test assets are not 
operationally tested before they are determined to be available as a 
contingency or emergency capability, how can the Secretary be sure that 
the assets will work in an operational environment?
    Mr. Christie. As I stated in a previous response, I recommend that 
operational utility be addressed throughout development, so that 
capabilities may be deployed at any time without a disproportionate 
risk of operational difficulties. Under this approach, interim concepts 
of operation would be developed which account for the current state of 
system development. Putting together an operational capability and 
concepts of operations using components that are at various stages of 
maturity is risky. Previously, I pointed out the distinction we see 
between contingency deployments and emergency deployments. We believe 
that the philosophy we have described will balance the risk of either 
eventuality. By definition, an operational testing program, supporting 
a full-rate production decision or Initial Operational Capability, 
should employ production representative hardware. However, since such 
hardware is generally not available during development, interim 
deployments will exploit hardware built for testing. This strategy will 
put low-rate initial production equipment into service and may require 
a higher degree of interoperability or different interfaces than the 
final system concept, as required inputs from immature elements may 
have to be provided by a combination of other systems. The Secretary 
will have to weigh the relative risks of deploying an immature system 
against the risk posed by the given emergency. Addressing operational 
issues early and continuously in the development process will provide 
the best possible information to support decisions for contingency 
deployment.

      MISSILE DEFENSE AGENCY AND FISCAL YEAR 2003 OMB ASSESSMENTS

    25. Senator Akaka. Secretary Aldridge, in the President's fiscal 
year 2003 budget, the administration presented the results from its 
ongoing review of programs throughout government to identify strong and 
weak performers. Often, the budget request sought to redirect funds 
from lesser performing programs--or programs with unknown performance--
to higher priority or more effective programs. How did MDA's programs 
rank in the OMB assessment?
    Secretary Aldridge. OMB did not publish a rating of the Missile 
Defense Agency programs in the fiscal year 2003 President's budget.

         MATURE TECHNOLOGIES AND CAPABILITIES-BASED ASSESSMENTS

    26. Senator Akaka. Secretary Aldridge, my understanding of your 
``capabilities-based'' methodology is that once you have considered all 
mature technologies that can be used in a missile defense system, you 
will determine the military application of each capability. Have you 
completed a survey of all mature technologies to determine what 
capabilities exist and how do you define a mature technology?
    Secretary Aldridge. MDA continuously monitors and assesses 
technology developments to identify new and maturing opportunities that 
could materially improve the capability of the BMDS. This is not a one-
time or episodic process.
    MDA is in the process of refining a technology maturity evaluation 
process for the BMDS program. This process is being patterned after 
NASA's Technology Readiness Levels (TRL) and the DOD 5000.2-R 
acquisition regulation.

          DIRECTOR OF OPERATIONAL TESTING AND EVALUATION ROLE

    27. Senator Akaka. Mr. Christie, the administration has given the 
Director of Operational Testing and Evaluation a role in determining 
whether or not missile defense programs are functioning properly with 
the major industry contractors involved in developing the program. In 
addition, the Secretary proposes establishing ``National Industry 
Teams'' through transactions other than contracts, grants, and 
cooperative agreements to carry out basic, applied, and advanced 
research. If these transactions are outside of the authority of the 
Federal Acquisition Regulation, what oversight will anyone have over 
the contractors?
    Mr. Christie. We have not had access to details on the roles and 
responsibilities of the ``National Industry Teams,'' and, thus, are 
unable to address this question explicitly. If the intent of the teams 
is to perform basic, applied, and advanced research, then the Services' 
R&D laboratories or national FFRDCs are the right organizations to 
provide oversight. Even if these efforts were funded by traditional 
contracts, DOT&E does not have adequate resources to evaluate the 
delivery of research products unless they are incorporated into a 
system concept with mission requirements and measurable performance 
characteristics.

    28. Senator Akaka. Mr. Christie, the Secretary's January 2, 2002, 
memorandum directs the Under Secretary of Defense, Acquisition, 
Technology, and Logistics, to base production decisions on initial 
performance demonstrated through credible testing, availability of 
system alternatives, and threat evolution. Secretary Aldridge stated 
that the initial performance decision on which production decisions 
would be based would come during the developmental testing phase. If 
that is the case, then by definition some initial deployment decisions 
would be made during the developmental testing phase. In that 
situation, why aren't you involved at an earlier stage in order to 
ensure operational decisions are consonant with performance 
capabilities and if you are not involved, then would deployment 
decisions be made based on the developmental testing phase with no 
assessment by you of the adequacy of the performance criteria in 
meeting the capabilities based design?
    Mr. Christie. Production decisions have historically been tied to 
demonstrations of operational effectiveness and suitability through 
operational test and evaluation. Under the MDA acquisition strategy, 
they will perform ``credible testing'' in order to access an element's 
capability prior to recommending a production decision. DOT&E will have 
insight into this ``credible testing'' through my participation on the 
Missile Defense Support Group. Through this forum, I will offer my 
advice to the Director of the MDA and to the Senior Executive Council 
as to what testing should be performed and whether the testing 
performed adequately demonstrates operational capability consonant with 
the maturity of the element and the magnitude of the production or 
deployment decision.

                       PROGRAM STOPPAGE CRITERIA

    29. Secretary Akaka. General Kadish, in his January 2, 2002 
memorandum, Secretary Rumsfeld directed the Under Secretary of Defense, 
Acquisition, Technology, and Logistics, to plan and execute work such 
that it may be truncated or stopped under certain circumstances. Under 
the capability-based model, when will the criteria for continuing or 
stopping a program be established--before development begins, prior to 
testing, or after completion of testing?
    General Kadish. Under our capability-based approach, we do not plan 
to pre-determine specific criteria for continuing or stopping a 
program. Instead, we will establish metrics by which we will measure 
each element's or concept development's progress. We will use those 
metrics, covering cost, schedule, and progress versus risk, as part of 
our on-going assessment process for the entire BMDS.
    Our recommendation to continue, accelerate, modify, or stop a 
particular element or concept will consider those metrics, but will 
also consider changes to an adversary's potential capability, as well 
as changes in policy, operational considerations, and affordability 
considerations. We will bring our assessment and recommendations to the 
SEC at least annually for their review and approval.

                      TECHNOLOGY READINESS LEVELS

    30. Senator Akaka. General Kadish, the MDA is currently doing a 
technology readiness level assessment of all system elements of 
critical technologies. Standard practice is to not enter into an 
acquisition program for a system until it reaches Technology Readiness 
level (TRL) 7. Generally, system requirements are used in determining 
the level of maturity of the system. How are you determining the TRLs 
for missile defense if operation requirements have been canceled?
    General Kadish. MDA continues to use the DOD approved definitions 
of TRLs. MDA is establishing a detailed checklist to move elements/
components and new technologies from one TRL to the next that focuses 
on whether specific engineering and production milestones have been 
achieved during development in lieu of operational requirements. For 
example, a checklist to determine whether the development of a 
technology has reached TRL 3 could include assessment categories such 
as ``Integration and production issues have begun to be addressed'' and 
``Components of technology have been identified and have been partially 
characterized.''

    31. Senator Akaka. General Kadish, how is the MDA assessing the 
readiness level of the different software components critical to 
missile defense systems? Will MDA's assessment of technical readiness 
levels include as assessment of how well the multiple systems work 
together? How will you address integration concerns?
    General Kadish. MDA assesses software readiness based on 
progressive tests conducted throughout the development cycle. This 
testing is conducted throughout development at the element and 
integrated system level. Thus, MDA's assessment of technology readiness 
levels includes assessments of how well the multiple systems work 
together. MDA's approach to addressing integration concerns is to test 
top-level system performance starting as early as possible with 
software algorithm benchmark and constructive simulations, then 
proceeding through Hardware-in-the-Loop, System Integration Tests, and 
Integrated Flight Tests.

    32. Senator Akaka. General Kadish, one of the significant 
differences between TRL 7 and TRL 8 is that the latter uses an 
operational environment for testing rather than a relevant environment 
that might involve proxies and idealized conditions. How will you be 
able to specify an ``operational environment'' if you have not 
committed to an architecture, quantities, fielding requirements, or 
some expectation of how the system must operate?
    General Kadish. MDA does plan to demonstrate specific sets of 
system capabilities, defined as blocks. Each block configuration of the 
BMD System consists of a number of elements with a range of system 
capabilities, architectures, and operational concepts to guide testing 
of the system capability. These architectures and operational concepts 
will evolve over time and are developed with input from the CINCs and 
Services. As the BMDS evolves and these blocks are defined, appropriate 
operational environments will be developed and instituted within the 
BMD Test Bed, against which each block capability can be demonstrated. 
Tests will consider the operational environment appropriate to each 
block at the time of testing. Full operational testing of the element 
or component capabilities will be conducted prior to transferal to a 
Service for procurement.

                       LOW-EARTH ORBIT SATELLITES

    33. Senator Akaka. General Kadish, a successful missile intercept 
by an NMD exo-atmospheric kill vehicle could result in the detonation 
of the nuclear charge due to salvage fusing. A low-yield (10-20 
kiloton), high altitude (125-500 km) nuclear explosion could disable--
in weeks or months--all low-earth orbit (LEO) satellites not 
specifically hardened to withstand radiation generated by that 
explosion. Is your office working with NASA, Intelsat, NRO, and the 
satellite industry to ensure LEO satellites and the international space 
station would not be affected by a possible nuclear explosion resulting 
from a mid-course interception?
    General Kadish. MDA has met with many organizations, to include 
those mentioned, to discuss the potential effects of exo-atmospheric 
intercepts of ballistic missiles. One of the benefits of a layered 
missile defense system is the potential to intercept ballistic missiles 
in the boost phase, so that the scenario described could be avoided 
altogether.

                          FUTURE CAPABILITIES

    34. Senator Akaka. General Kadish, have you done any preliminary 
engineering studies for the various capabilities you are trying to 
develop, e.g., have you calculated the minimum speed required for an 
ICBM defense interceptor for boost, mid-course, or terminal phase, and 
have you applied these minimum requirements to the systems that you are 
attempting to expand from theater defense to ICBM?
    General Kadish. The Missile Defense Agency has conducted 
engineering studies and architectural trade studies for many years. 
These studies have been instrumental in providing an understanding of 
the major element and component parameters affecting overall system 
performance. Commensurate with a capability-based acquisition approach 
to the BMDS, the MDA will use these results to guide the pursuit and 
selection of concepts, technologies, and solutions to the missile 
defense problem as soon as they become mature enough and provide a 
sufficiently useful military capability to include in the evolving 
system. Existing capabilities for missile defense will be adapted and 
integrated for their inherent capabilities against ballistic missiles 
of all ranges.

    35. Senator Akaka. General Kadish, how much of the theater defense 
system will have to be redesigned to meet the new requirement?
    General Kadish. None of our existing systems must be redesigned. We 
will assess the capability of each element and component to contribute 
to the overall missile defense mission, and accelerate, truncate, 
modify, or initiate efforts to improve our mission capability over time 
based on the maturity and availability of technology to support that 
evolution. This is the basis of the capability-based acquisition 
approach we are applying to missile defense.

                             FUTURE TESTING

    36. Senator Akaka. General Kadish, you have stated that you plan to 
be able to deploy an emergency system in 2004. According to the current 
testing matrix, how many integrated flight tests should be completed by 
then and will any of these tests be in an operational environment?
    General Kadish. We are planning to complete four integrated flight 
tests of the GMD element per year. All testing will develop and 
demonstrate inherent operational capability at increasingly higher 
levels of performance. The location and layout of the BMDS Test Bed has 
been selected in order to simulate as closely as we can an operational 
configuration of sensors, weapons, and BMC3. To the extent that the 
operational environment can be defined today, the MDA is designing and 
using the BMDS Test Bed to represent it and demonstrate system 
capabilities.

    37. Senator Akaka. General Kadish, how realistic will the testing 
conditions, support systems (radars), target cluster, etc., be by then?
    General Kadish. The development of BMDS will proceed on a step-by-
step basis, rigorously demonstrating system capabilities through 
increasingly more realistic testing against a widening variety of 
threats displayed in a variety of relevant operational environments. 
The realism of testing conditions at the BMDS Test Bed for a particular 
stage of block development will pace the evolutionary spiral 
development of the BMDS. As the threat evolves, testing and the 
necessary test infrastructure will be adapted to reflect the need to 
demonstrate capability over a wider threat space. In the end, realism 
would be a factor in the assessment of whether or not an emergency 
system should be deployed. Deployment will depend on specific threats 
and available resources.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

                               SBIRS-LOW

    38. Senator Allard. Secretary Aldridge and General Kadish, both of 
you indicated your belief that SBIRS-Low will be a critical component 
of a missile defense system. At the same time, critics continue to 
question the need for SBIRS-Low and its capabilities. Is there a 
continuing need for the capabilities provided by SBIRS-Low?
    Secretary Aldridge. Yes, there is still a critical need for SBIRS-
Low in the BMDS. Specifically, SBIRS-Low is being designed to:

        <bullet> provide 24/7 global coverage, and bridge gaps in 
        ground-based sensor systems
        <bullet> assure midcourse tracking
        <bullet> discriminate warheads from countermeasures by 
        mitigating the effectiveness of radio frequency (RF) and high 
        traffic countermeasures that negate or seriously challenge 
        radar sensors
        <bullet> mitigate risk to forward-deployed assets

                <bullet> overcomes political sensitivity with regard to 
                basing rights
                <bullet> is less vulnerable to attack

        <bullet> provide vital midcourse signature data to support all 
        ballistic missile defense sensors and interceptors.

    General Kadish. Yes, there is a continuing need for the capability 
provided by SBIRS-Low. SBIRS-Low is intended to provide the BMDS with 
global, continuous (24/7) surveillance and infrared midcourse tracking 
of ballistic missiles. Currently, no other system exists or is planned 
that can ensure this kind of seamless coverage and tracking.
    SBIRS-Low's ability to detect, track, and discriminate lethal 
targets and associated objects in the infrared spectrum complements 
radar performance and protects the BMDS against the effects of radar 
countermeasures. Using its ability to perform these functions over the 
radar's horizon SBIRS-Low extends the BMDS battlespace by providing 
early precision cues to radar and interceptors prior to launch. SBIRS-
Low continues its critical functions, by providing target information 
to the in-flight interceptor and assessing the success of the 
engagement.

    39. Senator Allard. Secretary Aldridge and General Kadish, why is 
the capability provided by SBIRS-Low important?
    Secretary Aldridge. SBIRS-Low is critical to an effective missile 
defense because it is space-based, infrared, and in low earth orbit:

        <bullet> Because it is space-based, SBIRS-Low can continuously 
        monitor all of the earth's surface. This means there will be no 
        blind spots or safe havens from which missiles can be launched 
        without the U.S. detecting them. Earlier tracking allows 
        earlier interceptor commitment and an increased opportunity for 
        multiple engagements. A SBIRS-Low could provide key threat 
        development information from inland test ranges which are 
        currently inaccessible. It also provides the capability to 
        track missiles along their entire trajectory from launch to 
        intercept or reentry regardless of launch point or missile 
        trajectory. No other BMDS sensor provides this capability. The 
        extended viewing times make precise tracking and discrimination 
        techniques possible based on long-term observations such as 
        heating or cooling trends.
        <bullet> Because it employs infrared sensors, SBIRS-Low adds 
        robustness to the BMDS, complementing radar systems in several 
        ways. Compared with radars, infrared sensors can more 
        effectively provide wide area surveillance. Infrared sensors 
        provide a second phenomenology--reducing the effectiveness of 
        radar countermeasures. Because interceptors employ infrared 
        seekers, the target information handover is simplified. A mix 
        of infrared and radar sensor assets provides the ballistic 
        missile command and control (BMC2) with a variety of options to 
        optimize allocation of sensor to target.
        <bullet> Because it maintains a low earth orbit and employs 
        highly sensitive sensors, SBIRS-Low is capable of midcourse 
        tracking and discrimination that can't be done by the Defense 
        Support Program (DSP) or SBIRS-High. SBIRS-Low also simplifies 
        target information handover because it passes target 
        information from the same viewing angles achieved by the 
        interceptor seeker.

    General Kadish. SBIRS-Low is critical to an effective missile 
defense because it provides a continuous capability to do global 
surveillance and midcourse tracking of ballistic missiles.
    Because it is space-based, SBIRS-Low, in sufficient orbiting 
numbers, can continuously monitor the earth's entire surface. This 
means that there will be no blind spots or safe havens from which 
missiles can be launched without detection by the United States. SBIRS-
Low's ability to detect and track targets over the radar's horizon 
provides the BMDS earlier tracking, which allows earlier interceptor 
commitment and an increased opportunity for multiple engagements. 
SBIRS-Low could provide key threat development information from inland 
test ranges that is currently inaccessible. It also provides the 
capability to track missiles along their entire trajectory from launch 
to intercept or reentry regardless of launch point or missile 
trajectory. No other BMDS sensor provides this capability. The extended 
viewing times make precise tracking and discrimination techniques 
possible based on long-term observations such as heating or cooling 
trends.
    Because it employs infrared sensors, SBIRS-Low increases the 
probability of BMDS engagement's success and complements radar systems 
in several ways. Compared with radars, infrared sensors can more 
effectively provide wide area surveillance. Infrared sensors provide a 
second phenomenology--reducing the effectiveness of radar 
countermeasures. Because interceptors employ infrared seekers, the 
Target Object Map (TOM) handover is simplified. A mix of infrared and 
radar sensor assets provides the BMC2 with a variety of options to 
optimize allocation of sensor to target.
    Because it maintains a low earth orbit similar to the viewing 
geometry of the kill vehicle sensor and employs highly sensitive 
sensors, SBIRS-Low is capable of midcourse tracking and discrimination 
that cannot be done by DSP or SBIRS-High.

    40. Senator Allard. Secretary Aldridge and General Kadish, can 
other systems provide the same or better capabilities as SBIRS-Low?
    Secretary Aldridge. Not entirely. While large, land-based X-Band 
radars placed at strategic locations around the world could provide 
much of the coverage, they would not provide the total coverage 
required for an effective BMDS. SBIRS-Low will be able to view missiles 
launched anywhere on the globe without any dependency on foreign 
basing, thus reducing the sensors' vulnerability to direct attack and 
mitigating the geographic viewing limitations of surface-based radars. 
That is precisely why the SBIRS-Low capability is key to an effective, 
reliable sensor suite. In addition, a balanced infrared and radar 
sensor suite mitigates the effectiveness of adversary countermeasures 
against the BMDS. Complementary sensors based on different 
methodologies (i.e., radar and infrared) create a capability that is 
highly effective against a wide variety of countermeasures.
    General Kadish. No single sensor alternative can replace a space-
based infrared sensor for global, continuous surveillance and infrared 
tracking capabilities.

              HIT TO KILL AND DIRECTED ENERGY TECHNOLOGIES

    41. Senator Allard. General Kadish, with the termination of the 
space based laser integrated flight experiment, the Airborne Laser is 
the only major laser technology development effort being pursued by the 
MDA. Is it your view that laser or other directed energy weapons 
represent the next generation of missile defense technology after 
``hit-to-kill?''
    General Kadish. Directed energy technology may be the next 
generation of missile defense technology. Clearly, we are pursuing 
relatively mature ``hit-to-kill'' technologies because we believe they 
can contribute capability during the midcourse and terminal phases of a 
ballistic missile's flight. Intercepting missiles during their boosting 
phase has many advantages. Unfortunately, the short burn times for many 
of the threat missiles make it difficult for a ``hit-to-kill'' vehicle 
to reach the target while it is boosting. The short time lines and 
accessibility to the launch regions make the ABL and the Space Based 
Laser (SBL) directed energy concepts attractive for boost phase 
defense. We are exploring these technologies to add to the missile 
defense system.

    42. Senator Allard. General Kadish, are directed energy 
technologies mature enough and promising enough to warrant greater MDA 
focus?
    General Kadish. MDA is interested in directed energy technologies 
for missile defense. Several demonstrations in the past (e.g., the 
Airborne Laser Laboratory (ALL) and the Theater High Energy Laser 
(THEL)) lead us to believe directed energy technologies may soon be 
available to contribute useful capability to the BMDS. The MDA budget 
submittal for fiscal year 2002 contained a large increase in funding 
for directed energy technologies such as the ABL and SBL. Unfortunately 
due to the reduced fiscal year 2002 funding for the SBL flight 
experiment, we have had to restructure the SBL from a flight experiment 
project to a component technology project.

    43. Senator Allard. General Kadish, what role does the MDA 
anticipate playing in the development of directed energy technologies?
    General Kadish. MDA and its predecessor organizations, SDIO and 
BMDO, have a long history of funding and managing directed energy 
technology development projects. Unfortunately, funding limitations and 
changing mission priorities caused us in the mid-1990s to select the 
SBL as our sole investment. However, due to the reduced fiscal year 
2002 funding for the SBL flight experiment, MDA has had to restructure 
the SBL from a flight experiment project to a component technology 
project. The ABL was added to MDA funding and management 
responsibilities during the past year. MDA is committed to the flight 
of the first aircraft and to the first lethal shoot down of a missile 
target. MDA will remain involved in defining, guiding, and setting 
priorities for the Department's directed energy technology projects.

         NUNN-MCCURDY AND MDA RESEARCH AND DEVELOPMENT CRITERIA

    44. Senator Allard. Secretary Aldridge and General Kadish, you 
indicated during your testimony that the Nunn-McCurdy law would not 
apply to the MDA's research and development efforts. At the same time, 
you clearly indicate the intent to continue successful technology 
developments and turn off those efforts that do not live up to 
expectations. What criteria will the MDA use in determining which 
technology efforts to continue, which to discontinue, and will these 
criteria be formalized in any way?
    Secretary Aldridge. Each of the BMDS elements, and the overall 
program, will be managed by Missile Defense Agency using internal 
baselines. Progress of each development activity will be monitored 
against its baseline to show how each element and its technology 
efforts are progressing relative to expectations. Periodic reviews will 
focus on the progress of each effort and produce recommendations that 
an effort be continued, accelerated or terminated. The metrics for such 
a recommendation will consider cost, schedule progress, technology 
maturity and risk. The Director of the MDA will make any such 
recommendation to the Senior Executive Council at least annually.
    General Kadish. Under our capability-based approach for acquisition 
we are establishing metrics by which we will measure each element's or 
concept development's progress. Those metrics, covering cost, schedule, 
and progress versus risk, are a part of our ongoing assessment process 
for the entire BMDS.
    We still use internal baselines for measuring element and 
aggregated system progress. We will maintain visibility and controls to 
adjust, stop, slow, or accelerate a program based on routine 
assessment. This is similar to how we have supported such decisions in 
the past.
    Our recommendations will also consider changes to an adversary's 
potential capability, as well as changes in policy, operational 
considerations, and affordability considerations. We will bring our 
assessment and recommendations to the SEC at least annually for their 
review and approval.

    [Whereupon, at 4:25 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                       WEDNESDAY, MARCH 20, 2002

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.

  NATIONAL SECURITY SPACE PROGRAMS AND STRATEGIC PROGRAMS AND SYSTEMS

    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed, Bill Nelson, E. 
Benjamin Nelson, Inhofe, Allard, and Sessions.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Kenneth M. Crosswait, professional staff member.
    Minority staff members present: L. David Cherington, 
minority counsel; Brian R. Green and Thomas L. MacKenzie, 
professional staff members.
    Staff assistants present: Andrew Kent and Thomas C. Moore.
    Committee members' assistants present: Erik Raven, 
assistant to Senator Byrd; Elizabeth King, assistant to Senator 
Reed; Richard Kessler, assistant to Senator Akaka; Eric Pierce, 
assistant to Senator Ben Nelson; John A. Bonsell, assistant to 
Senator Inhofe; and Douglas Flanders, assistant to Senator 
Allard.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Let me call the hearing to order and welcome 
both Secretary Teets and General Eberhart as well as my 
colleagues Senator Inhofe and Senator Nelson. Senator Allard 
will join us momentarily.
    The Strategic Subcommittee meets this afternoon to discuss 
national security space programs and strategic programs. We 
have two panels today. On the first panel, we will discuss 
space programs and issues with Gen. Ralph Eberhart, the 
Commander in Chief of U.S. Space Command, and Peter Teets, the 
Under Secretary of the Air Force and Director of the National 
Reconnaissance Office (NRO). On the second panel we will 
discuss strategic systems and issues with Adm. James Ellis, the 
Commander in Chief of U.S. Strategic Command. Admiral Ellis 
will be accompanied by Maj. Gen. Franklin Blaisdell and Rear 
Adm. Dennis Dwyer.
    We have a lot to cover this afternoon, particularly in the 
area of space programs. The Defense Department's space 
satellites provide our Nation's military with precise guidance 
for our weapons, navigation for our troops, sophisticated 
intelligence, and other critical data. Given the importance of 
space to our current and future military operations, it is 
troubling that a number of our major space acquisition programs 
have cost and schedule concerns.
    Lt. Gen. Brian Arnold, the new commander of the Air Force's 
Space and Missile Systems Center, was recently quoted as 
saying: ``In virtually every one of our major space programs, 
we are out of control on cost and schedule.'' Unfortunately, 
basic problems with the way some space programs are managed 
appear to have contributed to these cost and schedule problems.
    Against this backdrop, the Pentagon has begun a major 
overhaul in how it manages and oversees its space programs. It 
has delegated much of the oversight for both Air Force and NRO 
space programs to the Under Secretary of the Air Force. While 
this may help coordinate the space efforts of these two 
organizations, which I support, I am concerned that the 
historical oversight provided by the Office of the Secretary of 
Defense (OSD) for Air Force space programs may not be as strong 
as it should be. The inherent jointness of all space programs 
and the current problems with these programs argue for 
stronger, not weaker, oversight by the OSD.
    In addition, a certain level of oversight is required by 
law for all major defense acquisition programs, including space 
programs.
    Today we will discuss how the Defense Department plans on 
providing oversight for its space programs, as well as look at 
some of the specific programs that have run into trouble as 
well as the Department's actions to implement the 
recommendations of the Space Commission's report.
    Now I would like to recognize the ranking member, Senator 
Allard. Senator.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman. I also would like 
to welcome our witnesses today.
    Today we have the challenging task of reviewing the full 
range of policies, programs, and budget requests for space and 
strategic systems. Both of these areas have been marked by 
controversy and change in the recent past. Today I believe 
everyone recognizes that space is becoming more and more 
important to our military and indeed to the well-being and 
prosperity of all Americans. Navigation, weather, 
communication, and imagery satellites enable the full range of 
modern military capabilities that allow our forces to 
thoroughly dominate the modern battlefield.
    Yet, with this increasing significance, we must pay 
attention to the safety and security of our Nation's space 
assets and our ability as a Nation to sustain these 
capabilities in the near term and expand them in the future. We 
have serious reason to be concerned. First, U.S. space assets 
are increasingly vulnerable to attack. Director of the Central 
Intelligence Agency (CIA) George Tenet, and Vice Adm. Thomas 
Wilson, Director of the Defense Intelligence Agency (DIA), 
testified just yesterday before the full committee that a 
number of nations and non-state entities are developing the 
means to disrupt, degrade, or defeat U.S. space systems.
    Our increasing reliance on space-based capabilities makes 
these vulnerabilities all the more disturbing. Indeed, the 
Space Commission chaired by now-Secretary of Defense Rumsfeld 
noted that we are ripe for a ``space Pearl Harbor.''
    Second, space programs have not had a stellar management 
record in the recent past. Key programs such as the Space-Based 
Infrared Systems (SBIRS)-High early warning satellite system 
have suffered developmental difficulties, schedule delays, and 
cost increases. Yet, the requirements for these programs remain 
compelling and I am not aware of viable alternatives to meet 
these requirements.
    Third, while senior DOD leaders have identified space 
capabilities that could transform how our military fights, I am 
not yet convinced that the Department has fully embraced these 
efforts or that congressional critics of space programs are 
ready to fully support them. For example, the Air Force 
supports a transformational communications architecture that 
could allow much more efficient use of communications 
satellites and greatly increase communications bandwidth. But I 
am concerned that this new architecture is not well understood 
and could have a ripple effect on communications satellites now 
being developed.
    Space-Based Radar (SBR) and the Spare-Based Infrared System 
(SBIRS)-Low are both systems that promise tremendous new 
capabilities and are strongly supported by our military 
leaders. Last week, in fact, Secretary Aldridge, General 
Kadish, and General Eberhart all endorsed SBIRS-Low as an 
important priority. But congressional support for these key 
efforts has been problematic.
    Fourth, organization and management processes are going 
through a period of substantial change. On the one hand, I 
applaud the initiatives to correct poor management of the space 
programs in the past. On the other hand, we all need to be 
concerned during any period of change that these changes are 
responsive to past problems and effective in correcting them. 
Any time bureaucratic interests are challenged during a 
reorganization, good intentions can be derailed both subtly and 
quickly.
    Likewise, how we think about strategic systems is changing 
dramatically. The Nuclear Posture Review (NPR) released in 
January is a truly radical document. It addresses the 
tremendous changes in the international security environment 
over the past decade by reformulating the nuclear triad into a 
new triad that includes not only nuclear forces, but precision 
conventional munitions, active and passive defenses, and the 
defense industrial infrastructure.
    This formulation represents a fundamental shift in how we 
look at strategic issues, a significant step away from mutually 
assured destruction (MAD), less reliance on nuclear weapons, 
increasing reliance on missile defenses, and a range of options 
to deal with a range of threats to and attacks on the United 
States and its forces and interests by any of a number of 
potential adversaries.
    This dramatic reformulation brings with it new questions 
about the role of Strategic Command, the role of nuclear 
weapons, and Strategic Command requirements. These questions I 
think were inevitable, given how much the world has changed 
since the end of the Cold War. But the NPR has brought them 
into sharp focus, and today's hearing will provide us some 
opportunity to address them.
    We are fortunate to have Under Secretary Teets and General 
Eberhart for the space panel and shortly thereafter Admiral 
Ellis, Major General Blaisdell, and Rear Admiral Dwyer for the 
strategic panel to talk about these critical issues.
    Again, I thank each and every one of you for taking the 
time out of your busy schedules to join us today and I look 
forward to your testimony.
    Senator Reed. Thank you, Senator Allard.
    Senator Nelson, do you have a statement?
    Senator Ben Nelson. Yes. Thank you, Mr. Chairman. I too 
want to thank both panels of witnesses for appearing here today 
to discuss our nuclear security, space, and strategic programs. 
I especially would like to thank Admiral Ellis from Offutt Air 
Force Base, Strategic Command, in Nebraska for being here 
today. General Eberhart, I very much appreciate the opportunity 
to visit with you today about space assets.
    This year we are again trying to determine whether the 
budget provides enough for our strategic policy and protection. 
There is also added concern because we realize that we are no 
longer, if we ever were, a fortress that cannot be penetrated. 
With the limited resources and the prioritization that have to 
go on, we must, in fact, raise questions.
    But some of our adversaries continue to pursue nuclear 
technology and, if gained, will not hesitate to use it. Saddam 
Hussein has stated that as long as other countries possess 
ballistic missiles he is going to continue to attempt to gain 
the same leverage. So it is imperative that our expenditures 
are both cost effective and are carefully allocated so our 
children and grandchildren can enjoy the same sense of security 
that we have enjoyed in the past and look forward to having in 
the future.
    So I look forward to hearing your testimony, your comments, 
and the opportunity to raise some questions as we go along. 
Thank you very much.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Nelson.
    Senator Inhofe.
    Senator Inhofe. Mr. Chairman, I do not have an opening 
statement, but I agree with what Senator Nelson said in his 
remarks. Saddam Hussein also said that at the end of the 
Persian Gulf War, if we had waited 10 years to go into Kuwait 
the Americans would not have done what they did because he 
would have a missile that could reach them. Here it is, 10 
years later.
    So I want to get into a line of questioning as to the 
immediacy of threats and where they are, as much as we can do 
it in an open session like this.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Inhofe.
    General Eberhart, we will begin with you and then we will 
turn to Under Secretary Teets for his opening statement. Both 
of you have submitted prepared statements. Both will be 
included in the record, and you may summarize as you wish.
    General Eberhart.

STATEMENT OF GEN. RALPH E. EBERHART, USAF, COMMANDER IN CHIEF, 
                  UNITED STATES SPACE COMMAND

    General Eberhart. Thank you, Mr. Chairman. It is indeed a 
pleasure to be back with this subcommittee. It is also a 
pleasure to represent the wonderful young men and women in the 
North American Aerospace Defense Command (NORAD), U.S. Space 
Command, and Air Force Space Command. They are doing remarkable 
things in both Operation Noble Eagle and Operation Enduring 
Freedom.
    When I talk of these individuals, I am talking about a 
truly joint combined team of Canadians and Americans, soldiers, 
sailors, airmen, marines, civilians, and our contractors, all 
doing what is necessary to make sure we succeed in these very 
important mission areas.
    In Operation Noble Eagle, to date, we have flown over 
19,000 sorties in support of Operation Noble Eagle, making sure 
it is safe for people to fly in our airspace. We have done this 
without incident or accident, which speaks to the 
professionalism and the skill of those aviators--once again, 
they are aviators of all Services--and to those who generate 
the sorties, maintain the aircraft, and make it possible for 
them to fly.
    I would also offer that we have achieved a new level of 
jointness in this operation, also reflected in Operation 
Enduring Freedom. But this one is special in terms of the 
cooperation that exists between the Services and the FAA, 
Customs, the Coast Guard, and other law enforcement agencies. 
This is a sense of jointness that we must continue to cultivate 
as we move ahead in terms of homeland security.
    We have flown over 19,000 sorties, at a cost on the order 
of $500 million. I think that we have done this very 
professionally. It has served its purpose, but in the long run 
this is not the right way to work this problem. The right way 
to work this problem begins right on the ground. It begins 
right at our airports, our airfields, in terms of improved 
security, the steps that we have already taken, the steps that 
we are committed to take in the future.
    It is also in improved security on board our aircraft in 
terms of air marshals, in terms of briefings to crews to 
actively resist, in terms of cockpit doors that are secure and 
cannot be penetrated by a terrorist, in terms of improved 
cooperation, as I said, with the FAA, so that when there is an 
anomaly, it is immediately shared with NORAD and collectively 
we take the appropriate action. It is also the ability for 
NORAD now to not just look out for external threats, but also 
have a radar picture so we can see threats in the internal, the 
interior of the United States. We are working that connectivity 
as we speak. So that is the way to work this problem in the 
longer term.
    Let us now turn to what we are doing in terms of Operation 
Enduring Freedom to support Gen. Tommy Franks and those brave 
young men and women who go in harm's way. Our primary 
contribution has been in the mission area of force enhancement. 
We do things like improve satellite communications. To give you 
a feel for how far we have come since Operation Desert Storm, 
we are providing Tommy Franks today about seven times the 
bandwidth that was available to General Schwarzkopf in 
Operation Desert Storm, seven times.
    So that allows you to do a lot of things through reachback, 
that cuts down on your footprint in the theater. If you look at 
people deployed in this conflict versus Operation Desert Storm, 
there is about 322 times as much bandwidth available per person 
deployed--that's very impressive.
    So we must stay the course in terms of the Advanced EHF, 
the wideband gap-filler, and the UHF capability for our mobile 
users. I believe that that is a good investment in terms of 
situational awareness, command and control, and in terms of the 
effectiveness, efficiency, and lethality of our forces.
    We provide weather support. We provide updated weather 
information. We do that essentially on the half hour, as 
opposed to in the past where we would have done it on the hour 
for General Franks and his folks. So not only observations, but 
forecasts, and also space weather and what effect that space 
weather might have on their operations. In most cases we are 
referring to their communications capabilities.
    Next, missile warning. We do this through the Defense 
Support Program (DSP). Thank goodness we have not had to call a 
missile shot to Tommy Franks or his forces, but we are watching 
closely to make sure the enemy has not launched a Scud or 
similar type short-range ballistic missile.
    We also use this DSP for battlespace characterization, so 
we can essentially do some combat assessment, and some bomb 
damage assessment, using this system. Bright young men and 
women out there have figured out how to use a system that was 
designed to detect ICBM launches in these and other exciting 
ways.
    That is why we need the Space-Based Infrared System 
referred to by Senator Allard. That is so very important, not 
only for the national mission, but also for operational and 
tactical levels of warfare, to support all warfighters 
regardless of the medium in which they fight.
    Finally, in terms of computer network operations, we 
immediately went to Information Condition (INFOCON) Alpha, 
which I believe paid off in terms of securing our networks. I 
believe it also sent a valuable message in terms of deterrence. 
We actually saw for the first few months after this horrific 
event on September 11 that the number of attempted probes 
actually dropped by half. I think that is for several reasons. 
I think, one, because we went to INFOCON Alpha. I also believe 
that it was not patriotic at that time to try to hack into our 
system. I also believe that offshore hackers knew we were mad 
and decided not to test us during this period of time. I am sad 
to report that those probes have now returned to the level that 
we saw before September 11.
    So in summary, your air and space warriors out there of all 
Services, to include our very important civilian complement, 
are working hard to ensure that we succeed in both Operation 
Noble Eagle and Operation Enduring Freedom. On their behalf, I 
thank this subcommittee for your continued support over the 
years, but more importantly for what you will do for us in the 
future.
    Thank you.
    [The prepared statement of General Eberhart follows:]

           Prepared Statement by Gen. Ralph E. Eberhart, USAF

    Mr. Chairman and members of the subcommittee:
    Thank you for this opportunity to appear before you today 
representing the outstanding men and women of North American Aerospace 
Defense Command (NORAD) and United States Space Command (USSPACECOM). 
The soldiers, sailors, airmen, marines, civilians, reservists, and 
guardsmen serving in NORAD and USSPACECOM have been instrumental in our 
success to defend the homeland and attack terrorist factions in the 
global war on terrorism. At home or abroad, the commitment of our 
Service men and women to the Nation's security has been nothing less 
than phenomenal.

                    PEOPLE--OUR NUMBER ONE PRIORITY

    Our first priority is our people. Our warfighting edge depends on 
the dedication, professionalism, and sacrifice of the men and women in 
our Commands. Without them, even our most effective weapon systems are 
of little value. As always, we need to continue to recruit, retain, 
equip, and train our entire force.
    We appreciate the critical role the members of this subcommittee 
have played to improve their quality of life. The Fiscal Year 2002 
National Defense Authorization Act reflected the country's confidence 
in and concern for the men and women who serve in our Armed Forces. Our 
people have heard your message and are grateful for your actions. This 
year's Defense Authorization Act provides many important quality of 
life improvements such as needed pay raises, more robust health 
benefits, improved housing benefits (better on-base housing and 
increased off-base housing allowance), and greater educational 
opportunities. All of these are key to helping us retain and recruit 
the quality force our Nation needs.
    The men and women of our Commands serve in virtually every location 
where U.S. and allied forces operate. To the best of our ability, we 
are safeguarding our people and facilities by continuing to conduct 
regular anti-terrorism training, assess and correct our own 
vulnerabilities, and educate our people to be constantly on guard. We 
do not view force protection as a mission unto itself, but inherent in 
all we do.

                                 NORAD

    For 44 years, NORAD has adapted to the changing threats by 
transitioning from an initial ``air'' defense orientation to a broader 
``aerospace'' dimension--one that also provides surveillance and 
warning of ballistic missile attacks and space events. Our ability to 
provide surveillance and control of U.S. and Canadian airspace remains 
vital and constitutes a critical component to the defense of North 
America. The unprecedented attacks on September 11, 2001 were a 
reminder to the United States of the need to detect, assess, and warn 
of hostile aircraft or missile attack against North America.
    Operation Noble Eagle (ONE). Prior to September 11, 2001, our air 
defense posture was aligned to counter the perceived external threats 
to North America air sovereignty--we considered flights originating 
domestically as ``friendly by origin.'' Within this context, our 
aerospace warning and control missions were oriented to detect and 
identify all air traffic entering North American airspace, and if 
necessary, intercept potentially threatening inbound aircraft. In 
response to the attacks on September 11, 2001, NORAD's mission has 
expanded to protect North America against domestic airborne threats.
    On September 11, 2001, we quickly transitioned to an interoperable, 
joint, and interagency force consisting of active, Reserve, and 
National Guard units, and U.S./Canadian military aircraft and naval 
vessels. Over 13,000 men and women are participating in ONE activities 
on a day-to-day basis. For the first time in NATO's history, Article V 
of the North Atlantic Treaty was invoked in defense of the U.S. 
homeland. As a result, seven NATO Airborne Early Warning aircraft and 
nearly 200 people from 13 nations are serving side-by-side with our 
forces to ensure the safety of our citizens.
    NORAD forces remain at a heightened readiness level to counter 
potential threats. In all, over 19,000 sorties have been flown over the 
U.S. and Canada in support of ONE. By contrast, only 147 sorties were 
flown as part of the NORAD air defense mission during all of 2000. To 
the credit of the outstanding men and women involved in this critical 
homeland defense mission, all sorties to date have been executed 
without a mishap. Our success is the result of the professionalism of 
our people and cooperation between the U.S. and Canada.
    In addition, we have partnered with the Federal Aviation 
Administration (FAA) and NAVCANADA to streamline notification between 
regional and sector operations centers, to improve communications 
connectivity, and to deploy additional portable radars in ``blind 
spots'' across the country for better interior coverage. The result is 
a more rapid, reliable response to FAA requests for assistance as 
incidents unfold. With the approval of the President and Secretary of 
Defense, we have also developed effective rules of engagement for 
hostile acts over domestic airspace to ensure the safety of our 
citizens and the protection of critical infrastructure.
    We continue to improve our procedures and coordination with the 
Office of Homeland Security, the FAA, civilian law enforcement 
organizations, and other government agencies from the U.S. and Canada. 
Feedback regarding our air defense support to National Security Special 
Events such as the Super Bowl and 2002 Winter Olympics has been very 
positive.
    We are heartened by the progress made to improve security at our 
airports and aboard aircraft. Measures such as new passenger and 
baggage screening procedures, heightened terminal security, hardened 
cockpits, and more air marshals are our first, and best, defense. This 
increased vigilance should deter foul play on the ground and reduce the 
need to commit fighters in the air. We believe our NORAD air defense 
capabilities are the last line of defense; when NORAD interceptors are 
called to action, we are exercising the Nation's option of last 
recourse. This progress made to secure our airports, aircrews, and 
aircraft has made flying in the U.S. and Canada safer than at any time 
in aviation history.
    Low-Altitude Air Threat. In addition to traditional air defense 
threats, we need the capability to defend North America against low-
altitude, air-breathing threats such as cruise missiles, crop dusters, 
and general aviation traffic traveling below 5,000 feet. This is a 
significant challenge in congested population areas due to volume of 
air traffic, as well as the northern regions in which general aviation 
serves as the primary means of travel between remote communities. We 
advocate a three-pronged approach to counter this evolving threat. 
First, through the efforts of the North American Aerospace Surveillance 
Council, we will continue to improve our wide-area surveillance around 
the perimeter and internal regions of North America. Our goal is to 
provide a single, integrated air picture of North America that is made 
available to NORAD, FAA, NAVCANADA, and other government agencies. 
Second, we will support an Advanced Concept Technology Demonstration to 
assess alternative surveillance technologies that can support this 
goal. Finally, we will leverage law enforcement initiatives related to 
general aviation (specifically for indications and warning of potential 
incidents), emerging command and control capabilities, and other 
research and development efforts.
    Resources. We appreciate your quick passage of the Defense 
Emergency Response Fund. As a result, we have been able to address 
several critical command and control shortcomings highlighted by the 
terrorist attacks. Specifically, we are upgrading our Battle Control 
System from vintage 1970s technology to enable us to provide real-time 
display of North American airspace, and provide effective command and 
control of our air defense aircraft. Additionally, we will be able to 
tap into a more extensive array of radars and sensors, process data 
more timely and accurately, and monitor a larger number of aircraft 
across a broader area, which will improve our situational awareness at 
all levels. In the long term, we remain committed to the sustainment 
and modernization of our air defense command and control 
infrastructure.
    Homeland Security. We remain engaged as the DOD explores options 
for the formation of a new command for homeland security. Our focus is 
to maintain current readiness and meet the requirements of this vital 
mission, regardless of the command option selected.

                               USSPACECOM

    Established in 1985, USSPACECOM is charged with the missions of 
force enhancement, space control, space support, planning for force 
application, and most recently, the DOD's computer network operations. 
While we prosecute the war on terrorism, the decisive advantage space 
and information-based capabilities provide to our warfighters will 
continue to be critical to our Nation's success.
    Operation Enduring Freedom (OEF). We continue to bring every space 
and information operations (IO) capability to bear for General Tommy 
Franks at CENTCOM and the other Combatant Commanders. Currently, we 
have people deployed in support of OEF to include a robust Space and 
Information Operations Element (SIOE) forward at the CENTCOM 
Headquarters. In addition, we are leveraging an SIOE reachback 
capability at Peterson AFB to provide additional space and IO expertise 
and planning support to CENTCOM and the other Combatant Commanders in 
support of the global war on terrorism.
    Force Enhancement. Our force enhancement efforts over the past 
decade have helped us integrate space into joint and coalition 
operations. OEF has illustrated again the effectiveness of, as well as 
our reliance on, these systems.
    Over 50 percent of the precision-guided munitions employed in OEF 
are Joint Direct Attack Munitions, guided by Global Positioning System 
(GPS). The all-weather, day-night accuracy of these weapons gives our 
warfighters a decisive advantage. Similarly, GPS has become a necessity 
for civil authorities and commercial industry around the world. From 
precision farming to financial transactions to surveying remote parts 
of the earth's surface, every sector of our society relies on the 
navigation and timing services provided by this system. As a result, we 
have initiated a modernization program to provide a more robust anti-
jam capability for our military forces, and additional signals for 
civil and commercial applications. We appreciate Congress' continued 
support to properly sustain and modernize this national resource.
    Missile warning continues to be one of our top priorities. The 
Defense Support Program (DSP) has served as our mainstay for strategic 
missile warning for over three decades. Through innovative 
improvements, we have successfully fielded new theater missile warning 
and battlespace characterization capabilities to provide direct support 
to theater commanders and deployed forces. While DSP has served us 
well, we need the improved detection capabilities of the Space-Based 
Infrared System (SBIRS) to counter emerging strategic and theater 
ballistic missile threats. The SBIRS system-of-systems will be 
essential to our future early warning and space surveillance 
capabilities, ballistic missile defense systems, and will provide 
commanders better battlefield situational awareness. We are aware of 
the SBIRS acquisition difficulties. However, the Joint Requirements 
Oversight Council's revalidation of our warfighter requirements in 
January 2002 reconfirmed the urgency to develop and field this critical 
capability. Reliable and secure satellite communications (SATCOM) 
systems are also vital to our military's readiness. In OEF, we are 
providing 322 times the communications bandwidth per person deployed 
compared to Operation Desert Storm a little over a decade ago. This 
exponential growth reaffirms our need to modernize our capabilities 
with a blend of military, civil, and commercial systems.
    Computer Network Operations. On April 2, 2001, we activated the 
Joint Task Force-Computer Network Operations (JTF-CNO) to better align 
our computer network defense and attack missions and improve unity of 
command. In addition, the JTF-CNO makes more efficient use of available 
resources, establishes a clear cross-agency coordination process, and 
eases integration with the intelligence community and other mission 
partners. Computer Network Defense continues to be our top priority, 
with the goal to ensure stable, effective networks for the Department 
of Defense. Our experience with the Code Red Worm and its variants 
underscored our reliance on Internet connectivity and the vulnerability 
of our gateways. While the effects of many viruses and intrusions 
caused considerable damage to the commercial sector, we have been able 
to keep our networks operating at peak performance. In OEF, we have 
sustained proactive defensive postures based on potential threats, 
verified Information Assurance Vulnerability Assessment compliance, and 
maintained heightened operational security levels. For the long term, 
we are assessing technical and operational solutions to further 
strengthen the Defense Information Infrastructure and develop computer 
network attack capabilities for all our warfighters.
    Space Control. The political, economic, and military value of space 
systems makes them attractive targets for state and non-state actors 
hostile to the U.S. and its interests, especially as an asymmetric 
method for leveling the playing field. Not only are threats emerging on 
a daily basis, but access to advanced commercial space services 
continues to chip away at our information superiority edge.
    In response, our first priority should be to field effective space 
situational awareness capabilities that enable us to identify, track, 
and characterize potentially hostile threats. We must understand 
potential adversaries' intent and be capable of warning of hostile acts 
before they occur. We will also need to develop new capabilities for 
operations through, to, from, and in space. Along with increased 
vigilance on our part, these efforts will serve as a deterrent to 
would-be attackers.
    Space Support. The path for Evolved Expendable Launch Vehicles 
(EELVs) is clear as we prepare for the first commercial launches of the 
Atlas V in May 2002 and the Delta IV in July 2002. Our first DOD EELV 
launch is scheduled for September 2002. By contrast, we still have much 
work to do to determine our long-term strategy and the investments 
needed for Reusable Launch Vehicles (RLVs). We are partnering with the 
Air Force and National Aeronautics and Space Administration (NASA) to 
develop an RLV Roadmap that will be released within the next few 
months. We are excited about the potential military application of RLVs 
and believe early missions could include satellite reconstitution, 
refueling, and intelligence, surveillance, and reconnaissance. RLVs 
hold tremendous promise as we strive to better meet warfighter needs by 
providing a ``launch on demand'' capability in the future.
    Space-Based Radar (SBR). The requirement for a SBR capability 
remains valid. Our military operations require the day-night, all 
weather, broad-area surveillance capabilities a SBR system offers. In 
response to the Fiscal Year 2001 DOD Authorization Conference Report, 
the Deputy Secretary of Defense has recently signed a multi-service, 
multi-agency SBR roadmap, which brings together requirements for DOD 
and national users. As part of the SBR roadmap implementation, we are 
involved in an analysis of alternatives to allow DOD leadership to make 
SBR decisions as we consider other intelligence, surveillance, and 
reconnaissance needs.
    Radio Frequency Spectrum. Access to the radio frequency spectrum is 
considered essential to our success in all future military operations. 
We depend on the 1755-1850 MHz band to perform a host of critical DOD 
command, control, and communications functions, as well as to operate 
many of our military satellites. It is also the preferred operating 
band of the U.S.-based communications industry as they develop the 
third generation wireless services. Without question, limiting our 
access to this band or forcing our move to another band could have 
serious consequences in terms of combat capability. We need to achieve 
the right ``win-win'' solution and will continue to work with all 
parties to find the best answer to this challenge. We ask for your 
support to protect the spectrum needed to execute critical warfighting 
missions.
    Space Commission. We continue with implementation of the Space 
Commission Report recommendations. Specifically, we are preparing for 
the split off of Air Force Space Command from NORAD and USSPACECOM on 
April 19, 2002. We believe the changes being made will help ensure our 
military and national space communities are ready to meet the 
challenges ahead.
    Partnerships. Effective partnerships across the entire space and 
information communities--military, intelligence, civil, and industry--
are essential to better leverage our space and information 
capabilities. We continue to work with the NRO, National Imagery and 
Mapping Agency (NIMA), and National Security Agency (NSA) to seek new 
avenues to improve support to warfighters and national decisionmakers. 
In addition, we are working with the NASA to explore common space 
systems, increase our space surveillance capability, and improve human 
spaceflight safety. Finally, through our partnerships with other 
agencies, we are investigating ways to collectively support our 
computer network operations mission.
    We need to balance the advantages of commercial partnerships with 
the inherent risks associated with expanding our use of commercial 
systems. We do this by assessing our vulnerabilities and ensuring 
protected military systems are available for our most critical military 
missions.

                               CONCLUSION

    We believe the NORAD and USSPACECOM missions will continue to grow 
in importance as the Nation responds to current and emerging threats. 
Our capabilities will help build the foundation needed to fulfill DOD's 
transformational goals to protect the U.S. homeland and critical bases 
of operation, deny sanctuaries to our enemies, as well as project and 
sustain combat power. We will also serve a central role as the DOD 
leverages information technology, conducts effective information 
operations, and strengthens space operations in the future.
    We continue to find new ways to improve these unique capabilities 
by integrating them into all aspects of our military missions. As we 
develop our next generation systems, we should invest the necessary 
resources, energy, and intellectual capital to protect our vital 
interests and sustain our lead in the space and information domains. We 
appreciate Congress' continued support of our people and to maintain 
our high state of readiness. With your help, we will ensure our air 
defense, space, and information forces continue to play a key role in 
our Nation's defense.
    Again, I am honored to appear before you and look forward to your 
questions.

    Senator Reed. Thank you, General Eberhart.
    Mr. Secretary.

 STATEMENT OF HON. PETER B. TEETS, UNDER SECRETARY OF THE AIR 
       FORCE AND DIRECTOR, NATIONAL RECONNAISSANCE OFFICE

    Secretary Teets. Thank you, Mr. Chairman, and good 
afternoon to you. I would like to start by thanking the Armed 
Services Committee for their support of my nomination and then 
subsequently the Senate for confirming my nomination last 
December 7. I was subsequently sworn in as Under Secretary of 
the Air Force on December 13 and want to assure you I have been 
working hard ever since.
    I find that I have arrived on the scene at what I would 
call an opportune time. I am the beneficiary of the results of 
three important commissions that were established to look at 
the national security space situation. One has been referred to 
widely, the National Security Space Commission, chaired by 
Secretary Rumsfeld, and I will have more to say about that in a 
moment or two and also be happy to take questions about 
implementing those recommendations.
    There were also two other important commissions. There was 
an NRO Commission. Senator Allard participated in that as well, 
of course, and that was an important piece of work which gave 
some recommendations for the NRO. I have taken those 
recommendations seriously and we are in the process of 
implementing that commission's results as well and 
recommendations as well.
    Then lastly, perhaps you are familiar with the fact that 
Don Kerr headed up a remote sensing panel that provided an 
important database to the intelligence community regarding 
remote sensing capabilities and the future of remote sensing in 
our country.
    So I really have had the benefit of all three commissions' 
results completed and I find all three to have very valuable 
recommendations for implementation. All of it leads in a way to 
a situation where I think we can realistically look forward in 
the relatively distant future toward a situation in which the 
United States can achieve something that I would call universal 
situational awareness. We can in fact have collection 
activities going on in space which, when properly merged with 
air assets, properly merged with activity on land and on the 
sea, we can indeed find ourselves in a situation where we can 
know what is going on around the Earth. Obviously, this war on 
terrorism has taught us that this is a vitally important goal 
to try and strive toward.
    At this point in time, I would tell you that I have four 
immediate priorities, however, that will stop far short of the 
ultimate vision that I just described. The four priorities are: 
first of all, getting our space acquisition programs on track. 
We have heard already today references to our SBIRS-High 
program, and it is a program that is experiencing considerable 
difficulty and trauma.
    Since taking on the job, I have had a number of intensive 
reviews on the subject of SBIRS-High and we are currently on a 
path, a parallel path really, of trying, number one, to see if 
we can properly restructure the contract that is in place to 
provide a contract that can be executed and that can deliver a 
system that can meet all the requirements that have been 
specified for it.
    In parallel with that, however, I have been asked to look 
into an alternate option using some NRO people and assets to 
see if we can find an alternative which can provide the 
necessary and vitally important information that will come from 
SBIRS-High.
    I will be more than pleased to answer additional questions 
about SBIRS-High and how we are proceeding with it. But I would 
like right now to point out simply that as the newly named 
executive agent for DOD space I work and will continue to work 
extremely closely with Secretary Aldridge as the Under 
Secretary of Defense and the senior defense acquisition 
official. I have and will continue to work closely with John 
Stenbit, the Assistant Secretary for C\3\I.
    There is no desire on my part to try and exclude the Office 
of the Secretary of Defense or any of the necessary components 
that can add value to the process, and I would certainly want 
them to continue to have an oversight role. I do think, 
however, that as we have been trying to implement the National 
Security Space Commission recommendations, we have an 
opportunity to put together an organization which can look at 
the intelligence community activity in the NRO as well as Air 
Force and become excellent stewards of Army, Navy, and Marine 
Corps space requirements.
    Of course, as we have started to create this new national 
security space organization, we have included within it the 
national security space architect, who happens at this point in 
time to be Army General Steve Farrell. So we are doing 
important architectural work that crosses the entire national 
security space community and we have an opportunity now to also 
put together another organization called the Directorate of 
National Security Space Integration, which can migrate best 
practices, if you will, across all the national security space 
community. Again, I will be more than happy to answer more 
questions on that as we move forward.
    Now, another very important priority is to drive hard on 
the issue of assured access to space. I think it's clear that, 
from the results that have come back from the current war on 
terrorism, our space assets are more important than they have 
ever been. We need to be in a situation where we can sustain a 
launch failure. After all, I think we all know that the highest 
risk part of a space mission is in its initial deployment. The 
space launch event is a traumatic event, it is a high energy 
event, failures sometimes occur.
    We need to be in a position to be able to sustain a failure 
and still provide the next launch in a short period of time. So 
in looking at that, one of the things we want to do is drive 
hard on the Enhanced Expendable Launch Vehicle (EELV) program 
to make certain that there are not single point failures which 
could cause both launch systems to be down in the event of the 
failure of one of them, and we will be looking hard at that.
    An additional priority that I have is to really look hard 
at how we can apply best practices across the national security 
space community, and I offer just a couple of examples. The NRO 
over a period of some 40 years has developed a solid system of 
acquisitions that has thorough oversight and yet which can be 
implemented in an expedited fashion. Typically speaking, 
milestone decisions can take place in a period of 90 days, 
rather than 180 days, and we can improve the cycle time by 
getting the right people together, sitting around the table, 
and addressing problems in real time. So I think this whole 
idea of national security space integration can lead to 
spreading best practices across the community.
    Another example would be in the launch system process for 
actually preparing systems for launch. It turns out that the 
Air Force and NRO have classically had two different processes 
or practices for readying launch systems for the launch event. 
We can rapidly change that. We can drive hard on a single 
practice and process that can increase reliability and give us 
more confidence in our space launch capability.
    Lastly then, another immediate priority that has come from 
the many commissions that have looked at the space situation is 
the need to develop a professional cadre of people across the 
space community. I know that General Eberhart at Air Force 
Space Command has been working extremely hard to make that a 
reality. The Chief of Staff of the Air Force at the last Corona 
meeting that we had focused on that very event, and General 
Eberhart presented his views on how the Air Force could move 
forward on that.
    I have had several discussions with Under Secretary 
Livingstone and Under Secretary Brownlee relative to Navy and 
Army participation in developing this cadre of space talent 
across all the military services and think we can make some 
strong progress there.
    I would close my remarks by simply saying that in this 
roughly 3 months that I have been in the job I have received 
terrific support from General Eberhart and Space Command. I 
have received great support from Secretary Roche and Chief of 
Staff of the Air Force General Jumper. Secretary Rumsfeld has 
also provided strong support.
    Frankly, I feel as if I am in a situation where I have been 
empowered to make a difference in this national security space 
arena and I look forward to that. I should also add that the 
Director of Central Intelligence (DCI), George Tenet, has been 
enormously supportive in helping to merge NRO activity with DOD 
activity. I do think we have an opportunity to make a 
difference in the national security space arena.
    Thank you very much.
    [The prepared statement of Secretary Teets follows:]

 Prepared Statement by Hon. Peter B. Teets, Under Secretary of the Air 
                                 Force

    It is my distinct honor to be before the subcommittee today 
representing the ``space side'' of the world's greatest air and space 
force. You have previously heard from the Secretary of the Air Force 
and the Chief of Staff about the state of affairs of the Air Force as a 
whole. I believe the ``Top 4'' of the Air Force--the Secretary, the 
Chief of Staff, the Vice Chief, and I--make a good team. We are of one 
mind regarding the vision of a Total Air and Space Force providing 
global reconnaissance and strike across the full spectrum of operations 
in the service of this great Nation. Given the focus of this 
subcommittee, and my role in the implementation of the National 
Security Space Commission, I plan to focus my remarks today on the 
space responsibilities and capabilities of the Air Force.
    The commission Congress chartered to assess the organization and 
management of national security space, commonly referred to as the 
Space Commission, recommended several changes in the way the Department 
of Defense (DOD) is organized to perform the national security space 
mission. Secretary Rumsfeld chaired that commission before he became 
Secretary of Defense (SECDEF), and he's provided the Air Force with 
tremendous support in our implementation efforts. Secretary Roche and I 
are in lock step with his directions for implementing the Commission's 
recommendations.
    I am delighted to report that the Air Force has made good progress 
with the tasks assigned to it by Secretary Rumsfeld. In order to apply 
the ``cradle-to-grave'' approach recommended by the Commission, we have 
transferred command responsibility for the Air Force's Space and 
Missile Systems Center (SMC) from the Air Force Materiel Command to the 
Air Force Space Command to align space research and development efforts 
and operations under one organization. We have also made the SMC 
Commander the Air Force Program Executive Officer for Space. I have 
been jointly named Director of the NRO by the DCI and the SECDEF. 
Serving jointly as the Under Secretary of the Air Force and as the 
Director of the NRO is not without precedent. The first Director of the 
NRO, Dr. Charyk, served in this dual role capacity, as have several of 
our Nation's previous national security space leaders including Mr. 
Aldridge, our current Under Secretary of Defense for Acquisition, 
Technology, and Logistics. I have also been asked by Secretary Roche to 
assist him by serving as the Air Force's acquisition executive for 
space related systems. Secretary Rumsfeld's request that Mr. Aldridge 
delegate Milestone Decision Authority for major DOD space programs to 
the Under Secretary of the Air Force has made me the senior civilian 
responsible and accountable for managing the Nation's national security 
space program for the Department of Defense and the Intelligence 
Community. In my view, the buck stops with me for national security 
space issues--and I am thrilled and honored to have been asked to take 
on this important challenge.
    We are in the midst of an epic struggle of good versus evil in the 
war on terrorism. To date, our space-based systems have performed 
incredibly well in support of our troops engaged in Operation Enduring 
Freedom in Afghanistan. Air Force aircraft have dropped nearly 7,000 
tons of munitions in Afghanistan with 73 percent of that tonnage being 
precision guided. A good portion of that 73 percent would not be 
possible without today's space-based assets such as the GPS. In 
addition to the precision guidance supplied by GPS, our military SATCOM 
systems form the backbone of the information pipeline providing 
critical data to U.S. and allied soldiers operating in that theater. 
Furthermore, our satellite collection systems for weather and 
intelligence data have been more responsive to our warfighters on the 
ground than in any time in our history.
    The ever-increasing significance of the Intelligence, Surveillance, 
and Reconnaissance (ISR) contribution to operational and tactical 
warfare is simply phenomenal. We can finally assess the effects of our 
attacks in near real time because of the contributions of GPS, SATCOM, 
and space-based ISR systems and all the hard work that has been done to 
integrate space with airborne ISR and airborne strike systems. In the 
near-term we will continue to focus on improving the integration of our 
space-based systems across the full spectrum of joint operations.
    The execution of the war has demonstrated once again how critical 
space dominance is for successful force projection and force 
application. In addition, we continue to recognize the need for 
persistent, 24/7, all-weather, surveillance collection capabilities. We 
talk on the ``air'' side about the number of sorties generated as a 
measure of support and effort to a campaign. One of the best features 
about a space-based asset is that it doesn't require additional sorties 
in wartime--it's already there, on-orbit, ready when called upon. Of 
course, with the limitations of today's imaging satellite 
constellations, we aren't able to stay at any one place for very long. 
My vision for national security space includes leading the 
transformation from a reconnaissance to a surveillance mindset in order 
to provide persistent on-demand space-based capabilities to achieve 
universal situational awareness for our warfighters and our Nation's 
leaders.
    That is a brief assessment of how I see the current national 
security space environment and a bit of our vision for the future. I 
would now like to talk about my four immediate priorities for 
addressing the near-term needs of the Nation's national security space 
portfolio. These are: (1) Getting space acquisition programs on track; 
(2) Providing assured access to space; (3) Integrating black and white 
space, applying ``best practices'' where applicable; and (4) 
Establishing a career path for space professional and leadership 
development.

                  GETTING SPACE PROGRAMS BACK ON TRACK

    As the subcommittee is no doubt aware, the Air Force is facing 
significant challenges in several of our most important space 
acquisition programs. Our biggest challenge is in developing the SBIRS-
High program, which is designed to provide the Nation with the next 
generation of missile warning capability as well as enabling missile 
defense. In January of this year, the Joint Requirements Oversight 
Council (JROC) revalidated warfighter requirements for the SBIRS 
system-of-systems, reconfirming the need to field this capability as 
soon as possible. At the same time, however, the Air Force-chartered 
Independent Review Team examining SBIRS-High reported a number of 
deficiencies in the program. It found that the program was too immature 
when it entered the system design and development phase, that higher-
level system requirements were not properly allocated into lower-level 
requirements, and finally, there was a significant breakdown in 
execution management. These findings concern me not only because of the 
importance of SBIRS but also because these problems may afflict other 
space programs. One of the common threads of the review team's findings 
was that inadequate systems engineering contributed to the problems 
affecting SBIRS-High. So in response, I am currently examining other 
space acquisition programs to see if they suffer from the same problem. 
It is clear that the Air Force must address these deficiencies wherever 
they exist in order to be a good steward of space programs and the 
taxpayers' money. Later in my statement I will discuss reforms we are 
pursuing in order to improve the stability of space acquisition 
programs.
    As for SBIRS-High, on 31 December 2001 Secretary Roche reported a 
Nunn-McCurdy cost breach requiring that the Secretary of Defense, or in 
this case his delegate, Secretary Aldridge, certify by 3 May 2002 that:

        <bullet> The program is essential to national security;
        <bullet> That no less costly alternatives that provide equal or 
        greater military capability exists;
        <bullet> That new cost estimates are reasonable; and
        <bullet> The management structure is adequate to manage and 
        control the program.

    It is obvious that both the contractors and the government have 
made mistakes with this program. I have asked my staff to prepare 
alternative solutions that may satisfy these criteria if it is 
determined that the SBIRS-High program cannot meet them. Secretary 
Aldridge will chair a meeting, in late April, to review both the 
current SBIRS-High program as well as the alternatives, and to make a 
decision whether to continue or cancel the existing program. I cannot 
stress strongly enough the need to field a system that delivers the 
required capabilities in time to replenish the existing Defense Support 
Program constellation. If the current SBIRS-High program cannot meet 
those requirements, it is my priority to deliver a system that can.
    While we are working hard to address the problems with SBIRS-High, 
I would like to highlight an emerging success story in the area of 
military satellite communications. In the war in Afghanistan we are 
providing 322 times more communications bandwidth per person when 
compared to Operation Desert Storm 10 years ago. However, even this 
increased capacity is not enough to meet projected requirements. My 
highest priority is making certain that warfighters have the space-
borne capabilities necessary to fight and win our wars, and MILSATCOM 
is one of those areas where the warfighters need as much capability as 
we can give them. To that end I have directed the National Security 
Space Architect office to conduct a Transformational Communications 
Study examining what the next generation of SATCOM systems must provide 
in order to meet future requirements. This study is examining a variety 
of capabilities and architectures that will help us achieve our goal of 
eliminating communications as a constraint on the warfighter. Among 
other things, we are looking at cutting-edge areas such as laser 
communications, optical links, and the development of a network-centric 
architecture integrating satellites and terminals to replace existing 
stove-piped systems. The final architecture will deliver orders-of-
magnitude increase in capability over the systems in service today. I 
anticipate that the study, expected to be complete in July 2002, will 
give the military space community an integrated roadmap showing how we 
can deliver transformational communications capabilities to warfighters 
and national users in the near term.

                        ASSURED ACCESS TO SPACE

    In delivering those kinds of capabilities to the warfighter, it is 
my job as the chief acquisition executive for military space programs 
to ensure that the United States has assured access to space. We have a 
lot of hard work to accomplish to make sure we have the access we need 
and desire.
    The phrase ``access to space'' historically has meant launch 
operations and, in partnership with the commercial sector, the Air 
Force is striving to fulfill this mission. The Atlas V and Delta IV are 
expected to have their first commercial launches this summer, with the 
first DOD launch scheduled for later this year. The EELV is already 
projected to save the taxpayer well over 25 percent of the costs 
typically associated with our legacy launch vehicles, and it will do so 
while meeting our stringent requirements for safety and reliability. 
Beyond EELV, the Air Force continues its relationship with NASA in 
developing a RLV technology roadmap. We welcome the opportunity to 
exploit a future RLV to conduct military missions ranging from 
reconnaissance to on-orbit satellite support and, potentially, even 
force application if directed by national leadership.
    In support of these launch efforts, the spacelift ranges at Cape 
Canaveral and Vandenberg AFB continue to be modernized to become more 
responsive to users and easier to maintain, while becoming less 
expensive to operate. These national assets are becoming increasingly 
valuable to both government and commercial users, and the Air Force is 
actively seeking new ways to exploit our civil and commercial 
partnerships in spacelift to increase efficiencies and reduce costs.
    However, even these efforts are not enough to provide assured 
access to space. We are not where I want to be yet, but we are taking 
steps to get there.
    For instance, access to space extends beyond spacelift--it also 
means making sure that once we get into space we stay there for the 
duration. As the global environment grows increasingly dangerous, we 
are exploring new systems, tactics, and policies that can guarantee the 
security and performance of our space-based assets. Our space control 
efforts are developing new space surveillance software that, 
extrapolating from existing telemetry, can tell us when our satellites 
are being attacked, and how. This universal situational awareness 
capability is vital to ensure that we cannot only rapidly identify the 
enemy attacking us, but also can take the appropriate measures in 
response. By also developing offensive space control capabilities--
including counter-communications, counter-surveillance, and counter-
reconnaissance systems, as well as a new ``space range'' to test and 
exercise these capabilities--the Air Force will provide our national 
defense leadership with a number of options in the event that our 
defensive systems fail to guarantee our access to space.
    We are also pursuing methods of protecting the integrity of our GPS 
signal for both military and civil users alike. As the war in 
Afghanistan demonstrates, weapons like the GPS-guided Joint Direct 
Attack Munition (JDAM) are absolutely critical to winning battles. We 
must not forget that delivering this all-weather, day-and-night attack 
capability to the warfighter requires a modern and secure GPS 
infrastructure. Our GPS modernization efforts, including our GPS III 
satellite program, will result in a more robust signal providing the 
warfighter with more accurate location and targeting information. They 
will also give theater commanders more options to protect the signal 
from disruption by hostile forces, enabling our units to successfully 
continue the fight even when faced with a jamming threat. While the 
improvements to GPS are critical to our military, it must not be 
forgotten that a better GPS system also provides numerous benefits to 
civil authorities and commercial industries in America and worldwide. 
GPS is truly a modern American success story, and the Air Force is 
working hard to guarantee its performance in the future.
    Guaranteeing GPS performance, as well as providing increasingly 
capable MILSATCOM, requires that the U.S. military maintain access to 
critical sections of the radio frequency spectrum. We are seeing a 
number of proposals to develop new wireless services using frequency 
bands currently required for a number of critical U.S. military 
capabilities. It is obviously of critical importance that we achieve a 
solution which meets the need of all interested parties to ensure that 
the U.S. military retains use of the spectrum frequencies critical to 
our warfighting capabilities.
    Due to our increasing dependence on access to space for military, 
commercial, and civil missions, the Air Force must remain in the 
vanguard in developing innovative, reliable, and affordable space 
capabilities. In the future, we must do more to assure our access to 
space, and I am committed to a thorough review of what systems, 
strategies, and policies this access requires.

            BLACK/WHITE SPACE INTEGRATION AND BEST PRACTICES

    As our SBIRS experience clearly demonstrates, existing Air Force 
and DOD acquisition practices are too inflexible to address the unique 
requirements of space system acquisition. As part of the Air Force's 
Space Commission implementation planning during the summer of 2001, a 
series of ``Best Practice'' teams composed of both NRO and Air Force 
members were formed to align Air Force and NRO space programs and 
practices in various areas. As you might expect, one valuable team 
focused on the critical area of acquisition practices.
    Over the course of this investigation, the team made a key 
discovery: the Air Force and the NRO already share many of the same 
``Best Practices.'' The team did find a number of areas, three on the 
NRO side and two on the Air Force side, that required relatively minor 
administrative changes to the way the NRO or Air Force did business. 
However, they discovered one additional, substantial difference between 
the way the NRO and Air Force operates. The NRO's acquisition milestone 
decision cycle time was much shorter than the typical DOD milestone 
decision cycle time for programs of similar magnitude and complexity. 
Obtaining a decision at a Defense Acquisition Board via the process 
described in the DOD 5000 series documents typically takes 8 to 12 
months to get through the Integrated Product Team structure. In 
contrast, historical data on NRO programs shows the nominal time 
required to get through the NRO's Independent Program Assessment 
process is only 8 to 12 weeks. Months to weeks--that's a significant 
reduction in decision cycle time!
    I'll be the first to admit that making bad decisions quicker than 
before would not be an improvement, but decision delays often impose 
unintended costs on a program just as surely as requirements creep and 
program mismanagement do. Faster decisions by senior leaders can 
actually help provide program stability, a key ingredient to program 
success, by allowing the program office and contractor to spend their 
time performing actual development work instead of preparing for overly 
burdensome oversight. Faster decision cycles also support agile and 
flexible acquisition practices because they allow for direction from 
the real decisionmakers when needed, thereby enhancing our ability to 
make timely adjustments to our plans. This is the best way to enable 
our system program offices to deliver the most cost-effective 
capability possible to the warfighter in a timely manner.
    To that end, we have adapted the NRO process to fit DOD statutory 
requirements and allow full involvement by OSD and the other Services. 
I plan to approve several ``pathfinder'' activities using this NRO-like 
acquisition oversight process to assess how this NRO process can be 
best applied to DOD space programs. A ``pathfinder'' activity for GPS-
III is already underway and I expect to be able to report on its 
results this summer. This ``streamlined'' process has worked for the 
past 7 years at the NRO, and I see no reason why it won't work for DOD 
space systems.
    The establishment of similar processes between black and white 
space is a terrific first step toward integration, but we will continue 
to explore other ``Best Practices'' and diligently implement associated 
findings. I'm not picky about where we find these ``Best Practice'' 
ideas. We started this effort by focusing on the Air Force and the NRO, 
but we are now in the process of expanding our vision to include the 
practices of the other Services and from industry. The motto ``not 
invented here'' will not apply on my watch--a good idea is a good idea.
    The establishment of Joint Program Offices (JPO) between the Air 
Force, the NRO, and the other Services is also on my agenda in order to 
foster further continued black and white space integration. The first 
evidence of this will be the establishment of a JPO for Space-Based 
Radar in the very near future.

       SPACE CAREER DEVELOPMENT AND SPACE LEADERSHIP DEVELOPMENT

    Implementing these best practices and improving National Security 
Space management both depend first and foremost upon great people doing 
great work.
    As part of the Space Commission implementation, we are working to 
describe and define the appropriate set of education, training, 
experience, and personnel policies needed to develop a cadre of Air 
Force space professionals. Air Force Space Command, under the 
leadership of General Ed Eberhart, has taken the lead on this very 
important task. The plan they are putting together focuses primarily 
upon the Air Force and Air Force elements of the NRO, but we are 
working to share our ideas, problems and our potential solutions with 
the other Services to create the necessary construct that will build 
and maintain the quality of our Nation's National Security Space 
personnel. Secretary Roche is expending significant energy to build a 
space community equal to the pilot community. I am wholeheartedly 
committed to putting the appropriate structure in place to make sure we 
continue to have the world's best space personnel.

                               CONCLUSION

    Since becoming the Under Secretary of the Air Force in December 
2001, I have tried to follow a rule that Stephen Covey identified in 
his book: ``The Seven Habits of Highly Effective People'' which is 
``Seek first to understand, then to be understood.'' I have spent some 
time getting up to speed on the issues, and we are now beginning to 
move out in earnest in making the changes that need to be made to 
transform our Nation's national security space capabilities and 
organizational constructs.
    These are exciting times for national security space as we 
transform, reorganize, and establish roles, missions, strategy, 
streamlined acquisition policies, and space career guidelines. The Air 
Force and the NRO are going to lead this effort with the full 
integration and inclusion of our sister Services and other applicable 
government agencies. We obviously have received tremendous 
encouragement from Congress in this effort, and I thank you all for 
your continued guidance and support.
    I am on a great team with great support from General Eberhart, 
General Jumper, Secretary Roche, Secretary Rumsfeld, and DCI George 
Tenet. When I look at the superb quality of the people that work as 
part of the NRO, Air Force Space Command, and the Air Force in 
general--I don't see how we can fail at anything that we put our effort 
against.
    America is currently the preeminent spacefaring nation in the 
world. It is imperative that the national security space capabilities 
support our troops and national leaders. I will strive with your help 
and support to ensure we maintain our dominant position.

    Senator Reed. Thank you, Mr. Secretary. Thank you, General 
Eberhart, both for your excellent testimony.
    Let us proceed with two rounds both of 6 minutes each. I 
will begin. You have already noted, Mr. Secretary, the problems 
of SBIRS-High. It appears to be about $2 billion over budget, a 
slip of 18 to 24 months in schedule. It is a critical system. 
You obviously need this system, as General Eberhart has 
indicated in his testimony also. So we have to proceed and try 
to, as you are doing, reform the acquisition process to get it 
back on track.
    General Eberhart, are the original requirements for SBIRS-
High still valid, and could you briefly summarize those 
requirements?
    General Eberhart. Yes, sir. If you look at the record since 
about 1994, since we decided the way ahead in terms of the 
SBIRS program, we have first established, then periodically 
reviewed those. Most recently, we reviewed those requirements 
in January of this year once we knew that there was a problem 
with the SBIRS program, to make sure that in fact those 
requirements were still valid, that we were not marching to 
Cold War requirements or requirements that could have caused 
cost or schedule problems.
    We have also done this through senior warfighters forums, 
where the Deputy Commanders in Chief of the unified commands 
get together, and then we finally go to the Joint Requirements 
Oversight Council (JROC). So we did that in January, formally. 
Then we did that again just last month, after the February 
meeting with Mr. Aldridge and Secretary Teets.
    So I believe those requirements are valid. They are valid 
in terms of timing. They are valid in terms of sensitivity. 
They are valid in terms of what we believe we should be able to 
do with this system as you look across from the mission areas 
of strategic warning, theater warning, technical intelligence, 
and finally battle space characterization.
    So I believe in every case, we have concluded that those 
requirements are valid and when we presented those requirements 
again when all the stakeholders were in the room with the Vice 
Chairman of the Joint Chiefs of Staff, we did not get any 
pushback, Mr. Chairman. Everyone agreed.
    Senator Reed. General, when do you conclude that a 
replacement must be in operation for the DSP program, which is 
our major form of national warning?
    General Eberhart. Sir, we have flowed out, based on 
optimistic views of the health of the DSP constellation, 
assumptions that the next two launches will be successful, 
which are key. We have also looked at in case one of those 
launches is not successful. The details of that, Mr. Chairman, 
are classified. We will be able to provide that for the record, 
in a classified format.
    But we have to stay pretty much on the revised schedule we 
have outlined today. If not, we in fact will have degraded 
capability in both theater warning and possibly in strategic 
warning.
    Senator Reed. Thank you.
    Mr. Secretary, can you give us some details about how we go 
about fixing this problem in terms of not only substantive 
changes, but also the likely schedule of activities that you 
are anticipating?
    Secretary Teets. Yes, sir. Mr. Chairman, we are currently 
in the midst of a dual-forked, parallel path to look at the 
SBIRS program. As you indicated, we are talking about a very 
serious problem that was discovered, which has created the 
likelihood of an 18- to 24-month slip, the likelihood of a very 
significant $2 billion cost overrun.
    One of the things we have done is establish an independent 
review team (IRT) to look at and find the root cause of how 
this could possibly happen. I think the results of that IRT 
have been helpful in trying to establish rapidly corrective 
action and put in place a program that can be properly 
executed.
    But because of the critical nature of the SBIRS program, we 
also want to have an emergency or an alternative path that, 
should we find ourselves in a situation where we are not 
confident that SBIRS-High can be put back together again, so to 
speak, and put on a restructured course, that we would have an 
alternative way of proceeding.
    Now, all of this is leading up to an early May Nunn-McCurdy 
certification by Secretary Aldridge. So again I would 
reemphasize, we are not trying to take Secretary Aldridge or 
the defense acquisition community out of the picture. We are 
working with that community. The current path that we are on is 
to put forth, in late April, a solid look at what would a 
restructured SBIRS program look like. The prime contractor in 
this case is Lockheed Martin and Lockheed Martin has made some 
significant management changes at its Sunnyvale facility. They 
have brought in additional resources from satellite operations 
to bolster the management team. They brought in additional 
systems engineering talent. They have responded strongly, with 
the president of the corporation taking a strong hand in 
overseeing the activity that is going on.
    Meanwhile, our system program director, Colonel Mark 
Borkowski at the Space and Missile Center, is working very hard 
to restructure the contract. One of the things that the IRT 
found is that there were some problem clauses in the contract. 
The contract had been made in a way that provided total system 
performance responsibility to the contractor. The fact is that 
the government needs to be the total system requirements owner 
and to exercise proper oversight. So the contract that we are 
in the process of trying to restructure will have that clause 
removed and the government will have total system performance 
responsibility and the contractor will have clear requirements 
laid upon him for the system, but then also a clear requirement 
to manage his subcontractors.
    So we are putting that revised or restructured contract 
together right now. We would hope by the 1st of May, give or 
take a few days, to have that restructuring complete, go forth 
to Secretary Aldridge, and it is my hope that we will be able 
to recommend to Secretary Aldridge that he be able to recertify 
the program.
    At the same time, however, because it is a difficult 
situation, we have embarked upon an alternate course, a backup 
course if you will, where the NRO is working diligently to look 
at alternative architectures which could meet fundamental 
requirements that General Eberhart has spoken of in perhaps 
some spiral development way, but in a way that we can have high 
confidence that we will not be left out in the cold should we 
determine that SBIRS-High as it is currently defined cannot be 
done.
    Senator Reed. Thank you very much, Mr. Secretary.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I have had an opportunity to visit with some of the 
commercial imagery people. I think we have two-thirds of the 
industry in Colorado. They tell me that they were used quite a 
bit after September 11 and that the military generally 
appreciated their up-to-date, very current information and 
data.
    Secretary Teets, I am under the impression that you believe 
that commercial imagery can be a valuable adjunct to government 
imagery assets, is that correct?
    Secretary Teets. That is correct, Senator Allard.
    Senator Allard. Do you believe that the promise of funding 
for commercial imaging products in Future Years Defense Program 
will be sufficient to convince commercial imagery firms to 
proceed with the development of next-generation imagery 
satellites?
    Secretary Teets. Yes, I do think it will. I think that 
commercial imagery can play an important role for government 
users and that includes the national security space community.
    Senator Allard. They do not see anything in the budget that 
makes them think that the money is going to be out there in the 
future, and when they go for money to borrow to continue 
operations they are looking for some assurance that they are 
going to be able to receive financing if they can provide a 
service which we seem to use, particularly at times of crisis, 
like we did during the terrorist attacks.
    So I am interested to know why you think this would be 
available for them?
    Secretary Teets. Well, I think that one of the important 
uses for commercial imagery can be in fact the intelligence 
community. I think that, while in an open forum I am not at 
liberty to talk about the National Foreign Intelligence Program 
(NFIP), I think you would find that there is a desire at least 
to use some of the commercial imagery to provide some important 
capability or collection requirements for the intelligence 
community.
    Senator Allard. I am amazed at how many other countries 
seem to be getting into commercial imagery to one degree or 
another, and I think that there is a certain advantage to 
having that type of business here and not having to rely on 
foreign countries. So I keep looking for ways in which we can 
keep that as an adjunct to what our military does.
    Sometimes systems are not always perfect, but if they do 
not work there needs to be a reliable backup. I think that we 
need some sort of insurance policy to make sure they are there.
    On space systems acquisition, the commander of the Air 
Force Missile Center was quoted recently as saying that all his 
major space development and acquisition programs were in 
trouble. Secretary Teets, do you agree with that statement?
    Secretary Teets. I think it would need to be taken in 
context. I do think that there are serious acquisition problems 
within the national security space community. I would say that 
I have tossed and turned on numerous nights thinking how we 
could find ourselves in the situation we do right now.
    My own analysis of that is that perhaps we had in the time 
of the 1990s some significant budget pressures and yet had a 
desire to continue on with a robust space constellation, and in 
so doing I think, perhaps not consciously, we assumed more risk 
than we have in earlier times. I find that in some of the space 
programs we experimented with contract clauses. We experimented 
with things like handing risk off to the contractor, thinking 
that that would somehow make the risk go away. This total 
system responsibility clause that I mentioned before could be 
an example of that.
    I think other contracts have other innovative ideas to try 
and lower costs of the programs. On the other hand, I think we 
find ourselves in a situation right now where you would have to 
say that some of those things have not worked. So I do think 
that the time has come for us to get back to basics and put 
together contracts which are well understood by both contractor 
and government and can in fact be executed. While that is going 
to require some financial resources to achieve, I think it is a 
necessary ingredient and we are proceeding accordingly.
    Senator Allard. General Eberhart, the Chairman asked most 
of the questions on SBIRS-Low and SBIRS-High, so I am going to 
ask another question here to Secretary Teets. So I am not 
ignoring you. I am not picking on you, Mr. Secretary.
    General Eberhart. I will not take that personally.
    Senator Allard. I do not want anybody to feel neglected 
here.
    In response to the recommendations of the Space Commission, 
there have been changes in space management and organization. I 
have been particularly interested in this. Some of those are 
related to the oversight role of the OSD. This committee 
apparently has been getting mixed messages about what this role 
will be.
    Secretary Teets, I am wondering if you can clarify that and 
share with us what your understanding is of the role of 
Secretary Aldridge, his staff, and his organization in the 
oversight of space programs.
    Secretary Teets. Sure. I have been designated as the DOD 
executive agent for space and as such have milestone decision 
authority. On the other hand, as I mentioned earlier, I intend 
to stay very closely coupled with Secretary Aldridge and his 
office. I also intend to stay closely coupled to John Stenbit, 
the Assistant Secretary of Defense for C\3\I. They have 
important contributions to make.
    Virtually all of the military space programs have been put 
in this national security space organization that now is in 
being, with the exception of SBIRS-Low, and I do want to just 
say a word about that if I may. General Kadish at the Missile 
Defense Agency has acquisition authority for SBIRS-Low. I met 
with General Kadish just yesterday, as a matter of fact, and we 
talked about how that acquisition would proceed and how we 
would work together to make sure that SBIRS-Low does indeed 
complement SBIRS-High and how the whole missile defense 
equation can come together.
    The bottom line is that we are going to form a board of 
governors, if you will, that all participate in, General Kadish 
will participate, Dr. Marvin Sambur, the Assistant Secretary of 
the Air Force for Acquisition will participate, and we will 
regularly take an oversight role of what is happening on the 
SBIRS-Low program. That will then be reported right up through 
General Kadish's chain of command, which is straight to 
Secretary Aldridge.
    So again, I think what we are trying to do is work closely 
together, not trying to exclude the Office of the Secretary of 
Defense from any oversight responsibility for space programs, 
but rather have a focused national security space program where 
we can implement unique contracting arrangements, we can 
implement best practices from operations as well as from 
acquisition to get these space programs back on track.
    Senator Allard. Thank you for your responses to my 
questions. My time is expired.
    Senator Reed. Thank you, Senator.
    Senator Nelson from Nebraska.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    General Eberhart, in our conversation earlier today we 
discussed the potential threats to America's critical 
infrastructure, including systems of satellites, which could 
obviously threaten the military and, more likely as well, 
commercial use of such applications. I am hoping that maybe you 
could speak to the subcommittee today about those threats, to 
the extent that you can in this open session, and what kinds of 
steps we are taking to protect against that kind of threat.
    General Eberhart. Yes, Senator. As we discussed earlier, we 
are concerned about our space control mission. One of the 
pillars of that mission is the protection of our space assets, 
it was one of the transformational goals, goal number six that 
the Secretary of Defense outlined at the National Defense 
University several weeks ago, essentially ensuring that we can 
operate in space, that our space capabilities are not at risk.
    There are technologies available out there where a foe, 
whether it is a nation state, a terrorist, or anybody who 
wishes us ill, could in fact jam uplinks, downlinks from our 
communications satellites. Obviously, they could attack the 
ground station with terrorist attacks or a military attack. 
They can use blinders of sorts to try to interrupt our imaging 
satellites.
    So those capabilities are out there and those are 
capabilities that concern us. As we look to the way ahead, 
first of all we need to understand the space order of battle. 
We need to understand who truly has these capabilities and the 
details involved.
    Second, we need to build not only a good defense, but in my 
view we need to build a good offense. Defense comes in the way 
of alarms so that we in fact know that somebody is tampering 
with our systems; two, to some extent hardening those systems 
so they cannot tamper with them; or three, making them 
redundant enough so if they take out one part of that 
capability, we have a backup capability that we can use or 
having such a robust constellation that we can use other 
satellites. It's also protecting our ground stations, making 
sure they are secure, good force protection, if you will.
    I believe that over time you could even see microsatellites 
in escort mission roles. Those are the kinds of things that we 
have to understand. Those are the kinds of things we have to 
explore to make sure that we have space supremacy in the 
future.
    Senator Ben Nelson. Thank you. Now, probably the most 
difficult question is does the budget that is before us help us 
achieve these goals?
    General Eberhart. Sir, when you look at the additions over 
the last year across the budgeted program years, we have made 
significant increases in the amount of money that we have 
committed to space control. So with the support of this 
subcommittee and others, we believe that we will be taking the 
proper steps to ensure that we have protected our space assets.
    Senator Ben Nelson. So you think that there is enough in 
research and development to continue to remain on the cutting 
edge and ahead of our adversaries?
    General Eberhart. Sir, obviously that is a loaded question 
for CINCSPACE. CINCSPACE never thinks you spend enough money on 
space. But realistically, I think it is an amount that is 
satisfactory at this time, until we better understand some of 
these technologies and the way ahead. Then we are going to have 
to spend more money in terms of procurement.
    Senator Ben Nelson. Thank you, General.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Nelson.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I will only be able to stay for this one round, so let me 
do as much as I can. General Eberhart, since Senator Allard 
spent all his time with Secretary Teets, I will spend my time 
with you. I agree with your written statement on Global 
Positioning Systems, satellite navigational systems, when you 
said it gives our warfighters a decisive advantage.
    This has been true to an extent in civilian aviation, that 
a lot of pilots have ignored other resources that are there or 
forgotten how to use them, I suspect. I have been told by some 
people in the Air Force that this same thing is true with them. 
My personal experience was flying an airplane around the world 
and never losing a satellite. That was 10 years ago. So I have 
a great appreciation for it, but I also know the dependence we 
have on it.
    So it gets to the issue of jamming. How confident are you 
right now that, if you get into something more sophisticated 
than al Qaeda and the Taliban, do you agree that locating some 
kind of a jamming system or anti-jamming system is something 
that we need to really proceed on rapidly?
    General Eberhart. Yes, sir. We have a program called 
NAVWAR, which stands for Navigational Warfare, that talks about 
the way ahead in terms of ensuring that people cannot deny us 
the use of this GPS that, as you have said, we have become so 
reliant on. So we have to do two things in my view. We have to 
be able to burn through the jamming, so we have to develop the 
capability to burn through the jamming; and second, we have to 
identify the source of the jamming so we can take it out.
    Senator Inhofe. Timing-wise, though, it just seems that I 
have talked to some people in DOD that do not seem to be in as 
big a rush for this, and I think you have expressed a sense of 
urgency, too. When do you think we can have something that will 
work?
    General Eberhart. Sir, I believe that on the current path 
we will have some capability in this area in terms of burn-
through in about 2010. A full-up capability will be a little 
bit later than that, depending on if it is 10 dB or 20 dB.
    Senator Inhofe. Thank you.
    Secretary Wolfowitz said, ``the program we inherited''--
talking about ballistic missile defense--``was designed not for 
maximum effectiveness, but to remain within the constraints of 
the ABM Treaty. As a result, development and testing of 
programs for defense against long-range threats were limited to 
ground-based components, ignoring sea, space, and so forth.''
    Since we are going to be out of the treaty on June 13, are 
you satisfied with the pace that we will have once we can start 
aiming at space-based missile defenses and be able to get 
there?
    General Eberhart. Sir, I must admit that I was very 
disappointed in terms of what happened to the space-based laser 
program in last year's deliberations, which I think will set 
back the space capability quite some time. I believe that we 
need to resurrect that capability once we all agree on what the 
requirements are and the way ahead.
    But in terms of doing this from space, if we are not 
pursuing a space-based laser program then we are not getting 
any closer.
    Senator Inhofe. What this leads to, of course, is your 
views on the growing likelihood of a rogue nation attack or of 
blackmail of the U.S. using ballistic missiles. We had a 
hearing the other day with George Tenet, the Director of 
Central Intelligence, and Admiral Wilson, the Director of the 
Defense Intelligence Agency. They talked about the National 
Intelligence Estimate, the current one that says: ``As outlined 
in our recent National Intelligence Estimate, most intelligence 
community agencies project that by 2015 the U.S. most likely 
will face an ICBM threat from North Korea and Iran and possibly 
Iraq.''
    Well, turning that around, it is implying that that threat 
is not there until 2015. I was trying to get this question 
asked at that last hearing, but my time expired. In fact, I 
went quite a bit over my time. I remember so well what happened 
on August 31, 1998, when, much to our surprise, they did fire 
from North Korea a Taepo Dong I missile that actually had three 
stages. The third stage was a defective stage, but nonetheless 
it had the capability or would have had the capability of 
reaching orbit and, even with the defective stage, would have 
reached Alaska.
    Now, that happened almost 4 years ago. How do they justify 
talking about 2015 when that demonstration took place 3\1/2\ 
years ago?
    General Eberhart. Sir, I am not in a position to say what 
George Tenet had on his mind when he gave this date. I think it 
was probably a collective date for those countries. Without 
getting into a specific date, I can tell you that I am 
concerned about North Korea, specifically for the reasons that 
you have outlined.
    I am also concerned because, as we know, their testing and 
deployment schedules are not usually consistent with what you 
and I would do in terms of probability of success. Sometimes 
they will deploy a system when it has not enjoyed the same 
success that we would want to see in this country.
    So I do believe that North Korea could have that capability 
much before 2015, without getting into a specific date.
    Senator Inhofe. That is my feeling, too. Of course, it is 
the Space Command's responsibility to be able to be prepared 
when that time comes. This has been something that has bothered 
a lot of us who have read some of these estimates. I think the 
National Intelligence Estimate of 1995 was certainly flawed in 
my opinion, and I think it has now proven, looking back, that 
it was not that accurate.
    I thank you for that answer.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Inhofe.
    Senator Nelson of Florida.
    Senator Bill Nelson. It is good to see both of you. Of 
course, I think that you are doing the Lord's work, and so I 
would like to pick up from my colleague from Nebraska and ask 
you, if we had a pot of money and it were available, where 
would you put significant improvement and increase to this 
existing budget. You mentioned the Space-Based Laser, that you 
were disappointed that it was cut. Both of you, if you would 
respond to that.
    Secretary Teets. I think there is strong reason to want to 
push forth some R&D aggressively in the field of space control. 
I for one am an advocate of wanting to see us move faster than 
we currently are on track to do. I would think that is an area 
for pursuing with some vigor.
    I would say--and I fully recognize now, though, that all of 
these budget considerations get into the matter of priorities 
and judgmental factors. I do know that the fiscal year 2003 
budget, the President's budget that we have submitted, does 
call for significant increases in the amount of resources that 
we are requesting be spent on space. I think we have done a 
reasonable job of sorting through those requirements.
    We will be, as you probably know, requesting funds to start 
a space-based radar system, and space-based radar system will 
be focused on the need for providing ground mobile target 
indications to warfighting equipment and do it in a way that, 
if other assets for identifying mobile targets are denied to 
us, we will have an overhead system that can do it. So I do 
think it is a high priority for us to properly start to develop 
this space-based radar system.
    We also will be requesting or having requested in the 2003 
budget resources for what we would call a Transformational 
Communications System. This is going to be an aggressive system 
that will hopefully give us the capability to essentially 
remove communication bandwidth constraints from the warfighter 
and ultimately be able to field a communications system that 
can provide necessary information and intelligence and 
communications capability to all of our warfighters where they 
need it.
    Senator Bill Nelson. So that each of them can talk to each 
other?
    Secretary Teets. Each of them can talk to each other and 
they can provide, I will say, first-rate information, visual as 
well as voice, into the cockpit of an airplane and get it 
straight to the warfighter.
    We are in the process right now, the National Security 
Space Architect is running this Transformational Communications 
System study. We have participation, by the way, from the Navy, 
Army, Marine Corps, NRO, and NASA, as a matter of fact. NASA's 
requirements are playing into this Transformational 
Communications Architecture.
    What we hope to do is be able to build a system which will 
provide for truly joint warfighter operations and provide 
information to all elements of the warfighting activity where 
needed, and in a very timely way.
    Senator Bill Nelson. General.
    General Eberhart. Sir, if you will allow us to be partners 
here, if the Secretary is going to spend his money that way, I 
will complete the board here and I will make sure that SBIRS is 
properly funded. I also would advocate that we start taking 
some significant steps in terms of developing a RLV program. We 
are going through a study with NASA right now in terms of the 
way ahead. From what we have seen right now it looks very 
promising to leverage NASA's SLI, their Space Launch 
Initiative, and to come up with almost a JSF-type arrangement, 
where we can use common technology, common parts, so that we 
can develop a reasonable launch vehicle that would have utility 
for NASA and the military.
    But if you only gave me $1 to spend, I want to be very 
clear, I would spend it on the wonderful men and women out 
there serving day in and day out.
    Senator Bill Nelson. General, I am glad you brought up the 
follow-on man-rated launch vehicle, because we have had so many 
starts and stops on that. Right now in the NASA budget over the 
next 5 years there is a $5 billion program for developing the 
technologies for whatever this new launch vehicle is going to 
be. Of course, what happens is the space shuttle just keeps 
getting stretched out and out and we are really looking, 
practically speaking, for another 15 years on the shuttle.
    Can you tell me some more about the joint cooperation and 
participation, since such a reusable vehicle would clearly be 
something that the Department of Defense would have need of as 
well as NASA? Is that cooperation there and is there a 
consideration on joint funding so that NASA does not have to 
bear the full cost of the development of the technologies with 
NASA's little budget compared to the DOD budget?
    General Eberhart. Sir, we have been looking at this now 
almost a year because initially what spurred us was the fate of 
the X series that was being pursued by NASA. As we got together 
collectively and looked at if there was any military utility in 
any of those vehicles to try to keep those alive, we decided 
that essentially we had wrung out all we could in terms of 
lessons learned, technology, et cetera, and it was time to 
start afresh, if you will, with those lessons learned.
    As we look at this 120-day study, I think our goal is 
clearly to do just what you say: first and foremost, to be good 
stewards of the taxpayers' dollars and to see where we can 
better leverage the dollars available. I think as a result we 
will field a capability eventually that would be much cheaper 
than if we pursued it individually.
    So in general terms, that is exactly where we are headed. 
The devil is in the details and there is a lot more work to be 
done here, but at least we have decided that this is the right 
thing to do.
    Senator Bill Nelson. Mr. Chairman, my time has expired. I 
just want to say this as a parting statement in corroboration 
of the General's statement: It is very important to this 
country that we have a workable and efficient follow-on, man-
rated vehicle to the shuttle at such time that it can be 
developed. What I would not want to see is this Nation 
penalized by not developing it because it is being developed 
out of a small budget of NASA, when in fact the need is so much 
greater than that.
    The fact is that NASA is trying to get 10 pounds of 
potatoes in a 5 pound potato sack and it cannot do everything 
it has to try to do. I think there is going to have to be some 
direct major participation by the Department of Defense in 
funding of this replacement vehicle for the future.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Nelson.
    Secretary Teets, I am encouraged by your comments 
indicating your intention to cooperate with OSD and to work 
closely with Secretary Aldridge particularly. Let me ask two 
specific questions along this line.
    There are numerous reviews required both by regulation and 
by statute, including the integrated product team reviews and 
defense acquisition executive summary reviews. Will space 
programs continue to be subject to reviews by the Office of 
Secretary of Defense using the existing review process?
    Secretary Teets. No. I think that there are changes afoot 
in that acquisition process as it relates to space programs. 
When I say changes afoot, what I mean is that we are in the 
process of trying to outline a defense space acquisition board 
activity which can operate on a compressed time scale, time 
frame, from today's defense acquisition board timeframe.
    I think there are characteristic differences in space 
programs from most major defense programs that warrant some 
special considerations. One of the things that we are going to 
try to implement is, and we are going to try it first as 
essentially a pathfinder with GPS III this spring and summer, a 
way to have--instead of sequential review, we are going to have 
review in parallel.
    We are going to have stakeholders sit at the same table and 
review the current status of the acquisition program or the 
plan as it may well be and make decisions in a much faster way. 
So as I mentioned before, rather than having a major milestone 
requirement a 6-month or more period of time from the start of 
the time until the acquisition decision can be made, we are 
going to try and compress that to something more on the order 
of a 3-month period of time.
    We are going to try and accelerate independent cost 
estimates. We are going to try and use a database that, very 
frankly, has been built up by the NRO over the years for cost 
estimating in space programs, sophisticated space programs, and 
be able to bring that to the table in a way that we can see the 
necessary oversight activities happening, but do it quicker.
    In all of that activity, though, we will be asking for 
representation from OSD, from Secretary Aldridge's operation, 
and also from John Stenbit's operation. So we are not trying to 
exclude them. We are trying to involve them. But we are not 
wanting to do it in series or sequential review. We want to try 
and do this in a parallel fashion.
    Senator Reed. Thank you, Mr. Secretary. Obviously, we would 
be very interested in the details of this new approach, and 
particularly if there are any type of statutory issues raised 
in your proposed new approach to the acquisition process.
    Secretary Teets. Yes, Mr. Chairman. It is modeled on 
something that is called NRO Directive 7, that has been in use 
for a while. I would be pleased to provide you with some of 
those details.
    Senator Reed. Thank you. Thank you very much, Mr. 
Secretary.
    Mr. Secretary, one other question, which is, on February 14 
Secretary Aldridge delegated milestone decision authority for 
DOD space systems to you. This gives you a great deal of 
discretion to waive certain requirements or to make judgments 
about whether they have been accomplished. I understand there 
may now be a proposal in the Pentagon to take back this 
discretionary authority, back to Secretary Aldridge. Could you 
give us a sense of the current status of this authority?
    Secretary Teets. Yes. I believe that the paperwork has been 
completed that does in fact designate the Air Force as DOD's 
executive agent for space, and in turn the Secretary of the Air 
Force has delegated that responsibility for space programs to 
me. So I believe that I am currently the DOD executive agent 
for space with milestone decision authority.
    There are a number of other recommendations coming out of 
the Space Commission that are in progress. For example, the 
assignment of the national security space architect to my 
organization is in progress, but I have not seen that formal 
piece of paper signed yet. I have created an organization that 
has a national security integration directorate and it is in 
place. We had some time ago moved the Space and Missiles Center 
Command away from Air Force Material Command to Air Force Space 
Command. As a result, General Arnold reports now directly into 
General Eberhart as Air Force Space Command CINC.
    In addition to that, you probably have seen that General 
Lord has been named as the next Air Force Space Command 
Commander in Chief as a four-star appointment. That change of 
command will take place some time in the spring.
    So implementation of all of the National Security Space 
Commission recommendations are in work and we are moving out 
aggressively on them.
    Senator Reed. The September 14 memo stands, then, as the 
main directive?
    Secretary Teets. When you say ``the September 14 memo,'' I 
am sorry, sir, but I am not that familiar with a September 14 
memo.
    Senator Reed. In that case, Mr. Secretary, we will clarify 
it by placing it in the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Teets. OK. I thank you, Mr. Chairman.
    Senator Reed. Thank you.
    Senator Allard.
    Senator Allard. Mr. Chairman, I just have one remaining 
question. I understand we are not too far away from the vote, 
about 4 o'clock or so.
    Senator Reed. 4 o'clock.
    Senator Allard. In the Defense Authorization Act last year, 
we established a new space career field, which included 
development of space doctrine and concepts of operations in 
space and development and operation of space systems. I am 
interested to know what the status of this effort is and when 
will we see the implementation instructions for the career 
field. Maybe both of you could respond? General Eberhart?
    General Eberhart. To be very candid, that is all a work in 
progress, Senator Allard. We are committed to this in terms of 
space doctrine, since we have published our space doctrine. At 
Air Force right now, the joint doctrine is under review. So 
since the subcommittee looked at that, the Air Force has 
published, I think, some very worthwhile and useful space 
doctrine.
    Second, we have worked hard to operationalize and normalize 
the operation of the command and control of our space assets 
and our space capabilities. We do this predominantly through an 
air and space operations center out at Vandenberg Air Force 
Base, where SPACEAF, Space Air Forces, is assigned, now under 
the command of Major General Looney.
    In terms of developing space professionals, we have been 
working this very hard. We have been working this with all the 
stakeholders in the room. It is very important that we not only 
address officers, but also address the very important enlisted 
and civilian members of our team.
    Also, as the Secretary has indicated, we focus 
predominantly upon development of Air Force space 
professionals, but we also have to make sure that there is some 
consistency there as we look at space professionals in other 
Services. We in the Air Force have decided essentially that the 
Space Commission is right, the Authorization Act is obviously 
correct, and that we need to focus our efforts and truly ensure 
we have the space professionals obviously with the space 
expertise we need here in this new century.
    So I guess to draw an analogy, we have been looking at both 
the Nuclear Navy, the Rickover Navy model, and also what we 
have been doing for decades in terms of developing our pilot 
force in terms of periodic upgrades, periodic education, 
periodic training, and spending more time in that career area 
than any other area as you progress through the ranks.
    So as the Secretary mentioned, this was a topic of the most 
recent senior-level meeting that we had with the Secretary, the 
Chief of Staff, all four-star commanders, the Under Secretary, 
and all Assistant Secretaries of the Air Force. Everybody was 
committed. Now, there will be some dollars involved with this 
because we are developing syllabuses to make sure that we have 
the right training. Again, this is training over a career. You 
are trained once at a basic level, then you go back for 
graduate training, if you will, as you progress through the 
ranks.
    I think that we have the concept now. We are putting it on 
paper. We will soon brief it through the executive agent for 
space and then to the Secretary of Defense. But I think 
everyone agrees that we are headed in the right direction here 
and we are committed to that.
    Senator Allard. Secretary Teets, do you want to comment on 
that?
    Secretary Teets. I think General Eberhart covered it 
extremely well. I can tell you that Secretary Roche, I, and 
Secretary Rumsfeld are strongly committed to making certain 
that we develop this cadre of talent across not just the Air 
Force, but across all Services as well. I think, frankly, some 
of the expertise that has developed over the years in the NRO 
can be brought to bear in a helpful way here.
    Senator Allard. Mr. Chairman, I thought of another question 
just briefly. What is the relationship between George Tenet and 
the Secretary of Defense? Do we have a good relationship there?
    Secretary Teets. We have an excellent relationship there. 
The two speak frequently.
    Senator Allard. Do they have breakfast occasionally?
    Secretary Teets. I believe so, indeed.
    Senator Allard. Very good.
    Thank you.
    Senator Reed. Thank you, Senator Allard.
    Just for the information of my colleagues, the vote is 
scheduled at 4:25 on final passage of the Campaign Finance 
Reform Bill. I recognize Senator Nelson of Nebraska. We should 
be able to conclude this round and introduce our second panel 
before the vote.
    Senator Nelson.
    Senator Ben Nelson. I will forego a question at this time. 
Thank you.
    Senator Reed. Senator Nelson of Florida.
    Senator Bill Nelson. Secretary Teets, you spoke earlier 
about the explosion of commercial imagery. Is part of that 
enhanced capability of commercial imagery, is that in China and 
India, and what kind of problem does that pose for us?
    Secretary Teets. Commercial imagery availability is 
worldwide, if that is what you mean. Now, there are two U.S. 
companies. There is a French company. There is an Israeli 
company. They are all engaged in commercial imagery. If you 
want to buy a satellite image of some place in China, you 
certainly can do so. You give them the coordinates and you will 
get a satellite image back.
    Now, there are questions as to its operational use that 
need to be worked through. Timeliness is an issue. If you are 
going to actually depend on this kind of imagery for 
warfighting purposes, you need it on a very short time scale 
and you need it deliverable to the right set of people. So I do 
think timeliness is an issue as it relates to commercial 
imagery.
    But clearly it is worldwide coverage and those images are 
available.
    Senator Bill Nelson. With the foreign companies, such as 
the French that you mentioned, how quickly can two nations, for 
example that are now facing each other at the Kashmir border, 
obtain imagery so that they know what the other side is doing?
    Secretary Teets. I do not want to say that I have looked 
into this situation to the extent that I can give you a precise 
answer, but I would say to you that if the price were right, 
the physics are such that it could be delivered soon. I mean, 
you could redirect, recommand a satellite. If the weather is 
good, you could get an image of that border within a matter of 
hours.
    Senator Bill Nelson. Now, one of the priorities for future 
funding you mentioned was the Space-Based Radar.
    Secretary Teets. Yes.
    Senator Bill Nelson. Tell us some more about that. That 
would allow you to know what is going on regardless of the 
cloud cover, is that correct?
    Secretary Teets. Yes. The Space-Based Radar that we are 
talking about initiating a program for, is really intended to 
provide ground mobile target indications. That is its primary 
function. Its primary function is not as an imaging synthetic 
aperture radar (SAR). So what this system will be able to do 
will be to provide these ground mobile target indications so 
that if you have something on the ground that is moving you can 
identify it with GPS coordinates and take rapid action against 
it.
    This Space-Based Radar that I am referring to is not so 
much an intelligence collection device as it is a warfighters' 
targeting system.
    Senator Bill Nelson. Tell us some more about these 
microsatellites?
    Secretary Teets. I would turn to General Eberhart for that, 
because it is a concept that I read a little bit about, but I 
know General Eberhart has looked at it.
    General Eberhart. Sir, we have several pilot programs over 
the next 2 years where we will do microsatellite work, sort of 
proof of concept. One will be fairly short-lived orbit and be 
later this year. Another one will stay up there for a while 
longer as we demonstrate the capability to allow this 
microsatellite to do a variety of things: first of all, to show 
the ability to have a very robust constellation, so therefore 
it would be difficult from a space control vantage point to 
knock out. Second, that you can use these satellites possibly, 
depending on how you control them, for on-orbit maintenance, if 
you will. You could use these satellites for on-orbit escort.
    You are limited only by your imagination here in terms of 
how you could use these satellites. Obviously, the cost to get 
them on orbit, the cost of the satellite, is reduced based on 
the size that we are talking about. You could put many in orbit 
with the same launch. So I think that there is exciting 
opportunities here that we will better understand after we do 
our first couple of proof of concept demonstrations.
    Senator Bill Nelson. These microsatellites could be at any 
altitude?
    General Eberhart. I guess they could, sir, but I think 
initially more the LEO and the GEO type orbits is what we would 
be talking.
    Senator Bill Nelson. You said GEO?
    General Eberhart. Yes, sir.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Nelson.
    Thank you, Mr. Secretary, General, for your excellent 
testimony, and we will excuse you and ask the second panel to 
come forward. Thank you very much. [Pause.]
    We will resume the hearing. Welcome, Admiral Ellis. Good to 
see you again.
    Admiral Ellis. Thank you, sir.
    Senator Reed. General Blaisdell and Admiral Dwyer, thank 
you for being with us this afternoon. We look forward to 
hearing from each of you today. Admiral Ellis, now that the 
Nuclear Posture Review has been completed, we would like to 
hear from you as to the next steps the Department of Defense 
will take as a result of the Nuclear Posture Review. We 
especially want to know how this policy document gets 
translated into meaningful guidance for you as you execute the 
duties of your command.
    Major General Blaisdell, you have begun to retire the 
Peacekeeper missile and have a number of modernization programs 
under way. We would like to discuss these issues as well as 
other areas of concern to you.
    Admiral Dwyer, my congratulations to you on the 95th 
successful Trident II missile test in a row. Fortunately, the 
Navy football team is not as proficient. Now that the Navy has 
determined that it will rely on 14 Trident submarines that will 
last 44 years with one refueling, we would like to hear about 
plans to implement this approach with respect to the Trident II 
missile program.
    I would like to recognize Senator Allard if he has a 
comment at this time.
    Senator Allard. Mr. Chairman, I do not have any comments 
now, but if they get proficient at football what happens to 
West Point?
    Senator Reed. We have to come up with an even more 
destructive system. [Laughter.]
    Senator Allard. Better thank your lucky stars.
    Senator Reed. I guess if they apply their energy to Trident 
submarine that is fine, that is okay. But football is something 
else.
    Senator Allard. Senator Nelson likes to bet.
    Senator Reed. We do not play Nebraska.
    Senator Allard. Thank goodness.
    Senator Reed. Thank goodness, that is right.
    Admiral Ellis, I note that you have submitted an opening 
statement on behalf of the panel and it will be included in the 
record. Please go ahead.

STATEMENT OF ADM. JAMES O. ELLIS, JR., USN, COMMANDER IN CHIEF, 
                UNITED STATES STRATEGIC COMMAND

    Admiral Ellis. Thank you, sir. Mr. Chairman, Senator 
Allard, Senator Nelson, I am honored to appear once again 
before you today to address the posture of the United States 
Strategic Command. I am also pleased, as you have noted, to 
have with me today Major General Blaisdell, who is the Director 
of Nuclear and Counterproliferation on the Air Force Staff, and 
Rear Admiral Dwyer, who is Director of the Navy Strategic 
Systems Program.
    Thanks to their efforts and your continued support, I am 
proud to report that our Nation's strategic forces remain 
ready. As they have been for the past 56 years, they are manned 
by true professionals who stand ready with the Nation's 
ultimate deterrence against major military attack on the United 
States and its allies, while also serving in new roles 
reflective of a dramatically changed set of national security 
challenges.
    I am pleased with the increased focus on and resources 
being invested in our strategic capabilities, particularly as a 
result of the recently completed Nuclear Posture Review. More 
than a much-needed capabilities assessment, the NPR brings 
increased emphasis to ensure our streamlined strategic forces, 
weapons, infrastructure, communications, intelligence, and 
planning receive the resources required to ensure their 
effectiveness and in many cases extend them well beyond their 
original design life.
    We are reshaping our national strategic capability in 
response to a dramatically changed international environment. 
We will integrate improved strategic strike forces, both 
nuclear and conventional, active and passive defenses, and a 
renewed and responsive infrastructure. This so-called new triad 
will be enabled by improved command and control systems as well 
as robust, adaptive, and responsive intelligence and planning 
capabilities.
    To become a reality, this effort will require sustained 
support from the Services and, of course, from you and your 
colleagues. Success in this effort will allow us to continue to 
reduce the Nation's reliance on nuclear weapons and enable us 
to confidently meet the President's goal of 2,200 to 1,700 
operationally deployed strategic nuclear weapons by 2012.
    As the joint commander of the Nation's strategic forces, my 
focus has been on working with the Department of Defense and 
the Services, particularly the Navy and the Air Force, on 
ensuring this year's budget and the Future Years Defense 
Program provides the support necessary to meet the requirements 
for our new strategic capabilities. For fiscal year 2003, the 
President's budget funds the highest priorities for our 
strategic forces and for capabilities supporting these forces. 
Increased funding has also been directed towards 
infrastructure, defenses, and development of new supporting 
capabilities.
    My most pressing concern for the strategic forces is 
modernizing and sustaining an aging force structure, including 
our delivery platforms, their weapons systems, and warheads. 
From the venerable B-52 bomber to the newest Trident missile 
submarines, each platform and weapons system has a scheduled 
life extension program designed to keep it in service for at 
least the next 20 years. Some will be expected to serve well 
beyond that time.
    In addition to modernizing existing systems, we must also 
improve our strategic capability through modernizing and 
developing new supporting capabilities. These capabilities 
include our command, control, communications, computers, 
intelligence, surveillance, and reconnaissance (C\4\ISR) 
capabilities, our war-planning systems and processes, and our 
nuclear weapons infrastructure.
    We are also pursuing new strategic capabilities in 
conventional strike, non-kinetic options, and advanced 
intelligence. The Nation is also developing missile defenses as 
an integral element of our strategic capability.
    As always, our people will continue to be the foundation of 
our military success. I appreciate your continued efforts to 
improve the quality of life for our military and their families 
as well as our civilian professionals.
    All of these issues and concerns are interrelated. 
Together, the sustained investment in our people and in our 
existing systems and in developing broad new non-nuclear 
strategic capabilities are required to realize the President's 
goal of reducing our operationally deployed strategic nuclear 
weapons to the lowest levels consistent with our national 
security. I am firmly committed to reaching that goal with your 
continued support.
    [The prepared statement of Admiral Ellis follows:]

             Prepared Statement by Adm. James O. Ellis, USN

    Mr. Chairman, Senator Allard, distinguished members of the 
subcommittee:
    It is an honor to appear before you representing the outstanding 
men and women of United States Strategic Command. I appeared before the 
full Senate Armed Services Committee to discuss the policy issues 
associated with the Nuclear Posture Review, and I welcome this 
opportunity to address the Strategic Subcommittee on the programmatics 
and requirements supporting my command's posture.
    I appear before you today to report that our Nation's strategic 
forces are ready. As they have been for the past 56 years, they are 
manned by true professionals, trained and ready to respond when called, 
yet hopeful that our efforts of dissuasion and deterrence prevail to 
prevent military attacks against the United States and our allies. 
Nonetheless, the renewed focus on supporting and modernizing aging 
strategic systems and infrastructure must be sustained to ensure our 
forces remain a ready, reliable, and credible element of our Nation's 
security posture. Thank you for your sustained support of our strategic 
forces and your commitment to a safe, reliable, and secure nuclear 
weapons stockpile.

                     EVOLUTION OF STRATEGIC POLICY

    Since the end of World War II, the United States has had forces 
postured to conduct long-range strategic operations in support of our 
national defense. The creation of Strategic Air Command in 1946 
integrated the impressive conventional long-range strike capabilities 
developed during World War II with the emergent capabilities of nuclear 
weapons. As the Cold War developed and simmered, our strategic forces 
assumed a decidedly nuclear focus in order to deter the imposing threat 
of nuclear war with the Soviet Union and her allies. The enormous 
responsibility of safeguarding, maintaining, and, if needed, employing 
nuclear weapons demanded a culture of rigorous discipline and 
professional excellence that continues to this day both in our 
strategic task forces and in our headquarters.
    With the development of both land-based and sea-based ballistic 
missiles capable of delivering nuclear payloads, our war planning 
process, already complex to support our strategic aviation forces, 
required significant improvements in capability to ensure the triad of 
sea, air, and land forces could be effectively employed in support of 
our national defense. At the same time, we realized the strategic 
mission required joint cooperation for effective integration. That was 
achieved through the Joint Strategic Target Planning Staff which, in 
1960, effectively formed the first joint organization with global 
responsibilities. Strategic Air Command and the Joint Strategic Target 
Planning Staff served the Nation well during the Cold War. Today's 
culture of excellence, complex weapons, and our existing triad of 
operating forces that make up U.S. Strategic Command were all forged 
during that period.
    The end of the Cold War provided an imperative to reevaluate the 
organization and focus of our strategic forces. In 1992, our nuclear 
forces were integrated under one Combatant Commander charged with 
planning and, if directed by the President, executing our Nation's 
strategic warplans. What had been a large element of our national 
strategy during the Cold War, became a more streamlined, and focused, 
but still essential element of our national strategy. Forces allocated 
to U.S. Strategic Command now represent less than 3 percent of all DOD 
personnel and expend less than 3 percent of the DOD's total 
obligational authority.
    The mission of our Nation's strategic forces over the last 56 years 
has been enduring: to deter a major military attack on the United 
States and if necessary employ strategic forces to defeat any 
adversary. While that specific purpose is unchanged, our methods of 
meeting that mission have changed dramatically.
    During the Cold War, we fielded increasingly complex weapons 
focused on a specific group of states, the Soviet Union, and its 
allies. Our war plans were developed to counter these states and the 
threat they represented. Today, the Soviet Union no longer exists. None 
of its successor states are considered our enemy. Yet, the specter of a 
major attack using weapons of mass destruction remains and is growing 
more complex. The key difference between the international environment 
today and the environment during the Cold War is that the United States 
cannot predict with confidence what nation, combination of nations, or 
non-state actors may pose a threat to our vital interests or those of 
our friends and allies decades from now. As a result, our war plans and 
operating forces must be postured to assure our allies, dissuade 
potential enemies, deter those countries that threaten us, and, with 
Presidential direction, defend our Nation and defeat those that may 
choose to attack us.

                       THE NUCLEAR POSTURE REVIEW

    As I noted in my testimony before you last month, I welcome the 
results of the Nuclear Posture Review. More than a much needed 
capabilities assessment, it brings increased focus to ensure all our 
strategic forces, weapons, infrastructure, communications, 
intelligence, and planning receive the resources required to enhance 
their capabilities and, in many cases, extend them well beyond their 
original design life. Over the next decade, our national strategic 
capability will integrate improved strategic strike forces, both 
nuclear and conventional, active and passive defenses, and a renewed 
and responsive infrastructure. This new triad will be enabled by 
improved command and control systems as well as robust, adaptive, and 
responsive intelligence and planning capabilities.
    To become a reality, this new triad will require sustained support 
by the Services and Congress. Success in this effort will allow us to 
continue to reduce the Nation's reliance on nuclear weapons and enable 
us to meet the President's goal of 2,200-1,700 operationally deployed 
strategic nuclear weapons by 2012. For fiscal year 2003, the 
President's budget includes increased funding to cover the highest 
priorities for our strategic forces and for capabilities supporting 
these forces. Increased funding has also been directed towards 
infrastructure, defenses, and development of new capabilities. Taken 
together, these funding increases put us on the path of refocused 
strategic capability and the lowest number of nuclear weapons 
consistent with our national security.

                       STRATEGIC FORCE STRUCTURE

    To address a broad range of threats, our Nation's security rests on 
several factors, particularly on our demonstrated will and capability 
to uphold our security commitments when they are challenged. Our 
declaratory policy communicates costs to potential adversaries. Our 
warfighting capability, including a robust triad of strategic forces, 
conveys credibility across the full spectrum of conflict--conventional 
to nuclear. The Nuclear Posture Review reaffirmed the wisdom of 
preserving the complementary strategic triad of land-based 
intercontinental ballistic missiles, submarine-launched ballistic 
missiles, and strategic bombers as the backbone of our strategic strike 
forces.
    Each leg of the Nation's offensive strike forces possesses unique 
attributes that enhance deterrence and reduce risk. Intercontinental 
ballistic missiles (ICBMs) provide prompt response; strategic 
submarines (SSBNs) provide survivability; and bombers provide 
flexibility. The diversity of our strategic forces and the synergy 
created by these attributes are designed to complicate any adversary's 
offensive and defensive planning calculations while simultaneously 
providing protection against the failure of a single leg of the triad.
    Intercontinental ballistic missiles continue to provide a reliable, 
low cost, prompt response capability with a high readiness rate. They 
also promote stability by ensuring that a potential adversary takes 
their geographically dispersed capabilities into account if 
contemplating a disarming first strike. Without a capable ICBM force, 
the prospect of destroying a significant percentage of America's 
strategic infrastructure with a handful of weapons might be tempting to 
a potential adversary in a crisis.
    Ballistic missile submarines continue to carry the largest portion 
of our strategic strike force. With approximately two-thirds of the 
force at sea at any one time, the strategic submarine force is the most 
survivable leg of the triad, providing the United States with a 
powerful, assured response capability against any adversary. Submarines 
at sea are inherently survivable and hence stabilizing. Submarines in 
port, however, are more vulnerable and could offer an extremely 
lucrative target in crisis. Thus, in any foreseeable force structure, 
the United States must preserve a sufficiently large strategic nuclear 
submarine force to enable two-ocean operations with sufficient assets 
to ensure an at-sea response force capable of deterring any adversary 
in a crisis.
    Strategic bombers are the most flexible element of our strategic 
strike forces. The ``man in the loop'' allows force dispersal to 
improve survivability and aircraft recall during mission execution. The 
low-observable technology of the B-2 bomber enables it to penetrate 
heavily defended areas and hold high-value targets at risk deep inside 
an adversary's territory. In contrast, the B-52 bomber can be employed 
in a standoff role using long-range cruise missiles to attack from 
outside enemy air defenses. This mixed bomber force can generate to 
alert status when necessary to deter escalation or provide assured 
response should deterrence fail.
    In accordance with the Nuclear Posture Review our strategic forces 
are proceeding to the following levels:

        <bullet> 500 Minuteman III ICBMs
        <bullet> 14 Trident SSBNs equipped with Trident II (D-5) 
        missiles
        <bullet> 76 B-52 and 21 B-2 bombers

    In addition, the Nuclear Posture Review confirmed the plan to 
deactivate our 50 Peacekeeper ICBMs, eliminate the nuclear re-role 
requirement for the B-1 bomber, and remove four Trident SSBNs from 
strategic service.
    With no new forces in development, this triad of strategic strike 
forces will remain the backbone of our Nation's strategic deterrent 
capability for at least the next 20 years. As such, we must ensure 
these forces remain robust, reliable, and secure.

             STRATEGIC FORCE MODERNIZATION AND SUSTAINMENT

    Today we have no new strategic systems under development. With the 
exception of the Trident II (D-5) missile, which is still in low-rate 
production, the United States has in-hand all of its major strategic 
systems. Therefore, as our Nation comes to rely on our existing 
strategic force, the imperative for modernizing and sustaining that 
force becomes even more critical. Since we must maintain these existing 
systems for at least the next 20 years, it is also crucial to sustain 
the industrial base that provides key components and systems unique to 
our strategic forces.
    Sustainment and modernization of the strategic bomber force is 
critical to provide a force that can support our strategic strike 
requirements as well as the conventional needs of our regional 
Combatant Commanders. The B-52 is projected to remain the workhorse of 
our bombers through 2040. That will make it an 80-year-old aircraft 
when it is finally retired. Based on current trends, the critical focus 
for sustaining the B-52 is upgrading electronic components to ensure 
command and control capability and platform survivability in future 
conflicts. The Advanced EHF communications upgrade for the B-52 is 
vital to maintaining a capability across the spectrum of conflict and 
executing the flexible, adaptable plans necessary to address a wide 
range of threats. We cannot afford to slip this upgrade any further 
without adversely impacting combat capability when the UHF Milstar 
communications constellation begins to lose capability. In addition, we 
will need to monitor the impacts of unforeseen aging problems with the 
airframes themselves as we continue to use these venerable aircraft in 
the global war on terrorism.
    The B-2 bomber is similarly projected to remain in service through 
2040. While certainly a newer aircraft, the B-2 must also receive the 
same command and control capability as the B-52, allowing flexible 
targeting. This will require an Advanced EHF suite to ensure the 
capability for in-flight retargeting and recall in both nuclear and 
conventional roles.
    U.S. Strategic Command relies heavily on air refueling forces to 
support both bomber and airborne command and control aircraft. We are 
facing similar challenges in sustaining the aging KC-135 aircraft which 
are committed to direct support of our strategic forces. I fully 
support the Air Force's continuing efforts to sustain these aircraft 
while pursuing a follow-on capability which will remain critical to our 
strategic mission.
    Our ICBM force will undergo significant transition over the next 
decade. The Peacekeeper ICBM system is programmed for deactivation 
beginning in the first quarter of fiscal year 2003 and aggressively 
continuing over the following 3 years. This retirement program is fully 
funded in the President's budget and phased to meet our warfighting 
requirements while adhering to the highest standards of safety and 
security requirements. The Minuteman III missile system is also 
undergoing comprehensive inter-related modernization programs designed 
to extend its service life through 2020. The President's budget funds 
the guidance and propulsion replacement programs at procurement rates 
that ensure the overall readiness, reliability, and capability of our 
ICBM forces into the next decade. Equally important, the safety 
enhanced reentry vehicle program will allow us to use the Peacekeeper 
W87 warhead on the Minuteman III ICBM as the Peacekeeper leaves 
service. This modification enables us to retain the capability of one 
of our newest warheads with its modern safety and reliability features 
while retiring the W62, the oldest ICBM warhead in our inventory later 
in this decade.
    Our ballistic missile submarine force is also in the midst of 
significant transition. The Navy is in the process of converting four 
of our older Trident ballistic missile submarines to carry the Trident 
II (D-5) missile system. This conversion will provide us with 14 D-5 
equipped SSBNs while making 4 Trident I (C-4) missile equipped 
submarines available for conversion to cruise missile and special 
operations capable submarines. The program for D-5 conversions is fully 
funded and on track.
    On a very positive note, our Trident submarines' hull lives have 
been extended from 30 to 44 years. Although the Navy must procure 
additional missiles and conduct a D-5 missile life extension program, 
this will ensure sufficient missiles are available throughout the 
Trident submarine service life. This program was fully funded in the 
President's budget, however, last year's $25 million reduction in the 
D-5 missile program budget will result in an overall $60 million cost 
associated with the shutdown and restart of three critical component 
production lines during fiscal year 2002. I am working with the Navy to 
address these impacts in their future years defense program for the D-5 
missile.
    In regards to our nuclear weapons, my overall assessment is that 
our stockpile is reliable and safe. I have concerns, shared by NNSA's 
John Gordon, that the stockpile is showing signs of aging, and 
manufacturing defects are being discovered which indicate that previous 
reliability assessments were optimistic. This is due, in part, to the 
success of the Stockpile Stewardship Program in expanding our knowledge 
of warhead performance through the development of improved 
surveillance, modeling, and simulation tools. This greater scientific 
understanding has enabled us to identify potential problems and 
uncertainties of which we were previously unaware. The ongoing 
refurbishment of the W87 warhead has marked an important technical 
milestone for stockpile stewardship, as it is the first major 
refurbishment of a nuclear warhead in a non-testing environment. 
Approval has also been given for several critical warhead life 
extension programs--the B61, the W76, and the W80. Together these four 
systems will comprise a significant portion of our country's enduring 
nuclear stockpile.

     COMMAND, CONTROL, INTELLIGENCE, AND PLANNING SUSTAINMENT AND 
                             MODERNIZATION

    Our command and control, as well as intelligence and planning 
capabilities, are essential ``force multipliers'' and serve to enhance 
and unify our forces. As we transition to the broader range of 
deterrent capabilities suggested by the Nuclear Posture Review, we must 
ensure new C\4\ISR capabilities are available across the range of 
strategic options. Our current C\4\ISR capabilities include a robust 
war planning capability, fixed and mobile command and control 
facilities, and a joint intelligence center. As with our other 
strategic forces, these systems must be modernized in terms of 
capabilities and capacity.
    The security challenges of the next decade require that we become 
more flexible and adaptive in our shift from a specific state, or 
threat-based strategy, to a capabilities-based strategy. U.S. Strategic 
Command has begun development of a planning system that retains the 
rigor and expertise developed over the last several decades, yet 
employs modern computing techniques and streamlined processes to 
significantly improve our planning capability. This effort is a 
critical element in enabling rapid, flexible crisis response that 
integrates nuclear, conventional, and non-kinetic weapons into our war 
plans. This new approach to planning will require significantly more 
collaboration with the regional Combatant Commanders as we continue to 
better integrate our military capabilities across the spectrum of 
conflict. Our goal is to remove inefficiencies between current theater 
and strategic war planning development by eliminating seams and 
expanding available options for our senior leaders in future crises. 
This is a significant change and will be facilitated by a comprehensive 
review of our current war planning processes.
    I am pleased with the increased attention given to the long-term 
modernization and sustainment of our two airborne command and control 
systems. The National Airborne Operations Center, the E-4, is operated 
by Strategic Command as an airborne element of the National Military 
Command System. As with most of our strategic forces, it requires 
sustainment and modernization investments into current capability while 
integrating new command, control, and communications requirements. 
Increased senior leader attention during the last year has resulted in 
significant improvements in E-4 modernization funding in the 
President's budget. This vital funding ensures these aircraft have the 
required capabilities to support our senior leadership in any future 
national crisis. Similarly, the E-6B airborne command and control 
aircraft modernization is funded by the fiscal year 2003 budget 
submission. The funding requested corrects demonstrated operational 
deficiencies impacting aircraft mission capability rates.
    As the combatant commander of strategic forces, I am very 
interested in the replacements for our Defense Support Program (DSP) 
constellation and Milstar communications satellites. The successful 
fielding of these systems directly affects our strategic warning and 
communications requirements. The SBIRS-High capability is vital to our 
warning timelines and ability to execute our strategic forces when 
under attack. Similarly, the Advanced Extremely High Frequency 
satellite system is necessary to ensure global, secure, survivable 
communications between our senior leadership and strategic forces. I 
understand the concern with the costs and schedule progress of both of 
these systems, however, the current DSP and Milstar systems have finite 
lifetimes, and we must preserve the requirement for replacement of 
these critical capabilities as they approach the end of their 
technological life. If current legacy satellite systems degrade 
significantly without replacements, we are seriously affecting the 
ability to capably respond with our strategic assets, as well as with 
all of our modern, networked military forces.
    Our Strategic Joint Intelligence Center is tasked with a wide range 
of intelligence requirements supporting development of our strategic 
and theater war plans. It also supports all regional Combatant 
Commanders in the global war on terrorism through participation in a 
federated intelligence process, where we apply our imagery analysis 
expertise in such areas as weapons of mass destruction proliferation, 
hard and deeply buried targets, and battle damage assessment. I 
personally benefited from this expertise in 1999 as the commander of 
forces during Operation Allied Force and today I'm sure Central Command 
similarly appreciates their significant contribution to the ongoing 
campaign in Afghanistan.
    As you may know, the current system of managing our intelligence 
information is reaching its maximum capability. This tasking, 
processing, exploitation, and dissemination (TPED) system is a limiting 
factor and has been previously identified as a problem area but still 
requires significant effort to correct. The President's budget includes 
funds to address this area. However, I believe an uncertainty still 
exists over the future years defense program to meet intelligence 
community requirements. This limitation will be exacerbated by the 
increased flow of intelligence information envisioned by emerging 
capabilities. Similarly, the intelligence information infrastructure is 
currently vulnerable to single-point failures. Now is the time to 
address these critical vulnerabilities as we expand our intelligence 
requirements against new threats. Given our military's growing reliance 
on network-centric warfare, we must keep pace in developing TPED 
systems if we are to prevent the fog of war from becoming digital.
    I am very concerned about the future plan for equipment used to 
enable secure encrypted communications with not only our strategic 
forces and command and control aircraft but the entire military as 
well. Equipment used on our strategic forces will require replacement 
beginning in fiscal year 2005.

                        PREPARING FOR THE FUTURE

    As we transition into the future, it is essential that we sustain, 
modernize, and enhance our existing strategic systems. The Quadrennial 
Defense Review and Nuclear Posture Review also direct investments in 
new capabilities that will support and enhance the national security 
elements of assure, dissuade, deter, defend, and defeat. Some of these 
investments include advanced strike capabilities, defenses, 
intelligence and planning capabilities, and command and control 
improvements.
    The Department of Defense is pursuing advanced precision strike 
capability to support our combatant forces throughout the spectrum of 
conflict. Our strategic forces will take advantage of these 
capabilities to replace certain missions previously assigned solely to 
nuclear weapons and provide non-nuclear options to our senior 
leadership as well. I support these initiatives. I also support the 
focus and resources expended on ensuring our Nation's command and 
control systems are an enabler for our joint warfighters and not a 
constraint. General Myers, the Chairman of the Joint Chiefs of Staff, 
is leading the charge on developing joint C\4\ISR that closes the gaps 
and seams between the combatant commands and the Service provided 
forces. In addition, I fully support Under Secretary Aldridge and 
Assistant Secretary Stenbit in their efforts to ensure that enduring 
national command and control requirements of global, secure, survivable 
communications are maintained in any future satellite architecture.
    The challenges of hard and deeply buried targets, strategic 
relocatable or time critical targets, advanced conventional weapons 
employment, and offensive information operations targeting require a 
much greater fidelity in intelligence than we currently possess. There 
are no immediate solutions to these challenges. I fully endorse the DOD 
systems approach to address these requirements, since it is far more 
than just a hardware or resource issue. We need to comprehensively 
assess our intelligence capability from our hardware, to our people, 
organizations, and processes to ensure we develop a robust system that 
supports the full range of our Nation's warfighting capabilities.

     DEPARTMENT OF ENERGY AND DEPARTMENT OF DEFENSE INFRASTRUCTURE

    This year's Nuclear Posture Review officially recognized a 
responsive infrastructure as one of the critical elements of our 
strategic posture. The safety, surety, and reliability of our strategic 
nuclear arsenal depend heavily on the Department of Energy's (DOE) 
National Nuclear Security Administration (NNSA). Your continued support 
of NNSA is vital to ensuring they can support our strategic forces. 
They are making great strides in improving the nuclear weapons complex. 
As does John Gordon, I fully support current efforts to revitalize the 
laboratory and production infrastructure, and increase our nuclear test 
readiness.
    Our nuclear weapons production complex has deteriorated to the 
point that significant investment is required in order to effectively 
refurbish our active stockpile. Without sustained investment in the 
NNSA infrastructure, we risk losing confidence in our nuclear stockpile 
and eliminate any possibility of accelerating retired warhead 
dismantlement. We must realize that a robust, agile, and flexible 
nuclear weapons complex--comprised of both infrastructure and talented 
people to research, design, develop, and manufacture or refurbish 
nuclear weapons as necessary--provides us with the ability to respond 
to a changing national security environment and is itself a deterrent 
which complements our military forces. To this end, the need for 
sustained support of NNSA's Stockpile Stewardship Program has never 
been greater.
    The Stockpile Stewardship Program provides no concrete assurance 
against the need for a nuclear weapons test in the future. As General 
Gordon stated in his testimony to the full committee last month:

        ``Over time, we believe that the stewardship program will 
        provide the tools to ensure stockpile safety and reliability 
        without nuclear testing. But there are no guarantees. It is 
        only prudent to continue to hedge for the possibility that we 
        may in the future uncover a safety or reliability problem in a 
        warhead critical to the U.S. nuclear deterrent that could not 
        be fixed without nuclear testing.''

    There is currently no need to conduct a test today, however, our 
current test readiness posture of 24 to 36 months does not provide for 
a timely and effective response to unexpected events, whether internal 
(related to problems with the stockpile) or external (related to 
foreign actions). Both the Nuclear Posture Review and the report of the 
fiscal year 2000 Panel to Assess the Reliability, Safety, and Security 
of the United States Nuclear Stockpile identified the need to improve 
test readiness. I fully support this effort.
    A less visible, yet equally vital, element of a responsive 
strategic infrastructure is the industrial base supporting our 
strategic systems. One of the inevitable results of having no new 
development or production of strategic systems for almost 10 years is 
the decline of critical industrial capabilities unique to strategic 
systems such as hardened electronics, solid rocket motors, and reentry 
system technology. The President's budget includes funding for programs 
sustaining strategic systems technology and I appreciate your continued 
support in this area.

                               OUR PEOPLE

    As General Myers stated in his testimony before the full committee, 
the success in all our missions depends on our number one asset--our 
people. Maintaining our culture of excellence at U.S. Strategic Command 
depends on recruiting and retaining the best and brightest. Working 
with nuclear weapons demands nothing less. I am grateful for the 
continued emphasis Congress and this administration have placed on 
raising the standard of living of our Service members and their 
families.
    Strategic Command has always had a strong relationship with the 
Nation's Guard and Reserve personnel who support our strategic mission. 
The Guard and Reserve operate almost 75 percent of our designated 
tanker forces. In addition, we have 84 reservists recalled to active 
duty at our headquarters primarily supporting our dedicated efforts in 
support of the global war on terrorism.

                            FORCE PROTECTION

    Our people have unique responsibilities for stewardship of our 
nuclear weapons. They are dedicated and devoted professionals who take 
very seriously the development of our strategic war plans and the 
safeguarding and security of the nuclear weapon systems that provide 
the deterrent force for our Nation. The events of September 11 only 
served to heighten our keen sense of awareness of our responsibility. 
Your committee has already received testimony from the Services and the 
National Nuclear Security Administration regarding ongoing efforts to 
increase our already high levels of nuclear weapons security. I 
appreciate your support of the President's budget request to increase 
funding for additional security personnel and force protection 
initiatives for our task forces and the Department of Energy.

                               CONCLUSION

    I assure you that Strategic Command is ready now and I am 
personally committed to sustaining that readiness into a challenging 
future. I am pleased with the current focus on and resourcing of our 
strategic forces. Continued attention in the Future Years Defense 
Program is required to address previous reductions in the Trident II 
(D-5) missile life extension program, funding replacements for 
encryption equipment, and fully funded upgrades to the intelligence 
TPED system.
    Reshaping our strategic capabilities will require sustained support 
in the years ahead. As the Secretary of Defense stated in the foreword 
to the Nuclear Posture Review:

        ``Constructing the new triad, reducing our deployed nuclear 
        weapons, and increasing flexibility in our strategic posture 
        has resource implications. It costs money to retire old weapons 
        systems and create new capabilities. Restoring the defense 
        infrastructure, developing and deploying strategic defenses, 
        improving our command and control, intelligence, planning, and 
        non-nuclear strike capabilities require new defense initiatives 
        and investments. However, these investments can make the U.S. 
        more secure while reducing our dependence on nuclear weapons.''

    I appreciate your continued support for the men and women of U.S. 
Strategic Command and the unique and essential contributions they make 
to our Nation's security. I look forward to reporting our progress to 
you in the future.
    Thank you and I welcome your questions.

    Senator Reed. Thank you very much, Admiral Ellis.
    General Blaisdell, do you have a comment, or Admiral Dwyer?
    General Blaisdell. It is a pleasure to be here, Mr. 
Chairman, again. I do not have an opening statement. I am here 
to support Admiral Ellis.
    Senator Reed. Thank you, sir.
    Admiral Dwyer.
    Admiral Dwyer. Mr. Chairman, it is a pleasure to be here. I 
also note that you won this year.
    Senator Reed. You are already ahead of the game, Admiral.
    Admiral Dwyer. But I have no comments, sir.
    Senator Reed. Thank you very much, Admiral.
    Let us proceed with a round of 6 minutes and if we have 
additional time before the vote perhaps ask individual 
questions as the case may warrant.
    Admiral Ellis, as I indicated in my opening statement, the 
Nuclear Posture Review has been completed. Could you explain 
the process that follows the Nuclear Posture Review that will 
actually provide your command with the guidance it needs to 
develop target plans?
    Admiral Ellis. Yes, sir, certainly. I would be glad to. The 
Nuclear Posture Review was a congressionally-mandated review 
chartered or undertaken by the Secretary of Defense and he has 
submitted that report to Congress as directed. It is 
anticipated that that will be followed by presidential 
guidance, as Secretary of State Powell mentioned to you in the 
colloquy that you had before your Appropriations Committee 
subcommittee hearing. The President will make the decision on 
what elements of that are to be emphasized and provide his 
guidance in turn to the Secretary of Defense.
    The Secretary of Defense then will add to that guidance 
with more specificity, provide it to the Chairman of the Joint 
Chiefs of Staff and, through him, to me for ultimate 
implementation in future planning efforts.
    Senator Reed. Admiral, I notice in the new triad, which is 
one of the marquee elements of the Nuclear Posture Review, that 
there are conventional forces. Does that mean that Strategic 
Command will be, in fact, conducting non-nuclear war planning 
as part of this new approach?
    Admiral Ellis. What that implies, sir, I think, is that we 
find that a new strategic concept of deterrence is appropriate. 
Such a concept has to be broadened beyond strategic equaling 
merely nuclear and a broader range of options and possibilities 
needs to be presented to the President and the rest of the 
Nation's leadership. That could and should include non-nuclear 
kinetic capabilities, the advanced conventional weapons, if you 
will, and even ultimately, if and when they deliver or are 
developed, non-kinetic capabilities.
    So over the long term, over the next decade, I expect that 
that is a direction that we at Strategic Command will be going 
in the future.
    Senator Reed. Admiral Ellis, is there in your estimate a 
validated requirement for a new nuclear weapon?
    Admiral Ellis. No, sir, at this time there is no 
requirement for new design or creation of new nuclear weapons.
    Senator Reed. General Blaisdell, Admiral Dwyer, is that 
your view also?
    General Blaisdell. That is also my view. There is no new 
requirement for nuclear weapons.
    Senator Reed. Admiral Dwyer?
    Admiral Dwyer. That is our view. We are extending the life 
of our current warheads, Senator.
    Senator Reed. How would such a requirement be developed if 
in fact a new requirement would emerge? Admiral Ellis?
    Admiral Ellis. The established processes by which military 
requirements are generated and then options are reviewed by 
which those requirements could be met, would be the system by 
which that would come forward, sir. Clearly, that would involve 
the classic procurement processes and the appropriate levels of 
oversight and scrutiny during that effort.
    Senator Reed. Now, is there a validated requirement for 
providing new capabilities to an existing nuclear weapon? 
Admiral Ellis?
    Admiral Ellis. There are ongoing studies, as you are aware, 
Senator, to deal with a broadened and increased target set, 
particularly the hard and deeply buried targets which we have a 
proliferation of around the world. Advanced conventional 
weapons are certainly a part of that assessment, but a full 
spectrum of assessments is under way as to how that capability 
could be used or employed.
    Clearly, there are no decisions. There are only studies 
under way, as you have been briefed, I think, by the Secretary 
and at the staff level.
    Senator Reed. General Blaisdell, Admiral Dwyer, do you have 
anything to add?
    General Blaisdell. On the Air Force side, in partnership 
with DOE, there is a Robust Nuclear Earth Penetrator (RNEP) 
program that I believe has been brought over to you, still a 
study program. It does use existing resources, and we are 
partnering with the Department of Energy in that effort.
    Senator Reed. Admiral Dwyer.
    Admiral Dwyer. Mr. Chairman, we are participating also in 
the studies with DOE and the Air Force.
    Senator Reed. Thank you.
    General Blaisdell, as the Peacekeeper is retired the 
warhead from the Peacekeeper will be available for the 
Minuteman III ICBM. This will allow retirement of the older of 
the two Minuteman III warheads, the W-62. Does the Air Force 
have any plans to extend the life of the W-62?
    General Blaisdell. No, Mr. Chairman, we do not. It was 
decided not to extend the life of the W-62. So as the Mark 21 
warheads which are on the Peacekeeper, as we proceed through 
Peacekeeper retirement we will store those and then start to 
take down the W-62 warheads and then replace those W-62s with 
the Mark 21s from Peacekeeper.
    Senator Reed. Does the Air Force have any continuing 
military requirement for the W-62?
    General Blaisdell. We do not at this time.
    Senator Reed. Thank you.
    Let me ask you just a general question, General Blaisdell. 
Does the budget request fully support the Peacekeeper ICBM 
retirement program?
    General Blaisdell. Yes, sir, it does. We are fully funded 
as far as Peacekeeper, $4.9 million in 2002 and $537 million 
over a total program cost for Peacekeeper. So we are funded. We 
are prepared to take that down as we have indicated, 17, 17, 
and then 16, over 3 years, and then 2 years to clean up what is 
left of the program.
    Senator Reed. Thank you very much.
    Senator Allard.
    Senator Allard. Admiral Ellis, I am looking here at an 
article on March 16 from the International Herald Tribune and 
it prompted me to ask a question: Apparently there was at one 
point considerable concern expressed after the release of the 
Nuclear Posture Review that Russia might feel compelled to 
respond by sustaining a larger nuclear force than it would have 
otherwise.
    How do you perceive the Russian reaction to the Nuclear 
Posture Review from your perspective and your contacts with 
Russian defense personnel?
    Admiral Ellis. Sir, I have not had contact with them since 
the release, or the leak, of the Nuclear Posture Review. But I 
can only draw on the public statements that have been made by 
the Russian authority, Minister Ivanov, who was in this country 
recently and appeared jointly with the Secretary of Defense in 
a press conference that addressed these issues. It is apparent 
from my reading of his statements and answers to questions that 
were posed to him that they understand our legitimate defense 
requirements as we understand their national security 
requirements. Each of us is committed to substantial reductions 
in our strategic nuclear forces. That effort is continuing and 
that dialogue and the strengthening of our relationship is also 
progressing, as I read the statements that have been made in 
the press.
    Senator Allard. You and I both come to the same conclusion 
on that. They did not seem to have any kind of angry response 
as far as Russia was concerned.
    Admiral Ellis. That is correct, sir. I saw no indication of 
that in the press or elsewhere.
    Senator Allard. Admiral, how will the changes in the NPR 
affect STRATCOM's role in planning and implementing military 
operations?
    Admiral Ellis. As we were discussing with the Chairman, as 
additional capabilities deliver and STRATCOM's inclusion of a 
broader range of capabilities and presenting strategic options 
for the Nation's leadership, our planning is going to have to 
become more robust and also more responsive to a growing range 
of contingencies, at both the strategic and potentially the 
regional level.
    Senator Allard. Let me get a little more specific.
    Admiral Ellis. Yes, sir.
    Senator Allard. Particularly as it would apply to rogue 
states, what would be our deterrent possibilities there? Do you 
think that there is something we can do to deter rogue states?
    Admiral Ellis. I think as we have discussed the drawdown in 
operationally deployed nuclear weapons in the wake of the NPR, 
it is clear that we have redefined or expanded the capabilities 
that have to be a part of deterrent concepts. The Nation has 
long had a policy related to those who might employ weapons of 
mass destruction against us, against our forces, or against our 
allies, in which, while we will not specify precisely what our 
response would be, it would be overwhelming and it would be 
devastating to those who might consider such an option. That 
deterrent statement posture still stands.
    Senator Allard. Talk a little bit about your confidence in 
the stockpile remaining safe, viable, and effective in the 
short-term, mid-term, and the long-term.
    Admiral Ellis. Sir, as the old sage said, predictions are 
difficult, particularly when they concern the future. I think 
the important element about the science-based Stockpile 
Stewardship Program is that when it is fully in place it will 
give us the tools to more precisely assess and examine the 
aging stockpile as we move into the future years.
    Obviously, the average age of the stockpile is approaching 
20 years. There are elements to that that will logically be of 
concern to us, as there are with any aging system. So I believe 
that the Stockpile Stewardship Program will give us a better 
capability to identify problems. That is not the same as the 
ability to correct them or to guarantee, with certainty, that 
in the event of some unexpected wide-ranging and wholesale 
problem associated with the stockpile, that correction of such 
a deficiency might not ultimately call into question its 
reliability and then force us to address the issue of whether 
or not testing would be required.
    But we are learning more about that stockpile every day. We 
are developing more and more tools, NNSA and the Department of 
Energy are, to more accurately assess and predict the effects 
of aging on that stockpile. So I have confidence in our ability 
to find the problems. But their correction and how large they 
are and what that does to our confidence in the systems is yet 
to be determined.
    Senator Allard. Do not these considerations support the NPR 
recommendations that we sustain a substantial responsive force 
of warheads, that we improve nuclear test readiness, and that 
we rebuild and sustain a capable nuclear weapons 
infrastructure?
    Admiral Ellis. I think, as you are well aware, sir, we have 
approached this in the United States' standpoint from exactly 
the posture that you describe. In other words, we have elected 
not to produce new designs or to produce new copies of old 
designs of nuclear weapons, and to rely on the weapons that are 
currently in existence to sustain us through the future years 
and requirements for this essential element of our deterrent 
posture.
    All of the pieces that you describe are necessary elements 
to ensure that that capability is safe, secure, and credible 
for the future.
    Senator Allard. My time has just expired. Thank you, Mr. 
Chairman.
    Senator Reed. Thank you, Senator Allard.
    Senator Nelson of Nebraska.
    Senator Ben Nelson. You may have been saved by the bell, 
Admiral.
    Strategic Command relies heavily on the National Nuclear 
Security Administration's (NNSA) ability to ensure the safety 
and reliability of our Nation's stockpile. Since 1992 explosive 
tests have not been conducted. I understand you have indicated 
that you do not necessarily think that they are required, but 
instead a lengthy and tedious process of disassembly and 
inspection, to include the refurbishment, is under way.
    Do you think that the development of this effort is 
effective at the present time? Can we develop improved 
surveillance, modeling, and simulation tools to show that 
earlier reliability assessments were optimistic? In other 
words, can we second-guess and improve our original 
predictions?
    Admiral Ellis. I think you are exactly right, Senator. The 
development of more sophisticated tools is going to give us the 
ability to more precisely monitor and assure ourselves exactly 
what the true status of the stockpile is, and that is the 
essential element in the science-based Stockpile Stewardship 
Program. That effort continues. There are very sophisticated 
modeling techniques under development. There are very complex 
and sophisticated tools that are being developed in the 
laboratories to give us a more complete understanding of the 
physics and the effect of age on these weapons.
    All of that will give us more knowledge, more insight, more 
understanding, and then more confidence in what we know about 
the stockpile. So we will know more and not know less about 
this vital capability as we look to the future.
    Senator Ben Nelson. Is the current funding adequate for us 
to be able to continue to improve the tools to go back and 
check the effectiveness of our predictions?
    Admiral Ellis. I certainly would not presume to speak for 
General Gordon, who heads NNSA, and say that his budget is 
entirely adequate. I suspect, like all folks, he has adjusted 
the pace of his programs as a reflection of the funding that is 
available. But in balance, clearly the additional focus and the 
additional resources that have flowed to the entire body of our 
strategic deterrent program, which includes the infrastructure, 
its upgrade and modernization, is a very positive step and will 
assist greatly in our pursuit of those objectives in the 
future.
    Senator Ben Nelson. If we will reduce our warheads to a 
level of between 1,700 and 2,000 or in that range, is that 
possible within the time frame of 2012?
    Admiral Ellis. Yes, sir. The 1,700 to 2,200 number is 
achievable. All of those elements have to come together 
appropriately. As I say, the resources and attention that are 
being devoted to that give us some cause for optimism. The 
program is under way, and indeed the reductions and a number of 
the elements that are part of the NPR have already begun. So I 
think that is a very positive sign.
    As with all programs that have a decade-long life or 
longer, the sustainment of that effort, the continued support, 
not just financial but also in terms of the intellectual 
capital, the people, the challenges we face in retaining and 
attracting new talent as the brain trusts in the laboratories 
approach retirement, those types of things have to be addressed 
as well as we look to the future.
    Senator Ben Nelson. I appreciate it very much. Thank you.
    Senator Reed. Thank you very much.
    Let me note that the vote has begun on campaign finance 
reform. I propose to recognize Senator Sessions for his 
questions and when he concludes at that point we would likely 
have additional questions which we would submit to you in 
writing and ask for your response.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I am sorry I 
have not been able to be here as much as I would like.
    Admiral Ellis, thank you for your leadership and work. I 
have great respect for you. I support the substantial reduction 
in our nuclear weaponry. We want to do that. But we do not have 
the capacity to build any new ones. We have completely 
eliminated our capacity to build new ones, have we not, Admiral 
Ellis?
    Admiral Ellis. That is correct, sir. We do not have the 
ability currently to build a complete nuclear weapon.
    Senator Sessions. How many other countries in the world 
still have a capacity to build at this time, do you know?
    Admiral Ellis. I think all of those that are recognized as 
nuclear powers obviously have the ability to build them, 
because they have them currently. We elected to approach, as we 
were saying earlier, our sustainment of the stockpile in a 
different manner and that is to refurbish and sustain the older 
weapons rather than design and build new ones, which would 
require testing. This was a choice that the Nation made.
    Senator Sessions. I believe that is a minimal step. If we 
are not going to have the capacity to build new ones, we ought 
to have a reserve capability. Else we freeze ourselves in a 
position where we cannot advance. It is critical that we not 
give our adversaries in the world a target of equality, a flat 
number that they know if they reach they would have equality 
with us.
    Would you not agree that that is something we need to 
avoid?
    Admiral Ellis. Certainly, Senator, some element of our 
strategic deterrence contributes to all elements of our 
national strategy. It assures allies, it dissuades those who 
might choose to compete with us, it deters those who wish us 
ill, and those are significant elements of all our military 
forces, be they conventional or nuclear. Certainly, the nuclear 
structure still plays a role in that deterrent policy.
    Senator Sessions. I know we have to go. I would just note 
that to me we are the premier nuclear power, the premier 
military power in the world. We need to use that power 
responsibly, wisely, for the benefit of ourselves and the 
world. But it would be a colossal error if we were to create 
constraints on our military that encourages our adversaries to 
attempt to reach parity. That to me is more important or as 
important as anything else we discuss.
    Thank you, sir.
    Senator Reed. Thank you, Senator Sessions.
    Gentlemen, thank you for your outstanding testimony. I 
particularly want to thank Admiral Ellis because I know you had 
to adjust your schedule mightily to be here today. I appreciate 
it very much. We all do. We also appreciate the great 
leadership you are showing at Strategic Command. Keep up your 
good work.
    We will keep the record open for 2 days and if there are 
additional questions we will present those questions to you in 
writing. Thank you very much. The hearing is adjourned.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

                    ALTERNATIVES FOR SPACE PROGRAMS

    1. Senator Reed. Secretary Teets, according to current DOD 
regulations, all new major defense programs must conduct an Analysis of 
Alternatives (AOA), led by the Office of the Secretary of Defense (OSD) 
to determine whether there are more cost effective alternatives than 
the program being proposed. This helps fulfill the statutory 
requirement for the Joint Requirements Oversight Council (JROC) to 
perform an assessment of such alternatives. OSD has conducted AOA for 
all major Air Force space programs in the past. Do you plan to have OSD 
conduct AOAs for space programs in the future, and, if not, why not; 
how will the statutory requirements for JROC assessments of program 
alternatives be met?
    Secretary Teets. First, let me say that we will fully comply with 
all applicable statutes. Second, I anticipate that the JROC will 
continue to conduct assessments in fulfillment of its statutory 
responsibilities. With regard to AOAs, I expect the OSD staff will 
continue to be involved and participate in the conduct of AOAs; 
however, the effort will be led under my authority as the DOD space 
milestone decision authority and the leader of the Nation's national 
security space efforts.

                 DESCRIPTION OF ``PATHFINDER'' PROCESS

    2. Senator Reed. Secretary Teets, in your testimony you described a 
``pathfinder'' acquisition process for GPS-III that is underway. This 
pathfinder process is intended to allow ``full involvement by OSD and 
the other Services,'' and ``fit DOD statutory requirements.'' Could you 
please provide details as to how this pathfinder process works, and how 
it has been received, for example, what sort of meetings have you held 
with OSD personnel, at what management level, and has the response from 
OSD participants been positive?
    Secretary Teets. The GPS-III program was identified as the 
``pathfinder'' for the streamlined DOD space acquisition process by Mr. 
Aldridge. Our goal is to reduce the workload and shorten the decision 
time for key acquisition milestones while still ensuring appropriate 
insight and oversight. A key aspect of the streamlined process is the 
use of a single, focused, Independent Program Assessment (IPA) Team in 
place of multiple Integrated Product Teams (IPTs), thereby allowing 
stakeholder participation and insight while decreasing the amount of 
time involved by reducing the number of IPTs and the hierarchical 
coordination approach. I would be happy to provide additional details 
in a briefing at your convenience.
    Since being confirmed as the Under Secretary of the Air Force, I 
have had the privilege to talk with Mr. Aldridge, who is fully 
supportive of the space commission implementation, on several occasions 
concerning our efforts to streamline the DOD space acquisition process. 
Members of my staff have also met with OSD staff to provide information 
on how the streamlined process would work for GPS-III and/or other DOD 
space-related programs and encourage their participation throughout. In 
addition, members of the OSD and Joint Staffs have participated as part 
of the GPS-III IPA Team. Reaction to the idea of a streamlined approach 
to acquisition oversight for DOD space systems has been mixed. I 
believe we are in the initial stages of making change happen. As we 
work to define and refine the new process, we will involve the 
appropriate parties to ensure that their views are heard.

    3. Senator Reed. Secretary Teets, what is the forum for OSD 
participants to ask and receive answers to programmatic questions, what 
new GPS programmatic issues have been raised as a result of the new 
process, and how are they being resolved?
    Secretary Teets. There are four forms in which OSD participants can 
ask and receive answers to programmatic questions. The first is the 
normal day-to-day conduct of business. Members of my staff are 
available to answer OSD questions regarding any DOD space program and 
the OSD staff has access to the same data from the Program Executive 
Office (PEO) that my staff uses. The second forum is part of the normal 
budget cycle activity whereby the Department makes its funding 
decisions in preparation for the eventual submission of the President's 
budget. Third, when a program is under review in preparation for a 
milestone decision or key decision point, an IPA Team will be formed to 
review that program. Members of OSD will participate as part of that 
IPA Team so their issues can be brought forward and properly addressed 
as part of the program review. Lastly, the meeting where a DOD space 
program milestone decision is made will be known as a Defense Space 
Acquisition Board (DSAB). I will invite the appropriate OSD principals 
to attend the DSABs so that I can gain the benefit of their counsel 
prior to making milestone decisions for the DOD space Major Defense 
Acquisition Programs.
    In answer to the second part of your question about ``new GPS 
programmatic issues raised as a result of the new process,'' we have 
not yet completed the GPS-III pathfinder activities, so I am not aware 
of any new GPS programmatic issues at this time. I do expect to conduct 
a DSAB for GPS-III in the late summer, early fall timeframe and will be 
in a better position to answer your question at that time.

                           RAPID OSD REVIEWS

    4. Senator Reed. Secretary Teets, you noted in your testimony that 
a major goal for you is reducing the decision cycle time for space 
programs, noting that the Defense Acquisition Board (DAB) process, with 
its associated IPT meetings, takes ``months not weeks,'' and that you 
are aiming for a much shorter process. It is my understanding, however, 
that the reason the IPT process takes as long as it does is because the 
program and the OSD oversight organizations are working to resolve 
issues, some of which require additional analysis and time to reach a 
mutually acceptable outcome. Furthermore, I understand it is highly 
unusual for a program to actually be delayed during this period, 
because the contractors continue to work as the government deliberates. 
Can you please identify which space programs have experienced delays in 
actual contractor progress as a result of the current DAB/IPT process, 
how long those delays were, and could you also please explain how, 
under an expedited decision process, there will be enough time to 
perform requisite analyses to resolve issues in a mutually acceptable 
way?
    Secretary Teets. While there are always issues that need to be 
resolved on any major acquisition program, successful resolution of 
these issues is not necessarily directly related to a lengthy review, 
coordination, and consensus process. The NRO has had success utilizing 
a focused program review process for complex space programs that 
appears to be more timely than the current DOD IPT process. Since the 
NRO is able to make decisions of the same quality as the DOD on complex 
space systems, but can do it in 8-12 weeks instead of 8-12 months, I'm 
very interested in using that decision process. It is difficult to 
explicitly name for you the programs that have experienced delayed 
progress as a result of the DAB/IPT process--mainly due to the fact 
that the blame for programmatic delay can be accurately shared amongst 
many parties. However, we can definitely begin to address reducing the 
imposed instability caused by our current lengthy decision process by 
changing the process itself and reducing its timeline. I believe this 
is important because the crafting of a realistic program schedule is 
the first step for cost control. Decision delays cause program 
schedules to be lengthened for reasons beyond the program's control. 
The end result of a lengthy decision making process and the resulting 
stretch of a program's schedule can be to cause the total cost of a 
program to increase. My goal is to reduce, if not eliminate, this self-
imposed instability factor.

                            PLANNED WAIVERS

    5. Senator Reed. Secretary Teets, do you currently anticipate 
waiving, or recommending waiving, any DOD regulations for space 
programs, and if so, which regulations and why would you want to waive 
them?
    Secretary Teets. The Under Secretary of Defense for Acquisition, 
Technology and Logistics (USD(AT&L)) has given me the authority to 
waive and/or grant exemptions to DOD instructions and publications, for 
DOD space-related programs, that are under the authority of his office. 
I am to inform him of the waivers and exemptions I have granted.
    I anticipate granting the appropriate waivers and exemptions to DOD 
Instruction 5000.2 and DOD Regulation 5000.2-R. These DOD documents 
describe an acquisition oversight process meant to cover a wide variety 
of items (e.g., helmets to F-22s) and are focused on making the most 
cost-effective production decision. While this process may fit a good 
number of DOD system types, the acquisition of space programs--
especially satellite systems--is different. The focus of the current 
DOD 5000 process is not the most appropriate construct for acquiring 
space-related systems.
    My staff is in the process of developing a document to be used in 
place of the DODI 5000.2 and DOD 5000.2-R that will be written to 
address the nuances of acquiring DOD space systems. The new document 
will comply with existing acquisition related statutes just as the DOD 
5000 series does today. The difference is that the process described in 
the new document will be focused on how best to acquire space-related 
systems.

                   HOW TO PREVENT ANOTHER SBIRS-HIGH

    6. Senator Reed. Secretary Teets, in the 1990s, the SBIRS-High 
satellite program was touted as a ``lead program for acquisition 
reform.'' ``Acquisition reform,'' as applied to the SBIRS-High program, 
involved a conscious decision to minimize the amount of government 
oversight. It was recently revealed that the SBIRS-High program has 
experienced billions of dollars of cost growth, and the program is 4 to 
5 years behind its original schedule. As a result, the Air Force set up 
an independent review team to assess the corrective actions required to 
get the program back on track. Many of these corrective actions involve 
restoring appropriate government oversight to the program. You stated 
in your testimony that you were going to review other current space 
programs to ensure they have an appropriately robust level of 
government oversight. Could you please describe this review process, 
what the results are to date, and how you intend to assure robust Air 
Force and OSD oversight will occur for space programs; and could you 
also indicate what input and comments OSD oversight organizations have 
provided on this issue?
    Secretary Teets. The ``corrective actions'' of ``restoring 
appropriate government oversight'' to the SBIRS-High program have been 
taken at all levels of government and contractor management. Due to the 
Total System Performance Responsibility (TSPR) clauses that were part 
of the SBIRS-High contract, the System Program Office (SPO) did not 
have the ability to appropriately monitor and control contract work. 
The removal of those TSPR clauses on the SBIRS-High effort will enable 
the SPO to establish the necessary access, insight, and control 
required to appropriately manage the SBIRS-High program. The Air Force 
senior leadership is directly involved with the ongoing corrective 
actions and assessment of alternatives.
    I have already begun the effort to reestablish program stability 
and management discipline within Air Force space programs. In the past, 
increased management discipline was accomplished through the addition 
of oversight layers within the Air Force and OSD. However, instead of 
adding additional oversight layers, I am personally focusing on the 
major space programs and working closely with the Program Executive 
Officer for Space, Lt. Gen. Brian Arnold, to ensure senior management, 
outside program offices, is actively engaged on all our space 
acquisition efforts. I believe the resulting streamlined process will 
facilitate timely senior-level decisions and provide space-oriented 
expertise and direction when needed.

                   SPACE CAREER AND CADRE DEVELOPMENT

    7. Senator Reed. Secretary Teets, could you please outline the plan 
you have for developing the ``cadre of Air Force space professionals'' 
that you describe in your testimony?
    Secretary Teets. In response to the Space Commission Report and a 
memo from the Secretary of Defense, dated October 18, 2001, Air Force 
Space Command is developing a Space Career Management Plan. This plan 
establishes a deliberate and repeatable process, driven by requirements 
and based upon competencies, to ensure we can place the right people, 
with the right skills in the right positions to achieve national 
security space objectives. The development process spelled out in the 
career management plan is built upon three major pillars: education, 
training, and experience. These pillars are provided as methodology to 
attain leadership skills and levels of certification that will ensure 
we properly develop our space professionals through increasingly 
advanced education, training, and experience.

    8. Senator Reed. Secretary Teets, how much funding is being 
allocated to new effort, what types of training do you plan to provide, 
and who will be trained?
    Secretary Teets. Air Force Space Command is requesting funding for 
the career management plan in the fiscal year 2004 Program Objective 
Memorandum (POM) process. Their POM submission will identify funds 
necessary to fully develop and implement the new education and training 
requirements outlined in the career management plan. These requirements 
include common initial education and training for all space 
professionals entering the career field. This common initial training 
will provide space professionals with a single foundation of knowledge 
spanning all aspects of military space--from concept through 
acquisition, to operations and eventual disposal of space systems. The 
plan also identifies a continuum of follow-on education and training 
requirements to increase technical depth and breadth for all space 
professionals throughout one's career.

    9. Senator Reed. Secretary Teets, will this effort focus on 
military officers, civilians, or both, and will there be incentives for 
people with solid technical backgrounds to join the space acquisition 
community to help oversee the programs and prevent future problems?
    Secretary Teets. The Space Career Management Plan identifies all 
personnel considered to be space professionals--officers, enlisted, and 
civilians. As previously mentioned, the plan ensures a blend of 
expertise within the space professional career field to support a 
``cradle to grave'' organizational philosophy while, at the same time, 
providing solid military space capabilities. Not only will this plan 
permit those with solid technical backgrounds to flourish, it 
encourages them by providing leadership opportunities at various levels 
and providing many opportunities to apply their technical expertise 
throughout their space professional careers.

              ADVANCED WIDEBAND SYSTEM CONCEPT AND FUNDING

    10. Senator Reed. Secretary Teets, the Air Force has proposed 
almost $200 million of basic technology funding to begin development of 
something called the ``Advanced Wideband System'' of communication 
satellites. This system is supposed to be launched in 2009, but as of 
now I understand there is no description of exactly what the system is. 
Furthermore, I understand the first study to begin to define what it 
is, is not due until June 2002. Just what is the Advanced Wideband 
System, and why do you think you need a full $200 million next year for 
it, and particularly when the system has yet to complete its first 
concept study?
    Secretary Teets. Early transformational success depends on the 
convergence of several technological and engineering challenges. The 
$200 million in technology funding will be used to provide the 
technology pipeline for the Transformational Communications Enterprise 
(TCE). Additionally, it will fund both the concept definition phase of 
a network centric architecture of SATCOM systems and later in the 
fiscal year, the beginning of pre-acquisition studies at a detailed 
engineering level. It is anticipated that the concept definition phase 
will produce several pre-acquisition programs with multiple contractors 
engaged in concept exploration in fiscal year 2003 to cover strategic 
and tactical user needs, backbone and relay functions, and associated 
terminals. We will also be funding multiple technology developments to 
mature useful technologies for the TCE. The study currently underway, 
and planned for a July 2002 final out-brief, analyzes several 
alternative architecture approaches with the goal of removing 
communications as a constraint to the warfighter. Some of the problems 
that we are working to resolve are more timely support for airborne 
ISR, greater connectivity between joint warfighters, and more simple, 
standardized terminals. The vision for the effort is an enduring 
enterprise that will provide secure, internet-like communications 
services.

                           SPACE-BASED RADAR

    11. Senator Reed. Secretary Teets, the Space-Based Radar roadmap 
study, submitted to Congress in February, states that DOD has 
established a goal to deploy a Block I Space-Based Radar system by 
fiscal year 2008 or fiscal year 2010. The study also states that fiscal 
year 2002 and fiscal year 2003 will be ``dedicated to crafting [Space-
Based Radar] requirements, assessing architectures, accomplishing 
[Analyses of Alternatives], and defining the concept of operations.'' 
The proposed fiscal year 2003 budget for the Space-Based Radar is about 
$100 million, four times the fiscal year 2002 level. Why was 2008 
picked as the goal for a Block I Space-Based Radar and what are the key 
requirements a Block I system must fulfill; and why do you need $100 
million, quite a substantial sum, just to complete studies and analyses 
on the proposed system?
    Secretary Teets. The current SBR funding profile in the fiscal year 
2003 President's budget request represents a focused risk-reduction 
approach to fielding an operational SBR as recommended in the SBR 
report to Congress (signed by Deputy Secretary of Defense on 22 
February 2002). The program emphasizes risk reduction and initiates the 
Concept Definition phase. The efforts entail manufacturing non-flight 
prototype hardware and software by contractors skilled in space system 
integration to confirm system performance. This moves beyond studies 
and analyses of the proposed system. The earliest opportunity for 
Initial Launch Capability (ILC) provides a SBR program focused on a 
Ground Moving Target Indication (GMTI) capability with inherent 
Synthetic Aperture Radar (SAR) and Digital Terrain Elevation Data 
(DTED) functionality. The key requirements a ``Block I'' system must 
fulfill are being defined under the current requirements effort. We 
will use the Operational System Acquisition approach to implement 
spiral development. The capability to be launched at ILC will provide 
some operational utility, but exactly what will be provided against 
which requirements is still in work. Since the warfighter needs these 
capabilities as soon as they can be made available, launch dates will 
be determined by technology maturity, technical risk, and available 
funding. We will shape the requirements and initial operational 
capability so the warfighter has some useful operational capability. 
This block will reflect the results and insights gained from the 
requirements, architecture, and AOAs work and initial technology 
investments. We anticipate an ongoing system requirements process that 
will further refine SBR requirements as well as flow-down system-of-
systems requirements. These requirements will be evaluated and 
considered for inclusion in the first block SBR or deferred to a second 
block SBR system.

                     NPOESS AWARD FEE OF 20 PERCENT

    12. Senator Reed. Secretary Teets, I understand that the National 
Polar-orbiting Operational Environmental Satellite System (NPOESS) 
weather satellite program office plans on providing an award fee of up 
to 20 percent to the program's contractor. I further understand that 
this award fee is significantly higher than the minimum award fees 
typically given to defense space programs, which range up to 15 percent 
at the highest. The total program is over $6 billion. If a 20 percent 
award fee were applied to the whole program, it would cost taxpayers 
over $1 billion. Is the NPOESS maximum award fee to be 20 percent, and 
if so, why is it so much higher than that of other major defense space 
contracts?
    Secretary Teets. The acquisition strategy includes a maximum fee of 
20 percent. However, the 20 percent fee does not apply to the whole $6 
billion program, but only to portions of the System Development and 
Demonstration (SDD) and production phases. It does not apply to 
Operations and Maintenance (O&M) after Initial Operational Capability 
(IOC), to the launch services, to the government program office costs, 
or to any of the nearly $1 billion of development in the Program 
Definition Risk Reduction (PDRR) phase. In addition, not all the fee is 
an ``award fee.'' The fee structure is intended to incentivize critical 
elements of the program to assure success. Significant portions of the 
fee are specifically tied to key events that demonstrate the system's 
performance.
    Fee breakdown:

        <bullet> Development (Cost Plus Award Fee): 2 percent base fee, 
        13 percent award fee, and 5 percent mission success fee
        <bullet> Production (Fixed Price Incentive Fee/Award Fee): 10 
        percent target profit, 5 percent award fee, and 5 percent 
        mission success fee

    Furthermore, all of the fee is held at risk until the satisfactory 
performance of the system over a specified number of years. Therefore, 
in the event the system does not meet all the requirements (including 
satellite on-orbit longevity), the government will receive some or all 
of the fee back from the contractor.
    The 20 percent level was judged appropriate for the level of risk 
the contractor is going to undertake. The November 2000 Defense Science 
Board (DSB) study found that historic fees are insufficient to make 
defense work profitable and are contributing directly to the decline of 
the high technology industrial base. The 20 percent maximum fee 
provides a commercially competitive rate of return for the system 
contractor who will deliver the complete NPOESS. The complete system 
includes the ground data processing system; all the software; the 
complete command, control, and data relay system; satellite coverage in 
three orbits; the satellites; all the sensors; and operation of the 
satellites (including the NPOESS Preparatory Project) through IOC.
    The maximum 20 percent fee is one of the innovative tools the 
NPOESS program is using to ensure the developed system is capable and 
reliable. The benefit of more reliable and longer-lasting satellites is 
considerably more than the marginal cost of the higher fee.

    13. Senator Reed. Secretary Teets, who made the NPOESS award fee 
decision?
    Secretary Teets. The level of fee is part of the NPOESS Acquisition 
Strategy, which has been fully coordinated through the Air Force 
Headquarters Staff, OSD, and National Oceanic and Atmospheric 
Administration (NOAA) and approved by me.

                      ADVANCED EHF PROGRAM STATUS

    14. Senator Reed. Secretary Teets, late last year press reports 
indicated that the Advanced EHF satellite program, which is the follow-
on to the MILSTAR system, was running as much as $1 billion over 
budget, partly because of increased performance demands being made by 
the Pentagon. You are asking for almost $1 billion for this program in 
fiscal year 2003. What is the current status of this program, what 
program activities are you planning to fund in fiscal year 2003, and 
are the requirements for the program now stable or are they still being 
debated?
    Secretary Teets. The AEHF program awarded the System Development 
and Demonstration (SD&D) letter contract in November 2001 and is 
currently in negotiations for contract definitization which should be 
completed by July 2002. The issues involving increased performance 
demands against an acceptable funding level have been resolved. The 
program is currently in the midst of preliminary design reviews. Of the 
$825.8 million requested in fiscal year 2003 for AEHF, $777.4 million 
is planned for the SD&D effort with the primary contractor, $19.4 
million for cryptographic development, $25.5 million for technical and 
program office support, and $3.5 million for the Joint Terminal 
Engineering Office efforts. Over half of the $777.4 million SD&D effort 
is planned for work associated with the EHF payload (e.g., antenna 
subsystem, RF subsystem, and crosslink subsystem design) with remaining 
funds identified for efforts involving the mission control system, 
spacecraft bus, and overall systems engineering.

                               SBIRS-HIGH

    15. Senator Reed. Secretary Teets, the High Component of the Space-
based Infrared System, or SBIRS-High program, is being designed as a 
more-capable replacement for our current system of early-warning 
satellites, to provide notice of a missile launch against us. It was 
recently revealed that the program is over cost by more than $2 
billion, and will incur a schedule slip of 18 to 24 months. Equally 
disturbing is the fact that, as I understand it, this large cost and 
schedule growth was not anticipated by the Air Force--it came as a very 
unwelcome surprise. I also understand that because of these problems, 
the Department may decide to terminate it, after spending well over $1 
billion on it. What were the technical reasons that caused the problem 
and were there underlying management failures which contributed to the 
problem?
    Secretary Teets. A 2-year delay in development and fielding of the 
Increment 1 ground system impacted the System Program Office's (SPO's) 
ability to focus on later phases of development. Recovery from the 
initial failure and achieving Increment 1 Initial Operational 
Capability (IOC) became an imperative for SPO and Lockheed Martin 
management focus.
    Likewise, the need to redesign the Geosynchronous Earth Orbit (GEO) 
spacecraft to maintain Operational Requirements Document (ORD) key 
performance parameters also had a significant impact on cost control. 
This solar-flyer redesign activity resulted in a 6-month slip to the 
spacecraft and payload critical design reviews last year and drove 
additional ground processing functionality to a much greater extent 
than originally anticipated.
    At Secretary of the Air Force direction, and in concert with 
Lockheed Martin, an IRT was formed in November 2001 to review the 
program and diagnose the root causes and contributing factors of the 
significant cost growth. Three root causes were identified, as follows:

        <bullet> The program was too immature to enter the detailed 
        System Design and Development phase. In general, faulty and 
        overly optimistic assumptions laid the groundwork for SBIRS-
        High program activation in 1996. These included: extensive 
        software reuse; high software productivity levels; commercial 
        practice benefits; economic order efficiencies with satellite 
        lot buys; availability of technical models; mature 
        understanding of requirements, Concept of Operations (CONOPS), 
        and interface specifications; and management stability.
        <bullet> The system requirements and their flow-down into 
        engineering solutions were not well understood. The systems 
        integration effort on the SBIRS-High program was significantly 
        underscoped, both in terms of complexity and the associated 
        impacts. In effect, the requirement refinement process was ``ad 
        hoc,'' created uncertainty on the status of program priorities, 
        and impacted cost and schedule.
        <bullet> A significant breakdown in execution management 
        occurred, within both the government and the contractor teams. 
        The optimistic assumptions that were not borne out, and the 
        flux in the program requirements, as well as the 2-year delay 
        to the program in fiscal year 1999 due to other higher budget 
        priorities, eventually overwhelmed the management of the 
        program. Under pressure, the process discipline failed and the 
        processes in place failed.

    16. Senator Reed. General Eberhart, how important is the SBIRS-High 
program, and what requirements will it fulfill?
    General Eberhart. SBIRS-High is critical to our Nation's ability to 
detect emerging strategic and theater ballistic missile threats. It 
will replace the 30-year-old Defense Support Program and will support 
warfighters' requirements of missile warning, missile defense, 
technical intelligence, and battlespace characterization.

    17. Senator Reed. General Eberhart, would a evolutionary approach 
to meeting the requirements be acceptable, and if so, should the 
current Operational Requirements Document for the system be revisited?
    General Eberhart. We believe an evolutionary acquisition approach 
for SBIRS is acceptable. The Operational Requirements Document was 
revalidated in January 2002 and accurately reflects the requirements 
for SBIRS-High.

                           SBIRS-HIGH FUNDING

    18. Senator Reed. Secretary Teets, the SBIRS-High satellite program 
has recently experienced significant cost growth, schedule slippage, 
and concerns over program management. I understand the Department is 
still considering whether or not to proceed with this program at all, 
or to cancel it and begin a replacement program. Why then does the 
proposed budget include over $800 million for this program, almost 
double last year's funding level, and how can you be sure such a 
troubled program will effectively execute such a large increase in 
funding?
    Secretary Teets. The SBIRS-High program was certified by the Under 
Secretary of Defense (Acquisition, Technology, & Logistics) on 2 May 
2002, as required by the Nunn-McCurdy Act to continue the program. The 
certification affirms that the program is essential to national 
security, that there are no alternatives to the program that provide 
equal or greater military capability at less cost, that the cost 
estimates are reasonable, and that the management structures are in 
place to manage the program and control costs. There is particularly 
strong consensus among our most senior military leaders that the SBIRS-
High program is essential to national security based on the advanced 
capabilities it provides for Missile Warning, Missile Defense, 
Technical Intelligence, and Battlespace Characterization.
    The fiscal year 2002 approved program will be increased to $526.9 
million upon congressional approval of the $88.3 million above 
threshold reprogramming (ATR) request has been delivered to Congress. 
The fiscal year 2003 increase will then be $288 million over adjusted 
fiscal year 2002 program funding. The basis for the funding requested 
in fiscal year 2003 is as follows:
    $814.9 million--Total fiscal year 2003 RDT&E budget request, broken 
out as follows:
    $749.2 million--Continue Engineering and Manufacturing Development 
(EMD) contract for Space and Ground segment development (includes 
Government Furnished Equipment; Geosynchronous Earth Orbit (GEO) 
development; GEO 1&2 integration, assembly and test; Highly Elliptical 
Orbit (HEO) 1 development/delivery; HEO 2 integration, assembly, and 
test; Ground System development; System Engineering and Program 
Management, Increment 1 Pre-operations support)
    $39.9 million--Host program office support (includes payload to 
spacecraft integration, common satellite bus services, communication 
links)
    $6.2 million--Continue Air Force System Program Office support
    $19.6 million--Continue technical analysis and independent 
verification and validation of contractor by federally Funded Research 
and Development Contractor (FFRDC)
    The fiscal year 2003 budget request supports delivery of the 
following SBIRS capabilities:

  Interim Mission Control Station Backup    Oct. 2002
   (IMCSB) Certification.
  HEO 1 Payload Delivery..................  Jan. 2003
  HEO Launch & Early on Orbit Test Capable  Sept. 2003
  Integrated Training Suite Initial         Oct. 2003
   Operational Capability.


    In addition to specific deliveries, development work on the GEO 
payload, spacecraft and ground software, HEO payload integration and 
system compatibility tests, payload factory support capabilities, and 
software sustainment activities will continue in fiscal year 2003 to 
support subsequent years critical program milestones.
    The Air Force has restructured SBIRS-High to make it executable. We 
have established a realistic baseline; to ensure we effectively execute 
that baseline, we have implemented management changes based on senior 
Air Force, DOD, and Independent Review Team findings. Key changes are 
outlined below:
    A tiered management oversight structure has been established to 
focus senior Air Force and corporate leadership review on program 
progress and resolution of critical program issues. The objectives of 
these reviews are to assure management effectiveness; cost, schedule, 
and technical performance; and rapid program decision-making. The 
reviews include quarterly Chief Executive Officers (CEO) meetings, 
bimonthly President's meetings, and monthly Executive Committee 
meetings. Specific membership on the boards varies, but always includes 
senior leadership from the acquisition and operational communities, as 
well as industry.
    The Program Executive Officer for Space and I review aspects of the 
program even more frequently. Significant changes in program management 
philosophy and structure have been implemented to improve program 
performance. The Engineering and Manufacturing Development (EMD) 
contract was awarded in 1996 with a total system performance 
responsibility (TSPR) clause. However, the TSPR concept has not 
achieved the desired result. Consequently, the clause has been removed 
from the contract. The program office will play a proactive role in the 
day-to-day management of program activities and acknowledges 
responsibility for system performance, cost, and schedule management. 
The program office will resume leadership of functions that had been 
relinquished to the contractor under TSPR. The SBIRS management 
philosophy is predicated on integrated government/contractor teams 
functioning under a unified systems engineering approach. The 
integrated master plan (IMP) has been restructured to provide cross-IPT 
emphasis. Contract management oversight and contractor incentives will 
be tied to major milestone accomplishments through the Award Fee Plan. 
Greatly increased government oversight and involvement should preclude 
further precipitous cost increases.
    The System Program Office (SPO) established a Program Management 
Board to control content changes and disposition any future cost 
variances. Should issues arise, alternatives will be fully assessed to 
address cost offsets with joint contractor, user, and SPO 
participation. Additionally, new requirements will be controlled to 
avoid cost growth without associated budget. The contractor has also 
established a weekly Systems Engineering Review Board that addresses 
program issues and coordinates interfaces and interdependencies across 
IPTs to reduce potential surprises or minimize their impact.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

                         DETERRING ROGUE STATES

    19. Senator Allard. Admiral Ellis, is STRATCOM confident that it 
understands how to deter rogue states? What steps are being taken to 
better understand how rogue states are deterred?
    Admiral Ellis. U.S. Strategic Command recognizes deterring rogue 
states is clearly different than deterring the Soviet Union during the 
Cold War. As articulated in the NPR Report to Congress, terrorists and 
rogue states armed with weapons of mass destruction are likely to test 
America's security commitments to its allies and friends, and a broader 
array of capabilities will be needed to deter these actors from 
undertaking the political, military, or technical actions that would 
threaten U.S. and allied interests. Currently, we are examining the 
policies and capabilities required to deter rogue states. Specifically, 
my Strategic Advisory Group is studying the policy and intelligence 
perspectives of rogue state deterrence, and will report back to me over 
the next 6 months. Also, we are working closely with the national 
intelligence community to best posture and plan for the expanding 
deterrence mission.

                            MISSILE DEFENSE

    20. Senator Allard. Admiral Ellis, how will STRATCOM integrate 
missile defense into its planning processes?
    Admiral Ellis. Many variables associated with missile defense 
remain undefined at this early stage, and it is difficult to foresee 
with any degree of certainty the final impact missile defenses will 
have on offensive planning. However, one aspect is absolutely clear; 
offensive and defensive operations must be fully integrated to support 
timely and effective national-level decision making. In addition, the 
U.S. will conduct continuous assessments of its new strategic 
capabilities, to include the fielding of missile defense systems, as it 
sizes its offensive strategic forces.

                         NUCLEAR POSTURE REVIEW

    21. Senator Allard. Admiral Ellis, there has been substantial press 
coverage in recent days of the NPR that has suggested that the U.S. now 
targets a number of nations with its nuclear weapons, that U.S. nuclear 
weapons use is somehow more likely because they will now be used to 
deter the use of chemical and biological weapons, and that the NPR 
calls for the development of a new generation of U.S. nuclear weapons. 
Has STRATCOM engaged in contingency planning against a range of targets 
in the past, and was it the policy of the Clinton administration to 
deter rogue states from using chemical and biological weapons with the 
threat of nuclear retaliation?
    Admiral Ellis. There is no change in the U.S. deterrent strategy 
with respect to rogue states and their weapons of mass destruction. As 
was the case in the previous administration, the President retains all 
appropriate options to protect the American people and our friends and 
allies. For example, in his final report to Congress in January 2000, 
then-Secretary of Defense Cohen declared we must ``maintain nuclear 
forces sufficient to deter any potential adversary from using or 
threatening to use nuclear, chemical, or biological weapons against the 
United States or its allies.'' Also, in 1996 then-Secretary of Defense 
Perry stated, ``. . . we continue to maintain a nuclear deterrent . . . 
absolutely devastating in its destructive power. Anyone who considered 
using a weapon of mass destruction against the United States or its 
allies must first consider the consequences.''

    22. Senator Allard. Admiral Ellis, the NPR recommends that the 
offensive leg of the new triad include both nuclear forces and advanced 
conventional munitions to provide options over a broader range of 
contingencies. To what extent will STRATCOM be engaged in planning and 
executing conventional force options and is STRATCOM interested in the 
development of advanced conventional weapons and delivery systems, 
potentially including conventional payloads for missiles?
    Admiral Ellis. U.S. Strategic Command currently has a small, but 
growing role in supporting regional combatant commanders with 
conventional weapons planning. We expect this role to expand 
substantially in the future, and will pursue those capabilities, to 
include advanced conventional forces, which provide global reach, rapid 
response, and strategic effects.

    23. Senator Allard. Admiral Ellis, the NPR seeks to provide 
improved flexibility and a broader range of options to deal with 
unexpected contingencies. This in turn will require better 
intelligence, planning capabilities, and command and control. How long 
is STRATCOM's current planning cycle, what is STRATCOM's goal, and what 
are the key programmatic elements of an improved planning capability 
and are they fully funded in the fiscal year 2003 budget and throughout 
the Future Years Defense Program (FYDP)?
    Admiral Ellis. U.S. Strategic Command's current adaptive planning 
cycle timelines are dependent on the size and scope of the task. The 
shortest reaction time is possible when an existing option can be 
modified to strike targets already in the command's target data base. 
This process would be measured in hours for one ICBM/SLBM, or one 
bomber delivered weapon. If a new option is required and the targets 
are not in the intelligence community's worldwide data base, the 
development time is increased substantially. U.S. Strategic Command's 
goal is to provide effective adaptive nuclear planning and surety in 
the minimum possible time. Modeling and simulation indicate the 
command's future planning timelines can be reduced up to 75 percent 
with enhanced system integration, optimization, and process 
reengineering. Although these initiatives are not funded in fiscal year 
2003, the fiscal year 2004-2009 POM initiative submitted to the Air 
Force will incrementally deliver improved capabilities. If fully 
funded, an improved planning process integrating military capabilities 
across the entire conflict spectrum is forecast to achieve Full 
Operational Capability (FOC) in fiscal year 2010.

    24. Senator Allard. Admiral Ellis, what are the key programmatic 
elements of an improved command and control system and are they fully 
funded in the fiscal year 2003 budget and throughout the FYDP?
    Admiral Ellis. World-wide survivable communication capability for 
strategic forces and nuclear command and control system (NCCS) elements 
is dependent on a seamless transition from the current MILSTAR 
satellite communications constellation to the follow-on Advanced 
Extremely High Frequency (AEHF) constellation. The fiscal year 2003 
budget supports this transition and funds a transformation 
communications study to examine alternative architectures that meet 
strategic and tactical needs. A critical component of this architecture 
is the development and fielding of AEHF terminals on all NCCS elements 
before the existing MILSTAR constellation degrades. In addition, the 
recent, significant funding improvements in E-4B National Airborne 
Operations Center (NAOC) and E-6B Airborne Command Post long-term 
modernization and sustainment programs will ensure these vital airborne 
command and control platforms can support national-level decision 
making and force direction in future crises. U.S. Strategic Command's 
Mobile Consolidated Command Center (MCCC) is funded in the fiscal year 
2003 budget but has significant shortfalls across the FYDP. The 
Department is conducting a review of the overall MCCC program. 
Additionally, I am working with the Services on modernization of the 
equipment used for secure encrypted communications with not only our 
strategic forces but also the entire military. This equipment will 
require replacement beginning in fiscal year 2005, but remains unfunded 
in the FYDP.

    25. Senator Allard. Admiral Ellis, the NPR indicates that DOD will 
conduct regular reviews of the adequacy of U.S. nuclear forces and 
assessments of the viability of the NPR-recommended nuclear force 
reductions. Will the criteria STRATCOM uses to reassess the sufficiency 
of nuclear force levels recommended by the NPR include the health and 
capabilities of the other legs of the new triad?
    Admiral Ellis. Future assessments of the adequacy of U.S. nuclear 
forces will be conducted using several complementary criteria. Among 
them will be the global security environment, the emerging capabilities 
of nuclear and non-nuclear strike forces, our progress in developing 
active and passive defenses, and the health of our research and 
development efforts and industrial infrastructure.

    26. Senator Allard. Admiral Ellis and General Blaisdell, the 
Minuteman III will be modernized in a number of efforts that are 
currently planned to proceed more or less in unison to maximize 
efficiency, minimize cost, maximize security, and minimize disruption 
to forces in the field. Delays or complications in any of these 
programs could impact cost and schedule for the other efforts. Are 
STRATCOM and the Air Force confident that multiple, simultaneous 
upgrades to the Minuteman is a prudent, low risk approach to preserving 
ICBM capability?
    Admiral Ellis. Minuteman III modernization programs are 
synchronized to field upgrades in a series of just-in-time deployments. 
A prime example is the synchronization of the guidance replacement 
program (GRP) and the propulsion replacement program (PRP). The PRP 
booster requires a GRP guidance set, and as a result, the stability of 
GRP is key to maintaining on-time deployments of PRP boosters. As you 
stated, the primary risk to the overall Minuteman III program is a 
change to one of the interlocked, supporting programs. The Air Force 
aggressively worked the technical issues that have occurred during 
design, test, and deployment, and I am confident, if individual program 
stability and funding levels are maintained, the approach to Minuteman 
III modernization is appropriate.
    General Blaisdell. The Air Force regards the Minuteman III 
modernization approach as overall low risk. The primary risk associated 
with our interdependent system upgrades is largely based on maintaining 
required funding to support projected delivery schedules to the field. 
This risk has been successfully mitigated through consistent support by 
U.S. Strategic Command, OSD, Congress, and the Air Force. In addition, 
any potential risk that may arise due to the interdependence of 
programs (for example, the propulsion replacement and guidance 
replacement programs) is mitigated by careful synchronization and 
planning by our logistics, maintenance, and security force 
professionals. The plan minimizes maintenance and security forces 
deployments by maximizing delivery and install trips to the field.

    27. Senator Allard. Admiral Ellis and General Blaisdell, are 
STRATCOM and the Air Force confident that the operational availability 
of the Minuteman force throughout this process can be sustained at 
acceptable levels and will these levels vary significantly from the 
availability levels achieved historically?
    Admiral Ellis. U.S. Strategic Command actively monitors and 
coordinates with the Services on force modernization, and we are 
confident Minuteman III operational availability will be sustained at 
acceptable levels, similar to those sustained historically. Air Force 
Space Command is committed to providing the required number of 
strategic alert ICBMs, and the ongoing modernization processes will be 
accomplished within those current and future ICBM alert commitments. 
Historically, modernization processes have not significantly interfered 
with Minuteman alert rates.
    General Blaisdell. The Air Force coordinates very closely with U.S. 
Strategic Command to ensure the historically high ICBM alert rate of 
approximately 99.6 percent continues to provide the warfighter with the 
most effective and reliable weapon system in our nuclear inventory. Due 
to the carefully planned integration and synchronization of the 
Minuteman III modernization programs, the Air Force is committed to 
ensuring operational availability will remain at consistently high 
levels throughout force modernization.

                             BOMBER ROADMAP

    28. Senator Allard. Admiral Ellis, the Air Force bomber roadmap 
indicates that the current nuclear capable bomber force will remain in 
place, with no additional procurement, through about 2040. At that 
time, the average age of the B-52 fleet would be about nearly 80 years 
and the B-2 fleet would be about 45 years. Are you satisfied with this 
roadmap?
    Admiral Ellis. I fully support the Air Forces' bomber roadmap, to 
include full funding and timely fielding of various B-2 and B-52 
modernization and sustainment programs and the goal of starting a new 
bomber acquisition program not later than the 2012-2015 timeframe. 
However, we will need to monitor the impacts of unforeseen aging 
problems with the airframes themselves as we continue to use these 
venerable aircraft in the war on terrorism. I support the Air Force's 
ongoing comprehensive review of the bomber roadmap and look forward to 
reviewing the results.

    29. Senator Allard. Admiral Ellis, do you believe that the 
modernization plans for the bomber force are adequate, given STRATCOM's 
requirements?
    Admiral Ellis. I fully support current Air Force bomber 
modernization plans and believe the program is structured to meet 
current and future U.S. Strategic Command requirements. Of particular 
interest is full funding and timely fielding of survivable 
communications upgrades in the B-2 and B-52. In addition, ongoing and 
planned avionics upgrades and situational awareness and electronic 
countermeasures improvement programs are essential to ensure the 
effectiveness of the bomber force for the next four decades.

                   ADVANCED EXTREMELY HIGH FREQUENCY

    30. Senator Allard. Secretary Teets, the committee has been 
informed that U.S. allies who were contributing to the Advanced 
Extremely High Frequency (AEHF) program have not provided expected 
fiscal year 2002 funds because of their concerns that the new 
transformational communications satellite strategy may result in a 
smaller AEHF constellation that will not meet their needs. Will you be 
taking steps to assure our allies involved in this program that the 
AEHF program will remain responsive to their needs?
    Secretary Teets. The AEHF International Partners (IPs) did voice 
concerns over resource assurance. To alleviate this concern, ASD/C\3\I 
has prepared a letter to assure the IP's access to all space segment 
resources. The letters to Canada and the United Kingdom have been sent, 
and the letter to the Netherlands is in final DOD coordination.

    31. Senator Allard. Secretary Teets, is the AEHF program 
technically sound and are you satisfied with the industry management 
structure?
    Secretary Teets. The AEHF program is quite challenging but appears 
technically sound. I am satisfied with the industry management 
structure.

                   EVOLVED EXPENDABLE LAUNCH VEHICLE

    32. Senator Allard. Secretary Teets and General Eberhart, the Air 
Force decision to support two competitive EELV launch vendors was based 
in part on projections of a robust commercial launch market. These 
projections have been overly optimistic as a result of the failure of a 
number of commercial low earth orbit communications satellite programs. 
Are you concerned that the decline in the commercial launch market will 
undermine the viability of the two EELV launch vendors?
    Secretary Teets. Yes. However, maintaining two viable launch 
service providers is essential if we are to have assured access to 
space for our critical national security space sensors. Competition 
produces savings and flexibility in addition to more reliable access to 
space for our nationally critical payloads. The EELV program is a 
partnership with industry in which the Government shares in both the 
significant savings and the potential risks. Due to the downturn in the 
commercial market, it is reasonable to expect the overall cost to 
provide assured access to space may increase.
    General Eberhart. Yes, we are concerned and will continue to assess 
the situation to do what is right for our national security and the 
vendors involved.

                           SPACE-BASED RADAR

    33. Senator Allard. Secretary Teets and General Eberhart, what 
factors give you confidence that technology and cost challenges can be 
met successfully to achieve the 2010 time frame for first launch of a 
SBR satellite?
    Secretary Teets. First, since 1992 over $500 million has been spent 
by the Air Force, the NRO, and other agencies to assess Space-Based 
Radar utility and develop enabling technologies. The Discoverer II 
program, in particular, accomplished significant technology risk 
reduction and worked detailed system engineering solutions for the now-
canceled two-satellite demonstration. Second, there are many other 
operational or research programs ongoing with technology that directly 
translate to a future Space-Based Radar. Some examples include both 
airborne and space-based data dissemination and exploitation technology 
work by Air Force labs, FFRDCs, the NRO, and others. Third, OSD led an 
in-depth study over 7 months including services, the intelligence 
community, and other agencies resulting in the Deputy Secretary of 
Defense-signed SBR Roadmap (22 Feb 02). In the roadmap process, the 
team carefully assessed the current technology readiness levels versus 
where we need to be to deploy SBR, and developed plans to ensure we do 
everything needed to properly mature the technology. In addition, the 
NRO has continued work on radar payload technology since Discoverer II 
cancellation, and we've seen some excellent and promising results not 
only with the potential radar payload performance, but also in areas of 
affordability and producibility. Over time we've also continued to use 
independent teams to check our work and ensure we're doing everything 
possible to maximize future SBR program success.
    General Eberhart. Our confidence is based on the promising results 
of technology investment in prototype radar payloads and the DOD's 
experience with past programs such as Discoverer II. Preliminary data 
supports the performance and cost estimates that have been developed 
for SBR.

    34. Senator Allard. General Eberhart, what progress has been made 
in integrating SBR into a coherent architecture including national 
assets and airborne platforms?
    General Eberhart. At the present time, we are working with key 
stakeholders in the Department of Defense and the Intelligence 
Community to develop a Concept of Operations to fulfill warfighter 
requirements. In addition, we have broadened the scope of traditional 
pre-acquisition activities to plan for an integrated system of systems 
solution that effectively incorporates existing and future airborne 
collection platforms, as well as national assets.

                           SPACE SURVEILLANCE

    35. Senator Allard. Secretary Teets, space surveillance is a key 
element of space control, and space control is taking on increasing 
significance as U.S. reliance on space increases over time. An August 
2000 study of the space surveillance system found that current space 
surveillance is not adequate to meet military needs, and that the 
system today is a collection of dedicated, contributing, and collateral 
components that are not adequately integrated as a coherent 
architecture. Are you satisfied with current space surveillance 
capabilities? What improvements to current capabilities would you 
prioritize?
    Secretary Teets. Today's space surveillance capabilities do not 
meet national requirements and need to be improved. We cannot at this 
time fully support the other space control missions of offensive 
counterspace (OCS) and defensive counterspace (DCS), nor can we fully 
support other customers who rely on space surveillance data for their 
own space operations (i.e., NASA).
    We are working to transform space surveillance operations to 
broaden space situational awareness (SSA) operations. SSA not only 
includes traditional space surveillance, but also space reconnaissance, 
space intelligence, and space weather functions.
    The first and most important need is to prevent an upcoming gap in 
space-based space surveillance. Currently, the Mid-course Space 
Experiment/Space-Based Visible sensor (MSX/SBV) is expected to end life 
in 2005. The follow-on to this system, the Space-Based Space 
Surveillance (SBSS) System, is not scheduled for Initial Operational 
Capability until 2010--resulting in a 5-year gap which will degrade 
current SSA capabilities and result in the loss of crucial operational 
experience in space-based operations. We are working hard to accelerate 
SBSS.
    Other necessary improvements include the sustainment of critical 
elements of the current Space Surveillance Network (SSN), particularly 
some of our ground-based radars that provide very precise observations. 
Many of these assets are over 30 years old and need to be modernized. 
The development and integration of improved Space Control C\2\ and data 
fusion of information (like space intelligence) into SSA is also a 
critical need.

    36. Senator Allard. Secretary Teets and General Eberhart, is the 
National Security Space Architect examining future space surveillance 
architectures?
    Secretary Teets. The National Security Space Architect (NSSA) 
examined the future needs of space surveillance as part of a 1997 Space 
Control Architecture study. This effort eventually led to the August 
2000 Space Surveillance Task Force study report cited in Question #35. 
The NSSA also began an effort in 2001 to develop a top-level 
operational architecture specifically for Space Situational Awareness 
(SSA), which will include space surveillance. In addition to this work, 
the Space Situational Awareness Integration Office (SSAIO) was 
established in 2001 as the executing office for the Air Force, the lead 
service system integrator for SSA as directed by ASD(C\3\I). The SSAIO 
has developed a detailed methodology on how to evaluate future space 
surveillance system architectures and is preparing to conduct 
evaluations of mid-term capabilities.
    General Eberhart. Yes, the NSSA is conducting a study of SSA to be 
completed later this year. This study will define an architecture that 
leverages all space-based surveillance, reconnaissance, and 
intelligence activities to provide an SSA common operating picture.

                               SBIRS-LOW

    37. Senator Allard. General Eberhart, do you believe that SBIRS-Low 
could contribute to the space surveillance mission? If so, how?
    General Eberhart. Yes, we believe SBIRS-Low will be a contributing 
sensor to the Space Surveillance Network. Specifically, it will collect 
infrared and visible signature data to identify, track, and monitor 
space objects.

                       SATELLITE CONTROL NETWORK

    38. Senator Allard. General Eberhart, commercial antennas could 
potentially be used to supplement (or even potentially replace some) 
Air Force owned and operated equipment. Limited demonstrations of 
commercial antennas have been done and have demonstrated the 
feasibility of the concept. Further demonstrations have not been 
funded. Are you concerned about the obsolescence of the satellite 
control network and do you believe that commercial antennas could 
supplement Air Force capabilities in this area?
    General Eberhart. Yes, we are concerned about the aging Air Force 
Satellite Control Network. However, we have implemented a long-term 
improvement and modernization program that includes commercial off-the-
shelf technology. This program will expand the network's operational 
capabilities and high level of performance well into the 21st century.
    In addition, commercial networks do not meet our critical 
operational requirements, such as timing, accuracy, and high-power 
commanding. Recent demonstrations of commercial antennas were not as 
promising as we hoped.

                  INTEGRATION OF BLACK AND WHITE SPACE

    39. Senator Allard. Secretary Teets, the Space Commission 
recommended that NRO and Air Force space programs be appropriately 
aligned. Part of this recommendation included the designation of Under 
Secretary of the Air Force as the Air Force space acquisition executive 
as well as the director of the NRO. That has happened. But, the most 
recent organization chart shows Under Secretary Teets at the top of an 
NRO (black space) structure and an Air Force (white space) structure, 
with an integration office in between them--something that looks like a 
stovepipe connecting two stovepipes. Would you describe in more detail 
how you intend to achieve this integration and how the organization you 
have established will support that integration?
    Secretary Teets. The Space Commission report indicated that the 
integration of military space efforts and the NRO was a desired goal, 
but that it was a far-term goal and should only happen after certain 
changes had occurred within the Air Force--namely the establishment of 
a ``cradle-to-grave'' construct and the creation of a ``space 
professional cadre.'' In the meantime, the NRO will need to do the work 
that they do, and the Air Force will need to do the space-related 
efforts they are responsible for. That being said, I have organized my 
top level staff to move forward and directly facilitate what I believe 
was the intent of the Space Commission in terms of integrating 
``black'' and ``white'' space. With the combining of both the Director 
of the NRO and the Under Secretary of the Air Force, there is now one 
person with the clear authority to make the space programmatic 
decisions across Air Force and NRO space programs. The role of the 
office you mentioned, NSSI, as well as my two deputies is to work 
across existing organizations of the Air Force and the NRO such that, 
while there are multiple decision execution or implementation arms 
(i.e., the Air Force's Space and Missile Systems Center and the NRO's 
Directorates) at the top, we can function as a single coordinated 
National Security Space entity.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith

                             SPACE CONTROL

    40. Senator Smith. Secretary Teets, according to General Eberhart, 
space control, the ability to protect one's own space assets while 
denying an adversaries use of in-orbit resources, is ``still at idle. 
It's time to move that up.'' Our reliance on space is unquestioned and 
fully understood by the world. General Franks in his February 7 
statement in front of the Senate Armed Services Committee said the use 
of unmanned aerial vehicles, precision guided munitions, and C\4\ISR) 
systems proved to be ``very effective'' in the prosecution of what he 
considered to be ``the most accurate war in the history of the United 
States.'' All of these assets rely on space systems, such as global 
positioning satellites and the satellite communications network, to 
operate and function. Without them, we would have had a much rougher 
time prosecuting the war, and undoubtedly more lives would have been 
lost. Our dependence on space is not limited to defense purposes, 
however. Our economy is increasingly dependent on space. Our enemies 
understand this, and it is only a matter of time before an adversary 
figures out how to deny us the use of these systems, such as a pop-up 
nuclear or large conventional explosion in space. Our defenses against 
this are limited at best, and more focus is needed. What is being done 
to ensure not only that we have the assets to ensure our 
vulnerabilities are minimized, but also to ensure we have an overt 
deterrent to others trying to develop such systems?
    Secretary Teets. Measures being taken to defend against attack of 
U.S. space systems are in two space control submission areas: defensive 
counterspace (DCS) and space situational awareness (SSA). Planned 
developments will provide satellite operators, users, and decision-
makers the information to respond to unintentional interference or 
deliberate attack against U.S. space systems. We are now developing the 
rapid attack identification and reporting system (RAIDRS), integrated 
DCS capabilities addressing threat detection, identification, location/
classification, and attack reporting. RAIDRS will initially consist of 
distributed terrestrial elements, future satellite-hosted sensors, 
centralized data fusion and analysis, and communications 
infrastructure.
    RAIDRS will work in concert with SSA assets to allow us to timely 
detect space events and respond defensively. Expanded SSA capabilities 
will include migration of space surveillance to space basing, 
inspection of space-based objects, and more responsive interfaces to 
the national intelligence community to locate and characterize 
terrestrial threats. The combination of enhanced SSA and focused threat 
detection and warning through RAIDRS will enable satellite developers 
and operators to effectively employ a full range of defensive measures 
in response to interference or attack on our systems. These defensive 
measures include, but are not limited to, maneuver to avoid threats, 
anti-jam capabilities, satellite hardening, sensor filters, redundant 
communications, and electronic warfare defenses.
    We are exploring the feasibility of requiring satellite buyers to 
include attack detection capabilities at their ground sites and host 
sensors on board satellites that support critical missions. In 
addition, we are evaluating the utility of fielding escort satellites 
capable of detecting threats and actively defending our space assets. 
While terrestrial-based interference or attack on our satellites can be 
accomplished with modest capabilities, attacking our space assets from 
space is a very expensive and high technology capability, requiring 
significant resources by any adversary. Developing comprehensive 
defensive capabilities will deter nations from committing high value 
resources to an attack that would have a low probability of succeeding.

                        SPACE FORCE APPLICATION

    41. Senator Smith. Secretary Teets, to date, space has been 
relegated to a support role. The ``weapons in space'' issue has 
paralyzed the country and prevented it from moving out on systems which 
would protect the American people. A key component of boost-phase 
defense is the space based laser, which was on course for a 2012 
demonstration. Recently the Department cut the program's budget from 
$200-$300 million per year to $50 million per year, effectively killing 
the program. The program was cut in fiscal year 2002 ($170 million to 
$50 million) as a bill payer for other issues. There has been no overt 
congressional opposition to the program. Why didn't the administration 
defend the program and restore it to its previous levels in the 
President's budget?
    Secretary Teets. The Space-Based Laser program is run by General 
Kadish at the Missile Defense Agency and I would ask that any 
programmatic questions be presented to him.

                            INDUSTRIAL BASE

    42. Senator Smith. Secretary Teets, the cost of entry for companies 
into the space arena is very high, and the current companies seem to 
not be finished yet with consolidation. There are several new companies 
and with fewer and larger programs it is difficult for a smaller 
company to compete for the larger programs. Are you concerned that the 
large companies will starve innovation (which will ultimately have an 
adverse impact on the industry attracting new college graduates) in 
favor of maximizing the ``bottom line''?
    Secretary Teets. Space industrial base issues are always a concern. 
Space systems are expensive and the risks and consequences of failure 
are substantial. The government must work to mitigate risks, control 
our costs, and meet operational needs. It can often be a fine line 
between prudent risk mitigation and the elimination of innovation. I 
think the real area that is ripe for small and/or new companies with 
innovative ideas for space-related applications is space science and 
technology. In fact, the small business innovation research program is 
intended to cultivate such companies. Secretary Rumsfeld has, in his 
fiscal guidance to the Department and in his 18 October 2001 memo 
regarding Space Commission implementation, made it clear that space-
focused science and technology is a high priority area for this Nation. 
Opportunities and avenues for truly promising ideas are there.

                            NORTHERN COMMAND

    43. Senator Smith. General Eberhart, I understand that DOD is 
reorganizing the joint warfighting commands to add the new ``Northern 
Command'' for homeland defense. I understand that the Unified Command 
Plan and the details of the reorganization are not out yet; however, 
can you give me any insight into how roles and responsibilities will 
change among U.S. Space Command, NORAD, and Strategic Command and how 
are we going to maintain our focus on the space and missile defense 
missions in our shuffle to take on the important homeland security 
mission?
    General Eberhart. Unified Command Plan 2002 does not contain new 
mission requirements or change the focus of NORAD, U.S. Space Command 
or U.S. Strategic Command. It does establish a new unified command, 
U.S. Northern Command, which will be responsible for U.S. homeland 
defense and support to civil authorities.

                                  GPS

    44. Senator Smith. General Eberhart, with the increasing reliance 
on GPS, both in terms of our military and in the civilian sector, it 
seems we should be very clear in our minds where we are headed with 
GPS-issues such as frequency protection, military versus civilian 
control, signals, power, accuracy, international involvement, etc. 
There doesn't seem to be a clear plan for the future of GPS and how it 
will continue to support national security objectives while the 
commercial use of the system expands. Are we working on one, and are we 
making sure we focus on all elements of the system, both long- and 
short-term?
    General Eberhart. U.S. Space Command has worked with the Air Force 
to ensure GPS will continue to meet the many needs of the military, 
civilian, and commercial communities for the short- and long-term. For 
example, to address immediate requirements, we are currently launching 
two to three Block II-Replenishment satellites per year. Next year, we 
will launch the first ``modernized'' replenishment satellite that will 
feature new signals for civilian and military users.
    In approximately 2009, we will introduce the new Block III GPS 
satellite which will feature improved accuracy, new cross-link 
commanding, and have an additional antenna to provide increased power. 
We will also improve the ground control element of GPS constellation.

                               SBIRS-LOW

    45. Senator Smith. General Eberhart, the SBIRS-Low has been plagued 
with overruns and poor program management, both on the government and 
the contractor sides. ``Requirements creep'' is always difficult on 
space programs, and is a cause of the problems on SBIRS-Low. In 
addition, the Department is mulling a potential shift in strategy on 
SBIRS-Low which would combine the two currently competing prime 
contractors into a single team. How will you ensure space requirements 
are set and don't creep and will there be a ``Space Requirements 
Oversight Council'' that will validate requirements?
    General Eberhart. We will continue to use the Joint Requirements 
Oversight Council to validate warfighter requirements for space-based 
assets.

    46. Senator Smith. General Eberhart, what are the prospects that a 
``national team'' will be able to produce a better team than a winner 
of the competition, and how are you going to ensure the government gets 
a ``good deal'' from the resultant business/contractual arrangement?
    General Eberhart. We defer to the Missile Defense Agency, since 
they have the lead on SBIRS-Low acquisition.

    [Whereupon, at 4:27 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                       WEDNESDAY, APRIL 10, 2002

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.

    DEPARTMENT OF ENERGY'S ENVIRONMENTAL MANAGEMENT PROGRAM AND THE 
 NATIONAL NUCLEAR SECURITY ADMINISTRATION'S DEFENSE PROGRAM AND OTHER 
                           WEAPONS ACTIVITIES

    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed, Inhofe, Allard, 
and Sessions.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff members present: L. David Cherington, 
minority counsel; and Mary Alice A. Hayward, professional staff 
member.
    Staff assistants present: Andrew Kent and Thomas C. Moore.
    Committee members' assistants present: Elizabeth King, 
assistant to Senator Reed; Peter A. Contostavlos, assistant to 
Senator Bill Nelson; John Gastright, assistant to Senator 
Thurmond; and Douglas Flanders, assistant to Senator Allard.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Let me call the hearing to order. The 
Strategic Subcommittee meets today in two panels to discuss the 
Department of Energy's Environmental Management (EM) program 
and weapons activities at the National Nuclear Security 
Administration (NNSA). The witness on the first panel is Ms. 
Jessie Roberson, the Assistant Secretary of Energy for 
Environmental Management. Secretary Roberson, welcome.
    The witnesses on the second panel will be Dr. Everet 
Beckner, the Deputy Administrator for Defense Programs, and Mr. 
Ralph Erickson, the Associate Administrator for Facilities and 
Operations, both at the NNSA.
    In the past, the Strategic Subcommittee has had the 
opportunity to discuss EM programs and weapons activities in 
two separate hearings. At the EM hearing, we would ususally 
have the opportunity to hear from the major prime contractors 
responsible for implementing the DOE cleanup programs.
    In past hearings we have had the opportunity to hear from 
the operating contractors at the NNSA weapons plants and the 
directors of the three laboratories. Unfortunately, the 
committee's schedule this year does not permit us to hear from 
the contractor-operators and lab directors of these facilities 
in person. Nevertheless, it is important that we hear from 
these contractors as they are charged with implementing the 
various programs that we will discuss today.
    For that reason, I would like to extend to these 
contractors the opportunity to provide testimony to be included 
in the subcommittee's record of this hearing. Several NNSA 
contractors have submitted testimony for the record already. 
The testimony that we have will be included in the record. Any 
testimony from any other NNSA or EM prime contractors will also 
be included in the record provided such testimony is submitted 
by 6:00 p.m. Monday.
    [The information referred to follows:]

                  Prepared Statement by John C. Browne

    Thank you Mr. Chairman and distinguished members of the Strategic 
Subcommittee for the opportunity to submit this report on the status of 
national security programs at Los Alamos National Laboratory. Los 
Alamos is one of three multi-program scientific institutions supported 
by the Department of Energy's National Nuclear Security Administration 
(NNSA), and has been operated by the University of California since its 
inception in 1943. Seventy percent of the work at Los Alamos supports 
the NNSA mission. Eighty percent of our work is directly related to 
national security. All of our work stems from our historic public 
service and national security mission. We appreciate the support this 
subcommittee has given us in carrying out our mission.
    The new threats of the 21st century--worldwide terrorism and the 
daunting possibility of the use of weapons of mass destruction--cannot 
be met by nuclear deterrence alone. With the formation of the Office of 
Homeland Security and the issuance of the Nuclear Posture Review and 
the Quadrennial Defense Review, our country is developing new national 
security policy directions for the 21st century that will require a 
broad array of scientific and technological innovations in the coming 
decades. The NNSA weapons laboratories will provide the Nation with 
many of the needed science and technology capabilities that will 
support our Nation's needs in nuclear deterrence, conventional defense 
and homeland security.
    Our stockpile stewardship mission is directly linked to the urgent 
national security priorities of our country. We are aligned with the 
new nuclear strategy set forth in the 2001 Nuclear Posture Review (NPR) 
which outlines a deterrence strategy based on a new triad of non-
nuclear and nuclear strike capabilities, a strong defense capability, 
and a responsive defense infrastructure. The active support of the new 
triad by healthy and responsive national laboratories, as well as the 
DOD, will be key to the success of this deterrence strategy. We are 
committed to:

        <bullet> Ensuring the safety, reliability, and responsiveness 
        of the U.S. nuclear-weapon stockpile;
        <bullet> Reducing threats to U.S. and global security, with a 
        special focus on countering proliferation and possible 
        terrorist acquisition, threats, and use of weapons of mass 
        destruction; and,
        <bullet> Providing technical solutions to long-term national 
        security problems in infrastructure vulnerabilities, energy, 
        environment, and health.

    We are as focused and committed today to our mission and purpose as 
we were 60 years ago. The stockpile stewardship mission--maintaining 
the safety and reliability of the enduring nuclear stockpile without 
nuclear testing--is one of the most difficult technical challenges this 
Nation has ever attempted. As our nuclear weapons age beyond their 
design lifetimes, Directed Stockpile Work--surveillance, assessment, 
and response--will increase. Certification of nuclear weapons in an 
environment without nuclear testing requires the best science in 
modeling and simulation, dynamic material behavior, special nuclear 
materials and explosives, and experimentation. Therefore, our weapons 
activities must focus on ensuring a balanced and sustainable 
stewardship--between direct stockpile work and the campaigns that 
support the underlying science needed to certify stockpiled weapons and 
to meet future nuclear weapon requirements--for this decade and beyond.
    To meet the technical and operational challenges posed by our 
demanding mission, last September I appointed a new nuclear-weapon 
program management team and restructured the laboratory to be more 
focused on execution and product delivery. There are several structural 
changes in the NNSA being implemented in the field and site offices. 
These changes should strengthen our partnership with the NNSA, at all 
levels, which already has improved markedly under General Gordon's 
tenure. The University of California (UC) has appointed a new vice 
president for laboratory management and has increased its oversight and 
involvement in improving laboratory performance and operations. We are 
operating under a new 5 year contract between UC and DOE/NNSA that 
requires us to perform against rigorous technical and operational 
standards that will serve the Nation well.
    We have made great progress during this past year. I will highlight 
some major accomplishments in our Stockpile Stewardship Program, our 
threat reduction program, and in our operations. I will also review key 
issues and challenges with respect to our mission that face us in the 
future--and to the science, the workforce and the infrastructure that 
underpin that mission. In the attached addendum, key elements of our 
nuclear weapon and threat reduction programs are addressed in greater 
detail.

                PROGRESS AND ACCOMPLISHMENTS: HIGHLIGHTS

I. Stockpile Stewardship Program
    In 1995, we were tasked to conduct a stockpile stewardship effort 
to sustain the enduring nuclear-weapon stockpile without nuclear 
testing. Sustaining the nuclear deterrent under these conditions 
continues to pose a grand challenge. It is my primary responsibility to 
position the laboratory and provide the people and tools to ensure that 
we are equal to this challenge. The requirements of stockpile 
stewardship are technical, determined by the science of nuclear 
weapons, by the processes of aging affecting both the workforce and the 
weapons, and by required levels of confidence. It is essential that we 
meet these requirements. I would like to highlight a few of our 
achievements in meeting these requirements.
    Annual Certification. For the sixth consecutive year, I have been 
able to certify to the Secretaries of Defense and Energy that the five 
Los Alamos designed weapons (the B61 family, W76, W78, W80, and W88) in 
the U.S. nuclear stockpile remain safe and reliable and that a nuclear 
test is not required at this time to resolve any of the issues that 
exist for these weapons. Although I am concerned about a growing number 
of issues identified by our ongoing surveillance activities, to date we 
have been able to resolve most of the issues through assessments, 
changes in operating conditions, or refurbishment plans. In the past 
some of these issues would have required nuclear tests to resolve. The 
challenge we face is to have certification tools and trained people 
adequate to address these issues.
    We have strengthened our certification approach each year since 
beginning this process in 1996. In the past year, Los Alamos and 
Lawrence Livermore National Laboratories reached agreement on an 
approach for certification that utilizes similar methodologies while 
maintaining independence for peer review purposes. In addition, we are 
planning to phase in internal ``red teams'' or ``fresh-eye teams'' at 
Los Alamos designed to look for the issues that might have been 
overlooked by the responsible warhead design and refurbishment team. 
Reports from both teams will be submitted to me for incorporation into 
my annual assessment of the stockpile.
    Pit Manufacturing and Certification. One of our highest priorities 
at Los Alamos National Laboratory is to re-establish the Nation's 
capability to manufacture plutonium pits, the heart of nuclear weapons. 
The W88 has been selected as the crucial prototype for restoring the 
Nation's nuclear manufacturing capability. Producing a pit for a 
nuclear weapon involves two distinct but intertwined activities: 
manufacturing and certification. Significant progress in this program 
has been made in this last year. We are well along in establishing a 
limited manufacturing capacity for pits. Eleven developmental units 
have been produced to date. We are on schedule to deliver a certifiable 
W88 pit, defined as one that meets all manufacturing requirements and 
specifications, by April 2003.
    Even though we will provide a key capability in a timely fashion, 
the laboratory will not have sufficient capacity to meet envisioned 
future pit production requirements. We support NNSA's pit production 
strategy, which is based on an assessment of pit lifetime and numbers 
of weapons projected in the stockpile, to reestablish industrial-scale 
pit production in the longer term.
    Certification of the pit is an extremely challenging process that 
requires both highly specialized equipment and expertise. Los Alamos 
has identified a series of laboratory and sub-critical experiments that 
are designed to test and validate our computer simulations that will be 
needed to ensure that the pit will perform as designed. Based on 
improved planning and better certification methodology, we have been 
able to move up our schedule for certifying these pits for war reserve 
use from the previously scheduled date of 2009 to 2007.
    Directed Stockpile Work. In addition to our pit manufacturing 
responsibilities, we are also responsible for neutron target tube 
loading, detonator fabrication for all the weapons in the stockpile, 
Beryllium component manufacturing, pit and valve surveillance testing, 
and high fidelity mock pits for joint test assemblies (JTA) used in 
flight testing.
    In the area of stockpile Life Extension Programs (LEPs), we began 
engineering development for the Navy's W76 warhead and will proceed 
toward production development and certification with the first 
production unit (FPU) scheduled for 2007. Evaluation of the condition 
and life expectancy of the materials in the nuclear explosive package 
is being addressed. A major refurbishment is planned to support the 
extension of the lifetime of this warhead to 2042. We also have 
finalized plans with NNSA, Pantex, and Y-12 to begin refurbishing 
canned subassemblies of the B61 Mod 7 and 11 in 2006. In support of the 
Lawrence Livermore National Laboratory W80 Life Extension Program, we 
are developing the Acorn gas transfer system with the Sandia-California 
site. With Sandia, we have completed the W80 baseline program and 
continue to support knowledge transfer to LLNL.
    As part of the enhanced surveillance program, Los Alamos continues 
to be a national leader in materials characterization and aging 
studies. We are developing non-destructive technologies for 
surveillance and diagnostics on components and systems that will help 
us improve our understanding of nuclear weapons aging.
    Advanced Simulation and Computing. The Advanced Simulation and 
Computing (ASC) program of the NNSA is an essential element of the 
nuclear-weapons program. The objective is to provide greater computing 
power and to develop new computational models that will allow weapons 
designers and other nuclear weapons experts to use validated modeling 
and simulation to assess changes in the stockpile to determine if the 
existing weapons remain safe and reliable without nuclear testing.
    We continue to make rapid advances in the ability to simulate 
nuclear explosions faster and with greatly increased detail. During 
this past year, we completed the first three-dimensional simulation of 
a full nuclear weapon system explosion using the LLNL 12 TeraOps White 
computer. This calculation represents the first time that we have been 
able to compute a fully-coupled primary and secondary explosion to 
analyze weapon performance. It represents a breakthrough for the 
program and unprecedented detail for designers and analysts.
    The Strategic Computing Complex (SCC) was completed on schedule and 
under budget. We are installing the first phase of 10 of the 30 TeraOps 
computers that were purchased for this ASC program. We are installing 
the full capability in ``phases'' in order to facilitate performance 
testing to connectivity requirements. The computer will provide the 
computing power required to run the new computational tools to support 
the Stockpile Stewardship Program mission. These new weapon-system 
simulations will replace the less-predictive legacy based models.
    Hydrodynamic Testing. The nuclear weapon primary is the most 
critical component of the weapon. Understanding its performance is 
essential to confidence in the safety and reliability of the stockpile. 
Hydrodynamic tests of primary systems--non-yield experiments measuring 
the implosion characteristics of primary systems using simulated 
nuclear materials--enable us to evaluate some crucial aspects of 
nuclear weapon performance. Completion of the first axis of the Dual 
Axis-Radiographic Hydro-Test (DARHT) facility has enabled us to perform 
these tests with outstanding spatial resolution of the imploding 
surrogate pit. We performed five major hydro tests (four at DARHT) in 
the last quarter of fiscal year 2001 directly related to stockpile 
systems and in support of certification activities and plan six more 
later this year. Following commissioning and optimization of the second 
axis of DARHT, the facility will provide an enhanced diagnostic 
capability in fiscal year 2004. We are also continuing to develop 
proton radiography as an advanced capability in order to maintain our 
ability to certify the refurbished nuclear weapons, and to validate the 
predictive capabilities of next-generation designers.
    Test Readiness. The Nuclear Posture Review has called for enhanced 
test readiness. We support test readiness through a number of 
collaborations with the Nevada Test Site. The most prominent 
collaboration is that of sub-critical, non-yield, underground tests 
that address key dynamic materials issues and exercise the 
infrastructure required, should a return to underground nuclear testing 
be needed. In February, we conducted a successful collaborative sub-
critical experiment in Nevada that yielded significant data. Although 
we see no reason to do a nuclear test today, we support General 
Gordon's direction to reduce the timescale required to resume nuclear 
testing as a prudent measure.
    Advanced Concepts. The Nuclear Posture Review identified a need for 
the nuclear-weapons design laboratories to maintain their design 
expertise through the study of advanced concepts that could meet 
changing weapon requirements in the future. These studies include new 
and extended concepts (those that may have been developed and tested in 
the past, but not deployed). At Los Alamos, we have an NNSA-approved 
effort evaluating robust earth-penetrating weapons and a small study 
group looking at past R&D efforts that could be developed to meet 
changing national needs for nuclear deterrence. If the country requires 
a vigorous effort, we will need explicit support and funding for such 
advanced concepts.
II. Threat Reduction Programs: Non-proliferation, Counterterrorism, 
        Homeland Security, and Defense Transformation
    As a result of shifting national security priorities since 
September 11, the newly created Office of Homeland Security has been 
charged with protecting the United States from terrorist attack. We are 
strongly committed to supporting this effort and are participating with 
Lawrence Livermore and Sandia National Laboratories in an effort to 
defend the U.S. against nuclear, chemical, and biological terrorist 
attacks.
    For example, our pioneering work on sequencing the human genome 
helped not only to develop technologies and breakthroughs, but also to 
grow a unique bioscience base at the laboratory. Because we had 
developed this capability, in the aftermath of September 11 we were 
able to play a key role in analyzing DNA of anthrax samples from the 
mail attacks. We were able to determine that these samples came from 
the common Ames strain, which assisted in efforts to respond to and 
treat victims. With Livermore, we deployed a biological agent detection 
system at the Salt Lake City Olympics. The multi-spectral thermal 
imager (MTI) satellite, developed in a joint project with Sandia 
National Laboratories, was re-deployed to help analyze the destruction 
and the dispersal of potentially harmful debris from the attacks on the 
World Trade Center.
    We currently are working with Sandia to develop a critical 
infrastructure analysis capability, which derives from an innovative 
simulation and modeling approach originally developed for understanding 
and improving large-scale transportation networks. The National 
Infrastructure Simulation and Analysis Center (NISAC) will use this 
approach for government planning and analysis of vulnerabilities and 
responses to terrorist attacks.
    We have provided the Nation with our expertise and special 
equipment for over 25 years in addressing threats of stolen or 
improvised nuclear devices through our NEST teams that continue to 
serve today. We also have been working since the early 1990s to help 
secure vulnerable nuclear materials in Russia, and have supplied 
technologies for decades to help the International Atomic Energy Agency 
and other governments control nuclear materials.
III. Laboratory Operations
    During the past year, we rigorously continued our efforts to 
integrate safety and security into our programmatic work. We have 
fortified our physical and cyber security, and have increased security 
still further since September 11. Our guard force is over 500, with a 
large contingent of SWAT teams; our defense against a terrorist attack 
has been significantly enhanced; our special nuclear materials are in a 
safe and secure configuration. Because of the rapid pace of change in 
technology, maintaining an appropriate level of support for cyber 
security will be critical to our ability to meet the challenges 
presented by this continuing threat.
    Laboratory safety performance has markedly improved compared to 
national benchmarks--total recordable incidents have decreased over the 
past 4 years from over 4.0 per 200,000 hours worked to less than 2.0 
this year. In the same time frame, lost work day cases have decreased 
from over 3.2 per 200,000 hours worked to 0.90. Waste generation and 
radiation exposures have all been significantly reduced, and we have 
moved some of our transuranic waste off site from Area G to WIPP, 
although I believe that the DOE could increase the priority to ship 
more waste.
    Project management improvements at Los Alamos continue to build on 
a strong foundation we established 3 years ago. We presently have three 
major construction projects that either have finished or will finish 
significantly ahead of schedule and under budget.
                 major challenges: ensuring the future
I. Science: Achieving Program Balance
    The biggest challenge facing the Stockpile Stewardship Program is 
developing a balanced program within the budgets provided by Congress. 
The balance that must be struck is between warhead life extension 
programs, infrastructure maintenance and recapitalization, sustaining a 
preeminent capability in weapons-relevant science and experimentation, 
test readiness, and exploration of advanced concepts. The Future Years 
National Security Plan (FYNSP) that NNSA submitted to Congress this 
year is a good start toward providing a process for achieving this 
balance. At present, scientific investments needed to ensure that the 
next generation of weapons designers will be able to certify the 
stockpile in future decades are under stress due to the focus on the 
refurbishment of three weapons systems in the coming decade. The 
predictive assessment tools currently available to certify these 
planned LEPs are not yet adequate for the scope of these 
refurbishments. The addition of new production facilities, such as the 
Modern Pit Facility, will add to that stress unless the future year 
budgets accommodate such large expenditures.
II. Threat Reduction
    NNSA, working with LANL and the other NNSA Laboratories, has had 
many successes with the existing Chemical and Biological National 
Security Program (CBNP), but the important research in this area needs 
to be expanded to include a broader range of biological threats. On the 
nuclear side of the equation, however, no CBNP-like program currently 
exists. Because of the threat posted by nuclear and radiological 
terrorism, we believe that creation of a broad-based nuclear threat 
program is critical to meeting the challenges in this area. A new 
program within NNSA could be modeled upon the already successful CBNP 
program. Lastly, in order to tie all of these activities together, I 
believe that NNSA should take on a major responsibility for homeland 
security research and development.
III. Workforce
    A large number of personnel at Los Alamos are nearing retirement, 
and it is critical that we effect the transfer of technical and 
programmatic knowledge that they embody. We must attract and retain the 
next generation of stockpile stewards. We are planning to hire 
approximately 1,000 employees during fiscal year 2002--600 to meet 
workload requirements and 400 to address attrition. We are aggressively 
recruiting, and are strategically focusing these hiring efforts to 
attract 80 percent of new hires at the entry-level. To date, this 
fiscal year we have hired over 300 new employees. To attract the most 
outstanding scientists, engineers, technicians, and support personnel 
we must focus our efforts on sustaining and improving the quality of 
life for our employees. We must redouble our efforts in areas that 
impact our ability to attract and retain a diverse and high quality 
workforce--by ensuring that we retain our ability to pursue cutting 
edge science and research, by improving our infrastructure and 
facilities, and through a continued focus on and investment in 
education, the environment, and economic development.
    Laboratory Directed Research and Development (LDRD) is a key tool 
that I have available to help attract and retain the best scientists 
and engineers. LDRD is a well-managed program as indicated by a recent 
GAO audit of the program. I strongly recommend that Congress continue 
its strong support for LDRD. Continued support of the Los Alamos 
schools and Los Alamos National Laboratory Foundation also is key to 
employee recruiting and retention, as well as to education and economic 
development in the region.
IV. Infrastructure
    We continue to experience deterioration of our infrastructure and 
facilities, which may serve to undermine our long-term ability to 
fulfill stockpile stewardship objectives. We have developed a Ten Year 
Comprehensive Site Plan that NNSA has approved as a guide for 
prioritizing maintenance and facility replacement at our site. In 
addition, I have chartered an external review of our facilities and 
infrastructure to determine where and how we might shrink our footprint 
for today's mission.
    In particular, we need your support for the replacement of our 50-
year-old Chemistry and Metallurgy Research (CMR) building, which is 
planned for relocation within an Integrated Nuclear Complex at our TA-
55 site. We strongly support General Gordon's 10 year Facilities and 
Infrastructure Revitalization Initiative. Congress provided an initial 
appropriation last year ($200 million), but this will continue to be a 
critical issue in fiscal year 2003 and the outyears. Without your 
continuing and strong support of this initiative, we will not be able 
to carry out either the manufacturing or certification efforts for the 
stockpile.

                               CONCLUSION

    For more than a half a century, the Nation's investments in Los 
Alamos have helped ensure our National security. We face ongoing and 
new challenges--a new Nuclear Posture with fewer deployed nuclear 
weapons, certification of an aging stockpile without nuclear testing; 
the need for a balanced program ensuring science in our programmatic 
endeavors; and the need for new technologies to address non-
proliferation, threat reduction and counter-terrorism. We are committed 
to meeting these challenges to our Nation's security.
    In conclusion, I would like to thank you for your past support. 
Your continued support is critical to our ability to meet the 
technically demanding and vital national security challenges we face 
today and in the future.
                                 ______
                                 
          Addendum to the Prepared Statement by John C. Browne

    The following information supplements the laboratory report 
submitted by Director John C. Browne of Los Alamos National Laboratory 
(LANL).
                         STOCKPILE STEWARDSHIP

    The purpose of the NNSA Stockpile Stewardship Program (SSP) is to 
maintain high confidence in the continued safety and reliability of the 
Nation's nuclear weapons arsenal without returning to underground 
nuclear testing. SSP consists of several integrated sets of activities: 
surveillance, life extension, manufacturing, design capability, 
infrastructure revitalization, workforce regeneration, and 
certification. Each of these depends on and contributes to the others 
and success requires that there be a reasonable balance among and 
between them--suggestions that the SSP should be skewed to place 
significantly more emphasis on one over the others put the overall 
success of SSP at risk.
    As the gap between the time when the last nuclear test was 
conducted and the date of each annual certification grows, our ability 
to successfully execute the stockpile stewardship mission becomes more 
difficult. We will not be able to do the job if we do not reverse the 
aging of our infrastructure or the aging of our workforce. Nor can we 
expect success if we do not systematically improve the scientific and 
technical tools and machines that allow weapons technical experts to 
advance their understanding through experimentation, computation, and 
simulation. These issues are discussed in greater detail below.
Surveillance
    Surveillance occurs year-round on all weapons systems in the active 
stockpile, including the five systems for which Los Alamos is 
responsible: B61, W76, W78, W80, and W88. Its purpose is to identify 
indicators of existing, or impending, conditions that could impact 
safety, reliability, or performance, with the goal of developing a 
predictive capability. This is accomplished by using a suite of tests, 
including:

        <bullet> Functional testing of selected components;
        <bullet> Destructive analysis of components to identify defects 
        or failures in individual nuclear and non-nuclear parts;
        <bullet> Flight testing of warheads in which nuclear material 
        has been removed and replaced with precision instrument 
        packages that match the critical features of weight and moment 
        of inertia; and
        <bullet> Nondestructive evaluation of selected components.

    Results of these tests are combined with data collected over the 
life of each weapon system for analysis by nuclear weapons experts who 
use expert judgment to determine impacts. Defects from aging, design or 
production that are revealed through surveillance activities are 
formally addressed via ``significant finding investigations'' (SFI).
Significant Finding Investigations
    SFIs are conducted in accordance with formal, NNSA-established 
protocols whenever a condition is found in a stockpiled weapon that 
does not meet the original weapon condition or design intent. Multi-
disciplinary expert review teams begin by assessing the potential and 
immediate impacts of the identified condition. The results of this 
initial assessment determine the priority assigned to resolution of the 
SFI. Safety-related SFIs automatically receive top priority.
    On average, LANL conducts about 500 surveillance tests per year on 
weapons drawn from all stockpiled systems. We expect to conduct 650 
surveillance tests in fiscal year 2003. The number of weapons systems 
in the nuclear stockpile is the primary basis for selecting the level 
of surveillance activity; the number of individual weapons is a 
secondary consideration. Thus, surveillance activity is not projected 
to decline as a result of the Nuclear Posture Review and its goal to 
achieve significant reductions in the number of weapons in the nuclear 
stockpile.
    The ratio of SFIs in LANL-designed systems to surveillance tests 
since the end of underground nuclear testing is 65:5000. At the current 
time, LANL has 30 open SFIs, ranging in age from 1 to 65 months; none 
of these are safety-related. LANL's average time to complete and close 
an SFI is 34 months, depending on the extent to which large-scale 
experiments such as hydrodynamic tests or detailed computer simulations 
are required.
    SFI protocols provide a flexible, risk-based approach that assures 
immediate attention and highest priority for real or potential safety-
related problems and provides that other SFIs will be prioritized with 
other ongoing SSP work. This approach assures the best use of available 
resources. Significant acceleration of the rate at which SFIs are 
completed and closed would require considerably increased funding, or 
significant reductions in funds currently devoted to other SSP work, or 
both. Absent specific evidence that the safety, reliability or expected 
performance of any stockpiled weapons system is in doubt, LANL would 
not advocate such acceleration.

                   STOCKPILE LIFE EXTENSION PROGRAMS

    Even in storage, nuclear weapons have dynamic properties that cause 
changes and deterioration of some parts and components over time. To 
address these changes and to assure continued safety and reliability, 
NNSA, the Department of Defense (DOD), and the Nuclear Weapons Council 
(NWC) have agreed on specific life extension programs for selected 
weapons systems.
    Two LANL-designed systems--the B61 and the W76--have been 
designated for life extension programs. Based on a process (Phase 6.X) 
that mimics the management framework for designing and building nuclear 
weapons and that was used by the DOE Office of Defense Programs (now 
NNSA/DP) for over 40 years, both systems will be refurbished.
    B61 LEP
    Refurbishment of the B61 Mods 7 and 11 canned subassemblies is 
scheduled to begin in 2006. A feasibility and cost study was authorized 
last year. Planning, risk assessment, scheduling and cost estimating 
are in progress at LANL; material tests are being performed at Y-12 and 
at Los Alamos. The Kansas City Plant will evaluate the manufacture of 
new components with substitute materials. The Certification Plan, Test 
and Evaluation Plan, and Weapon Design and Cost Report are scheduled to 
be released in July 2002. The B61 LEP is on track to meet its scheduled 
commitments.
    W76 LEP
    Extension of W76 warhead life through 2042 has been established by 
the Department of the Navy. A comprehensive evaluation of the condition 
and life expectancy of the materials in the nuclear explosives package 
has been completed. Engineering development was begun last year and 
will continue through production development and certification. LANL's 
W76 LEP is on track to meet its scheduled commitments.
Manufacturing
    In addition to its responsibility for the B61 and W76 LEPs, LANL 
contributes to the overall sustainment for all nuclear weapons via 
various manufacturing activities. These include manufacture of 
beryllium parts in the new Beryllium Technology Facility at LANL, which 
was qualified last year and is the only such capability in the country. 
LANL also makes tritium-loaded neutron sources for Sandia National 
Laboratories and supplies detonators to the Kansas City Plant. LANL 
also is responsible for producing joint test assemblies (mock pits for 
field test devices) as well as packaging and transportation materials 
for shipping explosives components. All manufacturing commitments have 
been met on time and to specification; we expect to continue this level 
of performance in fiscal year 2003.
    The largest and highest priority manufacturing activity at LANL is 
pit manufacturing. LANL is on track to produce a certifiable pit for 
the W88 in 2003. ``Certifiable'' means that we can demonstrate that the 
pit has been fabricated according to design specifications, can be 
manufactured in a reproducible process, and that necessary quality 
systems are in place. Associated safety, security, and technical 
requirements are demanding. Specific processes include materials 
purification and alloying, machining, welding, and inspection. While we 
have made every effort to duplicate what was done in the original 
manufacture of pits at Rocky Flats, changes in environmental 
requirements and other factors have necessitated some modifications. 
More than 40 separate processes have to be documented and individually 
qualified.
    To date, LANL has produced 11 pits for engineering development and 
testing purposes. The production schedule for the remainder of the year 
will include 3 more pits, 19 hemi-shells for testing and analysis, 4 
subcritical components, and many small parts for certification.
    Pit manufacturing is a multi-purpose effort that is designed to: 
(a) reestablish the capability to manufacture plutonium pits in limited 
(10- to 20-year) quantities; (b) prototype processes and configurations 
for use in a Modern Pit Facility; and (c) produce replacement pits for 
those destructively tested in the annual surveillance of the W88 
system.
    Taken together, all manufacturing activities at Los Alamos make 
LANL the second largest production site in the NNSA complex.
Certification
    LANL and Sandia National Laboratories jointly share the 
responsibility for continually assessing the safety and reliability of 
the nuclear weapons for which we are the joint design agencies. 
Annually, LANL and SNL issue annual assessment reports that summarize 
the laboratories' knowledge about the health of our warheads. These 
reports, in conjunction with the annual assessment letters issued by 
the President of SNL, and myself to the Secretaries of Energy and 
Defense, constitute the formal evaluation of the safety and reliability 
of the nuclear weapons in the Nation's stockpile. This annual 
certification is currently being accomplished without nuclear testing 
and represents one of the most technically challenging tasks ever 
assigned to the laboratories. Although there are no guarantees that 
certification without testing will always be possible, I am confident 
today that the warheads remain safe and reliable.
    A second certification responsibility that applies uniquely to LANL 
is the requirement to certify pits manufactured here. Pit certification 
involves three types of certification activities:

        <bullet> Production certification--assurance that the pits are 
        made according to design specifications;
        <bullet> Engineering certification--assurance that the pit will 
        endure the ``Stockpile-to-Target-Sequence environments'' 
        encountered during storage, handling, and delivery; and
        <bullet> Physics certification--assurance that the pit will 
        produce the required yield to perform its mission.

    Los Alamos has identified a series of laboratory and subcritical 
experiments that are designed to provide the necessary data, within the 
limits of non-nuclear tests that will allow our technical experts to 
certify the pit will perform as required. We have also obtained NNSA 
approval of a baseline change that will allow the certification date to 
move forward from 2009 to 2007.

                    WEAPON'S SCIENCE AND TECHNOLOGY

    All of the foregoing accomplishments and potential for future 
achievements are attributable to and depend on the availability of a 
robust, continually advancing science and technology base. I am 
concerned that near-term and competing demands often appear to be more 
immediately urgent than new investments in science and technology and 
that the temptation to balance today's budgets by postponing such 
investments is often too great to resist. Three subjects are worth 
mentioning in particular:

        <bullet> Advanced Simulation and Computing (ASC);
        <bullet> Hydrodynamic Testing (DARHT); and
        <bullet> Proton Radiography (LANSCE, AHF)
Advanced Simulation and Computing (ASC)
    The ASC program is intended to provide via computation and 
simulation the types of information previously obtained via underground 
nuclear testing--although it must be noted that ASC is not and is not 
intended to be a substitute to replace all testing. The objective of 
the program, which is a joint effort among the three NNSA Laboratories, 
is to provide by fiscal year 2005 validated 3-D, high-fidelity physics, 
full-system simulation codes required for engineering, safety and 
performance analysis of the stockpile.
    At all three laboratories, we continue to make rapid advances in 
our ability to simulate nuclear explosions more quickly and with 
greatly increased detail. Earlier this year, LANL completed its first 
3-D simulation of a full nuclear weapon system explosion. The 
calculation was run remotely from Los Alamos on the ``White'' machine 
at Livermore Laboratory. In about 4 months of around-the-clock 
computing, the simulation used more than 480 million cells on 1,920 of 
the White machine's 8,000 plus processors. Actual time on the central 
processing unit was the equivalent to computing continuously on a high-
end home computer for more than 750 years. This first-ever 3-D 
simulation represents significant advances in visualization techniques 
as well as in computing power.
    The ultimate objective of the ASC program is a 100-teraflop machine 
which we believe is necessary to provide timely weapon system 
simulations for the weapons design community. The next step beyond the 
White machine at Livermore is acquisition and installation of the 30-
teraflop ``Q'' machine at LANL, which is currently underway.
Hydrodynamic Testing and DARHT
    The most critical component of a nuclear weapon is the primary. 
Hydrodynamic tests--non-yield experiments that measure implosion 
characteristics--enable us to examine and more fully understand primary 
performance.
    To date, one axis of the Dual Axis Radiographic Hydrodynamic Test 
(DARHT) facility has been completed and the second axis is scheduled 
for completion at the end of calendar year 2002. Commissioning of the 
second axis will take place during fiscal year 2003 and the full 2-axis 
capability will become available in fiscal year 2004. LANL has 
successfully operated the first axis for experimental purposes while 
continuing construction on the second axis, thus capitalizing on the 
initial investment of taxpayer dollars before the entire facility has 
been completed.
    Using a single axis, DARHT has enabled us to image hydrodynamic 
tests with unprecedented resolution and clarity. The second axis will 
enable stereoscopic and time-sequenced views of hydrodynamic 
experiments, which are vital to supporting life extension programs, W88 
pit certification, and validation of new modeling tools for simulating 
weapons safety and reliability. We expect that DARHT will be the 
primary test facility for the Stockpile Stewardship Program for the 
coming decade.
    Eventually, however, advanced radiography capabilities will be 
needed to address future challenges of stockpile stewardship and to 
train and qualify the next generation of weapons designers who will be 
the first generation required to certify the nuclear stockpile having 
had no direct nuclear test experience.
Proton Radiography, LANSCE, and AHF
    In a no-test environment, high-fidelity radiographic motion 
pictures of hydrodynamic tests will be the next best means of 
understanding weapon performance. The most promising technology--
developed by scientists at Los Alamos via the Laboratory Directed 
Research and Development (LDRD) program--is proton radiography.
    Proton radiography is already an operational tool at the Los Alamos 
Neutron Science Center (LANSCE) and has been used to make quantitative 
measurements of high explosive and other weapon relevant material 
behavior under extreme dynamic conditions. The capability is used by 
weapon designers and by other research collaborators on a variety of 
science undertakings. Proton radiography has already provided data that 
has influenced stockpile decisions. Its availability supports and 
strengthens LANSCE as the laboratory's flagship user research facility.
    LANSCE just completed one of its most successful and productive 
running periods, operating with greater than 90 percent availability, 7 
days/week, 24 hours/day. This rate of availability allowed LANSCE to 
support more than 200 experiments and over 300 users. In this respect, 
LANSCE is a key element in LANL's efforts to provide the intellectual 
capital that we will need over the next decade. By providing an 
exciting experimental tool to address basic science and stockpile 
issues, we are continuing to attract early-career scientists who bring 
fresh approaches to LANL's mission and related tasks. Historically, 
LANSCE has been the entry point for over 1,000 of our scientific and 
technical personnel.
    Advancing radiographic capabilities to accurately image 
hydrodynamic experiments with sufficient detail to address long-term 
certification and assessment requirements is critical. A high-
resolution radiographic motion picture of a hydrodynamic test provides 
us with a means of understanding weapon implosions. Data obtained from 
these experiments will provide the strongest technical justification 
for determining nuclear weapon performance, short of a nuclear test. 
High-energy proton beams delivered with flexible time-sequencing (tens 
of pulses) will provide an unprecedented capability to directly image 
very thick complicated geometries of surrogate weapon configurations. 
The most promising technology for establishing this capability through 
the creation of an Advanced Hydrodynamic Facility (AHF) is based on 
high-energy protons. Current efforts are underway to evolve the 
technically essential tool of radiography based on the current x-ray 
facilities to an AHF based on protons. This work is essential to ensure 
that this critical prediction validation and precision design tool can 
be developed to maintain future nuclear-weapon expertise. An AHF 
designed to address design physics requirements in the 2015-2020 
timeframe must be started soon. The Nation's investment in this area is 
both prudent and timely.

                 THREAT REDUCTION AND HOMELAND SECURITY

    For decades, the U.S. has invested in tools to respond to a nuclear 
accident or guard against a surreptitious nuclear weapon threat and has 
provided help to the International Atomic Energy Agency and other 
governments to safeguard and control nuclear materials. Since the early 
1990s, we have helped secure vulnerable nuclear materials in Russia. 
Dating to the early 1980s, LANL has conducted research in biological 
sciences--research initially supported via LDRD funding--which led 
directly to our ability, post-September 11, to support deployment of 
the Biological Aerosol Sentry and Information System (BASIS) system, 
developed with Lawrence Livermore National Laboratory (LLNL), and to 
provide forensic expertise in analyzing anthrax samples. Obviously, 
these efforts have taken on new and urgent priority since September 11.
    NNSA has unique expertise, resident at Los Alamos, Lawrence 
Livermore, and Sandia National Laboratories, in nuclear, chemical, and 
biological technologies. That expertise has a long and successful 
history of supporting the intelligence community. In light of the new 
priorities and challenges following September 11, I believe that the 
NNSA Laboratories can and should play a central role in providing the 
science and technology for countering the terrorist threat and 
protecting the U.S. and its allies against weapons of mass destruction. 
Three key near-term challenges are particularly suitable for NNSA 
laboratory attention:

        <bullet> Preventing and responding to threats of nuclear 
        terrorism;
        <bullet> Detecting and countering biological weapons; and
        <bullet> Analyzing and protecting the Nation's critical 
        infrastructure.

    Programs already are underway in all of these areas, including our 
work in biological research and in the National Infrastructure Security 
Analysis Center (NISAC), which we are conducting in cooperation with 
Sandia National Laboratories.
    Tightly controlling nuclear and radioactive materials continues to 
be the key to preventing terrorists or rogue states from creating 
radioactive dispersal devices--so-called ``dirty bombs''--or nuclear 
weapons. The demonstrated global reach of terrorists and states that 
sponsor terrorism and their interest in weapons of mass destruction 
call for enhanced protection and management of nuclear and radioactive 
material inventories.
    The goal of a strong, integrated, NNSA-led program is a global web 
of protection that:

        <bullet> Ensures nuclear and radioactive materials are 
        protected from theft and misuse;
        <bullet> Responds to thefts of materials and threats involving 
        nuclear and radioactive materials;
        <bullet> Interdicts illicit trafficking in nuclear and 
        radioactive materials;
        <bullet> Detects and responds to non-nuclear-weapon states' 
        attempts to produce or acquire materials for nuclear weapons 
        programs;
        <bullet> Promotes responsible management of existing military 
        and civilian nuclear and radioactive material inventories; and
        <bullet> Provides international confidence in the global 
        systems of protection and control.

    We should seriously consider a specifically defined role for the 
NNSA and its laboratories as principal R&D support to reducing the 
threat and securing our homeland from terrorists and their potential to 
use weapons of mass destruction whether nuclear, chemical or 
biological, against us. A streamlined, integrated approach to funding 
and program development that would ensure needed state-of-the-art 
technologies and a longer-term R&D program to address future 
contingencies would contribute significantly to our ability to 
effectively counter terrorist threats.

          LABORATORY DIRECTED RESEARCH AND DEVELOPMENT (LDRD)

    The LDRD program enhances the scientific and technical capabilities 
of national laboratories to meet long-term science and technology needs 
of the Nation. This means being able to explore new developments in all 
relevant areas of science quickly and develop ideas that eventually 
serve the policy objectives of the Federal Government. Throughout the 
history of the LDRD program the laboratory has focused a significant 
portion of these resources on important scientific questions that 
underpin our nuclear weapons mission. LDRD investments have produced 
innovations essential to the ability of the laboratories to continue to 
accomplish our long-term programmatic missions. The program has a clear 
reputation for attracting high-caliber staff needed to meet the science 
and engineering challenges of stockpile stewardship, reducing the 
threat of weapons of mass destruction, homeland defense, and other 
missions. LDRD advances the frontiers of knowledge in scientific fields 
vital to the laboratories' missions, future, and effectiveness in 
serving the Nation. Some examples of success and clear benefit follow.
    In the absence of testing for nuclear weapons, more detailed 
knowledge is needed on nuclear and other key materials contained in 
weapons systems in order to better understand how they age. We recently 
invested in work exploring issues such as the interactions of a 
plutonium surface with its surrounding environment. Such studies help 
us understand what might happen as a weapon ages, and also inform us 
about better ways to store nuclear materials or even to clean up 
environmental legacies from the Cold War. In addition, we have 
identified opportunities for additional research on nuclear materials 
and their properties, based on novel experimental approaches and new 
capabilities in materials modeling. The investment in these research 
topics does and will have direct impact on our ability to perform our 
mission.
    In the area of countering the proliferation of weapons of mass 
destruction (WMD), the Nation faces potentially devastating new weapons 
systems based on chemical or biological weapons. LANL is seeking ways 
to detect the development or use of such weapons. Several new ideas 
have been proposed and funded to explore fundamental science and 
technology needed to combat the development and use of WMD. For 
example, researchers are exploring the fundamental mechanisms that 
produce virulence in pathogens. Understanding these mechanisms should 
enable us to design new sensors for rapid and early detection of the 
use of biological weapons.

                FACILITIES AND INFRASTRUCTURE INITIATIVE

    The entire nuclear weapons complex managed by the DOE/NNSA--the 
production plants and laboratories--is faced with serious aging 
problems that threaten our ability to carry out the stockpile 
stewardship mission. To continue to work effectively on these DOE/NNSA 
missions, our laboratory needs outstanding scientists and engineers 
working in state-of-the-art facilities. Our facilities have badly 
deteriorated buildings, roads, sewer systems; electrical power grid and 
other critical infrastructure are approaching 50 years old and are 
crumbling at an alarming rate. A dedicated and enduring revitalization 
effort is crucial for the long-term viability of this laboratory and 
the weapons complex as a whole.
    We believe that there are three distinct areas that must be 
addressed in order to ensure infrastructure sustainability to meet our 
mission. Those three areas include: implementing formal facilities 
consolidation efforts and cost reduction initiatives; addressing high-
priority facility maintenance backlogs; and investing in new 
construction projects, where appropriate and economically feasible. 
Each of these areas requires commitments to achieve positive results. 
Each area addresses safety and security needs and allows laboratory 
facilities to be sustainable over the next 20 to 40 years.
    Ten or more years ago, the long-term outlook for the nuclear 
weapons complex and budget was uncertain, but the requirement to ensure 
the safety and reliability of the Nation's nuclear deterrent remains. 
During this period, Los Alamos and much of the rest of the nuclear 
weapons complex sacrificed continual reinvestment for the future in 
favor of short-term operational needs. With existing operating funds, 
we have been able to complete some urgent maintenance at our aging 
facilities, but this only scratches the surface. Only the utmost top-
priority issues have been addressed, while the backlog of unfunded 
maintenance continues to grow as facilities age. The demands placed on 
the safety and security infrastructure from increased regulation and 
oversight have also stressed our resources. We are still running many 
buildings to failure.
    We strongly support General Gordon's 10-year Facilities and 
Infrastructure Revitalization Initiative. Congress provided an initial 
down payment last year, but continued support is critical in fiscal 
year 2003 and beyond. Without continuing and strong support of this 
initiative, we will not be able to carry out either the manufacturing 
or certification efforts for the stockpile. Furthermore, we request 
your strong support for General Gordon's Five Year Defense Plan for 
NNSA at a level that can support the growing requirements and need for 
development of new tools and experimental facilities for certification 
of an aging stockpile.
                                 ______
                                 
                 Prepared Statement by C. Paul Robinson

                              INTRODUCTION

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to submit this statement. I am Paul Robinson, 
director of Sandia National Laboratories. Sandia is managed and 
operated for the National Nuclear Security Administration (NNSA) of the 
U.S. Department of Energy (DOE) by Sandia Corporation, a subsidiary of 
the Lockheed Martin Corporation.
    Sandia National Laboratories is one of the three NNSA Laboratories 
with research and development responsibility for nuclear weapons. 
Sandia's job is the design, development, qualification, and 
certification of nearly all of the non-nuclear subsystems of nuclear 
warheads. Our responsibilities include arming, fuzing, and firing 
systems; safety, security, and use-control systems; engineering support 
for production and dismantlement of nuclear weapons; field support to 
the military; and surveillance and support of weapons in stockpile. We 
perform substantial work in programs closely related to nuclear 
weapons, including intelligence, nonproliferation, and treaty 
verification technologies. As a multiprogram national laboratory, 
Sandia also conducts research and development for DOE's energy and 
science offices, as well as work for other national security agencies 
when our special capabilities can make significant contributions.
    I will begin my statement by reviewing highlights of Sandia's 
recent accomplishments in the nuclear weapons program and other 
national security programs, including Sandia's contributions to 
homeland security and the war on terrorism. I will then discuss issues 
of concern to Sandia in fiscal year 2003 and address in detail Sandia's 
responsibilities in NNSA's stockpile stewardship and nonproliferation 
missions. Before concluding, I will comment on the NNSA Administrator's 
governance initiative for improving the NNSA-contractor relationship.

              HIGHLIGHTS OF RECENT SANDIA ACCOMPLISHMENTS

    The NNSA Laboratories accomplished much during fiscal year 2001. 
The investment the Nation makes in these unique institutions yields 
valuable results for national security.
    At Sandia National Laboratories, we perform our scientific and 
engineering work with the mission in mind--never solely for its own 
sake. Even the fundamental scientific work that we do (and we do a 
great deal of it) is strategic for our mission needs. Sandia's 
management philosophy has always stressed the ultimate linkage of 
research to application.
    We sometimes hear the phrase ``science-based engineering'' to 
describe our approach, but this term is really a solecism: Engineering 
is inherently scientific and cannot be practiced with excellence unless 
it is deeply integrated with its supporting sciences and employs 
scientific methodology. When someone refers to Sandia as ``the Nation's 
premier engineering laboratory,'' that statement does not tell the 
whole story: We are a science and engineering laboratory with a focus 
on developing technical solutions to the most challenging problems that 
threaten peace and freedom.
    Sandia's unique philosophy of research and development--which 
derives from its heritage of 50 years under industrial management--
yields significant results for its sponsors. I will briefly highlight 
some of the outstanding achievements from our work portfolio of fiscal 
year 2001 in the areas of nuclear weapon activities, nuclear 
nonproliferation, homeland security, and combating terrorism.
Salient Accomplishments in Weapons Activities
    Sandia completed work to qualify the B61-11 earth-penetrating bomb 
as meeting all requirements, resulting in its acceptance as a standard 
stockpile item. We made alterations to enhance the safety and security 
of all B61 bombs at field locations. In recognizing the efforts of the 
B61-11 certification team, the Commander in Chief of Strategic Command 
cited the weapon's many advantages over the retired B53-1 bomb.
    Similarly, we concluded a 3-year testing and evaluation program 
resulting in acceptance of the Alt. 342 W87 Life Extension Program 
warhead for the Air Force by the Nuclear Weapons Council as a standard 
stockpile item.
    A significant milestone in directed stockpile work in fiscal year 
2001 was our progress in redesigning the integrated arming, fuzing, and 
firing system (AF&F) for the W76 warhead for the Trident missile. We 
recently completed the redesign of a Joint Test Assembly for the W76, 
which will be used to periodically assess the conformance of the de-
nuclearized version of the actual war-reserve warhead.
    Sandia played a major role on the NNSA's B83 Systems Engineering 
Group, which completed development of Alt. 355 for the B83 modern 
strategic bomb. Alt. 355 is a near-term field retrofit kit that 
incorporates design modifications to certain hardware.
    We completed the Warhead Simulator Package for the Type 3E Trainer 
for the B61-4 bomb. The Warhead Simulator Package simulates the 
electrical functionality of the real war-reserve weapon. The new 
trainer allows military personnel to realistically practice lock/unlock 
and arming/safing operations without exposing a real nuclear weapon to 
vulnerabilities. The first production unit of the trainer has been 
delivered.
    Sandia has major responsibility in nuclear weapon use-control 
systems, which are designed to allow arming of the warhead by national 
command authority only. We completed a 4 year, full-scale, code 
management system engineering project, which delivers a significant 
security enhancement to weapon code operations in Europe. The system 
enables recoding of nuclear weapons in a fully encrypted manner and 
greatly simplifies use and logistics.
    We have also achieved many important advances in the science and 
engineering campaigns that enable our successes in directed stockpile 
work, including radiation-hardened microelectronics, above-ground 
experimental physics, and advanced simulation and computation.
Accomplishments in Nuclear Nonproliferation
    Preventing the proliferation of nuclear materials or weapons to 
dangerous regimes or terror groups has become a matter of great 
urgency. NNSA's role in nonproliferation is acknowledged in its mission 
statement: ``To strengthen United States security through the military 
application of nuclear energy and by reducing the global threat from 
terrorism and weapons of mass destruction.'' Sandia's recent 
contributions have strengthened this effort.
    As nuclear fuel reprocessing is adopted by more nations, the 
proliferation risk associated with fissile materials increases. To 
evaluate the risk, Sandia developed a proliferation analysis 
methodology for quantifying the proliferation resistance of nuclear 
power production fuel cycles. The methodology uses the tools of 
probabilistic risk assessment to identify proliferation pathways for 
various definitions of proliferators.
    NNSA's ``Second Line of Defense'' (SLD) program for the security of 
fissile materials provides consultation to customs agencies to combat 
trafficking of nuclear material across international borders. In 2001 
we assisted 26 site surveys performed at Russian airports, seaports, 
railroad checkpoints, and border crossings to evaluate strategies for 
minimizing the risk of nuclear proliferation and terrorism. These site 
surveys included the deployment and acceptance of systems installed at 
eight Russian Federation State Customs Committee facilities to detect 
and deter illicit movements of nuclear materials out of Russia. The 
program has been successful and is growing to include other countries.
    Also with Russia, after 4 years of negotiation and collaboration 
with the All Russian Institute of Experimental Physics (VNIIEF), we 
kicked off a joint facility-to-facility remote monitoring project in 
June 2001. The project will evaluate advanced fissile material 
monitoring and communications technologies in a bilateral verification 
regime.
    Sandia is responsible for satellite-based sensors for detecting 
nuclear detonations in the atmosphere. We developed a new space-to-
ground communication path for monitoring Nuclear Detection System 
sensors onboard the Department of Defense Global Positioning System 
(GPS) satellites. The launch of a GPS satellite equipped with the 
Nuclear Detonation Detection System Analysis Package in January 2001 
significantly enhanced the Nation's ability to detect nuclear 
detonations occurring anywhere in the earth's atmosphere.
Contributions to Homeland Security and the War Against Terrorism
    Like most Americans, the people of Sandia National Laboratories 
responded to the atrocities of September 11, 2001, with newfound 
resolve on both a personal and professional level. As a result of our 
own strategic planning and the foresight of many sponsors to invest 
resources toward emerging threats, Sandia was in a position to 
immediately address some urgent needs.
    For example, by September 15, a small Sandia team had instrumented 
the K-9 rescue units at the World Trade Center site to allow the dogs 
to enter spaces inaccessible to humans while transmitting live video 
and audio to their handlers. This relatively low-tech but timely 
adaptation was possible because of previous work we had done for the 
National Institute of Justice on instrumenting K-9 units for SWAT 
situations.
    You may not be aware that a decontamination formulation developed 
by Sandia chemists was one of the processes used to help eliminate 
anthrax in the Hart, Dirksen, and Ford buildings on Capitol Hill, and 
at contaminated sites in New York and in the Postal Service. Sandia 
developed the non-toxic formulation as a foam and licensed it for 
industrial production.
    Sandia engineers worked around-the-clock to modify the ``Steel 
Eagle,'' air-dropped, unattended ground sensor for deployment in 
Afghanistan. Originally designed under sponsorship of the Defense 
Intelligence Agency in the 1990s to identify mobile missile launchers, 
we modified the system to detect light trucks and armored vehicles. The 
sensors can be deployed from F-15E, F-16, and Predator unmanned 
aircraft.
    Speaking of the Predator, this unmanned aerial vehicle has gained 
recognition for its ability to capture and transmit in real time high-
quality radar images of terrain, structures, and moving vehicles 
through clouds and in day or night conditions. You may perhaps not be 
aware that the advanced synthetic aperture radar (SAR) capability on 
the Predator was substantially developed by Sandia National 
Laboratories. We began working on miniature radars based on synthetic 
aperture concepts in 1983 in the nuclear weapons program. In 1985 we 
became involved in a special-access program for the Department of 
Defense (DOD) to develop a one-foot-resolution, real-time SAR suitable 
for use in unmanned aircraft. Sandia flew the first real-time, one-
foot-resolution, SAR prototype in 1990. Follow-on work sponsored by DOD 
continued to improve the system, and a partnership with an industrial 
firm, which shared program costs, transitioned the technology into the 
field-deployable systems used in Afghanistan.
    In addition to our contributions to the military toolbox for 
counter-terrorism, Sandia has responded to urgent needs in the arena of 
homeland security. An array of devices invented by explosives experts 
at Sandia have proved to be effective for safely disarming several 
types of terrorist bombs. For the past several years, our experts have 
conducted training for police bomb squads around the country in the 
techniques for using these devices for safe bomb disablement. The shoe 
bombs that Richard Reid allegedly tried to detonate onboard a trans-
Atlantic flight from Paris to Miami were surgically disabled with an 
advanced bomb-squad tool originally developed at Sandia. That device, 
which we licensed to industry, has become the primary tool used by bomb 
squads nationwide to remotely disable handmade terrorist bombs while 
preserving them for forensic analysis.
    Detecting explosives in vehicles is a major concern at airports, 
military bases, government facilities, and border crossings. We have 
developed and successfully tested a prototype vehicle portal that 
detects minute amounts of common explosives. The system uses a Sandia-
patented sample collection and preconcentrator technology that had 
previously been licensed to industry for use in screening airline 
passengers for trace amounts of explosives. The Technical Support 
Working Group and DOE's Office of Safeguards and Security funded this 
research.
    Sandia is a partner with Argonne National Laboratory in the PROTECT 
program (Program for Response Options and Technology Enhancements for 
Chemical/Biological Terrorism), jointly funded by DOE and the 
Department of Justice. PROTECT's goal is to demonstrate systems to 
protect against chemical attacks in public facilities, such as subways 
and airports. For more than a year, a Sandia-designed chemical detector 
test bed has been operating in the Washington, DC Metro. The system can 
rapidly detect the presence of a chemical agent and transmit readings 
to an emergency management information system. We successfully 
completed a demonstration of the PROTECT system at a single station on 
the Washington Metro. The program has since been funded to accelerate 
deployment in multiple metro stations. DOE has also been requested to 
implement a PROTECT system for the Metropolitan Boston Transit 
Authority.
    Another major worry for homeland security is the potential for acts 
of sabotage against municipal water supplies. In cooperation with the 
American Water Works Association Research Foundation and the 
Environmental Protection Agency, Sandia developed a security risk 
assessment methodology for city water utilities. This tool has been 
employed to evaluate security and mitigate risks at several large water 
utilities. We have used similar methodologies to evaluate risks for 
other critical infrastructures such as nuclear power-generation plants 
and chemical storage sites.
    These and other contributions to homeland security and the war 
against terror are possible because of early investment in the 
capabilities that were needed to respond to emerging threats. The 
outstanding technology base supported by NNSA for its core missions is 
the primary source of this capability. We also made strategic decisions 
to invest laboratory-directed research and development funds (LDRD) in 
the very things that we knew were urgent needs: items to the 
Afghanistan theater, the decontamination foam, the sensors we have 
deployed, and special-purpose robotics that we have developed. In 
addition, requests for Sandia services from Federal agencies other than 
DOE for work in emerging areas of need have increased. Approximately 28 
percent of our total laboratory operating budget is provided by Federal 
agencies other than DOE.

                    BUDGET-RELATED ISSUES OF CONCERN

    Sandia National Laboratories is very busy with work for its core 
mission responsibilities in nuclear weapon stockpile stewardship. We 
have a substantial workload of life extension programs for stockpiled 
systems that requires refurbishment or complete re-design of electronic 
subsystems and other components. In addition, the responsibility for 
stockpile certification as weapons age is an ongoing challenge that 
engages our science and engineering campaigns.
    Significant changes will be required to weapon systems that are 
scheduled to remain in the deployed stockpile or responsive force for 
decades. This workload is not materially affected by the recent Nuclear 
Posture Review. Life extension activities require substantial resources 
of people and facilities. In addition, several studies \1\ have 
repeatedly shown that the infrastructure of the nuclear weapons complex 
has eroded significantly and needs refurbishment. These and other 
requirements will demand their share of resources from a program that I 
described last year as ``wound too tight.''
---------------------------------------------------------------------------
    \1\ Nuclear Weapons Complex Reconfiguration Study; Complex 21; 
Defense Programs Phase I and II Maintenance Studies; Energy Federal 
Contractor Organization Group Study; Office of Secretary of Defense 
Program Analysis and Evaluation Review; Stockpile Stewardship Program 
30-Day Review; DOE Inspector General's Defense Programs Production 
Facilities Assessment; Fiscal Year 2000 Report to Congress, Panel to 
Assess the Reliability, Safety, and Security of the United States 
Nuclear Stockpile (Foster Report).
---------------------------------------------------------------------------
    In an effort to relax this tension, the Defense Programs 
laboratories worked closely with NNSA during the last several months to 
create a multiyear plan to prioritize and integrate programmatic needs 
within a defensible appropriations profile. The funding levels of the 
multiyear estimates in that plan reflect our consensus estimate of 
resource requirements under the guidance provided by Presidential 
directives, DOD requirements, and the recent Nuclear Posture Review. 
The plan is a significant milestone inasmuch as NNSA has for the first 
time outlined a multiyear planning basis agreement with the 
administration. With careful management, we believe that NNSA's major 
deliverables can be completed within the Future Years National Security 
Plan schedule and budget profile.
    The fiscal year 2003 budget request is generally consistent with 
NNSA's Future Years National Security Plan, and it should provide 
adequate resources for Sandia National Laboratories to meet its mission 
obligations as currently defined. Four issues of concern to Sandia that 
I would like to bring to your attention are: the Microsystems and 
Engineering Sciences Application (MESA) Complex; the refurbishment of 
NNSA's Z Accelerator; a joint Air Force/NNSA initiative in advanced 
physical security research and development for nuclear weapons; and the 
problem of cyber security against sophisticated network attacks.
Microsystems and Engineering Sciences Application (MESA) Complex
    Sandia's Microsystems and Engineering Sciences Applications (MESA) 
complex is the cornerstone of our initiative to address the need for 
microelectronics and integrated microsystems to support a certifiable 
stockpile for the future.
    Microelectronic components are critical to the NNSA Defense 
Programs mission. Several key components in deployed nuclear weapons 
will need to be replaced within the decade. In most cases, components 
cannot be replaced with replicas of the originals because they are 
technologically obsolete and the supplier base, materials, and design 
tools to support them no longer exist. Moreover, competent designers 
would not elect to use decades-old electronic technology, even if it 
were available. Sandia has little choice but to meet component 
replacement needs using the latest microsystem technologies.
    In addition, Sandia has a requirement to preserve critical 
competencies in radiation-hardened microelectronics for defense and 
space hardware. In accordance with the congressional mandate for a 
national defense electronics partnership,\2\ Sandia retains the 
capability for radiation-hardening technology and sustains a supporting 
infrastructure for developing and producing radiation-hardened 
microelectronics. MESA will provide the infrastructure to meet that 
mandate for future decades.
---------------------------------------------------------------------------
    \2\ 105th Congress, 1st Session, National Defense Authorization Act 
For Fiscal Year 1998, Report 105-29 to Accompany S. 924, June 17, 1997.
---------------------------------------------------------------------------
    I am pleased to report that the preliminary engineering design 
(Title I engineering) of the MESA complex has been completed and that 
final engineering design (Title II engineering) is well underway. We 
are working hard to bring this facility into operation on a schedule 
that would allow it to contribute to the scheduled stockpile 
refurbishment programs approved by the Nuclear Weapons Council and 
supported by the Department of Defense, but it is not yet clear whether 
that will be possible.
Z Accelerator Refurbishment
    NNSA's Z Accelerator at Sandia National Laboratories has proved to 
be an important and unique asset for the Stockpile Stewardship Program. 
Still the world's most powerful and energetic source of x-rays,\3\ Z 
supports NNSA campaigns in nuclear weapon primaries and secondaries, 
dynamic materials, nuclear survivability, and inertial confinement 
fusion. Moreover, the recent demonstration of short-pulse, high-power 
\4\ lasers and the installation of the Z-Beamlet laser at Sandia has 
created the opportunity to cost-effectively explore new mission 
applications, including advanced radiography of laboratory experiments 
for stockpile stewardship, the fast ignition inertial confinement 
fusion concept, and the science of materials under extreme conditions.
---------------------------------------------------------------------------
    \3\ Power: 230 trillion watts. Energy: 1.6 megajoules.
    \4\ On the order of 1015 (thousand trillion) watts, or ``petawatt'' 
(PW).
---------------------------------------------------------------------------
    Pending the completion of the National Ignition Facility, Z will 
continue for many years to be the most capable U.S. facility for 
producing the high-energy-density environments required for studying 
the phenomenology of nuclear explosives. A refurbishment project to 
replace aging components and increase the capability of Z by over 50 
percent was initiated with an appropriation of $10 million in fiscal 
year 2002. Those incremental funds allowed us to address a backlog of 
experimental requests in this current operating year.
Physical Security Research and Development
    For the past three decades, Sandia National Laboratories has made 
unique contributions to both the Department of Energy and the 
Department of Defense for the security of nuclear weapons. Currently, 
both NNSA and the Air Force have designated Sandia as their weapon 
security systems engineer.\5\ Sandia is assisting the NNSA's Defense 
Nuclear Security Office in assessing and engineering security systems 
so that there is consistency in the approach used for security across 
all NNSA facilities.
---------------------------------------------------------------------------
    \5\ Through the NNSA Office of Defense Nuclear Security and the 
USAF Force Protection Command and Control System Program Office, 
Electronic Systems Center (ESC).
---------------------------------------------------------------------------
    Both NNSA and USAF maintain high security for the nuclear weapons, 
materials, or facilities under their control, and they have steadily 
improved security during the past two decades. I am confident that the 
recent allegations that security may be lax at NNSA nuclear weapon 
facilities are incorrect. However, we must not be satisfied with the 
status quo. NNSA and DOD are responding to the increased terrorist 
threat by examining how security systems can be significantly enhanced 
with new technology. Numerous upgrades at Air Force nuclear weapon 
sites are under consideration. Unfortunately, those upgrades may be 
forced to employ older technology that is actually more expensive and 
offers less capability. Just as new technology has revolutionized war-
fighting, so it offers an opportunity for a similar revolution in 
security systems.
    Past investments by DOE in Sandia's security systems research and 
development program have yielded crucial technology for the protection 
of DOE and DOD nuclear assets. In recent years, Sandia's extensive 
security expertise has been widely sought by other Federal agencies and 
public entities, including, for example, the Secret Service, the 
Department of Defense, State and Federal prison systems, Dade County in 
Florida, many public school systems, the National Institute of Justice 
(in support of local law enforcement), and the 2002 Winter Olympic 
Games.
    A robust program of security research and development can adapt new 
technological capabilities for security applications. We have proposed 
a joint Air Force/NNSA research and development program in nuclear 
weapon security technology, to be established under the leadership of 
Sandia National Laboratories. Such a program will result in greater 
protection for our nuclear weapons and, ultimately, reduced security 
operational costs. We anticipate joint annual funding by the Air Force 
and NNSA to raise the existing programmatic effort at Sandia to the 
level required for this initiative.
Cyber Security
    During the past several years, Sandia has experienced an increase 
in the level, intensity, and sophistication of network attacks directed 
against our computer resources. We have significant concerns about the 
ability of any cyber security system to withstand the very 
sophisticated attacks that are emerging. These developments cause us to 
worry that the sophistication of these threats are growing at a faster 
rate than we are able to respond in hardening our systems against 
intrusions. This remains one of my most critical concerns.

                           WEAPONS ACTIVITIES

    At Sandia, weapons activities include directed stockpile work, 
campaigns to advance the scientific and engineering capabilities 
required for weapons qualification and certification, and readiness 
programs for NNSA's technology base, facilities, and infrastructure.
Impact of the Nuclear Posture Review
    The Secretary of Defense released the NPR in January. It was 
conducted in response to a congressional request to lay out the 
direction for American nuclear forces for the next 10 years. The full 
implications of the NPR will not be known until the final configuration 
and schedule for the Nation's nuclear arsenal is worked out. However, 
the NPR calls for sustaining a responsive nuclear force and maintaining 
a robust and responsive nuclear weapons infrastructure for the long 
term. It is clear that any savings that may result from the NPR will 
not be realized for many years.
    The NPR calls for reducing operationally deployed nuclear weapons 
to between 1,700 and 2,200 warheads over the next decade. Most warheads 
that will be removed from the operationally deployed stockpile will be 
maintained as a ``responsive force'' in case of a major change in the 
global security environment. The intent is to maintain the warheads of 
the responsive force in a condition that would permit them to be 
redeployed in a matter of weeks or months. Consequently, warheads in 
the responsive force will require a level of maintenance and 
surveillance not substantially different from that required for 
deployed systems. Their limited-life components will need periodic 
replacement, and their electronic subsystems will have to be upgraded 
so as not to become obsolete with the passage of time.
    Thus, the warheads of the responsive force will require life 
extension activities similar to what they would receive if they were in 
the active stockpile. Only one warhead, the W62, is proposed to be 
retired. The NPR calls for retiring the Peacekeeper (MX) inter-
continental ballistic missile, but the relatively modern W87 warhead on 
that system will be retained as a replacement for the aging W62 on the 
Minuteman III. The B61 and B83 bombs also will be retained and may 
require modifications.
    The NPR also calls for NNSA to improve its test readiness program 
for contingent resumption of underground nuclear testing. Adhering to 
the test moratorium continues to be U.S. policy, but should a need to 
test arise, the current preparation time of 2 to 3 years is considered 
unacceptable.
    In summary, I do not expect the Nuclear Posture Review to 
materially impact the workload of Sandia National Laboratories in 
stockpile stewardship in the next several years.
Directed Stockpile Work
    Directed Stockpile Work encompasses all activities that directly 
support specific weapons in the nuclear stockpile. Those activities 
include current maintenance and day-to-day care as well as planned 
refurbishments. This work includes research, development, engineering, 
and qualification activities in direct support of each weapon type both 
in the present and future. Directed Stockpile Work maintains a balanced 
effort of near-term weapon activities and long-term research and 
development supported by campaigns.
    Stockpile Research and Development
    Stockpile Research and Development includes the engineering 
development and exploratory research and development to support near- 
and long-term requirements of the nuclear weapons stockpile. This 
activity includes development of new weapon designs when needed and 
authorized, preproduction design and engineering activities, design and 
development of weapon modifications, and safety studies and 
assessments.
    Specific focal areas anticipated for the next 2 fiscal years 
include support for system studies, mutual defense agreements, and 
U.S./foreign weapon cooperative safety exchanges; development of 
specified components and subsystems; improved engineering business 
practices and information systems; modernized flight test assemblies 
and instrumentation; refurbishment of several enduring stockpile 
systems; and continued vigilance through exploration of future system 
concepts.
    Engineering Development. The bulk of the engineering development 
planned in stockpile research and development will support life-
extension refurbishments. The objective of the stockpile life extension 
effort is to improve and extend the safety and reliability of U.S. 
nuclear weapons 20 to 30 years by upgrading or replacing components and 
subsystems rather than entire warheads. Sandia has been identified by 
NNSA to be the systems integrator for refurbishments.
    Two refurbishment programs are in the engineering development 
phase: the W76/ Mark 4 (Trident), with a first production date of 
fiscal year 2007; and the W80 warhead for Air Force and Navy cruise 
missiles, with scheduled first production in 2006. We are also engaged 
in a study of technical feasibility and cost for possible refurbishment 
of the B61 strategic bomb, with first production in fiscal year 2004. 
These refurbishments will replace critical components to ensure decades 
of life extension.
    Exploratory Research and Development. Sandia's advanced warhead 
concepts group participates with similar teams at the other Defense 
Programs laboratories and NNSA headquarters to assess nuclear weapon 
modernization options for emerging military requirements under the 
advanced concepts initiative headed by NNSA. DOD and NNSA jointly 
review requirements and identify opportunities for further study.
    Stockpile Maintenance
    Sandia's responsibilities in stockpile maintenance include design 
and production of certain components for system life extension 
programs, limited-life component exchange and repairs, as well as other 
engineering activities that directly support maintenance of nuclear 
warheads in the stockpile. For each weapon in the inventory, we must 
understand and resolve defects (called ``significant findings''), 
maintain use-control equipment, and replace hardware consumed by the 
surveillance function. During calendar year 2001 we completed and 
closed 18 significant finding investigations. Because the service lives 
of many nuclear weapons have been extended well beyond their original 
intent, we are exhausting the supply of surveillance units available 
for flight testing. More flight test units must be produced, but the 
instrumentation to measure performance in joint flight tests with DOD 
must be redesigned using electronics technology available today.
    We have finished a complete redesign of the W76 joint flight 
vehicle and are currently working on redesigns of the W78 and W87 joint 
flight vehicles. In addition to these complete redesigns, we have added 
functionality to the B61 joint flight vehicle by developing and 
incorporating spin sensors. We are now in the process of incorporating 
this technology in the B83 joint flight vehicle.
    Neutron Generator Production
    Sandia has the production mission for neutron generators, an 
essential component of U.S. nuclear warheads. Sandia manages two pieces 
within its total production mission: (1) neutron generator production, 
including both the recertification of neutron generators from the field 
that have remaining service life and the new neutron generator build; 
and (2) the Concurrent Design and Engineering (CDM) production 
assignment. As neutron generator production ramps up and the CDM 
program grows to support the W76 and W80 life extension programs, 
production operating funds will require an increase over fiscal year 
2002 of approximately $45 million by fiscal year 2005. Estimates are 
still being generated as the refurbishment programs continue to define 
the CDM components they will need.
    Stockpile Evaluation
    Stockpile evaluation includes laboratory tests, flight tests, 
quality evaluations, special testing, and surveillance of weapon 
systems to assess the safety and reliability of the nuclear weapon 
stockpile as a basis for the annual certification to the President.
    Surveillance testing frequently results in recommendations for 
repairs and upgrades to the stockpile. Last year, following Sandia 
procedures, DOD replaced limited-life components in several weapon 
systems to add what we believe will be significant periods of 
maintenance-free service while the weapons are in DOD custody.
    I am happy to report that we have completed Title 1 (design) of the 
new Weapons Test Evaluation Laboratory construction project that 
Congress funded as a line item 2 years ago. This state-of-the-art 
facility will replace our 40-year-old building at the NNSA weapons 
facility near Amarillo, Texas. Completion is scheduled for Fall 2004. 
We are developing advanced diagnostic tools to update existing test 
equipment, and we hope to incorporate other enhancements from the 
Enhanced Surveillance Program. Our goal is to move the surveillance 
program toward a predictive capability that will allow us to replace 
components in our aging stockpile before they affect reliability.
    DOD and DOE annually conduct joint flight tests on weapons of each 
weapon type in the enduring stockpile. Historically, flight tests have 
uncovered about 22 percent of the defects in surveillance databases. 
After a hiatus in Air Force cruise missile testing due to missile 
problems and infrastructure renewal, I am happy to report that we have 
begun flight testing again with two successful air-launched cruise 
missile tests, although it will take us several years to catch up with 
our desired level of testing. As we work with the Air Force on flight 
testing for existing warheads and determine their future needs for an 
upgraded system, we are desperately short of Air Force test hardware 
for the air-launched cruise missile. We face a near-term problem of 
having limited opportunities for both flight testing of existing 
systems as well as proving the interfaces necessary to field our 
proposed life extension program for the W80 warhead.
    To help compensate for shortfalls in flight tests and a dramatic 
reduction in the number and variety of reentry vehicles that can be 
flown if the W87 is deployed on Minuteman III, on-board instruments 
must be improved to provide additional performance information in fewer 
tests. This past year, we successfully flight-tested an enhanced-
fidelity instrumentation package in the W87 reentry vehicle.
    The Tonopah Test Range, which Sandia operates under agreement with 
the Air Force, is absolutely irreplaceable as a flight-test site for 
air-delivered bomb systems. Without it, we could not continue to assess 
and certify systems nor perform research and development on new 
delivery systems. I urge continued congressional support for joint use 
of the Tonopah Test Range and the proper level of funding support for 
range infrastructure to ensure its viability.
    I would like to address the two reports issued by the DOE Inspector 
General this past year on the surveillance program--one on the testing 
backlog for flight and laboratory tests, and the other on the 
significant findings investigation process. While I do not believe that 
the situation is as dire as the headlines might have suggested, there 
was action necessary on the part of NNSA and the laboratories to 
improve performance. I assure you that we at Sandia are taking this 
matter very seriously. We are working with the Navy and Air Force to 
ensure the availability of samples and flight-test vehicles to 
eliminate the identified backlogs. As you might expect, as a result of 
the tragedy of last September and the focus on prosecuting the war, 
this may take longer than any of us might desire, but I can assure you 
that we have everyone's complete cooperation. The laboratories fully 
support the actions being directed by NNSA in response to the IG's 
reports, and I believe that future reviews in this area will show 
improvement.
    The surveillance program is the foundation for maintaining the 
aging stockpile. We believe that the surveillance program should 
maintain an adequate number of flight tests each year using military 
personnel, procedures, and hardware. Therefore, I urge you to assure an 
appropriate level of support for the joint surveillance flight test 
program, for both NNSA and the DOD, to sustain confidence in the 
reliability of our strategic nuclear deterrent.
Campaigns
    Campaigns are multifunctional efforts across the NNSA Defense 
Programs laboratories, the production plants, and the Nevada Test Site 
that, in aggregate, constitute an integrated weapons science and 
technology program for developing critical capabilities for weapons 
qualification and certification. The goal of the NNSA Defense Programs 
campaigns is to address current or future capability needs by employing 
the best scientists and engineers and using the most current scientific 
knowledge and technologies. Many of the campaigns are interrelated and 
establish a foundation for future deliverables in directed stockpile 
work. Without a robust campaign program, our ability to support 
stockpile stewardship would be seriously harmed.
    Engineering Campaigns
    NNSA's engineering campaigns strengthen the science and engineering 
competencies that directly support mission responsibilities in enhanced 
surety (comprising safety, use-control, and reliability), annual 
weapons system certification, nuclear survivability for nuclear weapons 
and other military systems, enhanced surveillance of the nuclear 
weapons stockpile, and advanced design and production technologies to 
support system life-extension programs.
    Enhanced Surety. This campaign provides the most modern surety 
possible for nuclear weapons during replacement, refurbishment, and 
upgrades of weapon components. Specifically, this campaign is 
developing surety options and technologies for the B61, W76, and W80 
weapon life-extension programs. It is also developing new surety 
assessment methodologies and supporting the integration of microsystem 
components into surety components, subsystems, and architectures.
    Weapon System Engineering Certification. This campaign develops 
validated computational models and a suite of tools to support 
certification of the B61, W76, and W80 life extension programs.
    Nuclear Survivability. Nuclear weapons must be able to survive and 
function in severe environments. Radiation produces thermal and 
mechanical stresses that may impact the reliability of weapon 
components. Although large fluxes of radiation would result from 
hostile attacks, disruptive levels of radiation are also present in 
natural environments, such as space. Also, periodic weapon diagnostics 
and exposure to radioactive decay from the nuclear explosive package 
can produce lower radiation levels of longer duration. Radiation can 
deform, spall, or degrade materials; change the conductivity of 
electronic components; generate and transmit shocks in materials; and 
release trapped gases. Microelectronic components are especially 
vulnerable to these effects.
    This campaign develops microelectronic technologies and 
certification tools to ensure that refurbished stockpile weapon 
components satisfy their radiation survivability requirements as 
defined in each weapon's stockpile-to-target sequence. These 
capabilities are being developed for immediate application to the W76 
life extension program, which is critically dependent on their timely 
development and validation.
    Sandia operates a number of test facilities that provide intense x-
ray, gamma-ray, neutron, electron, and mechanical environments to 
support the qualification of weapon systems and components and to 
validate simulation codes.
    Our goals for the next several years include demonstrating the 
maturity of next-generation, radiation-hardened microelectronics by 
designing and fabricating test devices and circuits and characterizing 
their performance in radiation environments. We will also conduct 
experiments to validate mechanical response models, mature our 
understanding of radiation-induced damage mechanisms in semiconductor 
materials, improve our diagnostic capabilities to support material 
characterizations, and investigate radiation hardening phenomena in 
microelectromechanical systems.
    Enhanced Surveillance. The Enhanced Surveillance campaign develops 
tools, techniques, and models to measure, qualify, calculate, and 
predict the effects of aging on weapon materials and components and to 
understand how those effects impact weapon safety and reliability.
    One enhanced surveillance project uncovered unexpected behavior in 
desiccants designed to maintain a non-corrosive internal weapon 
atmosphere. Our new understanding of desiccant behavior is guiding the 
formulation of new desiccants for weapons refurbished under stockpile 
life extension programs. Another project discovered problems with newly 
procured material for replacement o-rings. The problems with the 
incoming material were assessed, and a negative impact on the stockpile 
was averted.
    In the future, enhanced surveillance techniques will strengthen the 
credibility of the deterrent by warning of manufacturing and aging 
defects in time to schedule weapon refurbishments before performance is 
impaired.
    Advanced Design and Production Technologies. The Advanced Design 
and Production Technologies (ADAPT) campaign provides technology 
maturation and integration of modern product realization tools and 
methods across NNSA's product realization enterprise, including 
laboratories and plants.
    Science Campaigns
    NNSA's science campaigns advance our understanding of the physical 
principles of nuclear explosive systems and support weapons system 
certification activities.
    Dynamic Materials Properties. The Dynamic Materials Properties 
campaign develops physics-based, experimentally validated data and 
models of all stockpile materials under a broad range of dynamic 
conditions found in nuclear explosions.
    Primary Certification. The Primary Certification campaign includes 
experimental activities to develop the capability to certify rebuilt 
and aged primaries to within a stated yield without nuclear testing. 
Sandia's efforts in this area focus on the development and 
implementation of advanced compact flash radiographic sources for use 
on subcritical experiments.
    Secondary Certification and Nuclear Systems Margins. The Secondary 
Certification and Nuclear Systems Margins campaign includes 
experimental and computational activities that will determine the 
minimum essential factors for producing an effective weapon.
    Sandia's contribution is to support the development of 
computational models to predict the performance of nominal, aged, and 
rebuilt secondaries and perform collaborative experiments with the 
other NNSA laboratories in radiation case dynamics, radiation flow, and 
secondary performance.
    Advanced Simulation and Computing Campaign
    To achieve simulations with sufficient complexity and fidelity to 
support stockpile stewardship, NNSA must increase computational 
capability and capacity tremendously. The Advanced Simulation and 
Computing (ASC) campaign will hasten advances in computational science 
to enable the shift from test-based methods to computation-based 
methods.
    ASC activities at Sandia consist of code development for stockpile 
applications; problem solving environments; maintenance of sufficient 
on-site computational, networking, and communication capabilities; and 
partnering alliances with university and industry researchers. We are 
working on new mathematical methods, algorithms, and software for 
solving large-scale problems on massively parallel, often distributed 
systems. Areas of importance include mechanical and thermal response of 
weapons, shock physics, chemically reacting flows, electromagnetics, 
and the computational analysis and design of materials. As these 
techniques are developed, they are incorporated into codes relevant to 
stockpile applications. ASC simulation tools are being used to support 
design and certification activities for the W80 and W76 life extension 
programs.
    Inertial Confinement Fusion Ignition and High Yield Campaign
    This campaign includes activities to support ignition implosions on 
the National Ignition Facility and to enhance experimental capabilities 
for stockpile stewardship on Sandia's pulsed power facilities. A fusion 
yield of 200 to 1,000 megajoules in the laboratory is a long-term goal. 
We are providing intense x-ray sources for weapon physics and weapon 
effects testing, evaluating high-yield inertial confinement fusion 
concepts in the laboratory using z-pinches, and developing 
sophisticated diagnostics for the National Ignition Facility and Z 
Accelerator to support stockpile stewardship.
Readiness in Technical Base and Facilities (RTBF)
    Readiness in Technical Base and Facilities provides physical 
infrastructure and operational readiness at the laboratories, the 
Nevada Test Site, production sites, and other NNSA sites where the 
scientific, technical, and manufacturing activities for stockpile 
stewardship are conducted.
    Operation of Facilities
    Operation of facilities includes NNSA Defense Programs' share of 
the costs to operate and maintain programmatic facilities in a state of 
readiness at which each facility is prepared to execute programmatic 
tasks identified under directed stockpile work and the campaigns. These 
costs include the structures, equipment, materials, procedures, and 
personnel necessary to provide program sponsors with a facility that is 
safe, secure, reliable, and ready for operations.
    Sandia has a large number of facilities supported by the Readiness 
in Technical Base and Facilities subcategory:

        <bullet> The Microelectronics Development Laboratory maintains 
        radiation-hardened integrated circuit technologies.
        <bullet> The Compound Semiconductor Research Laboratory 
        generates new technology options in semiconductor materials, 
        processes, and device technologies to support directed 
        stockpile work.
        <bullet> The Tonopah Test Range in western Nevada provides 
        Sandia with essential flight test capabilities (including those 
        for joint test assemblies) as part of the stockpile 
        surveillance effort.
        <bullet> The Albuquerque Full-Scale Experimental Complex 
        comprises Sandia's Technical Area III experimental facilities. 
        The facilities and most of the test equipment they house range 
        from 30 to 50 years old. An RTBF construction project, Test 
        Capabilities Revitalization, is planned to renovate and 
        refurbish the complex.
        <bullet> Sandia's Z Accelerator is the world's most powerful 
        laboratory x-ray source. It supports directed stockpile work 
        and NNSA campaigns in dynamic materials properties, secondary 
        certification and nuclear systems margins, inertial confinement 
        fusion ignition and high yield, and nuclear survivability.
        <bullet> NNSA's Neutron Generator Production Facility at Sandia 
        manufactures neutron generators, a limited-life component 
        required in U.S. nuclear warheads.
    Program Readiness
    Program Readiness includes activities that support more than one 
directed stockpile work activity, campaign, or facility and that are 
essential to achieving mission objectives. Sandia has numerous projects 
and programs covered by this budget subcategory. They include the 
following:

        <bullet> The Defense Nuclear Materials Stewardship project 
        develops materials management systems to enhance the safety, 
        security, and accountability of nuclear weapons, nuclear 
        materials, and weapon components during storage, handling, and 
        transportation.
        <bullet> The Knowledge Management Program develops workforce 
        stewardship strategies to recruit and retain staff with 
        essential skills, enhance career development, and improve 
        access to retirees and other resources of knowledge for active 
        weapon professionals.
        <bullet> The Microsystems Infrastructure Readiness Project 
        maintains Sandia's microsystems capabilities, with a secondary 
        role of developing capabilities to support fabrication of war-
        reserve microsystem components.
        <bullet> The Pulsed Power Technology Project maintains our 
        capability for designing a wide variety of pulsed power 
        drivers, ranging from high-impedance accelerators for gamma 
        rays and radiography to high-power drivers for z-pinches.
    Construction
    Sandia's construction plan is designed both to provide the 
facilities we need to support programmatic objectives and to eliminate 
excess and substandard space.
    Sandia's Microsystems and Engineering Sciences Application (MESA) 
complex, discussed earlier, is the top priority in our construction 
plan. Other vital line-item construction projects include the 
following:

        <bullet> The Weapons Evaluation Testing Laboratory at NNSA's 
        Pantex Plant will provide a state-of-the-art facility for 
        testing weapon components and implementing advanced diagnostic 
        techniques developed by the enhanced surveillance campaign.
        <bullet> Funded as construction under the Advanced Simulation 
        and Computing campaign, two key facilities supporting the ASCI 
        program are under construction at Sandia laboratory locations: 
        The Distributed Information Systems Laboratory (DISL) at 
        Sandia's site in California will develop distributed 
        information systems for enabling collaborative computational 
        work across the nuclear weapons complex. The Joint 
        Computational Engineering Laboratory (JCEL) at Sandia's site in 
        New Mexico will support multi-physics code development on 
        massively parallel computers.
        <bullet> The Model Validation and System Certification Test 
        Center will provide testing facilities to continue providing 
        data for weapons certification; enhance capabilities to 
        facilitate large-volume data delivery; and replace an aging 
        communications infrastructure with integrated command and 
        control, data collection, processing, and distribution systems.
        <bullet> The Test Capabilities Revitalization project will 
        modernize Sandia's nonnuclear field testing and experimental 
        infrastructure and our diagnostic capabilities to perform 
        weapons qualification, development, surveillance, and model 
        validation. The project will renovate existing facilities and 
        provide new facilities, subject to cost-benefit studies.
    General Plant Projects
    General Plant Projects Program funding is essential for managing 
our facilities and conducting safe and reliable facility operations.
    This change has given laboratory management some flexibility in 
determining the amount of general plant project and capital equipment 
funding needed to maintain infrastructures and to respond to changes in 
infrastructure maintenance requirements. The funding limit for general 
plant projects is $5 million per project. The new flexibility we have 
to determine the best use of general plant funds has enabled us to 
improve administrative and support facilities that have been neglected 
far too long.
    Sandia received DOE approval in fiscal year 2001 to fund and 
construct an Institutional General Plant Project (IGPP) building. IGPPs 
are construction projects for general-purpose institutional space 
funded through indirect cost recovery rather than by direct funding 
from a programmatic sponsor. Sandia was the first DOE contractor to 
pilot this alternative that is now permitted by new regulations. We are 
seeking approval to construct two additional buildings through the IGPP 
mechanism in fiscal year 2002.

                    DEFENSE NUCLEAR NONPROLIFERATION

    Sandia's support for the NNSA Office of Defense Nuclear 
Nonproliferation (NN) includes research and development on systems for 
detecting proliferation of weapons of mass destruction, verifying 
international arms agreements, enhancing the protection of nuclear 
material and weapons in Russia, eliminating surplus inventories of 
fissile materials in Russia, protecting against chemical and biological 
incidents, and providing mechanisms to enhance regional stability.
    I am pleased that the fiscal year 2002 budget reversed a downward 
trend in NNSA's programs for nonproliferation and verification research 
and development. This important investment yields leading-edge 
prototypes and demonstrations that serve our national security 
interests exceptionally well.
    The greatest successes coming from this program are the result of 
persistence in providing support over long periods to allow for the 
full development and demonstration of applied technologies. We 
appreciate your trust in the laboratories to take technical risks that 
have yielded innovative solutions for monitoring treaties, protecting 
nuclear materials, and protecting against threats of chemical and 
biological terrorism. I urge your continued strong support for this 
important research and development program.
Nonproliferation and Verification Research and Development
    Sandia is developing a new generation of satellite-based sensors to 
detect low-yield nuclear explosions in the atmosphere. We also are 
developing a seismic data processing system to enhance detection of 
underground nuclear explosions. Our activities are part of a 
multilaboratory effort to develop affordable, deployable, and flexible 
sensors for seismic, hydro-acoustic, radionuclide, and infrasound data 
acquisition and processing. These activities are coordinated and, in 
many cases, co-funded by the Department of Defense, which has the 
operational nuclear-test monitoring responsibility for the U.S. 
government.
    We are developing airborne and satellite-based systems for 
detecting and characterizing proliferation-related activities involving 
chemical weapons, biological weapons, and missiles. Sandia coordinated 
the integration of NNSA's Multispectral Thermal Imager Satellite 
research project, which has recently completed its second year of 
successful operation and research. We are also developing a laser-based 
system for remote detection and identification of chemical and 
biological species in effluent plumes. We will conduct flight tests 
this year of the integrated system on an unmanned aerial vehicle. We 
have made impressive progress toward developing specialized chemical 
and biological microsensors, bioinformation systems, and 
decontamination technologies for nuclear, biological, and chemical 
weapons and for detecting nuclear material smuggling. With regard to 
the microsensors, we are currently conducting field trials, and 
preliminary results are very promising.
Nonproliferation and Arms Reduction Transparency
    NNSA's Cooperative Monitoring Center (CMC) at Sandia National 
Laboratories assists a number of countries and agencies in evaluating 
the applicability of arms control technologies and protocols for 
regional security issues. Export-approved monitoring equipment is 
available for representatives of regional parties from areas such as 
south Asia, the Middle East, the Balkans, and the Korean peninsula, to 
evaluate for application to specific regional problems. For example, 
the CMC is currently engaging Pakistan and India in a cooperative 
boundary monitoring project. The CMC also supports technical analysis 
of policy options for DOE and provides national security insight to 
other organizations. CMC staff also provide technical consultation to 
U.S. negotiating delegations.
    In an effort to extend the accessibility of the CMC to an affected 
region, a similar institute is being established in Amman, Jordan. This 
development is a cooperative effort of the Department of State, the 
Defense Threat Reduction Agency, and NNSA. It is a significant 
cooperative development involving the United States and Jordan and 
represents an opportunity to foster stability in that region through 
the integration of technology and policy.
    In other activities, Sandia assists with the evaluation of export 
licenses for technology with possible uses for weaponization 
activities. We also help develop technology for International Atomic 
Energy Agency remote monitoring and inspections. Sandia develops 
remotely accessed, unattended cooperative monitoring systems for 
applications in foreign states without nuclear weapons that are party 
to the Treaty on the Non-Proliferation of Nuclear Weapons. These 
activities typically support the International Atomic Energy Agency and 
bilateral safeguards agreements between the United States and foreign 
states with nuclear materials of U.S. origin. Other work is conducted 
for the physical protection of nuclear materials in the Baltic and 
independent states of the former Soviet Union and in states that are 
party to the Convention on the Physical Protection of Nuclear Material. 
These activities include the International Atomic Energy Agency 
International Physical Protection Advisory Service, training classes, 
and physical security upgrades.
U.S./Russian Nuclear Security Programs
    Sandia supports a broad range of cooperative programs with Russia 
in nuclear security. These programs, funded by NNSA, DOD's Cooperative 
Threat Reduction program, and the Department of State, address the 
safety and security of nuclear weapons, the security of fissile 
materials, verification of fissile materials, and defense conversion.
    I want to make special note of the importance of the activities 
with Russia. The terrorist attacks last September have made us all 
acutely aware of the catastrophic potential of weapons of mass 
destruction should they end up in the wrong hands. The cooperative 
efforts to protect nuclear materials and maintain state control over 
nuclear capabilities and assets in Russia are important initiatives 
that must continue. We promote a vision called ``Global Nuclear 
Management'' that, if realized, would assure the control of all nuclear 
materials in the world. However, the current state of protection for 
nuclear materials in Russia, while improved through the past efforts of 
this program, is an important indication of the potential for nuclear 
material proliferation. We must continue these efforts with Russia.
    Russian Transition Initiatives
    In support of defense conversion programs, Sandia has been an 
active participant in the Russian transition programs, including the 
International Proliferation Prevention Program, which engages weapons 
scientists, engineers, and technicians from the former Soviet Union in 
nonmilitary projects. This program provides seed money for nonmilitary 
research and provides links with U.S. industry to commercialize the new 
activities. In a particularly effective case, Sandia engineers worked 
with Spektr Conversion LLC, a company formed by scientists at the 
Russian nuclear weapons laboratory, the All-Russian Scientific Research 
Institute of Technical Physics (VNIITF), and a U.S. manufacturer, 
Numotech Inc., to design and build a wheelchair seat cushion to prevent 
pressure sores. The prototype cushion was clinically tested at a VA 
hospital and is approved by the FDA. The program provided employment 
opportunities in an area of civilian need for Russian technical 
personnel.
    International Nuclear Materials Protection and Cooperation
    A major Sandia program that addresses the security of nuclear 
weapons and fissile material in Russia is the Materials Protection, 
Control, and Accounting (MPC&A) program. Since 1993, Sandia has 
participated in this multi-laboratory effort to reduce the threat of 
diversion of Russia's nuclear weapons and weapon-usable nuclear 
material to rogue states or terrorist groups. This program, which 
originally included projects in Russia and a number of the newly 
independent states, now focuses on Russia in the areas of nuclear 
material and nuclear facilities operated by the Ministry of Atomic 
Energy, the Russian Ministry of Defense, and smaller independent 
ministries. Activities include vulnerability assessments, protection 
system design, training, and support for hardware installations and 
maintenance. Assistance is also provided to states other than Russia to 
protect fissile materials, on-site and in transit, against theft. 
Protecting U.S.-origin nuclear material in other countries is a 
particular concern. A related activity provides assistance to the 
International Atomic Energy Agency (IAEA) to develop physical 
protection guidelines.

                           GOVERNANCE REFORM

    A very important initiative by the NNSA Administrator is an effort 
to redesign the NNSA contractor relationship through a new approach to 
governance. The goal is to implement a simpler, less adversarial 
contracting model capitalizing on the private-sector expertise of the 
management and operating contractors while increasing contractor 
accountability for performance and responsiveness to NNSA requirements.
    The current governance structure for the NNSA Laboratories is 
broken. I doubt that any of my lab director colleagues would disagree 
that the current governance regime unreasonably constrains us from 
exercising prudent management authority and bold leadership in 
accordance with best industrial practices; and yet, that kind of 
leadership was precisely what the Federal Government bargained for 
under the original GOCO (government-owned, contractor-operated) 
contracting model. The influential Galvin Report \6\ was perhaps the 
most adamant of several studies that have been critical of the 
excessively bureaucratic nature of DOE governance of the laboratories. 
The Galvin Task Force found that the GOCO model has been so encumbered 
with bureaucratic accretions that it would be better to scrap it 
altogether and privatize the laboratories. While that is probably too 
drastic a remedy, we should all be concerned that the current 
laboratory governance regime fails to encourage management initiative 
for superior performance beyond mere compliance with an array of 
bureaucratic prescriptions.
---------------------------------------------------------------------------
    \6\ Alternative Futures for the Department of Energy National 
Laboratories, Secretary of Energy Advisory Board, Task Force on 
Alternative Futures for the Department of Energy National Laboratories. 
Robert Galvin, Chairman, et al., February 1995.
---------------------------------------------------------------------------
    As originally conceived, the GOCO model was a strategic partnership 
between a Federal agency and a premier industrial or academic entity. 
In simple terms, the key operating concept was that the Federal sponsor 
articulated WHAT was to be achieved (the mission and its programmatic 
deliverables) while the contractor determined HOW to achieve it, in 
accordance with best industrial practices. The laboratory governance 
reform initiative that the NNSA Administrator proposes includes an 
assurance strategy that will employ several private-sector assurance 
systems such as comprehensive internal auditing, oversight by boards 
and external panels, third-party certifications, and direct engagement 
between oversight bodies and NNSA's leadership.
    The first phase of this initiative will attempt to reduce 
contractual prescriptions that exceed those mandated by law and 
regulation. The second phase will design and demonstrate a new 
governance model, conducted as a pilot program at Sandia National 
Laboratories. If the subsequent appraisal of the pilot phase is 
positive, the new model would likely be implemented at other NNSA 
Laboratories and plants.

                           CONCLUDING REMARKS

    In my view, the National Nuclear Security Administration, under the 
businesslike leadership of General John Gordon, has made significant 
progress during the past year in its organizational effectiveness. The 
agency is now functioning with evident coordination and teamwork, 
attributes which will likely be strengthened even more as the 
administrator's organizational and operational plans are implemented. 
To assure continued success, however, the agency needs long-term 
support from Congress and sustained resources to meet the formidable 
requirements of stockpile stewardship in the years ahead.
    On behalf of the dedicated and talented people who constitute 
Sandia National Laboratories, I want to emphasize our commitment to the 
NNSA mission to strengthen United States security through the military 
application of nuclear energy and by reducing the global threat from 
terrorism and weapons of mass destruction. It is our highest goal to be 
a national laboratory that delivers technology solutions to the most 
challenging problems that threaten peace and freedom.
                                 ______
                                 
                 Prepared Statement by C. Bruce Tarter

                            OPENING REMARKS

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide a statement on the budget request for fiscal 
year 2003 for the National Nuclear Security Administration (NNSA). I am 
the Director of the Lawrence Livermore National Laboratory (LLNL). 
Livermore is committed to maintaining confidence in the U.S. nuclear 
weapons stockpile as a principal participant in the Nation's Stockpile 
Stewardship Program. The laboratory is also engaged in vital national 
programs to reduce the threat posed by the proliferation of weapons of 
mass destruction and to provide for homeland security.
    My statement discusses Livermore's accomplishments in NNSA programs 
as well as the technical and programmatic challenges we face. But 
first, I want to thank Congress for your continuing support of the 
Stockpile Stewardship Program and our nonproliferation and threat 
reduction activities. The Stockpile Stewardship Program continues to 
make excellent technical progress in the face of many challenges, some 
of the toughest of which likely lie ahead as weapons continue to age. A 
strongly supported and sustained Stockpile Stewardship Program is 
clearly needed to ensure that this Nation can maintain the safety, 
security, and reliability of its nuclear deterrent over the long term. 
The 5-year plan of the National Nuclear Security Administration details 
the need for a strong program, and I support NNSA's plan and the budget 
request for fiscal year 2003.
    Strong and sustained support is likewise needed for programs aimed 
at providing technologies to reduce the threat posed by weapons of mass 
destruction (WMD) through nonproliferation, counterproliferation, and 
counterterrorism activities. Because Livermore and our sister NNSA 
Laboratories had been working for the past decade to develop technical 
capabilities to detect, counter, and mitigate WMD proliferation and 
terrorism, we were able to respond rapidly and effectively to the 
events of September 11 and its aftermath. Although those investments 
are paying great dividends in the newly declared war on terrorism, 
substantial investment is needed to develop vastly improved warning and 
responsive capabilities to protect the U.S. against these threats, now 
and in the future. We are fully committed to this long-term national 
security endeavor.

                              INTRODUCTION

    Exactly 1 year ago, NNSA Administrator General John Gordon, head of 
the NNSA, and Admiral Richard Mies, Commander in Chief of U.S. 
Strategic Command, were at Livermore to commemorate the certification 
of the refurbished W87 ICBM warhead. Speaking as the ``customer,'' 
Admiral Mies called the occasion an ``historic event'' and ``the first 
real test of stockpile stewardship.'' The W87 life-extension program 
challenged all elements of the Stockpile Stewardship Program. Devising 
the engineering improvements to the warhead, going into production in a 
less than fully functional weapons complex, and certifying the 
performance of the refurbished warheads without nuclear testing were 
all major accomplishments. It is an important success story, but in the 
words of General Gordon, ``we still have a long way to go.'' More 
challenging technical issues are on the horizon as the weapons continue 
to age, as other weapon systems are refurbished, and as new needs 
emerge.
    Weapon-refurbishment decisions and actions bring into play the full 
spectrum of capabilities that we are striving to attain through the 
Stockpile Stewardship Program. First, to recognize and evaluate aging 
problems (and other defects) in weapons and devise remedies, we must 
understand in detail the science and technology that govern all aspects 
of nuclear weapons. We are making progress here, but we need even 
better investigative tools. Second, the nuclear weapons production 
complex must be able to remanufacture parts and refurbish weapons as 
needed. Currently the complex is far from fully functional. Third, we 
must be able to certify with confidence the performance of both the 
refurbished warheads and the other weapons in the stockpile. This task 
requires the application of expert judgment, together with the advanced 
experimental and computational tools we are using to improve our 
fundamental understanding of nuclear weapons. Finally, acquisition of 
this spectrum of capabilities is time urgent to meet existing 
requirements for weapon refurbishment and to deal with other weapon 
performance issues as they arise.
    Thus a principal goal of the Stockpile Stewardship Program has been 
to expeditiously put into place a set of vastly improved scientific 
tools and modern manufacturing capabilities, including 100-TeraOps 
supercomputers, advanced radiography capabilities to take three-
dimensional images of imploding mock primaries, a high-energy-density 
research facility (the National Ignition Facility) to study the 
thermonuclear physics of primaries and secondaries, and efficient and 
flexible manufacturing facilities. These investments are very demanding 
of resources, as is the need to meet requirements imposed by the 
Department of Defense (DOD). The 2002 Nuclear Posture Review provides a 
high-level policy perspective of what will be demanded from the NNSA 
Laboratories to sustain the Nation's nuclear posture. Concurrently, 
NNSA has developed a 5 year plan for its Defense Program activities. 
The proposed budget for fiscal year 2003 and succeeding years is larger 
than recent budgets, but there is much to be done and we must manage to 
achieve our critical milestones with the resources provided.
    Livermore has major responsibilities within the Stockpile 
Stewardship Program, and our successes in 2001--as well as the 
challenges that lie ahead--provide a snapshot of the overall program. I 
already mentioned the successful certification of the W87 warhead, 
refurbished through a life-extension program (LEP). In addition, 
Lawrence Livermore and Sandia/California are starting the LEP for the 
W80 cruise missile warhead, designed by Los Alamos. This program will 
implement refurbishment options defined in a formal DOD/DOE study 
completed in 2000. It builds upon a modern baseline understanding of 
the W80 and its performance, which was developed cooperatively by the 
New Mexico and California laboratories during the DOD/DOE study and 
through significant additional work performed during 2001. At this 
time, there is a congressional hold on NNSA work for the LEP while the 
Air Force defines its plans for life-extension work on the cruise 
missiles themselves. Prompt agreement on the path forward is needed if 
we are to be able to meet the directed date for the W80 first 
production unit (FY 2006). Also in fiscal year 2001, we completed a 
pilot project to demonstrate the capability to conduct warhead pit 
surveillance operations, and we are now performing full surveillance on 
two warhead pits. Transfer of certain pit surveillance responsibility 
for LLNL-designed warheads to Livermore makes the work load at the TA-
55 facility at Los Alamos more manageable.
    Lawrence Livermore is also responsible for a number of state-of-
the-art experimental and computer facilities--in operation and in 
development--that are essential for stockpile stewardship. Construction 
of the Contained Firing Facility for hydrodynamic testing at Site 300 
is now finished. Qualification testing has been completed to assure the 
facility's ability to contain debris from experiments that use up to 60 
kilograms of high explosives. The first stockpile-related experiment 
was executed last month, and an active testing schedule is now under 
way.
    Construction of the National Ignition Facility (NIF) at Livermore 
is now more than 60 percent complete. I am extremely pleased to report 
that NIF remains on track and is meeting its baseline cost and schedule 
as provided to Congress in September 2000. We expect to have NIF's 
first laser beams delivered to the target chamber within the next year. 
Over the past 2 years, regular reviews of the NIF Project have been 
held every 6 months. Among other positive findings, the most recent 
review concluded that ``The project has made impressive progress and 
has been responsive to previous review team recommendations.'' NIF 
remains a funding-constrained project that could be completed earlier 
and at significantly less total cost if more of its total project 
funding were to be made available in fiscal year 2003 and fiscal year 
2004 rather than in later years.
    The Advanced Simulation and Computing (ASCI) program is central to 
many of the success stories of the Stockpile Stewardship Program. Last 
summer, we took delivery from IBM of ASCI White, the world's most 
powerful computer, capable of 12.3 TeraOps (trillion operations per 
second). This machine has been used intensively by all three weapons 
laboratories to support stockpile stewardship through a variety of 
applications. For example, in the fall of 2001 both Livermore and Los 
Alamos used this machine to complete the first-ever fully three-
dimensional simulations of a complete warhead explosion. We are 
earmarked to take delivery of our next ASCI computer in fiscal year 
2004, a machine that will be capable of 60 to 100 TeraOps. The 
groundbreaking ceremony for construction of the Terascale Simulation 
Facility (TSF) to house this computer was held just last week.
    The events of September 11 highlighted the immense value of the 
NNSA Laboratories' technical capabilities and their activities to 
reduce the threats posed by the proliferation or terrorist acquisition 
of weapons of mass destruction. These efforts are part of a 
comprehensive set of activities aimed at proliferation prevention 
(e.g., through cooperative programs with Russia), detection and 
reversal, response, and avoiding surprise (including support to the 
U.S. Intelligence Community).
    Post-September 11, Lawrence Livermore provided analysis and 
assessments as well as information-operations tools and expert 
personnel to the Intelligence Community. Our Nuclear Threat Assessment 
Center operated 7 days a week to evaluate numerous smuggling incidents 
and nuclear-related threats. Miniaturized DNA analysis technology 
pioneered by Livermore made possible several biodetectors with vastly 
improved capabilities which are being commercialized and are at the 
core of the Nation's biodefense capabilities. In addition, our 
Counterproliferation Analysis and Planning System (CAPS), extensively 
used by the DOD, supported U.S. military efforts with evaluations 
focused on sites of concern in and around Afghanistan. Later in my 
statement, I provide many other examples of the capabilities and expert 
assistance we are providing to help government entities defend against 
WMD terrorism.
    In short, Livermore's assessment capabilities and technologies are 
contributing to homeland defense in manifold ways. We were able to 
respond immediately because we had begun to address the threat of WMD 
terrorism long before September 11. We take a comprehensive approach to 
the problem, developing technologies and tools to counter threats and 
working closely with Federal, state, and local response agencies to 
ensure that our technological solutions meet real-world operational 
needs. In several key areas, the research programs benefited greatly 
from the use of Laboratory-Directed Research and Development (LDRD) 
funding for exploratory efforts that led to technologies that are now 
being deployed; for example, without the head start provided by LDRD, 
the advanced biodetection systems that are now being fielded would 
still be in development. We are poised to contribute to homeland 
defense in the long-run through the development of more advanced 
technologies to defend against both current and future threats. The 
nation would greatly benefit from sustained funding for long-range 
research and development activities at the NNSA Laboratories to improve 
homeland security.
    One area of concern is the proposed fiscal year 2003 budget for 
Environmental Management efforts at the Laboratory, which constitutes a 
reduction of about 27 percent from the fiscal year 2002 allocation of 
$40.9 million. The Laboratory requires an additional $17.5 million 
above the budget request to maintain its existing Environmental 
Management program, which consists of two parts. The first is 
Environmental Restoration--the clean up of groundwater and soil 
contaminated from past operations. Considerable work has been done in 
remediating contamination at the laboratory's two sites. However, with 
the proposed cuts, Livermore will miss critical cleanup milestones that 
have been negotiated by DOE with the State of California and the U.S. 
Environmental Protection Agency. In contrast, the laboratory strongly 
believes that we should accelerate our cleanup activities, and we are 
again proposing this initiative to DOE as we have in past years. The 
second part of the program, Waste Management, involves the treatment, 
handling, and disposal of hazardous and radioactive waste from ongoing 
and past operations. Under the current proposed budget, it will be 
impossible to support the laboratory's programmatic needs with a safe, 
compliant waste management program. This will have severe impacts on 
the national security mission and will cause certain programmatic 
activities to be deferred and/or cancelled.
    On a positive note, from Livermore's perspective, I am very pleased 
with the progress that General Gordon is making at NNSA and with 
changes at the University of California in its role as manager of the 
Livermore and Los Alamos national laboratories. Preparation of the 5 
year plan for NNSA's Defense Program activities is the first of what I 
expect to be many tangible benefits from NNSA organizational changes. 
General Gordon's plan to eliminate a layer of field management and to 
reengineer operations at NNSA sites are other important steps. We at 
Livermore are working with NNSA to find ways to significantly reduce 
the administrative workload. As part of the University of California's 
management and operations contract extension, the position of Vice 
President for Laboratory Management was created and John McTague was 
selected to serve. Dr. McTague is providing outstanding leadership in 
efforts to strengthen management accountability, institute more uniform 
best practices in operations at Lawrence Livermore and Los Alamos, and 
foster even greater cooperation between the laboratories.
    As you may be aware, I will be leaving my position as laboratory 
director soon, when my successor has been selected. I appreciate the 
support that this committee has provided to Lawrence Livermore and to 
me during my tenure. I also appreciate having had the opportunity to 
serve our Nation in this manner. I look forward to the very positive 
future that I believe Lawrence Livermore will have with your continued 
support.

                   THE STOCKPILE STEWARDSHIP PROGRAM

    The Stockpile Stewardship Program is designed to ensure the safety 
and reliability of the U.S. nuclear weapons stockpile required to meet 
national security needs of the 21st century. Confidence in the safety 
and reliability of the weapons is to be maintained through an ongoing 
and integrated process of stockpile surveillance, assessment and 
certification, and refurbishment. Stockpile stewardship is a principal 
mission of the NNSA. NNSA began operation in March 2000.
    Earlier this year General John Gordon, Administrator of NNSA, 
announced organizational changes to enhance NNSA's performance in core 
mission areas. The changes realign and separate programmatic and 
operational functions within the agency. The organizational and other 
positive changes adopted by General Gordon will clarify lines of 
communication and authority, which should improve overall efficiency 
and performance. Execution of the Stockpile Stewardship Program remains 
the primary responsibility of the NNSA Deputy Administrator for Defense 
Programs (NNSA/DP).
    The changes being made at NNSA will facilitate long-range planning 
and the preparation of a comprehensive 5 year budget, which are 
critically important. The Stockpile Stewardship Program faces many 
competing demands for available resources. Difficult trade-off 
decisions will have to be made. NNSA must balance evolving requirements 
for directed stockpile work, the need for vigorous campaigns to prepare 
stockpile stewards for the more challenging issues that will arise as 
weapons continue to age, and required investments in research and 
production facilities and people.
    We will greatly benefit from enhanced 5 year planning because it 
will establish reliable future program bases at each of the 
laboratories and production facilities, which greatly helps in 
resource, workforce, and facility planning. Completion of the Nuclear 
Posture Review has also been an important step in defining future 
program policy direction. Livermore's expertise in many nuclear-weapons 
issues is a national resource that has contributed to these 
deliberations. Enhanced 5 year budget planning and the outcome of high-
level reviews are also important for the future of our laboratory's 
nonproliferation and arms control programs.
Integrated Program Management and Execution
    Integrated program management and execution is critical to the 
success of the Stockpile Stewardship Program. The three major program 
elements--surveillance, assessment and certification, and 
refurbishment--are tightly interconnected. So are the activities of the 
three laboratories, the production plants, and the Nevada Test Site. 
Livermore has many close partnerships and working relationships with 
other sites in the weapons complex. As one of the two nuclear design 
laboratories, we have particularly important formal certification 
responsibilities. The laboratory also operates a number of unique, 
state-of-the-art experimental and computer facilities that are 
essential for both assessment of stockpile performance and 
certification of refurbishment actions.
    The Stockpile Stewardship Program is formally managed by NNSA/DP 
through three overarching sets of activities: Directed Stockpile Work, 
Campaigns, and Readiness in Technical Base and Facilities. NNSA/DP uses 
this breakout to make evident program integration, establish more 
clearly program goals and budget priorities, and help to identify 
program risks if there are budget shortfalls. The integrated program 
activities include:

        <bullet> Directed Stockpile Work. Directed Stockpile Work 
        supports the readiness of weapons and includes activities to 
        meet current stockpile requirements. The effort includes weapon 
        maintenance, comprehensive surveillance, weapon baselining, 
        assessment and certification, supporting research and 
        development, and scheduled weapon refurbishments. It also 
        includes other stockpile commitments, such as dismantlement and 
        information archiving.
        <bullet> Campaigns. Campaigns are directed at making the 
        scientific and technological advances necessary to assess and 
        certify weapon performance now and over the long-term. They 
        develop and maintain specific critical capabilities that are 
        needed to sustain a viable nuclear deterrent. Each campaign has 
        milestones and specific end-dates designed to focus advanced 
        basic and applied science, computing, and engineering efforts 
        on well-defined deliverables related to the stockpile. The 
        current set of 17 campaigns provides a planning framework for 
        the program's research and development activities.
        <bullet> Readiness in Technical Base and Facilities. 
        ``Readiness in Technical Base and Facilities'' ensures that 
        necessary investments are made in people and their supporting 
        infrastructure. Readiness includes the fixed costs and the 
        investments of the Stockpile Stewardship Program, and it aims 
        to ensure the presence of: (1) high-quality, motivated people 
        in the program with the needed skills and training; (2) a well-
        maintained, modern infrastructure--to support the activities of 
        these people--that is operated in a safe, secure, and 
        environmentally responsible manner; and (3) special 
        experimental and computational facilities that must be 
        developed and brought on line for stewardship to be successful 
        in the long term.

    A rigorous planning process has been established to clearly define 
programmatic milestones to be achieved within each of these program 
areas. The Stockpile Stewardship Program is now defined by a series of 
5-year plans, one for each program element, describing goals and 
objectives. The 5-year plans, which were developed with participation 
by the laboratories, plants, and the test site, are accompanied by 
annual implementation plans with detailed milestones.

       ACCOMPLISHMENTS AND CHALLENGES IN DIRECTED STOCKPILE WORK

    Livermore is the design laboratory for four weapon systems in the 
stockpile: the W87 and W62 ICBM warheads, the B83 bomb, and the W84 
cruise missile warhead. They are expected to remain in the stockpile 
well past their originally anticipated lifetimes; the W62 already has. 
Significant effort is being expended on weapons surveillance and 
baselining, on assessing the weapons' performance, and on maintenance 
and selective refurbishment. We have just completed a major effort to 
extend the stockpile life of the W87 warhead, and Livermore and Sandia/
California have been assigned the responsibility for the engineering 
development work to refurbish the W80, a Los Alamos-designed weapon.
Stockpile Surveillance and Baselining
    Our stockpile surveillance efforts focus on assessing the condition 
of Livermore designs in the stockpile and on understanding the effect 
of aging on weapons in the stockpile. Aging is important because it 
affects the physical characteristics of materials, and we must 
determine how these changes impact weapon safety and performance. With 
a better understanding of aging, our stockpile surveillance can be more 
predictive, making possible systematic refurbishment and preventative 
maintenance activities to correct developing problems. An important 
factor here is to be able to detect subtle changes to the weapon system 
well in advance of the change causing a safety, reliability, or 
performance issue. This is essential to prepare for upgrades or life 
extension efforts that may take many years to fully implement.
    As we gather more data and gain experience, we review and upgrade 
our surveillance programs--refining sampling plans, measuring 
additional attributes, introducing new diagnostic tools, and improving 
analysis methods. We are also taking on responsibility for surveillance 
of pits from Livermore-designed weapons in the stockpile to better 
balance the workload. These activities had been conducted at Los 
Alamos.
    In addition, we are improving the sensors and techniques used to 
inspect all stockpiled weapons. In concert with the Enhanced 
Surveillance Campaign and as part of the Directed Stockpile work, we 
have developed processes to deploy newly emerging diagnostics into the 
core surveillance program. These diagnostics are enabling us to better 
diagnose and quantify the condition of the stockpile, and to identify 
aging characteristics at the earliest possible time. For example, 
Livermore, in cooperation with Y-12, has completed the development of 
an analytical model and the development and deployment of a suite of 
diagnostic tools that enable us to understand the aging behavior of 
secondary assemblies. We are also completing development of high-
resolution x-ray tomography for imaging weapon pits; first phase 
deployment at LLNL is complete and has been demonstrated, and 
deployment at Pantex is continuing. Furthermore, development continues 
of high-energy neutron radiography for nondestructively detecting small 
voids and structural defects in weapon systems.
Stockpile Safety and Performance Assessments
    Assessments of the safety and performance of stockpiled weapons and 
modification actions must be demonstration based--that is, grounded on 
existing nuclear test data, non-nuclear tests, fundamental science 
experiments, and simulations using validated computer models. To the 
extent possible, non-nuclear tests are used to assess weapon safety and 
performance. Together with past nuclear test results, they also are 
used to validate computer simulations. Once validated to the extent 
possible, these simulations guide expert judgment in making complete, 
integral assessments of stockpile issues. Such demonstration-based 
assessments underpinned Livermore's W87 stockpile life extension 
program (discussed below) and will provide similar support to our W80 
life extension work. In addition, this methodology is applied to the 
assessment of issues that arise in the course of ongoing stockpile 
surveillance and is the foundation of our annual certification 
assessments.
    Annual Stockpile Certification. Annual certification of the 
stockpile is fully reliant on the laboratories' assessment 
capabilities. Formal review processes for certification of weapon 
safety and reliability in the absence of nuclear testing have been 
established as part of the Stockpile Stewardship Program. It is 
essential that judgments and decisions made by the stockpile stewards 
are credible among themselves, to DOD and others in the nuclear weapons 
community, and to the administration and Congress, and the annual 
certification process is an essential means to that end.
    Annual certification is based on the technical evaluations made by 
the NNSA Laboratories and on advice from the laboratory directors, the 
Commander in Chief of the U.S. Strategic Command, and the Nuclear 
Weapons Council. In the course of annual certification, our laboratory 
collects and reviews all available information about each stockpile 
weapon system, including physics, engineering, and chemistry and 
materials science data. This work is subjected to rigorous, in-depth 
review by scientists, engineers, and managers throughout the program. 
In addition, it is reviewed by several DOD groups. Livermore completed 
its support of the 2001 annual certification cycle in September 2001, 
when I sent my annual certification letter to the Secretaries of Energy 
and Defense. In conjunction with their colleagues at Sandia, Livermore 
personnel are now well into the 2002 cycle and are on a pace to 
complete our support of that cycle on schedule.
Stockpile Maintenance and Refurbishment
    Each year, the Nuclear Weapons Stockpile Plan sets the requirement 
to maintain a safe and reliable nuclear weapons stockpile, and it 
specifies the number of weapons of each type to be in the stockpile. 
Among other responsibilities, the DOD establishes military 
requirements, which are incorporated into the plan. These requirements 
drive the Directed Stockpile Work workload for NNSA, particularly in 
the resource-intensive area of refurbishment activities and life-
extension programs. The W87 life-extension program is in its production 
phase and activities are planned for the B61, W76 and W80 systems.
    The W87 Life Extension Program. In April 2001, Admiral Richard Mies 
(Commander in Chief of U.S. Strategic Command) and General Gordon 
visited Livermore to celebrate certification of the life-extension 
refurbishment of the W87 ICBM warhead. Formal certification was 
completed with signing of the Final Weapon Development Report by Sandia 
Director Paul Robinson and myself. This first completed certification 
of a warhead refurbished through a life-extension program (LEP) is a 
groundbreaking milestone for the Stockpile Stewardship Program. It 
demonstrates effective cooperation of the laboratories and the 
production facilities to overcome physics, engineering, and 
manufacturing challenges to meet DOD requirements without conducting a 
nuclear test.
    The development activities for this program included extensive 
flight testing, ground testing, and physics and engineering analysis. 
High-fidelity flight tests, incorporating the latest technological 
advances in onboard diagnostic instrumentation and telemetry, provided 
added confidence in the reliability of the design modifications. 
Assessment of nuclear performance is based on computer simulation, past 
nuclear tests, and new above-ground experiments that addressed specific 
physics questions raised by the engineering alterations and computer 
simulations.
    The objective of the W87 LEP was to enhance the structural 
integrity of the warhead so that it may remain part of the enduring 
stockpile beyond the year 2025 and meet anticipated future requirements 
for the system: the W87/Mark 21 is planned as a single RV option for 
the Minuteman III ICBM. The first production unit was completed at the 
Pantex Plant in February 1999, and production is proceeding on schedule 
for completion early in 2004.
    Life Extension of the W80. Under the direction of the Nuclear 
Weapons Council, the W80 Project Officers Group (POG) is pursuing an 
LEP for the W80 cruise missile warhead, which was developed by Los 
Alamos and Sandia/New Mexico. A formal study that defined refurbishment 
options and their feasibility (known as a 6.2 study) was completed in 
2000. Livermore and Sandia/California participated as an 
Interlaboratory Peer Review team. In this role, the California team 
evaluated proposed modifications to the warhead for feasibility, aging 
effects on the modifications, impact to the DOE complex, and production 
issues. The W80 POG has selected a final refurbishment option for the 
LEP, and NNSA has assigned the associated engineering development task 
to Livermore and Sandia/California. This assignment better balances the 
workload among the laboratories and provides a vehicle for the 
laboratory to develop the skills of the next generation of stockpile 
stewards. The California laboratories will also be the design agencies 
for certifying the safety and reliability of the refurbished warheads, 
the W80 Mods 2 and 3. Los Alamos and Sandia/New Mexico will continue to 
be responsible for certification of the W80 Mods 0 and 1.
    During 2001, the New Mexico and California teams completed a 
baselining study to establish a modern understanding of the current W80 
and its performance. Livermore is now continuing to conduct above-
ground experiments and simulations on the current warhead in 
preparation for beginning work on the LEP modifications. At this time 
there is a congressional hold on NNSA work for the LEP as the Air Force 
defines its plans for parallel life extension work on the cruise 
missiles themselves.

   ACCOMPLISHMENTS AND CHALLENGES IN STOCKPILE STEWARDSHIP CAMPAIGNS

    As I have earlier described, stockpile stewardship campaigns are 
focused, technically challenging, multifunctional efforts that address 
critical capabilities that will be needed to achieve certification of 
stockpiled weapons as more challenging issues arise. Eight campaigns 
are aimed at providing the scientific understanding needed to certify 
the nuclear weapons stockpile and to support required weapon 
modernization in life extension programs. Three additional campaigns 
focus on weapon engineering. They provide specific tools, capabilities, 
and components in support of weapon maintenance, modernization, and 
refurbishment, as well as certification of weapon systems. The final 
six campaigns support readiness by focusing on sustaining the 
manufacturing base within the weapons complex. Examples of Livermore's 
major contributions to these multi-site campaigns are highlighted 
below.
Experiments, Theory, and Modeling to Better Understand Plutonium
    One of the major success stories of the Stockpile Stewardship 
Program is the significant improvement we are making in understanding 
the properties of plutonium. This is a very important issue--we need to 
understand aging in plutonium and the effect of aging-related changes 
on the performance of an imploding pit of a stockpiled weapon. The 
required capacity of the production complex depends on the anticipated 
lifetime of plutonium pits in the stockpile. An accurate assessment is 
necessary. If we under estimate the lifetime of pits, we may over 
invest in facilities to remanufacture plutonium parts. If we over 
estimate the lifetime of pits, the Nation could find itself critically 
short of capacity for plutonium operations when it is vitally needed.
    Laboratory Experiments and Modeling. Available information 
indicates that plutonium used in pit applications is stable; however, 
we must assess the effects of long-term aging. Plutonium's properties 
are among the most complex of all the elements. To study the subtleties 
of plutonium, we have combined advances in theoretical modeling with 
the use of sophisticated experiments. For example, we are using old 
pits and accelerated-aging alloys to determine the lifetime of pits. 
Accelerated-aging samples are plutonium alloys with a mixture of 
isotopes to increase the rate of self-irradiation damage so that the 
material ``ages'' faster.
    Data from our materials, engineering, and dynamic experiments show, 
so far, that pits are stable. Livermore has conducted important 
experiments on old pits using advanced materials characterization tools 
such as our Transmission Electron Microscope, the most powerful such 
instrument in the NNSA complex. Using the Transmission Electron 
Microscope, we have discovered nanoscale (10<SUP>-9</SUP> inch) bubbles 
that are likely filled with helium in the microstructure of aged 
plutonium. The plutonium appears to be accommodating the helium, which 
is created through self-irradiation, in a stable form. The presence of 
these bubbles was predicted theoretically using computer simulations of 
the radiation damage process.
    Experiments at the Nevada Test Site. Livermore is conducting sub-
critical experiments at the Nevada Test Site to investigate the 
properties of plutonium shocked and accelerated by high explosives. 
Matter can be ejected from the free surface of materials that undergo 
shock. The experiments characterize ejecta, which is thought to affect 
the performance of primaries in weapons. Performance is being studied 
as a function of plutonium age as well as surface finish and 
manufacturing technique. Results will affect estimates of pit lifetime 
and decisions about future production of replacement pits, and improve 
our fundamental understanding of performance.
    Unlike our first three subcritical experiments, tests in the 
current Oboe series are performed inside individual confinement 
vessels. Eight of the nine planned Oboe experiments have been 
completed, two of them in 2001. By using small expendable vessels, up 
to 12 separate experiments can now be conducted in the same underground 
test chamber--the zero room--over several years. Following the test, 
after the chamber is determined to be contamination-free, personnel are 
allowed to enter the zero room to retrieve films and data. The use of 
the vessels for subcritical experiments is resulting in significant 
cost reduction and improved data return. In the past, each subcritical 
experiment followed a complex schedule with time-consuming 
preparations, and after each test, the zero room, with all its 
diagnostic equipment, was permanently contaminated and could not be 
reused.
    In addition, we are bringing into operation the Joint Actinide 
Shock Physics Experimental Research (JASPER) Facility at the Nevada 
Test Site, a two-stage gas gun for performing shock tests on special 
nuclear materials. JASPER experiments, which are planned to start 
during this fiscal year, will complement other experimental and 
modeling activities by providing scientists more precise equation-of-
state data at extreme conditions than can be obtained from other types 
of experiments. To support the planned JASPER experiments, two inert-
atmosphere gloveboxes have been installed in the Device Assembly 
Facility (DAF). These gloveboxes will be used to assemble the special 
nuclear material targets into their final experimental configuration. 
We are now performing the final design modifications to the target 
chamber necessary to qualify the facility for use with plutonium.
Modeling and Experiments to Probe Weapon Performance
    The Contained Firing Facility/Flash X-Ray Facility. Hydrodynamics 
testing is the most valuable experimental tool we have for diagnosing 
device performance issues for primaries in stockpiled weapons. Through 
hydrodynamics experiments conducted at Livermore's Site 300 and the 
Dual-Axis Radiographic Hydrodynamic Test Facility (DARHT) at Los 
Alamos, weapon scientists are able to characterize the energy delivered 
from the high explosives to a mock pit, the response of the pit to 
hydrodynamic shocks, and the resulting distribution of pit materials 
when they are highly compressed. These three pieces of information are 
critical for baselining weapons, certifying stockpile performance, and 
validating hydrodynamics simulation codes.
    Over the past decade, we have made tremendous advances in the 
development of diagnostics capabilities and experimental techniques 
used in hydrodynamic testing. We are now able to gather far more 
revealing data from hydrodynamic tests than was possible when we 
developed the weapons that are now in the stockpile. The most 
sophisticated type of hydro experiment is the ``core punch,'' in which 
scientists use high-energy radiography to record a digital image of the 
detailed shape of the gas cavity inside a pit when it is highly 
compressed. In 1998, we carried out the first core punches on two 
important stockpile primary devices: the W76 SLBM warhead and the B83 
strategic bomb.
    The Flash X-Ray Facility was shut down in 1999 and work began on an 
upgrade that will contain the debris created by explosive testing. 
Construction of the Contained Firing Facility is now finished, and the 
qualification testing has been completed to assure its ability to 
contain debris from experiments that use up to 60 kilograms of high 
explosives. The first stockpile-related experiment was executed last 
month. Livermore is now able to conduct these critically important 
experiments with isolation from the surrounding environment.
    Three-Dimensional Simulation of a Nuclear Weapon Explosion. Our 
hydrodynamic testing of mock primaries is complemented with a vigorous 
simulation program that achieved a remarkable milestone in October 
2001. The first-ever three-dimensional simulation of a full-system 
nuclear weapon explosion was completed using the ASCI White computer at 
Livermore. Demonstrating the ability to use a single code to simulate 
in three dimensions the operation of a full weapon system, from primary 
implosion through secondary explosion, marks a major step forward in 
our weapon simulation program. This achievement demonstrates an 
unprecedented capability for addressing the complex 3D behavior 
expected from an aging stockpile.
    The complex computer model that was used, called a ``burn code,'' 
employs tens of millions of zones--hundreds of times more than a 
comparable two-dimensional simulation. The work was completed through 
an intense, sustained effort that involved weapons code developers and 
computer support personnel. It required innovative three-dimensional 
algorithms able to represent the relevant physical processes and run 
efficiently on the machine's parallel architecture. The simulation ran 
a total of 43 days on 1,024 processors of the ASCI White computer and 
produced tens of terabytes of data. Analyzing and preparing the data 
for visualization again required the parallel processing capability of 
ASCI White. This post-processing enabled our weapon scientists to get 
an accurate and detailed picture of the full operation of the weapon 
from beginning to end.
    Modeling and Experiments of High-Explosive. Some of the most 
technically challenging problems involve modeling the chemistry of 
detonation occurring at conditions up to 500,000 atmospheres pressure 
and many thousands of degrees centigrade. Conventional explosives have 
been successfully modeled in the past using the assumption of 
instantaneous reaction rate. The most advanced weapons in the stockpile 
use insensitive high explosives in which the detonation reaction rates 
are much slower. Livermore scientists have now linked a sophisticated 
chemistry code, Cheetah, to the hydrocode ARES. In the simulations of 
detonation, ARES determines the motion of the materials, Cheetah 
provides at each time step the state of chemical reactions and 
equation-of-state data for the relevant intermediate and final reaction 
products, which affects subsequent hydrodynamic performance. Although 
the work is in the early stages, simulations are identifying detonation 
phenomena not previous resolved.
    The safety of the stockpile continues to be of paramount 
importance. Although we believe that the stockpile is safe, the 
vulnerability of nuclear weapons to complex stimuli involving fire, 
mechanical crush, and shock remains a critical issue. To help meet this 
assessment challenge, we have developed the capability in the ALE3D 
code to simulate a weapon in a coupled thermal-chemical-mechanical-
hydrodynamic environment, which is typical of a weapon in a fire 
scenario. An experimental effort is collecting fundamental material 
property data from which models are developed and then implemented in 
ALE3D. This capability is being used to help assess both weapon safety 
and safety issues at the Pantex Plant.
High-Energy-Density Weapon Physics (HEDP) Calculations and Experiments
    To determine the performance of thermonuclear weapons, we need to 
accurately model how various types of radiation interact with their 
surroundings. The fundamental physical processes are particularly 
complex in the dynamic high-energy-density conditions present during 
the functioning of a weapon. Materials behave very differently at star-
like pressures and temperatures. Modeling weapon performance is made 
even more difficult by the fact that many of the issues we need to 
consider are inherently three-dimensional. Weapons have been designed 
as one- or two-dimensional objects but they are in detail three-
dimensional and age three dimensionally (e.g., cracks or other 
irregularities). To address these issues in the absence of nuclear 
testing requires high fidelity three-dimensional modeling that requires 
the computing power that ASCI promises to deliver. It also demands 
experimental facilities and capabilities that can generate data in the 
relevant regimes to develop and validate these models.
    High-Energy-Density Physics Experiments. Extraordinary progress 
continued to be made during the past year toward developing 
quantitative metrics for stockpile assessment and warhead 
certification. Analysis based on these metrics has been the basis for 
defining a detailed experimental weapons-physics program to be 
conducted at HEDP facilities. The Omega laser at the University of 
Rochester and the Z Machine at Sandia continue to be used effectively 
to examine physics issues important to improving our understanding of 
weapon performance, and to aid in the design and planning of future NIF 
experiments. For NIF, which will deliver nearly 60 times the energy 
density of Omega, we are actively working to develop the associated 
experimental infrastructure required to support those experiments. 
Although the assessment and warhead certification approaches of the 
national laboratories differ, they all require an enhanced 
understanding of HEDP weapon behavior as an essential component of 
their Stockpile Stewardship Programs. We are jointly exploring ways to 
collaborate closely on topics of mutual interest in this area while 
attempting to maintain a necessary level of independence in order to 
assure independent peer review of critical stockpile issues.
    High-Energy-Density Physics Modeling. Livermore researchers 
achieved a number of major three-dimensional HEDP simulation milestones 
during the past year. Two major milestones in 2001 were the first-ever 
three-dimensional simulation of the thermonuclear performance of a 
weapon secondary and the three-dimensional simulation of the integrated 
performance of a modern two-stage nuclear weapon. In addition to the 
codes developed to simulate nuclear weapon performance, the laboratory 
continues to develop the three-dimensional code HYDRA. In 2001 HYDRA 
was used to simulate the performance of targets being designed to 
achieve ignition and thermonuclear burn on the NIF in three dimensions. 
The simulations conducted this year included the first ever-integrated 
three-dimensional simulation of the entire ignition target (hohlraums 
and fusion capsule). All of the work cited above was carried out at the 
laboratory using the ASCI White supercomputer.
    accomplishments and challenges in technical base and facilities
    Assessments of weapon performance and certification of weapon 
refurbishments must be based on scientific and engineering 
demonstration to be credible. In the absence of nuclear testing, we 
rely on data from past nuclear tests as a benchmark, component-level 
experiments and demonstration, and advanced simulations for an 
integrated assessment of weapon performance and safety. This approach 
has enabled us to successfully certify the W87 life-extension 
refurbishment and address stockpile issues that have emerged to date. 
However, as the stockpile ages, we anticipate that more difficult 
issues will arise.
    These needs--to be able to assess and certify both weapon 
performance and refurbishment actions--drive the Stockpile Stewardship 
Program's investments in much more capable experimental facilities, 
such as the NIF, the Dual Axis Radiographic Hydrodynamic Test Facility 
and even more advanced hydro-test capabilities, and greatly enhanced 
numerical simulation tools developed through the Advanced Simulation 
and Computing (ASCI) program. We are not progressing as quickly as we 
could to acquire these greater capabilities because of competing needs 
for Stockpile Stewardship Program resources that must be balanced. The 
program must meet requirements for Directed Stockpile Work (e.g., life-
extension programs) and pursue vigorous campaigns in weapons science 
and technology. In addition, the nuclear weapons complex is in need of 
infrastructure recapitalization to support all of these activities. 
Program success requires both efficient, flexible, and modern 
manufacturing facilities and a work environment at the laboratories and 
production facilities that makes it possible to attract and retain an 
exceptional staff. Here, the discussion focuses on two areas where much 
more capable research facilities are required--NIF and ASCI--and on the 
need for infrastructure reinvestment.
The National Ignition Facility
    Construction is continuing at Livermore on the NIF, a major 
research facility housing a 192-beam laser and associated experimental 
capabilities. NIF will be the world's largest laser, delivering 60 
times more energy density than the Omega laser at the University of 
Rochester (and the previous Nova Laser at Lawrence Livermore), 
currently the largest laser in the NNSA High Energy Density Science 
program. NIF will provide 1.8 megajoules of ultraviolet laser energy 
that can be used to compress and heat a small capsule filled with 
deuterium and tritium to conditions at which thermonuclear fusion 
occurs. NIF is a cornerstone and essential element of the Stockpile 
Stewardship Program. It will also provide scientific and technical 
information that may eventually lead to practical fusion energy 
production.
    The baseline plan and schedule for NIF was included in General 
Gordon's certification of the NIF project, provided to Congress on 
April 6, 2001. The schedule provides for project completion at the end 
of fiscal year 2008, and the NIF team's goal in the coming year is to 
achieve ``first light'' by delivering four laser beams to the target 
chamber. The fiscal year 2002 budget provides $245 million for 
continued NIF construction and the fiscal year 2003 budget provides the 
requested $214 million. The pace of construction has now been 
constrained over the past 2 years by available annual funding in the 
overall NNSA/DP budget, and the project could be completed 
significantly earlier at a lower total cost if more funding were 
available in the near term.
    The Importance of NIF to Stockpile Stewardship. NIF is vital to the 
success of stockpile stewardship. It will be the only facility capable 
of well-diagnosed experiments to examine thermonuclear ignition and 
burn and to study the high-energy-density properties of primaries and 
secondaries in nuclear weapons. We need the facility for experimental 
study of key issues related to the effect of aging on weapons and for 
certification of the performance of refurbished weapons. In addition, 
NIF experiments provide the only available means for advancing critical 
elements of the underlying science of nuclear weapons. NIF experiments 
will provide necessary data for sophisticated computer simulation 
models being developed for stockpile stewardship, and the models 
themselves need to be tested in the physical conditions that only the 
NIF can provide. Finally, NIF will help to attract and train the 
exceptional scientific and technical talent that is required to sustain 
the Stockpile Stewardship Program over the long term.
    In April 2001, NNSA released the report of the High-Energy-Density 
Physics (HEDP) Workshop, held January 30-February 2, 2001. This report 
reconfirmed NIF's essential role in the Stockpile Stewardship Program 
and recommended that NIF be completed to its full 192-beam 
configuration on its baseline schedule. The Workshop Panel included 
representatives from DOE, NNSA, DOD, the three NNSA Laboratories, and 
Argonne National Laboratory. They reviewed presentations by experts in 
weapons design, high-energy-density science (HEDS), and Inertial 
Confinement Fusion (ICF) from the three laboratories that discussed 
options for NIF deployment, other HEDS facilities that can complement 
NIF, and Stockpile Stewardship Program needs for HEDS and weapons 
experiments/calculations for future stockpile certification.
    NIF Project Technical Progress and Accomplishments. Overall the NIF 
project is more than 60 percent complete. Major progress continues to 
be made and at a rapid pace. In September 2001 the NIF conventional 
facilities construction, a $270 million project, was completed on 
schedule and on budget. In October, the Project completed installation 
of one-quarter of NIF's beampath infrastructure. Now in place are the 
precision-cleaned enclosures for the components of 48 laser beams. A 
strong partnership between the laboratory, Jacobs Facilities Inc. (the 
contractor for installation, management, and integration), and the 
local building and crafts trade unions have enabled the Project to 
achieve these key milestones. We are continuing to install NIF 
infrastructure and at the end of March we have nearly one half or 96 
laser beams worth of precision-cleaned enclosures installed.
    The NIF team continues to make outstanding technical progress. Last 
year I cited numerous examples of progress on crystals, laser amplifier 
glass and optics damage mitigation. Now nearly 80 percent of the 
required 3,072 high-quality laser-glass slabs are in hand, and over 
half of the large crystals used for optical switches and frequency 
conversion have been grown. This year we have made even greater 
progress on the development of new optics polishing techniques that can 
reduce the damage potential of NIF optics much more than our 
requirements. We are currently implementing these new techniques at our 
vendors to provide the first optics for NIF's final focusing systems.
    NIF's clean-room facilities are being commissioned, and production 
has begun on some components. Validation of NIF's clean assembly, 
transport, and installation requirements was demonstrated with the 
installation of a laser-glass slab assembly into NIF's main amplifier. 
In addition:

        <bullet> We have begun installing equipment into NIF's core 
        area for generating seed laser pulses, controlling the entire 
        laser system, and powering the laser amplifiers.
        <bullet> We are nearing the point where we will begin 
        installation of actual laser components, glass, optics, 
        crystals, flashlamps, etc. for the operation of the first four 
        laser beams in the coming months.

    In the coming year the NIF team's goal is to achieve ``first 
light'' by delivering four infrared laser beams through the entire 
laser chain into a diagnostics station. Soon after, these four laser 
beams will be transported to the final optics assembly where they will 
be converted to ultraviolet light and focused to the center of the 
target chamber. This achievement will serve to provide validation and 
confidence in all of NIF's systems and will allow operational 
activities to commence. As more of NIF comes on line, fundamental 
physics regimes for materials science, high-energy-density science, and 
thermonuclear ignition and burn will become accessible for study. NIF 
will provide temperatures and pressures needed to validate computer 
codes and address important issues of national security and basic 
science.
    Reviews of the NIF Project. Over the past 2 years, regular reviews 
of the NIF Project have been held every 6 months. These reviews are 
managed by NNSA Office of Defense Programs and bring together experts 
in a variety of technical, fiscal, and project management fields to 
thoroughly review the status of the NIF construction project. The most 
recent review was held in November 2001. Mr. Willie Clark, from NNSA's 
Office of Project Management and Engineering Support, led this review. 
The findings and conclusions of this review included:

        <bullet> The project has made impressive progress and has been 
        responsive to previous review team recommendations.
        <bullet> A strong management team is in place; the NIF Project 
        organization is functioning very effectively.
        <bullet> Significant safety improvements have been made.
        <bullet> Effectiveness of NNSA oversight has improved.

    In addition to these semi-annual reviews, NNSA staff in the Office 
of the NIF Project attend regular monthly Project reviews held at 
Livermore. These reviews provide detailed status reports and 
assessments of cost and schedule for the Project. We also provide 
quarterly reports on the NIF's construction project to the Deputy 
Secretary of Energy.
    Preparation for NIF's Experimental Program. With the rapid progress 
being made on the NIF Project, we are at once pleased and concerned 
that experiments on NIF are becoming a reality in the coming year. We 
are pleased because NIF's promising role in the Stockpile Stewardship 
Program will become evident even with the first few laser beams, which 
will provide more energy than the entire Omega laser, the world's 
largest currently operating laser system. We have planned a campaign of 
experiments for the first phase of NIF operations that will help 
provide important scientific data on stockpile-relevant materials and 
that may help us to enhance our ability to reach fusion ignition using 
large short-pulse laser systems.
    I am also concerned because the experimental program for NIF and 
for other high-energy-density science facilities is being placed under 
great pressure because of reductions in funding in the fiscal year 2003 
budget. These reductions place our experimental program in jeopardy by 
preventing the timely development and fielding of NIF's core diagnostic 
systems that are essential for collecting the data from experiments. We 
are also facing delays in the development and fabrication of the 
cryogenic target systems required for ignition experiments on NIF. 
Delay of these critical programs reduces our ability to provide NIF as 
a key facility for stockpile stewardship and impacts scheduled 
availability for upcoming Stockpile Life-Extension Programs.
    We are currently working with NNSA and General Gordon to better 
understand our options for fiscal year 2003 for these programs. Current 
projections, however, are not positive for providing for the effective 
utilization of NIF as it comes available in the next year.
The Advanced Simulation and Computing (ASCI) Program
    The Advanced Simulation and Computing (ASCI) program (formerly 
called the Accelerated Strategic Computing Initiative) is greatly 
advancing our ability to computationally simulate the performance of an 
aging stockpile and to certify the details of refurbishment projects. 
To make the needed major advances in weapons science and engineering 
simulation codes, Lawrence Livermore, Los Alamos, and Sandia national 
laboratories are obtaining from U.S. industry dramatic increases in 
computer performance and information management. The ASCI program is 
integrating the development of computer platforms, simulation 
applications, and data management technologies. It will take a string 
of successive investments to achieve ASCI's long-term goals.
    Livermore's partnership with IBM has been highly successful. We 
took delivery of ASCI Blue Pacific in fiscal year 1998 and then ASCI 
White in fiscal year 2000. Both machines exceeded their performance 
requirements and are being used to support stockpile stewardship 
through a variety of applications, some of which I have discussed. The 
important next step in ASCI at Livermore is a supercomputer capable of 
60 to 100 TeraOps (trillion operations per second). It is planned for 
late 2004. Necessary funding was received in fiscal year 2002 to begin 
construction of the Terascale Simulation Facility to house this 
computer. The building will be available in time to accept it.
    ASCI White Successfully Meets Tri-Laboratory Needs for Stockpile 
Stewardship. In 2001, the laboratory was home to the world's most 
powerful supercomputer, the IBM ASCI White machine, which is capable of 
12.3 TeraOps. It was the latest step in ASCI's ambitious efforts to 
rapidly advance the state-of-the-art in computers, computational 
models, and data management tools needed to simulate the performance of 
nuclear weapons. It represented the first ``most capable'' system in 
the NNSA complex, a system of unique capability and the major resource 
for all three laboratories, two computing at a distance.
    ASCI White is based on the next-generation IBM processor, node, and 
switch technology. It consists of 512 nodes, each with 16 processors. 
Exceeding its contractual performance requirement of 10 TeraOps, the 
machine is about a factor of three faster than Livermore's Blue Pacific 
computer, which was used to perform the first ever 3D simulation of the 
full functioning of a nuclear weapon primary. The machine also provides 
over 8 trillion bytes (terabytes) of main memory and about 110 
terabytes of global disk space. This system was successfully used and 
shared since early 2001 by all three NNSA Laboratories. To meet each 
laboratory's requirements to run problems, calculations were 
interleaved in an integration schedule for the machine. Livermore 
successfully completed a three-dimensional secondary burn simulation in 
June 2001. The calculation demonstrated the modeling of 3D features at 
unprecedented resolution and validated scaling for several physics 
algorithms.
    Calculations done by Los Alamos and Livermore for the three-
dimensional prototype full-system coupled simulation were both 
completed on ASCI White in late 2001. The size and scale of ASCI White 
allowed the two laboratories to employ a level of spatial resolution 
and depth of physics models that were heretofore completely beyond 
reach in 3D. The speed, large memory, and stability of White were 
essential elements contributing to the successful series of 
calculations executed to accomplish these calculations. Similar 
problems are now being run in support of additional calender year 2002 
and calendar year 2003 programmatic deliverables. Sandia also used ASCI 
White to perform structural dynamics calculations for different 
environments that weapons might encounter. One terabyte of core memory 
was used on each structural dynamics calculation in simulations that 
were completed in late September 2001 and set many world records. These 
calculations demonstrated effective use of computing capabilities at a 
distance.
    Simulation Modeling and the Problem-Solving Environment. ASCI is 
more than powerful computers; it is the development of advanced 
simulation techniques as well as data management and visualization 
tools. Three Gordon Bell Awards, two in 1999 and one in 2000, exemplify 
the outstanding simulation development capabilities at Livermore and a 
growing base of expertise in using the machines. Most notable was the 
1999 Gordon Bell Award for best performance in supercomputing. A team 
led by Livermore researchers, with collaborators at the University of 
Minnesota and IBM, solved a supercomputer problem with broad 
applications.
    Work by Los Alamos scientists provides a directly relevant example 
of data management progress in 2001. They were able to use 
visualization techniques developed by ASCI for the three-dimensional 
full system coupled simulation mentioned earlier. These tools allowed 
the scientists to run this calculation of unprecedented size on the 
Livermore 12-TeraOps system and then utilize the 32-node visualization 
partition on that computer to distill the data, send it back to Los 
Alamos, and interactively visualize the simulation results at Los 
Alamos. This capability was critical to enable Los Alamos' effective 
use of the system. The data not necessary for visualization was stored 
at unprecedented rates on the Livermore archive. For this particular 
calculation, Los Alamos stored 12.6 terabytes (roughly equivalent to 12 
million novels) in 13 hours in the Livermore archive, approximately 50 
times faster than would have been possible just 2 years earlier. Such 
advances in storage capability were necessary for the environment to 
function. They demonstrate the inherent balance necessary and careful 
planning undertaken in the ASCI simulation enterprise.
    Beyond ASCI White and the Terascale Simulation Facility. The next 
supercomputer at Livermore after ASCI White will move us much closer to 
ASCI's goal of full-scale simulation of weapons performance using 
advanced physics models with data derived from extensive, first-
principles physics simulations. The threshold for that capability is 
100 TeraOps, and reaching the goal quickly is vital to success in 
stockpile stewardship. Plans call for ASCI ``Q'' (30 TeraOps) to be 
operational at Los Alamos in 2002, a 20-TeraOps machine at Sandia in 
2003, and a 60- to 100-TeraOps machine for Livermore late in 2004. At 
the onset of the Stockpile Stewardship Program, ASCI set as a goal the 
delivery of a 100 TeraOps computer by 2004. The machine at Livermore 
will be as close to 100 TeraOps as can be afforded within budget 
limitations. It is important that plans for the 60- to 100-TeraOps 
machine not slip.
    The 60- to 100-TeraOps machine will be very large, and will require 
the Terascale Simulation Facility (TSF) to house it. The congressional 
line-item funding for this project was sufficient to enter into a 
construction contract this year. This contract was recently signed and 
the groundbreaking ceremony occurred on April 4, 2002. The TSF will 
consist of a two-story computing facility with power and space to 
accommodate a 100-TeraOps-class system; assessment areas and networking 
control areas necessary for direction and assimilation of data; and a 
four-story office structure for staff to manage and utilize the 
simulation environment. We expect about 24,000 square feet of the 
machine room (of the 48,000 square feet planned) to be available and 
fully equipped to accept an ASCI-scale system by June 2004, just a few 
months ahead of the arrival of the system.
    The two machine rooms in TSF will guarantee our capability to site 
any system required by the program. The TSF will function more like an 
experimental facility than a computer center by supporting very close 
cooperation between staff and analysts. Round the clock support for 
major runs, restart capability for huge simulations, vast storage 
archives, first-class data assessment facilities and on-the-fly trouble 
shooting will support a mode of operations where ``runs'' will be 
viewed as ``shots,'' analogous to nuclear tests, requiring intense 
support to succeed. This was the model adopted by Livermore to support 
the White system, and it proved to be extremely successful.

Infrastructure Recapitalization
    Stockpile stewardship requires major investments in new facilities 
and capabilities to make it possible for scientists and engineers to 
more thoroughly understand the performance of nuclear weapons. As 
discussed above, at Livermore these investments include construction of 
NIF and acquisition of ASCI supercomputers and the TSF. The Stockpile 
Stewardship Program will not succeed without the new-facility 
investments that are being made at the NNSA Laboratories. Scheduled 
programmatic work at the laboratories and the plants has also placed 
exceedingly high demands on provided funding. The cumulative effect of 
necessary continuing attention to the highest and most immediate 
priorities over the course of the Stockpile Stewardship Program has 
been shortage of funds to recapitalize NNSA's underlying 
infrastructure.
    In fiscal year 2002, funding began for NNSA's new facility 
reinvestment initiative. The initiative focuses on those underlying 
infrastructure needs at NNSA sites in support of directed stockpile 
work and campaign programmatic requirements. Livermore fully supports 
the initiative and is already working on several high-priority 
recapitalization and disposition projects utilizing first year funding. 
At Livermore, only 68 percent of our employees currently reside in 
permanent space, and 53 percent of the temporary office space (trailers 
and modular buildings) is nearing or beyond end-of-service life. 
Overall, over 35 percent of Livermore's office and laboratory space is 
less than adequate and in need of rehabilitation. Our overall 
maintenance backlog is about $420 million if directly funded (with 
programmatic dollars, for instance). In addition, obsolescent equipment 
needs to be replaced. For example, the laboratory struggles to keep 
pace with rapid advances in telecommunications capabilities, which are 
critically needed to use our supercomputers efficiently and securely 
and to upgrade our business operations. In addition, we have legacy 
facilities from long-discontinued programs as well as unusable or 
unsafe laboratory space that must be decommissioned, decontaminated 
(where necessary), and demolished. Our legacy facilities and other 
excess marginal space require considerable up-front investments to 
rectify. We also have to invest so that buildings at Livermore meet 
present-day seismic safety codes and the latest, more demanding safety 
criteria.
    Currently, we invest $8 to $10 million per year of overhead into 
reducing our maintenance backlog. Over the next 10 years, we estimate 
that Livermore will need an additional $25 million per year in new 
funding to apply to maintenance deficiencies, $10 million per year for 
demolition of its excess facilities, and $15 million per year to keep 
pace with technological changes. We will be working with NNSA to 
develop appropriate funding levels to address these concerns through 
the facility reinvestment initiative.
    Our overall infrastructure recapitalization goal is to provide and 
maintain high quality, technologically state-of-the-art facilities 
capable of meeting current and future mission requirements effectively 
and efficiently. It is also important to note that sustaining the 
quality of our workforce is a particularly challenging task in view of 
the high demand in the private sector for skilled people. These 
upgrades will provide quality facilities in order to attract and retain 
the exceptional workforce that we need to accomplish our missions.

   REDUCING THE THREAT OF PROLIFERATION OR TERRORIST ACQUISITION OF 
                      WEAPONS OF MASS DESTRUCTION

    National security is threatened by the proliferation and potential 
use of nuclear, chemical, and biological weapons (collectively referred 
to as weapons of mass destruction, or WMD). The events of September 11, 
2001, clearly demonstrated the vulnerability of free societies to 
devastation as a result of concerted efforts of extremists. Adding to 
this vulnerability are indications that terrorist groups, including the 
followers of Osama bin Laden, are attempting to acquire WMD. In 
addition, at least 20 countries, some of them hostile to U.S. 
interests, are suspected of or known to be developing WMD.
Livermore's Nonproliferation and Counterterrorism Program
    Livermore is applying its nuclear expertise to the challenge of 
nuclear weapons proliferation. Because the threat of proliferation is 
not restricted to nuclear weapons and in response to legislation 
calling for enhanced U.S. capabilities against WMD proliferation, we 
are also developing the technologies, analysis, and expertise needed to 
help stem the proliferation of chemical and biological weapons. These 
activities build on the large investment in chemical and biological 
sciences at Livermore.
    Our program in nonproliferation, arms control, and international 
security is tackling the problem of WMD proliferation across the entire 
spectrum of the threat. We take a comprehensive approach to the problem 
with activities to prevent proliferation at the source, to detect and 
reverse proliferant activities, and to counter WMD terrorism.
    Improved scientific and technical capabilities are essential for 
WMD threat reduction. The NNSA's Office of Defense Nuclear 
Nonproliferation supports the bulk of the research and development 
activities that provide the technological base for those U.S. agencies 
with operational responsibility for characterizing foreign weapons 
programs and detecting proliferation-related activities, for detecting 
and mitigating the use of weapons of mass destruction against U.S. 
civilians, and for negotiating and monitoring compliance with arms 
reduction and other agreements.
    Two aspects of the laboratory's contributions in 2001 to the 
National WMD nonproliferation effort are highlighted here:

        <bullet> Assisting Government Agencies Defend Against WMD 
        Terrorism. Long before September 11, 2001, Livermore was 
        addressing the threat of WMD terrorism. We have developed 
        technologies and tools to counter nuclear, chemical, and 
        biological terrorist threats and are working closely with 
        Federal, State, and local response agencies to ensure that our 
        technological solutions meet real-world operational needs. Many 
        of our counterterrorism technologies and technical capabilities 
        have been deployed, before September 11 and in its aftermath, 
        to assist State and local governments defend against WMD 
        terrorism.
        <bullet> Preventing Proliferation at the Source. Proliferation 
        is most effectively halted at the source--of weapons-usable 
        nuclear materials, of weapons-related technology, and of WMD 
        expertise. We are a major player in the U.S.-Russian 
        nonproliferation programs. These programs consist of an 
        integrated set of activities to secure at-risk nuclear material 
        in Russia, dispose of excess highly enriched uranium and 
        plutonium, and assist in downsizing the Russian nuclear weapons 
        complex by helping the Russian closed cities and weapons 
        institutes develop self-sustaining commercial applications of 
        their scientific and technical expertise.
Assisting Government Agencies Defend Against WMD Terrorism
    Countering terrorism has been a central element of Livermore's 
national security mission for many years. The events of September 11 
have lent new urgency to our efforts to apply the laboratory's 
technologies, tools, and expertise to assist state and local 
governments in preparing to defend against and respond to WMD 
terrorism. Effective defense against terrorism requires the integration 
of science and technology with emergency response operations, which in 
turn requires coordination and collaboration between research and 
development (R&D) institutions like Livermore and the various Federal, 
State, and local emergency response agencies. We have made important 
and unique contributions to counterterrorism preparedness, and with 
increased resources we could do even more.
    Countering the Nuclear Threat. Our Nuclear Threat Assessment 
Program has provided comprehensive assessments of nuclear threats for 
more than 20 years. This program is also the Department of Energy (DOE) 
lead for assessing illicit trafficking in alleged nuclear materials. We 
apply long-standing Livermore expertise in nuclear materials, nuclear 
weapons, and device diagnostics to develop improved capabilities for 
dealing with radiological emergencies, including terrorist events. We 
are also a key participant in the DOE's national nuclear incident 
response groups, including the Nuclear Emergency Search Team (which 
deals with nuclear terrorism or extortion threats), the Accident 
Response Group (which responds in the event of an accident involving 
U.S. nuclear weapons) and the Radiological Assessment Program (which 
assists State and local agencies). Livermore maintains a deployable 
response capability, called HOTSPOT, which can be deployed to any 
location by military aircraft to provide local radiological field 
support.
    Specifically, the Radiological Assessment Program (RAP) provides 
technical and operational expertise to State and local agencies to 
mitigate the consequences of a radiological incident or emergency. It 
uses DOE and national laboratory experts with skills in assessing 
radiological and toxic contamination and the attendant risks to human 
health. The Livermore RAP team has primary responsibility for 
California, Nevada, Hawaii, and the U.S. Pacific Rim territories. It is 
called upon, on average, three to five times per year. In 2001, it 
responded to three requests for assistance along with normal exercises 
and training. Typically, RAP investigates containers suspected of 
housing radioactive materials, seeks the location of lost industrial or 
medical radioactive sources, and advises Federal, State, and local 
authorities on the consequences of a radioactive release or personnel 
contamination. RAP regularly drills with similar teams from other 
Federal agencies, State, local, and tribal governments as well as 
private companies and organizations. To deal with the latest emerging 
threats, RAP now includes training to recognize and respond to nuclear 
terrorism within the ``nuclear triage'' program being developed at DOE 
headquarters.
    Livermore has developed a concept for correlated sensor networks 
for detecting and tracking ground-delivered nuclear devices or nuclear 
materials. A novel algorithm integrates data from the various sensors, 
together with information from other sources (e.g., an intelligent 
traffic system) to identify sources of concern, track their movement 
through the road network, and guide responders in intercepting the 
suspect vehicle. This concept has been successfully demonstrated in an 
urban environment. We have had discussions with the County of Los 
Angeles concerning deploying a prototype system in the county in order 
to gain real-world experience with the network in a congested 
metropolitan area and to work with the appropriate response agencies to 
develop a concept of operations.
    Defending Against Bioterrorism. The biodefense capabilities that 
have been deployed in the wake of September 11 have, at their core, 
advances in biological detection instrumentation and DNA signatures 
made at Livermore and its sister laboratory at Los Alamos. We are 
developing gold-standard DNA signatures of top-priority threat 
pathogens (anthrax, plague, etc.) and are working with the Centers for 
Disease Control and Prevention (CDC) to validate these signatures and 
distribute them to public health agencies nationwide.
    We have made technology breakthroughs in biodetection 
instrumentation, pioneering the miniaturization and ruggedization of 
both flow cytometry and DNA identification devices. Our miniature 
thermal cycler unit makes possible DNA amplification via polymerase 
chain reaction (PCR) and identification in minutes rather than the 
hours and days previously required. Livermore's miniaturized PCR 
technology has been licensed to private industry and forms the basis of 
today's most advanced commercial biodetection instruments (e.g., 
Cepheid's Smart Cycler, ETG's handheld biodetector).
    The Biological Aerosol Sentry and Information System (BASIS), 
developed jointly by Livermore and Los Alamos, was deployed as part of 
the overall security strategy for the 2002 Winter Olympic Games in Salt 
Lake City. (Cepheid Smart Cyclers are the heart of the BASIS field 
laboratory.) In developing BASIS, Livermore and Los Alamos worked 
closely with the many law enforcement, emergency response, and public 
health agencies that would be involved in dealing with a bioterrorism 
event to develop appropriate sample handling (chain of custody), 
communications, and response protocols.
    Atmospheric Modeling for Consequence Management. The Atmospheric 
Release Advisory Capability (ARAC), located and operated at the 
laboratory, is a national emergency response service for real-time 
assessment of incidents involving nuclear, chemical, biological, or 
natural hazardous material. ARAC can map the probable spread of 
contamination in time for an emergency manager to decide whether 
protective actions are necessary. ARAC is on call to respond to real 
incidents and can also be used to evaluate specific scenarios for 
emergency response planning, such as optimizing the siting of 
bioaerosol samplers or determining evacuation routes.
    Since it was established in 1979, ARAC has responded to more than 
70 alerts, accidents, and disasters and has supported more than 800 
exercises. In addition to accidental radiological releases (e.g., 
Chernobyl, 1986; Three Mile Island, 1979), ARAC has assessed natural 
and manmade disasters (Mt. Pinatubo volcanic ash cloud, 1991; Kuwaiti 
oil fires, 1991). ARAC has also provided assessments to State and local 
responders to toxic chemical accidents (e.g., Richmond sulfuric acid 
cloud, 1993; Sacramento River Spill, 1991). State and local agencies 
can request ARAC support for actual releases or planning by contacting 
DOE's Office of Emergency Response or the ARAC program office at 
Livermore.
    Chemical Analysis for Forensic Attribution. Timely and complete 
analysis of suspect chemicals can answer important questions related to 
nonproliferation, counterterrorism, and law enforcement. Our Forensic 
Science Center has assembled a unique capability for detecting and 
characterizing ultratrace levels of virtually any compound in any 
sample matrix. Expertise and instrumentation are available for complete 
chemical and isotopic analysis of nuclear materials, inorganic 
materials, organic materials (e.g., chemical warfare agents, illegal 
drugs), and biological materials (e.g., toxins, DNA). The Forensic 
Science Center also develops advanced laboratory and field capabilities 
for ultratrace analysis, including a portable (55-pound) gas 
chromatograph/mass spectrometer, field kits for thin-layer 
chromatography, and novel sample collectors using solid-phase 
microextraction.
    The Forensic Science Center has begun the rigorous testing required 
to become the second U.S. laboratory certified by the Organization for 
the Prohibition of Chemical Weapons (OPCW), which is responsible for 
implementing the Chemical Weapons Convention (CWC). Under the terms of 
the CWC, all samples collected from inspected facilities must be 
analyzed at two OPCW-designated laboratories. The U.S. Congress 
mandates that all U.S. samples be tested in the U.S. Currently, the 
U.S. has only one designated laboratory, the Edgewood Chemical and 
Biological Forensic Analytical Center. Livermore will provide the 
second required facility.
    Over the years, the Forensic Science Center has responded to many 
requests from law enforcement for assistance in forensic analysis of 
unique samples. The Center has been brought in to analyze the ``cold 
fusion'' explosion at SRI International, Supernote counterfeit bills, 
methamphetamine samples, biotoxins, suspect chemical-warfare specimens, 
and nuclear contraband. It has characterized explosive traces from the 
1993 World Trade Center bombing, the Unabomber case, and the Fremont 
serial bomber; performed forensic sleuthing related to the Riverside 
``mystery fumes'' case; and analyzed samples for the Glendale ``Angel 
of Death'' case. Locally, the Center assisted Livermore police by 
rapidly identifying a vapor that sickened response personnel at the 
scene of a suicide; once the chemical was identified (malathion), law 
enforcement agencies were able to take appropriate personnel-protection 
measures and complete their investigation.
    At the height of the anthrax incidents, the Forensic Science Center 
was called upon to analyze a suspect powder found at a local business. 
Livermore scientists worked through the night to complete the analysis, 
confirming that the powder was harmless.
    New Search and Inspection Technologies. There is a pressing need 
for technologies to improve the screening of passengers, baggage, and 
cargo. Candidate technologies, in various stages of development at 
Livermore, include computed tomography (CT), x-ray scanning, gamma-ray 
imaging, neutron interrogation, and ultrasonic and thermal imaging. We 
have recently established a national test bed for cargo container 
experiments. This facility will provide a nationally available test bed 
for determining whether inspection technologies in use and under 
development can be scaled to the magnitude of the shipping container 
problem. Outside agencies will be able to make measurements, using 
national laboratory or their own equipment and measurement techniques, 
on actual and mock weapons materials in actual cargo containers. Under 
DOE direction, Livermore will operate this test bed as a national 
service, providing a common basis for the comparison and evaluation of 
alternative approaches.
    Two laboratory-developed search technologies demonstrated their 
applicability to counterterrorism response when they were deployed to 
the World Trade Center. The first, a micropower radar, can ``see'' many 
feet into concrete rubble and could be a valuable tool for search and 
rescue operations. The other, a remote monitoring instrument that uses 
hyperspectral data to detect and identify trace gas emissions, was 
flown over Ground Zero to characterize hazardous gases emanating from 
the rubble pile.
    Avoiding Surprise about Adversaries. One of the most critical, yet 
difficult, elements of homeland security and counterterrorism is 
gaining insight into the capabilities, intentions, and plans of 
persons, groups, or States hostile to the U.S. Our International 
Assessments Program (Z Division) is one of the strongest capabilities 
in the country for analysis and research related to foreign nuclear 
weapons and other weapons of mass destruction, including early-stage 
foreign technology development and acquisition, patterns of 
cooperation, and foreign cyber threats. This capability is more 
important than ever before, as the bipolar (U.S.-Soviet) world has 
disintegrated into a melange of traditional allies, regional and tribal 
allegiances, and transnational extremist groups. In the aftermath of 
September 11, we provided intelligence analysts and assessments as well 
as information-operations tools and expert personnel to the U.S. 
Intelligence Community. Our assessments of foreign weapons programs and 
activities provide important input to policy makers and diplomats as 
they develop strategies for U.S. responses to events affecting national 
security.
    Risk and Vulnerability Assessments of Critical Facilities. Through 
our participation in DOE's Vulnerability and Risk Assessment Program, 
we have made systematic assessments of the threat environment, cyber 
architecture, physical and operational security, policies and 
procedures, interdependencies, impact analysis, risk characterization, 
and possible mitigation measures for the 2002 Winter Olympic Games in 
Salt Lake City, 11 electric and gas infrastructures, and several 
independent service operators (ISOs), including the California ISO 
during the past summer's electrical energy crisis.
    We have analyzed the vulnerability of buildings, dams, and other 
structures to catastrophic damage from earthquakes and explosive 
events. For example, we have also evaluated the earthquake 
vulnerability of major bridge structures (including the Golden Gate and 
San Francisco-Oakland Bay bridges), the structural integrity of nuclear 
material shipping containers for a variety of impact scenarios, and the 
likely damage resulting from the explosion of natural gas storage tanks 
in a suburban environment.
    Expert Personnel Assisting Homeland Security Agencies. A number of 
Livermore scientists serve on various task forces, committees, and 
advisory groups dealing with aspects of homeland security and 
counterterrorism. For example, a Livermore expert on x-ray imaging is a 
member of the National Academy of Science Committee on Assessment of 
Technology Deployed to Improve Commercial Aviation Security. Other 
laboratory scientists serve as technical advisors to the U.S. Customs 
Service, the National Guard, and the Los Angeles Emergency Operations 
Center, and as members or advisors to various Defense Science Board 
task forces addressing homeland defense. Still others are assisting the 
California State Office of Emergency Services (OES) with training 
related to weapons of mass destruction and as members of the California 
Council on Science and Technology, which is providing technical advice 
to the OES's State Strategic Committee on Terrorism.
    Engineering a Novel Truck-Stopping Device. In October 2001, the 
Governor of California contacted Livermore requesting assistance to 
develop a means of stopping tanker trucks, to keep hijacked trucks from 
becoming motorized missiles. The objective was to make it possible to 
stop these large trucks using equipment readily available to peace 
officers, namely their vehicles and their weapons. A retired Livermore 
engineer and consultant teamed with laboratory engineers, technicians, 
and heavy equipment operators to develop a simple mechanical device to 
accomplish this. It can be readily attached to the back of a tanker 
truck. When bumped from the rear by the patrol vehicle, the device 
would cause the trailer braking system to lose air pressure 
automatically locking the trailer brakes. A prototype was demonstrated 
in Oakland in late November, and remote-controlled testing at high 
speeds was conducted at the Nevada Test Site in February and March.

Preventing Proliferation at the Source
    With the collapse of the Soviet Union, 10 years ago, arose the 
threat of materials and expertise related to WMD leaking from Russia to 
terrorists or countries of concern. Lawrence Livermore is a major 
player in the U.S.-Russian nonproliferation programs, which are 
striving to stem proliferation at its source. These programs consist of 
an integrated set of activities to secure at-risk nuclear material in 
Russia, dispose of excess highly enriched uranium and plutonium, and 
assist in downsizing the Russian nuclear weapons complex by helping the 
Russian closed cities and weapons institutes develop self-sustaining 
commercial applications of their scientific and technical expertise.
    In light of the current focus on countering terrorism, we must not 
lose sight of the importance of these and other nonproliferation 
programs. By securing weapon materials, technologies, and expertise at 
the source, we keep the raw ingredients for weapons of mass destruction 
out of the hands of proliferators and terrorists. Attempts to counter 
WMD terrorism without simultaneously working front-end issues will not 
solve the problem.
    Protection and Control of Nuclear Materials and Accounting (MPC&A). 
The security of Soviet-legacy nuclear materials is critical to the 
security of the U.S. Through the NNSA's MPC&A Program, we are helping 
various Russian sites improve the protection of their fissile 
materials. Livermore specializes in vulnerability assessment, gamma ray 
spectroscopy, access control and security system integration, and 
information systems. We lead the MPC&A project teams for Chelyabinsk-
70, Sverdlovsk-44, Bochvar Institute, and Krasnoyarsk-45 and provide 
project support for seven other sites.
    Of the various laboratories involved in the MPC&A Program, 
Livermore is unique in its role with the Russian Navy. Since the work 
began in 1997, MPC&A upgrades for four nuclear refueling ships have 
been completed and commissioned. Our activities at the Russian Navy 
facilities have been some of the most successful of the entire MPC&A 
Program. Success is attributable to the combination of a highly focused 
user (the Russian Navy), an excellent subcontractor and system 
integrator (the Kurchatov Institute), and a highly trained team of NNSA 
and national laboratory personnel that has built an excellent working 
relationship with the Russian personnel. In September 2000, MPC&A 
cooperation was formalized through an implementing agreement between 
the Russian Navy and the NNSA that included further cooperation at 
Russian nuclear weapon storage sites. Work at a number of these sites 
is under way and is meeting with the same success as previous 
activities with the Russian Navy.
    We participate in the NNSA's Second Line of Defense Program, 
designed to curtail the illicit transport of items of nuclear 
proliferation concern from Russia. Together with other participating 
DOE laboratories, we are working with the Russian Customs Service to 
equip high-risk border crossings with radiation detection equipment. 
Moscow's Sheremetyovo International Airport complex and a port on the 
Caspian Sea were equipped in October 1998. Seven other sites (including 
several possible transit points to Iran or North Korea) have been 
identified as high priority, and equipment is being installed. This 
past year, we completed, jointly with our Russian collaborators, a 
training manual and curriculum that will be used by more than 30,000 
front-line Russian customs officials. In addition, several training 
courses on dual-use export controlled items were developed and 
incorporated into the Russian Customs Academy's professional 
curriculum.
    Downsizing the Russian Nuclear Weapon Complex. To help accelerate 
the downsizing of the Russian weapons complex and to prevent displaced 
weapons workers from seeking employment with potential proliferators, 
the U.S. and Russia have launched the Nuclear Cities Initiative (NCI), 
a cooperative program to create self-sustaining civilian jobs for 
displaced workers in the closed nuclear cities of Sarov, Snezhinsk, and 
Zheleznogorsk.
    We are leading a medical technology development project with the 
Avangard Electromechanical Plant (a weapons assembly facility) at 
Sarov. In September 2001, lengthy negotiations led by Livermore 
scientists culminated in a formal partnership agreement between the 
Avangard Electromechanical Plant and Fresenius Medical Care (the 
world's largest provider of products for individuals with chronic 
kidney failure) to establish a commercial medical products 
manufacturing facility at Sarov. Eventually, the Avangard/Fresenius 
project will employ hundreds of former weapons workers in the 
production of dialysis equipment and treatment kits. This agreement 
represents a major milestone in U.S. efforts to engage a Russian serial 
production facility.
    We are also involved in the NNSA's Initiatives for Proliferation 
Prevention (IPP), which focus on helping Russian research institutes 
find commercial nonweapons applications of their technical specialties. 
In spite of difficulties created by limitations on LLNL's ability to 
establish new contracts and requirements that IPP payments be free of 
Russian taxes, progress has been made on many existing projects. For 
example, LLNL has teamed with Cyclotec Medical Industries and the 
Biophysical Laboratory (Biofil) Ltd., a spin-off from the Russian 
Federal Nuclear Center Institute of Experimental Physics (VNIIEF, 
Arzamus-16), to develop and manufacture transcutaneous electrical nerve 
stimulation (TENS) devices for noninvasive treatment of traumatic 
short-term pain. TENS devices deliver low levels of electrical pulses 
that inhibit or interfere with the transmission of pain signals to the 
brain. Under this IPP project, TENS devices have been miniaturized and 
incorporated into adhesive-bandage- and orthotic- (splint and brace) 
type materials. The IPP-developed device is an order of magnitude 
smaller and lighter than products with similar functionality at one-
quarter of the cost. The components for these devices will be 
manufactured in Russia and then shipped to the U.S. for testing and 
assembly. The total U.S. market for pain control products, 
pharmaceuticals, therapy, devices, and implants is estimated to be more 
than $2 billion. The U.S. National Institute on Drug Abuse (NIDA) has 
advised Cyclotec that it will recommend the use of the company's TENS 
products as ``viable alternatives to drugs for pain relief.''
    Promoting Regional Security through Science and Technology 
Cooperation. As the current conflicts in Afghanistan and Israel 
highlight, regional conflicts are fraught with the potential to 
escalate rapidly, both in the level of violence and in the number of 
players. This escalation potential is particularly worrisome when the 
participants already possess or are striving to acquire weapons of mass 
destruction. In order to promote security and stability in these 
regions of concern, rather than attempting to intervene once conflict 
has spiraled out of control, we are supporting science and technology 
cooperation as a mechanism of engagement that is nonthreatening and 
beneficial to all involved.
    Together with the U.S. Geological Survey (USGS) and under the aegis 
of the United Nations Educational, Scientific, and Cultural 
Organization (UNESCO), we have collaborated with seismological 
organizations from Turkey, Lebanon, Israel, the Palestinian Authority, 
Jordan, Kuwait, Saudi Arabia, Egypt, Yemen, and Oman in a seismology 
technical working group. This topic is of widespread concern in the 
area, given its active seismicity and recent damaging earthquakes in 
Turkey, Greece, India, and Afghanistan.
    We are also participating in a number of projects in Central Asia. 
Some of these projects involve collaboration on radiation detection 
technologies, with the goal of improving border security in the region 
to prevent illicit smuggling of nuclear materials. Other projects are 
characterizing the composition and flow of groundwater and associated 
contaminants in an attempt to improve the preservation and use of 
regional water resources. Water--quality and quantity--is an important 
transboundary issue in Central Asia, affecting decisions related to the 
transport of oil and natural gas across the Caspian Sea, hydroelectric 
versus agricultural use of water, and contamination due to Soviet 
legacy issues.
    These collaborations leverage Lawrence Livermore capabilities in 
seismic monitoring and event analysis, radiation detection 
technologies, modeling of the flow of water and contaminants in 
underground aquifers, atmospheric science, biology and genomics, and 
energy resources. The projects can provide real benefits in, for 
example, interdicting illicit smuggling associated with weapons of mass 
destruction and reducing environmental stresses that undermine public 
health and regional economics. By speaking the common language of 
science and promoting cooperation on relatively ``safe'' transboundary 
issues, these projects can also help to develop indigenous capabilities 
that improve the regional standard of living, thereby enhancing 
stability and security in critical areas of the world and, ideally, 
removing motivations for the acquisition of weapons of mass 
destruction.

                    POST-SEPTEMBER 11 SITE SECURITY

    Our response to the terrorist attacks on September 11 included 
swift actions to enhance the security of the laboratory and to 
reevaluate what additional security measures are appropriate in view of 
the changed threat. Livermore's Safeguards and Security program is 
designed to protect special nuclear materials and classified 
information as well as personnel, property, and the public. A layered 
approach is used to both physical and cyber security with the amount of 
protection and the types of access controls provided depending on the 
relative attractiveness of the asset.
    Post-September 11, we quickly took effective steps to provide a 
more robust site security posture at the laboratory. Livermore now 
operates routinely at heightened security. Closure of non-essential 
perimeter gates and roadways near the nuclear materials ``Superblock,'' 
increased patrols and random searches, additional armed officers at 
perimeter entry points, 100 percent search of all truck deliveries are 
among the measures being taken. To meet staffing needs to sustain the 
posture, we have embarked on an aggressive hiring and training effort. 
We also continue to improve our cyber security defenses, and the 
laboratory has received funding to implement several physical security 
enhancements.
    It is important that funding keep pace with the demands for greater 
security. In the area of cyber security, the threat continues to grow 
in sophistication while funding levels to implement upgrades remain 
nearly flat. As for physical security, the laboratory has aggressively 
pursued technology solutions as a cost-effective alternative to 
increasing staff. An example is our development and continual 
improvement over the past 14 years of the Argus system for access 
control and alarm station management, which is now widely used in the 
DOE complex to significantly reduce staffing needs. The ``Smart 
Camera'' technology that Livermore developed is now being applied at 
the laboratory, and other NNSA sites are eager to install it. There are 
numerous other areas where research and develop funding is needed to 
make technological advances that would reduce staffing requirements 
and/or provide greater security without increasing workforce size.
    One factor that could radically modify workforce requirements and 
budgets for Safeguards and Security at the laboratory is DOE's policies 
with regard to protection strategies, the Design Basis Threat (DBT), 
and the capabilities afforded potential adversaries. The DBT is being 
reexamined post-September 11.
    In addition, Lawrence Livermore and Sandia/California national 
laboratories are taking steps to deal with a long-standing issue--the 
physical proximity of East Avenue. The road runs between the two 
laboratories and both have significant facilities close to it. 
Controlled access to East Avenue would provide enhanced security for 
facilities and personnel. We have DOE, political, and public support 
for moving forward on closure of East Avenue. Alameda County, the City 
of Livermore, and our neighbors are receptive to the proposal, and we 
are looking at methods to fast-track the project. NNSA has given the 
project high priority and is providing funding for a conceptual design.

               ENVIRONMENTAL MANAGEMENT AT THE LABORATORY

    We are very concerned about the proposed fiscal year 2003 budget 
for Environmental Management efforts at the laboratory, which 
constitutes a reduction of about 27 percent from the fiscal year 2002 
allocation. The laboratory requires an additional $17.5 million above 
the budget request to maintain its existing Environmental Management 
program. Specifically, $8.1 million must be added to maintain the 
baseline groundwater cleanup program, and $9.4 million must be added 
for activities to manage newly generated wastes.
    Environmental Restoration. Considerable work has been done to 
remediate soil and groundwater contamination at the laboratory's main 
site and Site 300 to reduce risks, meet community interests, and 
satisfy regulatory requirements under Federal Facility Agreements. Both 
sites are on the Superfund list. The majority of the contamination at 
the main site occurred during World War II when it was a Naval Air 
Base. Solvents used to clean airplane engines were spilled on the 
ground, and they eventually leaked into the groundwater resulting in 
the current contaminant plumes. Discontinued Laboratory operations also 
contributed to the contamination, which threatened the drinking water 
for the nearby City of Livermore. Site 300, located 13 miles from the 
main site, has been used for high-explosives research and testing. Past 
operations resulted in the release of hazardous and radioactive 
materials.
    Specific actions such as characterization of suspected contaminated 
areas, as well as the design, construction, and operation of treatment 
facilities have been negotiated and agreed to with the regulators and 
stakeholders in order to accomplish satisfactory cleanup. 
Unfortunately, shrinking budgets in recent years have made it extremely 
difficult to maintain the level of progress and to meet all of the set 
requirements and schedules despite the laboratory's best efforts to 
accomplish needed work using innovative and cost-effective methods. As 
a result, regulatory commitments are not being met in as complete and 
timely a manner as desired, and contamination may continue to spread, 
increasing the magnitude of the problem and cleanup costs.
    With the proposed cuts in the fiscal year 2003 Environmental 
Restoration budget, Livermore will miss critical cleanup milestones 
that have been negotiated by DOE with the State of California and the 
Environmental Protection Agency. Much of the existing groundwater 
cleanup equipment and operations will be shut down, leaving potentially 
contaminated areas unevaluated and allowing some areas with known 
contaminated groundwater plumes to continue to spread unchecked toward 
farming and residential areas. The amount of sampling, analysis, and 
regulatory reporting will decrease significantly; and there will be a 
significant delay in the cleanup of both the main Livermore site and 
Site 300.
    Waste Management. Despite successful efforts over the last 5 years 
to reduce waste management costs, increases in DOE and regulatory 
requirements, coupled with yearly budget reductions, have put the 
laboratory in a difficult position. The proposed reduction for fiscal 
year 2003 is particularly large--$14.8 million compared to $21.3 
million authorized in fiscal year 2002 and $23.7 million required to 
sustain waste management activities at the laboratory, which must meet 
State and Federal regulations.
    Hazardous waste management has two components to its budget. There 
is the basic cost of maintaining day-to-day operations and managing 
wastes of all types in a safe and compliant manner. There is also a 
proposal to clean up the laboratory's legacy waste. Livermore has over 
2,200 cubic meters of legacy mixed, low-level, and transuranic wastes 
in storage in facilities that should be relocated. Some of this 
material has been in storage for over 15 years; most of the waste has 
been stored outside and exposed to effects of weather; and container 
integrity is a looming issue.
    Under the current proposed budget, it will be impossible to meet 
the laboratory's programmatic needs with a safe, compliant waste 
management program. This will have severe impacts on the national 
security mission and will cause certain programmatic activities to be 
deferred and/or cancelled. In particular, because of Livermore's 
limited waste management handling capabilities, a number of critical 
research and development programs that generate RCRA-regulated waste 
will be put on hold to maintain compliance. In addition, all stored 
radioactive waste will remain at Livermore because there will not be 
funding available for disposal off site. Lack of space will prevent the 
laboratory's Hazardous Waste Management Department from accepting newly 
generated radioactive waste. This will shut down critical work on 
stockpile stewardship. Furthermore, the proposed budget does not 
include sufficient funding to begin waste management operations in the 
new $62-million Decontamination and Waste Treatment Facility (DWTF), 
which features modern and safer technologies. Mixed and radioactive 
waste that has been stored on site for many years will continue to be 
stored outdoors instead of in the new facility.
    The DOE Environmental Management Cleanup Reform Fund. The 
laboratory has submitted a proposal to obtain an additional $30 million 
for accelerated environmental cleanup from the Environmental Management 
Cleanup Reform fund, which DOE proposes to create as part of the fiscal 
year 2003 Environmental Management budget. We believe our proposal to 
be very competitive; however, an award from this fund will not 
adequately replace the $17.5 million shortfall in funding needed to 
maintain our existing Environmental Management program. For Livermore 
to qualify for any of the funds, the State of California will have to 
renegotiate its compliance agreements, which is one of the 
requirements.

                            SUMMARY REMARKS

    The Stockpile Stewardship Program continues to make excellent 
technical progress in many areas, some of which I have highlighted 
here: notably, the W87 ICBM warhead life extension, completion of the 
Contained Firing Facility, progress on construction of the National 
Ignition Facility, the dedication and use of the ASCI White 
supercomputer, progress on future ASCI plans at Livermore, and numerous 
scientific and technical achievements that are improving our 
understanding of the aging of nuclear weapons and weapon performance. 
However, many difficult challenges lie ahead. There is continuing need 
for a strongly supported and sustained Stockpile Stewardship Program to 
maintain the safety, security, and reliability of the Nation's nuclear 
deterrent over the long term. The NNSA's 5 year plan for Defense 
Programs reflects the need for a strong program, and I support NNSA's 
plan and the budget request for fiscal year 2003.
    Strong and sustained support is likewise needed for our activities 
directed at reducing the threat posed by the proliferation and 
terrorist acquisition of weapons of mass destruction. As I have 
highlighted, Lawrence Livermore and our sister NNSA Laboratories made 
unique and important contributions to homeland security post-September 
11. We were able to respond so rapidly and effectively because of the 
technical and operational capabilities we had developed over the past 
decade and more to deal with the WMD terrorist threat. Although these 
technologies and systems performed extremely well, surpassing our 
highest expectations in many cases, still-better capabilities are 
needed to effectively protect the U.S. homeland from the threat of WMD 
terrorism. September 11 demonstrated the high level of technical 
innovation, operational sophistication, and determination of today's 
terrorists. The challenge we face in defending against such determined 
adversaries will only grow greater in the years to come. The Nation 
must make a sustained commitment and long-term investment in the 
research and development required to create the improved warning, 
detection, and response capabilities needed tomorrow and in the future.
    Post-September 11, we quickly instituted a more robust site 
security posture at the laboratory. This heightened level of security 
has become the norm, and we have embarked on an aggressive hiring and 
training effort to meet staffing needs to sustain this posture. It is 
important that funding keep pace with demands for heightened security. 
Funding is also a concern in the area of Environmental Management. The 
progress we have made in remediating soil and groundwater contamination 
is in jeopardy with the proposed fiscal year 2003 budget. At the 
proposed funding level, we will be unable to meet currently negotiated 
Federal Facility Agreements or to operate a compliant waste management 
program that meets facility infrastructure needs. It will also be 
impossible to support Livermore's programmatic needs with a safe, 
compliant waste management program. This will have severe impacts on 
the national security mission and will cause certain programmatic 
activities to be deferred and/or cancelled.
    Finally, I wish to express my appreciation again for the support 
that this committee has provided for the important national security 
work that Lawrence Livermore performs for the country, during my tenure 
as director and throughout the laboratory's history. We are celebrating 
our 50th anniversary this September and looking forward to the next 
half-century of service to the Nation. Lawrence Livermore National 
Laboratory has a bright future with your continuing support.
                                 ______
                                 
                 Prepared Statement by Dennis R. Ruddy

    Mr. Chairman, I respectfully request that my written testimony be 
included in the record.
    My name is Dennis Ruddy. I am President and General Manager of BWXT 
Pantex, which manages the National Nuclear Security Administration's 
Pantex Plant near Amarillo, Texas.
    Since BWXT Pantex assumed operations of the plant a little more 
than a year ago, we have made significant progress in fulfilling the 
site's important national security missions:

        <bullet> Evaluate, retrofit, and repair weapons in support of 
        both life extension programs and certification of weapon safety 
        and reliability;
        <bullet> Dismantle weapons that are surplus to the strategic 
        stockpile;
        <bullet> Sanitize components from dismantled weapons;
        <bullet> Develop, test, and fabricate chemical and explosive 
        components; and
        <bullet> Provide interim storage and surveillance of plutonium 
        components.

    BWXT Pantex is preparing to accomplish future work that will 
provide a safe and reliable nuclear weapons stockpile for many years to 
come. That preparation involves improving our infrastructure and 
technology within a new security environment to ensure our ability to 
meet Stockpile Life Extension Program objectives.
    I believe we all recognize the challenge of providing for the 
security of our facilities and our personnel in the wake of the events 
of September 11, 2001. Immediately after the tragic events of that day, 
we implemented a contingency plan to ensure the security of the site 
and our personnel. Since that time, we have enhanced security in a wide 
variety of areas. We increased security patrols around the site, 
tightened our requirements to access the facility, improved our 
physical security systems and replaced equipment that was beginning to 
show its age. While our workforce, and particularly our security force, 
has responded admirably, these enhancements have not come without 
costs. This fiscal year, more than $16 million in supplemental funding 
has been given to Pantex to cover these expenses. This amount is over 
and above the $68 million originally earmarked for Pantex security.
    Much of this funding has been used to cover overtime for our 
security force. Before September 11, our security guards normally 
worked 12 hours a day, on 4 consecutive days. Then, they had 4 days 
off. Since September 11, they have worked 6 consecutive 12-hour days, 
then been given 2 days off. In order to meet the NNSA's new security 
requirements, reduce our overtime, and put our guards back on a more 
reasonable work schedule, we established a target to hire 140 
additional security officers by the end of this fiscal year. Through 
operational efficiencies and other security enhancements, we are 
seeking to reduce this new staffing to 109 additional officers. Either 
number will be a significant increase in security personnel compared to 
our staffing before the terrorist attacks. In addition to personnel 
additions, we are currently considering other security enhancements and 
their associated costs. In order to develop these security improvements 
and retain our new personnel, permanent increases in security funding 
will have to be made a priority.
    Despite the increased attention that we have given to security, our 
mission to support stockpile stewardship remains our primary focus. The 
Nation still depends on a reliable nuclear deterrent to protect our 
country and our allies, and BWXT Pantex is committed to safely 
providing weapons of the highest quality to our customer. As we look 
ahead, we see that the majority of our weapons dismantlement workload 
will be complete by 2008. Our weapons evaluation workload remains 
steady for the foreseeable future. Beginning in 2005, we are planning 
for a surge in work to support the Stockpile Life Extension Program 
(SLEP) effort. The additional SLEP workload will involve modifications 
to nine weapon systems and will bring with it additional evaluation 
requirements.
    Unfortunately, projected budgets in fiscal year 2003 through fiscal 
year 2007 do not currently correspond with our projected workload. 
Beginning in fiscal year 2005, we see a $12 million to $16 million per 
year difference between our budget needs and the NNSA's FYNSP funding 
targets for weapons work. The FYNSP targets in the Campaigns area are 
$2 million to $7 million per year less than needed beginning in fiscal 
year 2003, a shortfall that impacts technology developments necessary 
to complete SLEP work. However, the largest reductions are seen in the 
Readiness in Technical Base and Facilities (RTBF) area. Beginning in 
fiscal year 2004, shortages ranging from $32 million to $42 million 
each year will severely impact our ability to meet NNSA workload needs.
    Although much of the budget shortfall is seen in later years, we 
have particular concern over the effect of Campaigns and RTBF funding 
in fiscal year 2003 and fiscal year 2004 on SLEP work. The military is 
depending on SLEP to provide a safe, secure nuclear deterrent for many 
years to come. We see that reductions in Campaigns and RTBF funding in 
fiscal year 2003 and fiscal year 2004 will delay or eliminate 
technological and facility improvements needed to implement the SLEP 
schedule on time.
    As I have testified to this group before, we have significant 
infrastructure needs at Pantex. I am happy to report that thanks to the 
increased funding that we have received, we have made progress in 
improving our infrastructure. The fiscal year 2001 plus-up and 
supplemental funding of approximately $15 million allowed us to make 
some roof repairs to prevent leaks in weapons production facilities and 
replace some aging equipment necessary for our work. In fiscal year 
2002, we are receiving $22 million in Facilities and Infrastructure 
Recapitalization Program (FIRP) funds and a plus-up of at least $20 
million. These monies will be carefully used to make additional roof 
repairs, replace obsolete fire alarm systems, and carry out much-needed 
maintenance in a wide variety of areas.
    Still, there is much to be done. We had a $218 million backlog in 
infrastructure needs in fiscal year 2000. That number increased to $262 
million in fiscal year 2001. The FIRP funds mentioned earlier will 
allow the fiscal year 2002 infrastructure backlog to decrease to 
approximately $248 million. (See Figure 1.) As this chart shows, we 
have turned the corner and are beginning to decrease the deferred 
maintenance backlog. While we are spending our infrastructure funds on 
the highest-priority items, the fact remains that more than 50 percent 
of the plant's square footage is over 25 years old. Many building 
elements are at the end of their service life and require restoration. 
We cannot meet the future infrastructure requirements of the Stockpile 
Stewardship Program without continued expenditures to keep our 
facilities in the condition necessary for high-quality, safe nuclear 
weapons work.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Another key factor in our ability to support stockpile stewardship 
in the long term is the recruiting and retention of employees with 
critical skills. BWXT Pantex has taken a proactive approach to 
recruiting, retaining, and developing the critical skills necessary to 
accomplish future weapons work. We have identified the critical skills 
in engineering, science, and other areas necessary for us to maintain 
and grow our technical basis for weapons work. Of the 1,174 positions 
we consider to be critical, we have only 78 vacancies. This is an 
improvement over the 200 critical skill vacancies we had 1 year ago. In 
addition to outside hiring, we have initiated two new programs to 
develop our employees from within. Late last year, BWXT Pantex 
announced the development of an Engineering Graduate Studies Program in 
conjunction with Texas Tech University, West Texas A&M University, and 
the Amarillo Economic Development Corporation. This program is allowing 
our employees and other workers in the community to earn advanced 
engineering degrees locally. We also worked with West Texas A&M to 
develop an Employee MBA program to allow our workers to receive 
advanced instruction in business. Both of these programs have been very 
well received by our employees and will provide us with a higher 
quality workforce in the years to come. As long as our budgets remain 
stable, we will be able to offer a working environment that helps 
attract and retain people with the key skills that we need.
    As our workload at Pantex increases, so does the amount of 
oversight at our plant and other sites around the Complex. While we 
recognize and agree with the need for independent evaluation of our 
results, the growing oversight into our processes and activities 
detracts from the attention we are able to give to the day-to-day work 
that the NNSA requires of us. In this fiscal year alone, we have 
already had 25 audits from the Inspector General, DOE/NNSA, General 
Accounting Office, and the Defense Nuclear Facilities Safety Board. 
This trend is sharply up from fiscal year 2000 and fiscal year 2001.
    Looking to the future, we believe that positive gains will be 
realized as the reorganization of the NNSA continues. A streamlined 
path of communication will improve our business and make us more agile 
in responding to requests. The ability of NNSA to use its resources to 
better support the sites will increase efficiency. Movement of more 
decision-making responsibility to the field offices will also lead to 
more efficient operations. We fully support these changes and look 
forward to the reorganization being implemented as soon as possible.
    As I said at the outset, BWXT Pantex is laying the groundwork for 
important stockpile stewardship work to extend the life of our nuclear 
weapons stockpile. Improvements in technology and infrastructure will 
prepare the site to meet NNSA's Stockpile Life Extension Program goals. 
In the interim, we will work with NNSA and Congress to address the 
challenges that we currently face.
    Mr. Chairman, thank you for the opportunity to present these views 
to you today. I look forward to continuing to work with you and the 
members of this committee to ensure the safety and reliability of the 
stockpile in the future. I will be happy to answer any questions the 
subcommittee may have.
                                 ______
                                 
                 Prepared Statement by John T. Mitchell

    Mr. Chairman and subcommittee members, thank you for the 
opportunity to update you on Defense Programs activities at the Y-12 
National Security Complex in Oak Ridge and to provide you my views on 
our near-term and long-term ability to meet the challenges of the 
Stockpile Management Program. We have made considerable progress at Y-
12 over the past year, but still face significant challenges in meeting 
the expectations of the National Nuclear Security Administration (NNSA) 
over the long-term.

                                OVERVIEW

    The past year at Y-12 has been one of renewal and change. Many 
longstanding challenges have been met head-on and significant progress 
has been made. New management systems and processes have started to 
take effect and increased effectiveness and control are clearly 
visible. Our emphasis on Safety and Security as the cornerstones of our 
operations have resulted in satisfactorily completing both the 
Integrated Safety Management Phase II review and the security review 
performed by the NNSA/DOE Office of Assessments this fiscal year. Both 
in our response to the events of September 11 and the measurement of 
our safety performance, it is clear that the groundwork laid in 2001 
has supported improved execution of these key responsibilities.
    Aided by the funding identified through the Facilities and 
Infrastructure Initiative, we have commenced a long-term plan to 
consolidate the active functions of Y-12 into a reduced footprint 
through a balanced program. Our approach includes reducing the occupied 
building inventory, removing unoccupied buildings from the inventory, 
reusing major facilities where possible, and the selective investment 
in re-capitalization where long-term efficiencies result.
    We have re-energized the planning and execution of an aggressive 
technology infusion program at Y-12 to both optimize support for the 
upcoming defined workload and to assure long-term, safe, secure, and 
efficient modern capabilities to meet the Nation's security needs. We 
have started the renewal of the dedicated Y-12 workforce through major 
increases in college-level recruiting, cooperative university programs, 
and emphasis on increasing the technical and managerial competence 
level of our workforce. Throughout these focused efforts, we have 
placed great value on detailed program planning and a project 
management culture for execution effectiveness. Site-wide integration 
in resource planning and prioritization has assured a balance in 
investments and a clear definition of needs versus wants.

                             INFRASTRUCTURE

    BWXT Y-12 has been implementing its strategy for infrastructure 
improvement--intense planning focused on scientific and manufacturing 
needs, definition of equipment, facilities and skills, and alignment of 
technology development. Our goal is to create a consolidated 
manufacturing footprint, with a central hub of secure operations 
surrounded by the developmental, technical, and other support functions 
needed to execute the mission.
    Y-12 has begun the process of removing non-essential facilities. 
This removal will make room for beneficial upgrades to the plant and 
reduce cost for surveillance, analysis, maintenance, and security. The 
Facilities and Infrastructure (F&I) Initiative has been pivotal to our 
demolition efforts, as well as providing critical support for much-
needed maintenance and facility repairs.
    Y-12 has also begun the first major steps in deploying key 
investments in the future of Y-12. We are beginning the preliminary 
design for high enriched uranium materials facility, the next major 
step in improving the storage of the Nation's inventory of highly 
enriched uranium. We also have received approval to begin preliminary 
design of the purification prototype facility, the first element of the 
Special Materials Capability Program. The architect-engineering 
contracts are in place for both these projects. In addition, prototype 
development of a new beryllium manufacturing capability is underway and 
we are ready to begin conceptual design for a production utilities 
project.
    Following these projects, we need to move forward on plans to 
consolidate depleted uranium operations, upgrade enriched uranium 
operations, relocate quality evaluation operations, and upgrade 
safeguards and security systems by reducing the protected area of the 
plant. There will also be continued emphasis on use of F&I to make 
critical facility repairs and to continue the infrastructure reduction 
activities to consolidate and disposition excess facilities.
    Achieving and sustaining infrastructure improvements within the 
NNSA funding forecasts continues to be a challenge. The cost to operate 
aging facilities increases as demands for maintenance and capital 
replacement expand. Sustainable support will be necessary for Y-12 to 
meet mission requirements while resolving problems caused by years of 
deterioration at Y-12. The trade-off between operations, maintenance, 
and capital investments must continue to recognize the long-term 
interests of Y-12.

                               TECHNOLOGY

    Y-12 has begun two important initiatives over the past year that 
will improve the way technology is introduced in the plant and its 
missions. The introduction of new technologies must be managed from a 
different perspective today than was the historic norm for the 
production complex. The stockpile stewardship paradigm may well require 
a higher level of technology for refurbishment than was required for 
the original build. When a flaw is identified, the resolution of that 
flaw will be reverse-engineered from test data. The tolerances for that 
new part can be much more exacting than was originally required. In 
addition, today's technology introduction may be based on the ability 
to achieve substantial efficiencies in mission execution. These 
efficiencies may stem from the introduction of technologies that were 
not previously available or concepts that were previously discarded 
based on then-valid mission requirements that are no longer appropriate 
(e.g., stockpile size).
    The first initiative, technology roadmapping, has the goal of 
modernizing the processes, equipment, and supporting systems (e.g., 
computing and information management systems). The roadmap would 
identify the strategies and direction of the technology program. These 
strategies would be screened against the time to bring them to the shop 
floor, cradle-to-grave cost estimate, potential for success, and return 
on investment.
    In a second initiative, BWXT-Y12 has begun a technology partnership 
with the Oak Ridge National Laboratory (ORNL). The technical needs of 
Y-12 are heavily weighted toward ORNL's R&D agenda (i.e., materials 
science, modeling/computational science, and instrumentation and 
control). In these key areas, ORNL provides access to state-of-the-art 
facilities, leverage for Y-12's development funds, and a pathway to the 
broader technical community--private industry, the science 
laboratories, and academia.
    The introduction of technology into Y-12 will be critical to the 
future economical execution of our mission. Again, the trade-off 
between operations, technology introduction, and capital improvement 
will require a sustained commitment to the long-term interests of Y-12 
and its mission.

                           MANAGEMENT SYSTEMS

    BWXT Y-12 is bringing fiscal discipline to Y-12. We have 
established a centralized planning function to include estimating, 
schedule planning, resource budgeting, strategic baseline planning, 
performance measurement and reporting, and systems management. A common 
tool-set has been established to provide the planners consistent 
planning software across the Y-12 site.
    Using these tools, we have developed schedules and resource 
requirements for all work activities, including work breakdown 
structure (WBS) elements, and the estimated costs, schedule, duration, 
resource loading, and the required earned value protocols for each 
element. The 10-year baseline is complete covering all major projects 
planned at Y-12, including future weapons programs, modernization 
programs, infrastructure reduction projects, and technology development 
activities.
    Currently, we are focusing on several key upgrades to our process. 
While standard estimating procedures and formats have been established 
for all work done across the site, we are working to improve the 
accuracy of our estimates. Also, we are working to improve our 
production control systems, including the recent completion of a pilot 
project. The resulting schedules will provide the required integrated 
planning for preventative maintenance, operations, inventory, and 
facility maintenance efforts.
    These initiatives provide managers the visibility to effectively 
manage cost, control scope, and maintain schedule commitments. We are 
working hard to assure that the resources placed in our care are well 
spent on activities of highest importance to our mission.

                               WORKFORCE

    Y-12 is taking action to assure the technical base is available to 
carry out its mission in the future. We have defined our critical skill 
needs and initiated the hiring of entry level, technical talent to 
prepare them to be tomorrow's leaders. In order to attract the best 
talent, we have initiated cooperative education programs, including the 
establishment of internal mentors to maximize the benefit of their time 
at Y-12. We are now developing a program of partnerships with 
universities in the region and preliminary response to the concept of 
these partnerships has been enthusiastic. Our objective is to assure 
the best people are attracted to Y-12 as a vibrant workplace whose 
mission is important to national security.
    Safety is the responsibility of all employees and important to 
everyone. BWXT Y-12 has been working to bring the commitment to safety 
to be a first principle at Y-12. All supervisors and managers completed 
safety leadership training followed by rolling safety focus meetings 
with all employees. The routine employee interaction on safety issues 
has begun to show improvement in our safety metrics for the plant.

                          MISSION PERFORMANCE

    Y-12 continues to meet the direct needs of the nuclear weapons 
program with timely delivery of products and execution of a wide 
variety of supporting activities. Shipments of fuel for the nuclear 
Navy have been accomplished on time. Planning for the near-term needs 
has resulted in restarting several needed capabilities as well as the 
introduction of several new technical capabilities. Y-12 has also 
participated with ORNL to provide centralized and integrated 
capabilities critical to the success of our national commitment to non-
proliferation. A strong and refocused capability to perform work for 
the full range of government and commercial customers supportive of 
base Y-12 mission needs has been initiated in partnership with ORNL. 
This growing and diversified work mix is vital to the retention of 
critical capabilities and the development of those required for the 
future.

                                SUMMARY

    While Y-12 has made major steps forward in the past year, there is 
still a long road ahead to achieve long-term, sustainable capabilities 
to meet national security needs with confidence, including management 
leadership and execution effectiveness. Consistent, balanced funding 
support for operations, technology introduction, and infrastructure re-
capitalization will be required. Consistent, timely, and visible 
definition of program requirements will be needed as well as commitment 
to stand behind initiatives and investments until they are completed 
and have produced the expected results. Y-12 must continue to be fully 
supported in all areas for it to continue to meet long-term national 
security needs.
                                 ______
                                 
                Prepared Statement of David S. Douglass

    Mr. Chairman, my name is Dave Douglass. I am President of Honeywell 
Federal Manufacturing & Technologies, which manages the National 
Nuclear Security Administration's (NNSA) facility in Kansas City, 
Missouri, and facilities supporting transportation safeguard activities 
in Albuquerque, New Mexico. The Kansas City Plant today is an active, 
safe, secure, and reliable facility that serves as one of our country's 
most unique and valued national security assets. Our diversity of 
sophisticated, complex, and leading-edge manufacturing capabilities is 
equaled by few facilities in the country, and the fact that these 
capabilities are housed under one roof in a secure environment is 
rivaled by no other manufacturer in the world.
    We bring to the nuclear weapons complex and our Nation expertise in 
science-based manufacturing; supply chain management; e-business 
systems; sophisticated electronic, mechanical, and rubber and plastics 
manufacturing; and a consistent reputation as one of the NNSA's 
highest-rated contractors. The nonnuclear components we produce 
comprise 85 percent of the parts manufactured within the nuclear 
weapons complex, as well as 85 percent of the components that 
constitute a nuclear weapon.
    With the help and support of this subcommittee and Congress over 
the past 4 years, we have begun to address issues impacting our talent 
pipeline and critical skill needs, infrastructure deficiencies, and 
recapitalization concerns at the Kansas City Plant. Since last year's 
testimony, we have used the $12 million in plus-up funding you provided 
to hire 300 people, keep our critical skills filled at a 99-percent 
level, and meet urgent infrastructure and recapitalization needs, 
including equipment upgrades, critical roofing repairs, and renovations 
to air handling systems in our production areas. In each case, we were 
able to maximize the dollars we spent by focusing on the highest 
priorities, however unglamorous they may have been. However, while we 
may have begun to turn the tide, we have not fixed the problems; and we 
continue to seek your support in addressing on-going, long-term issues 
facing the Kansas City Plant.
    Mr. Chairman, as both a taxpayer and a contractor, I believe we 
should be held accountable for the highest standards of performance. 
This includes driving efficiency improvements throughout our 
organization. To this end, Honeywell has implemented a number of 
efficiency improvements at the NNSA's Kansas City Plant that embrace 
commercial best practices and ensure ever-increasing value for NNSA 
investments. Honeywell treats Federal Manufacturing and Technologies 
the same as its commercial businesses, holding us to the same standards 
of performance. This includes achieving 6 percent year-over-year 
improvement in productivity, qualifying for and maintaining ISO quality 
and environmental system certifications, implementing cost-saving 
digitization applications, achieving safety metrics that are 
significantly better than national or NNSA standards, and training 
employees in the use of continuous improvement tools such as Six Sigma. 
All 2,000 of our salaried associates are Six Sigma Green Belt 
certified, plus more than 150 of our employees are certified in Six 
Sigma Black Belt productivity tools. Furthermore, when we were awarded 
the contract to continue operating the Kansas City Plant in 2000, we 
committed we would achieve $25 million in efficiency improvements at 
the Kansas City Plant in the first 2 years of the contract. Last year, 
our first year, we achieved $20 million. By the end of this year, we 
fully expect to meet and far exceed the remaining $5 million 
commitment.
    As part of our vision of the Kansas City Plant as a multi-mission, 
national security asset, we have grown our Work-for-Others program by 
42 percent in 2 years. Other government agencies, including military, 
law enforcement, and intelligence organizations, are finding increasing 
value in our combination of advanced technology solutions and a high-
security environment. Our robust Work-for-Others program helps offset 
overhead costs and retain critical-skill associates by offering them 
new technical challenges. This value benefits both the government and 
the taxpayer.
    A natural question is: If we have derived these millions of dollars 
of efficiency improvements, why do we require sustained funding 
support? It is well-documented that the Department of Energy made a 
conscious decision in the 1990s to focus investment on science and 
defer investment in production. Our efficiency improvements during this 
decade gave us flexibility to balance near- and long-term needs. Thus, 
the savings generated by our efficiency improvements were factored into 
our budget forecasts, allowing us to augment NNSA funding to support 
infrastructure improvements, critical skill needs, and high-priority 
programmatic requirements. However, continued investment at 2.4 percent 
created a substantial backlog of infrastructure needs, compared to an 
industry standard of 5 percent.
    The Kansas City Plant is at a juncture: We are inhibited by funding 
pressures and modernization issues from achieving the full readiness 
needed to accomplish our task at hand. We will meet our directed 
stockpile work obligations, but we will do so at the expense of 
preparing for the future. Over the next 2 years, our workload will 
begin to escalate as we prepare for full-scale production for the 
Stockpile Life Extension Programs. Yet, as the adjacent infrastructure 
requirements chart indicates, at the same time we gear up for new work, 
our infrastructure and recapitalization backlog reaches peak levels.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    As the chart also indicates, we require $65 million a year to 
sustain investment in the Kansas City Plant, and limited funding has 
pushed the backlog into the next 5 years. The additional Facilities & 
Infrastructure Recapitalization Program funding is significantly 
helping us lessen the backlog, and I strongly endorse continued support 
of this important effort.
    The Government has a very capable, diverse, experienced, secure 
manufacturing facility: the Kansas City Plant. It makes good business 
and economic sense to invest in it and push this national security 
asset to its highest potential. No other facility is as diverse as the 
Kansas City Plant. Unlike commercial manufacturers, we are in a 
position to manage the NNSA's requirements to produce high-quality, 
low-volume components; retain skills to sustain aging or obsolete 
technologies; and warehouse parts needed to maintain the 25 year life 
expectancy of the stockpile--at an affordable cost to the government.
    We strongly support General John Gordon in his efforts to simplify 
and streamline the NNSA and implement a new governance model for 
management and operating (M&O) contracts. In keeping with the premise 
behind M&O contracts--to select contractors based on their operational 
and management experience and provide them with the objectives of what 
needs to be accomplished--we have taken several steps to simplify and 
streamline operations at the Kansas City Plant. These steps include 
introducing commercial industrial standards, including manufacturing, 
procurement, and human resources best practices. For the new governance 
initiative to improve performance and reduce costs successfully across 
the complex, we believe the initiative must radically change M&O 
operations in four key areas: culture, core processes, performance 
management, and the government/contractor relationship.

        <bullet> Culture Change: M&O employees should be treated no 
        differently from employees who work for the contractor at other 
        locations. Contract and other DOE requirements and programs 
        that make the M&O employee a unique employee, and that 
        consequently limit the contractor's ability to rotate in talent 
        from other parts of the corporation, are unnecessary and should 
        be revised or eliminated.
        <bullet> Core Processes: The NNSA should require contractors to 
        bring robust core processes to M&O operations, particularly in 
        the areas of strategic planning, continuous improvement, 
        leadership development, and performance management. NNSA 
        requirements and practices that dictate the processes to be 
        applied in M&O contracts should be eliminated.
        <bullet> Performance Management: Core processes should be 
        assessed by independent and knowledgeable third-party sources, 
        and contractors should be judged by the NNSA based on the 
        maturity of their processes rather than isolated and unexpected 
        incidents.
        <bullet> Government/Contractor Relationship: A partnering 
        relationship should create alignment in business imperatives 
        for NNSA facilities and a clear understanding of roles and 
        responsibilities. We support the concept that it is the role of 
        the Government to identify what needs to be done and the role 
        of contractors to determine how the work should be done, based 
        on the expertise that caused them to be selected in the first 
        place. We envision NNSA personnel working in concert with the 
        contractor to accomplish mission objectives by eliminating 
        barriers to the contractor's tasks, working with stakeholders 
        to resolve community concerns, and working within the 
        Government to ensure program alignment with overall Government 
        needs.

    Finally, it is imperative that we maintain balance between science 
and production. Scientific advancement is vital. We must develop our 
manufacturing technologies, train our employees, and maintain our 
facilities. However, it is just as important that the skills and 
capabilities needed to turn science into reality--real robust 
products--keep pace with technological advancements. This brings us 
full circle to the issue of long-term reinvestment in and value of the 
Kansas City Plant as a national security asset.
    Mr. Chairman, you may also ask about the impact of the 
administration's Nuclear Posture Review, which calls for a reduction in 
our nuclear stockpile, on the Kansas City Plant. Our volumes will 
eventually fall, but the need for components will not be diminished. 
However, the more volumes fall, the less attractive this work will be 
to commercial industries that must maintain profit margins. These 
companies cannot afford the overhead needed to sustain aging or 
obsolete technologies, warehouse parts, or retain expertise in critical 
skills needed to maintain the 25-year life expectancy of the stockpile. 
Reinvesting in the Kansas City Plant, and allowing us to defray 
overheads costs by expanding use of the facility, will address both 
short-term and long-term nuclear weapons complex needs.
    The Kansas City Plant is busy. We support 42 product families and 
120 advanced technologies, shipping more than 60,000 product packages 
annually. We are producing components for every weapons system in the 
active stockpile. We are hiring new associates and actively addressing 
critical skill needs. We have begun to increase infrastructure 
investments to recover from funding shortfalls in the 1990s. We are 
developing new manufacturing capabilities and suppliers required to 
support the upcoming Life Extension Programs. The next few years will 
see significant challenges as we continue to address critical skills, 
and upgrade our infrastructure while preparing for sizeable new 
production requirements driven by the Life Extension Programs. Our 
success is directly tied to a sustained funding profile, which fully 
accounts for these challenges.
    Mr. Chairman, thank you for the opportunity to present these views 
to you. Honeywell is committed to our national defense mission and to 
the future success of the Kansas City Plant and nuclear weapons 
complex. I look forward to continuing to work with you and the members 
of this subcommittee to address these challenges.

    Senator Reed. I would like to add that submitting testimony 
is completely optional. Senator Allard and I would have 
preferred the opportunity to hear from the contractors in 
person, but, as I indicated, the committee's schedule this year 
just does not allow this opportunity.
    At $7.1 billion, the EM program is the single largest 
program at the Department of Energy. Of that amount, $6.4 
billion falls within the jurisdiction of this subcommittee. The 
expenditures and schedules for this program are largely derived 
from a series of enforceable agreements that the DOE has 
entered into with the relevant States and the Environmental 
Protection Agency (EPA).
    For the most part, the States and communities that host 
these DOE sites feel strongly that these agreements protect the 
health and well-being of the communities and the employees who 
work there. These agreements have been the driving force to 
remedy the well-documented history of environmental 
contamination by DOE and its predecessor agencies. These 
agreements have in some instances limited the ability of the 
DOE and the contractors to introduce innovative cleanup 
approaches and to change how the cleanup is conducted.
    On the other hand, the States and the EPA are also 
interested in having cleanup progress quickly and in the most 
cost-effective way.
    Roughly 12 years of experience with this program has taught 
that where there is cooperation and a partnership among DOE, 
the States, and the EPA, progress is made. Faced today with 
growing cleanup costs, DOE has proposed in the fiscal year 2003 
budget a new program called the Cleanup Reform Initiative. The 
budget request is short on details for this $800 million 
initiative, but my preliminary understanding is that this 
account would be available to any site that submits a proposal 
for accelerated cleanup.
    While on its face this appears to be a creative approach to 
cleanup, it also appears that this account was created by 
underfunding the baseline cleanup accounts. Thus, the fiscal 
year 2003 President's budget request will not allow the DOE to 
meet the requirements contained in all the agreements. 
Moreover, I understand that to qualify for the funds in this 
account the States and the EPA have to modify the agreements in 
ways that may reduce the overall level of cleanup.
    The implementation of this new initiative is complicated 
further by the recent announcement of an agreement with the 
State of Washington to provide $430 million of the $800 million 
to the Hanford site. One of the main topics on which I want to 
focus today, Secretary Roberson, will be the new Cleanup Reform 
Initiative and the plans to implement it.
    Over the past few years, DOE has made substantial progress 
in cleaning up the contaminated sites, treating and safely 
storing waste; yet, much remains to be done. Some of the 
achievements have been possible using new technology. At many 
of these sites, new or improved technologies will continue to 
be needed to sustain progress.
    The second issue that I want to discuss today is the 
significant reduction in research and development funds in the 
fiscal year 2003 budget request. How does this reduction square 
with the continuing requirement for new technologies? The EM 
program is a complex and challenging program that will remain a 
challenge for many years to come. I share your fundamental goal 
of getting cleanup accomplished sooner and at a reduced cost.
    Secretary Roberson, we welcome you to the subcommittee 
today and note that this is your first opportunity to testify 
since your confirmation last year. Now I would like to 
recognize Senator Allard.
    Senator.
    Senator Allard. Welcome, Madam Secretary. Good to have you 
before the subcommittee. Mr. Chairman, I would like to thank 
our witnesses for appearing before the Strategic Subcommittee 
today and providing testimony on some very challenging issues 
facing the Department of Energy.
    Our witnesses today will be speaking about challenges that 
initially arose out of the Manhattan Project when our Nation's 
very existence was at stake, almost 60 years ago. World War II 
led to the creation of the nuclear weapons program, which 
required enormous cooperation among many sites and States. In 
an effort to keep the mission secret, security architects of 
the Manhattan Project used multiple sites, with each site 
responsible for its own individual scientific task or weapons 
components for the larger mission.
    The success of the Manhattan Project required intricate 
planning and enormous cooperation among the various sites and 
the States where they were located. Now, why am I reflecting on 
those early days of our Nation's nuclear weapons program? I do 
so because today we again find ourselves facing enormous 
challenges. Today we have an aging nuclear weapons complex 
filled with an aging nuclear weapons work force, both requiring 
resources and attention to reinvigorate the program. We have 
inherited environmental challenges from the legacy of our 
Nation's nuclear weapons program, from a time when we were not 
as knowledgeable, concerned, or careful.
    Cooperation between the sites and their States is still key 
to maintaining our national security requirements and to meet 
our environmental responsibilities. Today I am concerned that 
cooperation between some of the sites and the States where they 
are located is strained at best and perhaps even broken. 
Cooperation is being traded in for opportunity, intrigue, and 
politics.
    If we cannot work together across the Department of Energy 
complex, then each site in each State will find themselves 
isolated, unable to interact as the complex was designed. No 
individual site can be successful as its own entity. Each site 
is dependent on the other sites to make their mission relevant 
and successful.
    There are both benefits and burdens in working with the 
other sites and States. Some sites have expanding national 
security and environmental missions for the future. Others are 
being closed. Their mission has been transferred and it is time 
to clean them up and move their funding to the remaining sites.
    I have worked tirelessly to make sure the Rocky Flats site 
will be cleaned up and closed as an EM site by 2006. The 
surrounding communities have worked together and exhibited as 
great a spirit of cooperation as I have ever seen. They were 
communities that were at odds on how to proceed, but decided to 
set aside obstacles and opposition and move forward with focus 
and determination to get the site cleaned up.
    I have worked with the Department of Energy and the site 
manager to make sure they had everything they needed to make 
this job move forward. They have been extremely dedicated to 
this mission. I worked with other members of this subcommittee, 
including Chairman Reed, the Senate, and the House to try to 
make the process work instead of getting bogged down in 
bureaucratic gridlock. I have worked with the State of Colorado 
and other Federal agencies, including the EPA and the 
Department of the Interior, to make sure the 2006 date would be 
kept on track.
    Remember, in 1995 the Rocky Flats site had a baseline for 
closure of 70 years, costing over $30 billion. We are now 
trying to reduce that to 10 years and $7 billion. The workers 
at that site have been tremendous. Just last week I was at a 
Rocky Flats meeting with the union membership, and I can tell 
you that I have never been prouder of a group of workers. They 
are making history, and we should provide these union members 
the tools and opportunity to succeed. Their dedication and 
determination has been absolute.
    Although we do not have a future mission at Rocky Flats, 
completing the cleanup is important for the rest of the complex 
for several reasons. First, it is the responsibility of the 
Federal Government to return that land to the people of 
Colorado in an environmentally safe and desirable manner. The 
site will be designated a national wildlife refuge once the 
cleanup is completed.
    Second, we have agreements with Russia to reduce the amount 
of weapons-grade plutonium in both of our stockpiles in an 
effort to promote international nonproliferation goals.
    Third, the more than $650 million that goes to Rocky Flats 
each year for cleanup will become available upon closure to 
fund ongoing and future missions at the other sites. Rocky 
Flats costs $1 million a day just to turn on the lights, and I 
am not sure they ever do shut off all the lights. So it is easy 
to see why it is important to close this site, which has no 
future mission.
    Finally, it is important to demonstrate to the Nation and 
the world that such a cleanup is possible and attainable.
    Mr. Chairman and this subcommittee, I regret to inform you, 
that today the closure of Rocky Flats is at risk. Instead of 
following the proud vision and model of the Manhattan Project, 
the Governor of South Carolina has decided to play politics. As 
a result of his dangerous gamesmanship, our Nation's security 
and our Nation's environmental security have been placed at 
risk.
    Specifically, the Governor of South Carolina has 
effectively closed his State's borders to shipments of nuclear 
materials, and by doing so, threatens to bring our nuclear 
weapons program, our EM program, and perhaps our nuclear 
nonproliferation program to a screeching halt. How short-
sighted these actions are. It is not just Rocky Flats that is 
directly impacted. By design, all of the sites are 
interconnected and interrelated. Beyond the direct impacts 
caused by one State's action, there is a domino effect in which 
the other States may follow suit and thereby threaten both the 
nuclear weapons program and the EM program.
    For almost a year, the administration has been trying to 
work with South Carolina to keep a strong future mission for 
the Savannah River Site (SRS) while also cleaning up the EM 
facilities. I believe in the mission being conducted at 
Savannah River. There currently is a new tritium extraction 
facility (TEF) under construction. A new mixed-oxide plutonium 
(MOX) facility is being designed. Several other waste 
processors and storage facilities are either in the design 
phase or the construction phase. The work force at the site is 
doing a great job in conducting the mission.
    However, the commitment by the State of South Carolina does 
beg a question for this committee: Why are we spending or 
considering spending so much money on projects in South 
Carolina, including processes which require the shipment of 
nuclear materials into South Carolina, if the border has been 
closed to such shipments?
    I will not even begin to get into the amount of nuclear 
material and waste currently in South Carolina that is already 
designated to be shipped out of that State. The Governor is 
picking and choosing which materials can come into South 
Carolina and which ones cannot, and he demands that material 
already there be shipped to other States. He wants a guarantee 
unlike that which has been given to any other State, that any 
waste that comes into South Carolina in the future will leave 
South Carolina, and it is my understanding DOE has offered such 
an agreement.
    In fact, the Governor has been offered both a legislative 
guarantee and a guarantee in the form of a record of decision. 
Either approach would be enforceable by the State. But every 
time the Department of Energy met a demand, another one would 
appear, pushing the threshold even higher.
    I am very sympathetic to the State's situation, but through 
negotiations we must produce results. Compromise is a two-way 
street. Up until now, I have tried to be patient, waiting and 
watching as DOE kept offering more and more to the Governor's 
increasing demands. Today, Mr. Chairman, my patience is gone. 
When a State unilaterally shuts their borders, they should be 
aware that their borders can be shut down in both directions. 
Perhaps they can for a time keep materials from coming into 
their State, but also can find materials no longer have a path 
out, either. If other States in turn shut down their respective 
borders, our national security environmental responsibilities 
may hang in the balance.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Allard.
    Senator Inhofe, do you have an opening statement?
    Senator Inhofe. I do not have an opening statement, Mr. 
Chairman, but I have a great deal of concern. I served as 
Chairman of the Readiness and Management Support Subcommittee 
for 4 years. One of the problems we have is the cost of 
cleanup, the cost of compliance with environmental regulations. 
It is my understanding that the administration has been working 
on legislation that might address this in that they might 
exempt some installations from some of the EPA regulations.
    I wanted to just mention that to you now in case you are 
not familiar with the status of that. Maybe one of your staff 
people could find out before the question and answer period, 
because that is something I think is very critical, very 
significant to our state of readiness, and I want to ask that 
question.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Inhofe.
    Madam Secretary, your statement is a part of the record. 
You may proceed to summarize your statement.

STATEMENT OF HON. JESSIE HILL ROBERSON, ASSISTANT SECRETARY OF 
              ENERGY FOR ENVIRONMENTAL MANAGEMENT

    Ms. Roberson. Thank you, sir. Thank you, Chairman Reed, 
Senator Allard, Senator Inhofe, and other subcommittee members 
that may arrive.
    I am here today to ask for your support for the 
Department's efforts to reform the Environmental Management 
program. I am pleased to report to you that the transformation 
of the Environmental Management program has begun. DOE has 
already taken the first steps to change our focus from risk 
management to risk reduction and elimination, to shift our 
focus from process to product, and to instill in this program 
the kind of urgency necessary to clean up and close the nuclear 
legacy of the Cold War to protect and secure the homeland.
    We have already taken several steps to immediately 
implement proposals for reforming and revitalizing this 
program. We have developed special teams and deployed those 
teams to most of our sites in combination with our field 
elements, our contractors, State and Federal regulators. We 
have also involved other stakeholders in the communities around 
those sites to develop accelerated cleanup plans.
    We have taken actions to further augment the Nation's 
security through the consolidation of nuclear material at EM 
sites, a key recommendation of the Top-To-Bottom Review of the 
Environmental Management program. We are working in partnership 
with the National Nuclear Security Administration to ensure 
that our nuclear material is safe and secure. This accelerated 
effort will lead to more secure protection of our nuclear 
material inventory while reducing the cost of storage and 
protection at multiple sites.
    DOE has also taken the initial steps to align our internal 
processes and management to enable a streamlined, more focused 
approach to cleanup. EM has begun reviewing our contracts to 
ensure that they are effectively meeting our cleanup and 
closure needs. We have also begun reviewing existing systems 
and, where necessary, developing new systems for managing our 
contracts to ensure effective government oversight.
    The progress we have made so far is very significant. It 
would not have been possible without the active support of the 
members of this subcommittee. I appreciate your support and 
your confidence.
    As far as we may have come to date, the unfinished work 
ahead of us is great. Most of the hardest work and the toughest 
challenges are still before us. The EM budget request for 
fiscal year 2003 contains key initiatives and tools we need to 
help us continue the work of reforming this program. Our budget 
request for $6.7 billion is about the same amount as 
appropriated last year. However, if we can achieve agreements 
for accelerated closure at our sites around the complex, we are 
prepared to amend our request consistent with the funding needs 
of those agreements.
    Our fiscal year 2003 request has two components, a base 
budget of $5.9 billion and a new cleanup reform account. This 
new account is proposed specifically to fund projects and 
activities at sites that achieve agreements with their States 
to enable accelerated cleanup and closure.
    More details of our fiscal year 2003 request are contained 
in my formal statement, so I will not go over those. I 
recognize that there have been many questions, many that you 
cited in your opening comments, that have been raised about 
this new cleanup reform account: How will it be allocated? What 
criteria will be used? What happens if DOE cannot propose a 
specific site allocation after the markup?
    I want to make several broad points at the outset. First, 
this account is critical to the success of our efforts. Second, 
it is our intent to look for more efficient and effective ways 
of achieving cleanup and risk reduction in the base budget of 
$5.9 billion, thus to demonstrate more visible and tangible 
results for the entire budget request.
    Third, it is not our intent to get out of compliance with 
any of our regulatory agreements. This is not an assault on our 
cleanup agreements. These agreements are living documents with 
processes to enable improvements and revisions to achieve our 
mutual goals.
    Fourth, DOE is looking not only to States, but even more so 
to ourselves. We cannot achieve the results we want unless we 
address our own business practices.
    Fifth, DOE is not seeking any new authority from Congress 
at this time to achieve our accelerated objectives. We believe 
we have adequate authority within the current statutory 
framework. If in the future we believe we need new authority 
from Congress to carry out reforms of this program, we will 
inform Congress at the appropriate time.
    Members of this panel have appropriately demanded more of 
DOE, more accountability, more fiscal responsibility, more 
tangible results. We are strongly aligned with your efforts to 
improve our work. The fiscal year 2003 budget request is based 
on a simple premise: that Congress, the States, and the 
communities that host DOE sites all want accelerated risk 
reduction and cleanup. This budget request will put into place 
a valuable set of tools and instruments we need to achieve this 
mutual goal.
    I do not come before you claiming that we have all the 
answers. In many respects, this is possible because of the work 
of those who have come before us. Nonetheless, we feel a sense 
of urgency that requires that we forge ahead in spite of the 
uncertainties. I am confident that we can, working together, be 
successful.
    Thank you.
    [The prepared statement of Ms. Roberson follows:]

                Prepared Statement by Jessie H. Roberson

    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to appear before you to discuss the Department of Energy's 
Environmental Management (EM) program and its fiscal year 2003 budget 
request.
    We meet today at an historic moment for the Environmental 
Management program. This is no ordinary year. This budget request does 
not come at an ordinary time. This administration has just completed a 
comprehensive review of EM and has concluded that this program is badly 
in need of repair. For 10 years we have spent tens of billions of 
dollars but have failed to make commensurate progress towards cleanup 
and risk reduction. If present trends continue unchecked, we will 
squander taxpayer money and make only minimal progress towards cleanup 
and risk reduction. This is unacceptable. This administration is 
determined to make changes.
    This budget represents the first step towards addressing the 
fundamental problems facing EM. DOE has analyzed what is wrong and has 
taken the first steps forward. To go further, we need the help and 
support of Congress. We need the help and support of States and our 
State and Federal regulators. We need the help and support of 
stakeholders and communities throughout America. We can turn this 
program around and produce real progress towards cleanup, but only if 
we all work together towards our common goals.
    The Department is requesting $6.714 billion for the EM program for 
fiscal year 2003. This is approximately the same level as Congress 
appropriated for the program in fiscal year 2002. In a year when 
demands for Federal dollars are particularly high, this request 
demonstrates the administration's commitment to cleaning up the 
contamination resulting from Cold War nuclear weapons production and to 
ensuring that our surplus nuclear materials are safe and secure to 
protect the homeland.
    The budget request before you begins to fundamentally change the 
way the cleanup is carried out. We have proposed structural changes in 
our request to enable us to begin these badly needed changes. The 
request provides ``base funding'' to ensure safety and security, and to 
support on-going cleanup activities at the sites. But it also includes 
a new and separate $800 million EM cleanup reform account. These funds 
will be made available to those sites that can in partnership with 
their regulators, their contractors, and their communities change their 
way of doing business to provide more tangible progress towards cleanup 
and risk reduction. If the vast majority of sites agree to the reforms 
we think are necessary, it is possible that the $800 million may become 
over-subscribed. In this event, the administration is prepared to 
support additional resources to complete reforms at remaining sites.
    The reforms proposed in the fiscal year 2003 budget request do not 
fully meet my own or the Secretary's expectations of an effective and 
revitalized EM program. Rather, it is a transitional budget. It 
contains some elements of the changes we plan to put in place, but it 
is really only a first step in the transition toward a more risk-based 
and efficient cleanup program. Therefore, in my testimony, I would like 
to take a step back from the details of the request to discuss the 
current circumstances of the EM program, the conclusions of the 
recently completed program review, and key elements of my 
implementation strategy. I will then address the priorities used to 
formulate the fiscal year 2003 request and provide highlights of the 
critical work we plan to accomplish in fiscal year 2003.
 laying the groundwork for fundamental change--the challenge before us
    The EM program is responsible for cleaning up the environmental 
legacy of the Nation's nuclear weapons program and government-sponsored 
nuclear energy research. The cleanup program is one of the largest and 
most diverse and technically complex environmental cleanup programs in 
the world. Responsible for the cleanup of 114 sites across the country, 
the EM program faces the challenge of:

        <bullet> safely dispositioning large volumes of nuclear wastes, 
        including over 340,000 cubic meters of high-level waste stored 
        at the Hanford, Idaho, West Valley and Savannah River sites;
        <bullet> safeguarding materials that could be used in nuclear 
        weapons, including over 2,000 tons of intensely radioactive 
        spent nuclear fuel, some of which is corroding, and more than 
        18 metric tons of weapons-usable plutonium;
        <bullet> deactivating and decommissioning several thousand 
        contaminated facilities no longer needed to support the 
        Department's mission; and
        <bullet> remediating extensive surface and groundwater 
        contamination.

    The painful truth is that EM has not effectively managed this 
daunting task. Ironically, EM's own indicators would say we are doing 
well. We have met over 90 percent of our regulatory milestones, and our 
contractors routinely receive over 90 percent of their available fee. 
In large part, however, we are measuring process, not progress. This 
must change.
    To illustrate the magnitude of the challenge, EM's own internal 
estimates of what it will cost to complete cleanup continue to grow. 
EM's most recent life-cycle cost estimate, based on current plans, is 
$220 billion, an estimate that could easily increase to more than $300 
billion without breakthrough changes in the program. Additionally, only 
about one-third of the EM program budget today is going toward actual 
cleanup and risk reduction work. The remainder is spent on maintenance, 
fixed costs, and other activities required to support safety and 
security.
    The schedule estimates from just a few years ago have also proven 
to be overly optimistic. Over just the past few years, the estimated 
closure or cleanup completion dates have slipped for numerous sites. 
Moreover, the three largest sites--Savannah River, Idaho National 
Engineering and Environmental Laboratory, and Hanford--have such long-
term completion dates (2038, 2050, and 2070, respectively) that the 
estimates for cost and schedule are highly uncertain and subject to 
change.
    While most of the risks at these contaminated sites do not pose an 
imminent threat to public health and the environment, the complacency 
and inaction of the status quo will eventually have startling 
consequences. DOE spends billions of dollars each year simply to keep 
these materials safe and secure. Each year we do not move aggressively 
to reduce and remove these risks, they become costlier to manage and 
maintain. On the present course, we face the real possibility that we 
will never meet our cleanup and closure goals.
    While these outcomes are not acceptable, they are also not 
inevitable. This administration believes firmly that reform of the 
complex is possible, as well as urgent. We have seen examples even 
under the current approach where an accelerated risk-based approach has 
yielded concrete results that have served the public interest in 
cleanup and closure. At Rocky Flats in Colorado, a risk-based 
management approach, effective contracting strategies, and an overall 
sense of urgency have produced real progress towards cleanup and 
closure. This site has worked hard and struggled to be at the point it 
is today. That same effort is needed throughout the DOE complex.
    I believe with appropriate management and with your support, we can 
replicate these successes throughout the Nation.

                CONCLUSIONS OF THE TOP-TO-BOTTOM REVIEW

    Last year, the Secretary of Energy told Congress that the status 
quo in the EM cleanup program was unacceptable. He directed me to 
conduct a comprehensive review of the cleanup program with the goal of 
quickly improving performance. The team I formed to conduct the review 
concluded that there are numerous structural and institutional problems 
that are driving EM's poor performance. The report also included 
several specific calls to action to remedy this situation. In the 
broadest sense, the report urged that the EM program transform its 
mission from managing risk to reducing and eliminating risk. The report 
was issued on February 4, 2002. I am moving out aggressively to 
evaluate and act on the recommendations of this report and work with 
Congress, the States, and stakeholders to develop mutually acceptable 
approaches.
    The recommendations, and the problems they address, generally fall 
into four areas:
    1. Improve DOE's Contract Strategy and Management. The issue here 
is both our overall contracting strategy and how we manage contracts. 
The report concludes that EM's contracting approach is not always 
focused on accelerating risk reduction and applying innovative 
approaches to doing work. Effective contracting practices are essential 
to improve program performance. The EM review concluded that the 
processes for contract acquisition, establishment of performance goals, 
funding allocation, and government oversight are managed as separate, 
informally related activities rather than as an integrated corporate 
business process. This results in performance standards that are 
inconsistently and ineffectively applied. The report recommends that 
EM:

        <bullet> Improve the quality of the contract solicitation 
        process to attract broader contractor participation.
        <bullet> Require clarity in contracts with respect to work 
        scope, regulatory requirements, and end points.
        <bullet> Clearly identify the nature and extent of uncertainty 
        and risks, and align the type of contract accordingly.
        <bullet> Increase emphasis on real risk reduction by focusing 
        fees on end points rather than intermediate milestones.
        <bullet> Eliminate the use of subjective performance measures.

    The report recommends that DOE undertake a review of all existing 
contracts for their alignment with these principles and revise or amend 
those contracts to improve this alignment. Our point here is not to 
criticize or penalize contractors. Obviously, they did what DOE asked 
for. But I do not believe that we asked for the right things, and we 
did not create contract vehicles that pushed them to perform. We must 
begin implementing more aggressive contracts--ones that genuinely 
challenge them to achieve and to shoulder more risk--while providing 
significant profit for truly outstanding performance. But, conversely, 
it means that mediocrity will reap no rewards.
    2. Move EM to an Accelerated, Risk-Based Cleanup Strategy. EM's 
cleanup strategy is not based on a comprehensive, coherent, 
technically-supported risk prioritization. The framework, and in some 
cases, the interpretation of DOE orders and requirements, environmental 
laws, regulations, and agreements have resulted in the diversion of 
resources to lower-risk activities and over-emphasis on process. To 
move towards a more risk-based approach:

        <bullet> Cleanup work should be prioritized to achieve the 
        greatest risk reduction at an accelerated rate.
        <bullet> Realistic approaches to cleanup should be based on 
        technical risk evaluation, anticipated future land uses, points 
        of compliance, and points of evaluation.
        <bullet> Cleanup agreements should be assessed for their 
        contribution to reducing risk to workers, the public, and the 
        environment.

    The report recommends that DOE initiate an effort to review current 
DOE orders and requirements as well as regulatory agreements, and 
commence discussions with States and other regulators with a view to 
achieving regulatory agreements that accelerate risk reduction based on 
technical risk evaluation. The issue here is not to avoid compliance 
with regulatory agreements. The issue here is that we need to work with 
States and regulators to ensure that these agreements truly match up 
with a risk-based approach. We are determined to begin this effort now.
    3. Align DOE's Internal Processes to Support an Accelerated, Risk-
Based Cleanup Approach. The review concluded that EM's internal 
business processes are not structured to support accelerated risk 
reduction or to address its current challenge of uncontrolled cost and 
schedule growth. We must instill a sense of urgency in the system. If 
we are to accelerate the cleanup and reduce risk, we must transform 
EM's processes and operations to reflect this urgency and time 
sensitivity. Some specific actions include:

        <bullet> Improve work planning to increase the up-front 
        understanding and planning of work and apply project management 
        principles to all core work areas.
        <bullet> Expand the application of Integrated Safety Management 
        (ISM) to higher-level work planning, where decisions are made 
        about what work is appropriate and desirable and breakthrough 
        safety improvements may occur.
        <bullet> Develop ``lessons learned'' at a corporate level to 
        provide a frank description of significant project issues, with 
        corporate lessons learned required for all EM managers.
        <bullet> Apply DOE requirements in a manner consistent with the 
        work at hand, clarifying requirements relevant to cleanup and 
        streamlining the process for interpreting DOE orders and 
        requirements for more complex cleanup projects.
        <bullet> Accelerate the closure of small sites. With relatively 
        little additional investment, the risks at remaining small 
        sites can be eliminated sooner, and the life-cycle costs 
        reduced.

    4. Realign the EM Program so its Scope is Consistent with an 
Accelerated, Risk-based Cleanup and Closure Mission. The current scope 
of the EM program includes activities that are not focused on or 
supportive of an accelerated, risk-based cleanup and closure mission. 
EM should redeploy, streamline, or cease activities not appropriate for 
accelerated cleanup and closure. Specifically, EM should:

        <bullet> Accelerate the consolidation of activities that 
        require safeguards and security infrastructure to enhance 
        safety and security, reduce threats, reduce risk, and save 
        money.
        <bullet> Refocus the EM technology program to directly address 
        the specific, near-term applied technology needs for cleanup 
        and closure.
        <bullet> Eliminate or transfer from EM those activities not 
        directly supporting an accelerated, risk-based cleanup and 
        closure program.

                     MAKING CHANGES ON A FAST TRACK

    The review identified specific issues and recommendations that will 
allow us to move aggressively to change the EM program's approach to 
its cleanup and closure mandate. Similarly, the sites have contributed 
their own site-specific strategies and proposals to refocus and 
accelerate their efforts. All the recommended changes are designed to 
focus the program on one primary result--reducing risk to public 
health, workers, and the environment on an accelerated basis.
    We have already instituted some changes, and will continue to take 
action as soon as possible and practicable to bring about the changes 
that are needed. We have deployed special teams to most of our sites to 
work with DOE, our contractors, State and Federal regulators, and other 
stakeholders to develop revised cleanup plans. I am very pleased that 
we signed a letter of intent with the Hanford site in Washington that 
will enable us to significantly accelerate our work there and achieve 
more risk reduction. We are engaged in similar discussions at the 
Savannah River, Oak Ridge, and Brookhaven sites, and I expect to 
achieve similar results at these sites over the next few months.
    Additionally, we are already acting to ensure our contracts align 
with and support our accelerated cleanup mission. We recently announced 
that a new contract will be competed and awarded for cleanup of the 
Mound Site in Ohio. The new contract, streamlined and focused on 
reducing risk, will emphasize completing cleanup safely and more 
quickly, with a goal of transferring the site to the community by 2006 
or earlier.
    Similarly, as the review makes clear, EM needs to get its own house 
in order to ensure its internal processes and policies support the 
urgency of its mission. As part of our human capital strategy, we have 
just completed a reassignment of 40 percent of the program's 70 Senior 
Executives in order to strengthen, streamline, and remove unnecessary 
layers from the leadership of the program. Our purpose is to better 
leverage the unique talents of these executives, force better 
integration between the field and headquarters on the challenges 
confronting the program, and to stimulate new thinking and creative 
solutions to the cleanup.
    We are taking actions to further augment the Nation's security 
through the consolidation of nuclear material at EM sites, a key 
recommendation of the top-to-bottom report. We are working in 
partnership with the National Nuclear Security Administration to ensure 
that our nuclear material is safe and secure. This accelerated effort 
will lead to more secure protection of our nuclear material inventory 
while reducing the expensive cost of storage and protection at multiple 
sites.
    This is just a beginning. We will continue to work quickly to 
implement the recommendations of the top-to-bottom report.

                  THE FISCAL YEAR 2003 BUDGET REQUEST

    A key element for implementing the review's recommendations is to 
ensure that the program's funding is properly aligned to support needed 
change. The fiscal year 2003 budget request is a first step towards 
achieving that alignment. It incorporates some new ways of doing 
business and includes a significant structural change designed to 
foster agreement on expedited, more risk-based cleanup approaches.
    EM's fiscal year 2003 budget request of $6.7 billion is essentially 
the same level as appropriated for fiscal year 2002. The budget request 
is composed of two parts: a base budget request and a new Environmental 
Management Cleanup Reform Appropriation request of $800 million to 
implement fundamental changes to the cleanup program.

                      CLEANUP REFORM APPROPRIATION

    EM is requesting a new Cleanup Reform Appropriation that is 
critical to beginning implementation of the recommendations of the top-
to-bottom review. While the overall size of the request is consistent 
with past years, DOE is requesting from Congress new discretion in 
allocating this money among the sites, and for specific projects within 
sites. We believe that this approach is essential to meeting the common 
goal of States, taxpayers, and DOE accelerated cleanup and risk 
reduction. DOE realizes that we are asking a great deal from Congress 
with this request, and we are eager to work with you to accomplish this 
goal.
    The Cleanup Reform Appropriation would in essence be a performance 
tool--a pool of funds available to those sites that both demonstrate 
their ability to realign to a more accelerated risk-based approach, and 
provide to DOE specific proposals consistent with this new approach 
that achieve greater risk reduction, faster.
    We are now in the midst of reassessing and realigning our 
activities to enable a more risk-based, accelerated cleanup approach. 
It is our goal to develop agreements at each site on a specific set of 
changes and commitments by all parties that will reflect this new 
approach. I have no doubt that this process may often be difficult. 
Everyone will have to let go of certain things they favor in the 
broader public interest of achieving more risk reduction faster. 
Indeed, the top-to-bottom review concluded that every player in the 
cleanup business needs to make changes to enable a more effective 
cleanup strategy.
    Once these strategic agreements are reached, we will develop 
specific plans that implement this new approach. These plans should be 
supported by the State and Federal regulators, should align with a 
revised contract and regulatory strategy, and should reflect a risk-
based accelerated approach. These plans might be new projects not 
previously in the sites' baselines. They might be modified, accelerated 
versions of existing projects. I am also open to supporting projects 
that already reflect an accelerated risk-based approach, but where 
additional funds can achieve even greater risk reduction at a lower 
life-cycle cost. Each project proposed for the cleanup fund would have 
a new cost savings and funding profile. Funds from the Cleanup Reform 
Appropriation would then be made available to fund or supplement 
existing funding from the base budget for the project. The appropriate 
congressional committees will be informed of the agreement and the 
commitment of funds from this appropriation. The funds identified with 
the acceleration will be merged with the funds in the parent 
appropriation (e.g., Closure, Site/Project Completion, Post-2006) of 
the old activity.
    This new appropriation will provide the stimulus necessary to 
encourage our sites, our contractors, DOE headquarters and program 
elements, and State and Federal regulators to quickly forge agreements 
to enable more effective cleanup approaches. An example of the 
candidate projects identified during the review for alternate 
strategies that should produce results quicker and with substantial 
life-cycle savings are high-level waste vitrification projects. The 
review identified alternative approaches to treating high-level waste 
that would limit vitrification to the high-risk component and pursue 
alternative treatment approaches for lower-risk components. These 
alternative approaches offer the potential of earlier true risk 
reduction and could save the taxpayers tens of billions of dollars.
    In summary, this Cleanup Reform Appropriation provides EM with the 
tool we need to jump-start our reform agenda. It enables DOE, Congress, 
communities, regulators, and contractors to work together to achieve 
our common goal of accelerated cleanup and risk reduction. It also 
maintains for Congress the necessary oversight and checks and balances 
to ensure that this fund is managed prudently, and consistently with 
our common goals.

                          BASE BUDGET REQUEST

    The base budget request would protect our workers, the public, and 
the environment while continuing cleanup progress across the DOE 
complex. As I said earlier, this fiscal year 2003 budget is a 
transitional budget. It does not fully reflect the changes we have 
proposed and will be implementing throughout the DOE complex over the 
next several months. The progress towards cleanup and risk reduction 
reflected in this request does not meet either my, or the Secretary's, 
expectations for this program. But it does provide us with the set of 
tools we need to begin the process of improving EM's performance. In 
building the request, the Department applied the following principles 
and priorities:
    Protect human health and the environment: The budget request 
continues to place the highest priority on protecting the health and 
safety of workers and the public at all DOE sites. We expect 
outstanding safety performance as a matter of course. We demand this 
from our contractors and ourselves, and we will accept nothing less.
    Surveillance and maintenance: Surveillance, maintenance, and 
support activities needed to maintain waste, materials, facilities, and 
sites in a safe and stable condition are fully funded in the base 
budget. This funding maintains the sites in an operating and safe 
condition. Examples of these types of activities in the request 
include:

        <bullet> Safe storage, configuration, and accountability of 
        nuclear materials and spent nuclear fuel at sites such as the 
        Idaho National Engineering and Environmental Laboratory 
        (INEEL), the Savannah River Site in South Carolina, and the 
        Hanford Site in Washington;
        <bullet> Safe storage of high-level, mixed, and low-level 
        waste, as well as management and disposal of hazardous and 
        sanitary waste, across the DOE complex, including tank safety 
        activities at the Hanford, INEEL, and Savannah River high-level 
        waste tank farms;
        <bullet> Long-term stewardship at more than 35 sites where 
        cleanup has been completed but where some contaminants still 
        remain. In fiscal year 2003, this will include Weldon Spring in 
        Missouri, which is expected to complete cleanup and transition 
        to long-term stewardship by the end of fiscal year 2002;
        <bullet> Maintaining the Portsmouth Gaseous Diffusion Plant in 
        Ohio in cold standby, including uranium deposit removal;
        <bullet> Surveillance and maintenance of more than 62,000 
        depleted uranium hexafloride and other uranium cylinders 
        located at gaseous diffusion plants in Kentucky, Ohio, and 
        Tennessee;
        <bullet> Surveillance and maintenance of facilities, including 
        excess contaminated facilities pending deactivation and 
        decontamination;
        <bullet> Groundwater monitoring and continued operation of 
        treatment systems; and
        <bullet> Essential landlord functions.

    Safeguards and security: This is first EM budget request since the 
events of September 11. Our Nation is more aware than ever before of 
the critical need to maintain vigilance in our domestic security and to 
protect against terrorism. The EM program is responsible for many tons 
of surplus nuclear material. The budget request provides funding at 
approximately the fiscal year 2002 appropriation, reflecting both 
increased and decreased safeguards and security needs. In particular, 
reduced requirements in Environmental Management Defense Facilities 
Closure Projects are commensurate with the planned removal of special 
nuclear materials from Fernald and Rocky Flats sites, and reflect 
completion of security upgrades in Miamisburg this year.
    Accelerated cleanup and closure of Rocky Flats, Fernald, and Mound: 
The request supports the work necessary to continue accelerated cleanup 
and closure of the Rocky Flats Environmental Technology Site in 
Colorado. The request maintains a focus on closure of the Fernald 
Environmental Management Project and the Mound Site in Ohio. Closing 
these sites will eliminate significant risk and financial liabilities 
that EM cannot afford to maintain. Our base budget request also funds 
supporting activities at sites such as the Savannah River Site and Oak 
Ridge in Tennessee that are critical to achieving closure of these 
three major sites.
    At Rocky Flats, the fiscal year 2003 request keeps the site on 
track for closing in 2006. In fiscal year 2003, it supports:

        <bullet> Eliminating the Security Protected Area. In fiscal 
        year 2001, special nuclear material was consolidated into a 
        single building, significantly reducing the size of the 
        Protected Area. This both reduced security costs for the 
        buildings being dismantled and improved productivity by 
        reducing the time it takes work crews to gain access to these 
        facilities. In fiscal year 2003, based on the current estimates 
        for shipping nuclear material off-site, we will be able to 
        eliminate the Protected Area entirely. Cost savings can than be 
        shifted to active cleanup, rather than maintaining costly 
        safeguards and security measures;
        <bullet> Shipping 3,700 cubic meters of transuranic waste to 
        WIPP, and 35,000 cubic meters of low-level waste and 3,600 
        cubic meters of low-level mixed waste for disposal, subject to 
        receiver site availability;
        <bullet> Completing shipments of plutonium metals and oxides 
        off-site; and
        <bullet> Continuing deactivation and decontamination (D&D) 
        activities for Buildings 371, 707, 771, and 776/7, and 
        associated remediation work.

    At Fernald, the fiscal year 2003 request supports:

        <bullet> Continuing remediation of the silos;
        <bullet> Shipping about 93,500 cubic meters of waste to a 
        permitted off-site commercial disposal facility; continuing 
        packaging and on- or off-site disposition of mixed and low-
        level wastes; and placing 43,000 cubic meters of remediation 
        waste in the on-site disposal facility; and
        <bullet> Continuing D&D of the Pilot Plant Complex and 
        Multicomplex, and initiating D&D of the Liquid Storage Complex.

    At Miamisburg (Mound), we will continue efforts to cleanup 
contamination and transfer land to the community for economic 
development. We have already transferred 121 acres, or about 40 percent 
of the site, for this purpose. The fiscal year 2003 request supports:

        <bullet> Continuing acceleration of site cleanup and transfer 
        of site properties by completing ``critical path'' deactivation 
        and decontamination activities in the Main Hill Tritium 
        facilities (i.e., R, SW, and T Buildings);
        <bullet> Completing site preparations and beginning excavation 
        of thorium- and polonium-contaminated soil (i.e., Release Site 
        66), the largest contaminated soil excavation project at Mound; 
        and
        <bullet> Shipping over 19,000 cubic meters of contaminated soil 
        and debris for off-site disposal.

    Increased shipments to the Waste Isolation Pilot Plant (WIPP): The 
request maintains support for a significantly increased rate of 
shipments of transuranic waste to WIPP. The WIPP facility in New Mexico 
is critical to EM closure and completion goals at other sites. For 
example, WIPP is critical to the Department's commitment to the State 
of Idaho to ship 3,100 cubic meters of transuranic waste out of the 
State by December 2002, and to meeting the schedule for closure of 
Rocky Flats. In fiscal year 2002, the Department provided an additional 
$12 million to WIPP to increase by almost 50 percent the rate of 
shipments. The fiscal year 2003 request supports:

        <bullet> Continued increased shipments of contact-handled 
        transuranic waste; and
        <bullet> Continued progress toward beginning shipments of 
        remote-handled waste, including submission of regulatory 
        documentation to the New Mexico and EPA regulators and facility 
        upgrades and modifications needed for remote-handled disposal 
        operations.

    Continuing progress: EM will continue to make progress in 
completing cleanup projects in accordance with existing approaches and 
under existing agreements. The Department will continue efforts to 
clean up release sites; to treat, store, and dispose of hazardous and 
radioactive waste; and to decontaminate and decommission facilities at 
many sites. However, we expect to accelerate the pace of progress of 
many of these projects as we begin to implement the top-to-bottom 
review recommendations. For example, the request provides funding to:

        <bullet> At the Hanford site, continue construction of the 
        Waste Treatment Plant to vitrify high-level waste. By the end 
        of fiscal year 2002, we will have begun construction of two of 
        three major facilities, and completed 50 percent of the 
        engineering and design for all three. Work in fiscal year 2003 
        will focus on continuing construction of the vitrification 
        facility, starting construction of the pretreatment facility, 
        and purchasing major equipment, as well as designing the feed 
        delivery system.
        <bullet> At INEEL, begin operation of the Advanced Mixed Waste 
        Treatment Facility, treat about 1,625 cubic meters of 
        transuranic waste, and complete construction and begin 
        operation of the CERCLA disposal facility for remediation 
        waste, as well as continue operations to move spent nuclear 
        fuel to safer storage.
        <bullet> At the Savannah River Site, continue stabilization of 
        high-risk nuclear material solutions in the canyons; continue 
        activities to suspend and deactivate F-Canyon; complete 
        construction work to stabilize and package plutonium for long-
        term storage, and the transfer of americium/curium solutions to 
        the high level waste tanks for eventual vitrification.
        <bullet> At the Oak Ridge Reservation, complete major risk 
        reduction remediation projects, including excavation, 
        treatment, and off-site disposal of highly contaminated 
        sediments from ORNL surface impoundments, and excavation of 
        uranium contaminated soils from the Y-12 Boneyard/Burial site 
        and disposal in the new on-site disposal cell. The request also 
        continues D&D work at East Tennessee Technology Park, including 
        completing the dismantlement of two of the three remaining 
        cascade units in Building K-31.
        <bullet> At the Paducah Gaseous Diffusion Plant in Kentucky, 
        complete high priority remedial actions, including cleanup of 
        the North/South diversion ditch and continue scrap metal 
        removal and groundwater actions, as well as characterization of 
        high priority DOE Material Storage Areas.
        <bullet> At the Portsmouth Gaseous Diffusion Plant, complete 
        high priority remediation projects, and continue groundwater 
        remediation, storage yard removal, and disposal of mixed low 
        level waste.
        <bullet> At West Valley in New York, continue decontamination 
        of spent fuel processing and storage facilities, and continue 
        construction of the Remote-Handled Waste Facility that will be 
        used to prepare transuranic and other high-activity waste for 
        shipment and disposal. We will complete all vitrification 
        processing operations and deactivation of vitrification 
        facilities, including shutdown of the melter, by the end of 
        fiscal year 2002.
        <bullet> At the Nevada Test Site, continue low-level waste 
        operations in support of the DOE complex and priority 
        remediation work, including modeling activities at the 
        Underground Testing Area, and remediation of 13 industrial 
        sites.
        <bullet> At Brookhaven National Laboratory in New York, 
        continue high priority groundwater monitoring and remediation, 
        and finalize and begin implementing the cleanup plan for the 
        Peconic River.

    Focusing on cleanup: This budget request is the first reflection of 
a key tenet that success for the EM program requires a laser-like focus 
on its core mission of cleanup and closure. If activities do not 
support that mission, then EM should not be doing them. This budget 
request begins to implement this tenet by shedding several activities 
traditionally funded by EM, but which are not essential to achieving 
the Department's cleanup goals. For example:

        <bullet> The request reflects a significant reduction in 
        funding in headquarters-controlled and -managed accounts. 
        Overall, funding for such headquarters-based programs and 
        support services will be reduced to almost 50 percent of the 
        fiscal year 2002 levels. While our request significantly 
        reduces support services for headquarters-directed activities 
        related to such programs as pollution prevention, hazardous 
        worker training, and long-term stewardship, these functions 
        will continue at some level as appropriate, but will be carried 
        out by Federal employees rather than contractors.
        <bullet> The budget request also reflects major shifts in the 
        structure of the EM technology program to focus efforts on 
        specific, short-term applied technology needs for cleanup and 
        closure. These changes are discussed below.
                   refocusing science and technology
    EM's fiscal year 2003 request of $92 million for science and 
technology is significantly less than the $204.7 million appropriated 
in fiscal year 2002. This is the result of a dramatic shift in the 
program structure to ensure it is clearly focused on meeting cleanup 
and closure needs.
    In parallel with the broader review of the EM program, we have also 
undertaken an in-house evaluation of EM's Science and Technology (S&T) 
Program. As a result of this review, we concluded that an integrated 
technology program is an essential element for successful completion of 
the EM cleanup effort and for post-closure requirements. However, for 
the program to have maximum impact, it must be streamlined and highly 
focused on a limited number of critical, high-payback activities where 
real, measurable improvements can be gained versus a larger number of 
activities that offer only marginal improvement. It must be end-point 
and risk-driven to provide the necessary technical basis for future 
decision making.
    Toward this end, we are reorienting the S&T program to focus on two 
primary areas: (1) direct technical assistance to closure sites to 
ensure they have the necessary technology and technical support to meet 
closure schedules, and (2) alternative approaches and step improvements 
to high-risk, high-cost baselines to ensure all possible alternatives 
have been evaluated and that workable alternatives are available and 
used as the cleanup progresses. EM will execute this new approach using 
streamlined management structures and processes.
    As the first step, we are thoroughly reviewing ongoing activities 
to determine their applicability to the new areas. By June 30, 2002, we 
expect to have decisions on these activities and an operational plan 
for transitioning and managing S&T activities in fiscal year 2003 and 
beyond. We believe this realigned S&T program will better suit the 
Department's needs.

                               CONCLUSION

    The changes that I envision are not changes on the margin. The 
reforms undertaken thus far are but a beginning, and must permeate the 
entirety of the scope and management of this program to create and 
sustain meaningful measurable success. They are a complete overhaul of 
the Department's environmental cleanup program that cannot afford to 
wait.
    I believe we face an historic opportunity to refocus, reshape, and 
transform this program. All of us, and all of our regulators and 
stakeholders throughout the country, want the same things from this 
program: accelerated cleanup and risk reduction. Making the changes we 
propose will not be easy. It will involve painful changes in the way 
all of us do business. I believe we have no alternative. The status quo 
is not an option. Muddling through and hoping for something different 
later is not an option. We cannot wait for a future time in the hope 
that making these changes might be easier.
    This is our moment. If we do not start to do what is needed now, we 
will have failed the taxpayers of today and the future generations of 
tomorrow.
    This is a marathon, not a sprint. This is not a process that will 
be completed overnight, but neither can we afford to delay. Delay only 
leads to increased cost and lack of real risk reduction. Eventually, 
delay will turn festering high cost problems into immediate public 
health risks.
    If we are ultimately to be successful, we need your help. I ask 
your support for the budget request before you. It is a critical first 
step to achieving our mutual goal of completing the cleanup of the 
nuclear weapons sites. I look forward to working with Congress and 
others to achieve this goal.

    Senator Reed. Thank you very much, Madam Secretary.
    We will have a round of questions for 6 minutes each and, 
if appropriate, a second round. Let me begin by focusing again 
on the new cleanup reform initiative. Could you give us a 
description of the goals of this account, this new program?
    Ms. Roberson. In general terms, the goal of this account is 
to reinvigorate our efforts to learn from past experience and 
past investments. For instance, you cited our science and 
technology program. We have a number of technologies that we 
have made investments in, and we want to evaluate those 
investments and their results and determine whether those 
technologies are ready to be deployed to help address existing 
problems that we have otherwise not been able to overcome.
    So the focus of the program is to provide the opportunity 
to reinvigorate the program, refocus on our priorities, 
streamline and de-layer the organization, and apply our 
resources more directly and visibly to the work before us.
    Senator Reed. There is some discussion or at least the 
suggestion that $430 million of this $800 million fund has been 
committed already to the Hanford site in Washington. Is that 
correct?
    Ms. Roberson. We have reached an agreement with the State 
of Washington and the Environmental Protection Agency on an 
accelerated strategy for cleanup at the Hanford site and we 
have costed that out and our estimate is that it will require 
an additional $433 million.
    Senator Reed. Now, that leaves approximately $370 million 
in this new account. Is that enough to help meet compliance 
agreements or create incentives for the States and contractors 
to make additional progress at all the sites you have to deal 
with?
    Ms. Roberson. Yes, sir, Mr. Chairman, we believe it is. The 
administration's commitment is to amend its request if we reach 
agreements at more of our sites and the $800 million is not 
sufficient.
    Senator Reed. It also raises the question that the 
resources that you are targeting for this new initiative almost 
necessarily come in part from reductions in other areas. Does 
that leave you vulnerable to not meeting the court-ordered, 
court-mandated requirements that you face around the country?
    Ms. Roberson. Mr. Chairman, we believe that we can meet our 
cleanup agreement milestones. But our obligation is to go 
beyond that and address our environmental obligations more 
broadly and integrate all of our activities. The additional 
funding that we ask for allows us to meet our legal commitments 
as well as advance the cleanup more broadly.
    Senator Reed. So you are confident that you have enough 
resources to meet all of the ongoing legal obligations you have 
and that this $800 million is in effect a new initiative that 
would allow you to do things differently, accelerate cleanup, 
apply more effort at sites that are already being handled; is 
that fair?
    Ms. Roberson. Mr. Chairman, yes, I believe so. But I would 
also emphasize that we are not viewing the $800 million in 
isolation from the base budget. We believe it provides us the 
opportunity to also look at the activities built within the 
base budget, and that the cleanup strategies that are being 
developed at our sites across the complex look at the totality 
of the environmental obligations we have at each site.
    Senator Reed. Now, essentially, because the $800 million 
cannot possibly cover every site in this country, what are the 
criteria you are using to determine, for example, that the 
Hanford site would get $433 million and perhaps another site 
would get $20 million or $30 million or nothing?
    Ms. Roberson. Well, I would like to address that in general 
terms, but I would be glad to provide more detail in writing, 
because we have looked at each site. I am sure you are aware we 
have a baseline cleanup program at each site. So the primary 
criteria is more direct and timely resolution of those issues 
based upon experiences we have had, both successes and failures 
and lessons learned.
    So it would be different depending on the environmental 
issues at each site. But acceleration is the key.
    Senator Reed. Now, to qualify for this new money in this 
new cleanup reform account, must the States renegotiate their 
agreements with the Federal Government in some way? Is that 
part of the quid pro quo?
    Ms. Roberson. No, sir, that is not. No, sir, Mr. Chairman, 
that is not a requirement. Let me say two things. The 
agreements that we speak of in this program are not the Federal 
facilities agreement on cleanup. This is not an assault on 
those agreements. However, I will say, as in Hanford, in 
working with the State Department of Ecology and the EPA, the 
opportunities to accelerate that impacted milestones on those 
commitments we believe should be addressed and I believe that 
the regulators and States have agreed with that.
    But that is not the going-in position we have. We are not 
starting with the regulatory agreements. The scope that we are 
trying to reach strategic agreement on is our total 
environmental obligation at a site.
    Senator Reed. But is it implicit in your discussions with 
the States that they have to be flexible in terms of not only 
the agreements, but also perhaps the standard of cleanup, to 
get this extra money?
    Ms. Roberson. That is not implicit in our process. I can 
tell you what is implicit is that in many of our agreements we 
have fairly difficult processes to work through, and so there 
are cases where we are suggesting modifications to the 
structural processes.
    Senator Reed. But no modification to the standards? The 
standards remain the same?
    Ms. Roberson. I do not believe we have suggested in any 
State that we change the standard.
    Senator Reed. Just a final point, then. Essentially you are 
looking at a range of different facilities that have to be 
cleaned up. You are not implicitly or explicitly going in and 
demanding any changes in the cleanup agreements, any lowering 
of standards, anything else. How does the State then 
distinguish themselves, make themselves eligible for this 
money?
    Ms. Roberson. Well, what we are doing is sitting down with 
the regulators, both State and Federal, at each site and 
proposing and in some cases actually developing in conjunction 
with them a strategy to accelerate the cleanup. There will be 
cases where that does in fact affect milestones or structural 
processes built into the cleanup agreements. We would hope that 
they would consider those.
    But we are not coming in and plopping something down on the 
table and saying, you take it or leave it. That is not the way 
this process works.
    Senator Reed. In terms of this, the request for research 
and development, there is a substantial decrease, it appears, 
in the budget submission. One of the points that I made in my 
statement was that the future depends a great deal on new, 
innovative, and cost-effective techniques, and if we do not 
fund that type of research we will end up doing the same thing 
we did last year and the year before and spending probably more 
money.
    Why are we decreasing the research and development so much?
    Ms. Roberson. Well, our science and technology program is a 
key constituent of the accelerated cleanup and accelerated 
cleanup reform. In structuring our fiscal year 2003 budget and 
reforming the program, we placed our emphasis on integration of 
technology investments and accelerated cleanup. Our goals in 
that were to optimize the investments previously made in 
science and technology, to concentrate on high-risk, high-cost 
problems, and to streamline and delay the science and 
technology organization and processes both at headquarters and 
in the field.
    Second, consistent with this philosophy, the Environmental 
Management Science Program, which is focused on long-term 
research and development, has been transferred to the Office of 
Science's newly created environmental remediation program. The 
Science office is making significant investments in 
environmental research and will continue to work closely to 
meet EM's basic research needs for the future.
    Senator Reed. You seem to have anticipated that question, 
Madam Secretary.
    Senator Allard.
    Senator Allard. Thank you. Thank you, Mr. Chairman.
    I want to just reiterate again for the record, Madam 
Secretary, that the Rocky Flats site is scheduled to be cleaned 
up and closed by 2006, and in fact upon closure the site will 
be designated as a national wildlife refuge for generations to 
enjoy in the future. The 2006 closure date is about 60 years 
earlier than the baseline closure date that was anticipated in 
1996.
    Additionally, the 1996 baseline budget anticipated the 
Rocky Flats site spending over $30 billion to be cleaned up and 
closed. The 2006 closure plan will cost about $7 billion.
    I have about 15 questions I want to ask you in relation to 
Rocky Flats. I would just request that you simply give us a yes 
or no answer if you can. I do not mean to be hostile--lawyers 
use that with a hostile witness. I certainly do not view you as 
a hostile witness. In fact, I view you as a friend, but time 
may not give us an opportunity to get into a lot of the detail. 
But elaborate briefly, so I can just get it on the record here 
and stay within my time limit. I want to keep the chairman 
happy here.
    If all issues outside of Rocky Flats were kept on schedule, 
are there any issues specifically on the site that would cause 
a 2006 closure date to be missed?
    Ms. Roberson. The project currently is on schedule and 
slightly under cost, so we believe that we could achieve the 
intended scope.
    Senator Allard. Is the contractor completing their work on 
time and within budget to complete the cleanup and closure of 
Rocky Flats by 2006?
    Ms. Roberson. Yes, sir.
    Senator Allard. Is there adequate funding to complete the 
cleanup and closure of Rocky Flats by 2006?
    Ms. Roberson. With the continued support of Congress, yes, 
sir.
    Senator Allard. Are there any current or anticipated 
technical obstacles which would delay the completion of cleanup 
and closure of Rocky Flats by 2006?
    Ms. Roberson. Briefly, the project is very challenging. 
There are still some small waste streams that we are working 
on, but they are not critical to the schedule right now.
    Senator Allard. Are there any current or anticipated safety 
issues which would delay the completion of cleanup and closure 
of Rocky Flats by 2006?
    Ms. Roberson. No, sir.
    Senator Allard. Are there any current or anticipated 
problems with the work force at Rocky Flats which would delay 
the completion of cleanup and closure of Rocky Flats by 2006?
    Ms. Roberson. I do not believe so.
    Senator Allard. Are there any current or anticipated 
problems with the State of Colorado which would delay the 
completion and closure of Rocky Flats by 2006?
    Ms. Roberson. I do not believe so.
    Senator Allard. Are there any current or anticipated 
problems with the Department of Energy field office in Colorado 
which would delay that 2006 closure?
    Ms. Roberson. I do not believe so.
    Senator Allard. Are there any current or anticipated 
problems with the Department of Energy's Office of Environment, 
Safety, and Health (ES&H) which would delay completion?
    Ms. Roberson. I do not believe so.
    Senator Allard. Are there any current or anticipated 
problems with any other office within the Department of Energy 
which would delay the closure of Rocky Flats by 2006?
    Ms. Roberson. At this time, none that I am aware of, sir.
    Senator Allard. Thank you. Are there any current or 
anticipated problems with the Office of Management and Budget 
(OMB) or the White House which would delay the completion date 
scheduled for 2006 on Rocky Flats?
    Ms. Roberson. None that I am aware of.
    Senator Allard. Are there any current or anticipated 
problems with the EPA or the Defense Nuclear Facilities Safety 
Board (DNFSB) which would delay that closure beyond 2006?
    Ms. Roberson. No, sir.
    Senator Allard. Are there any problems occurring in either 
the Hanford site, Idaho, Oak Ridge, WIPP, or Yucca Mountain 
which you anticipate will delay the competition of cleanup and 
closure of Rocky Flats by 2006?
    Ms. Roberson. None that I am aware of.
    Senator Allard. Other than issues within the State of South 
Carolina, are there issues associated with any organization, 
State, nation, or other entity which you anticipate will delay 
the completion of cleanup and closure of Rocky Flats by 2006?
    Ms. Roberson. None that I am aware of.
    Senator Allard. So as I understand it, Madam Secretary, 
other than some issues not impacting the critical path, the 
only issue that will delay the closure of Rocky Flats past 
2006, and in fact places closure at risk for the foreseeable 
future, is the inability to ship certain materials to South 
Carolina?
    Ms. Roberson. Yes.
    Senator Allard. Mr. Chairman, in my view the responsibility 
for failing to clean up and close Rocky Flats by 2006 falls 
directly on the Governor of South Carolina. He not only puts 
the closure of Rocky Flats at risk, but the entire nuclear 
complex.
    Moving on to another question, the National Nuclear 
Security Administration has responsibility of shipping many of 
the EM waste types, including surplus plutonium. With the 
closure of sites like Rocky Flats and the proposed acceleration 
of cleanup of the four major EM sites, I think it is a very 
important thing that the shipping of those wastes occur on 
schedule.
    Are you confident that NNSA will keep the shipping of 
plutonium and other special nuclear material from EM sites on 
schedule?
    Ms. Roberson. Senator Allard, is this a yes-no?
    Senator Allard. No, you can elaborate on this one if you 
would, please.
    Ms. Roberson. OK. I have the opportunity and pleasure of 
working very closely with Dr. Beckner, and I believe they are 
committed. We are working very aggressively. Clearly, delays in 
this schedule can continue to challenge their ability to 
support the shipping campaign from Rocky Flats to Savannah 
River on the schedule that we have asked them to, but we 
clearly still have the opportunity to do so.
    Senator Allard. How do the delays caused by the State of 
South Carolina impact the shipping schedule of materials coming 
out of Rocky Flats?
    Ms. Roberson. Well, I think Dr. Beckner will be prepared to 
respond to that.
    Senator Allard. OK.
    Ms. Roberson. But continued delays simply put us in a 
position of having to make choices between how to use the 
transportation resources.
    Senator Allard. It looks like my time has expired, Mr. 
Chairman.
    Senator Reed. Do you want a second round?
    Senator Allard. Yes, in the second round I will catch up.
    Senator Reed. Senator Inhofe.
    Senator Inhofe. I hope everyone is observing a record has 
now been set. I spent 8 years in the House and now nearly 8 
years in the Senate. That was a total of 18 questions that were 
asked and answered in 6 minutes. That has never happened before 
in the history of the institution, and I do not know which one 
to compliment. But I make a request, Madam Secretary, that you 
not be so short and brief in response to my questions.
    First of all, I want to get back to what I said. I 
recognize also that some of the problems in the environmental 
standards and rules and regulations that we are experiencing on 
our various military installations are not on your end.
    There are some that are like water runoff. When you get 
into endangered species, for example, and the endangered 
species program in the Southeastern United States, the better 
job we do, the more serious the problem becomes. Camp Lejeune 
and Fort Bragg, where they have red ribbons around training 
areas because it is a suspected habitat of the red-cockaded 
woodpecker, and so the better job they do the more red ribbons 
there are.
    But there are many areas that do affect you. So what I 
would like to do is ask you for the record: When I heard that 
the legislation is being considered by the administration--and 
I have been talking about that and actually opposing it for 
quite some time. I am very interested in the status of that. It 
is something that directly affects the readiness of our 
military.
    I can tell you right now, in many areas the cost of 
compliance with environmental regulations in our training areas 
exceeds the cost of ammunition. So I see that as something that 
is very serious.
    Following up a little bit on what the chairman talked about 
on the adequacy of the budget, I have to ask the same question. 
You mentioned in your opening statement the $6.7 billion is 
essentially the same as last time, and yet the problems we know 
are greater now than they were last time. I took some time and 
went around to various installations such as the closing and 
the cleanup of McClellan, plutonium being the main villain 
there, and the guys that do not come here to testify but talk 
to me on the ground say that they do not know what kind of an 
end is in sight, but it was dramatically underestimated as to 
what the ultimate costs would be.
    I know it is very difficult to do that, but I think it is 
important for this committee to know as early as possible if 
you think it is not going to be adequate, the amount that is 
there. It just seems to me that if the amount is essentially 
the same as it was last time that it would be a problem.
    Is there anything you want to add to what you said about 
the budget and about problems that you see coming up?
    Ms. Roberson. Senator Inhofe, we are working very 
aggressively to do just as you just noted. We have deployed 
teams all over the complex and I personally am engaged in 
evaluating and discussing the strategy to accelerate the 
cleanup at every site. We are not at this moment in a position 
to identify whether more funds will be needed than the $6.7 
billion, but we are working very aggressively and we expect 
that we would be within the next 30 days.
    Senator Inhofe. I think it is important for another reason, 
too. There has been a lot of discussion about future BRAC 
rounds. One of the arguments against it is that we know that 
there is some time in the future when you close an installation 
where money savings will be achieved, but we know for sure that 
in the first 3 and 4 and 5 years it will be very expensive.
    So it is important for those of us who are going to be 
making a decision at a time when our military needs much more 
than the budget that the President has talked about, which I 
think he feels is the best he can do under the circumstances, 
that we be able to make that evaluation so we will know what 
that cost is going to be. So I think it is important for us to 
hear from you the unvarnished truth on these things.
    What was the statement you made when you said the cleanup 
of the environmental legacy of the Nation's nuclear weapons 
program and government-sponsored nuclear energy research? How 
critical is the role of Yucca Mountain in cleaning up these 
sites?
    Ms. Roberson. Well, we are clearly counting on opening up 
Yucca Mountain in our plans for disposition of certain 
materials in the Environmental Management program. The 
Department's long-term plans for high-level waste and spent 
nuclear fuel requires the opening of Yucca Mountain. Where the 
opening of the repository may be delayed, EM cleanup plans 
therefore might not be immediately affected, but clearly it 
would require some additional investment to look at storage and 
other alternatives for disposition, because we have no other 
alternatives right now.
    Senator Inhofe. The cost to that, have you done some 
analysis? Let us say for some unforeseen reason, which I do not 
think is going to happen, it should not become available; then 
what would the cost be?
    Ms. Roberson. I am sure the Department has, but I do not 
have that at hand with me, sir.
    Senator Inhofe. That would be a good thing for the record, 
to give some approximate cost there.
    [The information referred to follows:]

         Cost to EM Program if Yucca Mountain is not Developed

    The Department of Energy assessed the costs of not opening a 
geologic repository for high-level radioactive waste and spent nuclear 
fuel. The life cycle cost impacts to the DOE's Environmental Management 
program for not opening a repository are estimated to be $12.1 billion 
(in fiscal year 1998 constant dollars) over the next 100 years (Final 
Environmental Impact Statement for a Geologic Repository for the 
Disposal of Spent Nuclear Fuel and High-Level Radioactive Waste at 
Yucca Mountain, February 2002). These costs are primarily to place DOE-
owned spent nuclear fuel in safe long-term storage. After that 100 year 
period, the cost would be approximately $110 million per year (in 
fiscal year 1998 constant dollars), in perpetuity.

    Senator Inhofe. Lastly, let me read a statement here, which 
you have read, I am sure, a written statement made by Bruce 
Tarter, Director of Lawrence Livermore National Lab. He says: 
``All stored radioactive wastes will remain at Livermore 
because there will not be funding available for the disposal 
offsite. Lack of space will prevent the laboratory's hazardous 
wastes management department from accepting newly generated 
radioactive wastes. This will shut down critical work on 
stockpile stewardship.''
    I guess the question I would have is, do you feel that this 
could have an effect on some of the programs such as stockpile 
stewardship? What effect do you see?
    Ms. Roberson. I am not sure if he is referring to hazardous 
wastes, mixed waste, or transuranic (TRU) waste.
    Senator Inhofe. Hazardous waste.
    Ms. Roberson. Hazardous waste. The Department has actually 
invested in processing and treatment capability at Lawrence 
Livermore, which has not yet been started up. We are in the 
process of trying to accomplish that. So we do believe we will 
provide some relief for that site and for the lab with the 
startup of those operations.
    Senator Inhofe. Thank you, Madam Secretary.
    Ms. Roberson. Thank you.
    Senator Reed. Thank you, Senator Inhofe.
    Madam Secretary, I just have one question and then I will 
turn to Senator Allard. In our previous discussions you 
indicated that if there was a shortfall of funding that there 
would be a commitment or that it would be the commitment of the 
administration to get additional funds. How would those 
additional funds be authorized and appropriated? Are you 
considering, at least as a contingency, a supplemental 
appropriation for this year or next year?
    Ms. Roberson. As the administration identified in its 
budget submission to Congress, I believe that the Office of 
Management and Budget is considering both options, depending on 
how far along we can get in the development of these agreements 
and what the funding needs are. If we have agreement and can 
identify the funding need before the appropriations process 
proceeds too far, we would amend our request.
    Senator Reed. Very good. Let me ask an additional question. 
If the Price-Anderson indemnification authority is not extended 
for DOE defense contractors prior to August, will you be able 
to enter into any new contracts after August?
    Ms. Roberson. Well, should Price-Anderson expire without 
reauthorization, we would have to look to authority under other 
statutes to provide protection for the contractors. However, it 
is my understanding that authorities under other laws are 
limited and that authority comparable to that available under 
Price-Anderson does not exist.
    If the Department's Price-Anderson authority were not 
available for an extended period of time, we would have to 
reevaluate some of our planned procurement actions and 
strategies. Termination of existing contracts in favor of a new 
renegotiated competed contract may have to be postponed until 
that is resolved.
    Senator Reed. Thank you, Madam Secretary.
    Senator Allard.
    Senator Allard. Mr. Chairman, if I could follow up on your 
Price-Anderson question. I had two and you asked one of my two 
questions. The second one I have is are there any national 
security missions that would be at risk if Price-Anderson is 
not authorized?
    Ms. Roberson. Well, I think for the Environmental 
Management program the primary concern would be securing 
contract services to carry out the mission. So, with the 
assumption that the current contracts would stand, any new 
procurements we think would be at risk.
    Senator Allard. Your fiscal year 2003 budget requests 
greatly reduced funding for the long-term stewardship program. 
However, the DOE will not be able to walk away from its sites 
without putting in place long-term monitoring and surveillance 
plans which are accepted and approved by the host States. What 
are the anticipated costs associated with the long-term 
stewardship responsibilities and give us some insight into the 
program, if you would?
    Ms. Roberson. Again, I do not have a handy estimate for the 
total long-term stewardship program. The total I would like, if 
we can, to provide that to you in writing, sir.
    [The information referred to follows:]

                         Long-term Stewardship

    The fiscal year 2003 budget request for long-term stewardship 
provides the Department the resources necessary to perform the required 
post-cleanup remedy monitoring and maintenance activities at our 
completed sites. The Department cost-effectively manages over 30 
completed sites through our Long-term Surveillance and Maintenance 
program. Funding for this program has been consistent at approximately 
$5.5 million per year, which is sufficient to maintain our current 
long-term stewardship requirements at our sites.
    In addition, the fiscal year 2003 request allocates $1 million for 
long-term stewardship policy and guidance development. This level of 
funding is sufficient based on the technical capacity and performance 
of the Federal long-term stewardship staff. Previous year funding 
requests contributed to the successful completion of the report to 
Congress in fiscal year 2001, the National Long-Term Stewardship Study 
in fiscal year 2002, and the Strategic Plan in fiscal year 2002. We 
also expect to complete the Science and Technology road map in fiscal 
year 2003. Together these documents complete the foundational basis for 
our long-term stewardship efforts.  
    Costs associated with managing the long-term stewardship at sites 
include both the remedy monitoring and maintenance costs as well as the 
land management/land ownership costs. The Department is evaluating the 
possible transfer of Department-owned land, including land with 
associated long-term stewardship responsibilities, to Federal land 
management agencies, interested local or tribal governments, or 
appropriate private entities. Regardless of the ultimate disposition 
path, the Department will assure the land is managed consistent with a 
Federal land management mission and/or consistent with local values and 
needs (e.g., economic development, natural resource protection, or open 
space).
    In January 2001, the Department provided to Congress a report on 
long-term stewardship that included an estimate of approximately $100 
million (in fiscal year 2000 constant year dollars) per year for post-
closure care after cleanup at all sites had been completed. There are, 
of course, significant uncertainties associated with the estimate. 
Moreover, we are in the process of developing accelerated cleanup plans 
for the DOE sites that may change the cost of post-closure care.

    Ms. Roberson. We have not reduced our effort in long-term 
stewardship. The reduction in funding that we see in the fiscal 
year 2003 request is a reflection of our commitment to carry 
out our Federal responsibility in the long-term stewardship 
area. We have a team of Federal employees carrying out the work 
that had been distributed among a host of contractors, to 
refocus that program.
    We also refocused the policy-setting for long-term 
stewardship in headquarters to allow us to bring about 
effective lessons shared and consistency in the way we carry it 
out. So our emphasis on long-term stewardship has not been 
reduced one bit. In fact, it has increased.
    Senator Allard. I would like to go back to the chairman's 
comments on money that you set aside for cleanup reform. What 
you propose will require each site to review their current 
cleanup proposal and then to present to DOE an accelerated 
cleanup proposal. Can you summarize the administration's 
reasons for proposing the accelerated cleanup initiative?
    Ms. Roberson. The primary reason for proposing the 
accelerated cleanup initiative is a result of the insights 
gained in the evaluation of the program that Secretary Abraham 
commissioned that we titled the ``Top-To-Bottom Review.'' There 
were a number of insights in the Top-To-Bottom Review which led 
to this structured proposal. In simple terms, those were that 
we had opportunities to accelerate the work that we were not 
taking advantage of, that we had an infrastructure built up in 
the program that should be streamlined and refocused on getting 
the work done, and that in general terms the employees in this 
program and our contractors have to be reminded that our job is 
actually to reduce risk and complete the cleanup, and that 
these programs, although there are other obligations that come 
as the weapons program modernizes and other things happen, the 
Environmental Management program certainly has other projects, 
that we are not proceeding aggressively to address those 
environmental problems captured in the program today.
    Senator Allard. What has been the response by the States 
and regulators to this initiative?
    Ms. Roberson. I think the response has been cautious 
optimism. We have had discussions, I believe, with just about 
every State, with the regulators in every State in which we 
have a site, not just the large sites, the small sites as well. 
I have had the opportunity to speak with the regulators myself.
    At most of our sites there is a proposed accelerated 
strategy that has been put on the table. In many States it has 
been developed in conjunction with the regulators, and it is 
undergoing evaluation. In some cases it is undergoing 
evaluation by DOE because it was proposed from the site rather 
than with the involvement of headquarters.
    So I believe the reception has been cautious optimism, and 
I am appreciative of that and I think that Congress and the 
Department will benefit from that.
    Senator Allard. I am assuming that with this new 
accelerated cleanup you are going to rely on new technologies 
for waste processing. If so, how will the feasibility of these 
new approaches be tested without a strong science and 
technology program within EM?
    Ms. Roberson. We think we are maintaining a strong science 
and technology program. We also believe leveraging that 
research, basic research side of the program, with the Office 
of Science, who have the ability to look across all of DOE and 
help us identify those opportunities to advance, will help us 
even more.
    So even though the dollars are less, we actually believe 
our actions are strengthening our effort and our ability to 
invest in those science initiatives and technologies that are 
going to advance the program. There are two things we are 
doing: one, we are trying to leverage in the basic science area 
with the science program; and two, we are going through a 
review out there at the sites today, to be completed by the end 
of April, where we look at application of those technologies 
that we have already invested in.
    Senator Allard. Mr. Chairman, that completes my 
questioning.
    Senator Reed. Thank you very much.
    Thank you, Madam Secretary, for your testimony today and 
your work, not only in the past but in the days ahead. Thank 
you very much.
    Ms. Roberson. Thank you, sir.
    Senator Reed. Let me call the second panel forward. 
[Pause.]
    Our second panel today consists of Dr. Everet Beckner, 
Deputy Administrator for Defense Programs, and Mr. Ralph 
Erickson, the Associate Administrator for Facilities and 
Operation of the National Nuclear Security Administration. 
Welcome, gentlemen. Thank you for joining us today.
    In addition, we have written testimony from Admiral Bowman, 
the Deputy Administrator for Naval Reactors, that will be 
included in the record.
    [The prepared statement of Admiral Bowman follows:]

            Prepared Statement by Adm. Frank L. Bowman, USN

    Thank you for inviting me to submit a statement on Naval Reactors' 
fiscal year 2003 Department of Energy budget request.
    Let me also thank you for the faith you continue to place in my 
program and for protecting the core values that have been the hallmark 
of the program's success for more than 50 years. Through your diligent 
efforts and support, our nuclear fleet remains deployed around the 
world, fully engaged in the war on terrorism.
    We all recognize that the threats our country faces today are as 
great as anytime in the past. We also know these threats are not 
limited to hostile nations with fixed borders but can come from 
organizations with no fixed borders, operating under a veil of secrecy 
and outside the international community.
    Our ongoing campaign against terrorism underlines the importance of 
nuclear-powered ships in defending our national interests and in 
responding to aggression against the United States. As our Nation was 
being attacked on September 11, U.S.S. Enterprise was headed home, by 
way of a planned port visit. Upon seeing the attack on our country on 
CNN at sea, the captain ordered the rudder hard over and U.S.S. 
Enterprise reversed course and prepared for action as the first 
aircraft carrier in position to respond to the attack. Also, a nuclear-
powered submarine was within striking distance to attack targets in 
Afghanistan on September 11.
    When the President did order our military forces into action, 
aircraft from the nuclear-powered aircraft carriers, Enterprise and 
Carl Vinson, along with Tomahawk missiles launched from submarines and 
surface ships, carried out the initial attacks on targets in 
Afghanistan without any of the restrictions imposed on most land-based 
aircraft. Our nuclear fleet again demonstrated its capability to 
operate freely over much of the globe within striking range of the 
majority of targets.
    It is more than a commercial--our aircraft carriers are 4\1/2\ 
acres of sovereign U.S. territory from which we can conduct sustained 
combat operations quickly and without having to negotiate staging 
rights on foreign soil. Nuclear power enhances these warships' 
capability and flexibility to sprint where needed and arrive ready for 
around the clock power projection and combat operations. Sustained 
high-speed capability (without dependence on a slow logistics train) 
enables rapid response to changing world circumstances, allowing 
operational commanders to surge these ships from the United States to 
trouble spots or to shift them from one crisis area to another. Nuclear 
propulsion helps the Navy stretch available assets to meet today's 
worldwide commitments.
    Our 54 operational nuclear attack submarines (SSNs) in the Navy's 
inventory possess inherent characteristics such as stealth, endurance, 
mobility, firepower, and multimission flexibility. These 
characteristics allow submarines unfettered access to contested 
battlespace 24 hours a day, 7 days a week, for as long as required. 
Once there, submarines can covertly monitor adversaries without risk of 
political or military escalation--a particularly valuable capability 
since adversaries understand and can sometimes avoid reconnaissance. 
Should tensions escalate, submarines can also execute Tomahawk strikes 
from undisclosed locations without warning, often from inside an 
adversary's defensive umbrella.
    The Nation's 18 strategic ballistic missile submarines (SSBNs) 
continue to form the bedrock of the country's strategic deterrence. 
These submarines carry the majority of our nuclear triad's warheads and 
are the most survivable units in this force, at the least cost.
    Many of the impressive capabilities these ships possess were 
developed with funding that was supported by this subcommittee.
    While new development is important, the number-one priority is 
ensuring the officers and sailors that are out there defending our 
Nation's interests are operating safe, effective nuclear propulsion 
plants. This is where most of Naval Reactors' funding goes. Today, the 
Naval Reactors program supports 102 reactors in 54 operational attack 
submarines, 18 ballistic missile submarines, 9 nuclear-powered aircraft 
carriers, 4 training and prototype platforms, a deep submergence 
vehicle, and 1 attack submarine undergoing inactivation.
    The average age of these ships today is 16\1/2\ years, but this 
average will exceed 22 years by the end of the decade because so few 
new ships are being added to the fleet. As these ships age, they place 
a greater and greater demand on Naval Reactors' DOE budgets.
    Also, with the funding authorized by this subcommittee, we are 
designing better, more cost-effective nuclear propulsion plants for the 
future. When the Navy's new Virginia-class attack submarine is 
delivered, it will provide needed capability for the 21st century at an 
affordable price. The reactor plant design uses advanced component and 
systems technology--including the first core designed from the start to 
operate throughout the life of the ship. The Virginia-class also has a 
simplified plant arrangement with fewer components compared to previous 
designs, which reduces construction costs and will reduce future 
maintenance costs.
    The nuclear propulsion plant design of the new CVNX-class aircraft 
carrier is well underway. The CVNX reactor plant will provide 25 
percent more energy than Nimitz-class ships and substantially more 
electric generating capacity than the reactors and electric plant used 
in Nimitz-class ships. The extra energy will support higher operational 
tempos and future electrical load growth in the CVNX-class or longer 
life. We are designing and developing the CVNX nuclear propulsion plant 
without an increase in our DOE budget.
    To meet the increasing demands on our submarine fleet, Naval 
Reactors is working on a Transformational Technology Core (TTC) to 
deliver a significant energy increase to future Virginia-class ships 
with minimum impact to the overall ship design.
    New transformational capabilities will soon be coming to the 
nuclear-powered submarine fleet through the conversion of four Trident 
submarines into SSGNs. With these ships, the Navy will be able to give 
theater CINCs an extraordinary strike/Special Operating Forces 
capability with a flexible, survivable platform that simultaneously 
relieves the operational strain on our naval forces. Surface ships and 
attack submarines now carrying Tomahawks can be freed up for other 
missions--a force multiplier. To this end, we are on course for a UUV 
and Tomahawk demonstration in December 2002 on an Ohio-class submarine.

                          NUCLEAR FLEET ISSUE

    Let me briefly discuss the most important issue I see with our 
submarine fleet today--put simply, we do not have enough of them:

        <bullet> Today, we have only 54 operational SSNs--not enough to 
        meet all of the Unified CINCs' and the national intelligence 
        community's highest operational and collection requirements as 
        identified in the 1999 Joint Staff SSN report on force level.
        <bullet> Fleet operational data and Joint CINC demands clearly 
        show the mismatch between current force structure and 
        requirements. With force structure decreasing over the past 
        several years, submarine operational commanders have had to 
        reduce the number of deployed ships. In spite of the fact that 
        fewer SSNs have been available to deploy, the demand for 
        submarines continues to increase, especially since September 
        11.
        <bullet> The Navy is doing what it can to stretch existing 
        assets to meet requirements within today's budget and overall 
        priorities. For example:

                <bullet> We are refueling the first generation of the 
                Los Angeles-class submarines and extending these 
                submarines from 30 to 33 years. However, pushing the 
                hull life comes at a cost. Life extension exacerbates 
                the ``aging fleet'' problem. As the fleet ages, more 
                resources are required for support, and we have our 
                young submariners out there with outdated technology.
                <bullet> Additionally, to improve the operational 
                effectiveness of the submarine fleet, we have taken 
                steps to forward-base three submarines in Guam to 
                maximize their effectiveness by putting them closer to 
                the action.
                <bullet> To meet just the highest priority requirements 
                being placed on the submarine fleet, we should refuel 
                all remaining Los Angeles-class submarines. Two are 
                currently scheduled for inactivation. While this is the 
                right near-term decision to stem the bleeding for 
                submarine force restructure, refueling Los Angeles-
                class submarines does not solve the longer-term problem 
                with submarine force structure. Next decade, we will 
                decommission three or four Los Angeles-class submarines 
                per year as the boats built in the 1980s reach end of 
                service life.

    The only long-term solution to meeting force level requirements is 
to build more submarines. As we consider future budgets, we must 
include increasing the Virginia-class submarine build rate to meet the 
Nation's long-term force level requirement for attack submarines. The 
force level issue is ultimately a resource question. The practice of 
buying submarines one at a time will not achieve the submarine numbers 
we need for the future and is not a cost-effective way to buy anything, 
including submarines. Multiyear procurements of more than one ship per 
year would provide significant savings compared to one per year. 
Coupled with leverage from buying material in Economic Ordering 
Quantities, real savings can be achieved. Innovative contracting 
approaches should be encouraged in this period of tight resources for 
ship construction.
    As my good friend, Admiral Bob Natter, our Atlantic Fleet 
Commander, says, ``We can fight 'em here or we can fight 'em over 
there. I prefer to fight them over there.'' Well, me too. Everyone 
knows and agrees submarines will be an absolutely necessary part of 
fighting them over there. Deputy Secretary of Defense Paul Wolfowitz 
recently said we must exploit our military strengths as the war on 
terrorism continues. These strengths, he said, are intelligence, 
precision strike, and the ability to operate underwater. Well, that 
sounds just like submarines to me. We need to get going.

          FISCAL YEAR 2003 DEPARTMENT OF ENERGY BUDGET REQUEST

    Naval Reactors' fiscal year 2003 DOE budget request is $708 
million, an increase of only $5 million after inflation from fiscal 
year 2002 to fiscal year 2003. To put my budget request in perspective, 
it is less than 4 percent of the DOE budget. From the early 1990s to 
2000, Naval Reactors' budget has declined 32 percent in real terms, and 
has remained fairly steady for the last 3 years.
    Naval Reactors supports the 81 nuclear-powered warships that make 
up over 40 percent of the Navy's major combatants. This responsibility 
includes ensuring safe and reliable operation of reactor plants in 
these ships, enhancing the reactor plants' performance, as well as 
developing improved reactor plants to support the Navy's needs for the 
future.
    Sustaining today's 102 operating reactors requires continual 
analysis, testing, and monitoring of plant and core performance. 
Nuclear propulsion is a demanding technology--the harsh environment 
within a reactor plant subjects equipment and materials to the harmful 
effects of irradiation, corrosion, high temperature, and high pressure 
over a lifetime measured in decades. In addition, Naval Reactor plants 
must be rugged enough to accommodate ships' pitching and rolling; have 
the resilience to respond to rapidly changing demands for power; be 
robust enough to withstand the rigors of battle and shock; and be safe 
and easily maintainable by the sailors who must live next to them.
    Naval Reactors' DOE laboratories have made significant advancements 
in components, materials, core lives, and predictive capabilities. 
These advancements allowed the Navy to extend the service life and 
intervals between major maintenance periods for nuclear-powered 
warships and to reduce ship off-line time for maintenance. Increasing 
ship availability also increases the Navy's warfighting capability, 
while reducing maintenance costs. Added ship availability is 
particularly important in the face of fleet downsizing, because the 
operational demands on each remaining ship continue to increase. In the 
same vein, some development effort is devoted to ensuring Naval 
Reactors can meet the Navy's need to extend warship lifetime. Longer 
ship lifetimes are achievable because we are able to extend reactor 
plant lifetime. But longer lifetimes require more resources to support 
an older fleet.
    We are able to extend the lifetime of existing reactor plants 
because of the robust designs that resulted from solid engineering and 
design work done upfront. After significant additional engineering 
work, we determined that those reactor plants will be able to stay in 
service longer than we had originally intended. The engineering work to 
support those ships in their extended lives will continue during that 
period of life extension. For new reactor core and reactor plant 
designs, we are using the experience of the past 50+ years to 
incorporate improvements into both design and construction. It is 
imperative that we continue to deliver robust designs. It is equally 
important that we do the necessary engineering work now to ensure that 
those reactor plants are able to meet the needs of national defense 
now, and for the next several decades.
    New plant development work at the program's DOE laboratories is 
focused on completing the design of the next-generation submarine 
reactor for the Navy's new Virginia-class attack submarines and on 
continuing the design for a new reactor plant for the Navy's new CVNX-
class aircraft carriers.
    The design of the reactor plant for the Virginia-class submarine is 
nearly complete. Today, 100 percent of reactor plant components have 
been delivered--all on schedule to support ship construction, and 
within budget. The pre-reactor-fill testing and initial reactor fill 
for the lead ship have been completed. Reactor plant construction is 
over 98 percent complete, and overall lead ship construction is over 70 
percent complete and on schedule. Virginia is expected to go to sea in 
fiscal year 2004 and will provide needed capability for the Navy at an 
affordable price.
    CVNX is the first new carrier designed since the 1960s Nimitz-
class. The CVNX reactor plant will build on three generations of 
nuclear propulsion technology developed for submarines since Nimitz. 
This plant will incorporate needed advancements in warfighting 
capabilities and significantly reduce lifecycle costs.
    Reactor plant design work is on schedule to support the long design 
and manufacturing lead-times of reactor plant components needed for the 
CVNX ship construction schedule. Current design efforts include general 
arrangement design, system description and diagram development, and 
component design (such as final sizing and system interface 
evaluations). Long-lead reactor plant forging procurements began in 
fiscal year 2001, and the first reactor core procurements will begin in 
fiscal year 2003. Necessary system descriptions and general 
arrangements required for later design activities have been 
established.
    Major inactivation work on shutdown prototype reactors is nearly 
finished. The last of the prototype reactor plants at the Naval 
Reactors Facility in Idaho was defueled in fiscal year 1999. 
Inactivation and cleanup work at the Windsor site in Connecticut is 
complete, and regulatory approval for unrestricted release has been 
requested. The two shutdown prototype reactors at the Kesselring site 
in New York have been inactivated and defueled, and major dismantlement 
work will be completed in fiscal year 2002.

                      PROGRAM BUDGET REQUIREMENTS

    Naval Reactors' fiscal year 2003 DOE budget request of $708 million 
is adequate to meet Program requirements for now. To live within our 
means over the past several years, Naval Reactors has eliminated 
infrastructure, consolidated functions and facilities, revised work 
practices to become more efficient, and downsized the nuclear 
industrial base. To support higher priority efforts--fleet support, 
CVNX- and Virginia-class reactor plant designs, spent fuel processing, 
and prototype inactivation work--I have deferred important work, such 
as advanced reactor technology work and technology development for a 
submarine with electric drive, dismantlement and clean up of shutdown 
facilities and laboratory facility upgrades. It is not healthy to defer 
advanced concept development for a long period. This is the seed corn 
to meet future requirements and to ensure that we maintain our 
preeminent position in naval power. In addition, my laboratory 
facilities are approaching or exceeding the 50 year point and need 
upgrading and refurbishment. Also, we are beginning development of a 
new, high-energy core to meet fleet demands in the future. I am 
reviewing future resource requirements to determine what will be 
necessary to deliver technology the fleet will need in decades ahead.

   NAVAL REACTORS FISCAL YEAR 2003 DEPARTMENT OF ENERGY BUDGET DETAIL

    Naval Reactors' technical budget request is categorized into four 
areas of technology: Reactor Technology and Analysis, Plant Technology, 
Materials Development and Verification, and Evaluation and Servicing. 
This approach supports the integrated and generic nature of our DOE 
research and development work. The results of Naval Reactors DOE-funded 
research, development, and design work in the following technology 
areas will be incorporated into future ships, and retrofitted into 
existing ships.

        <bullet> The $228.6 million requested for Reactor Technology 
        and Analysis will fund continued work on the next generation 
        reactor for the Virginia-class submarine and development work 
        on the new reactor for CVNX-class aircraft carriers, and will 
        ensure the safe and reliable operation of existing reactors. 
        The reduction in operating plant maintenance periods places 
        greater requirements on thermal-hydraulics, structural 
        mechanics, fluid mechanics, and vibration analysis work to 
        accurately predict reactor performance and to identify and 
        avoid problems. Also, the continued push for longer life cores 
        means we will continue to operate reactors beyond our 
        operational experience base for many years to come. Developing 
        improved analysis tools and a better understanding of nuclear 
        data will allow us to predict performance more accurately 
        throughout extended core life. Other efforts in this area 
        include improving and streamlining core manufacturing processes 
        to reduce cost and hazardous waste, performing reactor safety 
        analyses, developing components and systems to support the 
        Navy's acoustic requirements, and developing improved shield 
        designs to reduce costs while preserving our record of 
        excellence in radiological and environmental control. In 
        addition, Naval Reactors is beginning concept studies on a new 
        high-energy core, the transformational technology core (TTC), 
        to support increased fleet operation requirements.
        <bullet> The $112.1 million requested for Plant Technology 
        provides funding to develop and analyze those systems that 
        transfer, convert, control, and measure reactor power to 
        maximize plant performance. The request reflects the goal of 
        enhancing steam generator performance, which will benefit CVNX 
        steam generators--the largest components developed to date by 
        Naval Reactors. Development of technologies in the areas of 
        chemistry, energy conversion, instrumentation and control, 
        plant arrangement, and component development will continue to 
        improve performance and support operational requirements. Naval 
        Reactors is also developing components to address known 
        limitations or to improve reliability of instrumentation and 
        power distribution equipment to replace older, technologically 
        obsolete equipment that is increasingly difficult to support.
        <bullet> The $136.2 million requested for Materials Development 
        and Verification will fund essential material analysis and 
        testing as ships are kept in service longer than originally 
        intended as well as part of Naval Reactors' share of the 
        Advanced Test Reactor (ATR). Reactor core and reactor plant 
        materials will have to perform safely and reliably for a longer 
        time. Work on the core and core structural materials includes 
        testing and analysis of fuel, poison, and cladding materials to 
        verify acceptable performance, as well as developing materials 
        with improved corrosion resistance. Testing and development of 
        reactor plant materials also ensures reliable performance and 
        leads to improvements such as reduced cracking and stress.
        <bullet> The $144.4 million request for Evaluation and 
        Servicing sustains the operation, maintenance, and servicing of 
        land-based test reactor plants and part of Naval Reactors' 
        share of the ATR, a specialized materials testing facility 
        operated by the DOE Office of Nuclear Energy, Science, and 
        Technology. Materials, components, cores, and systems in these 
        plants provide important technical data and experience under 
        actual operating conditions, thus allowing potential problems 
        to be identified and addressed before they occur in the 
        operating fleet. With proper maintenance, upgrades, and 
        servicing, the two operating test reactor plants and the ATR 
        will continue to meet testing needs for quite some time.
        <bullet>   Evaluation and servicing funds also support 
        initiation of a dry spent fuel storage process line that will 
        allow for placement into dry storage at Naval Reactors Facility 
        (NRF) of naval spent nuclear fuel currently stored at the Idaho 
        Nuclear Technology and Engineering Center (INTEC). 
        Additionally, these funds support ongoing cleanup of facilities 
        at all Naval Reactors sites to reduce hazards to personnel, and 
        reduce potential liabilities due to aging facilities, changing 
        conditions, or accidental releases.
         program infrastructure and administrative requirements
        <bullet> In addition to the budget request for the important 
        technical work discussed above, infrastructure and 
        administrative funding is also required for continued operation 
        of the program. Specifically, the fiscal year 2003 budget 
        request includes:
        <bullet> Facility Operations: $50.0 million in funding is to 
        maintain and modernize the program's facilities, including the 
        Bettis and Knolls laboratories and the Expended Core Facility 
        (ECF).
        <bullet> Construction: $11.3 million in funding is to refurbish 
        and replace program facilities. This includes the continuation 
        of the ECF Dry Cell project in Idaho, which will significantly 
        improve Naval Reactors' ability to process naval spent fuel for 
        dry storage. (As identified and agreed to in a Settlement 
        Agreement signed by the Department of Energy, the Navy, and the 
        State of Idaho, Naval Reactors fuel must be among the early 
        shipments of spent fuel to the first permanent repository or 
        interim storage facility.) The requested funding also enables 
        the continuation of the Major Office Replacement Building 
        project.
        <bullet> Program Direction: $25.4 million in funding is to 
        cover Naval Reactors' 191 DOE personnel at headquarters and the 
        program's field offices, including salaries, benefits, travel, 
        and other expenses. This staff maintains oversight of the 
        program's extensive day-to-day technical and administrative 
        operations, while continuing to ensure compliance with growing 
        environmental, safety, and other regulatory requirements, all 
        of which, notwithstanding our excellent record, necessitate 
        substantial effort.

          PERFORMANCE MEASUREMENTS, GOALS, AND ACCOMPLISHMENTS

    My program has a long history of operating with the highest levels 
of integrity and operational accountability. Our husbanding of taxpayer 
dollars provided by this subcommittee has been positively recognized in 
two very recent reports. In forwarding my fiscal year 2003 budget 
request to you, the Office of Management and Budget (OMB) rated Naval 
Reactors as ``Effective'' the highest adjectival rating on OMB's scale 
and noted: ``Outputs are identifiable and make key contributions to 
national security. Delivery schedules are consistently met. Contracts 
have positive and negative incentives, and include performance 
requirements.''
    Furthermore, in a report dated December 12, 2001, the General 
Accounting Office recognized Naval Reactors' strong performance within 
DOE and NNSA. The report stated: ``The Office of Naval Reactors, which 
is a part of NNSA, has long been recognized as having a focused 
mission, strong leadership, clear lines of authority, long-serving 
employees, and a strong set of internal controls, as well as a culture 
that enhances accountability and good control over its costs and 
contractor performance.'' The Naval Reactors program has always been 
dedicated to continual improvement. We use semiannual reviews of short- 
and long-range plans to rebaseline work and revisit program priorities. 
Monthly financial reports from contractors are used to compare actual 
performance against short- and long-range plans. Additionally, Naval 
Reactors headquarters maintains close oversight of its management and 
operating contractors through periodic reviews, formal audits, and 
performance appraisals.
    For fiscal year 2001, my program met or exceeded all three major 
performance targets. We ensured the safety, performance, reliability, 
and service life of operating reactors for uninterrupted support of the 
fleet. We exceeded 90 percent utilization availability for test reactor 
plants, and by the end of fiscal year 2001, U.S. nuclear-powered ships 
had safely steamed over 122 million miles. Naval Reactors developed new 
technologies, methods, and materials to support reactor plant design, 
which included surpassing the fiscal year 2001 goal of 93 percent 
design completion of the next generation submarine reactor. We 
initiated detailed design on the reactor plant for the next generation 
aircraft carrier, which is on schedule to meet the planned ship 
construction start. Additionally, Naval Reactors maintained its 
outstanding environmental performance--no personnel exceeded Federal 
limits for radiation exposure, and no significant findings resulted 
from environmental inspections by State and Federal regulators.

                               CONCLUSION

    The ongoing support of the Senate Armed Services Strategic 
Subcommittee is one of the most important factors in our success story. 
The subcommittee has recognized the requirements and demands the 
program confronts daily: a growing need for power projection and 
forward presence far from home, which strains our dwindling number of 
nuclear ships; an aging nuclear fleet; and the funding required to meet 
these commitments today and in the future.
    The unique capabilities inherent in nuclear power have played a 
vital role over the past 50 years in our Nations' defense. This legacy 
is as strong and vibrant today as it ever has been. Actions in the 
Persian Gulf, peacekeeping actions in Eastern Europe, and, most 
recently, the war against terrorism have demonstrated the value of 
nuclear power. With your continued support, this legacy will continue 
far into the future as the Nation meets each new threat with strength 
and resolve. Naval Reactors' record is strong, the work is important, 
and the funding needs modest.
    I thank you for your support.

    Senator Reed. Dr. Beckner, Mr. Erickson, again we welcome 
you to today's hearing. We look forward to discussing with you 
the weapons activities of the National Nuclear Security 
Administration, at $5.8 billion the second largest program at 
the Department of Energy.
    Dr. Beckner, the Nuclear Posture Review (NPR) has raised 
more questions than it has resolved, not the least of which are 
the responsibilities of NNSA from now through 2012. While the 
NPR directs a reduction in the operationally deployed levels of 
nuclear weapons from the number deployed today, the NPR also 
directs that all of those 8,000-plus warheads be stored. The 
NPR does not say, however, how those warheads are to be 
maintained.
    Is it NNSA's obligation to maintain all the warheads in a 
fully modernized and ready status or something else? What does 
the NPR mean for the stockpile life extension program? Must 
your agency extend the life of the total stockpile? Must your 
agency maintain tritium for all of the stockpile?
    The NPR also talks about developing a capabilities-based 
approach. What does that mean for your responsibilities with 
respect to the stockpile? Does that include the development of 
new nuclear weapons?
    The NPR also discusses the status of test readiness, the 
ability to conduct a nuclear test. Retaining the ability to 
conduct a nuclear test is not a new responsibility for your 
complex. Retaining this capability was required by President 
Clinton and included in President Clinton's enumerated 
safeguards for the Comprehensive Test Ban Treaty along with 
maintaining a strong Stockpile Stewardship Program.
    What is an appropriate test readiness posture and how is it 
achieved? Does it entail the assignment of arbitrary time lines 
or is it something that must be served by maintaining defined 
skills and capabilities?
    The NPR also recognizes the importance of the 
infrastructure of the NNSA and the need to ensure that the 
infrastructure is capable in all aspects of maintaining the 
stockpile in the absence of nuclear weapons testing.
    Over the past 2 years your agency has started to make 
progress in addressing the needs of its facilities and 
infrastructure. Dr. Beckner, we look forward to addressing 
these issues with you and Mr. Erickson. You have both submitted 
prepared written statements which will be part of the record.
    Now let me turn to Senator Allard and ask for any opening 
comments he might have.
    Senator Allard. Thank you, Mr. Chairman. I would also like 
to welcome our second panel of witnesses, Mr. Erickson and Dr. 
Beckner.
    Let me briefly mention my interest in making sure the 
weapons activities within the National Nuclear Security 
Administration are receiving the focus and leadership they 
require to make sure our nuclear weapons are safe, secure, and 
reliable, now and in the future. With an aging infrastructure 
and an aging work force, we need to make sure we are putting 
resources into our nuclear weapons program to make sure we 
continue to attract the best and the brightest and that they 
have the necessary facilities to conduct their important work 
for our Nation's security.
    I look forward to hearing from our witnesses. Included in 
your testimony I hope you will discuss NNSA's plans for a 
Modern Pit Facility (MPF). As mentioned in the recently 
released third Foster panel report, they mention the future 
years budget commitment for a full-scale pit production 
facility is still in doubt. The Foster panel report went on to 
urge that the Nuclear Weapons Council, NNSA, and DOD should 
establish a requirement that NNSA expeditiously produce an 
approved design, make a site decision, complete safety studies, 
and obtain environmental permits for pit production and 
secondary production facilities.
    It appears to me that we should at least be moving out with 
an initial conceptual plan to determine some of the technical 
obstacles for such a facility and the best options.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.
    Senator Reed. Thank you very much.
    Dr. Beckner.

STATEMENT OF EVERET H. BECKNER, PH.D., DEPUTY ADMINISTRATOR FOR 
   DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Dr. Beckner. Thank you. I am pleased to be here this 
afternoon. I am deeply appreciative of your support. The work 
of the subcommittee is gratifying for the thousands of men and 
women across the country who have dedicated their professional 
lives to making the Stockpile Stewardship Program a success. We 
recognize the importance of this, as do you.
    As I said in my confirmation hearing, I believe in systems 
analysis and using the best information available to find the 
right solutions, not by intuition or accommodation, but by 
hard-headed analysis. That is what we are doing with all the 
elements of the stewardship program.
    Stockpile Stewardship is delivering results today. 
America's nuclear deterrent remains safe, secure, and reliable. 
Since the end of underground testing, using the tools of 
stewardship we have successfully certified the B61-11 and we 
have recertified several warheads with components that have 
been modified, replaced, or in some cases redesigned.
    A number of problems uncovered by the surveillance program 
have been solved without recourse to nuclear testing. The 
President's fiscal year 2003 budget will allow us to invest the 
resources and the tools and experimental capabilities that we 
must have in the future to deliver on our commitments to our 
customers, the Department of Defense, and the citizens of the 
United States.
    This afternoon I will talk about several stewardship 
programs that are of particular interest to this subcommittee 
and ones that I focus on regularly. First and most important 
are the life extension programs for the W87, the W76, the W80, 
and the B61. Second, W88 pit manufacturing and certification at 
Los Alamos and our planning for a Modern Pit Facility. Third, 
enhanced test readiness. Fourth, the advanced strategic 
computing initiative. Fifth, the NIF under construction at the 
Lawrence Livermore National Laboratory. Finally, the commercial 
light water reactor program and the production of tritium to 
support the stockpile.
    First let us talk about getting work done. The men and 
women of the Stockpile Stewardship Program continue to meet 
their formidable day-to-day challenges with ingenuity and 
innovation, both in the way we do science, and in the way we 
organize the work we do. Without the critical work of our 
stockpile stewards at the labs, plants, and in the Federal 
structure, we could not perform our mission. Our people remain 
our number one resource that must be carefully attended now and 
into the future.
    To that end, the NNSA must and is working to improve the 
infrastructure across the complex. This subcommittee has heard 
and seen firsthand some of the antiquated working conditions we 
ask our people to work in. The $242 million in the President's 
budget for this year for the Facilities and Infrastructure 
initiative will begin to correct this problem. You will hear 
more about that from Mr. Erickson. This will have a direct 
impact on worker morale and productivity.
    On the life extension program: As members of this 
subcommittee are well aware, the NNSA labs and plants have a 
validated requirement from the Nuclear Weapons Council to 
extend the service life of the W87, the W76, the W80, and the 
B61. These requirements were, if you will, revalidated by the 
Nuclear Posture Review, which lays out the direction for this 
Nation's nuclear forces for the next 5 to 10 years.
    Life extension work involves all the elements of the 
weapons complex. For the last several years we have been 
extending the life of the W87 warhead for the Air Force. This 
work is ongoing at Y-12, Lawrence Livermore, Sandia, and 
Pantex. We are more than halfway through this effort and expect 
to wrap up the work by late 2004.
    Life extension for the W76 involves a comprehensive 
overhaul of the warhead, including replacement of the arming, 
fusing, and firing set. We will also be requalifying the weapon 
primary. For the W80 we will be replacing the trajectory 
sensing signal and the neutron generators, the tritium bottles, 
and incorporating surety upgrades. For the B61 we will be 
refurbishing the secondary.
    These life extension programs will ensure that these 
weapons will remain safe, secure, and reliable in the U.S. 
nuclear arsenal for the additional 30 years once the work is 
complete.
    Over the last several years the NNSA has been implementing 
a pit manufacturing and certification program to restore the 
capability of the U.S. to manufacture and certify this critical 
component without nuclear testing. This project is a pivotal 
challenge to the Stockpile Stewardship Program. I am pleased 
with the high level of management attention this program 
continues to receive at Los Alamos and the progress made in 
meeting this important national security objective. We remain 
on track to deliver a certifiable W88 pit in fiscal year 2003. 
Headquarters and Los Alamos staffs have been able to accelerate 
the date for a certified pit to fiscal year 2007 from fiscal 
year 2009, which I believe was the date given you last year, 
resulting in a savings for the taxpayers.
    While the Los Alamos facility, TA-55, for making W88 pits 
is adequate for the task at hand, it lacks the capacity and 
flexibility to manufacture pits in sufficient quantities to 
support the entire stockpile. So the NNSA is working on a 
longer-term solution. We have a project team in place that has 
undertaken the required preconceptual planning work. During 
this phase we are carefully examining a number of issues, 
including technology development to ensure that the facility 
will meet both current and future requirements to fabricate 
replacement pits for the current nuclear stockpile or pits for 
new designs if required.
    Our next decision point for the Modern Pit Facility will be 
later this month, at which time we will decide on proceeding to 
conceptual design.
    As members of this subcommittee are well aware, the NNSA is 
maintaining a capability to conduct an underground nuclear test 
within 24 to 36 months based on existing presidential 
direction. The Nuclear Posture Review, however, raised several 
concerns about our test readiness posture, which we are 
addressing in a study to be completed later this spring.
    DOD and NNSA will work together to refine nuclear test 
scenarios and evaluate cost-benefit tradeoffs in order to 
determine, implement, and sustain the optimum test readiness 
time to support the policies of the Nuclear Posture Review.
    The President's fiscal year 2003 budget has requested an 
additional $15 million to implement the results of the 
aforementioned study once the administration determines the 
best path forward. We will of course keep Congress fully 
informed on this important national security activity as we 
proceed.
    The ASCI program, working with America's leading computer 
manufacturers, is developing the three-dimensional simulation 
capabilities based on advanced weapons codes and high-
performance computing that the Stockpile Stewardship Program 
needs to support stockpile refurbishment activities and other 
analyses. The supercomputers at all three weapons labs are 
fully utilized to meet the needs of the scientists and 
engineers. Later this year we will bring on line our newest 
machine, a 30 TeraOps machine, at Los Alamos.
    One of the most important science and engineering programs 
we have in the program is the NIF. I know that this 
subcommittee has been a strong supporter of the NIF and we are 
grateful for that support. In 2002 the NIF team at Lawrence 
Livermore is continuing to make steady progress toward its 
milestones. We have recently reported to the committee and 
others that several important milestones were met on or ahead 
of schedule, including completion of conventional construction 
and positioning in seismic tiedown of the target chamber.
    The program remains on track to begin stewardship 
experiments in 2004 with 8 beams and by the time 192 laser 
beams are brought up in 2008 we will have conducted some 1,500 
stewardship experiments.
    We are continuing to make progress in establishing the new 
source of tritium. We have in place a multiyear contract with 
the Tennessee Valley Authority (TVA) to provide irradiation 
services. We expect the Nuclear Regulatory Commission (NRC) 
will grant license amendments this fall to the TVA reactors, 
Watts Bar and Sequoyah, that will be used for tritium 
production. Commercial vendors across the country are 
manufacturing parts for the tritium-producing rods that will go 
into the reactors in fiscal year 2004.
    I am concerned, however, with the TEF at Savannah River. 
While construction of the civil and structural portion of the 
tritium extraction facility is well along, it is several months 
behind schedule. In addition, the bids on the rest of the plant 
contract were well above the baseline estimate.
    As a result of these and other factors, we are carefully 
reviewing and revising our cost and schedule estimates for 
completion of the facility. We will be coming to Congress with 
a new baseline in a reprogramming package later this spring.
    Mr. Chairman, I know that Congress wants less bureaucracy 
and more output from this program, with fewer problems along 
the way. You want a program output that enhances security, 
which maintains and enhances the safety, reliability, and 
performance of the nuclear stockpile, and which bolsters U.S. 
leadership in science and technology. I am convinced that the 
management reforms that the NNSA is implementing will address 
your first concern. I am also convinced that the stewardship 
program is today ensuring that America's nuclear deterrent is 
safe, secure, and reliable. Of equal importance, the science 
and engineering campaigns of stewardship are advancing the 
frontiers of science and technology to help the country meet 
the economic and security challenges of this new millennium.
    Thank you.
    [The prepared statement of Dr. Beckner follows:]

              Prepared Statement by Dr. Everet H. Beckner

    Thank you for the opportunity to appear today to discuss the fiscal 
year 2003 President's budget request for the National Nuclear Security 
Administration (NNSA) with a focus on our weapons work and the budget 
needed to ensure that we can meet our commitment to provide the Nation 
with a safe, secure, and reliable stockpile. The fiscal year 2003 NNSA 
budget request for Defense Programs weapons activities totals $5.11 
billion, representing an increase of $305 million over the fiscal year 
2002 enacted appropriation, which includes $25 million supplemental 
appropriation for the Secure Transportation Asset. I would like to 
begin my testimony here today by setting a policy framework and 
discussing the issues faced by NNSA.

              TRANSFORMING THE NATIONAL SECURITY STRATEGY

    President Bush is transforming U.S. national security strategy to 
meet the threats of the 21st century. The NNSA is intimately involved 
in the formulation of the administration strategy through participation 
in the Strategic Review and Nuclear Posture Review. We responded 
swiftly and comprehensively to the terrorist events of September 11, 
protecting our valuable national security assets and employees, and 
offering our unique capabilities to the national response. We have 
contributed directly to the homeland security needs of Governor Ridge 
with our technology and scientific staff. Work such as this will extend 
into fiscal year 2003 and beyond.
    While the policies and priorities established by the President, the 
Secretary, and Congress will determine the scope of our work over the 
years to come, nuclear deterrence remains the cornerstone of our 
national defense strategy. The NNSA will make significant contributions 
to the administration's new capabilities-based national security 
strategy that requires us to maintain our military advantages in key 
areas while developing new capabilities.
    The NNSA faces major challenges during the next 5-year period in 
responding to evolving customer requirements while maintaining and 
improving the health of the Nation's national security enterprise. The 
expanded focus on international terrorism following the September 11 
attacks underscores the importance of maintaining a strong capability 
in the science and technology of national security.
    NNSA's ability to perform its national security functions depends 
upon revitalizing our scientific and engineering expertise to ensure 
the reliability, safety, and security of the Nation's nuclear weapons. 
Much of the physical and intellectual infrastructure of the national 
security enterprise was built during the era of underground nuclear 
testing, and has eroded to the point that we are no longer able to 
perform some essential tasks. It is imperative that we address these 
issues during the upcoming 5-year period. NNSA's program and budget 
planning emphasizes maintaining an adequate workforce of scientific, 
technical and business skills, and building a diverse, multi-talented 
leadership. We must be able to recruit, train, and develop highly 
skilled employees throughout our organizations in a highly competitive 
employment environment. We must implement our plans to renew the 
physical infrastructure to ensure adequate capability and capacity, as 
well as compliance with environment, safety, health and security 
standards.
    Another key element to NNSA's ability to perform its national 
security functions is an organizational plan to achieve greater 
effectiveness and efficiency. On February 25, NNSA submitted its 
``Report to Congress on the Organization and Operations of the NNSA'' 
describing our accomplishments to date and our strategy for operating 
an integrated national security enterprise.

                             BUDGET SUMMARY

    By way of summary, the NNSA fiscal year 2003 request supports the 
recommendations from the Nuclear Posture Review to assure the continued 
safety, security, and reliability of the stockpile without underground 
nuclear testing, develop a stockpile surveillance engineering base, 
refurbish and extend the lives of selected warheads, and maintain the 
science and technology base needed to support nuclear weapons. The 
request protects the operational readiness of the nuclear weapons 
stockpile through surveillance, experiments, and simulations for 
individual weapons and weapon systems, and investment in advanced 
scientific and manufacturing for the future.
    The President's fiscal year 2003 budget request for Defense 
Programs was developed based on two primary resource drivers. First, 
the strategic reviews of national security-related activities conducted 
this past year. The NNSA actively participated in the President's 
strategic review of deterrence and missile defense policy and was a key 
participant in the NPR which lays out the direction for this Nation's 
nuclear forces over the next 5 to 10 years. These reviews reaffirmed 
NNSA's stockpile refurbishments and the need for a robust, responsive 
research and development and industrial base of which the nuclear 
weapons enterprise is a key element. The NNSA laboratories are on the 
cutting edge of technology and have a vital national security role to 
play in combating terrorism. The other is the President's Management 
Initiatives on the human capital management and competitive sourcing 
initiatives which serve to focus our fiscal year 2003 activities, 
particularly in the NNSA restructuring of the headquarters and field 
offices and in the Federal program direction budget. Recruitment, 
retention, and skill mix are critical to NNSA's success in the future 
and are key to our plans for re-engineering the workforce.

                         STOCKPILE STEWARDSHIP

    In spite of the many challenges we are facing, the NNSA has 
continued to meet the core stockpile stewardship mission--that is, to 
maintain the safety, security, and reliability of the nuclear stockpile 
to meet national security requirements.
    As I stated earlier, the NNSA actively participated in the 
strategic reviews of national security related activities conducted by 
the administration. Participation by NNSA ensured that the choices, 
plans, and requirements being developed were within the realm of the 
technical and production capabilities of the NNSA. It also increased 
the awareness of our issues and technical capabilities within the 
administration's national security senior management team.
    While there are many important points and conclusions in the NPR 
including the goals to reduce operationally deployed strategic nuclear 
weapons to between 1,700 and 2,200 by calendar year 2012 and the 
maintenance of a ``responsive force'' for use as a hedge against 
unforeseen problems, several points are of particular relevance to the 
NNSA.
    First, nuclear weapons, for the foreseeable future, remain a key 
element of U.S. national security strategy. The NPR reaffirms that 
NNSA's science-based Stockpile Stewardship Program is necessary to 
ensure the safety and reliability of the nuclear stockpile in the 
absence of nuclear testing. This includes surveillance of our aging 
weapons, weapon refurbishment, chemistry and metallurgy of materials 
aging, detailed understanding of weapons physics, reestablishment of 
warhead advanced concepts teams, and development of additional 
diagnostic and predictive tools for long-term stewardship. The NPR 
revalidated the stockpile refurbishment plan previously developed and 
approved by the NNSA and the Department of Defense. The fiscal year 
2003 budget request for Directed Stockpile Work is $1.2 billion, an 
increase of $190 million, or about 18 percent over last year. 
Principally, this increase allows us to support life extension 
activities for the W80, W76, and B61 warheads, including supporting 
research and development and additional hydrodynamic testing for 
assessment and certification. Also, $2.1 billion is requested for the 
16 scientific and engineering campaigns that provide the knowledge, 
technologies, and capabilities to address current and future stockpile 
issues.
    Second, more than any previous review, the NPR's concept of a new 
triad emphasizes the importance of a robust, responsive research and 
development and industrial base. This calls for a modernized nuclear 
weapons complex, including contingency planning for a Modern Pit 
Facility, which would provide the Nation with the means to respond to 
new, unexpected, or emerging threats in a timely manner. The fiscal 
year 2003 budget request supports our industrial base through a request 
of $1.7 billion for Readiness in Technical Base and Facilities, a 10-
percent increase supporting the operations of weapons complex 
facilities. In addition, the NNSA has requested $243 million for the 
Facilities and Infrastructure Recapitalization program to continue this 
important multiyear initiative into its third year. This program is 
managed by Mr. Ralph Erickson who serves as the Associate Administrator 
for Facilities and Operations.
    Third, a study examining the aspects of reducing test readiness 
lead time below the existing 24- to 36-month requirement for a fully 
diagnosed test. The NPR states that the lead time needs to be shortened 
out of prudence, not because there is a current need to test. In fiscal 
year 2002, the NNSA and the DOD will study the optimum test readiness 
time that best supports the new triad, as directed by the NPR. Pending 
the outcome of the study, the fiscal year 2003 request includes $15 
million for Enhanced Test Readiness activities at the Nevada Test Site.
    It is NNSA's judgment, at this time, that a resumption of 
underground nuclear testing is unnecessary, because stockpile 
stewardship is working and is on track to deliver scientific tools 
needed for certification into the future. Since the end of underground 
testing, the U.S. successfully certified the B61-11 and has recertified 
several warheads with components that have been modified, replaced, or 
in some cases redesigned. A number of problems uncovered by the 
surveillance program have been solved without recourse to nuclear 
testing.
    The NPR calls for increased emphasis on the reducing the time 
required for a nuclear test, if directed by the President at some 
future date. This may call for NNSA contractors to recruit and train 
new staff to become skilled to support fielding and performing nuclear 
experiments and or tests. Additionally, NNSA would acquire specific 
long-lead-time equipment needed for testing, such as field-test neutron 
generators and certain test diagnostic equipment. Another important 
aspect of enhancing test readiness is to revise testing procedures to 
make them compliant with current safety and environmental regulations. 
Finally, high-fidelity field exercises would be conducted to 
demonstrate the ability to field a nuclear test.
    The NPR states that the number, composition, and character of the 
Nation's nuclear forces ought to reflect the reality that the Cold War 
is over and that required capabilities may now need to be different. 
For example, current weapons in the stockpile cannot hold at risk a 
growing category of potential targets deeply buried in tunnel 
facilities, possibly containing chemical, biological, nuclear, or 
command and control facilities. As a result the NPR endorsed NNSA's 
Advanced Concepts Initiative that could provide the Nation with options 
that could be considered for future production and deployment. Also, as 
required by the NPR, it would provide an opportunity for NNSA and its 
contractors to exercise critical skills necessary for the long-term 
sustainment of the Nation's defense.
    By direction of the Nuclear Weapons Council, and in response to an 
Air Force requirement, the initial focus of the Advanced Concepts 
Program will be the Robust Nuclear Earth Penetrator (RNEP), for which 
$15.5 million is requested in fiscal year 2003 as part of the Directed 
Stockpile Research and Development activity. The 3-year RNEP 
Feasibility Study will assess the feasibility of modifying one of two 
candidate nuclear weapons currently in the stockpile to provide 
enhanced penetration capability into hard rock geologies and develop 
out-year costs for the subsequent production phases, if a decision is 
made by the Nuclear Weapons Council to proceed. This work complies with 
existing legislation, including Section 3136 of the Fiscal Year 1994 
National Defense Authorization Act. The fiscal year 2003 budget 
contains no other funds for Phase 6.X advanced concept study 
activities.
    Finally, the NPR calls for a stable, adequately funded FYNSP. The 
NNSA's costs will not be reduced in the immediate future as a result of 
NPR, since near-term costs are driven by restoring production 
capabilities and revitalizing the infrastructure, not by the number of 
warheads in the stockpile or even the number to be refurbished. 
However, we do expect that cost savings from refurbishment of a smaller 
number of weapons will be realized beginning about fiscal year 2010. 
Also, workload analysis shows that the NNSA enterprise's capacity will 
be stretched, approaching maximum capacity while our systems are on the 
process line for refurbishment, thereby limiting our ability to 
dismantle significant numbers of weapons over the next 10 years. The 
FYNSP for the NNSA was provided to Congress on March 26, 2002.
    A less obvious, but significant result of the NPR is the improved 
cooperation and coordination between the NNSA and DOD. The Nuclear 
Weapons Council is working, policy levels between the agencies are 
effective, and the DOD has offered strong support for needed programs 
in NNSA.
    I would now like to turn to several specific programs that make up 
the Stockpile Stewardship Program. The success of these programs will 
be central to our ability to continue to support and certify the 
stockpile in the years to come.

                    STOCKPILE LIFE EXTENSION PROGRAM

    Our most important responsibility is to deliver on our commitments 
to our customer, the Department of Defense. The NNSA has a validated 
requirement from the Nuclear Weapons Council (NWC) to extend the 
service life of the W87, W76, W80, and B61. This requirement was 
revalidated by the recently completed Nuclear Posture Review. The life 
extension work will involve the entire weapons complex. The Kansas City 
Plant will manufacture the non-nuclear components; Y-12 National 
Security Complex will refurbish the secondaries; Savannah River Tritium 
Facility will supply the gas transfer systems; Sandia National 
Laboratory will produce the neutron generators and certify all non-
nuclear components. Pantex Plant will serve as the central point for 
all assembly and disassembly operations in support of the refurbishment 
work. Los Alamos and Lawrence Livermore will continue to certify the 
nuclear package.

                                  W87

    The life extension program on the W87 warhead was authorized by the 
NWC in fiscal year 1994. The program achieved First Production Unit 
(FPU) in the second quarter of fiscal year 1999. The ongoing work at 
Pantex enhances the structural rigidity of the warhead and is 
increasing the service life by 30 years. The warhead will be mated to 
the Minuteman III missile following deactivation of the Peacekeeper 
missile. The NWC accepted the refurbished W87 as a standard stockpile 
item in the first quarter of fiscal year 2002. NNSA has completed work 
on over half of the W87 inventory and the remaining W87 stockpile will 
be refurbished by the first quarter of fiscal year 2004

                                  W76

    The NWC approved the Block 1 refurbishment plan for the W76 in 
March 2000. The Block 1 refurbishment of the warhead (about one quarter 
of all W76 warheads) will focus on the high explosive, detonators, 
organic materials, cables and addition of a new Acorn gas transfer 
system. The Block 1 refurbishment will also add a new arming firing and 
fusing (AF&F) system. The FPU of Block 1 will be available by the end 
of fiscal year 2007, and Block 1 production is planned for completion 
in fiscal year 2012. During the Block 1 production, a decision will be 
made to either continue Block 1 retrofits on the entire W76 stockpile, 
change to a Block 2 retrofit that could include other options, or stop 
the retrofit altogether. The Block 2 effort, if approved by the NWC, 
would continue from fiscal year 2012 to fiscal year 2022 to refurbish 
the remaining W76 warheads.

                                  W80

    The NWC approved the refurbishment of the W80 in the beginning of 
fiscal year 2001. The Block 1 refurbishment of the warhead (about one 
third of the warheads in the stockpile) will focus on replacing the 
current gas transfer system with an Acorn design, new neutron 
generators, redesign of the warhead electrical system, addition of 
improved surety features and replacement of other associated 
components. The need to perform refurbishment work is driven by several 
factors including: age related effects that must be addressed to ensure 
the continued performance of the warhead, minimizing weapon movements 
between DOD and DOE, and infrastructure and capacities issues within 
the weapons complex. The FPU of the Block 1 design will be available in 
the second quarter of fiscal year 2006, and Block 1 production is 
scheduled for completion in fiscal year 2010. During the Block 1 
production, a decision will be made to either continue Block 1 
retrofits on the entire W80 stockpile, change to a Block 2 retrofit 
that could include enhanced surety options, or stop the retrofit 
altogether. The Block 2 effort, if approved by the NWC, would continue 
from fiscal year 2011 to fiscal year 2017 to refurbish the remaining 
W80 warheads.

                                B61-7/11

    NNSA and DOD are working to identify refurbishment options for the 
aging B61-7/11 Canned Subassembly (CSA) and associated cables, 
connectors, some limited life components, and foam components. The 
study effort is expected to be completed in late fiscal year 2002. 
Development Engineering will begin following Nuclear Weapons Council 
approval in late fiscal year 2002. This program will use systems 
engineering approaches, and the planned FPU of the refurbished B61-7/11 
will be in the third quarter of fiscal year 2006. Production of these 
refurbished CSAs is scheduled to continue to the end of fiscal year 
2008. The plan also calls for some selective non-destructive evaluation 
(NDE) and screening of CSAs as a risk mitigation effort for other 
warheads during fiscal year 2003 and fiscal year 2004.
    I would like to note that, for the first time in a number of years, 
weapons systems cost data is included in the fiscal year 2003 budget 
request, as requested in the conference report accompanying the fiscal 
year 2002 Energy and Water Development Appropriations Act (107-66). The 
weapons systems cost data for fiscal year 2003 are provided in the 
Directed Stockpile Work section of the budget. In addition, we have 
resumed reporting for nuclear weapons acquisition costs for weapons 
systems in Phase 6.3 and beyond (W87, W76, and W80 Life Extension 
Programs) in a separate, classified document.

              PIT MANUFACTURING AND CERTIFICATION CAMPAIGN

    The reestablishment of a plutonium pit manufacturing capability, a 
capability that the United States has not had since the cessation of 
manufacturing at the Rocky Flats Plant in 1989, is a key national 
security challenge that the NNSA must meet. The W88 pit is a primary 
focus of NNSA's pit campaign because an insufficient number of W88 pits 
were produced to support pit surveillance activities prior to the 
closure of Rocky Flats.
    The Pit Manufacturing and Certification Campaign is focused on the 
near-term development of manufacturing processes at Los Alamos and a 
certification methodology applicable to the W88 pit, with a long range 
goal of reestablishing the capability to manufacture all pit types 
within the stockpile. The program remains on track to deliver a 
certifiable W88 pit in fiscal year 2003. Over the last year 
Headquarters and Los Alamos staffs have worked aggressively and have 
been able to accelerate the date for a certified pit to fiscal year 
2007. The Pit Manufacturing and Certification Campaign budget request 
for fiscal year 2003 is $194 million.
    Program accomplishments in fiscal year 2001 include:

        <bullet> Accelerated the certification date for a manufactured 
        W88 war reserve pit from fiscal year 2009 to fiscal year 2007.
        <bullet> Manufactured three development and three standard W88 
        pits in fiscal year 2001; one of the development pits was 
        completed more than a year ahead of schedule.
        <bullet> Projectized W88 activities are on-track, with all 
        major milestones for fiscal year 2001 accomplished.
        <bullet> Reorganized W88 Pit Manufacturing and Certification 
        Activity at Los Alamos to increase management attention and 
        resources on the project.
        <bullet> Provided documentation required to support a fiscal 
        year 2002 decision on Mission Need for a Modern Pit Facility.

    The fiscal year 2003 budget will allow the program to:

        <bullet> Manufacture a development pit and the first 
        certifiable pit in fiscal year 2003.
        <bullet> Conduct two integrated physics tests and pit 
        engineering tests in fiscal year 2003.
        <bullet> Establish production controls and quality 
        infrastructure in fiscal year 2003 to support the manufacture 
        of the first certifiable pit in fiscal year 2003.
        <bullet> Establish and implement a peer process that includes 
        at least one technical data exchange between Los Alamos and 
        Lawrence Livermore National Laboratory in fiscal year 2003.

    While the Los Alamos facility (TA-55) for making W88 pits is 
adequate for the task at hand, it lacks the capacity and flexibility to 
manufacture pits in sufficient quantity to support the NPR 
requirements. Therefore, the NNSA is working on a longer term solution 
for a modern pit manufacturing facility. A project team is in place and 
has undertaken the required preconceptual planning work. During this 
phase we will carefully examine a number of issues, including 
technology development to ensure that the facility will meet both 
current and future requirements. NNSA's next decision point for the 
Modern Pit Facility will be later this spring when we will decide on 
whether to proceed with conceptual design.

                            TRITIUM CAMPAIGN

    In addition to restoring the Nation's ability to manufacture 
plutonium pits, the NNSA is proceeding with plans for producing new 
tritium to support the stockpile. Tritium is a radioactive isotope of 
hydrogen which decays at a rate of about 5 percent per year. All 
weapons in the stockpile must have tritium to function as designed. The 
United States has not manufactured new tritium since 1988 and has been 
relying on recycled tritium from retired weapons to meet stockpile 
requirements. To manufacture new tritium, the Tennessee Valley 
Authority (TVA) will be irradiating tritium producing burnable absorber 
rods (TPBARS) in the Watts Bar and Sequoyah 2 reactors. Irradiation of 
the TPBARS remains on schedule for the fall of 2003. The rods will 
remain in the reactors throughout the plants' normal 18-month operating 
cycles. The fiscal year 2003 request for the tritium campaign totals 
$126.2 million.
    In order to irradiate tritium-producing rods, the TVA reactors must 
have approval from the Nuclear Regulatory Commission. The TVA submitted 
formal requests in August-September 2001 asking that the reactors' 
operating licenses be amended to permit tritium production. In December 
2001 the Nuclear Regulatory Commission published a Federal Register 
notice proposing to issue a ``no significant hazards consideration 
determination'', which means that the Nuclear Regulatory Commission can 
issue the license amendments without first holding hearings. We expect 
that the Commission will issue the license amendments by this fall.
    While the recent Nuclear Posture Review reduces the number of 
active, deployed nuclear weapons, it also requires that NNSA support a 
responsive reserve of warheads. This support would include maintenance 
of tritium inventories for the reserve. When all these factors are 
considered, the impact is small on the date when new tritium will be 
needed.
    While the civil/structural portion of the Tritium Extraction 
Facility is well along, it is several months behind schedule. In 
addition, the bids on the rest-of-plant (installation of all the 
equipment) contract came in well above the baseline estimate. As a 
result of these and other factors, NNSA is currently reviewing and 
revising the cost and schedule baselines for the facility. We expect to 
be coming to Congress with a reprogramming letter following the 
completion of these cost and schedule reviews. We have asked the 
Department's Inspector General to review this program and ensure that 
we have taken all the necessary corrective actions to get this program 
back on track. We are still aiming for its completion in fiscal year 
2006.

               ADVANCED SIMULATION AND COMPUTING CAMPAIGN

    The Advanced Simulation and Computing (ASCI) campaign is developing 
the simulation capabilities, based on advanced weapon codes and high-
performance computing, that incorporate high-fidelity scientific models 
validated against experimental results, past tests, and theory. The 
fiscal year 2003 budget request for the ASCI campaign is $725 million, 
which includes $55 million for line-item construction projects at LLNL 
and SNL. This is an increase of $8 million from fiscal year 2002.
    The long-term ASCI objective is to provide the validated three-
dimensional, high-fidelity physics, full system simulation codes 
required for engineering, safety, and performance analysis of the 
stockpile and to develop the computing resources with sufficient power 
(speed, memory, and storage capacity) to support stockpile analyses.
    The schedule for developing three-dimensional weapons simulation 
capabilities is tightly integrated with the certification of the 
refurbished W87, W76, W80, and B61 warheads. Requirements for 
predictive weapons simulations determine the acquisition strategy for 
increased computing capability and capacity. University partnerships 
have also been developed through five Alliance Centers at leading 
research universities.
    Program accomplishments in fiscal year 2001 include:

        <bullet> Three dimensional simulations of key mechanical 
        responses of a re-entry vehicle system to normal flight 
        environments, and of the performance of a full weapons system. 
        Being able to simulate a complete weapon system allows 
        laboratory researchers to examine key physics issues through a 
        combination of simulation, precision experiments, and analysis 
        of data from past nuclear tests. These codes are playing a 
        major role in the plans for the remanufacture of the W76 AF&F.
        <bullet> Completion of the Strategic Computing Complex at Los 
        Alamos National Laboratory in December 2001 provides the 
        facilities necessary to accommodate the 30-TeraOps Q 
        supercomputer. The Q machine is now being delivered to Los 
        Alamos. We expect to have the first portion of the machine 
        running by June 2002 and the full system will be running by the 
        end of the 2002.
        <bullet> A comprehensive external review of all five Alliance 
        Level 1 Centers was completed in October 2001. Accomplishments 
        include the development of scalable, multi-physics codes, 
        successful advanced degree programs and graduates, as well as 
        world-class science measured through peer-reviewed 
        publications.

    The fiscal year 2003 budget will allow the program to:

        <bullet> Release enhanced ASCI 2-D primary design capability,
        <bullet> Demonstrate three-dimensional safety simulation of a 
        complex, abnormal explosive-initiation scenario,
        <bullet> Demonstrate three-dimensional coupled electrical 
        response of a weapon system in hostile (nuclear) environments.

                      HIGH-ENERGY-DENSITY PHYSICS

    The High Energy Density Physics Campaign advances U.S. capabilities 
to achieve high-energy-density physics (HEDP) conditions, including 
inertial confinement fusion ignition and thermonuclear burn in a 
laboratory setting, to support Stockpile Stewardship Program science 
and engineering requirements. The capability to achieve physical 
conditions nearing those produced during nuclear weapons detonations, 
including extremely high temperatures and pressures, is critical for 
conducting experiments to verify physics theory underlying nuclear 
weapons design code predictions, to validate advanced computer models 
being developed for stockpile stewardship, and to more accurately 
characterize the performance of materials exposed to a nuclear 
environment.
    The fiscal year 2003 budget request for HEDP is $452 million, which 
includes $215 million for NIF line-item construction and $76 million 
for NIF Demonstration and Operations. These funds will maintain the NIF 
project schedule. Because of overall NNSA budget priorities, only $161 
million is requested for the HEDP Core Research and Operations account. 
This is a reduction of $26 million, which will delay some long-term 
aspects of the NIF experimental program including progress toward 
ignition. However, our assessment of program impacts across all budget 
elements indicates that this is a necessary decision this year.
    The program is carried out at the three weapons laboratories as 
well as the laboratory for Laser Energetics (LLE) at the University of 
Rochester, and the Naval Research Laboratory (NRL). Existing major 
facilities for conducting HEDP research are the OMEGA laser at LLE, and 
the Z pulsed-power facility at SNL, the Trident laser at LANL, and the 
Nike laser at NRL.
    The most important new facility for the HEDP is the NIF, under 
construction at LLNL. NIF will provide the capability for weapons 
scientists to undertake experiments to address high-energy and fusion 
aspects that are important to the primaries and secondaries of nuclear 
weapons. Several important milestones for the NIF program were met on, 
or ahead of, schedule, including completion of conventional 
construction and positioning and seismic tie down of the target 
chamber. The program remains on track to begin stewardship experiments 
in 2004 with 8 beams, and by the time all 192 lasers beams are brought 
up in 2008, some 1,500 stewardship experiments will have been performed 
on this important, one-of-a-kind tool.
    The fiscal year 2003 budget will allow the program to:

        <bullet> Operate the NIF Optics Assembly Building,
        <bullet> Demonstrate multiframe backlighting capability on Z,
        <bullet> Install the NIF target positioner in support of first 
        light to the target chamber center and start of stewardship 
        experiments in fiscal year 2004,
        <bullet> Utilize radiation transport experiments on Z and OMEGA 
        for validation of specific aspects of Advanced Simulation and 
        Computing (ASCI) radiation transport and hydrodynamics 
        modeling, and
        <bullet> Demonstrate filling of prototype NIF indirect-drive 
        ignition capsules and quantify key characteristics.

                       NNSA ORGANIZATION STANDUP

    NNSA's organizational objectives are to improve effectiveness and 
efficiency. We approached the NNSA organization standup by implementing 
a two-phase plan. The first phase, essentially complete, focused on 
creating an integrated headquarters organization, and defining the 
structural relationship between the Federal elements at headquarters 
and the field locations. The second phase focuses on realigning our 
field structure and improving efficiencies by eliminating overlaps in 
responsibilities within the Federal structure and reducing unnecessary 
administrative burdens placed on those performing the mission.
    The recently released report summarizes our first-ever NNSA 
Strategic Plan, provides a detailed plan for assigning roles and 
responsibilities between headquarters and field elements, and discusses 
our objectives for fiscal year 2002 and beyond. We will eliminate a 
layer of management and oversight over the nuclear weapons complex by 
removing the Operations Offices from the NNSA chain of command and 
converting these offices to service centers that provide support 
services such as procurement and human resources. Each of the eight 
NNSA M&O contractors will report to its respective site offices which 
will, in turn, report to the Administrator. This locates NNSA support, 
decision making, and oversight close to the contractor, consolidates 
service functions, and allows staff reductions downstream.
    Local contract and project management will rest with each NNSA site 
office. Integration of weapons production activities will be performed 
for headquarters from the Albuquerque, New Mexico NNSA office. 
Headquarters staff will continue to be responsible for program 
planning, budgeting, policy development, and management of weapons 
research and development and nonproliferation activities.
    NNSA will launch a systematic re-engineering effort to reduce the 
number of separate offices and layers of Federal management, reduce the 
overall number of Federal employees, and identify and correct skills 
mismatches. Federal staff not performing core functions will be 
redeployed and retrained as necessary. We intend to use incentives to 
encourage higher-than-average attrition, career development, and 
retention of highly skilled employees to right size and reinvigorate 
our staff.
    NNSA has instituted an Administrative Workload Reduction Initiative 
using comprehensive input from the laboratories and plants, with task 
forces identifying specific improvements and reducing administrative 
burdens. As a result, NNSA contractors will be given clearer and more 
consistent responsibilities and authorities. They will also continue to 
comply with all environment, safety, health, and security policies.
    When these changes are fully implemented, we will realize the goals 
set by Congress in establishing the NNSA. By clearly defining roles and 
responsibilities, we will increase accountability and reduce 
duplication. By reducing administrative burdens on the NNSA 
contractors, we will operate more effectively and efficiently.

                               CONCLUSION

    This concludes my written testimony on the policy framework and 
issues that shaped the formulation of the unified NNSA budget request 
for fiscal year 2003. The continuing support of this committee and the 
entire Congress is essential as this program continues to move forward. 
Additional information on all aspects of the Stockpile Stewardship 
Program are contained in the fiscal year 2003 budget request, the 
Future Years National Security Program, and the classified Nuclear 
Weapon Acquisition Reports which have been provided to Congress. Now, I 
will be pleased to answer your questions.

    Senator Reed. Thank you very much, Dr. Beckner.
    Mr. Erickson.

  STATEMENT OF RALPH E. ERICKSON, ASSOCIATE ADMINISTRATOR FOR 
     FACILITIES AND OPERATIONS, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Mr. Erickson. Good afternoon, Mr. Chairman, members of the 
subcommittee. I appreciate the opportunity to appear before you 
to discuss the facilities and operations organizations and the 
facilities infrastructure recapitalization program.
    A year ago General Gordon, the Administrator of the 
National Nuclear Security Administration, described the 
condition of the nuclear weapons complex during testimony 
before this subcommittee. He said then: ``What I found, I must 
confess, was remarkable. Almost half of our structures are over 
50 years old, old in the sense of safety, security, 
reliability, and mission effectiveness. Many facilities do not 
meet modern health, environmental, or energy conservation 
standards.''
    I am here to say I strongly support that view and have been 
asked by General Gordon to remedy that situation. The 
priorities in the nuclear weapons complex are being refocused 
to assure a viable production and laboratory capability while 
meeting the mission requirements of our customer. The Office of 
Facilities and Operations has been established to ensure the 
vitality and the readiness of the nuclear security enterprise.
    We have wide-ranging responsibilities to focus attention on 
the physical assets of the nuclear weapons complex. Some of 
these responsibilities include institutionalizing professional 
and accountable corporate facilities management activities, 
setting policy and guidance for facilities management, and 
assessing the implementation of that policy, advocating the 
programs provide appropriate resources to restore the 
infrastructure of the complex, and developing and managing the 
facilities and infrastructure recapitalization program.
    In the facilities and operations organization, NNSA 
established the Office of Infrastructure and Facilities 
Management to oversee the implementation of corporate 
facilities management and act as the program manager for 
recapitalization activities. Bruce Scott, the Director, is a 
seasoned, experienced leader with a proven track record. I have 
tasked him directly with the responsibility to establish the 
proper level of resources necessary to restore the complex to a 
condition that supports the Stockpile Stewardship Program.
    His staff represents some of the finest facilities 
professionals we have across the complex, that have significant 
weapons program knowledge. This staff clearly understands the 
role of its mission to assure a nuclear weapons complex of 
acceptable capability and capacity.
    Responsible corporate facilities management within the NNSA 
is built upon proven industry practices, successful facilities 
programs throughout the government, academia, and the private 
sector. This together with my position as an equal member of 
the NNSA Management Council ensures that the decisions made 
concerning the physical requirements of the complex are founded 
in fact, with the understanding and agreement of the risks and 
benefits, so that we truly are managing our $25 billion 
physical plant as one corporate enterprise.
    I will now address the specific program created to help 
assure the long-term health of the enterprise. The facilities 
and infrastructure recapitalization program has been 
established to ensure that the physical infrastructure of the 
nuclear weapons complex is restored, rebuilt, and revitalized. 
The base maintenance and infrastructure is funded within 
Defense Programs, Readiness, and Technical Base and Facilities 
(RTBF) activity that Dr. Beckner has touched on. The mission of 
the RTBF program is to ensure the facilities necessary for 
immediate programmatic activities are maintained to support 
that workload. Given the variety of programmatic issues, this 
funding has not been able to focus on improving the condition 
of a deteriorating nuclear weapons complex.
    Sustained incremental, preventative, and other maintenance 
and infrastructure investments above this base are needed to 
extend the facilities' lifetimes, reduce the risk of unplanned 
system and equipment failures, increase operational efficiency 
and effectiveness, and allow for recapitalization of aging 
facility systems.
    The program will direct a portion to address an integrated, 
prioritized list of maintenance and infrastructure activities 
above current operating levels. That will increase the 
operational efficiency and effectiveness of the NNSA weapons 
complex. These activities are intended to increase the 
operational effectiveness of the entire enterprise and 
recognize our landlord responsibilities at multi-user sites, 
such as Lawrence Livermore, Los Alamos, Sandia National 
Laboratories, the Nevada Test Site, the Kansas City Pantex and 
Y-12 plants, and the Savannah River tritium facilities.
    This program alone will not refurbish the enterprise, but 
it performs a vital function to help size and complete the set 
of requirements necessary to restore the enterprise to an 
acceptable condition. It is key to maintaining the facilities 
housing the activities conducted in support of the nuclear 
weapons life extension program.
    The facilities infrastructure program has three components: 
first, recapitalization, which funds projects to significantly 
improve both facility condition and facility mission 
availability; second, facility disposition, which provides 
guidance and resources to dismantle and dispose of excess non-
process-contained facilities; and third and just as important, 
the facility planning, which ensures the requisite planning for 
the next year's recapitalization and disposition projects are 
done in a timely and cost-effective manner.
    Before addressing the fiscal year 2002 program, I would 
like to thank the subcommittee for their support of the $8.7 
million provided in the fiscal 2001 supplemental appropriation 
to begin the facilities and infrastructure recapitalization 
program. These funds were used to initiate the program, to 
establish the necessary processes, and basically give us a leg 
up to be prepared for the larger funding that followed in this 
fiscal year.
    This was followed by the $200 million provided in fiscal 
year 2002, which was supported by your committee, and we 
appreciate that. The objective of the 2002 program is to arrest 
the deterioration of the nuclear weapons complex that is 
occurring this year. We have identified 81 recapitalization 
projects costing approximately $137 million. Our program goals 
this year are to address the areas of failed roofing, to 
correct urgent atmospheric control, water, and electrical 
system repairs, and to address a significant level of deferred 
maintenance activities.
    Upgrading and replacing the HVAC systems in central 
manufacturing and laboratory facilities are in progress. We 
have begun renovation of mission-essential buildings to permit 
more effective and efficient operation and consolidation of 
personnel. We have scheduled 19 planning projects costing 
approximately $9 million. These are high-priority 
recapitalization and facilities disposition projects which are 
scheduled for execution in the following fiscal year.
    With regard to facilities disposition, we have begun 33 
projects costing approximately $50 million that will eventually 
reduce the footprint of the NNSA enterprise by some 500,000 
square feet.
    Looking ahead to fiscal year 2003, we plan to undertake the 
following: fund the recapitalization at approximately $180 
million, which will continue to stabilize the overall condition 
of the nuclear weapons complex. Projects will be funded from an 
integrated, prioritized list using the 10-year comprehensive 
site plans for input from each site.
    Planning conducted in fiscal year 2002 will lay the 
foundation for the recapitalization projects to be executed in 
2003. Planning and project preparation completed at this point 
saves time, money, and effort in the coming year.
    Facilities disposition will continue at the same pace as 
fiscal year 2002, supporting a further footprint reduction by 
at least another 500,000 square feet of excess facilities.
    The NNSA approach to management of its facilities and 
infrastructure is a corporate one. Dr. Beckner has described 
the programmatic approach and the use of Readiness and 
Technical Base and Facilities funding. I have just covered the 
facilities and infrastructure recapitalization program. He is 
the line program manager for the sites. I support his program 
needs. This is a team effort to improve the NNSA Stockpile 
Stewardship Program.
    The path forward: Let me describe it briefly. The various 
assessments, both ours and independent parties', clearly 
describe the general long-term financial commitment and 
management effort required to establish a capable and credible 
physical complex to continue to support the Stockpile 
Stewardship Program. These assessments make a strong case for 
continuation of this program. Our program this year will begin 
to correct the deteriorations we have seen over the past 
decade.
    Over the next several years we will ensure the 
stabilization of the condition of the complex and in places 
actually make a marked improvement. As an example, we need to 
target significant deferred maintenance backlogs which we have 
built up over the last decade. This area costs us dearly in 
current corrective maintenance and threatens unacceptable 
mission down time. It is NNSA's intent to stabilize our 
deferred maintenance backlog by fiscal year 2005 and 
aggressively reduce it to within industry standards by fiscal 
year 2009.
    We want to return our facilities' condition to a level of 
good to excellent, not where we are today. Likewise, we need to 
dedicate the resources to maintaining the new facilities that 
we are bringing on line at the same assessment level. Dr. 
Beckner has talked about NIF and the other two facilities that 
currently are in process. We must continue the efforts we have 
underway to reduce the significant amount of excess facilities.
    We owe our work force, which is our most valuable resource, 
a professional working environment in which to carry out our 
national security mission. I am convinced this program will be 
able to execute the foregoing deliverables within the funding 
levels and the time lines we propose. We will ultimately close 
out this program by merging it into the core NNSA programmatic 
components. Given the continued support by this committee, my 
vision is to complete this activity within the next 15 years.
    The most challenging issue facing General Gordon and the 
NNSA is to maintain your continued support. The NNSA critically 
assessed itself. The complex was determined to be failing. We 
have taken responsible actions by citing the problem and 
providing a reasoned and thoughtful solution. Money, though 
very important, is not the complete solution. Under General 
Gordon's leadership, we have refocused our management on the 
importance of maintaining the weapons complex.
    Fiscal visibility and accountability are in place to manage 
and allocate scarce resources. Close cooperation with the 
programs serves as a check and balance on proposed project 
priorities. Metrics are in place to determine our progress. 
Finally, the merging of all this forms a solid program 
facilities management.
    The nuclear weapons complex is a vital component of our 
national nuclear security strategy. The NNSA has organized and 
managed this challenge. Long-term funding support is crucial to 
our success. We expect to be held accountable.
    Thank you for the opportunity to report our progress and 
make our case for fiscal year 2003 funding. I will be happy to 
answer any questions that you may have now or for later 
submission. Thank you.
    [The prepared statement of Mr. Erickson follows:]

                Prepared Statement by Ralph E. Erickson

    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to come before you to discuss the condition of the 
facilities and infrastructure of our vital nuclear weapons complex. 
With your support, we have begun the tough, but crucial, road to 
recovery of the complex. While only in the first stage of a long 
journey, probably of some 10 years or so, I feel we have a solid story 
to tell you. Let me explain about the start of the recovery of the 
nuclear weapons complex, and especially the improved management and 
accountability with which we are undertaking the recovery.

                CONDITION OF THE NUCLEAR WEAPONS COMPLEX

    Approximately a year ago, General Gordon, Administrator of the 
National Nuclear Security Administration, testified before this 
subcommittee and others describing the condition of the nuclear weapons 
complex. At that time, he provided his assessment of what he had seen 
following visits to each site in the nuclear weapons enterprise. Some 
of his words and findings bear repeating. ``What I found, I must 
confess, was remarkable. Almost half of our structures are over 50 
years old--old in the sense of safety, security, reliability, and 
mission effectiveness. Many facilities do not meet modern health, 
environmental, or energy conservation standards. They are costly to 
maintain, and difficult to keep in regulatory compliance. It is in such 
facilities we ask some of the most brilliant scientific and technical 
minds and some of the most productive people in the country to work.'' 
He added, ``The physical complex requires attention and we must act 
soon, because it is unprofessional, it's inefficient, it's wasteful of 
resources, it's potentially dangerous, and it sends exactly the wrong 
message to the professionals we want to attract and keep in this 
endeavor.''
    His assessment built upon the findings of studies of which you are 
aware--all reaching the same conclusions. Defense Programs, in their 
Facilities and Infrastructure Assessment 2000; and the Foster Panel's 
February 2001 assessment of the ``Reliability, Safety, and Security of 
the United States Nuclear Stockpile'' found that ``the nuclear weapons 
complex is old, the infrastructure, a necessary part of the complex, 
has been neglected, and is not funded adequately.'' Specific details 
focus the concern: maintenance backlog is increasing by well over $100 
million a year, and has reached some $700 million; unfunded priority 
facility requirements are still increasing by about $200 million a 
year; and, possibly of greatest concern, facility and infrastructure 
conditions of the complex continue to deteriorate. In 1995, 57 percent 
of the complex was in an ``excellent to good'' condition, but by 2000 
had deteriorated to only 27 percent. ``In addition, facilities 
management is fragmented, is without uniform standards and in difficult 
times has served as bill payer for higher priority science and 
production programs across functional areas.'' These studies make the 
clear case that additional funding must be committed annually for at 
least 10 years to restore, rebuild, and revitalize a very fragile 
nuclear weapons complex.
    The recent Nuclear Posture Review highlighted concerns over the 
inadequate condition of the nuclear weapons complex in its report to 
Congress: ``A major challenge for nuclear weapons programs over the 
next two decades will be to refurbish, and thereby extend the life of, 
at least seven types of warheads. . . . In order to carry out this 
plan, NNSA has initiated efforts to recapitalize deteriorating 
facilities (or build entirely new facilities), restore lost production 
capabilities and modernize others. . . Initiatives to restore the 
production infrastructure will represent a sustained long-term effort 
and will be critical to ensuring an effective, balanced stewardship 
program for the Nation's nuclear deterrent and for the New Triad.''
    In the final Foster Report, Dr. Foster builds on the NPR finding. 
He reported to Congress in March 2002, alluding to the decision to 
conduct ``extensive refurbishment in the coming decade'' of additional 
warhead types that ``This work entails new materials and production 
methods and modified designs. It must be done in a weapons complex that 
has atrophied to a point not fully appreciated by many.''
    In today's world, irredeemably changed by the horrors inflicted 
upon our Nation last September, the question of whether a revitalized 
nuclear weapons complex is worth an investment of this magnitude is 
self-evident. As long as nuclear weapons remain a component of this 
Nation's strategic response, then the capability to develop and 
reliably produce nuclear weapons is critical. A diminished capability 
and capacity within the physical complex undermines the deterrent value 
of the weapons programs developed there. This is not just an 
undermining of the strategic interest of the Nation, it could invite an 
adversary to either question our resolve or believe in the viability of 
a nuclear arms race. Dr. Foster's compelling report frames the issue 
clearly in technical, strategic, and political terms. He concludes, 
``But we don't have an alternative. We have to maintain the deterrent. 
It is decaying and has to be replaced.''
    General Gordon clearly understands that the facilities, 
infrastructure, maintenance, and recapitalization have been under 
funded far too long. The priority earlier had been properly given to 
establishing the Stockpile Stewardship Program. Attention to the 
infrastructure was put on hold while the science based stewardship 
program was formulated, funded, has taken hold, and is now working. He 
recognized in his report to Congress last year that the time had come 
to refocus on the physical complex, which houses the Stockpile 
Stewardship Program. Setting the scene for what I will report on today, 
he gave his commitment to provide the necessary leadership to improve 
the condition of the complex, ``Our facilities require attention. 
Others have found, as we have, shortcomings, regarding the condition of 
the complex. Improving the facilities and infrastructure of the NNSA is 
a high priority, but we need your help, and I am prepared to work with 
you to this end. I have a detailed plan of how to proceed. Dollars 
alone, while vital, are only one part of the solution. As significant, 
possibly more, is my plan to bring focus, process, rigor, and 
accountability to our work of recovering our facilities and 
infrastructure. Facility management is a standard business practice of 
most major organizations. It is being reengineered within the NNSA. We 
have established an office to manage the facilities and infrastructure 
of the nuclear weapons complex. We are refocusing on long term 
planning, establishing the processes--absent too long--that will 
institutionalize the procedures, standards, and expectations for the 
complex.''
    General Gordon's message was heard, understood, and decisively 
responded to by Congress. Some $8.7 million was provided in the fiscal 
year 2001 Supplemental Appropriation. The Fiscal Year 2002 Energy and 
Water Development Act provided $200 million to the NNSA's Facilities 
and Infrastructure Recapitalization Program (FIRP). At the same time, 
the NNSA is furnishing visibility and accountability in the execution 
of these resources, which serve as the basis for its corporate 
management approach to restoring the weapons complex to an acceptable 
condition.
    This significant funding, which you have provided, allows us to 
begin the long, tough effort to restore, rebuild, and recapitalize the 
nuclear weapons complex. My objective today is to provide you an 
explanation, in some detail, of what actions we in the NNSA have put in 
place over the last year. Since General Gordon last discussed his 
facilities and infrastructure requirements with you, he has directed a 
series of major changes to ensure that we will successfully and 
responsibly manage this major undertaking.

                             REORGANIZATION

    As explained in the February 25, 2002, Report to Congress on the 
Organization and Operations of the NNSA, a new organizational 
component, Facilities and Operations, which I head, has been 
established to ensure the vitality and readiness of the nuclear 
security enterprise. Facilities and Operations have a series of wide-
ranging responsibilities, which will allow the requisite attention to 
be placed on the physical assets of the nuclear weapons complex. Some 
of these responsibilities include: institutionalize professional and 
accountable corporate facilities management activities throughout the 
NNSA; setting policy and guidance for facilities management, and 
assessing the implementation of these across the complex; advocating 
that the programs provide appropriate resources to restore the 
infrastructure of the complex; and developing and managing the 
Facilities and Infrastructure Recapitalization Program, which I will 
explain in more detail a bit later. Responsible corporate facility 
management within the NNSA is built upon common industry practices of 
successful facility programs throughout the government, academic, and 
private sectors. Possibly the most important changes General Gordon has 
effected is to bring focus to the condition of our facilities and 
infrastructure, and tasking my organization to be ``the empowered 
advocate for the stewardship of the complex.'' This, together with my 
membership on the NNSA Management Council, ensures that decisions made 
concerning the physical assets of the complex are founded in fact, with 
understanding and agreement of the risks and benefits, so that we are 
truly managing our $25 billion physical plant as a corporation.
    To assist me in managing this undertaking, NNSA established within 
my component the Office of Infrastructure and Facilities Management. 
This office specifically oversees the implementation of corporate 
facilities management, and is the program manager for the 
recapitalization of the complex. To lead the program, the NNSA has 
selected a seasoned, experienced, leader--Bruce Scott. Mr. Scott 
trained outside the Department and has a proven track record. He is 
chartered with establishing a robust corporate facilities management 
process across the complex. I have charged him with the responsibility 
for establishing the proper level of resources necessary to restore the 
complex to a condition that supports the deterrent value of the 
Stockpile Stewardship Program. His staff represent some of the finest 
facilities professionals we have across the complex at all levels of 
seniority, and are a welcome blend of headquarters and field, with 
significant weapons program knowledge. The office clearly understands 
the support role of its mission, where its efforts are, from a 
strategic sense, to ensure a nuclear weapons complex of acceptable 
capacity and capability.
    The NNSA has initiated a corporate rededication to our core values, 
mission, and vision. NNSA has formalized this in our recently published 
Strategic Plan of February 2002. Within this plan is a strong statement 
as to the importance of our facilities. We note, ``substantial effort 
is required to restore our facilities to ensure adequate capability . . 
.'' NNSA has codified its expectations that we are corporately 
committed to professionally manage our facilities and infrastructure. 
In the Strategic Plan infrastructure and facilities are addressed by 
Strategic Goals 4: ``Ensure the Vitality and Readiness of the NNSA's 
Nuclear Security Enterprise.'' Our strategy is to ``Provide state-of-
the-art facilities and infrastructure supported by scientific and 
technical tools to meet operational and mission requirements''. To 
support this strategy are two strategic indicators: ``Ensure facilities 
are available to perform our mission'' and ``Implement NNSA's 
Facilities and Infrastructure Recapitalization Program.''
    The NNSA reorganization has also significantly improved our 
corporate planning, programming, and budgeting. The reorganized budget 
processes provide significant benefit to our recovery efforts for the 
complex by ensuring a focused and corporate approach. You are aware of 
our efforts at establishing a longer term funding plan for the NNSA 
enterprise, codified in our FYNSP. Within this plan are included our 
specific direction for our recapitalization of the complex, the 
Facilities and Infrastructure Recapitalization Program (FIRP), which I 
describe below. We have laid out a credible and responsible funding 
program for the FIRP:

                                  FUTURE YEARS NATIONAL SECURITY PLAN ESTIMATES
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                     Fiscal Year
                                                                    --------------------------------------------
                                                                       2003     2004     2005     2006     2007
----------------------------------------------------------------------------------------------------------------
Facilities and Infrastructure Recapitalization Program.............      243      290      340      390      440
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2002 funding of $200 million provided a start-up 
that was large enough to make a clear positive impact across the entire 
complex, yet also manageable for a beginning program. I would add that 
the $8.7 million supplemental at the end of fiscal year 2001 was an 
excellent device to allow us to pilot in a hands-on manner, to prepare 
to execute professionally the current program. We have requested a 
ramp-up of some $50 million annually which we think is mandatory to 
effectively recover the complex. This ramp-up will allow NNSA to ensure 
processes are in place across the complex so that we demonstrate to you 
credible deliverables, efficiently managed, and fiscally accountable. 
It is easy to throw money at projects, it is hard work to manage them 
responsibly, and harder still to infuse accountability in an 
organization, which has been criticized for many years for weaknesses 
in this area.
    So far, I have explained the NNSA organizational restructuring that 
allows a professional focus on our facilities, and the near-term 
funding we have planned to begin the recovery of the complex. I'll now 
address the specifics of the recovery plan itself.
   the facilities and infrastructure recapitalization program (firp)
    The Recapitalization Program is established to ensure that the 
NNSA's contribution to the administration's strategic goal of 
maintaining a safe, secure, and reliable nuclear deterrence is fully 
supported. Its mission is to restore, rebuild, and revitalize the 
physical infrastructure of the nuclear weapons complex. The base 
maintenance and infrastructure efforts at NNSA sites are primarily 
funded within Defense Programs' Readiness in Technical Base and 
Facilities and through site overhead allocations. These efforts focus 
on ensuring that facilities necessary for immediate programmatic 
workload activities are maintained sufficiently to support that 
workload. Given the divergent requirements of programmatic issues, this 
funding has not been able to focus on improving the condition of a 
deteriorating nuclear weapons complex. Sustained, incremental, and 
preventive and other maintenance and infrastructure investments above 
this base are needed to extend facility lifetimes, reduce the risk of 
unplanned system and equipment failures, increase operational 
efficiency and effectiveness, and allow for recapitalization of aging 
facility systems. This is the specific focus, attention, and management 
responsibility of the Facilities and Infrastructure Recapitalization 
Program. It will apply new, increased, direct appropriations to address 
an integrated, prioritized list of maintenance and infrastructure 
activities, above current operating levels, that will significantly 
increase the operational efficiency and effectiveness of the NNSA 
weapons complex sites. FIRP activities are intended to increase the 
operational effectiveness of the entire sites and will recognize NNSA's 
landlord responsibilities at these multi-user sites: the Lawrence 
Livermore, Los Alamos, and Sandia National Laboratories; the Nevada 
Test Site, including the North Las Vegas Facility; the Kansas City, 
Pantex, and Y-12 Plants and the Savannah River Tritium Facilities. The 
FIRP alone will not refurbish the complex, but it performs a vital 
function to help size the complete set of requirements necessary to 
restore the complex to an acceptable condition. It is key to 
maintaining the health of the facilities that house the activities 
conducted in support of the life extension programs. These programs are 
supported by the Defense Department as vital to deterrence and the 
strategic force multiplying effect it has regarding the stockpile.
    The program has three interlocking and complimentary components. 
The major effort identifies recapitalization projects, which will 
significantly improve both facility condition and facility mission 
availability. Criteria for the selection of these projects are those 
maintenance backlog and infrastructure activities, currently unfunded, 
that will significantly improve the physical conditions and mission 
availability, as well as address the infrastructure responsibilities, 
of the NNSA nuclear weapons complex. These activities are vital to the 
accomplishment of program, yet they are not tied to a specific Campaign 
or Directed Stockpile Work. Because of their cross cutting nature, they 
have not previously achieved priority within strictly programmatic 
budget reviews, with adverse impact to the complex. Recapitalization 
targets specific, individual projects to ensure clear visibility of 
improvements: discrete backlogged maintenance projects; non-
programmatic General Plant Project (GPP) improvements and construction; 
capital equipment purchases; etc.
    An additional important consideration of the program is the 
inclusion of projects that provide cost saving and investment payback. 
NNSA's analysis of facilities and infrastructure identified in their 
assessment report--2000 that, too frequently, due to the absence of 
preventive maintenance, facilities were being run to failure. Projects 
in this program provide an immediate positive effect on the condition 
of a given facility, and result in the saving of maintenance dollars--
in the long term, preventive maintenance costs are significantly less 
than corrective maintenance actions.
    The second component, Facility Disposition, provides funds to 
dismantle and dispose of excess non-process contaminated facilities. 
Disposition reduces environmental, safety and health, and safeguards 
and security challenges, and thus costs for those deactivated 
facilities and infrastructure that are excess to current and future 
mission requirements. These actions are taken at the end of the life of 
a facility to retire it from service, to reduce the overall footprint 
of the complex, and to reduce safeguards and security requirements and 
long-term costs. These actions will improve our ability to manage the 
facilities portfolio. They enable the necessary footprint reduction of 
the complex. The Fiscal Year 2002 Energy and Water Development 
Appropriations Act conference report directed the NNSA to allocate 25 
percent of the appropriated dollars for the recapitalization program to 
reduce the NNSA footprint by the elimination of excess facilities.
    The third component, facility planning, ensures the requisite 
planning for next year Recapitalization and Disposition projects, to 
include project base lining and readiness to obligate funds. It also 
funds assessments to support the prioritization of backlogged 
maintenance and facility consolidation efforts. Finally, it provides 
for planning and conceptual design of high priority general 
infrastructure projects. Within this effort is the development of 
analytical methods and tools for establishing credible restoration 
plans for each NNSA site using the newly-revised 10-year comprehensive 
site plans; infrastructure assessments to support the FIRP 
prioritization of maintenance and facility consolidation efforts; and 
planning and conceptual design activities for future priority landlord 
infrastructure line item construction projects, specifically targeting 
utilities improvements.
    With the Facilities and Infrastructure Recapitalization Program at 
work, the nuclear weapons complex is on the verge of realizing 
improvements, upgrades, and facility life extensions that can be 
measured. Nuclear deterrence through capability is established on the 
bedrock of a reliable complex. Possibly for the first time within the 
NNSA, corporate facility management is coming on line; it has the 
potential to enable and empower governance and stewardship of the NNSA 
for the physical complex.

 FACILITIES AND INFRASTRUCTURE RECAPITALIZATION PROGRAM EXECUTION FOR 
                            FISCAL YEAR 2002

    The principal objective of the fiscal year 2002 FIRP is to arrest 
the deterioration of the nuclear weapons complex occurring this year. 
The NNSA has identified 81 recapitalization projects for execution in 
fiscal year 2002, costing $137.7 million. The principal thrusts of the 
fiscal year 2002 program are to attack the areas of failed roofing; 
correct urgent atmosphere control, water, and electrical system 
repairs; and address a significant level of deferred maintenance 
issues. Upgrading and replacing HVAC systems for essential laboratory 
and manufacturing facilities are planned. We begin general plant 
construction projects; and renovation of mission essential buildings to 
permit more efficient operations and consolidation of personal are 
undertaken. Some specific examples, site-by-site, follow:

        <bullet> Kansas City Plant--Replace and upgrade chillers, air 
        handling, and dehumidification systems supporting essential 
        production buildings. These projects provide environmental 
        controls related to manufacturing processes, in support of 
        reservoir and Lifetime Extension Programs for the W-76 and W-80 
        weapons programs. Execute the new Tri-Plant Roofing Partnership 
        for repairs to Kansas City, Y-12, and Pantex roofs.
        <bullet> Los Alamos National Laboratory--Construct four new 
        buildings that consolidates laboratory and support functions 
        into modern, safe, and efficient spaces and removes costly, old 
        temporary structures.
        <bullet> Pantex Plant--Undertake the most critical of a large 
        backlog of essential roofing repairs for vital production 
        buildings. Begin to work down the large deferred maintenance 
        backlog throughout the plant; and complete repairs and upgrades 
        to essential emergency and life safety systems. These projects 
        support the Life Extension Programs, High Explosive Operations, 
        and the W-76 and W-80 weapons programs.
        <bullet> Sandia National Laboratory--Refurbish three critical 
        laboratory and test facilities, including their structural, 
        utility, and power systems and test equipment. These facilities 
        were at risk of losing capabilities supporting the Defense 
        Programs mission in weapons qualifications, development, 
        investigation, modeling, and simulation.
        <bullet> Lawrence Livermore National Laboratory--Building 
        improvements include the replacement and upgrade to mechanical 
        systems, including HVAC units, air conditioners, air handlers, 
        fans, HEPA filters, and fan controls; electrical systems, and 
        other components. Process improvements include an upgrade to 
        the operational capability at the S-300 high explosive 
        facility, to improve the processing of high explosive parts, 
        and the integration of new computer controls. These projects 
        also provide for improved machine tool reliability, new high 
        explosives equipment and tools in support of mission essential 
        weapons qualifications activities.
        <bullet> Nevada Test Site--Projects concentrate on improvements 
        to communications and safety systems. Older communications 
        systems are being replaced with fiber optic cable, and upgrades 
        are planned for emergency, fire, and remote radiation alarms at 
        test facilities.
        <bullet> Savannah River Site--Projects at the Savannah River 
        Site include the improvement to the telecommunications 
        distribution network within the tritium area. These projects 
        also replace and upgrade the hydride bed portion of the thermal 
        cycling absorption process necessary for tritium production.
        <bullet> Y-12--Large scale roof repairs and addressing the 
        significant maintenance backlog throughout the site are 
        underway. Other repairs and improvements will be made to 
        incinerators, steam coils, power panels, oil storage 
        facilities, transformer stations, lighting, and flooring 
        systems. Specific facilities upgraded include the nitric acid 
        pickling tank, and the replacement of bond strand piping, which 
        transports waste effluents from the steam plant to the 
        treatment facility. The concrete spalling from the ceiling of 
        part of the production complex, discussed as a striking example 
        of our facility concerns by General Gordon in his earlier 
        testimony, is being addressed. These activities support, among 
        others, the W-87 Weapons Programs, and production work for the 
        Joint Test Assemblies.

    We have scheduled 19 infrastructure planning projects, costing 
approximately $9.2 million. These are high priority FIRP 
recapitalization and facility disposition projects scheduled for 
execution in fiscal year 2003. A representative sample of these 
projects includes: design of chilled water, steam, and condensate 
piping systems at Kansas City; corrective maintenance projects for Los 
Alamos; Sandia is designing HVAC, reactor cooling system replacements 
and upgrades. At the Nevada Test Site, major improvements are planned 
for the Test Site water system, including refurbishing multiple tanks 
representing some 2 million gallons of potable water, replacing 
pipeline and upgrading electrical support services, and addressing 
seismic and structural issues. Savannah River projects include 
electrical component replacements and communications upgrades.
    The FIRP is conducting 33 facility disposition projects this year, 
at an estimated cost of $50 million. The funding level is directed by 
the Fiscal Year 2002 National Defense Authorization Act. Execution of 
these projects reduces the footprint of the overall NNSA holdings by 
some 500,000 square feet. The projects selected will remove about 217 
buildings and structures. The largest footprint reductions will be at 
Y-12 and the Nevada Test Site. One-third of the facility disposition 
funding was allocated to Y-12 ($17 million) given the NNSA's commitment 
to aggressively reduce the footprint at that site. Security 
improvements at Y-12 and Pantex accrue due in part to a smaller 
``limited area.'' At Savannah River Site, Sandia National Laboratory, 
and Los Alamos National Laboratory, footprint reductions free up key 
locations. Once cleared new programmatic needs will be satisfied and 
facility consolidation can occur. Reductions to environmental, safety, 
and health risks are achieved at Nevada Teat Site (reducing worker 
exposure to rodent borne Hanta Virus), Y-12 (safety issues due to 
deteriorating structures), and at Lawrence Livermore and Sandia 
National Laboratories (structural roofing concerns). In addition, 
savings will begin to accrue for many sites as the disposition of 
excess facilities reduces the NNSA's burden of surveillance and 
maintenance operations currently required to ensure these excess 
facilities remain in a safe condition.

                    INTENTIONS FOR FISCAL YEAR 2003

    The NNSA is shaping the foundation for a professionally managed 
infrastructure. Many aspects of our approach to corporate facility 
management are undergoing process improvement. This includes those 
processes used to manage the Recapitalization Program. The successful 
implementation of 10-year comprehensive site plans (TYCSP) forms the 
foundation for bottoms-up recommendations for recapitalization 
projects. Looking ahead, in fiscal year 2003, the program plans to 
undertake the following:

        <bullet> Fund the recapitalization component at about $180 
        million, which will begin the stabilization of the overall 
        condition of the nuclear weapons complex. Projects will be 
        funded from an integrated, prioritized list using the fiscal 
        year 2003 TYCSP inputs from each site.
        <bullet> Planning conducted in fiscal year 2002 will be 
        executed in fiscal year 2003, allowing acceleration of the pace 
        of conducting the recapitalization projects (e.g. long lead 
        materials are ordered, cost estimates are more accurate, 
        management is in place).
        <bullet> Facility Disposition will continue at the same pace as 
        fiscal year 2002, supporting a further footprint reduction of 
        some 500,000 square feet of excess facilities.

                           CORPORATE APPROACH

    The NNSA approach to management of its facilities and 
infrastructure is corporate. Dr. Beckner has described his programmatic 
approach, and the use, which he makes of his Readiness in Technical 
Base and Facilities funding. I have just covered my Facilities and 
Infrastructure Recapitalization Program. He is the line program manager 
for the sites, I support his program needs. Our efforts meld well 
together for the improvement of NNSA's corporate governance. For 
facilities especially, our programs are truly complimentary. The FIRP 
provides the ability to plan in advance which major projects the sites 
can undertake on an annual basis, without the risk of internal 
reprogramming to non-facility issues. It makes significant, visible, 
and very positive differences at the sites, supporting program and 
mission. This is a major improvement in the management of facilities. 
Previously, sites could rarely undertake large scale improvement 
efforts because the dollars to do so never seemed to make the priority 
``cut.'' Since FIRP is a stand alone program, directly focused on 
facility improvements, it compliments Defense Programs activities. 
Close cooperation exists among the field professionals, headquarters, 
and with the scientific and production program offices of Defense 
Programs and Facilities and Operations to corporately restore the 
complex. This is as true in my corporate facility management 
responsibilities as it is with the funded programmatics such as FIRP 
and RTBF. A specific example will be illustrative.
    TYCSPs are the foundation for NNSA complex-wide facilities and 
infrastructure strategic planning, and the cornerstone of the effort to 
restore, revitalize, and rebuild the complex. The TYCSPs focus 
management attention on current and future facility and infrastructure 
needs at each site in support of Directed Stockpile Work and campaign 
programmatic requirements. It provides a resource-constrained plan 
consistent with site-specific funding profiles provided by the NNSA 
from the FYNSP for meeting these needs. We have not really had credible 
site planning tools before. These TYCSPs are one of a series of 
corporate facility management processes which my organization is 
bringing on line as part of the NNSA reorganization. It allows NNSA to 
make comparisons and informed corporate planning; and empowers the use 
of metrics, benchmarks, and performance objectives complex-wide. The 
ability to realistically plan and execute toward the desired and 
intended complex of the future is possible. Formal feedback between 
headquarters, field, and the contractors, linking budget realities with 
technical requirements, allows NNSA to begin managing our physical 
complex as a corporation. Institutionalizing the TYCSPs into NNSA's 
business ethic across the complex is a major step toward corporate 
governance and accountability. I mentioned that this is a corporate 
approach: The TYCSPs provide both Dr. Beckner, who has the line 
responsibility for the sites, and myself, who provides support and 
manages the FIRP, information we both need in our separate areas. I 
manage the TYCSP process, and Defense Programs is the major customer of 
the deliverables. There are close working partnerships between our 
organizations throughout the TYCSP process. This allows each to focus 
on our areas of expertise, and is truly a success for the NNSA.

                         FIRP--THE PATH FORWARD

    I have explained the significant efforts the NNSA has underway to 
address the recapitalization of the nuclear weapons complex. Let me lay 
out the path ahead, as we see it today. The various assessments, both 
ours and of independent parties, clearly describe the general long-term 
financial commitment and management effort required to establish a 
capable and credible physical complex to support the Stockpile 
Stewardship Program. These assessments make a strong case for a minimum 
effort of some additional $500 million annually for 10 years or more. 
Our efforts with the FIRP recovery program to date fall in line with 
this programmatic level of effort. It is quite apparent that our 
program this year, our $200 million, will probably arrest the 
deterioration we see occurring on an annual basis. Over the next 
several years of the ramp-up of the FIRP program, we will ensure the 
stabilization of the condition of the complex, and in places begin to 
make marked improvements in discrete areas. As an example, we need to 
target the significant deferred maintenance backlog which we have built 
over the last several years. This area costs us dearly in corrective 
maintenance and threatens unacceptable mission downtime. It is the 
price we now pay, along with many other undesirable effects, from large 
scale chronic underfunding of facilities. It is the NNSA's intent to 
stabilize our deferred maintenance backlog by fiscal year 2005, and 
aggressively reduce it to within industry standards by fiscal year 
2009. This is not just a funding issue, it is also a significant 
management effort to address this competently--but without the funding, 
no management program would succeed. We want to return our facility 
conditions, for our programmatic facilities and specific other 
important infrastructures at a minimum, to an assessment level of 
``good to excellent.'' Likewise, we need to dedicate the resources to 
maintaining the new facilities we are bringing on line at that same 
assessment level. We must continue the efforts we have underway to 
reduce our significant amount of excess facilities. Beyond the costly 
surveillance and maintenance bills that accrue, and the long-term risks 
and hazards involved, we owe our work force, our most valuable 
resource, a professional working environment in which to carry out the 
national security mission. Finally, but most important, we will have 
institutionalized responsible and accountable facility management 
processes, including budgetary ones, so that the NNSA does not revert 
to the practices of the past that have given us the results currently 
seen at Y-12, Los Alamos, Pantex, and others.
    The NNSA feels that this program will be able to execute the above 
deliverables within the funding levels and timeline we propose. We will 
close out this program, merging it into the core NNSA funding 
components, when we accomplish our mission. I must caution that this 
undertaking is only in its infancy. We have the situation currently, 
the major recovery challenge, because of long-term inattention. It will 
take long-term attention, managed on a day-to-day basis, to recover. I 
would offer that until we truly begin to turn the corner on the 
recovery of the complex, any more specific plans on the end game, as it 
were, for this program would be premature.

                                 ISSUES

    The issues that face the NNSA as it executes the Facilities and 
Infrastructure Recapitalization Program are typical of any large 
corporation undergoing change. Principal among them is the challenge of 
changing the culture of the past. We are dedicated to the principle 
that the past is not prologue to the future. As outlined, policies, 
plans, and actions are being put in place to embed the culture of 
professional corporate facility management. The new NNSA offices that 
manage this effort are populated with dedicated facility professionals. 
For the most part, this program is being embraced. Among some, a wait-
and-see reaction is manifest. General Gordon's commitment to you is 
that we are prepared to prevail over our critics, and maintain the 
program at a very high level for a very long time. I am confident that 
through demonstrated performance, corporate facility management will 
thrive.
    However, the most challenging issue facing us is to convince you 
and your colleagues that despite the expense and length of the FIRP, 
the NNSA is earning and warrants your continued support. Simply stated, 
the NNSA has critically assessed itself: the complex was determined to 
be failing. We have taken responsible action by citing the problem and 
providing a reasoned and thoughtful solution. Money, though very 
important, is not the complete solution. Management, if not broken, was 
certainly unfocused and inattentive, having lost sight of the 
importance of maintaining the weapons complex. Today, we report that 
responsible management practices are established, operating, and 
showing results. Fiscal visibility and accountability are in place to 
husband scarce resources. Close cooperation with the programs serves as 
a check and balance on proposed project priorities. Metrics are in 
place to determine progress. Finally, the merging of all this combines 
to a solid program of corporate facilities management comparable, we 
believe, to the best programs in government.

                                SUMMARY

    The nuclear weapons complex is a vital component of our national 
nuclear security strategy. In its current condition it is potentially a 
weak link, which is receiving immediate attention. Congress has taken 
the first restorative steps. The NNSA is organized to manage the 
challenge. Long-term funding support is crucial to our success. We 
expect to be held accountable. Thank you for the opportunity to report 
our progress and make the case for the future.

    Senator Reed. Thank you, Mr. Erickson.
    We will engage in at least one 6-minute round of questions. 
Let me begin by asking a question of Dr. Beckner. In your 
formal testimony you state that NNSA has started an advanced 
concept initiative because current nuclear weapons in the 
stockpile cannot ``hold at risk a growing number of targets 
deeply buried in tunnel facilities.'' Is the Robust Nuclear 
Earth Penetrator (RNEP) the first of the projects in this 
initiative?
    Dr. Beckner. Yes.
    Senator Reed. What do you mean by the term ``hold at 
risk,'' Dr. Beckner?
    Dr. Beckner. The Nuclear Weapons Council (NWC) has 
determined, after receiving input from various parts of the 
Government, that a target set, generally defined as deeply 
buried and hardened, cannot presently be held at risk with the 
arsenal that is available, or you might say is not easily held 
at risk with that present arsenal, and has instructed the 
laboratories through the NNSA and the Air Force as the DOD 
agent should explore the modification of two existing weapons 
to determine if they could be used against such targets 
effectively.
    That is the program that has been authorized by the NWC and 
the one that we are presently contemplating getting started.
    Senator Reed. It seems, if you listen to the response, 
doctor, that you defined ``held at risk'' as ``hold at risk.'' 
Are we talking about totally destroying a target? Are we 
talking about closing the earth so that whatever is down there 
cannot emerge?
    Dr. Beckner. You are getting into an area that we do not 
normally take responsibility for. Generally, we are requested 
to develop the understanding of the performance of a nuclear 
device under certain conditions. The effectiveness of that 
device against a particular target is ``not our business.'' 
What is our business is responding to the requirements that are 
specified to us.
    In this case, the requirements are that such a weapon would 
be able to penetrate to a certain depth in a certain form of 
earth and still operate successfully.
    Senator Reed. Do you have other projects that will be 
included in this initiative?
    Dr. Beckner. Not at this time. It is quite specific as to 
what they have asked us to do.
    Senator Reed. Now, I know your response was essentially 
that you have been given some very specific parameters and you 
are really modifying a weapon to conform to those parameters.
    Dr. Beckner. That is correct.
    Senator Reed. But certainly this whole project raises an 
issue that, if a conventional weapon could not either 
penetrate, destroy, or seal an underground passage, would a 
relatively small nuclear weapon, one kiloton or less, be able 
to address the problem? I presume that is the range you are 
operating in.
    Dr. Beckner. No, it is not. The two weapons (B61, B83) that 
we have been asked to consider are both relatively higher yield 
weapons. They are not low-yield weapons.
    Senator Reed. But again, from your response, the specific 
target or the effect on the target is something that you just 
do not know? It is not part of your responsibility?
    Dr. Beckner. That is not part of what we have been assigned 
to do at this time. This is specifically to explore the ability 
to survive the environment as specified and to function.
    Senator Reed. Thank you.
    Dr. Beckner, turning for a moment to the Nuclear Posture 
Review, there are various categories of nuclear weapons. They 
have been discussed generally, and indeed the stockpile is 
generally divided into two broad categories, active and 
inactive. Can you define the active stockpile from the DOE 
perspective, and are there differences between the number of 
warheads in the active stockpile according to the 1994 review 
and the number of warheads in the active stockpile in the 
December 2001 review?
    Dr. Beckner. Well, there are certainly differences in that 
the category that was previously described as active, I think 
within the context of today's understanding of the NPR, is 
larger than what we would now identify as operationally 
deployed. It has more or less been put into two parts, one part 
being operationally deployed and the other part being the 
responsive force. In the past, we might have viewed those as 
all part of the active stockpile. Then as you say, there is yet 
a third part, described as inactive; and finally, those weapons 
that are retired. But the difference that has occurred as a 
result of the NPR is largely in the distinction between those 
that are operationally deployed and those that are in the 
responsive force.
    Senator Reed. Well, perhaps another question. The active 
stockpile, they will be fully maintained, modernized, and 
loaded with tritium?
    Dr. Beckner. Yes.
    Senator Reed. Will there be any subcategories, any 
differences in the active stockpile, or they will all be 
treated the same?
    Dr. Beckner. Let me answer in a fairly complicated way. For 
the active, the operationally deployed, those will be fully 
prepared, tritium, everything ready to function. In the case of 
the responsive force, it is our understanding that there would 
be some flexibility, depending on the time required for those 
weapons to be moved from the responsive force back to the 
delivery system that they are associated with, if that were 
required.
    In some cases that would be a very short period of time and 
in other cases it is a rather long period of time, due to the 
nature of the way those weapons are uploaded. In either case, 
if they were called upon they would have to be fully 
functioning at the time they were mated with the delivery 
system. So the task that is put to us is to be able to meet 
that requirement, and it is a little different depending on 
which delivery system you are talking about.
    Senator Reed. Without getting into any specifics, 
obviously, it seems that the response force will have various 
response times.
    Dr. Beckner. Yes.
    Senator Reed. You have to be prepared in your planning to 
accommodate those response times.
    Dr. Beckner. Yes.
    Senator Reed. Some of those weapons systems will have 
relatively short response times, so in effect they will be 
fully modernized?
    Dr. Beckner. As far as the requirements that would be 
placed on us to supply tritium and other components, the answer 
to that is yes.
    Senator Reed. Thank you.
    Let me turn to Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Let me ask a question about your shipping of nuclear 
material and weapons. When you are shipping your nuclear 
material and weapons, what are the goals of NNSA when you try 
and determine the best routes? Then a second part to that, are 
there certain driving conditions NNSA tries to avoid?
    Dr. Beckner. First let me say that, as I believe you know, 
we do not publicize the routes that we use, for obvious 
reasons, when shipping weapons or weapons parts. We do select 
routes that are the safest possible. They might not be the 
shortest routes. So we make those kind of decisions.
    We also do planning so that we do not have to conduct 
shipments into areas at the wrong time of year, for instance 
shipments into the northern midwest in the winter time. We just 
plan to do those in the summer rather than the winter because 
it is a better idea.
    So all in all, we make those choices so that the shipments 
will be safe, so that the routes are the safest possible. We 
try to avoid congested areas so that we do not get 
inadvertently stopped for long periods of time when we were not 
planning on such things, and generally try to keep ourselves in 
a position so that the mission will be successful.
    Senator Allard. Mr. Erickson, I do not want you to feel 
neglected over there. We have not asked you any questions. You 
are next.
    Mr. Erickson. Not a problem.
    Senator Allard. Has the funding authorized and appropriated 
for fiscal year 2002 been used in a productive manner according 
to NNSA's plan for improving the facilities and infrastructure?
    Mr. Erickson. Yes. We have obligated all those funds to 
date and the plants and labs who have received funds are in the 
process of executing the projects to go along with that.
    Senator Allard. So there will not be anything left over at 
the end of this year?
    Mr. Erickson. All the money has been obligated. It probably 
all will not be spent, simply because of delivery of material, 
authorization of contracts, and the fact that the second $100 
million was held until we delivered a report to Congress in 
February. Therefore, those monies were not available to us to 
obligate or to begin costing until that time.
    So all the money will be obligated, all $200 million. 
Certainly not all $200 million will actually be costed. It will 
flow over into the succeeding fiscal year.
    Senator Allard. How do you envision this program proceeding 
over the next 10 years in light of the Foster panel 
recommendation and the administration's request within the 
Future Years National Security Program, as the program is often 
referred to, FYNSP?
    Mr. Erickson. We have a sustained growth over that period 
of time, over the FYNSP period of time, taking us to what we 
believe are acceptable levels of the program. It is a reasoned, 
well-planned approach. It goes up approximately $50 million a 
year for each of those years, allows us to establish a good 
program, a process in place to effectively and judiciously 
spend that money.
    Senator Allard. Thank you.
    Dr. Beckner, concerning shipping plutonium and other 
special nuclear materials, can we be sure that NNSA will keep 
the shipping of plutonium and other special nuclear materials 
from EM sites on schedule? Then has the NNSA prepared a 
realistic plan to keep up with the anticipated schedule of 
shipments within both Defense Department and EM during the next 
several years?
    Dr. Beckner. We do have a plan. In fact, we have more than 
one plan because of the uncertainty about the date when 
shipments may start from Rocky Flats. The situation is getting 
to be difficult as time goes by and those shipments do not 
begin. At this time we see every passing week as additionally 
troublesome.
    We will do our very best to meet the schedules of both our 
military customers as well as moving the waste out of Rocky 
Flats. However, I must say that the conflict becomes more 
obvious, rather pressingly so, during the next 2 months, and 
beyond that there is no question there would be serious 
conflicts between those two programs.
    So on a week-by-week basis this is getting to be a more 
difficult problem. At this time we believe it is manageable, 
but it will not be manageable indefinitely. There will have to 
be selection made on how those assets would be used one program 
versus the other if this delay goes on much longer.
    Senator Allard. Now, on the issue of safeguards and 
security, do you intend to request additional security funding 
from Congress for fiscal year 2003? Can you give us an idea of 
how much and for which sites?
    Mr. Erickson. Senator, if I may, actually safeguards and 
security falls under my purview.
    Senator Allard. OK.
    Mr. Erickson. In answer to your question, we do not intend 
at this time to ask for additional funds.
    Senator Allard. Well, how is this going to affect security 
at the various sites?
    Mr. Erickson. We are in the process of going through a 
rather extensive review at our sites to evaluate the changes 
due to September 11, the activities and the safeguard and 
security responsiveness at those sites. That review is under 
way at our various sites. We will have a better feel for that 
towards the summer, the latter part of the summer. At that 
point in time, it will be what it will be and we will have to 
make a judgment at that point in time.
    Senator Allard. Thank you, Mr. Chairman. I see my time has 
expired.
    Senator Reed. Thank you very much, Senator Allard.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Mr. Erickson, one of the issues that is of great concern to 
me is the fact that the United States is the only nuclear power 
in the world that has no capability of producing a nuclear 
weapon today. While I am not advocating that we need to produce 
a weapon now, I do find it disturbing that we do not have the 
capability to produce one if the President determined that such 
production was in the national interest due to some emergency.
    I have heard testimony this year and in the Foster report 
of 2000 that it will take between 10 and 15 years to design and 
build a new Modern Pit Facility which would give us the 
capability to build a new weapon. The Nuclear Posture Review 
calls for the design and construction of a Modern Pit Facility. 
The Nuclear Posture Review called for that.
    My question is, can you explain the decision in the fiscal 
year 2003 budget submission to postpone the critical decision 
on mission needs, also known as CD-0, by 1 year? Why was that?
    Dr. Beckner. If I could, sir, I think I should try to 
answer that question.
    Senator Sessions. All right.
    Dr. Beckner. In fact, we are moving ahead with those 
decisions. There are ways, utilizing existing facilities at Los 
Alamos, to produce a limited number of pits. We are in the 
process of proving that out now around the program for the W88 
warhead where we need to provide additional pits.
    Having gone through that process, as long as the production 
requirements were quite modest, we could produce other pits for 
other weapons, I believe. In the long run, however, I think we 
all agree we need a better capability. That does call for a 
Modern Pit Facility or some capability that is substantially 
beyond any that exists today.
    So we are setting about to make those decisions and to get 
that program underway, and we will be making the first of those 
decisions within the next few weeks.
    Senator Sessions. Well, is that not the purpose of the CD-0 
plan?
    Dr. Beckner. Yes, it is. We are going to move ahead with 
that decision.
    Senator Sessions. But this would be a delay?
    Dr. Beckner. No.
    Senator Sessions. In what we expected?
    Dr. Beckner. I know that we are going to make the decision 
within the next several weeks and move ahead with the early 
work on that facility.
    Senator Sessions. Since we have such a long lead time if we 
were developing a new pit facility, in one sense it seems we do 
not have much to worry about, that takes a long time. But in 
another sense, every year that goes by delays even further, 
does it not?
    Dr. Beckner. Yes, it does.
    Senator Sessions. Could the gap, the delay period, be 
shortened?
    Dr. Beckner. There is no question that if we must build a 
new facility that it will take more than 10 years from today to 
completion. It is probably closer to 15 years than 10 years. As 
long as the stockpile is as presently configured and as large 
as it presently is, and as long as we have to contemplate the 
possibility of replacing some large number of those pits over 
the next 20 or 30 years--and as yet we do not know if that is 
necessary, but we have to believe that we should be prepared 
for it--then I think that does call for a new facility.
    So we will set about to go through the National 
Environmental Policy Act (NEPA) process within the next 2 to 3 
years, to get site selection, and to move ahead with a design.
    Now, should the stockpile become much smaller, then I would 
say we would rethink some of that, and there is the opportunity 
to do that. But, based on the present planning, we will go 
ahead.
    Senator Sessions. It is this CD-0 study that is supposed to 
guide us on that?
    Dr. Beckner. Yes. There are two things that it would do, it 
starts the NEPA process and conceptual design.
    Senator Sessions. I understood that there was a delay by 
one year in the decision, postponing the decision on mission 
need.
    Dr. Beckner. It might have been--I confess, I have not been 
around long enough, that I do not quite bridge all of the 
history here. There may have been a delay from a previous date 
that might have been planned. I cannot say for sure. But I do 
know what our present plan is. Our present plan is to go ahead 
with that decision within the next several weeks.
    Senator Sessions. All right, that is good.
    Now, if we decommission or dismantle an existing nuclear 
weapon--either one of you can answer this--is the pit 
preservable?
    Dr. Beckner. Yes, it is.
    Senator Sessions. Unless we destroy it.
    Dr. Beckner. Yes, it is.
    Senator Sessions. The President has decided to maintain 
those pieces, at least so they can be reassembled if needed, 
but to decommission the weapon otherwise; is that the way you 
understand it?
    Dr. Beckner. Yes. There has been a large number of weapons 
already disassembled and the pits are indeed in storage right 
now.
    Senator Sessions. Well, I think that points to the 
criticality of this whole circumstance, in which we are the 
only nuclear power that does not have the capacity to go 
forward, and we cannot afford to place ourselves at risk by 
destroying all the component parts. So we can decommission, 
certainly fulfilling, I believe, the spirit of our commitment 
to reduce nuclear weapons, but at the same time say to a 
potential adversary: If you think you are going to take 
advantage of our freeze and reduction, do not think you can get 
ahead of us just because we do not have a production 
capability.
    So I just think we are stuck. I think the President is 
correct on that.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Sessions.
    Dr. Beckner, the NPR directs improvements in the test 
readiness posture, and I understand that you are studying the 
test readiness posture. When you conduct this study, I presume 
also you are including the cost of various options, the 
benefits to the Stockpile Stewardship Program, and also 
essentially whether or not the time limits or time frames are 
appropriate.
    Can you comment on that, your current review of the test 
readiness?
    Dr. Beckner. Yes. The present posture is that we would be 
able to conduct a test, if so instructed, within 24 to 36 
months. There has been some criticism of that by various 
learned bodies. The Nuclear Posture Review suggested that we 
should take a fresh look at that situation and decide if that 
is the appropriate posture or not, to do the proper analyses, 
to assess the cost-benefit of changing it. Almost certainly, if 
it were to be changed it would be shortened. The suggestion has 
been made by some that it should be as short as perhaps a year 
or a year and a half or 2 years. So that is what we will study. 
There are costs associated with changing that configuration and 
so it will in effect become a cost-benefit tradeoff. We will 
develop the information and we will provide it to the people 
who have requested it, and some new decisions will be made as 
to what that future readiness state will be.
    But indeed, we have been instructed to begin those studies 
and we will do them.
    Senator Reed. So you have not--you are not evaluating any 
specific time frame? You are simply looking at a whole range of 
options, is that fair?
    Dr. Beckner. Well, we will probably select three or four 
that seem to be the most obvious and work on those. There is a 
limit on the short side as to what is possible. So you will 
start with the possible and move up from there. You have to 
realize the purpose of this would be to put ourselves into a 
configuration across our facilities so that we could execute 
whatever that new response time might be. Those costs get to be 
considerable if you shorten it greatly.
    Senator Reed. Thank you, doctor.
    Mr. Erickson, so that you will not be totally neglected by 
my questioning: You received your new facilities and 
infrastructure account full funding in the fiscal year 2002 
budget, but you had about a year to plan for it. As a result, 
your office was ready to begin almost from the day the money 
was available. When did you get the release from DOE to begin 
the work?
    Mr. Erickson. We got our release on the first $100 million, 
as I said in my earlier answer, in November. Obviously, because 
of the appropriations process, it was later than October 1. We 
received that and began to immediately start to send out the 
work authorizations to the sites. That has added a little bit 
to, as I say, the reason why we are not going to cost all of 
the money. We will have it all obligated, but not costed. So 
there was a delay.
    Senator Reed. But you will fully obligate the funds, the 
2002 funds?
    Mr. Erickson. They are fully obligated today.
    Senator Reed. Thank you very much.
    Senator Allard.
    Senator Allard. Thank you.
    On the Stockpile Stewardship Program, Dr. Beckner, are we 
adequately funding the key weapons program activities, namely 
the directed stockpile work and the science-based campaigns?
    Dr. Beckner. We believe we are. If you look in detail at 
the profiles of those programs, comparing, for instance, the 
2002 budgets to the 2003 budgets and then the out-years as 
well, since we have provided 5-year profiles, what you see is 
more growth in the directed stockpile work than in the science 
program. That is the choice we have made. We believe it is 
proper. We know it is necessary in order to maintain the 
schedules that we are committed to on the directed stockpile 
work and we believe the science programs are adequate to 
support those. It is a tight fit, but we believe it is 
adequate.
    Senator Allard. So you spent twice as much on the science-
based stewardship actually in your budget as compared to your 
stockpile work; is that correct?
    Dr. Beckner. We have to be a little careful. Much of what 
is in the science programs is in direct support of the 
stockpile program. You essentially have the several budget 
areas that we like to manage by. But much of the work down in 
those science programs in fact specifically supports the 
directed stockpile work, so that you can get the work done at 
the time that it is required. So there is a lot of mixing of 
the budget from those two areas.
    Senator Allard. From what I have seen as far as our 
educational efforts, we are graduating more and more 
individuals that are trained in what I would call the leisurely 
sciences and fewer and fewer people graduating as engineers in 
the hard science degrees. I do not think they are meeting the 
demands out there for a lot of our scientific endeavors 
throughout the country.
    What is DOE doing to make sure that it attracts, trains, 
and provides the experience for the next generation of 
technicians and engineers and whatnot within the weapons 
programs?
    Dr. Beckner. The main attraction, quite honestly, is the 
facilities that are available and the opportunities to do the 
work that are there as a result of those facilities. In many 
cases we have capabilities at the laboratories and at the 
plants which are unmatched anywhere else in the country. For 
instance, take the NIF that is presently under construction. 
That is a one-of-a-kind in the world.
    Take the Dual Axis Radiographic Hydro Test (DARHT) facility 
that has just been completed at Los Alamos. That is 
unparalleled in terms of its capabilities. You can go to each 
of the laboratories and you will find that kind of capability, 
due to the foresight, I think of this subcommittee and others 
in Congress to provide those facilities. That is the real 
attraction and that is what makes it possible to hire great 
people, is if they have a good place to work and the 
opportunity to do challenging work. The reality is it works 
very well.
    Senator Allard. Now, in December of 2001 the DOE Inspector 
General report criticized DOE for ``not meeting internally 
established time frames for initiating and conducting 
investigations of defects and malfunctions in nuclear 
weapons.'' Then, the DOE IG went on further to state that ``If 
these delays continue, the Department may not be in a position 
to unconditionally certify the aging nuclear weapons 
stockpile.''
    What are the DOE and NNSA doing to address those concerns 
raised by the DOE Inspector General?
    Dr. Beckner. Indeed we are concerned by that report. We are 
concerned by the fact that in some cases the delays were 
unnecessarily long. We expect to have a lot of so-called SFIs, 
significant findings investigations, from the program. That is 
the purpose of it, to find things and then set about to correct 
them. The part that was not getting as much attention as needed 
was the part of setting about to correct them. We have put new 
emphasis upon that. We are developing a schedule to more 
rapidly close those SFIs and get on top of the problem. I think 
by the time we are here next year the record will show that we 
have done that. It has our attention and the situation will 
change.
    Senator Allard. Apparently one of the problems is having 
somebody who will centrally track the investigative process. Do 
we have somebody who is going to be tracking, be using a 
central tracking system?
    Dr. Beckner. Yes.
    Senator Allard. Mr. Chairman, I am finished.
    Senator Reed. Senator Sessions, do you have additional 
questions?
    Senator Sessions. Well, I just noticed that the fiscal year 
2002 funding for Modern Pit Facility was $4 million. The 2003 
request is $2 million. Does that indicate a slowing down of 
interest or more delays out there?
    Dr. Beckner. No, I think it just recognizes the fact that 
there are a lot of things going on here in parallel. I would 
encourage you to look at several elements of the pit 
fabrication and certification program in combination with the 
Modern Pit Facility. Look at all of those budget lines in 
combination. We are taking all of those parts and looking out 
over the next 5 years and fit them together so that this 
program will proceed. I know you look at a budget and you see 
one number smaller than the other one and you think the program 
must be slowing down. It is not.
    Senator Sessions. Well, we certainly do not believe that 
money means that we are making progress. Sometimes money does 
not mean that.
    Dr. Beckner. Well, that is right. But we are entering a 
point here where much of what will be going on is the 
initiation of the National Environmental Policy Act (NEPA) 
process and getting started on the initial design studies.
    Senator Sessions. When do you think you might start the 
NEPA process?
    Dr. Beckner. As soon as we get the CD-0 decision, which 
does require the full action on the part of the DOE, which is a 
bit of a big deal within the building. But we expect that in 
the next several weeks and that will kick it off. We require 
that before we can begin the NEPA process and before we can 
begin the conceptual design. But once we have that, we are on 
our way.
    Senator Sessions. Well, I know Congress has an interest in 
getting moving along. The report language in last year's 
defense bill authorized $10 million in report language if you 
chose to move this project forward.
    So I just hope that do not let it slip and we keep our eye 
on the ball and keep it moving.
    Dr. Beckner. I agree.
    Senator Sessions. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Sessions.
    Senator Allard, did you have a comment?
    Senator Allard. Yes. Mr. Chairman, I understand you are 
getting close to concluding this hearing. First of all, I 
wanted to thank you and your staff. I know that you personally 
are interested in improving the environment in the country and 
particularly have been supportive of trying to get sites 
cleaned up throughout the country, not just in Colorado. You 
have been very supportive of my particular project and I 
appreciate that, and so has your staff.
    I just want to recognize in a public way your commitment to 
getting these sites cleaned up and your working with your 
staff, and I appreciate that very much.
    I also wanted to recognize Senator Strom Thurmond, who 
represents the State of South Carolina. He has been a mediator 
in our negotiations with what is happening at the Savannah 
River Site and the Governor there. Again, he understands 
basically that all these sites interact and when you have 
problems at one site there is a chain effect and it spreads all 
over the country. He has been very sensitive and taken a view 
that I think has been very responsible from a national 
perspective, and he has indicated how important it is to have 
cooperation among the various States.
    So Senator Thurmond has been spending a considerable amount 
of time working between our two staffs as a mediator and I just 
wanted to recognize his efforts, too.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Allard. I have a joint 
statement from Senators Thurmond and Sessions, for the record. 
Without objection, I will place it in the record.
    [The joint prepared statement of Senator Thurmond and 
Senator Sessions follows:]

  Joint Prepared Statement by Senator Strom Thurmond and Senator Jeff 
                                Sessions

    Sustaining our nuclear weapons at the highest state of readiness is 
central to the Nation's security and military strategies of deterrence.
    However, for the past 3 years the Panel to Assess the Reliability, 
Safety, and Security of the United States Nuclear Stockpile, better 
known as the Foster Panel, has produced alarming reports that stated in 
part, ``we already see worrisome signs of deterioration in some nuclear 
components.'' Even Gen. John Gordon, of the NNSA, highlighted the 
concerns associated with this deterioration when he testified before 
this subcommittee that ``unanticipated events could include the 
catastrophic failure of a deployed warhead type.''
    Although the Foster Panel provided a series of recommendations, its 
primary recommendation each and every year has been to immediately 
begin conceptual design of a full-scale plutonium pit production 
facility for the long-term support of the stockpile. Unfortunately, the 
Department of Energy has delayed action on this matter at every 
opportunity. This year, DOE has again deferred conceptual design until 
fiscal year 2004 with fiscal year 2003 funding used to continue 
manufacturing concepts.
    The Panel consistently recommends immediate action on conceptual 
design for a number of reasons. First, design and construction of this 
facility will take between 10 and 15 years. Even if the most basic 
conceptual design activities began today, this full-scale facility 
would not be ready at the earliest until April 2012.
    Second, the facts are that our nuclear components are aging, and we 
have no capability to replace them. As the Panel's 2000 Report stated, 
``the missing production capabilities . . . leave us even more 
concerned about our ability to respond to crisis.'' The report 
continued, ``we can significantly increase our readiness with 
relatively small expenditures on needed conceptual design.''
    Third, in this year's Foster Report, the Panel noted that, 
``Restoration of complete production capability has a strategic import. 
We can more confidently build down if we know that we can build back if 
necessary. Restored production capability might be the enabling 
condition for some future stockpile reductions.''
    With these factors in mind, the Foster Panel, for the third 
straight year, recommended that the ``NNSA expeditiously produce an 
approved design, make a site decision, complete safety studies, and 
obtain environmental permits for pit production and secondary 
production facilities.''
    Mr. Chairman, it is time we heed the warning of the Foster Panel 
and direct the NNSA to immediately begin conceptual design of a full 
scale plutonium pit production facility. We owe it to our Nation as 
well as the security of future generations to do so.
    Thank you, Mr. Chairman.

    Dr. Beckner, Mr. Erickson, thank you very much. The hearing 
is adjourned.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

                       COMPLIANCE WITH AGREEMENTS

    1. Senator Reed. Secretary Roberson, recently there have been press 
reports questioning the Department of Energy's (DOE) ability to comply 
with the various compliance agreements under the budget as requested 
for each site. If the Environmental Management (EM) program received 
the funding that has been requested, other than the cleanup reform 
funds, would the DOE be able to comply with all of its agreements other 
than the agreement with the State of Washington for the tanks at 
Hanford?
    Secretary Roberson. I believe the base budget meets the legal 
commitments in our environmental compliance agreements. However, we 
can't continue to do business as usual under any funding scenario. We 
must be focused not only on meeting our legal commitments, but also on 
addressing our other environmental obligations to the communities and 
the American taxpayer. With the additional funding from the EM Cleanup 
Reform Account, we will be able to pursue cleanup approaches that will 
produce more real risk reduction, accelerate cleanup, or achieve much 
needed cost and schedule improvements, as well as maintain compliance 
with legal requirements.

    2. Senator Reed. Secretary Roberson, would the DOE have to 
renegotiate the various agreements and consent orders with the States 
and the EPA if the funding requested by the DOE for fiscal year 2003 is 
the amount authorized and appropriated for fiscal year 2003?
    Secretary Roberson. If funds are authorized and appropriated 
consistent with our request, we would not anticipate the need for 
renegotiation of our legal agreements. However, our request is 
structured to provide an incentive for our sites and regulators to 
review the cleanup approach to ensure it is focused on reducing risks 
and accelerating cleanup. As a result of this effort, it may be 
necessary to work with DOE's regulators to modify the milestones and 
commitments in some agreements and orders to reflect new cleanup 
approaches.

    3. Senator Reed. Secretary Roberson, what are the DOE's liabilities 
if it intentionally asks for less money than is needed for 
environmental compliance?
    Secretary Roberson. Compliance with environmental requirements is a 
primary consideration and high priority for the Department in 
formulating its budget request. The Department includes in its budget 
requests to the Office of Management and Budget sufficient funds to 
comply with applicable environmental requirements. Moreover, the 
Department generally is subject to the same types of enforcement 
actions, including fines and penalties in many cases, as private 
entities that fail to comply with environmental requirements.

                          OPERATING CONTRACTS

    4. Senator Reed. Secretary Roberson, over the course of the past 2 
to 3 years, the DOE has renegotiated or entered into new contracts at 
almost all EM sites. These contracts were designed to provide 
incentives to the contractors to do more work with less money, but were 
all predicated on a predetermined funding profile. It now appears that 
one requirement for participation in the cleanup reform fund is to 
renegotiate or even recompete the existing contracts. Has the decision 
been made to terminate for convenience and recompete any or all of the 
existing contracts? What sites and what contracts are included in this 
decision?
    Secretary Roberson. We have decided to recompete the Mound Site 
contract. We do not anticipate that a wholesale renegotiation of all 
current EM contracts will be necessary; however, most will require 
modification. Any decision to recompete a contract will be made on a 
case-by-case basis.

    5. Senator Reed. Secretary Roberson, has a cost analysis been 
conducted to determine that the cost savings achieved from 
recompetition exceeds the cost to terminate the contracts early?
    Secretary Roberson. In making a decision to re-compete a contract, 
DOE would consider any additional costs that would be incurred should a 
termination for convenience be required. It can be difficult to 
estimate the cost of changing to the new contract. If the incumbent 
contractor wins the award, the current contract may be modified, and a 
termination action would not be necessary. If a new contractor wins the 
award, the incumbent contractor would present a termination for 
convenience proposal, and the government will audit it and negotiate a 
fair and equitable settlement. However, a decision to recompete is not 
taken lightly and is made to achieve specific results. A decision to 
recompete will be made for three possible reasons:

        1. the current contract expires;
        2. the desired or necessary changes are so significant that 
        competition is warranted; and
        3. confidence in and performance under the current contract is 
        such that it does not appear that continuing the contract will 
        render the necessary results.

    6. Senator Reed. Secretary Roberson, does the DOE have to modify 
the terms and conditions of some or all of these contracts if fiscal 
year 2003 funding is appropriated at the requested level?
    Secretary Roberson. It may be necessary to modify existing 
contracts to reflect not only any differences in the funding level 
compared to anticipated levels when the contract was initially 
negotiated, but also to properly align the scope of work and 
performance incentives with the cleanup approach that results from our 
discussions with regulators.

    7. Senator Reed. Secretary Roberson, has this renegotiation process 
started?
    Secretary Roberson. While some of our contractors have been 
involved in discussions and planning for accelerated cleanup 
approaches, we would not begin formal discussions to modify a contract 
until it is clear what the resulting funding appropriation level and 
performance requirements for fiscal year 2003 will be.

                           SURPLUS FACILITIES

    8. Senator Reed. Secretary Roberson, do you have any plans to stop 
taking contaminated surplus buildings and facilities from other 
components of the DOE?
    Secretary Roberson. We do not have plans to stop taking 
contaminated facilities into EM. However, for those contaminated excess 
facilities currently managed by other programs, acceptance into the EM 
program will be a very conscious decision. Any additional facilities 
added to the EM program will be clearly identified and segregated from 
the current baseline, cleanup costs and schedules for those facilities 
will be determined, and cleanup of those facilities will be prioritized 
according to the principles of the Top-to-Bottom Review.

    9. Senator Reed. Secretary Roberson, the budget request for fiscal 
year 2003 does not appear to include funds for EM to accept any new 
excess facilities, is this correct?
    Secretary Roberson. In fiscal year 2003, the Tritium Systems Test 
Assembly (TSTA) at Los Alamos National Laboratory will transfer from 
the Office of Science to EM. The fiscal year 2003 budget request 
therefore for EM includes $460,000 for surveillance and maintenance for 
TSTA to support this transfer. No funding to decontaminate and 
decommission the facility is requested in fiscal year 2003.

                          EXISTING COMMITMENTS

    10. Senator Reed. Secretary Roberson, does the EM budget for fiscal 
year 2003 continue to fund previous commitments to manage newly-
generated wastes?
    Secretary Roberson. The EM fiscal year 2003 budget request 
continues to fund previous commitments to manage newly-generated wastes 
at Oak Ridge, Lawrence Livermore National Laboratory, and the Pacific 
Northwest National Laboratory. Although EM may consider negotiating the 
transfer of responsibility for newly-generated waste back to the 
generator program(s), the fiscal year 2003 congressional request does 
not assume these transfers.

    11. Senator Reed. Secretary Roberson, does the fiscal year 2003 
budget request fund the new waste storage building at Lawrence 
Livermore National Laboratory, because our information is that the 
building has been completed but there is no money to move the wastes, 
which are currently stored outside, into the new building?
    Secretary Roberson. Yes, funds are available within the 
Environmental Management fiscal year 2003 budget request for Lawrence 
Livermore National Laboratory to initiate movement of waste into the 
new waste storage building, focusing as a first priority on removal of 
low-level waste currently stored in temporary structures.

                             CLOSURE SITES

    12. Senator Reed. Secretary Roberson, the Closure Account was 
established to provide flexibility to sites that were closing by 2006 
to accelerate the closure where possible. As we approach 2006 and those 
sites are closed, does it make sense to establish a new closure account 
for those sites that will be closed in the 5 years following 2006 and 
to allow those sites that will be closing in that time frame the same 
flexibility afforded to those sites closing by 2006?
    Secretary Roberson. The fiscal year 2003 budget request was 
structured to provide incentives for DOE and its State and Federal 
regulators to reach agreement on new cleanup approaches to accelerate 
risk reduction and cleanup at all DOE sites. EM is making progress in 
our discussions with States. As of the end of May 2002, the Department 
has signed Letters of Intent with the appropriate regulators for 
accelerated cleanup of sites in the States of Washington, Tennessee, 
Idaho, New Mexico, and Nevada. We expect to sign letters for additional 
sites soon.
    Once we have completed cleanup acceleration plans at the sites, EM 
intends to re-examine the EM budget structure and to propose changes as 
appropriate so that the budget structure will correspond to the new 
cleanup plans. We will focus on a structure that supports acceleration 
and ensure it supports the needed integration. We are considering 
appropriation accounts that align with site closures in our accelerated 
cleanup program.

                               MINI-NUKES

    13. Senator Reed. Dr. Beckner, there has been much recent 
discussion of mini-nukes. Is the NNSA working on anything, or have 
plans to work on anything, that could lead to a weapon (new or 
modified) that would be designed to produce a yield of less than five 
kilotons?
    Dr. Beckner. No. The NNSA has no validated requirement from the 
Nuclear Weapons Council to work on a new or modified weapon that would 
produce a yield of less than 5 kilotons.

    14. Senator Reed. Dr. Beckner, is NNSA working on, or is there 
money in the fiscal year 2003 budget to work on new concepts in weapons 
that could have application to conventional weapons?
    Dr. Beckner. The President's fiscal year 2003 request for stockpile 
stewardship is focused on ensuring the continued safety, security, and 
reliability of the Nation's nuclear weapon stockpile. Applications of 
nuclear weapons technologies to conventional weapons are, of course, 
possible, but the NNSA weapons programs focuses its funds on nuclear 
weapons activities.

                             TEST READINESS

    15. Senator Reed. Dr. Beckner, the NNSA has been criticized for 
having the ability to conduct a test in 24 to 36 months, even though 
this level of test readiness was approved by the Nuclear Weapons 
Council. The NPR directs the NNSA to improve its test readiness. What 
does a 24- to 36-month test readiness posture mean to you and how is it 
different from 20 to 32 months or 30 to 36 months or 18 to 24 months, 
and do these arbitrary time frames have any real meaning, i.e., does it 
make a difference what and how you test?
    Dr. Beckner. The NNSA, consistent with existing Presidential 
direction, is maintaining the ability to conduct a limited series of 
nuclear tests within 24 to 36 months of a Presidential order to do so. 
The purpose of this test readiness program is to identify and complete 
long lead-time items required to conduct a test, and to ensure that we 
maintain the key skills and capabilities that would be difficult to 
reconstitute. We have not identified a particular test and have not 
prepared specific devices or diagnostics in a test configuration.
    The NPR raised several concerns about the current test readiness 
posture. The NNSA's ongoing study is reviewing: (1) the shortfalls or 
additional steps required to continue to meet 24-36 month readiness; 
and (2) the actions and resources required to shorten the test 
readiness posture to 18 months or less.
    A 32-month program or 30- to 36-month test readiness program would 
differ little from the current posture. If the readiness time were 
shortened from 24 months to 20 or 18 months, the level of preparation 
would change. Substantial additional work would be required on long-
lead items (field test neutron generators, authorization safety basis 
documentation and nuclear explosive safety studies) to ensure 
readiness. Some of these items are even required for 24 months (the 
short end of our current 24- to 36-month readiness) so we have begun to 
invest in those areas. Shorter times than 18 months would require the 
selection of a particular device to test and preparation of the device 
and diagnostics in a test-ready configuration.
    We believe that 18-month readiness is achievable for well-defined 
tests of weapons currently in the stockpile. But, historically, even 
with a vigorous testing program, a complex experiment could take well 
in excess of 2 years to prepare, so 18 months would not be achievable 
for every conceivable experiment. It does matter what we test.

    16. Senator Reed. Dr. Beckner, to conduct a nuclear test requires 
certain skills and abilities. Have you identified all of the needed 
skills and abilities and a plan to maintain them and what elements of 
the Stockpile Stewardship Program maintain these skills?
    Dr. Beckner. Subsequent to the initiation of the current test 
moratorium, we have made a considerable effort to catalog and archive 
procedures, capabilities, and personnel requirements to conduct an 
underground test. Those skills related to fielding a test at the Nevada 
Test Site are maintained through the test readiness program and 
substantially exercised through the execution of the stockpile 
stewardship experimental programs, in particular subcritical 
experiments, hydrodynamic testing at the laboratories, and a broad 
range of other experiments at both the laboratories and the Nevada Test 
Site. These experimental programs address both the required test 
execution skills and the diagnostics. Laboratory and plant skills 
involved in preparation of a test device are exercised through 
stockpile maintenance and stockpile life extension activities. 
Laboratory design and test analysis skills are exercised through 
experimental programs. The nuclear diagnostics capabilities will be 
partially exercised in the High-Energy-Density Physics program, as 
methods and techniques are similar. The principal skills that cannot be 
exercised are containment, radiochemistry, and some aspects of high 
speed nuclear diagnostics.

    17. Senator Reed. Dr. Beckner, what is NNSA studying in the current 
review of test readiness and will this study include the costs of 
various options and the benefits to the Stockpile Stewardship Program 
of these options?
    Dr. Beckner. The NPR raised several concerns about the current test 
readiness posture. The NNSA's ongoing study is reviewing: (1) the 
shortfalls or additional steps required to continue to meet 24- to 36-
month readiness; and (2) the actions and resources required to shorten 
the test readiness posture to 18 months or less. The results of this 
study will be shared with Congress once the administration has 
determined the best path forward.
    While test readiness is a part of the stewardship program, we must 
carefully balance the available financial and human resources to ensure 
that the stockpile remains safe, secure, and reliable.

    18. Senator Reed. Dr. Beckner, is there any real value gained from 
conducting mock test exercises?
    Dr. Beckner. We are considering the use of exercises to enhance 
certain aspects of test readiness, primarily those areas which are not 
practiced through the execution of the stockpile stewardship 
experimental programs. We expect to conduct exercises of some portions 
of the nuclear test process, such as drill-back for radiochemistry 
samples. Larger exercises that approach something related to a full 
underground nuclear test remain under study. We must weigh the research 
and readiness benefits against the resource costs.

                     DISMANTLEMENT RATES AT PANTEX

    19. Senator Reed. Dr. Beckner, I believe there is some confusion 
about the ability of the NNSA's Pantex facility to dismantle nuclear 
weapons. I have heard statements that Pantex has no ability now and 
could not in the future have an ability to dismantle nuclear weapons 
because of the pressures the Stockpile Life Extension Program places on 
the Pantex Plant. Could you please explain what Pantex is currently 
dismantling and what is the potential ability of Pantex to dismantle 
nuclear warheads between now and 2012?
    Dr. Beckner. The current production complex is limited in the 
number of weapons that can be processed at the Pantex Plant, with the 
work split among units undergoing surveillance, refurbishment, or 
dismantlement. Planned renovations of existing facilities at Pantex 
will expand capacity sufficient to meet the anticipated Nuclear Posture 
Review workload. During the period fiscal year 2008 through fiscal year 
2010, when three refurbishments (W80, W76, and B61) are underway, there 
would be a small reserve capacity available to address unanticipated 
problems in the stockpile, respond to new warhead production 
requirements, or handle a potentially increased dismantlement workload. 
That reserve capacity would increase after fiscal year 2014. Under 
current planning assumptions, NNSA would not define a firm schedule for 
dismantlements, rather it would ``load level'' the Pantex operation by 
scheduling dismantlements in a way that does not interfere with ongoing 
refurbishments or new production. Currently, Pantex is disassembling 
the W56 Minuteman II warhead (expected to be complete in fiscal year 
2005) and the W79 Artillery-Fired Atomic Projectile (expected to be 
complete in fiscal year 2003). Pantex also has plans to disassemble 
some excess B61 bombs and all remaining B53 bombs in the next few 
years.

    20. Senator Reed. Dr. Beckner, could Pantex dismantle the W-62 
between now and 2012?
    Dr. Beckner. The decision to retire the W62 warhead by 2009 was 
reaffirmed by the Nuclear Posture Review. No further decisions were 
made on dismantlement. With the currently planned workload at Pantex, 
including three new refurbishments and facility renovations, there is 
insufficient capacity to dismantle all the W62 warheads between now and 
2012 without rearranging priorities. Instead some would have to be held 
in an ``inactive'' status in storage at either Pantex or in a military 
storage site until they could be dismantled.

       EFFECT OF NPR ON THE STOCKPILE LIFE EXTENSION REQUIREMENTS

    21. Senator Reed. Dr. Beckner, the decision in the December 2001 
NPR was to maintain all of the current stockpile of nuclear warheads. 
What does this decision do to the need to conduct life extensions on 
each of these nuclear warheads and the block approach?
    Dr. Beckner. The NPR which lays out the direction for this Nation's 
nuclear forces over the next 5 to 10 years reaffirmed NNSA's stockpile 
refurbishment plan (which includes the block upgrade approach) for the 
W87, W76, W80, and B61. The plan had been approved by the NNSA and the 
Department of Defense. Therefore, no changes are required as a result 
of the NPR.

    22. Senator Reed. Dr. Beckner, what does this decision (to maintain 
all warheads) mean to the tritium supply?
    Dr. Beckner. The NPR does not change the current plan for the date 
when NNSA needs to begin irradiating tritium producing rods in the 
Tennessee Valley Authority's reactors. Irradiation will still begin in 
the fall of 2003 as currently scheduled, particularly because the 
initial core loads of tritium rods will be ``transition cores'' that 
will not contain nearly as many tritium rods as will be utilized for 
steady state production. The requirement to maintain a 5-year reserve 
has not been affected by the NPR. We have contracts with the TVA to 
produce tritium in the amounts required to support the NPR stockpile, 
whatever the details of that stockpile turns out to be.

    23. Senator Reed. Dr. Beckner, what does this decision do to the 
cost of the Stockpile Stewardship Program in the near and long terms?
    Dr. Beckner. The workload direction in the NPR is consistent with 
current assumptions and is reflected in the fiscal year 2003-2007 FYNSP 
document provided to congressional committees in March 2002.

                         NUCLEAR POSTURE REVIEW

    24. Senator Reed. Dr. Beckner, the committee has received testimony 
that the DOE and the DOD will continue to review the decisions made in 
the NPR. Is this or is this not the case?
    Dr. Beckner. Section 1041 of the Floyd D. Spence National Defense 
Authorization Act for Fiscal Year 2001 (Public Law 106-398) required 
the Secretary of Defense, in consultation with the Secretary of Energy, 
to ``conduct a comprehensive review of the nuclear posture of the 
United States for the next 5 to 10 years'' and to report to Congress on 
the results of the review. The December 2001 NPR establishes our 
strategic posture for the 21st century, preparing America for a new and 
rapidly-evolving international security environment. As such, the NPR 
is a foundation on which more detailed planning can be based; NNSA and 
the DOD are jointly engaged in fleshing out the details. Thus, our 
focus is not on reviewing the decisions made in the NPR but in 
implementing them.

    25. Senator Reed. Dr. Beckner, would it be fair to characterize the 
NPR as a living document?
    Dr. Beckner. The NPR, per congressional requirement, reviewed the 
nuclear posture of the United States for the next 5 to 10 years. The 
review established our strategic posture for the rapidly changing and 
unpredictable world in which we now live. The NPR provides high-level 
guidance for planning the direction and makeup of the strategic forces 
and capabilities the U.S. will need to assure our national security 
through this decade. Again, our focus is not on reviewing the decisions 
made in the NPR but in implementing them.

    26. Senator Reed. Dr. Beckner, what are the next steps in the 
review process?
    Dr. Beckner. The DOD and NNSA will, in coming months, jointly 
address, among other things, the size and makeup of the stockpile 
needed to support a force of 1,700-2,200 deployed strategic warheads. 
NNSA will continue, as affirmed by the NPR, to maintain the nuclear 
stockpile through surveillance, refurbishment, production, 
dismantlement, transportation, and storage.

    27. Senator Reed. Dr. Beckner, is there a schedule to re-examine 
the decisions and to make decisions to retire warheads or to destroy 
warheads?
    Dr. Beckner. The President announced in November that the United 
States would reduce its operationally-deployed strategic nuclear 
warheads to between 1,700 and 2,200 over the next 10 years. Some of the 
warheads removed from operational status will become part of the 
responsive force. Some will no doubt be retired and dismantled. We will 
be making decisions on these and related matters in coming months and 
years. Among other things, the NPR reaffirmed the earlier decision to 
retire the W62 warhead by 2009.

                    ACTIVE NUCLEAR WARHEAD STOCKPILE

    28. Senator Reed. Dr. Beckner, can you define the inactive 
stockpile from the DOE perspective?
    Dr. Beckner. From the DOE perspective, the inactive stockpile are 
those warheads in DOD custody in order to augment the active stockpile, 
if necessary; to replace active stockpile warheads withdrawn for 
surveillance testing; and to replace warheads of a particular type, 
should there be a serious degradation in their reliability.

    29. Senator Reed. Dr. Beckner, how will the nuclear warheads in the 
inactive stockpile be maintained, modernized, and loaded with tritium?
    Dr. Beckner. All inactive stockpile warheads have their limited 
life components (e.g., tritium bottles) removed upon expiration and not 
replaced unless the warhead is returned to the active stockpile. 
Inactive stockpile warheads typically remain in DOD custody and are 
refurbished (modernized) on a case-by-case basis.

    30. Senator Reed. Dr. Beckner, how does the total number of nuclear 
warheads relate to the tritium requirement and when must the NNSA 
resume tritium production to support the NPR and how will the size of 
the tritium reserve be determined?
    Dr. Beckner. NNSA must support all operationally deployed and 
augmentation (responsive) warheads with tritium. Some augmentation 
warheads may be in the inactive stockpile, but we must have enough 
tritium to support them in the event they are brought back to the 
active stockpile. The remainder of the inactive stockpile warheads do 
not require tritium support. The DOD and NNSA have not yet determined 
the exact number of warheads that will be in the active and inactive 
stockpiles. While the changes in the force structure impact the tritium 
``need date'' and, therefore, the number of tritium rods that must be 
irradiated in the TVA reactors, the fall 2003 initial irradiation date 
is not affected. This is particularly true in view of the fact that the 
initial core loads of tritium-producing rods in each TVA reactor will 
be ``transition cores'' that will not contain nearly as many rods as 
will later be utilized for steady-state production. The requirement to 
maintain a 5-year reserve has not been affected by the change in force 
structure in the NPR.

                          NEW NUCLEAR WEAPONS

    31. Senator Reed. Dr. Beckner, has the DOE been told by the Defense 
Department to work on the development of any new nuclear weapons?
    Dr. Beckner. The NNSA has no requirement from the Department of 
Defense to work on the development of any new nuclear weapons. Any new 
requirement to develop a new nuclear weapon would have to be approved 
by the Nuclear Weapons Council consistent with Section 3152 of the 
National Defense Authorization Act for Fiscal Year 1995.

    32. Senator Reed. Dr. Beckner, was this direction approved by the 
Nuclear Weapons Council?
    Dr. Beckner. If and when the NNSA is asked to work on the 
development of a new nuclear weapon it will be approved by the Nuclear 
Weapons Council consistent with Section 3152 of the National Defense 
Authorization Act for Fiscal Year 1995.

    33. Senator Reed. Dr. Beckner, is there money in the fiscal year 
2003 budget request for this work?
    Dr. Beckner. For fiscal year 2003, the NNSA has no requirements 
from the Department of Defense to initiate any development activities, 
including the design of a new nuclear weapon. However, funds are 
included to maintain a capability to explore technical options that 
would enhance the security posture of the United States.

    34. Senator Reed. Dr. Beckner, how much will the DOE spend in 
fiscal year 2002 on development of any new nuclear weapons or new 
nuclear-weapons concepts?
    Dr. Beckner. While there are no funds in fiscal year 2002 for the 
development of any new nuclear weapon or new nuclear-weapons concept, 
the NNSA is planning to spend $7.4 million (of which $500,000 is from 
USAF) in fiscal year 2002 from Directed Stockpile Work R&D to conduct a 
3-year study on the possibility of modifying either the B61 or B83, 
both existing warheads in the stockpile, to provide the United States 
with Robust Nuclear Earth Penetrator capability. This research activity 
will be carried out because current weapons in the stockpile cannot 
hold at risk a growing category of potential targets: deeply buried in 
tunnel facilities, possibly containing chemical, biological, nuclear, 
or command and control facilities.

    35. Senator Reed. Dr. Beckner, there was no request for money for 
new weapons development in the fiscal year 2002 budget request. If 2002 
money is going to be used to begin work that leads to the development 
of a new nuclear weapon, when will the Department submit a 
reprogramming request seeking congressional approval for this new 
effort?
    Dr. Beckner. There are no plans to use fiscal year 2002 funds for 
the development of new nuclear weapons. The Department is planning to 
spend $7.4 million (of which $500,000 is from USAF) in fiscal year 2002 
from Directed Stockpile Work R&D to conduct a 3-year study on the 
possibility of modifying either the B61 or B83, both existing warheads 
in the stockpile, to provide the United States with Robust Nuclear 
Earth Penetrator capability. This research activity is within the scope 
for funds appropriated for stockpile R&D; however, we are also 
preparing a notification to congressional committees to keep them 
current and informed.
                                 ______
                                 
              Questions Submitted by Senator Jeff Bingaman

                      ADVANCED CONCEPTS INITIATIVE

    36. Senator Bingaman. Dr. Beckner, can you please explain what new 
warhead programs you are pursuing in the Advanced Concepts Initiative 
and how does this interface with the Nuclear Weapons Council 
requirements?
    Dr. Beckner. The NPR states that the number, composition, and 
character of the Nation's nuclear forces ought to reflect the reality 
that the Cold War is over and that nuclear deterrent capabilities may 
now need to be different. The NPR endorsed NNSA's Advanced Concepts 
Initiative that could provide the Nation with future options for 
meeting new or emerging requirements. This work also provides an 
opportunity for NNSA and its contractors to exercise critical skills 
necessary for the long-term sustainment of the Nation's defense.
    The initial focus of the Advanced Concepts program will be the 
Robust Nuclear Earth Penetrator (RNEP), for which $15.5 million is 
requested in fiscal year 2003 as part of the Directed Stockpile 
Research and Development activity. This study was approved by the 
Nuclear Weapons Council, and in response to a JROC validated 
requirement. The 3-year RNEP feasibility study will assess the 
feasibility of modifying one of two candidate nuclear weapons currently 
in the stockpile to provide enhanced penetration capability into hard 
rock geologies and develop out-year costs for the subsequent production 
phases, if a decision is made by the Nuclear Weapons Council to 
proceed. This work complies with existing legislation, including 
Section 3136 of the National Defense Authorization Act for Fiscal Year 
1994. The fiscal year 2003 budget contains no other funds for Phase 6.X 
advanced concept study activities.

                    ROBUST NUCLEAR EARTH PENETRATOR

    37. Senator Bingaman. Dr. Beckner, regarding the Robust Nuclear 
Earth Penetrator, what specifically are you doing to the B83 bomb, are 
any of the warhead components besides the casing being modified, and 
could it eventually require testing?
    Dr. Beckner. The potential modifications to both the B61 and the 
B83, based on the limited analysis done in 1999 entail case 
modifications and structural reinforcement of various portions of the 
weapons package (nuclear explosive package and associated weaponization 
subsystems such as the bomb electrical system) to improve their impact 
survivability. The specific modifications required will not be known 
until the Feasibility Study (6.2) is completed. Guidance to the labs 
from the start has been that no envisioned modification can require an 
underground nuclear test to certify the modified weapon system. There 
will be no modifications to specifically alter yield.

                A-76 PROGRAM AT ALBUQUERQUE FIELD OFFICE

    38. Senator Bingaman. Dr. Beckner, why does the DOE have an A-76 
program to reduce to Albuquerque Field Office when your reorganization 
plan is also reducing it and what staffing levels do you expect when 
all this is done?
    Dr. Beckner. President Bush has challenged all agencies to review 
functions that are not an inherently governmental function and subject 
them to an ``A-76'' review process, to assess whether these functions 
can be done more effectively and efficiently by the private sector. The 
functions that the DOE has identified for review include information 
technology, human resources, and financial services. These functions 
are present at the Albuquerque Field Office.
    We are supporting the overall crosscutting review of these 
functional areas throughout the DOE. We would expect that this review 
will feed into our reengineering efforts for the specific functions 
being reviewed under A-76. Until these reviews are complete the impact 
on staffing levels cannot be determined.

          LONG-TERM WASTE MANAGEMENT RESEARCH AND DEVELOPMENT

    39. Senator Bingaman. Secretary Roberson, who is going to conduct 
the long-term waste management research and development?
    Secretary Roberson. The Department's Office of Science (SC), that 
has been partnering with EM on this activity since 1996, will conduct 
the basic research that addresses the environmental cleanup mission. We 
believe this will result in more efficient research management and 
better leveraging of other basic science tools within SC. SC and EM 
will continue to work closely to ensure the research supports cleanup 
as it evolves.

    40. Senator Bingaman. Secretary Roberson, I understand it may be 
the Office of Science, but will the reduction in funds from your office 
be transferred to the Office of Science or will they pick up an 
unfunded mandate?
    Secretary Roberson. No, in developing the fiscal year 2003 budget 
request, funds were effectively transferred from EM, so that SC will 
not acquire an unfunded mandate. The request for the Environmental 
Management Science Program, which now appears within SC's budget, fully 
satisfies funding commitments on multiyear projects that extend into 
fiscal year 2003. However, it does not provide for any new research 
projects.

    41. Senator Bingaman. Secretary Roberson, will you continue to use 
the National Academy of Sciences for outside scientific peer review of 
the waste management program?
    Secretary Roberson. Yes, it is the Department's intent to continue 
to commission the National Academy of Sciences for outside, independent 
reviews on environmental scientific and technical matters.

                           CLEANUP AT SANDIA

    42. Senator Reed. Secretary Roberson, as recently as 2 years ago in 
its fiscal year 2001 budget request, the Department of Energy committed 
to finish the cleanup of the Sandia National Laboratories site in New 
Mexico by the end of fiscal year 2003. This year's DOE request is 
silent on the issue of a completion date. It appears to me that DOE 
plans to extend the cleanup date indefinitely. As you know from your 
experience at Rocky Flats, delaying cleanup schedules is in the long 
run more expensive than applying the extra resources needed to get the 
job done on schedule. Could you please explain why the Department has 
backed away from its commitment to clean up the Sandia site, and why 
the Department believes this is a cost-effective approach?
    Secretary Roberson. Please be assured that the Department of Energy 
is fully committed to the cleanup of the Sandia National Laboratory 
(SNL), as well the other large cleanup project in New Mexico at the Los 
Alamos National Laboratory.
    During the past 2 years, SNL has aggressively pursued the 
excavation of several major landfills. During these cleanups, 
additional quantities of contamination than what were thought to be 
present were discovered. This type of uncertainty is unavoidable at 
landfill excavations regardless of how thoroughly the landfill is 
characterized. Because of this increase in the scope of the project, 
the fiscal year 2003 cleanup completion date for the Sandia site that 
you referred to could not have been achieved.
    One of the recommendations included in the Top-to-Bottom Review is 
to ``accelerate the closure of small sites.'' On May 30, 2002, the 
Department, the State of New Mexico officials, and EPA signed a Letter 
of Intent that establishes goals and identifies activities that would 
complete cleanup at Sandia National Laboratories by 2006.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

            INFRASTRUCTURE PLAN FOR NUCLEAR WEAPONS COMPLEX

    43. Senator Thurmond. Dr. Beckner, Section 3008 of the National 
Defense Authorization Act for Fiscal Year 2002 requires the Secretary 
of Energy to prepare an infrastructure plan for the Nation's nuclear 
weapons complex. Although the report is not due for some time, what is 
your current assessment of the adequacy of the complex to support the 
current and future nuclear stockpile requirements?
    Dr. Beckner. NNSA's ability to support the nuclear weapons 
stockpile depends upon renewing industrial and engineering capabilities 
across the complex. Much of the infrastructure of the national security 
enterprise was built during the era of underground nuclear testing, and 
has eroded to the point that we are no longer able to perform some 
essential tasks. The President's fiscal year 2003 budget address 
supports our industrial base in two key ways: a request of $1.7 billion 
for Readiness in Technical Base and Facilities, a 10 percent increase 
supporting the operations of weapons complex facilities; and, a $243 
million request for the Facilities and Infrastructure Recapitalization 
Program to continue this important multiyear initiative into its third 
year to help restore the weapons complex.

    44. Senator Thurmond. Dr. Beckner, the Department of Defense uses 
the Installation Status Report to identify the condition of its 
facilities. What are the DOE's installation measurement tools?
    [Dr. Beckner did not respond in time for printing. When received, 
answer will be retained in committee files.]

                            SERVICE CENTERS

    45. Senator Thurmond. Dr. Beckner, the Department plans to 
eliminate a layer of management and oversight by establishing eight 
site offices collocated with the eight NNSA contractors. How will these 
eight offices differ from the field offices that the Department 
previously used to manage operations?
    Dr. Beckner. As described in the ``Report to Congress on the 
Organization and Operations of the National Nuclear Security 
Administration, February 25, 2002,'' the NNSA is significantly changing 
its field structure. In the past, operations offices managed, on behalf 
of NNSA, field offices whose basic role was operations, particularly 
occupational safety and nuclear safety. Most other functions in support 
of Defense Programs were performed within the operations offices and 
headquarters. A primary change will be that the field offices will 
assume a role in overseeing the execution of programs. Another 
significant change will be the further empowerment of the site manager 
through delegation of significant contracting authorities. On the other 
hand, operations offices will transform into service centers, whose job 
will be to provide support to the field offices and the weapons complex 
more broadly, primarily in administrative, financial, and contracting 
areas. These and other changes will be clearly mapped through an 
extensive re-engineering activity, now underway, which will complete 
this fall.

                               WORK FORCE

    46. Senator Thurmond. Dr. Beckner, you testified that the 
Department is aggressively starting a program to retain highly-skilled 
employees, retrain employees with skills mismatches, and recruit the 
right technical skills. What programs does the Department have to 
recruit graduate students who will be the seed corn for developing and 
maintaining U.S. nuclear weapons technology?
    Dr. Beckner. The DOE/NNSA has two programs that are utilized to 
employ college students and graduates. The Career Internship Program 
(CIP) and the Student Career Experience Program (SCEP) are critical to 
NNSA work force recruitment and retention efforts. CIP is utilized more 
throughout the weapon complex as it is designed to employ recent 
college graduates in scientific and engineering entry-level positions. 
The program trains and develops the interns in special skills and 
knowledge that are required to fill critical positions such as weapon 
program engineers and weapon program management. These positions have 
the responsibility to develop and maintain the U.S. nuclear weapon 
technology.
    Weapon program engineers oversee all aspects of the development, 
production, and modifications of components in support of the Nation's 
nuclear weapon stockpile. Program management positions oversee the day-
to-day construction of the facilities to include reviewing and 
approving engineering plans and specifications for NNSA owned nuclear 
and non-nuclear facilities. The CIP ensures that DOE's corporate 
structures and functions are learned through a comprehensive training 
program, which includes rotations through offices in nuclear weapons, 
program management, and environmental safety and health. These 
rotations can be between 2 to 6 months in duration, thus allowing the 
interns to work on projects and shadow senior engineers and scientists. 
Another important program is the SCEP. This program allows student to 
be employed during 2 years of college and allows for conversion to a 
full time federal position after graduation. The students are given 
projects and are encouraged to shadow technical staff.

    47. Senator Thurmond. Dr. Beckner, in its recruiting efforts does 
the Department of Energy face the same anti-military sentiments on some 
university campuses as the Department of Defense? If so, what are your 
suggestions on how to overcome this problem?
    Dr. Beckner. The DOE's corporate recruiters face anti-government 
sentiments on college campuses across the Nation. In light of the 
terror attacks, DOE is focusing its recruitment strategy and building 
on the Nation-wide sense that serving the Government is honorable and 
noble. Our office is exploring a partnership with the new non-profit 
organization ``Partnership for Public Service.'' The organization is 
dedicated to recruiting and retaining excellence in Federal service. 
The organization encourages qualified men and women to choose Federal 
service for some or all of their career.

                          MODERN PIT FACILITY

    48. Senator Thurmond. Dr. Beckner, last year this committee 
expressed great concern about the lack of progress being made with 
regard to a Modern Pit Facility. The Panel to Assess the Reliability, 
Safety, and Security of the United States Nuclear Stockpile, or simply, 
``the Foster Panel,'' provided striking evidence that we must take 
aggressive action in this regard. In fact, in both the 1999 and 2000 
reports, the Foster Panel made as its most significant recommendation 
that the United States must ``Immediately begin conceptual design of an 
adequate pit production facility.'' In response to this compelling 
evidence, this committee included in the report accompanying the Fiscal 
Year 2002 National Defense Authorization Act the following guidance: 
``The committee notes the panel's estimate that it will take 10 or more 
years to build an adequate pit production facility. The pending NPR is 
expected to outline such critical concerns as the size of the future 
arsenal and mix of weapons. . . . Conceptual design should proceed at 
the conclusion of this study to facilitate a timely decision on 
facility construction.'' Furthermore, the committee recommended ``an 
additional $10 million be available to select an architect-engineering 
organization to begin the conceptual design and report process, in 
order to keep the new pit production facility on schedule.'' 
Unfortunately, your fiscal year 2003 budget calls for the design of 
this facility to be ``deferred until fiscal year 2004 with fiscal year 
2003 funding used to continue manufacturing concepts.'' Do you disagree 
with the findings of the Foster Panel with regard to a Modern Pit 
Facility?
    Dr. Beckner. NNSA is currently taking steps to proceed with an MPF 
including formal approval of mission need, Critical Decision-0 (CD-0), 
which is required to start conceptual design of a MPF. Following CD-0 
approval by the Department, anticipated yet this month, the NNSA will 
initiate a National Environmental Policy Act (NEPA) process to obtain a 
formal Record of Decision that is required to both select a site for an 
MPF and to proceed with a detailed facility design after completing 
conceptual design. The NNSA will expedite the NEPA process while 
simultaneously developing technology required to evaluate conceptual 
designs for an MPF.

    49. Senator Thurmond. Dr. Beckner, why was the design of the Modern 
Pit Facility deferred to fiscal year 2004?
    Dr. Beckner. Although the Senate Armed Services Committee 
recommended an additional $10 million in fiscal year 2002 for the MPF, 
only $4 million was appropriated. Based on this $4 million 
appropriation and consistent with direction provided by the Senate 
Armed Services Committee, the NNSA has completed pre-conceptual 
planning activities and is prepared to start conceptual design of an 
MPF following approval (spring 2002) of Critical Decision-0, mission 
need.

                      NEED FOR MODERN PIT FACILITY

    50. Senator Thurmond. Dr. Beckner, in 1996 the DOE called for 
developing a contingency plan to establish a large scale pit 
manufacturing facility within 5 years. Does your research on the 
deterioration of nuclear components support your decision to delay the 
1996 plan? Do you have new evidence contradicting the concerns of the 
Foster Panel with regard to the ``worrisome signs of deterioration in 
some nuclear components?''
    Dr. Beckner. Research to date on plutonium aging and pit lifetimes 
does not show significant deterioration that would raise concern about 
the safety, security, or reliability of the Nation's nuclear deterrent. 
The weapons laboratories are continuing to conduct experiments at the 
laboratories and the Nevada Test Site to further improve our 
understanding of the lifetime of nuclear components such as pits. At 
the same time the NNSA is proceeding, on a prudent pace, supported by 
the Nuclear Weapons Council, with plans to develop a Modern Pit 
Facility that will meet the needs of the nuclear weapons stockpile.
    NNSA is aggressively monitoring the aging phenomenon through the 
core surveillance program and enhanced surveillance campaign. An 
ambitious refurbishment program to replace some of the components of 
the weapons systems that have higher risk to safety or reliability has 
been instituted. These life extension programs (LEPs) have extremely 
high priority and management attention at NNSA, the design 
laboratories, and the production plants. As a direct result of input 
from the core surveillance program and the enhanced surveillance 
campaign, the strategy and tactics for the LEP implementation have been 
focused to address the concerns of an aging stockpile.

                 MIXED OXIDE FUEL FABRICATION FACILITY

    51. Senator Thurmond. Dr. Beckner, last year you assured me that 
the mixed-oxide (MOX) plant was your top nonproliferation priority. 
Thank you for all you have done with regard to moving this program 
forward. However, a few matters need to be resolved in order to 
guarantee the success of the program. Specifically, I have been 
informed that you are currently negotiating with the Governor of South 
Carolina to achieve a mutually satisfactory agreement for the DOE and 
South Carolina. While a number of my colleagues addressed this matter 
at today's hearing, it was my understanding that this agreement may 
require legislation. Do you believe that it would require legislation 
to implement it?
    Dr. Beckner. The administration supports a legislation approach 
designed to assure the people of South Carolina that there will be a 
path for surplus plutonium to be shipped to its Savannah River Site. 
The administration considers Section 3182 of S. 2514 adequate to 
achieve this objective. 

    52. Senator Thurmond. Dr. Beckner, would you please provide 
suggested legislative language? As this is a time-sensitive matter, 
could you accommodate this request immediately?
    Dr. Beckner. The Department supports the legislation introduced by 
Congressman Lindsey Graham and Senator Strom Thurmond. I believe that 
this legislation addresses all of the concerns the State of South 
Carolina has raised regarding the plutonium disposition program.

               CURRENT PLANS FOR MOX FABRICATION FACILITY

    53. Senator Thurmond. Dr. Beckner, you are no doubt aware that a 
MOX lead test assembly (LTA) program is needed before the Nuclear 
Regulatory Commission (NRC) will approve the use of significant 
quantities of MOX fuel. The initial plan for the fabrication of these 
units--fabrication at LANL--was terminated by the DOE in May 2000, 
reportedly due to cost and schedule concerns. I have been informed that 
there is a possibility that there may be a lag between the MOX 
fabrication facility startup and large scale use of MOX. The potential 
startup delays would mean that large scale use of MOX fuel would not 
begin until 2012, 2013, or later. Consequently, the lag between MOX 
Fuel Fabrication Facility and full production requires maintaining the 
facility with no production for a number of years, a cost impact to the 
taxpayer of potentially $200 million. Can you detail the current plan 
as well as the schedule of that plan? Can you assure me that there will 
be no delay due to LTA approval delays?
    Dr. Beckner. The options for fabrication of MOX lead assemblies are 
still under consideration. One option the Department is currently 
examining is the early fabrication of MOX lead assemblies in Europe. 
The Department is meeting with European Government officials to 
determine the necessary measures to pursue this option. Detailed plans 
will be developed if an agreement can be reached by all parties.
    If successful, lead assemblies will be fabricated and irradiated 
before the completion of the MOX Fuel Fabrication Facility, and the 
Department's contractor, DCS, should be able to obtain Nuclear 
Regulatory Commission approval for large-scale use of MOX fuel in the 
Duke energy reactors on the desired schedule.
    I am optimistic that there will be no significant delays in Nuclear 
Regulatory Commission approval of the lead assemblies. However, it is 
simply not possible to guarantee that there will be no delays as the 
Nuclear Regulatory Commission exercises its statutory responsibilities 
to confirm the safety of the use of lead assemblies in licensed 
reactors.

                           FULL-TIME MANAGER

    54. Senator Thurmond. Dr. Beckner, I believe it would be helpful 
and assuring to have a DOE manager to take charge of the MOX fuel LTA 
project on a full time basis to perform DOE activities, coordinate 
interagency activities, such as Department of State, Department of 
Defense, etc., as well as oversee contractor activities. I also believe 
a full time manager could open and maintain a dialog between the United 
States, France, and Belgium, initiate National Environmental Policy Act 
activities, and prepare an export license application to the Nuclear 
Regulatory Commission. Do you believe these activities could be better 
managed by a full-time manager, and if so, will you support creating 
such a position?
    Dr. Beckner. The Department has assigned a full-time engineering 
manager at headquarters with the primary responsibility for lead 
assembly activities. One of the priorities for this position involves 
coordinating lead assembly activities and maintaining communication 
between the various agencies and contractors involved in this effort.

                          ACCELERATED CLEANUP

    55. Senator Thurmond. Secretary Roberson, I fully support the 
Department's initiative for accelerated cleanup of the DOE sites. My 
concern is that you will not have sufficient resources to fulfill all 
the expectations. What assurance can you provide us that once the 
additional $800 million allocated for the program has been committed, 
you will be able to obtain additional funding to support the program?
    Secretary Roberson. The administration is prepared to support a 
request for additional funds, up to $300 million, if needed for cleanup 
reform. I am personally committed to the success of this initiative to 
refocus and accelerate the cleanup and will work within the 
administration and with Congress to ensure that the Department receives 
the funding that is needed to carry out agreements that will 
successfully accelerate risk reduction and cleanup.

    56. Senator Thurmond. Secretary Roberson, what is the status of the 
program in regard to the Savannah River Site?
    Secretary Roberson. The Department has developed a number of 
specific initiatives for the Savannah River Site that could potentially 
be funded from within the cleanup reform appropriation. These 
initiatives would enable a significant acceleration in the timetable 
for completion of EM's cleanup work at the site with a corresponding 
significant reduction in risk and in the overall cost of cleanup. We 
have been discussing these initiatives with state officials and their 
Citizen's Advisory Board. In parallel, we have developed a draft 
performance management plan in support of implementing the accelerated 
cleanup program to effectively manage this work. We are working closely 
with State and Federal regulators to reach agreement on an accelerated 
cleanup plan, and I am optimistic we will reach that agreement soon.
                                 ______
                                 
               Questions Submitted by Senator Jim Bunning

                         PUBLIC LAW 105-204 \1\
---------------------------------------------------------------------------
    \1\ S. 2316, ``A bill to require the Secretary of Energy to submit 
to Congress a plan to ensure that all amounts accrued on the books of 
the United States Enrichment Corporation for the disposition of 
depleted uranium hexafluoride will be used to treat and recycle 
depleted uranium hexafluoride.''
---------------------------------------------------------------------------
    57. Senator Bunning. Congress passed P.L. 105-204 in 1998. The 
intent of the bill was to ensure that the construction of DUF6 
conversion facilities would be built at two sites, one at Paducah and 
one at Portsmouth, and that by 2004 cleanup of the DOE's depleted 
uranium hexafluoride would be completed. The DOE has now decided not to 
select a contractor for this project and to delay the selection until 
October 2003 to study whether two facilities are necessary. I know that 
the OMB has refused to provide funding for this project. I believe that 
two facilities are necessary to eliminate the hazardous waste at the 
sites. Will the intent of P.L. 105-204 be followed by constructing two 
DUF6 facilities, one at Paducah and one at Portsmouth?
    Secretary Roberson. After careful consideration of options, the 
Department has decided not to make a selection decision or to award the 
contract to design, build, and operate DUF6 conversion facilities at 
both the Paducah and Portsmouth sites at this time. Rather, the 
Department plans to consider alternatives in the number and location of 
conversion facilities before continuing with the evaluation of 
proposals and subsequent award of a contract. We plan to make that 
decision by January 2003.

    58. Senator Bunning. Secretary Roberson, the DOE's new tactic with 
the contractor selection process appears to make it impossible to 
finish construction of the DUF6 facilities by 2004. Do you think 
construction of a DUF6 facility will ever begin and when do you think 
it will commence?
    Secretary Roberson. By January 2003, the Department plans to 
announce its decision as to the number and location of DUF6 conversion 
plants. DOE will evaluate its schedule requirements for construction as 
a part of its consideration of the number and location of plants.

    59. Senator Bunning. Secretary Roberson, in the President's fiscal 
year 2003 budget, the Paducah cleanup fund received $73.4 million, 
which is $20 million less than the fiscal year 2002 appropriated amount 
of $93.4 million. How do you plan to finish cleanup at the Paducah 
Plant in a timely manner if funding continues to be cut?
    Secretary Roberson. The Department is committed to cleanup of the 
Paducah site, and is working to identify ways to achieve more risk 
reduction and accelerate the cleanup. We do not view the fiscal year 
2003 budget as a budget cut for the Paducah site or for any other DOE 
sites. The total budget request of $6.7 billion, including the $800 
million requested for EM cleanup reform, is approximately equal to 
fiscal year 2002. Furthermore, the administration is willing to support 
up to 5,300 million more if needed for cleanup reform. We have 
structured the budget in a manner to provide the necessary incentives 
to revise the cleanup strategy at our sites to achieve an accelerated 
risk reduction strategy. The budget includes funding to continue 
ongoing cleanup work until an agreement on a revised cleanup strategy 
is reached. Once a new strategy is defined, we intend to provide 
additional funds as appropriate to those sites.
    Based on the results of the Secretary's Top-to-Bottom Review, the 
Department is developing an accelerated cleanup approach for the 
Paducah site that could significantly accelerate risk reduction. We are 
working with the Commonwealth of Kentucky and the EPA's Region IV on 
the proposal and, upon agreement with the regulators, the Paducah site 
would be eligible for additional funds from the EM cleanup reform 
account to implement the agreement. In addition, we will continue to 
look for ways to reduce costs and accelerate schedules through the use 
innovative technologies, fixed price contracting and improvements in 
project management.

    60. Senator Bunning. Secretary Roberson, do you plan for the 
Paducah Plant to be part of the DOE's proposed Accelerated Cleanup 
Program, and if so, how will this affect the time line for cleanup at 
the Paducah Plant, and if the Paducah Plant becomes part of the 
program, will it remain a cleanup priority for the DOE?
    Secretary Roberson. Yes, the Department has proposed an accelerated 
cleanup strategy for the Paducah site and, upon agreement and joint 
commitments by the regulators, the site would be eligible for 
additional funds from the EM cleanup reform account to ensure 
successful implementation of the strategy. This strategy, if accepted 
by the regulators, could complete EM's current cleanup scope of work at 
Paducah as early as 2006. Discussions with the State and U.S. 
Environmental Protection Agency are continuing.

    [Whereupon, at 4:30 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                        THURSDAY, APRIL 11, 2002

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.

        INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE PROGRAMS

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SR-222, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed and Allard.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Kenneth M. Crosswait, professional staff member; 
Creighton Greene, professional staff member; and Christina D. 
Still, professional staff member.
    Minority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, minority 
counsel; and Brian R. Green, professional staff member.
    Staff assistants present: Thomas C. Moore and Nicholas W. 
West.
    Committee members' assistants present: Elizabeth King, 
assistant to Senator Reed; and Douglas Flanders, assistant to 
Senator Allard.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Let me call this hearing to order. The 
Strategic Subcommittee meets this afternoon to receive 
testimony on the intelligence, surveillance, and reconnaissance 
(ISR) programs of the Department of Defense. We will conduct 
this hearing in open and closed sessions. At the conclusion of 
the open session, we will adjourn and reconvene in room S-407 
of the Capitol for the closed session.
    Our three witnesses today are the Honorable John Stenbit, 
Assistant Secretary of Defense for Command, Control, 
Communications, and Intelligence (C\3\I); Lieutenant General 
Gregory Newbold, Director of Operations for the Joint Staff, 
(J3); and Rear Admiral Stanley Szemborski, Deputy Director for 
Resources and Requirements for the Joint Staff, (J8). Welcome, 
gentlemen, and thank you for joining us this afternoon.
    Secretary Stenbit is responsible for enabling the military 
forces of the United States to use and share the information 
gathered by the formidable collection of intelligence, 
surveillance, and reconnaissance assets at our Nation's 
disposal. This is a difficult and extremely important task.
    General Newbold serves as the operational link between the 
commanders in the field and the National Command Authority. His 
responsibilities include positioning military forces, 
monitoring world-wide military conditions, and conducting 
operational briefings for the national leadership.
    Admiral Szemborski is the deputy in charge of the analysis 
and requirements developments arm of the Joint Staff. We have 
asked Admiral Szemborski to provide his insights into the 
current and future requirements for ISR systems.
    The ISR assets of this country have been instrumental in 
the prosecution of Operation Enduring Freedom in Afghanistan, 
while continuing to support the wider needs of the Department 
of Defense and the intelligence community. They have performed 
very well, the Predator unmanned aerial vehicle (UAV) being one 
of many high profile examples of success. Operation Enduring 
Freedom has also, however, demonstrated some of the limitations 
of the Nation's ISR assets when they are stressed and exposed 
in crisis.
    Following September 11, when the requirements for airborne 
surveillance were stretched beyond the limit of our current 
Airborne Warning and Control Systems (AWACS) fleet, our NATO 
allies came to our assistance. The NATO AWACS aircraft 
maintained surveillance over the United States helping to guard 
against further terrorist strikes when our aircraft were sent 
to support operations in Afghanistan. The attack of September 
11 itself tragically revealed that despite all of our ISR 
capabilities, significant weaknesses remain in our ability to 
detect and prevent the actions of terrorists acting alone or in 
small groups.
    We welcome all of our witnesses today and thank you for 
being here. Thank you also for your service to the country and 
to your respective service. Each of you is important to 
ensuring that the necessary ISR assets are in place, delivering 
information where and when needed. This hearing is an 
opportunity to discuss both our ISR strengths and weaknesses, 
and to ensure we are making the most of the former while 
improving on the latter.
    Senator Allard, at this time would you like to make an 
opening statement?

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Yes, Mr. Chairman, I join you in welcoming 
the three distinguished witnesses from the Department of 
Defense, and applaud your forward thinking in holding this 
important hearing. Mr. Chairman, before I get to the formal 
part of my statement, I wanted to congratulate you on sticking 
to a very ambitious subcommittee schedule. I know how difficult 
it is and appreciate the fact that you have been fighting for 
times and dates to hold all these hearings. You have done a 
good job with your leadership of this committee, and I also 
appreciate your commitment and dedication to the subcommittee's 
work.
    When I think about my responsibilities on the subcommittee, 
we deal with nuclear programs, space and intelligence programs, 
and all those other uncontroversial items. So seriously, Mr. 
Chairman, while we do not always agree on these issues, I do 
want to publicly acknowledge you and acknowledge the working 
relationship that we have here.
    Also, I would like to acknowledge both our staffs for all 
their hard work over the last week to prepare these hearings. 
It is their dedication that allows these hearings to go as well 
as they have. So, to the staff--the professional staff and 
staff assistants and personal staff--a big thank you.
    Now, to get to the subject of this hearing. We are all 
thankful for the initial success of our forces in Afghanistan, 
and around the world in this global war against terrorism. 
While much will be debated in the months and years ahead about 
the relative value of airpower, seapower, and ground operations 
in Operation Enduring Freedom, one thing is clear: All our 
forces are dependent on timely, accurate information to 
succeed. The ISR assets available to the theater and 
subordinate commanders have done a remarkable job in delivering 
that information.
    We have often heard our civilian and military leaders in 
the Pentagon talk about the importance of information 
superiority in future warfare. We have now seen a pragmatic 
demonstration in Afghanistan. This has not always been the 
case.
    During the 1990s, the regional commanders in chief (CINCs) 
routinely acknowledged that they had significant concerns about 
the availability of ISR assets to support both their peacetime 
and wartime operations. Most of these concerns were focused on 
airborne reconnaissance assets, the manned and unmanned 
aircraft with various intelligence sensors that are allocated 
to theater commanders. The numerous global requirements 
combined with the very limited numbers of these aircraft led to 
their being designated as high-demand, low-density (HDLD) 
assets, requiring special intensive management by the Pentagon.
    Recently, Secretary Rumsfeld stated that the very existence 
of the term high-demand, low-density assets means that our 
priorities were wrong, that we didn't buy enough of what we 
needed. Based on the testimony of the regional CINCs and 
various intelligence officials, Congress directed the 
Department of Defense to assess the adequacy of its ISR assets 
in fiscal year 2000. The Joint Airborne Reconnaissance 
Assessment, completed in 2001, concluded that additional assets 
were in fact needed, including additional Joint Surveillance 
and Target Attack Radar System (JSTARS), Rivet Joint, and EP-3 
aircraft, and a well-defined unmanned aerial vehicle 
architecture.
    Similar reviews of our national intelligence needs have 
also been undertaken, examples are the NIMA and NRO 
commissions. All have recommended changes and enhancements to 
our overall ISR capabilities at the tactical, operational, and 
strategic levels. Our purpose here today is to better 
understand this complex ISR enterprise and determine if the 
investments we are making are adequate.
    Furthermore, we want to understand if the policies 
associated with these very essential and special assets are 
appropriate to ensure our warfighters and our national decision 
makers have the best possible information. Finally, we need to 
hear what progress you have made in implementing the prudent 
recommendations made by these various assessments and 
commissions.
    The world has been amazed at pictures of soldiers on 
horseback directing 21st century weapons with devastating 
precision. We see images of AC-130 gunships firing at ground 
targets identified by unmanned aerial vehicles. We see 
silhouettes of parachutes, through night vision goggles, 
descending on distant airfields.
    How did we find these targets, these threats to our 
national security? How will we know if Saddam Hussein plans to 
attack his neighbors again, or if al Qaeda terrorists begin to 
congregate in new locations? The answers to these questions 
reside in having a capable, well-coordinated ISR system. This 
is our first line of defense and it must detect current and 
future threats.
    I look forward to hearing our panel's testimony on the 
performance of our ISR systems, especially in support of 
Operation Enduring Freedom and the global war on terrorism. I 
am also most interested in their view of the future, of what 
our ISR system needs to be prepared for. What gaps or 
challenges may be anticipated, and what can we Congress, do to 
help?
    As we consider the fiscal year 2003 budget request, we must 
be mindful of the critical role information superiority plays 
in our current and future military operations, and how 
intimately connected our ISR assets and weapons systems have 
become. This is clearly the future of warfare. We must ensure 
that our ISR systems continue to be the best in the world. 
Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Allard, not only 
for your statement but for your very kind words. Let me say 
that it has been a pleasure working with you, and your effort 
together with your staff has been absolutely critical to 
meeting a very demanding schedule of hearings. If there is any 
praise, it has to be shared equally, and I thank you very much.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Reed. Secretary Stenbit, you are free to proceed.

   STATEMENT OF HON. JOHN P. STENBIT, ASSISTANT SECRETARY OF 
 DEFENSE FOR COMMAND, CONTROL, COMMUNICATIONS, AND INTELLIGENCE

    Mr. Stenbit. Senator Reed, it is a pleasure to meet you and 
have the opportunity to be here this afternoon. Senator Allard, 
it is my pleasure to see you again. I appreciated your support 
in our hearings back not quite 9 months ago, when I was, in 
fact, before the committee for confirmation.
    I would like to summarize a bit of the big picture of where 
I am coming from. The closed statement for the closed session, 
which I have submitted, has some more details in terms of the 
answers to the questions that you asked. But it is always 
important in my mind to share also the context in which I am 
working. So with that, I will do a brief, open summary.
    First, I think it is important to recognize that the 
Secretary has identified three clear priorities, one of which 
is to deter and prevent other occurrences of terrorism against 
the U.S. and our interests wherever they are in the world. His 
number two priority is to improve the flow of information and 
intelligence and to make sure that these things are 
transformed. Then third, he talks about the transformation of 
the entire Department.
    I am happy to say that the goals that I have in my world 
are clearly aligned with all three, but in particular the last 
two. In that sense I too have basically three goals. I really 
want to get the Department to a network-centric view of the 
world, and I will describe that in a second.
    If I ever get us to a network-centric view of the world, I 
need to populate the network with good information. Then third, 
if I ever did both of the two, I need to make sure that we 
protect that information and protect the network, at the same 
time making sure we can keep somebody else from doing the same 
thing to us. So those are my three goals: Create a network, 
populate it with information, and make sure that we can depend 
on it and that nobody else can. That sounds, perhaps, a little 
simple but let me see if I can elaborate a bit.
    Point number one, with respect to the network, I was in the 
Pentagon in a job very close to the one I have now, 25 years 
ago. In those days in the communications business it was a 
telephone system. Somebody found something out from any kind of 
a system, whether it was a person, airplane, or whatever, in 
effect they had to dial up through a telephone system to tell 
somebody what they found.
    If you think about that for a while, that does not work 
because the person who is dialing needs to know the total state 
of the universe. He needs to know who might be interested in 
the information he has. What is their phone number? Who are 
they? How fast do they need it, with what kind of precision and 
so forth?
    We struggled mightily in that kind of a world because that 
was the technology we had in those days. We ended up with some 
really big problems, not the least of which was the ill-fated 
Pueblo capture in North Korea where we found out 4 days later 
that there were actually Marine Corps aircraft that were 
available that could have gone and intercepted that particular 
issue within the allotted time, but not 4 days later. We had a 
similar issue where the Israelis gave us 24 hours to move a 
ship off of their coast or they were going to sink it. It took 
us over 24 hours to get the order back to move, and when we got 
back there it was a wet order.
    So, those telephone-based systems just did not work. The 
key to all of this is that we adjusted and we made it all work 
by having the bureaucracy that found a target to be the 
bureaucracy that shot it. There just wasn't enough coordination 
capability to be able to separate those two--with the one 
exception of Strategic Air Command (SAC). When SAC was handed 
targets, they put together a war plan for the Air Force and the 
Navy, and it took 18 months. If we changed our mind it took 18 
months.
    That is not an acceptable tactical environment, to wait 18 
months to change the idea of who is going to shoot what target. 
In the intervening 25 years we have made a tremendous step 
forward with this general issue of distribution of information 
by going to broadcast means. Today, if you go into any active 
area, there are global broadcast systems, there are defense 
dissemination programs, there are multiple kinds of broadcast 
systems.
    If you think about a broadcast system, what it does is it 
allows that person who finds something out not to have to know 
to whom they may need to send the data. All they have to do is 
get it on the broadcast, because it is going to be broadcast to 
everybody and people who are interested will listen more than 
those that are not interested in it. That is the way our 
systems work today.
    It has held us in good stead. It came to fruition in the 
Persian Gulf War environment, and it really has come into 
fruition here recently. So, when we talk about a Predator we 
are talking about TV that is seen in multiple places around the 
world at the same time, including multiple places in 
Afghanistan, in the theater of operations. That is the 
broadcast, if you wish. The guy driving the Predator does not 
need to think about whom he must tell if he sees something. It 
is a broadcast system.
    Now, that leads to a whole bunch of things that we spend a 
lot of money and time on these days, called fusion centers. 
Because, the key here is that as you are listening to a 
broadcast in whatever form it is, mostly satellite-based, it 
gets broadcast. It gets broadcast once and then that is it. So 
you had better be listening to all the broadcasts at the same 
time, and then you had better be able to fuse together the 
information--this one, and that one, and this other one. 
Perhaps that is through intelligence. Perhaps that is by 
Service. Perhaps that is from different countries.
    But the point is we then gather all these broadcast sets of 
data, multiple channels if you wish, it is like when you watch 
football games on Sunday afternoon, you would like to have a TV 
that had six little boxes so you could see all of them at the 
same time. I mean, that is fusion. That is NFL fusion.
    The problem with that is we still have a very complex set 
of folks who decide what is important and what is not and then 
pass it on. They have to do it in real-time. Where I would like 
to go in a network world, is a pull-world, where everybody has 
access into a--think of it as an Internet--where the bandwidth 
is not a constraint, that it is a reliable system that people 
count on, that it is trustworthy, and the data are available 
whenever and wherever you want.
    You can call it power to the edge if you wish. That is one 
of the phrases I use. But the edge in this case is whoever does 
not know what they do not know, and they have a problem. They 
need to go find out what is available. They need to be able to 
reach out wherever they go to find it.
    Creating such an environment is one of the major 
transformational goals of both my office and the Department. We 
have in front of you, in the fiscal year 2003 budget, 
significant investments in laser-based communications, both on 
the ground and in space, to create the beginnings of this 
network. That is point number one, create a ubiquitous, 
trustworthy, dependable network where bandwidth is not a 
problem and people can, in fact, get the information they want 
wherever they are, whenever they need it.
    As I said, if you are going to do that you have to then put 
information on that network. There I would like to make two 
points. One, I cannot prove this, but my impression over the 
last 7 months, looking at what has happened over the last 15 
years or so in the ISR business, in the information gathering 
business, in the secrets stealing business, is we have not 
covered the depreciation of our assets, if I were to use a 
business term.
    Every time we use a secret to do something we start the 
process of somebody avoiding having that happen to them again. 
As such, there is a depreciation over time in the value of the 
information we gather, no matter what we do about it, because 
the more we use it the more people get used to our using it and 
the more they tend to avoid it. There are real businesses out 
there that warn people these days about when satellites are 
coming overhead, for example.
    So, one of the things we need to do to populate this 
network is to get back to the investment in new ways to steal 
secrets. This is not the appropriate forum for that, at this 
unclassified level, but there is a lot of money for programs in 
the 2003 budget to start this process of what I call 
recapitalizing the accounts to go steal secrets.
    Second, we can use the information we already have better. 
There is a lot of information that is available that is not on 
the network today. So one of the things I am trying to push is 
procedural changes. One of the big ones has to do with ISR, 
where there is a buzzword called TPED, task, process, exploit, 
and disseminate. I would like to turn that on its head and not 
use that word anymore. I would rather use a word I have 
invented which is TPPU, task, post, process, and use.
    By that, I mean anybody who has anything to say posts it to 
the network first, and then go process it. Somebody else might 
actually want to do something with it in addition to you. We 
actually had this the other day. We are making some progress, I 
am happy to say. Joanne Isham, who is the deputy at NIMA, came 
over and said, ``I have done it. I have done it. I am in your 
network world.''
    Somebody from CENTCOM called up and complained because they 
had called the NIMA analyst to help them with this image, to 
interpret it, and the NIMA analyst had not looked at it yet. So 
we are in this post before we process mode and that is good, 
because somebody at CENTCOM was able to have a different 
priority, a different tolerance for ambiguity or whatever, and 
was able to use the information.
    So with respect to populating the network, I think there 
are two things we need to do. We need to basically invest in 
the recovery of the depreciation of our ability to steal 
secrets. We need to post all the information we have so that we 
do not lose it in the flow. That applies equally to the 
business side of the Pentagon, no question about it. That is 
not only a targeting issue.
    The third, which is the protection of the systems that 
create the network and find the information, we have put 
resources in--for instance, to increase the jam resistance of 
the GPS satellites--the 2003 program. We have become very 
dependent on the GPS satellites. We might as well treat it as 
if we really need it and start to invest as if it really needed 
to be there. We need to do that for information assurance and 
some other issues with respect to the network and crypto-
modernization. But more importantly, we also need to move 
forward with information operations to make sure we can 
preclude somebody else doing that to us.
    So that is the context that I deal with these issues. My 
closed statement goes into some more detail. I would be happy 
to answer questions as we move forward. But thank you for the 
opportunity to give you my big picture.
    Senator Reed. Thank you very much, Mr. Secretary. I would 
note that General Newbold and Admiral Szemborski have a 
combined statement. But I presume that both of you would like 
to testify this afternoon, so let me turn to General Newbold 
first.

  STATEMENT OF LT. GEN. GREGORY S. NEWBOLD, USMC, DIRECTOR OF 
                OPERATIONS, J3, THE JOINT STAFF

    General Newbold. Sir, thanks, also we are honored to be 
here this afternoon to have an opportunity to testify. I would 
like to submit our statement for the record.
    Senator Reed. Without objection.
    General Newbold. Just a quick comment, sir, you have 
indicated the position I occupy is a linkage between the 
combatant commanders, the warfighters, and Washington. The role 
involves the distribution of assets, in this case very scarce 
and precious assets: intelligence, surveillance, and 
reconnaissance platforms.
    We have had some wonderful successes in Afghanistan, but we 
can expand it beyond Operation Enduring Freedom to successes in 
virtually every corner of the world, including the United 
States. We have also revealed some additional requirements, or 
some weaknesses. We have grown and adapted as we have learned 
quite a bit about our own systems and how we use them.
    The future is as Mr. Stenbit indicated, but we have to be 
agile enough to adapt today. I think we have shown some of that 
and we need to show a good bit more. So, our job in the 
operations department is to ensure that we are not content with 
the present and can adapt to the future. I look forward to 
questions, sir, and the opportunity to try and address them. 
Thank you.
    Senator Reed. Thank you very much, General. Admiral 
Szemborski, your comments.

   STATEMENT OF REAR ADM. STANLEY R. SZEMBORSKI, USN, DEPUTY 
  DIRECTOR FOR RESOURCES AND REQUIREMENTS, J8, THE JOINT STAFF

    Admiral Szemborski. Mr. Chairman, Senator Allard, I am 
honored to be here today before this distinguished 
subcommittee. Thank you for the opportunity to discuss 
intelligence, surveillance, and reconnaissance. In my current 
assignment, I am responsible to the Chairman of the Joint 
Chiefs, General Myers, for requirements, acquisition, and also 
the program budget system. My job is to try to keep all three 
of those processes rolling in the same direction.
    In that assignment, I spend quite a bit of time working on 
bringing programs to the Joint Requirements Oversight Council, 
or JROC. I look forward to testifying today and I will forgo 
the rest of my oral statement. I am prepared to answer any of 
your questions. Thank you.
    [The combined prepared statement of General Newbold and 
Admiral Szemborski follows:]

Combined Prepared Statement of Lt. Gen. Gregory Newbold, USMC, and Rear 
                      Adm. Stanley Szemborski, USN

    Members of the Senate Armed Services Strategic Subcommittee, we are 
pleased to provide this statement regarding the status of our 
Intelligence, Surveillance and Reconnaissance (ISR) assets and their 
importance to the breadth of our military operations. We will address 
two general areas that I believe require particular attention: first, 
the means by which we allocate ISR assets among competing requirements; 
and second, the importance of the systems that process, analyze, and 
forward collected intelligence to our combatant forces.
    We must first thank Congress for its sustained support to our Armed 
Forces. This committee's support has been instrumental in our forces' 
impressive performance in recent operations. Your continued support is 
instrumental to our efforts in the war against global terrorism.
    Intelligence collection, analysis, and dissemination are more 
critical to operations today than ever. We rely on timely, 
comprehensive information collection complemented by rapid analysis and 
high speed distribution to optimize force employment. The 21st century 
has seen the warfighter's need for intelligence expand and delivery 
times shrink. Today, timeliness of intelligence is as important as its 
accuracy. Many of the targets we now face are small, mobile, and well 
concealed. Their fleeting nature often affords us scant opportunity for 
targeting. Successful ISR translates into proper use of precision 
weapons, focusing maximum destructive efforts and minimizing collateral 
damage.
    We utilize a scarce inventory of intelligence collectors ranging 
from national collection capability to airborne platforms such as the 
Air Force U-2, Rivet Joint and Predator UAV, Navy EP-3 and P-3, and 
Army Guardrail and Airborne Reconnaissance Low (ARL), to ground-based 
collection and processing capability. We remain concerned about the 
effects of a sustained high operations tempo on the force and about 
shortages of ISR assets. With congressional support, the Department 
continues to address critical readiness concerns, (e.g. RC-135 Rivet 
Joint number 17 plus TC-135 and two RC-135 flight simulators, Predator 
systems numbers 6 through 12, and EP-3 numbers 12 through 16). As we 
address current ISR shortages, we are working to maintain an 
appropriate balance between near- and long-term readiness initiatives 
through incremental improvements which serves as a hedge against both 
near-term readiness shortfalls and failures of unproven technologies as 
we pursue more radical technologies to transform our forces for the 
21st century. A case in point are our UAVs.
    UAVs have validated their potential in Afghanistan for 
reconnaissance and surveillance and have demonstrated potential for an 
increased role in combat missions. We are continuing to experiment with 
additional roles and missions for these vehicles, improve their 
communications reach-back capabilities, and develop and acquire them at 
greater rates. The President's 2003 budget funds a number of 
transformational programs designed to help meet the objective. $141 
million is funded to accelerate development of UAVs with new combat 
capabilities. $629 million is funded to procure three Air Force Global 
Hawk high-altitude unmanned vehicles and accelerate improvements such 
as electronics upgrades and better sensors, and begin development of a 
maritime version.
    The President's 2003 budget also funds a number of transformational 
programs to address intelligence tasking, processing, exploitation, and 
reporting requirements. One such investment is $136.5 million for the 
next-generation joint ground system Automated Intelligence, 
Surveillance and Reconnaissance System.
    In the discussion of intelligence gathering, one must not overlook 
the critical contribution of human intelligence (HUMINT). Quite often, 
HUMINT proves to be an invaluable source of intelligence, unmatched by 
any other source.
    Our ISR forces provide support across the globe and are in 
extremely high demand. ISR support is usually the first request to come 
from the Combatant Commander. In addition to Operation Enduring 
Freedom, we are currently supporting Balkan operations, Operations 
Northern and Southern Watch, Korea, and operations in support of our 
forces in South America. These assets also help maintain awareness of 
potential threats in other areas around the globe. Most ISR assets are 
characterized as Low Density/High Demand--requirements exceed the 
current availability of platforms and/or personnel. AWACS, U-2s, and 
RC-135s are all examples of LD/HD assets.
    We seek to balance unified commanders' ISR requirements with 
sustainment of long-term capabilities. We achieve this through global 
military force policy or Service-specified employment limits that set 
limits for the maximum pace of operations that can be sustained without 
imperiling an asset's ability to train or surge for contingencies. 
These limits help decision-makers better understand the costs of 
employing these assets. As you may expect, post-September 11 operations 
have pushed some of our ISR LD/HD assets into maximum surge levels. To 
mitigate shortfalls in low-density/high-demand airborne ISR assets, the 
Department created, implemented, and is now refining a revolutionary 
process for matching intelligence requirements with existing airborne 
ISR assets during steady-state peacetime operations and emergent 
crises. The new methodology focuses on satisfying the commands' highest 
priority information requirements and allows us to assess various 
allocation options and the risk associated with requirements that 
cannot be met with available assets.
    This new process involves four distinct steps: First, each command 
identifies information requirements and submits them to the Joint 
Staff. Second, those requirements are prioritized based on criteria 
linked to existing policy directives and Joint doctrine. Third, all 
requirements undergo review from the Defense Intelligence Agency (DIA), 
National Security Agency (NSA), and National Imagery and Mapping Agency 
(NIMA) for potential satisfaction by other, non-airborne collection 
means. Fourth, the resultant prioritized requirements are matched to 
existing ISR assets based on a hierarchical system.
    Where appropriate, we actively coordinate the use of allied 
platforms in lieu of U.S. capabilities. In addition, since September 
11, we have deployed some assets outside their traditional role to 
satisfy unmet ISR tasking, freeing up other ISR assets.
    Employing the proper sensor at the right place is only part of the 
challenge. Just as important are the systems and personnel that support 
the transformation of raw sensor data into actionable intelligence. All 
systems must provide a comprehensive, flexible, and supportive analysis 
and dissemination architecture that gets our forces the information 
they need, when they need it. This doesn't come automatically. The 
communications channels that get information to the analysts and back 
out to the warfighter and the priorities assigned to this analysis 
effort must be well thought out before it is needed. Accurate and rapid 
interpretation of intelligence is a highly refined skilled that can 
take years to develop.
    Your continued support is imperative to the success of our ISR 
efforts. Our reliance on ISR capabilities, critical to today's 
operations, will only grow in the future. We look forward to your 
questions regarding the status of our ISR forces today and impact on 
current operations.

    Senator Reed. Thank you very much, Admiral. Let me begin a 
round of about 6 minutes, and then turn to Senator Allard.
    The Air Force plans on procuring some 50 Global Hawk 
unmanned aerial vehicles in the coming years, and this is 
something on which our committee has been very supportive. In 
fact, Senator Warner has been particularly encouraging in this 
regard. So we would commend the Air Force for this. In 
addition, the Navy now appears to be interested in acquiring a 
variant of Global Hawk.
    Each Global Hawk can gather a large amount of data, but 
typically all that data has to be sent via satellite to remote 
ground stations for processing, which raises the question, Mr. 
Secretary, can you tell us how you plan to ensure we have the 
satellite communications capability we will need to support the 
Global Hawks and other UAVs we plan on buying in the coming 
years? Is this capability, the satellite capability, properly 
phased with the UAV acquisition program which, as a final point 
I might add, seems to be accelerating rapidly with every 
Service and every contractor?
    Secretary Stenbit. Let's see, to go to your last question 
first, of course it's not properly phased but it's actually not 
that bad for a poor reason. I was chagrined to read in The Wall 
Street Journal yesterday a front page article talking about 
this subject. I was relatively pleased that somewhere around 
September 13 we actually did go out and have a competitive bid 
with CNN for satellite services. At that time, we obtained and 
still have today 500 megahertz of additional commercial 
channels which we use quite effectively to move the data from 
the Predators and other ISR assets in the theater. So, we were 
fortunate and it was part of the plan at the time that we would 
use surge capacity within the commercial satellite world.
    I think if we were to look at that plan today, seeing the 
financial stress--that is probably a kind word for the long 
haul telecommunications business--we would have to be less 
optimistic today that things like Iridium, ICO, Teledesic, 
AstroLink, CyberStar, and all of those programs that everybody 
thought were going to launch in the next 5 years will actually 
get there. So, part of the problem of the phasing over the next 
several years that the assumptions of how many companies will 
go bankrupt were too optimistic.
    On the other hand, the good news, which is not very good at 
all, is that that meant there was excess capacity. We were able 
to get 500 megahertz and we have. In fact, we put in play the 
ability to continue those services through the transition of 
the fiscal year. It is interesting to note how awkward our 
funding mechanisms are compared to businesses, because we have 
to do it by fiscal year, by appropriation, and making the 
peanut butter and jelly come out right is sometimes difficult.
    But we believe we are in good shape at approximately the 
level we are at now. We are going to launch three satellites 
called ``wideband gap fillers'' over the next 3 years, starting 
in 2004, 2005, and 2006. Those are follow ons to DSCS, which is 
the existing military wideband satellite, which has nowhere 
near enough capacity to handle Global Hawks and Predators and 
things like that.
    The wideband gap fillers have a lot more capacity. They 
have added one more frequency which is called the Ka-band, 
which is up at about 20 gigahertz, probably too much detail. 
But in any case, because it is a higher frequency, it has wider 
bandwidth and it can handle more information.
    In my summary of my statement, I talked about the use of 
laser technology, both on the ground and in space, as a 
transformational issue with respect to where we want to go. 
This is really for the end of the decade. But I was happy you 
asked the question because I think that is an extremely 
important issue.
    The commercial telecommunications people have learned how 
to put multiple colors of light down a fiber. So if you want 
some more bandwidth you add a color. It is called dense-wave 
division multiplex. We intend to equip about 90 facilities in 
the Defense and intelligence departments over the next 2 years, 
one color per facility. That is 10 gigabits per second. That is 
called an OC-192.
    We want to go to an all-optical, very wideband, as global 
as we can, ground-based network. The money for that is in the 
request. Half of it is in the request for 2003, and it is 
called the Global Information Grid Bandwidth Expansion program.
    We intend to use that same technology in space. By that I 
mean building laser crosslinks and laser communications to read 
from the Predator up to the satellite, laser from the satellite 
over to another satellite, and then a laser back down to the 
ground and into this network. Without doing that I think we 
will never solve the problem that you just described.
    I was at a review of that program the other day. They are 
making progress at bounding how many laser heads we can put per 
satellite and still maintain the communications capacity. It 
looks as if that particular transformation is going to be well 
within the technical state of the art and also feasible with 
respect to time and money.
    So, I believe we are moving forward and this network that I 
was describing is fundamental to the question you just asked. 
Because not only do we need the bandwidth, we need the people 
to be able to process the information. We cannot spray that all 
over the world in small little clumps. It just will not work.
    So part of the real advantage of this TPPU or the issue of 
building this network, is we can exfiltrate that data to 
wherever we need it. Then people can retrieve it as if it were 
an Internet, back through the same lasers and up to a radio in 
space and back down to their work stations. So we think that is 
probably the most transformational thing we can do in the 
Defense Department, let alone in the ISR world.
    Senator Reed. Thank you, Mr. Secretary. Related to your 
comments, Admiral Szemborski, you would, I assume, be 
responsible for the Joint Chiefs' developing the requirements 
first for the number of UAVs, and second how that is tied into 
the satellite architecture. If that is the case, can you 
comment upon this process and the requirements?
    Admiral Szemborski. Yes sir, the JROC has taken this on and 
over the last several years they have commissioned several 
studies, both in the satellite area and the UAV area, in trying 
to bring this together. We have been very involved in what the 
C\3\I staff is doing and we continue to assess it. We have also 
designated one joint warfighting capabilities assessment team, 
or JWCA team, to specifically look at this area.
    That team has been assigned over the next year to do a 
complete assessment and do an operational concept for this 
area. We believe that by starting with the operational concept 
and then going to an architecture below that, we will be able 
to identify the key communications nodes and the key 
interoperability requirements that will allow us to take a step 
forward to a more integrated infrastructure in the future. The 
JROC started this a couple of years ago with the JTAMDO 
organization, the Joint Theater Air Missile Defense 
Organization, for cruise missile defense. The benefits of that 
have just been tremendous so far.
    So with this effort that is going on right now, we believe 
that we will be able to really get a handle on the architecture 
of the future, be able to then hand that operational 
architecture over to the smart folks in C\3\I to be able to do 
the technical architecture. With that, bring together something 
that we think will lead to a much better capability for the 
warfighter in the future.
    Senator Reed. Thank you very much. Senator Allard.
    Senator Allard. In laying out this integrated ISR 
architecture, it looks to me like we have a huge task ahead of 
us. We have land, sea, and air, and then we have space on top 
of that. Then we have the tasking, the processing, and the 
communications parts of it. It is going to be a substantial 
undertaking.
    But I am not discouraged because I see things that are 
encouraging. Mr. Stenbit, what is your assessment of progress 
being made in development and implementation of this integrated 
ISR architecture?
    Secretary Stenbit. As I said, I think that the use of 
broadcast capability, and that is really what I did when the 
Air Force requested, and DISA did it, and I got my approval 
about the money, to get these satellite channels. I mean, we 
are now used to going into this broadcast mode. If we were not 
used to it and if we had not distributed common ground station 
programs to do interoperable analysis of it, and we did not 
have the wherewithal to use such information, we would have 
been dead.
    Senator Allard. Talk to me a little bit about the 
institutional barriers, the stovepiping and that kind of thing 
that may add to complications.
    Secretary Stenbit. I want to refer that to General Newbold, 
but my view is that the ISR assets, whether they are Service by 
Service or whether they are space or air or under the water or 
on top of the water, or whether they are intelligence or not, 
are actually being used in an integrated way. There is a 
process that is run by General Newbold that tiers those assets 
between that which is appropriately done at the theater level 
and that which is more appropriately looked at at a higher 
level.
    Actually, my personal observation is, given that we do not 
have enough of some of the things we would like to have, the 
allocation is done through a process which General Newbold is 
responsible for that looks to me like it works pretty well. It 
is not that we do not have disagreements, but there is a good 
management process to work them out.
    Senator Allard. Lieutenant General Newbold.
    General Newbold. Sir, I think the point is a very valid 
one. I think stovepiping seems to be human nature and we have 
to overcome cultural obstacles that lead to that dynamic. I 
think we are doing a good job of that. Things like Goldwater-
Nichols made a step toward the cultural shift by making people 
understand things beyond their realm.
    We have to go beyond that as well. We slowly adapt to the 
potential of new systems and platforms. Predator is a good 
example but there are other ones. I would like to think that 
with the advent of Joint Forces Command (JFCOM), the way in 
which we support the warfighter encourages people to break down 
some of these barriers within the Department of Defense that 
would mean that the information does not get to the warfighter 
as rapidly as they might.
    I would submit as well, sir, that outside the Department of 
Defense, particularly with some of the other agencies in town, 
we have probably been more integrated than we ever have been in 
the past. Not good enough yet, very clearly, but I am in nearly 
daily communication with the Central Intelligence Agency, as an 
example. But I or my people are also in daily communication 
with the FAA, with the FBI, and the alphabet soup of other 
agencies. We are growing in this, but I think I would be 
dishonest if I did not say that those stovepipes still exist to 
some degree.
    Senator Allard. Let me move to commercial imagery. This 
year there was a proposal to include additional funding for 
commercial imagery in the budget request. I am concerned that 
perhaps we are not committed enough to going ahead with the 
commercial side as to what is happening in NIMA. It seems to me 
a fair amount of that can be contracted out. Does the 
administration still believe that encouraging the development 
of second generation commercial imagery satellites is 
important? Then the follow-up question would be, do you think 
these satellites could represent a useful ISR capability?
    Secretary Stenbit. Let me start from the budget request. We 
have come to the conclusion--which is not quite the question 
you asked, but let me at least say where we were--we would like 
to take value-added products from the industrial base that use 
commercial imagery as their source, as opposed to using our 
imagery as their source, and not do this middle-man thing, 
which is buy the picture and then hand it to somebody else to 
make a map.
    So where we are headed with the money that is on the table, 
and I believe that NIMA is with the program, is we are moving 
towards using the commercial imagery base as the source for 
value-added products, which are basically maps, charts, the 
TPED data base, and the program which I can never remember the 
old acronym nor the new one, but it is basically the 
computerized representation of the earth.
    It has turned out as well that some of the images coming 
from commercial satellites have been used for ISR purposes as 
well. So, that has been an interesting surge capability, but I 
think that probably is not the long-term stable way to use the 
industrial base. Now, do they need a second generation set of 
imagery satellites in order to provide the maps with the 
precision that we need is a technical issue? Certainly at the 
level where we have the job today, we can already do it with 
the existing systems.
    So, we are going to count on the existing systems being at 
least as good as and perhaps better into the future in order to 
accomplish this goal of having the value-added services come 
from commercial satellites.
    Senator Allard. Are you talking about the existing systems 
within NIMA or existing commercial systems?
    Secretary Stenbit. No, no, no, existing commercial systems. 
Maybe I over-listened to what you said.
    Senator Allard. No, you are right.
    Secretary Stenbit. We do need at least as good as we have 
now, but we are fully capable and have processes to accept now, 
through a measured process, that somebody can deliver maps at 
the required accuracy to meet the NIMA requirements. NIMA is 
now prepared to have people bring their processes forward to 
evaluate them, to do the quality control, and then take the 
maps from those people. So what we are trying to do is to get 
the people that do the processing of the images to make the 
maps or the charts, buy the commercial images from the 
companies, and that we end up with the maps. Because that is 
what we are after. We are after the maps, not necessarily the 
picture.
    That is where we are headed. That is the plan. We have a 
lot of money programmed both into the 2003 budget but also into 
the out years to really execute on that.
    Senator Allard. Thank you for your clarification of your 
answer. Mr. Chairman.
    Senator Reed. Thank you, Senator Allard. General Newbold, 
Senator Allard in his opening comments touched upon the issue 
of these low-density, high-demand assets, for example JSTARS 
and other systems. Could you outline for us which ISR platforms 
were classified or would be classified as low-density, high-
demand during Operation Enduring Freedom?
    General Newbold. Yes sir, the fact that we are using them 
in Operation Enduring Freedom leads them to have a global 
deficiency, so we look at it globally. Among those platforms, 
the two that trouble me the most are the AWACS and the U-2. The 
AWACS because, frankly we did not anticipate we would need 15 
AWACS in the defense of the continental United States. We have 
been fortunate to have the NATO AWACS supplement our 
requirements there.
    In the case of the U-2, it is not so much the platforms as 
the crews that are in short supply. We are about to alleviate 
that stress to some degree by bringing some of those assets 
home. We have other platforms that are in a surge or in fact 
even beyond the surge stage, above max-surge stage. They 
include things like the Rivet Joint aircraft, the RC-135.
    We have used more Predator systems than we had available at 
the beginning of the conflict. Of course, Global Hawk is still 
a developmental system, so the fact that it is deployed in a 
developmental status is straining the system. Other platforms 
include JSTARS, EP-3s, all of them used in innovative ways, 
non-traditional ways, in deployments that have exceeded the 
peacetime metrics. That is a main point I would like to 
emphasize in my response.
    When we establish metrics for low-density, high-demand 
assets we did it to be able to sustain the deployment of these 
assets during peacetime. So while our terminology is that we 
are above a surge capacity in those, in wartime the pilots, the 
maintainers, those that source them like a Service, and in fact 
the warfighting CINCs, all recognize that in wartime much of 
the traditional terminology that applies to surge status does 
not apply anymore.
    We have been able to maintain aircraft beyond our 
expectations, probably through the hard work of individuals. We 
have been able to keep assets deployed and people deployed more 
than we would on a peacetime basis. Over time, this will all 
cause us to pay a price.
    Fortunately, we have some more platforms that have been 
either requested, sir, that you have authorized, and over time 
will have less strain on the system. Of course, rising 
expectations may mean more requirements, but in essence we have 
a complete spectrum of assets that are in surge status. We are 
managing those and we will change the way we distribute these 
in the future.
    Senator Reed. Thank you. Mr. Secretary, following on the 
General's comments, over time you are going to have to develop 
a plan to address these surge assets. Could you give us an idea 
of your thinking in that regard now?
    Secretary Stenbit. There is actually quite a lot of 
activity, as I said, in the fiscal year 2003 budget and also in 
the planning for the out years, where in each of the cases that 
we were faced with in the Defense Emergency Reserve Fund (DERF) 
request and in the supplemental request and then the fiscal 
year 2003 budget, many of these kinds of questions come up 
about do we buy more of the old ones or do we get on with 
transforming to the new ones? We did our best to come to those 
kinds of conclusions.
    For instance, in the Rivet Joint case, the JCS wanted two 
of the old ones as fast as possible. We, not for bureaucratic 
reasons but I think for good sound reasons, split the baby in 
half and bought one old one and said the first new one is going 
to get there as fast as possible. That then begs the question 
about what platform does it go on? Is the platform the same for 
the Navy and the Air Force or can they be on different 
platforms?
    Those issues are really very vigorously under debate at the 
present moment. There is no question in anybody's mind that we 
are going to recapitalize the aircraft carriers of the ISR, and 
it will be a commercial system that has commercial kinds of 
maintenance and support issues. So we are not talking about 
whether we are going to build one or use a commercial version. 
Is it a 767? Is it a 737? Is it two of them? How does that go? 
What is the relation to the tankers, et cetera?
    Those are very real questions that cannot be answered 
instantaneously. But from my point of view, in the how do you 
put the things inside those airplanes that make them work, we 
have some major issues that we have been moving forward for a 
while. One is an upgraded radar which is called RTIP, and that 
is programmed to go into Global Hawks and other platforms and 
in the new ones as well.
    In the airborne SIGINT world we had a failure in the low-
band subsystem and we are currently running a competition 
between the Army and the Air Force to determine which will be 
the lead Service to go get that thing back on track. But we do 
have a high-band system that can be the basis of an 
architecture to move forward. So, we are moving forward as the 
requirements are moving and as the platform choices are being 
made to make sure that there are the appropriate sensors and 
communications that go in those aircraft.
    Senator Reed. Thank you, Mr. Secretary. Let me ask one more 
question and then turn to Senator Allard for his round. General 
Newbold, I understand that the Services are the organizations 
which nominate these systems or these platforms to go on the 
list of low-density, high-demand assets. As a result, I am also 
told that the EP-3, which you mentioned, is not on the formal 
list, which raises the question: Are the Services the 
appropriate entities to make these nominations? Might it not be 
the CINCs or might it not be some other agency within the 
Department of Defense that could better do that?
    General Newbold. I'd like to provide a couple of comments 
in response. One of them is a very specific one, sir, and that 
is on the EP-3. The EP-3 has been nominated recently by the 
Navy to be an HD/LD platform.
    But the essence of your question is do we have a central 
authority who will look more broadly to establish what is in 
short supply or not? It could be, as a matter of fact I would 
submit, that it probably is the Joint Staff who has to take a 
more active role in management. In truth we have since 
September 11, sir.
    We need to formalize the expanded role that we have 
undertaken since then. The Services will always have an 
appropriate role in that. They have texture that we do not to 
the wear and tear on individuals because, sir, what goes into 
establishing the strain on a system is not only the degree to 
which we can sustain the platform, but the air crews. Beyond 
the air crews to the maintainers of the aircraft. For example, 
on the U-2 when we will upgrade the sensor package, and on the 
RC-135 when we will complete the engine rebuilds on those or 
replacement of the engines on that.
    So, I think it is a combination, sir. The Services have a 
role that we cannot duplicate. We need to take a more active 
role in defining the requirements from the CINCs, and probably 
in a collaborative way, sir, we will come up with a better 
system.
    Senator Reed. Thank you very much.
    Senator Allard.
    Senator Allard. Where do you see the gaps in our ISR 
capabilities; and apply those to your fiscal year 2003 budget 
proposal. Where do you think the greatest shortfall might be in 
the fiscal year 2003 budget proposal? Lieutenant General 
Newbold, it looks like you are first.
    General Newbold. Yes, sir, I noticed that.
    Senator Reed. You have been nominated.
    General Newbold. The gaps--I am an authority--probably a 
surprise sir, first of all I'd like to mention something and 
then I will get to the detailed question as it relates to the 
ISR platforms. HUMINT, human intelligence, probably preoccupies 
my thoughts as much as any platform. I think there have been 
some notable improvements, and the Secretary of Defense has 
some initiatives under way to improve DOD capabilities in that 
regard. But, to supplement the enormously expanded capabilities 
we have in the air, space, and ground-based technology, there 
are some things we cannot accomplish, and human intelligence in 
that regard, native or U.S., has to be a robust capability.
    So, the obvious one beyond that in the technological realm 
is the UAV. A grand success story, not only in Operation 
Enduring Freedom in Afghanistan, but of course before that 
going all the way back to the Persian Gulf War and to the Iraq 
units that surrendered to one to Operation Allied Force in 
Kosovo with the first use of the Predator. They have been 
invaluable in Afghanistan.
    Gaps and seams result from the paucity, the relative 
scarceness of those. That is being addressed, but there is a 
significant demand from the other combatant commanders in chief 
for UAVs in their areas, whether they are European Command, 
Southern Command, Pacific Command, and in fact in the United 
States. So, I would call the UAVs a gap which is being 
corrected.
    I would say that some of the satellite platforms, the 
fragility of that system concerns me a bit, sir. The airborne 
platforms, I think Mr. Stenbit talked about the replacement of 
the platforms themselves, not just the systems that go on them. 
I would like to start off with those off the top of my head, 
sir, and then pass it back.
    Senator Allard. Well, I am not at all surprised about your 
comments about HUMINT, considering what has happened over the 
last 3 or 4 years. But if you look at the 2003 budget, in your 
view, what do you think are the key shortfalls that we have, 
and please just pull one out that strikes you as perhaps a 
mistake that we should better fund.
    General Newbold. Sir, the 2003 budget is addressing 
adequately things like the UAVs. As a matter of fact, I think 
Admiral Szemborski will tell you that the production line is at 
capacity with the 2003 expectations. Frankly, sir, I think the 
2003 budget has done a good job of addressing the shortfalls in 
a reasonable way. Applying more money to some of the systems 
would not result in a cure.
    On the HUMINT side, the problem there, as you know better 
than I do, is the time it takes to grow capability. Although 
money is applied, it can take up to 5 years to have a 
reasonable expectation of a good capability on the ground.
    Senator Allard. We understand there is increased funding 
for UAVs, and also DOD has created a UAV planning task force. 
Can you share with this subcommittee the charter of this task 
force and what do you expect it to achieve?
    General Newbold. I am going to see if Admiral Szemborski is 
looking my way, sir. Stan, are you?
    Admiral Szemborski. Yes, let me start out by saying in the 
area of ISR, several years ago the JROC commissioned the ISR 
JWCA team to conduct a study called the Joint Airborne 
Reconnaissance Assessment. That assessment was completed before 
September 11, but the primary recommendations out of that 
assessment were that 18 Rivet Joints and 16 EP-3s are required 
to really source our assessment of what we needed in those 
areas. That was the primary recommendation.
    Between what was submitted in the fiscal year 2002 
supplementals and the fiscal year 2003 budget, we have 
submitted requests for those platforms to come on line. Now we 
are in the process of reassessing that entire study right now, 
post-September 11. We expect that that study will be completed 
around the July time frame.
    Now as far as UAVs go in this task force, there is a task 
force that has been formed by OSD in C\3\I to start that and we 
have teamed our JROC members with that study so that we can 
together assess where, from an operational and a technical 
standpoint, we can go with UAVs in the future. We are very much 
with C\3\I in that effort and expect in the next several months 
we will be able to come up with some conclusions from it.
    Secretary Stenbit. It is not only C\3\I, it is AT&L as 
well, because basically they worry about the platforms and we 
worry about what goes in them. But to get to your first 
question, in my opening statement I told you what I thought the 
big gap was, which is we have failed to spend money to 
recapitalize the depreciation on new ways to steal secrets. 
There is quite a list that is inappropriate at the open level 
to go through, but in the fiscal year 2003 budget and with some 
kicking off earlier in fiscal year 2002 through the DERF, we 
really did fund some of these new ideas. I would be happy to 
talk about that in a slightly different context.
    Almost all of the decisions on which I participated in the 
fiscal year 2003 budget came--went and looked down these 
items--some of them where we needed more of what we already 
have, we have talked about some of those. There were some 
satellite cases that have gone into the DSRP where the Defense 
Department felt that we needed more than what would have 
naturally have come out of the National Foreign Intelligence 
Program (NFIP), for instance. We put the money in for those.
    In the case of--whether it was UAVs or whether it was some 
of these other new systems, we really took a hard look at what 
would it take to do a reasonably aggressive program, but not be 
getting ourselves into too much of an over-hasty view of what 
we could accomplish. There is a lot of effort moving into 
addressing shortfalls in the sources of information.
    But I must second what General Newbold said about the human 
aspects, and I am not talking about the analyst part and I am 
not only talking about people out in embassies and doing 
spying. There are a lot of things that we need to be doing with 
people on the ground that we have not done as much as we should 
have. That is another big area where there is funding provided.
    Senator Allard. The Chairman has been very gracious with my 
time and I appreciate that. I want to wrap up with this 
question: You talked about your interest in maps as opposed to 
images, and my question is how will we get these commercial 
products without commercial imagery satellites? Are we going to 
be using satellites that are built and operated by American 
companies or foreign companies? How do we establish that?
    Secretary Stenbit. We cannot do it without the commercial 
satellites. The intent is that the infrastructure of people 
that NIMA has and their rather broad base of contractors who 
can, in fact, manipulate images to do maps. They used to do 
that by taking our pictures and doing it.
    What we are trying to do is to get them to go to Iconos and 
the newly launched one, which I forget the name of, which are 
both American-based and get their source material from those 
two companies. So the answer is yes, we definitely need the 
commercial imagery sources to do what I said. What we are 
trying to do is not buy the pictures and hand it to somebody, 
but let them buy the pictures.
    Senator Allard. Thank you. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Allard. We have now 
concluded the open session of the hearing. The record will 
remain open until close of business Monday for any questions 
for the record that any members may wish to submit. We will 
adjourn and reconvene in S-407 in 10 minutes. Thank you.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Ben Nelson

                         CYBER ASSET PROTECTION

    1. Senator Ben Nelson. Secretary Stenbit, we have learned that 
China, North Korea, Iran, Iraq, and other nations are attempting to 
develop cyber-attack capabilities that could threaten our military's 
information technology on which many of our surveillance assets are 
based. Where do we stand on development of a more robust system to 
protect these assets and what is in this year's budget request that 
will help get us there?
    Secretary Stenbit. A cyber-attack on our military's information 
technology would not affect our surveillance assets. The systems that 
control the surveillance operations are tightly controlled and 
completely isolated from any outside connection that could provide a 
cyber-attack access to the system. In addition, the actual control 
links are encrypted with NSA approved, Type 1 cryptography, and 
commands are authenticated. During platform development, there is a 
significant system security engineering effort between NSA and NRO to 
make sure that all avenues of attack, including cyber-attack, are 
addressed and countermeasures developed.
    A cyber-attack on our military's information technology, though, 
would affect the ability to process, analyze, and report information 
collected from these assets. We have a number of efforts underway to 
develop protection, as well as detection, technology to help us address 
these concerns. Our Information Assurance and Information Operations 
programs are addressing just these issues. The Department is 
modernizing the strongest encryption technology to keep pace with the 
rapid changes in information technology. Network sensor development and 
deployment is helping us identify attacks before they cause us damage. 
Pervasive use of our defense-in-depth strategy, constructing defenses 
and safeguards in successive layers, is improving our protection from 
cyber-attack.
    Overall funding in the fiscal year 2003 President's budget for 
Computer Network Defense programs has increased more than 50 percent 
compared to fiscal year 2001. Cyber-attack prevention is one of the 
Department's highest priorities, which presents a formidable challenge. 
We will continue to work at meeting these challenges head-on.

                         BANDWIDTH CAPABILITIES

    2. Senator Ben Nelson. Secretary Stenbit, we need equipment that 
allows us to locate and maintain surveillance of the enemy while 
preserving American lives. It appears that a limiting factor in ISR 
equipment is bandwidth, as it was in Kosovo in 1999. We have the 
technology for the sensors, the surveillance platforms, and the 
munitions but the real problem is bandwidth, which has been hindered by 
a slowing satellite industry. What are we doing to increase our 
bandwidth capabilities and does this budget support increasing those 
capabilities?
    Secretary Stenbit. The 2003 budget contains significant investments 
in laser-based communications, both on the ground and in space, to 
create a ubiquitous, trustworthy, dependable network where bandwidth is 
not a constraint for users. The Global Information Grid (GIG) Bandwidth 
Expansion program will provide some key DOD sites with very wideband 
terrestrial-based capability starting in fiscal year 2003. When 
completed in fiscal year 2004, this initiative will provide assured, 
high bandwidth terrestrial network access to DOD's highest priority 
locations. The transformational communications satellites will provide 
the space-based part of this optical network. These investments, along 
with investments in Wideband Gap-filler and Extended Tether Program 
will ensure that bandwidth is not a limiting factor in ISR collection, 
processing, or dissemination capabilities in the future.

                              RIVET JOINT

    3. Senator Ben Nelson. General Newbold, precision engagement 
technology and ISR assets rely heavily on the RC-135 (Rivet Joint) as 
well as other platforms. We await delivery of Rivet Joint numbers 17 
and 18 as well as their trainers. Does this budget support the high 
demand for this air frame?
    General Newbold. Yes. The fiscal year 2003 President's budget 
request, the fiscal year 2001 Emergency Supplemental Appropriations Act 
for Recovery From and Response to Terrorist Attacks on the U.S., and 
fiscal year 2002 Defense Budget provide significant investments in the 
RC-135 fleet. When taken together, these investments will yield long-
term operational benefits and solve systemic training deficiencies.
    Consistent with the findings of the 2000 Joint Airborne 
Reconnaissance Assessment (JARA) and a subsequent Air Force report, the 
Department requested funding for two additional Rivet Joints in the 
first Combating Terrorism Supplemental. Congress agreed to the 
acquisition of one additional RC-135. Rivet Joint number 17 has been 
funded and is under construction. In addition to this welcome fleet 
increase, additional training resources were also fully funded. These 
training resources include one additional TC-135 training aircraft and 
a new full-motion simulator for flight crew training.
    The resulting fleet of Rivet Joint aircraft will be 17 RC-135 
mission aircraft and 3 training aircraft. The RC-135 program to re-
engine aircraft should provide additional capacity. In the meantime, we 
will carefully manage the distribution of RC-135 aircraft to meet CINC 
demands.

    [Whereupon, at 3:30 p.m, the subcommittee adjourned.]

                                 <all>

</pre></body></html>
